                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
      UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                     Quarterly Report to Congress
                                                                                October 29, 2014
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                                      C
                                                                                                                                 INSPE TOR GEN
                                                                                                                            AL                E
                                                                                                                       CI




                                                                                                                                                        RA
                                                                                                                   E
                                                                                                                 SP




                                                                                                                                                            L
Message from the Special Inspector General




                                                                                                                                                            M
                                                                                                                TRO




                                                                                                                                                        RA
                                                                                                                      LE




                                                                                                                 UB




                                                                                                                                                   OG
                                                                                                                           DA                           R
                                                                                                                                 S S E T R E LI E F P



The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) has escalated its
law enforcement of TARP related crime because: (1) our expertise in uncovering financial fraud schemes is getting
deeper with each case leading to effeciencies; and (2) we are conducting investigations with a sense of urgency.
       • Over the past 2 years, the number of defendants charged with a crime investigated by SIGTARP nearly
          doubled (95%) to 212 defendants (135 of which were senior officers).
We seek individual accountability. Over the past two years, SIGTARP has escalated our support of prosecutions of
TARP related crime as follows:
       • The number of defendants convicted of a crime investigated by SIGTARP doubled to 146.
       • The number of defendants sentenced by courts to prison resulting from a SIGTARP investigation increased
          by 150% from 35 defendants to 87 defendants.
       • Because of the high dollar amounts involved, the number of victims, and the sophistication of the criminal
          schemes that SIGTARP investigates, prison sentences of defendants SIGTARP investigates are lengthy,
          averaging 64 months, nearly double the 36 month national average for white collar crimes.
We seek corporate accountability and justice.
       • Three SIGTARP investigations where we uncovered criminal conduct at the corporate level were resolved
          in 2014: (1) civil liability under the FIRREA Act by Bank of America for a criminal scheme related
          to the “Hustle” –the court fined the bank $1.27 billion, and a bank officer $1 million; (2) DOJ non-
          prosecution agreement based on corporate changes and $25 million fine against broker-dealer Jeffries for
          fraud regarding RMBS sold to customers including TARP’s PPIP program; and (3) DOJ nonprosecution
          agreement based on corporate changes and $320 million in penalties and victim fund by SunTrust for
          misrepresentations to homeowners and Treasury in TARP’s HAMP program.
SIGTARP has escalated efforts to bring back money to victims and the Government.
       • Court orders and Government agreements for the payment of money based on SIGTARP investigations
          have increased 78% over the last two years to $7.38 billion.
       • Over the past two years, SIGTARP has ramped up efforts to aid in recouping money from defendants
          investigated by SIGTARP, resulting in an eight-fold increase in actual dollars recovered to $1.4 billion.
We will not be deterred from our mission, and our accelerated law enforcement efforts are proof of our
commitment. This report also discusses homeowners lost in the shuffle when their mortgage was transferred
without their HAMP application or modification, the underutilized Home Affordable Unemployment Program,
SIGTARP recommendations unimplemented by Treasury, and SIGTARP’s audit on Treasury’s approval of excessive
pay for the top 25 executives at GM and Ally Financial (including pay of at least $1 million each, with average pay
at $3 million) while Treasury was writing off billions in losses for each company on TARP’s official books.


                                                Respectfully,




                                                CHRISTY L. ROMERO
                                                Special Inspector General
CONTENTS
Executive Summary	3
  SIGTARP Has Escalated Efforts to Find Evidence of Bailout-Related Crime 	 8
  Although Prosecution of TARP-Related Crime Takes Time, SIGTARP
  Has Escalated Efforts to Support Successful Prosecutions to Conviction	  11
  87 Defendants Investigated by SIGTARP Have Been Sentenced to Prison
  With an Average Prison Sentence of 64 Months 	                           12
  SIGTARP Has Escalated Efforts to Bring Back to Victims and the
  Government Money Lost to TARP Related Crime and Other Violations
  of the Law & Penalties	                                                  14


Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                            17
  SIGTARP Creation and Statutory Authority	                               19
  SIGTARP Oversight Activities 	                                          19
  The SIGTARP Organization	                                               61


Section 2
SIGTARP RECOMMENDATIONS	                                      63
  Unimplemented Recommendations Regarding Excessive Executive
  Compensation	65
  Update on Treasury’s Report on the Use of TARP Funds	       67
  SIGTARP Recommendations on Housing Programs 	               69


Section 3
HOMEOWNERS CAN GET LOST IN THE SHUFFLE AND SUFFER HARM
WHEN THEIR SERVICER TRANSFERS THEIR MORTGAGE BUT NOT THE
HAMP APPLICATION OR MODIFICATION	                               99
  Introduction	101
  Homeowners Continue to Face Barriers to HAMP Assistance When
  Their Mortgages Are Transferred to Another Servicer 	        103
  Homeowner Complaints About HAMP Problems Caused by Servicing
  Transfers Have Escalated	                                    106
  Treasury Oversight of HAMP Mortgage Servicing Transfers	     108

Section 4
TARP OVERVIEW	                                                          113
  TARP Funds Update	                                                    115
  TARP Programs Update	                                                 118
  Cost Estimates	                                                       119
  TARP Programs	                                                        122
  Housing Support Programs	                                             129
  Financial Institution Support Programs	                               230
  Automotive Industry Support Programs	                                 295
  Asset Support Programs	                                               303
Section 5
TARP OPERATIONS AND ADMINISTRATION	                                 321
  TARP Administrative and Program Operating Expenditures	           323
  Financial Agents	                                                 324


Section 6
MONITORING INTERCONNECTIONS OF THE LARGEST TARP BANKS	              337
 Monitoring Interconnections of the Largest TARP Banks	             339
 Indicators of Interconnectedness	                                  363

  Endnotes	370

APPENDICES	398
  A.	 Glossary	398
  B.	 Acronyms and Abbreviations	                                    401
  C.	 Reporting Requirements	                                        403
  D.	Transaction Detail	                                             407
  E.	 Debt Agreements, Equity Agreements, and
      Dividend/Interest Payments	                                    568
  F.	 HAMP Modification Statistics	                                  572
  G.	Cross-Reference of Report to the Inspector General Act of 1978	 574
  H.	Public Announcements of Audits	                                 575
  I.	 Key Oversight Reports and Testimony	                           576
  J.	 Peer Review Results	                                           578
  K.	 Organizational Chart 	                                         579
  L.	 Correspondence	580
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   5




SIGTARP has always pushed for a never-before-seen level of transparency for
the American people who funded the bailout. We made banks tell us what they
did with the TARP funds; we pushed to have all TARP contracts made available
online; we publish plain English reports every three months on the TARP bailout
and SIGTARP’s work; we conduct deep dive audits through interviews and reviews
of e-mails and other documents, reaching our own conclusions on why certain
bailout decisions were made—conclusions that we make public. This includes
an important deep dive we released this quarter on Treasury’s approval to reward
the top 25 executives at GM and Ally Financial with excessive pay (including pay
of at least $1 million each, with average pay at $3 million) while Treasury was
simultaneously writing off billions in losses for each company in its formal TARP
accounting books and records. We also want to bring as much transparency as
we can to SIGTARP’s law enforcement efforts, so that the American people know
that SIGTARP is on watch detecting and investigating bailout-related crime, and
holding criminals accountable through convictions, prison sentences, forfeiture of
criminal proceeds, and penalties.
    Over the past two years, SIGTARP has escalated its criminal law enforcement
of TARP bailout-related crime—the number of defendants charged with a crime
investigated by SIGTARP nearly doubled (95%) from 109 defendants charged by
October 2012 to 212 defendants charged by October 2014. Just as the FBI and
other law enforcement agencies, SIGTARP is responsible for detecting crime,
unraveling criminal schemes, and finding the evidence needed by prosecutors to
charge defendants with committing crime. However, SIGTARP’s jurisdiction is
narrowly focused on those crimes that involve TARP, such as crimes by or against
a TARP bailout recipient or involving a TARP program. These are not easy crimes
to discover and investigate. They are typically crimes purposely designed to be
concealed. SIGTARP special agents, investigators, and analysts use classic law
enforcement techniques, such as analyzing thousands of documents, interviewing
witnesses, using cooperative witnesses, and surveillance, and we combine that with
significant forensic analysis to detect and unravel sophisticated complex financial
crimes that were intentionally designed to be hidden. Our expertise in uncovering
complex financial fraud schemes that were purposely designed to be concealed
is getting deeper with each case, allowing us to target criminal conduct in other
cases more quickly, before witnesses’ memories fade and evidence grows stale. This
expertise and our conducting criminal investigations with a sense of urgency have
led SIGTARP over the last two years to ramp up our law enforcement efforts.
    SIGTARP has not ramped up its
law enforcement efforts in order to
increase statistics, but instead to bring       We at SIGTARP have escalated
accountability and justice in meaningful        our efforts to seek individual and
cases that will make a difference.
                                                corporate accountability for TARP-
SIGTARP focuses its resources on those
cases where the crime is egregious,             related crime. There must be real
where prosecution could deter future            consequences for breaking the law.
crime by putting individuals and
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           corporations on notice of what constitutes criminal activity, and where victims need
                                           to be protected.


                                           •	 Accountability and justice are served when an individual is convicted by a
                                              judge or jury. SIGTARP does not investigate a case and then turn it over to a
                                              prosecutor without conducting further work. We work hand-in-hand with the
                                              prosecutor to ensure a successful conviction. To the extent that the defendant
                                              does not plead guilty, SIGTARP will prepare for trial with the prosecutor.
                                              Four cases investigated by SIGTARP went to jury trial this past year, requiring
                                              SIGTARP’s heavy involvement.
                                              çç Over the past two years, SIGTARP has escalated its support of criminal
                                                  prosecutions of TARP bailout-related crime—doubling the number
                                                  of defendants convicted of a crime investigated by SIGTARP from 71
                                                  defendants convicted by October 2012 to 146 in October 2014.
                                           •	 Court sentencing following a conviction brings individual accountability,
                                              often in the form of serious jail time. Over the past two years, the number of
                                              defendants courts sentenced to prison resulting from a SIGTARP investigation
                                              increased by 150% to 87 defendants.
                                           •	 Because of the high dollar amounts involved, the number of victims, and
                                              the sophistication of the criminal schemes that SIGTARP investigates,
                                              prison sentences of defendants SIGTARP investigates are lengthy,
                                              averaging 64 months, nearly double the 36 month national average for
                                              white collar crimes.
                                           •	 We also seek corporate accountability for criminal conduct. This can come in
                                              the form of holding a corporation responsible for criminal conduct or through
                                              the conviction of senior management of a corporation. Several SIGTARP
                                              investigations resulted in criminal convictions of the top management at
                                              institutions. Additionally, three SIGTARP investigations where we uncovered
                                              criminal conduct at the corporate level were resolved in 2014:
                                              çç Bank of America “Hustle” jury trial: SIGTARP’s investigation with the
                                                  U.S. Attorney for the Southern District of New York resulted in a Federal
                                                  jury trial in New York, with the jury finding that Bank of America and
                                                  one of its officers Rebecca Mairone had engaged in criminal misconduct.
                                                  The Federal court’s July 30, 2014 order stated, “the essential crime found
                                                  by the jury was a scheme to induce Fannie Mae and/or Freddie Mac to
                                                  purchase mortgage loans originated through the High Speed Swim Lane by
                                                  misrepresenting that the loans were of higher quality than they were.” The
                                                  court’s opinion described the bank’s process known as the “Hustle” as, “the
                                                  vehicle for a brazen fraud by the defendants, driven by hunger for profits
                                                  and oblivious to the harms thereby visited, not just on the immediate victims
                                                  but also on the financial system as a whole.” In ordering penalties of $1.27
                                                  billion against Bank of America and $1 million against defendant Mairone,
                                                  the Federal court’s order found that the law the Government sued under
                                                  (the Financial Institutions Reform, Recovery, and Enforcement Act, known
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   7




        as FIRREA), “predicated civil liability on the Government proving criminal
        violations (here mail fraud and wire fraud), by a preponderance of the
        evidence….In short, FIRREA seeks to impose substantial civil penalties for
        criminal misconduct affecting federally insured financial institutions.”
   çç Investment bank and broker-dealer Jefferies “Residential Mortgage
        Backed Securities Fraud” Case: SIGTARP’s investigation with the
        U.S. Attorney for the District of Connecticut uncovered that brokers
        at Jefferies fraudulently increased the profitability of certain residential
        mortgage-backed securities (“RMBS”) trades for Jefferies, including
        by misrepresenting the RMBS seller’s asking price to the buyer and by
        misrepresenting the buyer’s asking price to the seller. We also uncovered
        that brokers at Jefferies concealed that RMBS were being sold from
        Jefferies’s inventory in order to charge buyers extra commissions to
        which Jefferies was not entitled. These misrepresentations were made to
        customers, including PPIP funds that traded with TARP money. As part
        of a non-prosecution agreement, Jefferies paid $25 million and agreed to
        corporate changes. Jefferies trader Jesse Litvak was sentenced to prison
        after being convicted by a jury after trial as a result of crimes investigated by
        SIGTARP.
   çç SunTrust Fraud Related to HAMP Foreclosure Prevention Program:
        SIGTARP’s investigation with the U.S. Attorney for the Western District
        of Virginia uncovered that SunTrust misled numerous homeowners who
        sought mortgage relief through
        HAMP. The investigation                  SIGTARP has escalated its efforts to
        uncovered that SunTrust put
        piles of unopened homeowners’            bring back money to the Government
        HAMP applications in a room              and Victims.
        where the floor buckled under
        the sheer weight of unopened packages. Treasury was lied to. Homeowners
        were improperly foreclosed on. As part of a non-prosecution agreement,
        SunTrust agreed to pay $320 million to victims and the Government, and
        agreed to corporate changes.
•	 Accountability also comes in the form of dollars because no one should be
   allowed to keep the proceeds of crime or other violations of the law, and because
   penalties serve a punitive and deterrent effect. Court orders and Government
   agreements for the return of money based on SIGTARP investigations have
   increased 78% over the last two years from $4.15 billion to $7.38 billion.
•	 An important part of SIGTARP’s mission involves assisting in the collection of
   forfeited cash, identifying property purchased with the proceeds of violations of
   the law, and for the restitution to victims and collection of penalties. Recovery
   of court-ordered money based on SIGTARP investigations is up nearly
   eight-fold since 2012, totaling more than $1.4 billion, which includes $1
   billion of the Department of Justice’s $16 billion settlement with Bank of
   America.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           SIGTARP HAS ESCALATED EFFORTS TO FIND
                                           EVIDENCE OF BAILOUT-RELATED CRIME
                                           Criminal schemes threaten to undo the confidence in our financial system that
                                           TARP was created to instill. Many of these fraud schemes began before the
                                           financial crisis, some of which continued until SIGTARP and its law enforcement
                                           partners put a stop to them, or stopped when the bank failed. History shows that a
                                           coordinated and collaborative approach to rooting out fraud can yield results, but
                                           often take many years. Over a nine-year span related to the savings and loan crisis
                                           (“S&L crisis”), regulators made thousands of criminal referrals based on possible
                                           criminal wrongdoing to law enforcement. These referrals led to the conviction of
                                           more than one thousand defendants, in cases that were often smaller in dollar
                                           size and complexity than the cases SIGTARP investigates. According to a 1993
                                           GAO study, 55% of these referrals to law enforcement out of the S&L crisis were
                                           for estimated dollar losses under $25,000, with only 15% at $1 million or more.
                                           In addition, the GAO found that nearly 70% of those sentenced out of the S&L
                                           crisis were sentenced to prison for less than 2 years (24 months), compared to the
                                           average sentence of 64 months from a SIGTARP-investigated case. According to
                                           GAO’s analysis of data from the Department of Justice, out of 304 cases involving
                                           thrifts in the S&L crisis at that time, the alleged fraud for all cases was $2.9 billion,
                                           which equals the total fraud investigated by SIGTARP in just one of its cases—its
                                           investigation of Colonial Bank and Taylor, Bean and Whittaker. SIGTARP has not
                                           had the benefit of very many criminal referrals from regulators. Without referrals
                                           from regulators, SIGTARP operates at a disadvantage.
                                               Challenged by the lack of referrals from regulators, SIGTARP proactively
                                           developed an expertise in identifying crime related to the TARP bailout by analyzing
                                                                                         information on institutions, corporate
                                                                                         insiders, and suspected co-conspirators
                                             SIGTARP has increased the speed at          that could serve as red flags. With
                                             which it gathers evidence so that in        each case, SIGTARP’s knowledge of
                                                                                         potential red flags grew. However, even
                                             most cases investigations result in         with the red flags SIGTARP proactively
                                             criminal charges in under two years’        identified, SIGTARP must conduct the
                                                                                         hard task of determining whether there
                                             time, which would then be followed
                                                                                         is evidence of a crime using traditional
                                             by the time spent for prosecution,          law enforcement techniques including
                                             conviction, sentencing, and recovery        surveillance operations and executing
                                                                                         search warrants for electronic evidence
                                             of monies ordered. SIGTARP                  of a crime. SIGTARP computer forensic
                                             continues to open new investigations.       agents are able to obtain electronic
                                                                                         materials and evidence, and process
                                                                                         these materials efficiently, allowing
                                           investigations to proceed at an accelerated pace in unraveling complex financial
                                           schemes.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   9




    Although investigations of complex financial crime designed to be concealed
takes time, SIGTARP has honed its expertise to identify and investigate TARP-
related crime, and gained efficiencies with each case, resulting in a rapid rise in
the number of individuals charged with a crime SIGTARP investigated. SIGTARP’s
investigations have led to criminal charges against 212 individuals (a 95% increase
since 2012), including senior officers at banks that applied for or received TARP,
outsiders committing fraud against TARP banks, or other participants in TARP
programs, and scam artists preying on struggling homeowners seeking help from
TARP’s housing program. SIGTARP acts with a calculated urgency to gather
evidence expeditiously to shut down ongoing fraud and bring immediate relief to
victims, including taxpayers whose investment in TARP is threatened by crime.
SIGTARP regularly works with prosecutors to bring charges as our cases unfold,
rather than delaying the timeframe to charge all defendants simultaneously. Figure
ES.1 illustrates the annual increase in defendants charged with TARP-related
crimes. Criminal charges are not evidence of guilt.

             FIGURE ES.1
             ESCALATION IN CRIMINAL CHARGES RESULTING FROM
             SIGTARP INVESTIGATION (CUMULATIVE)
                                            250
            Criminal Charges (Individual)




                                                                                                                           212
                                            200


                                                                                                              154
                                            150

                                                                                                 109
                                            100


                                             50                                   51

                                                                     16
                                                              +14          +35           +58            +45          +58
                                                        2
                                              0
                                                      2009          2010         2011            2012         2013         2014

                                                                                   Fiscal Year

                                                  *Criminal charges are not evidence of guilt.


    Over the past two years, the number of senior officers of a company charged
with crimes investigated by SIGTARP increased by 85% to 135 senior officers
charged. SIGTARP must dispense justice in a fair and rational manner based only
on the facts and the law. No matter how immoral the culture of risk-taking and
greed that might occur at an institution, the law dictates what actions constitute
a crime and requires SIGTARP to gather evidence to prove criminal intent—
knowledge that a person engaged in conduct that was criminal. It can be difficult
to prove criminal intent of senior officers at TARP institutions, particularly the
larger TARP companies where often the hierarchy is designed so that CEOs and
other top officers are shielded from knowledge of detailed operations. This is
where someone inside the company sharing what they know with law enforcement
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            can make a huge difference, as would referrals from regulators. The difficulty in
                                            proving criminal intent at higher levels will not deter SIGTARP from investigating,
                                            and if we can prove it, we will refer it for criminal prosecution every time. Figure
                                            ES.2 shows the annual increase in senior officers charged with TARP-related
                                            crimes. Criminal charges are not evidence of guilt.

                                                           FIGURE ES.2
                                                           INCREASES IN SENIOR OFFICERS CRIMINALLY CHARGED
                                                           FROM SIGTARP INVESTIGATION (CUMULATIVE)
                                                                                                   160
                                                          Senior Officials Charged (Individuals)
                                                                                                   140                                                                            135

                                                                                                   120

                                                                                                   100                                                                98

                                                                                                   80
                                                                                                                                                        73
                                                                                                   60

                                                                                                   40                                    36

                                                                                                   20
                                                                                                                           11
                                                                                                                    +10           +25           +37            +25          +37
                                                                                                    0          1
                                                                                                             2009         2010          2011            2012         2013         2014

                                                                                                                                          Fiscal Year
                                                                                                         *Criminal charges are not evidence of guilt.


                                                Even where there is evidence of violations of the law but not evidence of
                                            criminal intent, SIGTARP does not give up, and we will seek every available
                                            remedy. While we are always investigating to determine whether there is criminal
                                            conduct, civil enforcement and industry bans also make our financial system safer,
                                            bring justice to those harmed, and hold defendants accountable for not abiding
                                            with the law. Working with our prosecutorial partners and civil enforcement
                                            agencies, SIGTARP has aggressively pursued civil actions against institutions
                                            of all sizes, as well as individuals. Over the last two years, civil charges based on
                                            SIGTARP investigations have increased by 58% to 133 individuals and businesses
                                            charged. As of September 30, 2014, 89 senior officers have received bans of varying
                                            length resulting from SIGTARP investigations, including Bank of America’s former
                                            CEO Ken Lewis and its former CFO Joe Price, who this year were banned for 3
                                            years and 18 months respectively under a settlement of the New York Attorney
                                            General’s civil case investigated by SIGTARP. Figure ES.3 demonstrates the annual
                                            increase in defendants charged in TARP-related civil cases.
                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   11




              FIGURE ES.3
              INCREASE IN CIVIL CHARGES OF INDIVIDUALS AND
              INSTITUTIONS FROM SIGTARP INVESTIGATIONS
              (CUMULATIVE)
                  140
                                                                                         133

                  120
                                                                            114

                  100
                                                                84
                   80

                   60                             55

                   40                41

                        23
                   20
                               +18          +14          +29          +30          +19
                    0
                        2009         2010         2011         2012         2013         2014




ALTHOUGH PROSECUTION OF TARP-RELATED
CRIME TAKES TIME, SIGTARP HAS ESCALATED
EFFORTS TO SUPPORT SUCCESSFUL
PROSECUTIONS TO CONVICTION
SIGTARP has ramped up its efforts to aid in the prosecution of TARP-related
crimes. Prosecuting TARP-related crime to successful conviction takes time
and teamwork. To ensure the defendant will be successfully prosecuted by
our prosecutorial partners and convicted by a jury or judge, when SIGTARP
investigates a case, we unravel and collect the evidence required by the law.
SIGTARP agents or investigators are likely to testify at trial and sit at the table with
the prosecutor representing the Government. SIGTARP has been tremendously
successful in supporting convictions. There has been only one defendant
investigated by SIGTARP who was acquitted by a jury, and that happened in a
case against Bank of the Commonwealth officers and co-conspirators, where
the jury convicted 10 other defendants. Out of the 212 defendants criminally
charged resulting from SIGTARP investigations, 146 individuals have already been
convicted, and 65 defendants await trial. More than half (77) of those defendants
have been convicted over the past two years, which required SIGTARP to ramp
up its work to support prosecutions resulting from its investigations. Figure ES.4
shows the annual increase in defendants convicted for TARP-related crimes
investigated by SIGTARP.
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FIGURE ES.4
                                                      CRIMINAL CONVICTIONS RESULTING FROM RAMP UP
                                                      OF SIGTARP’S SUPPORT OF PROSECUTIONS (CUMULATIVE)
                                                                                 160
                                                                                                                                                       146
                                                                                 140




                                                     Convictions (Individuals)
                                                                                 120
                                                                                                                                          112
                                                                                 100

                                                                                 80
                                                                                                                              71
                                                                                 60

                                                                                 40
                                                                                                                 28
                                                                                 20
                                                                                                    9
                                                                                        2     +7          +19          +43          +41          +34
                                                                                  0
                                                                                       2009        2010         2011         2012         2013         2014
                                                                                                                 Fiscal Year




                                            87 DEFENDANTS INVESTIGATED BY SIGTARP
                                            HAVE BEEN SENTENCED TO PRISON WITH AN
                                            AVERAGE PRISON SENTENCE OF 64 MONTHS
                                            When SIGTARP finds evidence of a crime, it will work with its prosecutorial
                                            partners to seek prison sentences for the defendant, to bring justice, remove the
                                            person from society before they can break the law again, and deter those who may
                                            consider breaking the law. Over the past two years, the number of defendants
                                            courts sentenced to prison after a SIGTARP investigation increased by 150%
                                            from 35 defendants in October 2012 to 87 defendants. Figure ES.5 shows
                                            the annual increase in defendants sentenced to prison for TARP-related crimes
                                            investigated by SIGTARP.
                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   13




             FIGURE ES.5
             INCREASE IN DEFENDANTS INVESTIGATED BY SIGTARP
             AND SENTENCED TO PRISON (CUMULATIVE)
                100
                 90                                                                    87
                 80
                 70
                                                                         65
                 60
                 50
                 40
                                                             35
                 30
                 20                             19

                 10
                       1     +2    3     +16          +16          +30          +22
                  0
                      2009        2010         2011         2012         2013         2014


    Some examples of the 87 defendants investigated by SIGTARP and sentenced
to prison include:

•	 Edward Woodard, the former chairman and CEO of the now-failed Bank of
   the Commonwealth, sentenced to 23 years during fiscal year 2014 for fraud on
   the bank’s books and records, including those used to apply for TARP; Stephen
   Fields, former executive vice president of the bank, sentenced to 17 years; Troy
   Brandon Woodard, former vice president of the bank’s subsidiary, sentenced on
   September 30, 2013, to 8 years; co-conspirators Eric Menden sentenced to 14
   years and Stephen Hranowskyj sentenced to 11 years;
•	 Isaak Khafizov, former owner of American Home Recovery, sentenced to 9 years
   in fiscal year 2014 for defrauding hundreds of struggling homeowners trying to
   get into HAMP;
•	 Christopher Godfrey & Dennis Fisher, owners/controllers of HOPE, sentenced
   in fiscal year 2014 to 7 years each for defrauding struggling homeowners trying
   to get into HAMP; and
•	 Lee Farkas, the former chairman of          Prison sentences based on SIGTARP
   Taylor, Bean & Whitaker, sentenced
                                               investigations average 64 months,
   to 30 years for his role in a multi-
   billion dollar fraud scheme that            nearly twice as long as the average
   included an attempt by Colonial             sentence for white collar crime.
   Bank to get TARP funds.

    Of the 146 defendants convicted after a SIGTARP investigation, 14 have
received prison sentences of more than 10 years (See Figure ES.6). The length of
a prison sentence imposed by a court is at a court’s discretion, but generally courts
consider the number of crimes committed and sentencing guidelines for each of
those crimes. SIGTARP regularly investigates bank fraud that carries a maximum
prison sentence of 30 years. Other crimes SIGTARP investigates also carry the
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            possibility of lengthy sentences, including wire and mail fraud affecting a financial
                                            institution (maximum sentence of 30 years), securities fraud (maximum sentence
                                            of 25 years), money laundering (maximum sentence of 20 years), conspiracy to
                                            commit bank fraud (maximum sentence of 30 years), bankruptcy fraud (maximum
                                            sentence of 5 years), false statements (maximum sentence of 5 years), and a 2009
                                            change to the crime of major fraud against the United States to include fraud
                                            related to TARP (maximum sentence of 10 years).
                                                In addition, a court may enhance the recommended sentencing guidelines
                                            based on factors present such as the amount of money involved, the number
                                            of victims, the role of the defendant in the crime, and whether the defendant
                                            occupied a position of trust. These factors are often amplified in SIGTARP cases,
                                            leading to longer sentences for the complex crimes that SIGTARP uncovers.

                                                           FIGURE ES.6
                                                           AVERAGE PRISON SENTENCES OF DEFENDANTS
                                                           INVESTIGATED BY SIGTARP (IN MONTHS)
                                                                 200

                                                                                                                           175
                                                                 150




                                                                 100


                                                                                                    64
                                                                 50
                                                                              36                                         Defendants
                                                                        National Average        Average Prison      SIGTARP Investigated
                                                                       Prison Sentence for   Sentence for Crimes     Sentenced to 10+
                                                                  0    White Collar Crimes   SIGTARP Investigated      Years in Prison




                                            SIGTARP HAS ESCALATED EFFORTS TO BRING
                                            BACK TO VICTIMS AND THE GOVERNMENT MONEY
                                            LOST TO TARP RELATED CRIME AND OTHER
                                            VIOLATIONS OF THE LAW & PENALTIES
                                            The requirement through a court order or Government agreement that a defendant
                                            pay money brings accountability for law-breakers. First, those who break the law
                                            should not be allowed to keep the fruits of their crimes or civil violations of the law.
                                            Second, SIGTARP plays an important role in the Government’s attempt to make
                                            victims whole. Third, to bring accountability and deterrence, penalties will have
                                            to be substantial, otherwise; the risk is that penalties will become a cost of doing
                                            business. Over the last two years, court-ordered penalties and agreements with the
                                            Government resulting from a SIGTARP investigation have increased by 78% to
                                            $7.38 billion, as indicated in Figure ES.7.
                                                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   15




                   FIGURE ES.7
                   SIGTARP’S ESCALATED EFFORTS INCREASED MONEY
                   ORDERED TO BE PAID (CUMULATIVE)
                                         $8,000
                                                                                                                                            $7.38B
                                              7,000
                  Asset Recovery (Millions)




                                              6,000

                                              5,000
                                                                                                                         $4.68B
                                                                                                        $4.15B
                                              4,000                                    $3.89B


                                              3,000

                                              2,000

                                              1,000
                                                              $153M   $164M   $3.73B            $261M            $527M            $2.7B
                                                       $11M
                                                  0
                                                       2009           2010             2011             2012             2013               2014

                                                                                       Fiscal Year


    Even if a court orders, or a
Government agreement requires, a                                                                  Over the past two years, SIGTARP
defendant to pay money, it is not always                                                          has ramped up efforts to aid in
an easy task to recoup that money.
Given SIGTARP’s expertise and detailed                                                            recouping money from defendants
knowledge of the facts in the cases we                                                            investigated by SIGTARP who violated
investigate, part of our job is to identify
                                                                                                  the law, resulting in an eight-fold
proceeds from the crime (or civil
violations) and recoup funds ordered to                                                           increase in actual dollars recovered
be repaid through seizures and forfeiture                                                         to $1.4 billion.
(See Figure ES.8).

             FIGURE ES.8
             INCREASES IN MONEY RECOVERED FROM A DEFENDANT
             INVESTIGATED BY SIGTARP (CUMULATIVE)
                                              $1,500                                                                                        $1.468M
             Asset Recovery (Millions)




                                               1,200


                                                900


                                                600


                                                300
                                                                                                                         $186M
                                                                      $151M            $151M            $161M

                                                        $0    $151M            $0               $10M             $25M             $1,283M
                                                  0
                                                       2009           2010             2011             2012             2013               2014

                                                                                         Fiscal Year
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 SIGTARP investigations and the follow-on prosecutions matter. They matter
                                            to the victims. They matter to the communities these banks serve. They matter to
                                            the taxpayers who shouldered the burden of TARP only to see some TARP banks
                                            fail and bailout dollars lost. They matter to instill confidence in the United States
                                            financial system.
                                                 SIGTARP’s cases remain necessary for our financial system to recover into a
                                            stronger system and for the American people to have confidence in our financial
                                            and justice systems. The economic toll from the crisis has been devastating.
                                            American families lost years of hard-earned savings. Businesses, small and large,
                                            lost access to the cash they need to grow. Millions of American workers lost jobs or
                                            new opportunities. Left unchecked, the crimes that accompanied the crisis and the
                                            Government’s rescue efforts can hinder recovery and intensify the economic pain
                                            many Americans still feel.
                                                 TARP was intended to aid in restoring long-term financial stability and
                                            SIGTARP investigations play a critical part in that recovery. Congress created
                                            SIGTARP as a white-collar law enforcement agency to root out TARP fraud and
                                            protect the taxpayers’ TARP investment. SIGTARP will continue to investigate
                                            TARP-related crimes even after a TARP recipient is no longer participating in the
                                            program. Our work at SIGTARP is far from being over, with TARP scheduled to
                                            continue for at least eight more years. SIGTARP will not be deterred from our
                                            mission, and our accelerated law enforcement efforts are proof of our commitment.
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   19




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”) as amended by the Special Inspector General for the
Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA and the
SIGTARP Act, SIGTARP has the responsibility, among other things, to conduct,
supervise, and coordinate audits and investigations of the purchase, management,
and sale of assets under the Troubled Asset Relief Program (“TARP”) or as deemed
appropriate by the Special Inspector General. SIGTARP is required to report
quarterly to Congress in order to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 23 published audits and evaluations, and 151 recommendations as of
September 30, 2014; and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of September 30, 2014,
SIGTARP had more than 150 ongoing criminal and civil investigations, many in
partnership with other agencies in order to leverage resources. SIGTARP takes its
law enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 212 individuals, including 135 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 146 defendants (others are awaiting trial)
•	 prison sentences for 87 defendants (others are awaiting sentencing)

i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
20               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.1
                                                        •	 civil cases and other actions against 66 individuals (including 52 senior officers)
     CRIMINAL CHARGES FROM
     SIGTARP INVESTIGATIONS                                and 67 entities (in some instances an individual will face both criminal and civil
     RESULTING IN PRISON                                   charges)
     SENTENCES                                          •	 orders temporarily suspending or permanently banning 89 individuals from
            3%         2%                                  working in the banking or financial industry, working as a contractor with the
         3%             2%
                                                           Federal Government, working as a licensed attorney, or other types of businesses
       4%               6%
                                                        •	 orders of restitution and forfeiture and civil judgments and other orders
            8%
                                                           entered for $7.38 billion. This includes restitution orders entered for $4.2
                                 32%                       billion, forfeiture orders entered for $241.6 million, and civil judgments and
            7%
                                                           other orders entered for $2.95 billion. Although the ultimate recovery of these
              14%                                          amounts is not known, as of October 20, 2014, SIGTARP has already assisted
                        19%
                                                           in the recovery of $1.468 billion. These orders happen only after conviction and
                                                           sentencing or civil resolution and many SIGTARP cases have not yet reached
        Wire & Mail Fraud
                                                           that stage; accordingly, any recoveries that may come in these cases would serve
        Conspiracy to Commit Fraud
        Bank Fraud
                                                           to increase the $1.468 billion
        State Charges (Conspiracy to collect            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
        upfront fees/commit grand theft)                   the now-failed Colonial Bank
        False Statements & Entries
        Securities Fraud
        Loan Fraud                                          SIGTARP’s investigations concern a wide range of possible violations of the
        Money Laundering                                law, and result in charges including: bank fraud, conspiracy to commit fraud or to
        Bankruptcy Fraud                                defraud the United States, wire fraud, mail fraud, making false statements to the
        Alteration of records
                                                        Government (including to SIGTARP agents), securities fraud, money laundering,
        Other                                                                                  ii
                                                        and bankruptcy fraud, among others. These investigations have resulted in charges
     Note: Numbers may not total due to rounding.
                                                        against defendants holding a variety of jobs, including 135 senior executives.
     FIGURE 1.2                                             Figure 1.1 represents a breakdown of criminal charges from SIGTARP
     DEFENDANTS CONVICTED                               investigations resulting in prison sentences. Figure 1.2 represents a breakdown
     IN CASES FILED AS A                                of defendants convicted in cases filed as a result of SIGTARP investigations, by
     RESULT OF SIGTARP                                  employment or position of the individual. Although the majority of SIGTARP’s
     INVESTIGATIONS, BY                                 investigative activity remains confidential, over the past quarter there have been
     EMPLOYEE TYPE
                                                        significant public developments in several SIGTARP investigations, described
                6%           4%                         below.
           5%                 3%

       7%

      8%


                             71%


        Senior Executive
        MMS/MHA Scam
        Bank Employee
        Individual
        Straw Borrower/Investor
        Other
        Attorney
     Note: Numbers may not total due to rounding.       ii The prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   21




TARP-Related Investigations Activity Since the July 2014 Quarterly
Report

$45 Billion TARP Recipient Bank of America Ordered to Pay $1.27 Billion in Civil
Penalties for “Brazen” Fraud Against the United States – Bank of America, N.A.,
Countrywide Financial Corporation, Countrywide Home Loans, Inc., and Rebecca
Mairone
On July 30, 2014, in the United States District Court for the Southern District of
New York, U.S. District Judge Jed S. Rakoff ordered Bank of America, in which
taxpayers invested $45 billion through the TARP bailout, to pay a significant civil
penalty of $1.27 billion for engaging in an intentional scheme to defraud the
United States by selling thousands of defective toxic loans to the Government
sponsored entities, Fannie Mae and Freddie Mac (the “GSEs”). Additionally, former
executive Rebecca Mairone was ordered to pay a civil penalty of $1 million to the
Government. As reported previously, on October 23, 2013, a Federal jury in New
York, New York, found Bank of America, N.A., and its predecessors, Countrywide
Financial Corporation and Countrywide Home Loans, Inc. (collectively, “BAC”),
and Mairone liable for the fraud after a four week trial.
    In determining these penalty amounts, the Court highlighted the egregious
nature of the fraud, stating that “[the bank’s loan] process was from start to finish
the vehicle for a “brazen” fraud by the defendants, driven by a hunger for profits
and oblivious to the harms thereby visited, not just on the immediate victims but
also on the financial system as a whole.” The Court further explained that its
“careful review of the evidence ha[d] convinced the Court, as it did the jury, that
the evidence of the defendants’ fraudulent scheme and fraudulent intent was
ample” and, accordingly, that punitive and deterrence penalties were warranted.
    The evidence substantiated that starting in August 2007, BAC developed
and rolled out a program known as the “Hustle” (which stood for “High Speed
Swim Lane,” or “HSSL”). As its name implies, the Hustle focused on generating
and selling a high volume of mortgages at high speed to the GSEs. To do so,
BAC jettisoned reasonable steps to assure loan quality in favor of volume, speed
and profits; specifically, it eliminated underwriter reviews of mortgage loans
and removed critical quality control checks and fraud prevention measures that
would have slowed down the origination process. At the same time, BAC changed
its compensation structure to base performance bonuses solely on volume.
Furthermore, BAC and Mairone pushed the Hustle program despite repeated
warnings that doing so would yield disastrous results, including defaults on the
loans. In particular, as shown in the course of the trial, even when the Bank’s own
internal quality reports evidenced deteriorating loan quality, BAC and Mairone
“shunted critics and criticisms aside, doubled down on their risky behavior, and
applied ever more pressure on loan specialists to ignore loan quality concerns.”
Finally, the “defendants purposefully ignored their contractual obligations to report
to [the GSEs] all loans-identified as defective, reporting only six HSSL loans as
such when, in fact, there were thousands.”
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Through the Hustle program, BAC originated thousands of poor quality loans
                                            and sold them to the GSEs based on lies that the loans were investment quality
                                            and met the GSEs’ requirements, cheating the GSEs of money in the process.
                                            As a result, BAC fraudulently added billions of dollars to its bottom line and paid
                                            executives bonuses based on the speed and volume of the defective GSE loans they
                                            processed.
                                               The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the Federal Housing Finance Agency Office of
                                            Inspector General.

                                            Bank of America Agrees to Pay $16.65 Billion in Historic Settlement for
                                            Financial Fraud Leading Up to and During the Financial Crisis, Including $1
                                            Billion to Settle SIGTARP Investigations – Bank of America Corporation
                                            On August 20, 2014, TARP recipient Bank of America Corporation (“BAC”),
                                            entered into an historic $16.65 billion settlement agreement with the Department
                                            of Justice, among others, to resolve civil investigations against BAC and its former
                                            and current subsidiaries, including TARP recipient Merrill Lynch and Countrywide
                                            Financial Corporation (“Countrywide”), involving: the bank’s packaging, sale,
                                            arrangement, structuring and issuance of residential mortgage-backed securities
                                            (“RMBS”) and collateralized debt obligations (“CDOs”); the bank’s practices
                                            concerning the underwriting and origination of risky mortgage loans; and
                                            the bank’s misrepresenting the quality of those loans to, among others, the
                                            Government-sponsored enterprises, Fannie Mae and Freddie Mac (the “GSEs”).
                                            Of the $16.65 billion settlement, $1 billion relates to the resolution of SIGTARP
                                            investigations into (and three private “whistleblower suits” filed under seal pursuant
                                            to the False Claims Act ) the origination of defective residential mortgage loans
                                            by Countrywide’s Consumer Markets Division and BAC’s Retail Lending division,
                                            as well as the fraudulent sale of such loans to the GSEs. The settlement does not
                                            release individuals from civil charges, nor does it absolve BAC, its current or former
                                            subsidiaries and affiliates, or any individuals from potential criminal prosecution.
                                            BAC also must cooperate fully with investigations or prosecutions into the conduct
                                            at issue.
                                                According to the settlement agreement, BAC admitted that, from 2005 to 2007,
                                            Countrywide unloaded toxic mortgages on the GSEs, well-aware that: (i) many of
                                            the residential mortgage loans it had made to borrowers were defective; (ii) many of
                                            the representations and warranties made to the GSEs about the quality of the loans
                                            were inaccurate; and (iii) it did not self-report to the GSEs mortgage loans it had
                                            internally identified as defective.
                                                More specifically, in the run-up to the financial crisis Countrywide undertook
                                            to expand its loan offerings based on “salability” and with little regard to risk. For
                                            example, in late 2006 Countrywide began offering “Extreme Alt-A” loans. One
                                            Countrywide executive called this a “hazardous product,” and, accordingly, asked
                                            to see “a detailed implementation plan” for originating and selling the Extreme Alt-
                                            As “such that [Countrywide was] not left with the credit risk.” Similarly, between
                                            2005 and 2007, Countrywide executives recognized the risk in its origination
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   23




of another product, “Pay Option Arms,” and warned that these loans should be
sold or securitized, fearing both “a financial and reputational catastrophe” in the
event they were retained on Countrywide’s balance sheet. Despite this knowledge,
Countrywide’s offering documents did not, among other things, describe the
Extreme Alt-A program, nor did they disclose that the Pay Option Arm loans were
loans that it elected not to hold for its own investment portfolio because they had
risk characteristics that Countrywide’s management had identified as inappropriate
for its balance sheet.
    The settlement also resolves the Government’s additional claims under the
Financial Institutions Reform, Recovery and Enforcement Act (“FIRREA”)
for loans fraudulently sold to the GSEs. As to the FIRREA investigation, BAC
admitted that, in the run-up to the financial crisis throughout 2006 and 2007,
Merrill Lynch regularly told investors the loans it was securitizing were made to
borrowers who were likely and able to repay their debts despite knowing, based on
diligence it had performed on samples of the loans, that a significant number had
material compliance and underwriting defects, including as many as 55 percent
in a single pool. BAC further admitted that Merrill Lynch disregarded its own due
diligence and securitized loans it had identified as defective, leading one Merrill
Lynch consultant to “wonder why we have due diligence performed” if Merrill
Lynch was going to securitize the loans “regardless of issues.”
    Finally, as part of the settlement, BAC will pay $7 billion worth of relief to
remedy harms to struggling homeowners, including funds that will help defray tax
liability as a result of mortgage modification, forbearance or forgiveness. BAC will
also retain an independent monitor to determine whether it has complied with the
consumer relief portion of the settlement.
    In addition to SIGTARP, the U.S. Attorney’s Office for the Southern District of
New York, the Federal Housing Finance Agency Office of Inspector General as part
of President Obama’s Financial Fraud Enforcement Task Force, RMBS Working
Group, and other Government agencies conducted investigations that led to this
settlement.

Former TierOne Bank Chief Credit Officer and Senior Vice President Pleads
Guilty in Scheme to Defraud Shareholders and Regulators – Don A. Langford
On September 9, 2014, Don A. Langford, a former Senior Vice President and
Chief Credit Officer of TARP applicant TierOne Bank (“TierOne”), a publicly
traded commercial bank formerly headquartered in Lincoln, Nebraska, pled
guilty to conspiracy to commit securities fraud, wire fraud, making false entries
in a bank’s books and records, as well as making false statements to a Federal
Government agency, in connection with his role in a scheme to defraud TierOne’s
shareholders and regulators. At sentencing, scheduled for December 5, 2014,
Langford faces up to five years in Federal prison on each count.
    According to the criminal information filed with Langford’s plea agreement,
from at least 2009 to April 2010, in order to conceal TierOne’s true financial
condition, Langford conspired with senior executives and other employees to
falsely inflate the value of TierOne’s loan and real estate portfolio in reports to
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            its regulators, including the U.S. Securities and Exchange Commission (“SEC”)
                                            and the Office of Thrift Supervision (“OTS”), as well as its outside auditors and
                                            the investing public. In January 2009, after executing a supervisory agreement
                                            with OTS that required TierOne to report information about its performance and
                                            financial condition and to maintain a minimum capital position relative to its loan
                                            portfolio and other assets, Langford and others intentionally misstated the value
                                            of TierOne’s real estate portfolio by using outdated appraisals on properties and
                                            rejecting new appraisals when those appraisals would have adversely impacted
                                            TierOne’s reportable assets, revenue, and earnings. Furthermore, Langford and
                                            others purposefully delayed seeking new appraisals so as to conceal the current
                                            value of the collateral, and also restructured loan terms to disguise borrowers’
                                            inability to make interest and principal payments timely. As a result of these
                                            actions, Langford and his co-conspirators were able to hide millions of dollars in
                                            losses from investors and regulators, all the while continuing to enrich themselves
                                            through compensation and other benefits from TierOne.
                                                 In late 2008, TierOne submitted an application to the OTS seeking TARP
                                            funding. Ultimately, TierOne withdrew its application and did not receive TARP
                                            funds. TierOne Corporation, the holding company for TierOne Bank filed for
                                            bankruptcy shortly after the bank was closed by OTS in June 2010.
                                                 This case was investigated by SIGTARP, the Federal Bureau of Investigation
                                            and the Department of Justice Criminal Division’s Fraud Section. The SEC
                                            also provided substantial assistance with the investigation. This prosecution
                                            was brought in coordination with President Barack Obama’s Financial Fraud
                                            Enforcement Task Force.

                                            Former Senior Bank Officer & Head of Delaware Lending Pleads Guilty
                                            to Massive Conspiracy, Hiding Bank’s True Financial Condition from Bank
                                            Regulators and the Public – Brian D. Bailey, Wilmington Trust
                                            On August 4, 2014, Brian D. Bailey, a Vice President and the former head
                                            of Delaware commercial real estate and Delaware market manager at TARP
                                            recipient Wilmington Trust Company (“Wilmington Trust”), pled guilty in the U.S.
                                            District Court for the District of Delaware to conspiracy to commit an offense
                                            against the United States (corruptly receiving gifts), as charged in a previously-
                                            filed Indictment, and to a one-count felony information also charging him with
                                            conspiracy to commit an offense against the United States (causing a bank to make
                                            false entries in its books and records). Wilmington Trust received $330 million
                                            in TARP funds in December 2008 which remained outstanding until 2011 when
                                            Wilmington Trust was acquired by TARP recipient bank, M&T Bank Corporation
                                            (“M&T”). M&T itself also received more than $750 million in TARP funds in
                                            2008.
                                                According to the criminal information and plea agreement, from around March
                                            2007 to around February 2010—both before and during the time Wilmington
                                            Trust held TARP funds—Bailey, who, as Wilmington Trust’s Delaware market
                                            manager, oversaw all lending in the state, conspired with Joseph Terranova
                                            (a former Wilmington Trust loan officer and Division Manager for Delaware
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   25




Commercial Real Estate) and others in a massive “delay and pray” and “extend and
pretend” scheme to hide from Federal bank examiners and the public hundreds
of millions of dollars in non-performing, past due commercial real estate loans
in order to conceal the bank’s true financial condition. Among other things, the
conspiracy involved extending credit to keep existing loan interest payments
current, thus causing the Bank to misrepresent its reporting of past due and non-
performing loans. These misrepresentations extended to, among others, the Federal
Deposit Insurance Corporation, agents and examiners appointed to examine the
bank, and the Board of Governors of the Federal Reserve System. The criminal
conduct enabled Wilmington Trust to file false statements of condition, or “Call
Reports,” with Federal financial regulators on a quarterly basis throughout 2009.
As described in the Information, each quarter in 2009, Wilmington Trust falsely
underreported its past due and nonperforming loans, including by:

•	   $186 million in the first quarter of 2009
•	   $234 million in the second quarter of 2009
•	   $463 million in the third quarter of 2009
•	   $373 million in the fourth quarter of 2009

    As previously reported, in May 2013, in a separate case, Terranova pled guilty in
Federal court in the District of Delaware to the same underlying conduct.
    Further, according to the plea agreement and a previously-filed Indictment,
Bailey also participated in a separate conspiracy with James Ladio, the former
Chief Executive Officer of MidCoast Community Bank and Chief Lending Officer
at Artisans’ Bank, where, over a twelve-year period, each provided multiple loans
to the other, through their respective positions at Wilmington Trust, Artisans’ and
MidCoast in excess of $1.5 million, under terms and conditions unavailable to the
general public. With these improper loans, Bailey financed, among other things,
three luxury cars and renovations to his home.
    Bailey is scheduled to be sentenced on December 5, 2014, and he will face up
to five years in Federal prison for each count.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Delaware, the Federal Bureau of Investigation, the Internal Revenue
Service Criminal Investigation Division, and the Office of Inspector General for the
Board of Governors of the Federal Reserve System. This prosecution was brought
in coordination with the President Barack Obama’s Financial Fraud Enforcement
Task Force.

Former Loan Officer of TARP Bank Charged with Bank Fraud, Bank Bribery and
Illegally Benefitting in Customer Transactions – Peter W. Hayes, Wilmington Trust
Company
On July 15, 2014, Peter W. Hayes, a former Vice President and loan officer of
Wilmington Trust Company (“Wilmington Trust”) was charged in the United States
District Court for the District of Delaware in a seven-count indictment with bank
fraud, bank bribery, and fraudulently benefitting in a loan transaction.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Wilmington Trust received $330 million in TARP funds in December 2008
                                            which remained outstanding until 2011 when Wilmington Trust was acquired by
                                            TARP recipient bank, M&T Bank Corporation (“M&T”). M&T itself also received
                                            more than $750 million in TARP funds in 2008.
                                               According to the indictment, from 2005 to 2009—before and during the time
                                            Wilmington Trust held TARP funds—Hayes, a loan officer in the bank’s Delaware
                                            Commercial Real Estate Division, engaged in several fraudulent transactions
                                            with one of his customers, identified in the indictment as “Customer A,” one of
                                            Wilmington Trust’s largest clients. Specifically, the indictment alleges:

                                            •	 In 2005, Hayes corruptly solicited and accepted from Customer A investment
                                               opportunities in Customer A’s real estate developments, in which Hayes
                                               bought from Customer A two model homes from Customer A’s “Radish Farm”
                                               Development. Then, through a “purchase-leaseback” arrangement with
                                               Customer A, Customer A gave Hayes monthly rental income sufficient to pay
                                               his mortgage plus expenses on the Radish Farm investment properties.
                                            •	 In late 2008, after Hayes learned that his investment in the Radish Farm model
                                               homes had soured, Hayes corruptly solicited and accepted a favorable loan of
                                               more than $70,000 from Customer A to pay off Hayes’ investment losses.
                                            •	 Without informing his supervisors of his financial relationship with Customer
                                               A, Hayes continued as Customer A’s loan officer, which included approving the
                                               disbursement of funds for Customer A projects, in which he invested or sought
                                               to invest.
                                            •	 Throughout 2008, Hayes knowingly caused Wilmington Trust loan funds to be
                                               disbursed to Customer A for purposes that were not authorized by the bank’s
                                               loan agreements with Customer A, and Hayes submitted false information in
                                               support of draw requests to provide funding to Customer A, including to cover
                                               overdrafts in Customer A’s bank account at Wilmington Trust.
                                            •	 Also in late 2008, Hayes caused Wilmington Trust to lend funds without
                                               loan committee approval to an investment company founded by Customer A’s
                                               president, so that the investment company could purchase Customer A model
                                               homes that would be leased back to Customer A or others. This included 100
                                               percent financing for some of the model homes.

                                               Ultimately, in 2012, Customer A’s loans were sold at a net loss of over 50
                                            percent of the principal loan balance.
                                               For each of the seven counts, if convicted, Hayes faces up to thirty years in
                                            Federal prison and a five-year term of supervised release.
                                               This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Delaware, the Federal Bureau of Investigation, the Internal Revenue
                                            Service Criminal Investigation Division, and the Office of Inspector General for the
                                            Board of Governors of the Federal Reserve System.
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   27




Former Loan Officer of TARP Recipient Bank Sentenced for Role in Bank Fraud
and Approving Loans in Exchange for Kickbacks; Business Man Sentenced for
                                                                  iii
Bank Bribery in Same Scheme – Christopher Tumbaga, Brian Headle, Colorado
East Bank and Trust
On September 30, 2014, and October 3, 2014, respectively, Christopher Tumbaga,
former loan officer at TARP recipient, Colorado East Bank and Trust (“CEBT”),
and Brian Headle, high school friends, both of Colorado Springs, Colorado, were
each sentenced in the U.S. District Court for the District of Colorado to 36 months
in Federal prison and ordered to pay restitution of $1,055,918, jointly and severally,
for their roles in a scheme to defraud CEBT. Tumbaga was sentenced for bank
fraud and illegally receiving kickbacks for fraudulently approving approximately
$1.2 million in loans for Headle in return for more than $60,000 in illegal
kickbacks, and Headle was sentenced for corruptly influencing a bank officer.
    As previously reported, Tumbaga and Headle were charged jointly on
September 25, 2013. Tumbaga pled guilty on March 24, 2014, and, as part of his
plea agreement, agreed to a ban from future involvement in banking activities.
Headle pled guilty on June 26, 2014.
    According to court documents, from March 2009 through July 2011, Tumbaga
used his position as a loan officer at CEBT to fraudulently approve over 14
loans to, and misapplied funds from a line of credit for the benefit of Headle.
Additionally, in March 2009, Headle contacted Tumbaga to discuss securing a loan
or line of credit from CEBT to finance Headle’s real estate development business.
Tumbaga then secured a $250,000 line of credit for Headle based on false financial
information that Tumbaga intentionally failed to verify. Shortly thereafter, Headle
and Tumbaga formed a partnership in which Tumbaga would secure fraudulent
loans for Headle’s benefit and, in return, Tumbaga would receive from Headle
kickbacks financed by profits from Headle’s real estate venture.
    To help disguise that the loans were, in fact, for Headle’s benefit, Tumbaga
fraudulently obtained the loans in multiple names, including Headle’s company,
Headle’s wife, and her company. Later, when additional loans were needed to
maintain payments on outstanding loans, Tumbaga obtained still more fraudulent
loans in the name of Headle’s parents and step-parent. When approval for a loan
was needed from the bank’s president, Tumbaga forged the bank president’s
signature. Additionally, in one instance, Tumbaga withdrew $100,000 from another
bank customer’s line of credit and wired the money to Headle, all unbeknownst
to the bank customer. In all, Headle gave Tumbaga 11 kickbacks totaling over
$60,000, and, as a result of the kickbacks, Tumbaga secured approximately $1.2
million from CEBT for Headle’s benefit.
    In February 2009, just before Tumbaga and Headle began their scheme,
ColoEast Bankshares, Inc., the parent company of CEBT, received $10 million
through the TARP Capital Purchase Program. Tumbaga and Headle’s conduct
resulted in a total loss of over $1 million to CEBT and the bank was later unable
to pay more than $1 million in dividends it owed to taxpayers. In July 2013, the

iii Statistics to support the Brian Headle sentencing will be reflected in the January 2015 Quarterly Report.
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            U.S. Department of the Treasury sold its stake in the company at auction for
                                            approximately $9 million. In total, more than $2 million owed to Federal taxpayers
                                            was lost on the investment.
                                               This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Colorado, the Federal Deposit Insurance Corporation Office of
                                            Inspector General, and the Federal Bureau of Investigation. This prosecution
                                            was brought in coordination with President Barack Obama’s Financial Fraud
                                            Enforcement Task Force.

                                            Former Chief Financial Officer of Kansas City-Area Construction Company
                                            Pleads Guilty to Defrauding TARP Recipient Bank of Blue Valley. Company Owner
                                            Also Charged with Defrauding TARP Bank & Tax Evasion – Timothy P. Fitzgerald,
                                            K. Kevin James
                                            On August 4, 2014, Timothy P. Fitzgerald, a former Chief Financial Officer of
                                            KC United, LLC, (“KC United”), a holding company for five construction services
                                            companies in Kansas City, Kansas, pled guilty in U.S. District Court for the District
                                            of Kansas to one count of conspiracy to commit bank fraud for his scheme to
                                            defraud TARP recipient Bank of Blue Valley (“Blue Valley”) of Overland Park,
                                            Kansas. In addition, on September 3, 2014, K. Kevin James and his son, Charlie
                                            M. James, owners of KC United, were indicted in the U.S. District Court for the
                                            District of Kansas. Specifically, Kevin James was indicted on ten counts of bank
                                            fraud, eight counts of wire fraud, and one count of conspiracy to defraud the
                                            United States, in connection with his roles in the scheme to defraud Blue Valley,
                                            while Charlie James was charged with four counts of wire fraud, one count of
                                            conspiracy to defraud the United States, three counts of tax evasion, and one count
                                            of bankruptcy fraud. The indictment also alleges that Kevin and Charlie James
                                            diverted prevailing wage fringe benefits owed to employees of their construction
                                            companies for other purposes, including personal use and also conspired to evade
                                            paying Federal employment taxes.
                                                According to his plea agreement, Fitzgerald admitted—and the indictment
                                            against Kevin James alleges—that Kevin James and Fitzgerald obtained business
                                            loans from Blue Valley by hiding and falsely representing the failing financial
                                            condition of KC United, resulting in a loss to the former TARP bank of more than
                                            $875,000. More specifically, Fitzgerald admitted—and the indictment against
                                            Kevin James alleges—that:

                                            •	 Kevin James directed Fitzgerald to manipulate the company’s books and records
                                               in order to get more money from Blue Valley. On ten occasions from 2008 to
                                               2011, knowing that KC United was losing money and that it needed to show
                                               a profit in order to get more money from Blue Valley, Kevin James instructed
                                               Fitzgerald to manipulate KC United’s quarterly financial statements to hide
                                               KC United’s operating losses and falsely reflect a profit. Relying on the false
                                               information, Blue Valley increased KC United’s line of credit to $2.8 million and
                                               renewed more than $1 million in outstanding loans.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   29




•	 In December 2008, knowing that its outside accounting firm would easily
   discover the alterations that had been made to the quarterly financial
   statements, Fitzgerald and Kevin James agreed that Fitzgerald would prepare an
   annual financial statement incorporating the false quarterly profits, as well as a
   fake cover letter on the outside accounting firm’s letterhead, later delivered to
   Blue Valley, stating, unbeknownst to the accounting firm, that the accounting
   firm had reviewed the financial statement.

    Also in December 2008, Blue Valley Bank Corp., the holding company for Blue
Valley, received approximately $21.8 million in TARP funds. As noted above, the
scheme continued; ultimately, in April 2011, three KC United companies filed for
bankruptcy and in March 2012, Blue Valley sold the remaining outstanding KC
United loan, suffering a loss of more than $875,000. During the time it held TARP
funds, Blue Valley failed to make 18 required quarterly dividend payments to the
U.S. Treasury, totaling over $4.8 million, and, in October 2013, Treasury sold its
stake in the bank at auction and suffered a principal loss of more than $485,000.
    At sentencing, Fitzgerald faces up to 30 years in Federal prison. If convicted,
Kevin James faces a maximum penalty of 30 years in Federal prison on each bank
fraud count; both defendants face up to 20 years on each wire fraud count, a
maximum penalty of five years for each count to conspire to defraud the United
States and Charlie James faces a maximum penalty of five years for each tax
evasion count, and a maximum penalty of five years for each bankruptcy fraud
count.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Kansas, the Internal Revenue Service Criminal Investigation Division,
the U.S. Department of Labor – Office of the Inspector General, and the U.S.
Department of Labor Employee Benefits Security Administration. This prosecution
was brought in coordination with President Barack Obama’s Financial Fraud
Enforcement Task Force.

Kansas City-area Businesswoman Charged with Defrauding TARP Bank – Brenda
Wood, Farmers Bank & Trust
On August 6, 2014, Brenda Wood, an owner of several Kansas City, Missouri,
and Bonner Springs, Kansas, businesses, was indicted on five counts of bank
fraud, one count of theft from an employee benefit program, and four counts of
willful violations of the Employee Retirement Income Security Act (“ERISA”) in
connection with loans she received from TARP recipient, Farmers Bank & Trust,
N.A. (“Farmers Bank”), of Overland Park, Kansas. Wood was arrested on August 7,
2014, by SIGTARP Federal agents and their law enforcement partners in Lansing,
Kansas.
    Farmers Enterprises, Inc. (“Farmers Enterprises”), of Great Bend, Kansas, the
parent company for Farmers Bank, received $12 million in TARP funds in June
2009. In November 2012, Farmers Enterprises exited TARP by partially repaying
the U.S. Treasury to redeem the original TARP funding. The bank’s repurchase of
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            the shares at a discount resulted in a principal loss of approximately $500,000 on
                                            the TARP investment.
                                               According to the indictment, the crimes occurred while Wood owned several
                                            businesses including one in Kansas City, Missouri – Professional Cleaning and
                                            Innovative Building Services, Inc. (“PCI”) – and three in Bonner Springs, Kansas
                                            – Action Real Estate Services, LLC; G&W Investments, LLC; and Riverview
                                            Crossings, LLC. The indictment alleges that, from approximately June 2006 to
                                            June 2010, Wood obtained loans for herself and her companies through Farmers
                                            Bank by making false representations and submitting falsified documents to the
                                            bank. Specifically, the allegations set forth in the indictment include, among others,
                                            that:

                                            •	 Wood obtained a $2.5 million loan from Farmers on behalf of Riverview
                                               Crossings to purchase undeveloped property in Bonner Springs in part by
                                               forging the signature of a second mortgage holder, fabricating the notarization,
                                               and, in doing so, releasing the deed. This $2.5 million loan defaulted.
                                            •	 Wood submitted a series of fourteen falsified invoices totaling more than
                                               $100,000 to support fraudulent draws on the Riverview Crossings loan.
                                               Ultimately, despite approximately $900,000 in disbursements to develop the
                                               Bonner Springs property, it remained largely undeveloped.
                                            •	 In obtaining a loan on behalf of PCI to buy property in Basehor, Kansas (the
                                               “Basehor loan”), Wood fraudulently inflated the purchase price to make it
                                               appear that the loan met the bank’s loan-to-value ratio requirement of 75
                                               percent. In truth, however, the loan accounted for approximately 97 percent of
                                               the purchase price.
                                            •	 Wood obtained a $350,000 line of credit in part by fraudulently representing to
                                               the lender that her company, PCI, was awarded a contract to provide cleaning
                                               services at an Internal Revenue Service building in Kansas City, Missouri. In
                                               fact, however, her company was not even a finalist for the contract.
                                            •	 Wood diverted more than $200,000 from an escrow account for PCI to her
                                               personal account.

                                                In connection with the 401(k) and ERISA-related charges, the indictment
                                            alleges, among other things, that:

                                            •	 Wood set up a 401(k) plan for PCI and embezzled more than $30,000 from the
                                               plan.
                                            •	 Wood also failed to file annual financial reports for the PCI 401(k) plan.

                                                If convicted, Wood faces up to 30 years in Federal prison on each of the bank
                                            fraud charges; a five year prison term on the charge of theft from an employee
                                            benefit program; and a ten-year prison sentence on each count of ERISA violations.
                                                Additionally, as previously reported, on June 25, 2014, Michael W. Yancey, a
                                            former Farmer’s Bank Senior Vice President who, during the relevant time period,
                                            served as Wood’s loan officer (and in August 2010 went to work for Wood directly)
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   31




pled guilty to one count of conspiring with Wood to commit an offense against the
United States (making a false statement on a loan application) in connection with
the false statements regarding the Basehor loan. At sentencing, Yancey faces up to
five years imprisonment.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office
for the District of Kansas, the Federal Bureau of Investigation, and the U.S.
Department of Labor Office of Inspector General and Employee Benefits Security
Administration.

California Man Convicted of Multimillion Dollar Foreclosure Rescue Scam that
Bilked More than 1,000 Distressed Homeowners. Co-conspirators also plead
guilty. — Alan David Tikal, Tamara Tikal, Ray Kornfeld / KATN Trust
On September 15, 2014, after a trial before the United States District Judge Troy
L. Nunley of the United States District Court for the Eastern District of California,
Alan David Tikal was convicted on 11 counts of mail fraud and one count of money
laundering in a mortgage fraud scheme that victimized more than 1,000 distressed
homeowners in California and other states, out of more than $5.8 million.
    According to evidence presented at trial, between January 7, 2010, and August
20, 2013, Tikal operated a business known as KATN (which stood for “Kicking
Ass, Taking Names”). Tikal and his associates targeted homeowners experiencing
difficulties making their monthly mortgage payments, many of whom did not speak
English as their first language. Tikal and his associates promised homeowners that
their outstanding mortgage debt would be reduced by 75 percent, falsely claiming
Tikal was a registered private banker with access to an enormous line of credit and
the ability to pay off homeowners’ mortgages in full through a purported mortgage
relief program which, Tikal falsely claimed, had a tremendous record of success in
saving homeowners from foreclosure. Tikal also told homeowners that in return
for various fees and payments, their existing loans would be paid in full, and the
homeowners would then have new loans with Tikal that would be only 25 percent
of the original loan and the original lender would have no way to foreclose on their
properties.
    In truth, however, there was not a single instance in which the so-called
mortgage relief program had homeowner’s mortgage debt paid, forgiven or
otherwise extinguished. Instead, all of the purported “loan” payments paid to Tikal
were simply spent by himself, his family and his associates for personal use. Tikal
and his associates convinced more than 1,000 homeowners in California and
other states to participate in the program. Relying on the misrepresentations made
by Tikal, many of these homeowners stopped making payments on their existing
mortgages and lost their homes to foreclosure. Of the more than $5,800,000 in
fees and monthly payments homeowners deposited into the program, more than
$2,500,000 was paid into accounts controlled by Tikal and his family.
    Tikal, who continued to direct the scheme even after having been incarcerated
since his October 2012 indictment and detainer on these charges, is scheduled to
be sentenced on December 11, 2014. He faces a maximum statutory penalty of 30
years in prison.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Additionally, co-defendants Tamara Tikal and Ray Kornfeld pled guilty on
                                            August 14 and 28, 2014, respectively, to conspiracy to commit mail fraud in
                                            connection with their roles in the scheme, and are awaiting sentencing. At
                                            sentencing each faces up to five years in Federal prison.
                                                As previously reported Alan Tikal was arrested by SIGTARP agents and their
                                            law enforcement partners in September 2012 for his role in the scheme and, in
                                            October 2012, was indicted by a Federal grand jury in the United States District
                                            Court for the Eastern District of California on mail fraud and money laundering
                                            charges also in connection with the fraudulent mortgage rescue operation. As also
                                            reported, on September 11, 2013, additional Federal charges were filed against
                                            Alan Tikal. Tamara Tikal and Kornfeld were also indicted for their roles in the
                                            scheme and were arrested by SIGTARP agents and their law enforcement partners
                                            on September 12, 2013.
                                                This case was investigated by SIGTARP, United States Attorney’s Office for the
                                            Eastern District of California, California Attorney General’s Office, the Internal
                                            Revenue Service - Criminal Investigation, the California Department of Justice,
                                            and the Stanislaus County District Attorney’s Office. This prosecution was brought
                                            in coordination with President Barack Obama’s Financial Fraud Enforcement Task
                                            Force.

                                            Three Charged in Massive $18.5 Million Nationwide Mortgage Modification
                                            Scheme – Ped Abghari, Dionysius Fiumano & Justin Romano, Esq.
                                            On August 5, 2014, executives Ped Abghari, a/k/a “Ted Allen,” and Dionysius
                                            Fiumano, a/k/a “D,” as well as attorney and co-conspirator, Justin Romano, Esq.,
                                            were each charged in the United States District Court for the Southern District
                                            of New York with wire fraud and conspiracy to commit wire fraud, for engaging
                                            in a mortgage modification scheme that allegedly defrauded more than 8,000
                                            homeowners in all 50 states out of over $18.5 million, in what is believed to be the
                                            largest mortgage modification scheme ever charged. On August 7, 2014, SIGTARP
                                            agents and their law enforcement partners arrested Abghari and Fiumano in Irvine,
                                            California, and, on the same day, Romano was arrested by SIGTARP agents and
                                            their law enforcement partners in Blue Point, N.Y.
                                                According to the indictment, Abghari was a co-president and owner of
                                            an Irvine, California, company that offered purported mortgage modification
                                            services (the “Telemarketing Firm”) and Fiumano was a senior manager of the
                                            Telemarketing Firm directly responsible for training and overseeing its salespeople
                                            and telemarketers. Romano held himself out as the president of two purported law
                                            firms (the “Purported Law Firms”), based in Holbrook, New York, and Sayville,
                                            New York, respectively, which purportedly offered mortgage modification services in
                                            conjunction with the Telemarketing Firm.
                                                From at least January 2011 through May 2014, Abghari, Fiumano and Romano,
                                            through the Telemarketing Firm and the Purported Law Firms, engaged in a
                                            massive scheme to defraud homeowners in dire financial straits who were seeking
                                            relief through the Home Affordable Modification Program (“HAMP”), a program
                                            created by the U.S. Treasury as a result of the financial crisis and collapse of
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   33




the housing bubble in 2008, and other mortgage relief programs. HAMP, which
was funded by TARP, permits qualified homeowners to obtain mortgage relief.
Specifically, HAMP seeks to prevent foreclosure by modifying troubled loans to
achieve monthly payments the homeowner can afford.
    Any homeowner may apply for HAMP through his or her mortgage provider by
completing a short form—readily available online as well as in many local banks—
and submitting it, along with supporting paperwork, to the homeowner’s mortgage
provider. Furthermore, submitting an application for HAMP is—by law—free
of charge to the homeowner, and virtually all mortgage providers are required to
participate in the HAMP program and accept HAMP applications. HAMP also
sets guidelines for lenders to follow in determining eligibility, such as those based
on the homeowner’s income and the principal balance remaining on the mortgage.
Only a homeowner’s lender may determine the homeowner’s eligibility for a HAMP
modification and, if appropriate, the homeowner’s modified interest rate and
monthly mortgage payment.
    Through a series of false and fraudulent representations, the defendants duped
thousands of homeowners into paying thousands of dollars each in up-front fees in
exchange for little or no service from the defendants or their companies.
    To perpetrate the scheme, Abghari and Fiumano, through the Telemarketing
Firm, purchased thousands of “leads” consisting of the name, address, and other
contact information of homeowners who had fallen behind in making home
mortgage payments, and then caused the Telemarketing Firm to send false and
fraudulent solicitation letters by e-mail to the homeowners. These solicitations
misled the homeowners into believing that their mortgages were already under
review for a HAMP mortgage modification and that new, modified rates had already
been approved by the homeowners’ lenders. Additionally, at Abghari, Fiumano,
and Romano’s direction, the sales staff called homeowners and/or answered
homeowners’ telephone calls and, in an effort to convince the homeowners to
pay up-front fees, the defendants regularly caused various false and fraudulent
statements to be made to homeowners, including that:

•	 the homeowners were retaining a “law firm” and an “attorney” who would
   complete the HAMP application and negotiate aggressively on the homeowners’
   behalf with lenders;
•	 the defendants would “pre-approve” the homeowners for a guaranteed
   modification through HAMP;
•	 the defendants employed underwriters who would calculate and guarantee a
   new, modified rate and monthly mortgage payment; and
•	 the defendants’ mortgage modification services were free and the up-front fees
   would be paid directly to homeowners’ lenders.

    In truth and in fact, however, and as Abghari, Fiumano, and Romano well
knew, all of these representations were false and fraudulent. As the defendants
knew, neither they nor any of their employees could pre-approve the homeowners
or guarantee any of the homeowners a mortgage modification or new monthly
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            payment. Moreover, defendants’ services were in no way free; instead, defendants
                                            kept all of the fees paid by homeowners and provided none of it to the homeowners’
                                            lenders. Additionally, as the defendants knew, neither the Telemarketing Firm
                                            nor the Purported Law Firms provided homeowners with an attorney or any
                                            sort of legal assistance, and they frequently did little more than complete the
                                            Government-sponsored HAMP application which, as noted, the homeowners could
                                            have obtained and completed on their own, free of charge. In certain cases, as
                                            the volume of homeowners paying thousands of dollars to “retain” the defendants’
                                            services swelled, the defendants and their employees did nothing at all in exchange
                                            for homeowners’ money.
                                                Finally, as customer complaints mounted, Abghari, Fiumano, and Romano
                                            undertook to cover up their fraudulent scheme by changing the names of the
                                            Telemarketing Firm and Purported Law Firms. For instance, Abghari emailed
                                            employees of one of the Purported Law Firms and explained that “[t]he main
                                            reason we’re being slammed . . . is because we waited too long to change names.
                                            I normally change names every nine months to keep things cool and have all
                                            agencies off our backs. Within the next month or so you’ll see a major slow down
                                            on complaints because we no longer do business under [the name of the Purported
                                            Law Firm] or [the name of the Telemarketing Firm.]”
                                                If convicted, the defendants each face up to 20 years in Federal prison for each
                                            of the counts.
                                                This case is being investigated by SIGTARP and the U.S. Attorney’s Office
                                            for the Southern District of New York, and in coordination with President Barack
                                            Obama’s Financial Fraud Enforcement Task Force.

                                            New York Businessman Charged in $146 Million Loan Fraud Scheme, Wire
                                            Fraud, Tax Fraud and Witness Tampering – Selim Zherka
                                            On September 18, 2014, after his arrest by SIGTARP and its law enforcement
                                            partners, Selim Zherka, a/k/a “Sam Zherka,” a/k/a “Sammy Zherka,” of Somers,
                                            N.Y., was indicted by a Federal grand jury in the U.S. District Court for the
                                            Southern District of New York for submitting multiple false loan applications to
                                            banks, tax fraud, wire fraud, and witness tampering in connection with his years’
                                            long schemes through which he obtained more than $146 million. Zherka’s victims
                                            included North Fork Bank – later purchased by TARP recipient bank Capital
                                            One Financial Corporation – from which he allegedly swindled more than $36.5
                                            million.
                                                According to the indictment, from November 2005 through 2008, Zherka
                                            obtained loans totaling more than $146 million from three banks – North Fork
                                            Bank (now Capital One), Sovereign Bank (now Santander), and Signature Bank
                                            – for the purchase and/or refinancing of apartment house complexes in New
                                            England, Tennessee, New Jersey, and New York by grossly inflating the purchase
                                            prices of the real estate he was acquiring, grossly exaggerating the amount of the
                                            down payments he was making toward those real estate purchases, and also lying
                                            about his assets, his income, his tax returns, and the nature and circumstances of a
                                            court judgment against him for assault and breach of contract from 2000.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   35




     The indictment charges Zherka with wire fraud in connection with his scheme
to defraud the judgment creditor in connection with the 2000 judgment finding
him liable by a New York State Supreme Court jury in Manhattan for assaulting
that individual and for breaching a contract with him.
     In addition, the indictment charges Zherka with perpetrating a long standing
tax fraud scheme. Specifically, Zherka is alleged to have repeatedly submitted
fraudulent tax returns to the Internal Revenue Service (“IRS”) that understated
his capital gains and overstated his depreciation expenses on tax returns for the
real estate holding companies in which he was a partner which, in turn, owned
the above apartment housing complexes thus reducing their tax liabilities. The
indictment also charges that Zherka obstructed the IRS by, among other means,
failing to file personal tax returns for over a decade.
     Finally, the indictment charges Zherka with tampering with witnesses in the
grand jury’s investigation of this matter.
      If convicted, Zherka faces the following maximum penalties:

•	 for each of the 11 counts of submitting a false loan application, 30 years in
   prison;
•	 for the count of wire fraud and the count of witness tampering, 20 years in
   prison;
•	 for the count of conspiracy to obstruct the IRS and violate tax laws, five years in
   prison; and
•	 for each of the 10 counts of making/subscribing to false tax returns, the 10
   counts of aiding/assisting in the preparation of false tax returns, and the count
   of attempting to interfere with the administration Internal Revenue laws, three
   years in prison.

    Additionally, Zherka faces potential criminal forfeitures totaling $146 million,
restitution, and the costs of prosecution.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Southern District of New York (White Plains Division), the Federal Bureau of
Investigation, and the Internal Revenue Service – Criminal Investigation.

New Jersey Real Estate Investor Pleads Guilty For Leading Role in Multi-Million
Dollar Conspiracy to Defraud TARP Recipient Banks – Jose Luis Salguero Bedoya
On September 10, 2014, in the U.S. District Court for the District of New
Jersey, Jose Luis Salguero Bedoya, a/k/a Jose Salguero, pled guilty to one count of
conspiracy to commit wire fraud affecting a financial institution in connection with
a long-running, large-scale mortgage fraud scheme that caused millions of dollars
of losses.
    According to court documents, from March 2008 through July 2012, Salguero,
a real estate investor who owned two New Jersey-based real estate companies,
and his co-defendants conspired to submit fraudulent mortgage loan applications
and related documents to lenders, including TARP recipient banks, in order to
obtain loan proceeds which they used to enrich themselves. Specifically, Salguero
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            admitted that he and his co-defendants perpetrated the scheme by, among other
                                            means:

                                            •	 negotiating fraudulent “short sale transactions” by intentionally misrepresenting
                                               who was purchasing the properties, and the sources and distributions of funds,
                                               and intentionally failing to file deeds after the short sales were arranged to
                                               conceal the transactions from the following mortgage lender;
                                            •	 obtaining false appraisal reports from a co-conspirator, Paul Chemidlin, Jr., who
                                               was not a licensed appraiser, to support inflated property values for mortgage
                                               loans in larger amounts; and
                                            •	 obtaining mortgage loans through fake or “straw” buyers.

                                                Salguero also paid his co-conspirators for their roles, using his real estate
                                            companies to disburse fraudulently obtained funds.
                                                At sentencing, Salguero faces up to thirty years in Federal prison. Further, as
                                            part of his plea agreement, Salguero agreed to make full restitution for all losses
                                            resulting from the scheme (jointly with his co-defendants), and to forfeit assets,
                                            including a Florida home in a gated community and other Florida property, six New
                                            Jersey homes, and over $35,000 in life insurance benefits.
                                                As previously reported, on January 23, 2013, as part of a wide-scale mortgage
                                            fraud investigation in New Jersey, Salguero and ten other individuals were arrested
                                            by SIGTARP agents and their law enforcement partners and charged with
                                            conspiracy to commit bank fraud relating to their roles in fraudulent mortgage
                                            schemes. In addition to Salguero, those arrested were: Christopher Woods,
                                            Matthew Amento, Carmine Fusco, Kenneth Sweetman, Joseph Divalli, Paul
                                            Chemidlin, Jr., Delio Countinho, Christopher Ju, Yazmin Soto-Cruz, and Jose
                                            Martins.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of New Jersey, the Federal Bureau of Investigation, the United States Postal
                                            Inspection Service, and the Department of Housing and Urban Development
                                            Office of Inspector General as part of the New Jersey Mortgage Fraud Task Force.

                                            Four Californians Indicted for Nationwide Mortgage Modification Scam Targeting
                                            Hundreds of Struggling Homeowners – Samuel Paul Bain, Aminullah Sarpas,
                                            Damon Grant Carriger, & Louis Saggiani (U.S. Homeowners Relief)
                                            On July 22, 2014, the owners and principals of U.S. Homeowners Relief, of
                                            Orange County, California, Samuel Paul Bain, a/k/a “Paul Bain,” Aminullah
                                            Sarpas, a/k/a “Amin Sarpas” and “David Sarpas,” as well as Damon Grant Carriger
                                            (the company’s principal sales manager), and Louis Saggiani (the company’s
                                            manager and chief accountant) were charged in the United States District Court
                                            for the Central District of California in connection with a fraudulent mortgage
                                            modification scam in which the defendants, through U.S. Homeowners Relief
                                            and several related entities, allegedly offered bogus loan modification programs
                                            to hundreds of financially distressed homeowners across the United States. As a
                                            result of the defendants’ scheme, these distressed homeowner-victims lost millions
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   37




of dollars and many also lost their homes in subsequent foreclosure proceedings.
SIGTARP agents and their law enforcement partners arrested Sarpas, Carriger, and
Saggiani on July 22, 2014. At the time of the indictment, Bain was in state custody.
    All four defendants are charged with conspiracy, 21 counts of mail fraud, and
two counts of wire fraud. Bain, Sarpas, and Saggiani are also charged with an
additional five counts of mail fraud and two counts of wire fraud. In addition, Bain
is also charged with two counts of money laundering having allegedly routed a total
of $60,000 in illicit funds through an account held at TARP recipient Wells Fargo
Bank.
    According to the indictment, the four defendants operated a series of
telemarketing “boiler rooms” that, in exchange for substantial up-front fees,
purportedly offered home loan modification services to distressed homeowners
in the wake of the 2008 financial crisis and housing market collapse. From late
2008 to early 2010, the defendants operated multiple offices in California under
a series of company names, including, among others, Greenleaf Modify, U.S.
Homeowners Relief, Waypoint Law Group, and American Lending Review. When
pressure from growing customer complaints about the purported scam mounted
at the Better Business Bureau or attracted attention from state regulators such as
the California Department of Justice, the defendants would shut down, and change
each company name. Further, when served with a cease and desist order from the
California Department of Real Estate prohibiting the defendants from collecting
advance fees, the defendants deliberately ignored the order and continued
collecting advanced fees from struggling homeowners in exchange for purported
loan modification services.
    As alleged in the indictment, the defendants and their associates used a
consistent sales pitch throughout the scheme. Their advertising materials and
telemarketers convinced struggling homeowners to pay upfront fees ranging
from approximately $1,450 to around $4,200 by falsely: (i) promising that the
homeowners were highly likely to secure mortgage modification, including a
reduced interest rate as low as two percent and/or a reduction of principal; (ii)
touting a 97% success rate in securing modifications; and (iii) advertising a
complete money-back guarantee, as well as an affiliation with Federal housing
support programs. For example, the companies’ marketing materials falsely implied
that they were affiliated either with a Government entity or a Government program
designed to offer homeowners mortgage debt relief, and sometimes made specific
references to actual Government websites such as www.MakingHomeAffordable.
gov and displayed official Government logos.
    Telemarketers associated with the companies also claimed that the mortgage
relief services were part of the “Obama Act.” In addition, to create the false and
misleading impression that the defendants’ entities were preparing to negotiate with
lenders on the victims’ behalf, the defendants allegedly asserted that one or more
of the entities were licensed California real estate brokers and that homeowners’
payments would be placed in a trust account, not to be withdrawn until the loan
modification services were in fact performed. The defendants also often claimed
that specific attorneys were assigned to work on homeowners’ individual cases.
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Finally defendants falsely claimed that, to maximize the likelihood of obtaining a
                                            mortgage modification, homeowners should stop making mortgage payments on
                                            their existing mortgages and refrain from contacting their lenders.
                                                According to the indictment, however, as the defendants well knew, all of
                                            these claims were false and/or materially misleading. Despite their promises that
                                            homeowners would receive better loan terms, the vast majority of the hundreds
                                            of victims received no favorable loan modifications. In fact, several of the victims
                                            learned from their mortgage lenders that the defendants’ companies had never
                                            made any contact on the homeowners’ behalf. Furthermore, the defendants’
                                            companies were neither affiliated with any Government program, nor were they
                                            licensed real estate brokers. In addition, the customers’ funds were generally spent
                                            on defendants themselves, payments to sales people and other business expenses,
                                            and were not placed in trust accounts as was promised. Attorneys did not give
                                            personal attention to individual victims and instead were paid by defendants to
                                            write substantially identical form letters to some lenders. With respect to the
                                            purported money-back guarantee, the defendants routinely used stalling tactics or
                                            just ignored homeowners’ repeated demands for refunds after the homeowners did
                                            not receive the promised loan modifications.
                                                The defendants are scheduled for a June 16, 2015, trial. If convicted, each of
                                            the defendants faces up to five years in Federal prison for the conspiracy count, as
                                            well as 20 years in prison for each of the mail fraud, wire fraud, and (with respect
                                            to Bain) money laundering counts.
                                                This case is being investigated by SIGTARP and the U.S. Attorney’s Office for
                                            the Central District of California, the United States Postal Inspection Service,
                                            and the Internal Revenue Service – Criminal Investigation. This prosecution
                                            was brought in coordination with President Barack Obama’s Financial Fraud
                                            Enforcement Task Force.

                                            California Con Man and Former “America’s Most Wanted” (TV Show) Fugitive
                                            Indicted for Brazen Investment Fraud Schemes — Jerome Arthur Whittington
                                            On August 29, 2014, the U.S. District Court for the Central District of
                                            California unsealed an indictment against Jerome Arthur Whittington, a/k/a Jerry
                                            Whittington, charging him with two counts of wire fraud in connection with two
                                            brazen investment schemes in which he feigned friendship and romantic interest
                                            and assumed fake identities to defraud his victims out of approximately $165,000.
                                            In both cases, Whittington allegedly routed victims’ funds through TARP recipient
                                            banks including Bank of America and U.S. Bank.
                                                If convicted, Whittington—who, in 1989, was featured on the television show
                                            “America’s Most Wanted” having been a fugitive for three years for impersonation
                                            and transportation of stolen property (among other crimes), and who is currently
                                            incarcerated in Louisiana—faces up to 30 years in Federal prison on each count.
                                                As alleged in the indictment, in the first scheme, from January 2008 through
                                            September 2010, Whittington befriended the victim and expressed romantic
                                            interest while holding himself out as a wealthy real estate investor and an attorney;
                                            in reality, however, as Whittington well knew, Whittington was neither wealthy,
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   39




a real estate investor, nor an attorney. Under these false pretenses, Whittington
convinced the victim to sell her stock market investments and give him the
proceeds, approximately $116,965, to invest in an undeveloped lot in Palm
Springs, California. Whittington did not invest in the undeveloped property nor
any real estate as he had promised; instead, he spent the victim’s funds on personal
expenses.
    As further alleged, in the second scheme from November 2008 to around
September 2012, Whittington befriended the victim, holding himself out as
a wealthy businessman who owned, among other things, a jet airplane and a
company, Desert Films, which Whittington claimed set up tracks for cameras used
in filming movies. In fact, however, as Whittington well knew, he was not wealthy,
did not own a jet airplane, and did not own any company called Desert Films that
was involved in the film industry. Once he gained the victim’s trust, Whittington
introduced the victim to another company, Sesma, which Whittington said had
developed a new internet browser being used in China, and that Whittington
had been offered to become the president of Sesma. After claiming that he had
already invested $250,000 of his own money in Sesma, Whittington offered
the victim an opportunity to invest in Sesma stock and manage the launch of a
medical application of the web browser. Whittington convinced the victim to invest
$48,340 and then strung the victim along, falsely claiming that the investment had
become profitable and the victim would be paid as soon as the victim received a
security clearance from Sesma. Whittington, however, had not in fact applied any
of the victim’s money towards the purported purchase of stock in Sesma, rather,
Whittington used the money for personal expenses.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Central District of California, and the Federal Bureau of Investigation.

Former Federal Employee Pleads Guilty and Sentenced for Accessing
Government Website Servers Hosting Key TARP Homeownership Assistance
Program Website, www.CheckMyNPV.com, Without Authorization – Sathish
Kumar Chandhun Rajendran
On July 10, 2014, in the United States District Court for the Eastern District of
Virginia, Sathish Kumar Chandhun Rajendran, a former Information Technology
term employee at Fannie Mae pled guilty to engaging in unauthorized access to
Government servers that hosted a Fannie Mae website used to support Federal
mortgage loan modification programs, including the Home Affordable Modification
Program (“HAMP”).
    On October 3, 2014, Rajendran was sentenced to three years supervised release
and ordered to pay approximately $70,000 in restitution. Rajendran pled guilty
to a one-count criminal information charging him with unauthorized access to
a protected computer causing damage. As part of his plea agreement, Rajendran
agreed—for a three-year period—to refrain from participating as an employee,
contractor, or subcontractor in any Government contract requiring clearance. The
court also ordered Rajendran to forfeit property involved in the offense, specifically,
a Hewlett Packard Laptop and a Toshiba Hard Drive.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                According to a statement of facts filed with the plea agreement, while at Fannie
                                            Mae, Rajendran was assigned to develop the www.CheckMyNPV.com website,
                                            which was created by the Department of the Treasury and the Department of
                                            Housing and Urban Development (“HUD”) under the Dodd-Frank Wall Street
                                            Reform and Consumer Protection Act in connection with the Government’s various
                                            homeownership assistance programs under Making Home Affordable (“MHA”).
                                            The free online tool provided by the www.CheckMyNPV.com website, operated
                                            by Fannie Mae on behalf of MHA, allows struggling homeowners to check their
                                            eligibility to participate in HAMP, a Federal Government program designed to
                                            prevent mass foreclosures by calculating the net present value—or “NPV”—of their
                                            homes.
                                                After his termination from Fannie Mae in August 2013, Rajendran repeatedly
                                            used administrator credentials to access Federal Government servers and make
                                            unauthorized changes to the CheckMyNPV website, including disabling the
                                            website’s online tool for checking HAMP eligibility. As a result of his actions,
                                            Rajendran caused damage and loss to Fannie Mae of approximately $70,000.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Eastern District of Virginia, and the Federal Housing Finance Agency Office of
                                            Inspector General. This prosecution was brought in coordination with President
                                            Barack Obama’s Financial Fraud Enforcement Task Force.

                                            Former Senior Vice President & Senior Loan Officer of TARP Bank Admits to
                                            Willful Misapplication of Bank Funds – Braxton L. Sadler, TNBank	
                                            On August 27, 2014, Braxton L. Sadler, a former Senior Vice President and Senior
                                            Loan Officer of TARP recipient bank TNBank, of Oak Ridge, Tennessee, pled
                                            guilty in the United States District Court for the District of Eastern District of
                                            Tennessee to willfully misapplying bank funds in connection with a long running
                                            scheme. At sentencing, scheduled for December 2, 2014, Sadler faces up to one
                                            year in Federal prison, followed by up to one year of supervised release.
                                                According to court documents, Sadler admitted that for multiple years he
                                            willfully processed loans for a borrower without investigating the borrower’s ability
                                            to repay the loan and then allowed the loan proceeds to be used for the borrower’s
                                            failed construction project, rather than for their stated purpose. In addition, Sadler
                                            lent personal funds to the borrower without ever disclosing these loans to TNBank
                                            or listing the loans on internal TNBank documents as debts the borrower owed and
                                            which impacted the borrower’s ability to repay the TNBank loans. Sadler also made
                                            payments with personal funds on several borrowers’ accounts, causing TNBank
                                            records to reflect that those customers were timely with payments when in fact
                                            they were not. Finally, Sadler admitted that his actions resulted in misstatements
                                            on the bank’s application for TARP funds.
                                                In December 2008, Tennessee Valley Financial Holdings, Inc. (“Tennessee
                                            Valley”), the parent company of TNBank, received $3 million in taxpayer funds
                                            through TARP. During the time TARP funds were outstanding, Tennessee Valley
                                            missed a total of thirteen required dividend and interest payments, totaling
                                            $531,375. In April 2013, the U.S. Department of the Treasury sold its stake in
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   41




the company at auction at a loss of more than $40,000. In all, $575,705 owed to
Federal taxpayers was lost on the investment.
   This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Tennessee, and the Federal Bureau of Investigation.

Missouri Businessmen Sentenced for Defrauding TARP Recipient Excel Bank –
James Crews and Michael Hilbert
On August 13, 2014, business executives James Crews and Michael Hilbert
were each sentenced in the United States District Court for the Eastern District
of Missouri to five years’ probation, having pled guilty on April 7, 2014, to bank
fraud for their roles in defrauding TARP recipient Excel Bank. The sentence also
required Crews and Hilbert jointly and severally to pay restitution of approximately
$30,000 to the Federal Deposit Insurance Corporation (“FDIC”), and banned the
defendants from being self-employed or employed as a consultant, as well as being
involved in the creation, operation, or management of any business.
    As previously reported, according to court documents, Crews and Hilbert,
who jointly operated a real estate rental business in Missouri, admitted to making
several large fraudulent construction draw requests with respect to “rehab” or
“fix funds” specifically set aside in escrow for repairs to rental homes. The bank
disbursed the “fix funds” in reliance on multiple false claims that work had been
done on various rental properties. In reality, however, inspections by the bank
revealed that the work was not performed and Crews and Hilbert used the funds
for other purposes. Shortly after the funds were disbursed in 2010, the loans,
totaling over $2.6 million lent by Excel Bank, went into default.
    In May 2009, Investors Financial Corporation, the parent company of Excel
Bank, received $4 million in TARP funds. On October 19, 2012, Excel Bank failed
and was closed by state and Federal regulators. As a result of the failure, the entire
$4 million TARP investment was lost as was more than $900,000 in TARP-related
missed dividend and interest payments the bank owed Treasury. The FDIC, which
became Excel Bank’s receiver when it closed, also lost $40.9 million.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Missouri, and the Federal Bureau of Investigation.

Identity Theft Perpetrator Admits to Defrauding TARP Recipient Bank of America,
N.A., in connection with False Application for Federal Assistance under TARP;
Sentenced to Prison and Deported – Eduardo Garcia Sabag
On September 26, 2014, having pled guilty on August 11, 2014, to one count of
submitting false mortgage modification application to a Federally insured bank,
Eduardo Garcia Sabag, a Mexican national residing in Wichita, Kansas, was
sentenced in U.S. District Court for the District of Kansas for one count of making
false bank entries, reports, and transactions in connection with his scheme to
defraud TARP recipient Bank of America by using a Social Security number that
was not his own to obtain a mortgage modification through the Home Affordable
Modification Program (“HAMP”), the TARP-funded housing support program.
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Sabag was arrested on June 26, 2014, and remained in Federal custody until
                                            his sentencing. On September 26, 2014, Sabag was sentenced to time served –
                                            approximately 92 days in Federal prison – and was remanded to the custody of the
                                            U.S. Marshals for removal to Mexico (which, as part of his plea agreement, Sabag
                                            agreed to not challenge).
                                                According to court documents, in 2002, Sabag submitted a loan application in
                                            order to purchase a home in Wichita, Kansas, and provided another person’s social
                                            security number. Using this false information, Sabag obtained a mortgage on the
                                            home from TARP recipient Bank of America, N.A. Then, in August 2010, Sabag
                                            applied for and ultimately received a mortgage modification through the U.S.
                                            Treasury’s HAMP program. To qualify for assistance through HAMP, a homeowner
                                            must complete and return to the mortgage servicer a Request for Modification and
                                            Affidavit (“RMA”), which is a three-page application. The RMA requires identifying
                                            information as well as details about the applicant’s income and assets; it also
                                            includes a certification, signed by the homeowner, that all information submitted
                                            on the application is truthful and an acknowledgement that knowingly submitting
                                            false information may be a violation of Federal law. Despite this, Sabag, who is
                                            not a U.S. citizen and is ineligible for the assignment of a Social Security number,
                                            fraudulently used the Social Security number on the HAMP application to obtain
                                            the mortgage modification.
                                                Bank of America received $15 billion in Federal funds through TARP on
                                            October 28, 2008; an additional $10 billion on January 9, 2009; and $20 billion on
                                            January 16, 2009. It repaid taxpayers’ combined $45 billion TARP investment on
                                            December 9, 2009.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Kansas, the Social Security Administration’s Office of the Inspector
                                            General, and The Department of Homeland Security’s Immigration and Customs
                                            Enforcement.

                                            Mortgage Modification Fraudsters Ordered to Pay Restitution for Defrauding
                                            Homeowners in Nationwide Fraud Scheme – Christopher S. Godfrey, Dennis
                                            Fischer, and Vernell Burris, Jr., & Home Owners Protection Economics, Inc.
                                            (“HOPE”)
                                            On August 22, 2014, in the United States District Court for the District of
                                            Massachusetts, Christopher S. Godfrey, Dennis Fischer, Vernell Burris, Jr., and
                                            Brian M. Kelly, president, vice president, primary telemarketer trainer, and chief
                                            telemarketer (and telemarketer trainer), respectively, of Home Owners Protection
                                            Economics (“HOPE”) were, together, ordered to pay more than $110,000 in
                                            restitution to approximately 180 victims for their roles in defrauding numerous
                                            distressed homeowners in a nationwide $4 million mortgage modification scam
                                            through HOPE. The restitution order follows the previously reported February
                                            2014 sentencing of Godfrey and Fischer, each of whom received a seven-year
                                            prison term followed by three years of supervised release for their leading roles
                                            in the scheme. In November 2013, following a two-week trial, a Federal jury
                                            convicted Godfrey and Fischer of one count of conspiracy, eight counts of wire
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   43




fraud, eight counts of mail fraud, and one count of misuse of a Government
seal. Also in February 2014, Burris was sentenced to one year and one day in
Federal prison, followed by two years of supervised release, after pleading guilty to
conspiracy and wire fraud for his role in the mortgage modification scam.
    As previously reported, in August 2011, SIGTARP agents, and their law
enforcement partners, arrested Godfrey, Fischer, Burris, and Kelly. On April 24,
2014, after pleading guilty to one count of conspiracy, nine counts of wire fraud,
and nine counts of mail fraud, Kelly was sentenced to one year and one day in
Federal prison to be followed by three years of supervised release, and a $1,900
penalty.
    Through a series of misrepresentations, HOPE (through Godfrey, Fischer,
Burris and Kelly) induced thousands of financially distressed homeowners to
pay up-front fees of up to $2,000 each in exchange for home loan modifications,
modification services, and “software licenses.” In exchange for the fee, HOPE
sent homeowners a “do-it-yourself” application package that was nearly identical
to the U.S. Government’s free application through the Home Affordable
Modification Program (“HAMP”), a Federally funded mortgage assistance program
implemented under TARP. HOPE falsely represented to homeowners that, with
HOPE’s assistance, the homeowners were virtually guaranteed to receive a loan
modification under HAMP. For example, the defendants lulled these distressed
homeowners by routinely telling the homeowners that they had already been
approved for a loan modification, that the defendants were “underwriters” or were
otherwise affiliated with the homeowners’ mortgage companies, and that HOPE
had an almost perfect record of obtaining home loan modifications. In actuality,
however, HOPE customers had no advantage in the applications process and most
of their applications were denied. Through these misrepresentations, HOPE was
able to persuade numerous homeowners to pay more than $4 million collectively in
fees to HOPE. Victims of HOPE lived in all 50 states and Washington, DC.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Massachusetts, and the Computer Crime and Intellectual Property
Section of the U.S. Department of Justice’s Criminal Division.

TARP-Related Prohibitions from Working in Banking and Financial
Services; as a Government Contractor; or as a Licensed Attorney
SIGTARP investigations not only have led to lengthy prison terms, restitution
and forfeiture orders, and civil judgments for TARP-related offenses, but also
have resulted in senior executives being suspended or permanently banned from
working in banking and financial services, as a Government contractor, or as
a licensed attorney. As of September 30, 2014, SIGTARP investigations have
resulted in orders temporarily suspending or permanently banning 89 individuals
from working in the banking or financial industry, working as a contractor with
the Federal Government, or working as a licensed attorney. Many of these people
were at the highest levels of companies that applied for or received a TARP bailout.
They were trusted to exercise good judgment and make sound decisions. However,
they abused that trust, many times for personal benefit. The suspensions and
44   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            bans remove these senior executives (and others) from the banking and financial
                                            industries in which many practiced for years. A violation of the removal, in some
                                            instances, could be a basis for further prosecution. These high-level executives,
                                            some of whom were chief executive officers, chief financial officers, or licensed
                                            attorneys, have been sanctioned in a variety of ways, many by more than one
                                            authority: (i) by a sentencing court as part of the terms of supervised release
                                            after a prison term has been served; (ii) by the executive branch of the Federal
                                            Government as a bar from engaging in a Government contract; (iii) by a Federal
                                            banking regulator, which has the authority to ban an individual from working in the
                                            banking industry; (iv) by the Securities and Exchange Commission (“SEC”), which
                                            has the authority to issue certain bans relating to working in the securities industry;
                                            (v) by a Federal court in enforcing a Federal Trade Commission (“FTC”) request
                                            to order a ban against advertising, marketing, promoting, or selling mortgage
                                            assistance or mortgage relief; and (vi) by a state bar association, which has the
                                            authority to suspend or disbar a licensed attorney.
                                                Of the 89 individuals, 52 were heads or owners of companies, including
                                            those who were chairmen, chief executive officers, and presidents of financial
                                            institutions. Most of the remaining 37 individuals were chief financial officers,
                                            senior vice presidents, chief operating officers, chief credit officers, licensed
                                            attorneys, and other senior executives.
                                                This quarter, SIGTARP investigations resulted in two prohibitions that are a
                                            condition of guilty pleas. As part of their guilty pleas, Michael Hilbert and James
                                            Crews, businessmen who perpetrated a scheme to defraud TARP recipient Excel
                                            Bank in connection with around $2.6 million in loans which defaulted, agreed to
                                            be banned from being self-employed or employed as a consultant, as well as being
                                            involved in the creation, operation, or management of any business. Excel Bank
                                            later failed and the entirety of the $4 million TARP investment, and $900,000 in
                                            missed dividend and interest payments, was lost.

                                            Sentences Resulting from TARP-Related Crimes
                                            Of the 146 defendants convicted as a result of a SIGTARP investigation, 87
                                            defendants have already been sentenced to prison for TARP-related crimes, 21
                                            were sentenced to probation, and the remainder await sentencing.
                                                The consequences for TARP-related crime are severe. The average prison
                                            sentence imposed by courts for TARP-related crime investigated by SIGTARP is
                                            64 months, which is nearly double the national average length of prison sentences
                                                                                      iv
                                            involving white collar fraud of 36 months. Fourteen defendants investigated
                                            by SIGTARP were sentenced to 10 years or more in Federal prison, including
                                            Lee Farkas, former chairman of mortgage company Taylor, Bean and Whitaker
                                            Mortgage Corporation LLC (“TBW”), who is serving a 30-year prison sentence,
                                            and Edward Woodard, former chairman of the Bank of the Commonwealth, who
                                            is serving a 23-year prison sentence. Many of the criminal schemes uncovered
                                            by SIGTARP had been ongoing for years, and involved millions of dollars and

                                            iv See the U.S. Sentencing Commission’s 2013 Sourcebook of Federal Sentencing Statistics for additional information.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                         45




complicated conspiracies with multiple co-conspirators. On average, as a result
of SIGTARP investigations, criminals convicted of crimes related to TARP’s
banking programs have been sentenced to serve 76 months in prison. Criminals
convicted for mortgage modification fraud schemes or other mortgage fraud related
investigations by SIGTARP were sentenced to serve an average of 37 months in
prison. Criminals investigated by SIGTARP and convicted of investment schemes
such as Ponzi schemes and sales of fake TARP-backed securities were sentenced to
serve an average of 75 months in prison. Figure 1.3 shows the people sentenced to
prison, the sentences they received, and their affiliations.

FIGURE 1.3

INDIVIDUALS SENTENCED TO PRISON




 Lee Bentley Farkas           Edward Woodard               Stephen Fields               David McMaster               Mark Anthony McBride         Delroy Davy                   George Hranowskyj
 360 months                   276 months                   204 months                   188 months                   [deceased]                   168 months                    168 months
 3 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release   170 months                   5 years supervised release    3 years supervised release
 Chairman                     President & CEO              Executive Vice President     Vice President               5 years supervised release   Omni National Bank            Owner/Operator
 Taylor, Bean and Whitaker    Bank of the Commonwealth     Bank of the Commonwealth     American Mortgage            Omni National Bank                                         345 Granby, LLC
                                                                                        Specialists Inc.




 Mark A. Conner               Eric Menden                  Glen Alan Ward               Mark Farhood                 Robert Egan                  Gordon Grigg                  John Farahi
 144 months                   138 months                   132 months                   132 months                   132 months                   120 months                    120 months
 5 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release    3 years supervised release
 President                    Owner/Operator               Partner                      Owner                        President                    Financial Advisor and Owner   Investment Fund Manager
 FirstCity Bank               345 Granby, LLC              Timelender                   Home Advocate Trustees       Mount Vernon Money Center    ProTrust Management, Inc.     and Operator
                                                                                                                                                                                New Point Financial
                                                                                                                                                                                Services, Inc.




 Isaak Khafizov               Catherine Kissick            Robin Bruhjell Brass         Scott Powers                 Troy Brandon Woodard         Howard Shmuckler              Clayton A. Coe
 108 months                   96 months                    96 months                    96 months                    96 months                    90 months                     87 months
 3 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   5 years supervised release   3 years supervised release    5 years supervised release
 Principal                    Senior Vice President        Owner/Operator               CEO                          Vice President               Owner/Operator                Vice President
 American Home Recovery       Colonial Bank                BBR Group, LLC               American Mortgage            Bank of the Commonwealth     The Shmuckler Group, LLC      Senior Commercial Loan
                                                                                        Specialists Inc.             Subsidiary                                                 Officer
                                                                                                                                                                                FirstCity Bank




 Christopher Godfrey          David Tamman                 Dennis Fischer               Lawrence Allen Wright        Desiree Brown                Jason Sant                    Jerry J. Williams
 84 months                    84 months                    84 months                    75 months                    72 months                    72 months                     72 months
 3 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release   2 years supervised release    3 years supervised release
 President                    Attorney                     Vice President               Owner                        Treasurer                    Co-owner                      President, CEO, and Chairman
 H.O.P.E.                     Nixon Peabody LLP            H.O.P.E.                     Wright & Associates          Taylor, Bean and Whitaker    Home Advocate Trustees        Orion Bank
46                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Lori Macakanja                 Edward Shannon Polen         Adam Teague                    Francesco Mileto               Glenn Steven Rosofsky           Frederic Gladle              Bernard McGarry
     72 months                      71 months                    70 months                      65 months                      [deceased]                      61 months                    60 months
     3 years supervised release     5 years supervised release   5 years supervised release     5 years supervised release     63 months                       3 years supervised release   3 years supervised release
     Housing Counselor              Owner                        Vice President                                                3 years supervised release      Operator                     Chief Operatiing Officer
     Home Front, Inc.               Polen Lawn Care and          Appalachian Community Bank                                    Owner                           Timelender                   Mount Vernon Money Center
     (a HUD-approved company)       Maintenance/F&M                                                                            Federal Housing Modification
                                                                                                                               Department




     Delton de Armas                Jeffrey Levine               Richard Pinto [deceased]       William Cody                   Steven Pitchersky               Dwight Etheridge             Michael Edward Filmore
     60 months                      60 months                    60 months                      60 months                      51 months                       50 months                    48 months
     3 years supervised release     5 years supervised release   5 years supervised release     5 years supervised release     5 years supervised release      5 years supervised release   3 years supervised release
     CFO                            Executive Vice President     Chairman                       Owner/Operator                 Owner/Operator                  President                    Straw Borrower
     Taylor, Bean and Whitaker      Omni National Bank           Oxford Collection Agency       C&C Holdings, LLC              Nationwide Mortgage Concepts    Tivest Development &
                                                                                                                                                               Construction, LLC




     Peter Pinto                    Winston Shillingford         Julius Blackwelder             Paul Allen                     Brent Merriell                  Robert E. Maloney, Jr.       Cheri Fu
     48 months                      48 months                    46 months                      40 months                      39 months                       39 months                    36 months
     3 years supervised release     3 years supervised release   3 years supervised release     2 years supervised release     5 years supervised release      3 years supervised release   5 years supervised release
     President/COO                  Co-owner                     Manager                        CEO                                                            In-house Counsel             Owner/President
     Oxford Collection Agency       Waikele Properties Corp.     Friends Investment Group       Taylor, Bean and Whitaker                                      FirstCity Bank               Galleria USA




     Christopher Tumbaga            Marleen Shillingford         Roger Jones                    Michael Trap                   Raymond Bowman                  Thomas Hebble                Marvin Solis
     36 months                      36 months                    33 months                      30 months                      30 months                       30 months                    27 months
     4 years supervised release     3 years supervised release   3 years supervised release     3 years supervised release     2 years supervised release      3 years supervised release   3 years supervised release
     Loan Officer                   Co-owner                     Federal Housing Modification   Owner                          President                       Executive Vice President     Owner
     Colorado East Bank and Trust   Waikele Properties Corp.     Department                     Federal Housing Modification   Taylor, Bean and Whitaker       Orion Bank                   Hawk Ridge Investments, LLC
                                                                                                Department




     Tommy Arney                    Angel Guerzon                Clint Dukes                    Jesse Litvak                   Joseph D. Wheliss, Jr.          Reginald Harper              Karim Lawrence
     27 months                      24 months                    24 months                      24 months                      24 months                       24 months                    21 months
     3 years supervised release     3 years supervised release   5 years supervised release     3 years supervised release     5 years supervised release      3 years supervised release   5 years supervised release
     Owner                          Senior Vice President        Owner                          Managing Director              Owner/Operator                  President and CEO            Officer
     Residential Development        Orion Bank                   Dukes Auto Collision Repair    Jeffries LLC                   National Embroidery Works Inc   First Community Bank         Omni National Bank
     Company
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                      47




Thomas Fu                    Ziad Nabil Mohammed             Christopher Woods               Matthew Amento               Robert Ilunga                Troy A. Fouquet              Andrew M. Phalen
21 months                    Al Saffar                       18 months                       18 months                    18 months                    18 months                    12 months
5 years supervised release   21 months                       3 years supervised release      3 years supervised release   3 years supervised release   3 years supervised release   5 years probation
Owner/CFO                    3 years supervised release      Owner                           Owner                        Manager                      Owner                        Operator
Galleria USA, Inc.           Operator                        Blue and White Management,      Blue and White Management,   Waikele Properties Corp.     Team Management, LLC         CSFA Home Solutions
                             Compliance Audit                Ameridream                      Ameridream                                                TRISA, LLC
                             Solutions, Inc.




Brian M. Kelly               Carlos Peralta                  Gregory Flahive                 Lynn Nunes                   Sara Beth Bushore            Vernell Burris               Walter Bruce Harrell
12 months                    12 months                       12 months                       12 months                    Rosengrant                   12 months                    10 months
3 years supervised release   3 years supervised release      3 years probation               5 years supervised release   12 months                    2 years supervised release   3 years supervised release
Employee                     Park Avenue Bank                Owner/Attorney                  Owner                        3 years supervised release   Employee                     Owner
H.O.P.E.                                                     Flahive Law Corporation         Network Funding              Operator                     H.O.P.E.
                                                                                                                          Compliance Audit
                                                                                                                          Solutions, Inc.




Justin D. Koelle             Jacob J. Cunningham             John D. Silva                   Daniel Al Saffar             Dominic A. Nolan             Eduardo Garcia Sabag         Sean Ragland
9 months                     8 months                        8 months                        6 months                     6 months                     3 months                     3 months
5 years probation            5 years probation               5 years probation               3 years supervised release   5 years probation            Deported                     3 years supervised release
CEO                          CEO                             Senior Official                 Sales Representative         Owner                        Borrower                     Senior Financial Analyst
CSFA Home Solutions          CSFA Home Solutions             CSFA Home Solutions             Compliance Audit             CSFA Home Solutions                                       Taylor, Bean and Whitaker
                                                                                             Solutions, Inc.




Teresa Kelly                 Mark W. Shoemaker               Michael Bradley Bowen
3 months                     1 day                           1 day
3 years supervised release   (with credit for time served)   (with credit for time served)
Operations Supervisor        5 years supervised release      5 years supervised release
Colonial Bank
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Location of TARP-Related Crimes
                                            SIGTARP has found, investigated, and supported the prosecution of TARP-related
                                            crime throughout the nation. Our investigations have led to criminal charges
                                            against 212 defendants (146 of whom have been convicted as of September 30,
                                                                            v
                                            2014, while others await trial). These defendants were charged in courts in 25
                                            states and Washington, DC. SIGTARP investigations have identified victims of
                                            TARP-related crimes in all 50 states and Washington, DC. Victims of TARP-related
                                            crimes include taxpayers, the Federal Government (including Treasury and FDIC),
                                            TARP recipient banks, and homeowners targeted by mortgage modification scams.
                                            Figure 1.4 shows locations of U.S. Attorney’s Offices and state prosecutorial offices
                                                                                                                     vi
                                            where criminal charges were filed as a result of SIGTARP investigations.




                                            v Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
                                            vi The prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
                                              investigations.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   49




FIGURE 1.4

LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
SIGTARP INVESTIGATIONS



                                                Fargo
                                                                                                                         Concord
                                                                                                                           Boston
                                                                                             Buffalo       Brooklyn
                                                                 Madison                                 New York       New Haven
                                                                                Chicago                               Newark
  Sacramento                                                                                                  Philadelphia
                                                                                       Columbus Wilmington
                                                                                                          Upper Marlboro
    San Francisco                                                                                        District of Columbia
                                    Denver                                                         Alexandria
                                                              Kansas City
                                                                                                             Norfolk
                                                                        St. Louis
        Las Vegas                            Wichita
                                                        Jefferson City
                                                                           Nashville        Knoxville
Los Angeles
                                                                     Little Rock
               San Diego                                                                     Atlanta
                                                                      Birmingham
                                                                                               Macon


                                                                                              Tallahassee
                                                                              New Orleans
                                                   San Antonio
                                                                                                        Tampa




Birmingham, Alabama                 Atlanta, Georgia                                   Newark, New Jersey
Northern District of Alabama        Northern District of Georgia                       District of New Jersey
Little Rock, Arkansas               Chicago, Illinois                                  Las Vegas, Nevada
Eastern District of Arkansas        Northern District of Illinois                      District of Nevada
Los Angeles, California             Chicago, Illinois                                  Brooklyn, New York
Central District of California      Circuit Court of Cook County, Illinois             Eastern District of New York
Sacramento, California              Kansas City, Kansas                                Buffalo, New York
Eastern District of California      District of Kansas                                 Western District of New York
Sacramento, California              Wichita, Kansas                                    New York, New York
Superior Court of California        District of Kansas                                 Southern District of New York
San Francisco, California           New Orleans, Louisiana                             Columbus, Ohio
Northern District of California     Eastern District of Louisiana                      Southern District of Ohio
San Diego, California               Boston, Massachusetts                              Philadelphia, Pennsylvania
Southern District of California     District of Massachusetts                          Eastern District of Pennsylvania
Denver, Colorado                    Upper Marlboro, Maryland                           Knoxville, Tennessee
District of Colorado                Prince George’s District Court                     Eastern District of Tennessee
New Haven, Connecticut              St. Louis, Missouri                                Nashville, Tennessee
District of Connecticut             Eastern District of Missouri                       Middle District of Tennessee
Wilmington, Delaware                Kansas City, Missouri                              San Antonio, Texas
District of Delaware                Western District of Missouri                       Western District of Texas
Tampa, Florida                      Jefferson City, Missouri                           Alexandria, Virginia
Middle District of Florida          Western District of Missouri                       Eastern District of Virginia
Tallahassee, Florida                Fargo, North Dakota                                Madison, Wisconsin
Northern District of Florida        District of North Dakota                           Western District of Wisconsin
Macon, Georgia                      Concord, New Hampshire                             Washington, DC
Middle District of Georgia          District of New Hampshire                          U.S. Department of Justice

Note: Italics denote state cases.
50   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Restitution and Forfeiture from TARP-Related Crimes
                                            As of September 30, 2014, investigations conducted by SIGTARP have resulted in
                                            more than $7.38 billion in court orders and Government settlements for the return
                                            of money to victims or the Government. These orders happen only after conviction
                                            and sentencing or civil resolution and many SIGTARP cases have not yet reached
                                            that stage; therefore, any additional court orders would serve to increase this
                                            amount.
                                                Two cases in particular that SIGTARP investigated have resulted in not
                                            only lengthy prison sentences for a number of individuals in each case but also
                                            significant orders of forfeiture and restitution. In the Colonial Bank/Taylor, Bean
                                            and Whitaker Mortgage Corporation LLC (“TBW”) case, former TBW chairman
                                            Lee Bentley Farkas spearheaded a $2.9 billion fraud scheme that contributed to
                                            the failure of Colonial Bank, the sixth largest bank failure in U.S. history. The case
                                            resulted in not only prison time for eight people including Farkas but also court-
                                            ordered restitution of $3.5 billion and forfeiture of $38.5 million. In the Bank of
                                            the Commonwealth case (“BOC”), where former chairman Edward J. Woodard led
                                            a $41 million bank fraud scheme that masked non-performing assets at BOC and
                                            contributed to the failure of BOC in 2011, the court entered a restitution order of
                                            $333 million and a forfeiture order of $65 million against nine defendants, each
                                            responsible for at least a portion.
                                                Overall in SIGTARP cases, orders of restitution and forfeiture to victims and
                                            the Government of numerous assets as well as seized assets pending final order
                                            include dozens of vehicles, more than 30 properties (including businesses and
                                            waterfront homes), more than 30 bank accounts (including a bank account located
                                            in the Cayman Islands), bags of silver, U.S. currency, antique and collector coins
                                            (including gold, silver, and copper coins), artwork, antique furniture, Civil War
                                            memorabilia, NetSpend Visa and CashPass MasterCard debit cards, Western
                                            Union money orders with the “Pay To” line blank, and the entry of money
                                            judgments by courts against more than 20 defendants.
                                                Of the vehicles ordered to be forfeited (including automobiles, a tractor, water
                                            craft, recreational and commercial vehicles) several are antique and expensive cars,
                                            including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954 Cadillac Eldorado
                                            convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
                                                As part of the Bank of the Commonwealth case, Thomas Arney, who pled guilty
                                            for his role in the bank fraud scheme, agreed to forfeit the proceeds from the sale
                                            of two antique cars to the Government: a 1948 Pontiac Silver Streak and a 1957
                                            Cadillac Coup de Ville. Figure 1.5 includes pictures of the forfeited cars, as well as
                                            other examples of assets seized by the Government in SIGTARP investigations.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   51




FIGURE 1.5




1957 Cadillac Coupe de Ville.                    1948 Pontiac Silver Streak.




2010 Mercedes-Benz GLK 350 4Matic.               2005 Hummer H2. Estimated value in 2013:
Estimated value in 2013: $29,000. (Source        $24,000. (Source Kelley Blue Book)
Kelley Blue Book)




Property located in Norfolk, Virginia. (Photo    1958 Mercedes-Benz Cabriolet 220. Estimated
courtesy of Bill Tiernan, The Virginian-Pilot)   value in 2013: $185,000. (Source Hagerty.com)




                                                 19th century English painting of
                                                 “Royal Family,” oil on canvas.
                                                 Estimated appraised value:
                                                 $6,000.
52   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
                                            courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                                                               candelabra arms. Estimated appraised value:
                                                                                               $8,000.




                                            2005 Scout Dorado. (Sold for $1,800)               Cash seized from safe, $158,000.




                                            Alabama property ordered forfeited.                Kubota tractor.




                                            Artwork with a total value of $71,525, including
                                            paintings worth up to $10,000 each.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   53




SIGTARP Audit Activity
SIGTARP has initiated 31 audits and 6 evaluations since its inception. As of
September 30, 2014, SIGTARP has issued 23 reports on audits and evaluations.
Among the ongoing audits and evaluations in process are reviews of ongoing audits
and evaluations in process are reviews of: (i) Treasury’s and the state housing
finance agencies’ implementation and execution of the Hardest Hit Fund; and
(ii) Treasury’s role, implementation, and status of the Hardest Hit Fund Blight
Elimination Program.

Recent Audits/Evaluations Released

Treasury Signficantly Loosened Executive Pay Limits Resulting in Excessive Pay
for Top 25 Employees at GM and Ally (GMAC) When the Companies Were not
Repaying TARP in Full and Taxpayers Were Suffering Billons of Dollars in Losses
Former Treasury Secretary Timothy F. Geithner said that executive compensation
played a material role in the financial crisis. As restraint in exchange for
taxpayer bailouts, Congress and the President announced that Troubled Asset
Relief Program (“TARP”) recipients would be required to abide by certain rules
on executive compensation, rules that the U.S. Department of the Treasury
(“Treasury”) was required to promulgate. In February 2009, the President
announced “reforms” that “top executives at firms receiving extraordinary help
from U.S. taxpayers will have their compensation capped at $500,000, a fraction
of the salaries that have been reported recently. And if these executives receive
any additional compensation, it will come in the form of stock that can’t be
paid up until taxpayers are paid back for their assistance.” After the President’s
announcement, Treasury promulgated a rule that listed six principles to keep pay
for TARP companies in the interest of taxpayers, principles that Treasury’s former
Special Master for TARP Executive Compensation (“Special Master”) Kenneth
R. Feinberg found inherently inconsistent. Therefore, he developed a three-step
methodology using what he called “prescriptions,” or guidelines, that Treasury’s
Office of the Special Master for TARP Executive Compensation (“OSM”) used to
set pay for the Top 25 employees at seven companies that had received exceptional
assistance under TARP.
    In 2012, the Office of the Special Inspector General for the Troubled Asset
Relief Program (“SIGTARP”) reported that it found that the Special Master
could not effectively rein in excessive compensation because he was under the
constraint that his most important goal was to get the companies to repay TARP
(one of Treasury’s six principles). Given OSM’s overriding goal, the companies
had significant leverage by proposing and negotiating for excessive pay, warning
that if he did not provide competitive pay packages, top officials would leave
and go elsewhere, a claim that he said did not come true. The former Special
Master recounts in his book, Who Gets What: Fair Compensation after Tragedy
and Financial Upheaval (“Who Gets What”) that the primary goal in determining
payments for corporate officials was to maximize the likelihood that the companies
54   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            would repay TARP as quickly as possible because the taxpayers had to be made
                                            whole. SIGTARP reported in 2012 that, although OSM limited cash compensation
                                            and made some reductions in pay, OSM still approved total compensation in the
                                            millions. In 2013, SIGTARP published a second report that Acting Special Master
                                            Patricia Geoghegan rolled back OSM’s application of guidelines aimed at curbing
                                            excessive pay, effectively relinquishing some of OSM’s authority by relying to a
                                            great extent on the companies’ pay proposals or justifications rather than robust
                                            policies, procedures, or criteria to ensure that OSM’s guidelines are met.
                                                 By April 2013, when Treasury’s OSM set 2013 pay, it found itself with an
                                            incredibly narrow and limited job because there were only two companies left in
                                            its jurisdiction. OSM touted as the ultimate metric of success for its pay decisions
                                            the fact that the other five companies had exited TARP with taxpayers being made
                                            whole (even though some of those companies did not repay but Treasury sold
                                            their stock in the market). General Motors Corporation (“GM”) and its prior auto
                                            financing arm General Motors Acceptance Corp. (“GMAC Inc.,” rebranded as
                                            Ally Financial Inc. (“Ally”)) were not only the last two companies under OSM’s
                                            jurisdiction, they were the last two large companies still in TARP after four years.
                                            GM and former GMAC were having trouble repaying TARP in full, taxpayers had
                                            suffered losses on both investments, and the Government estimated final losses of
                                            $20 billion to $25 billion on the auto bailout (including losses on GM, Ally, and the
                                            $2.9 billion loss taxpayers suffered from the TARP investment in Chrysler Holding
                                            LLC (“Chrysler”).
                                                 Having not received TARP repayments in full from GM and Ally, Treasury made
                                            the decision to sell the TARP stock in GM into the market and allowed GM to buy
                                            back some of the stock, both at significant losses. When Treasury’s OSM set 2013
                                            pay, taxpayers had already lost $8.2 billion on the TARP investment in GM.
                                                 Ally had made no repayments of the principal TARP investment. While Ally was
                                            under a March 2013 failed stress test, taxpayers suffered a loss of $845 million
                                            when Treasury sold Ally common stock in the market. SIGTARP evaluated Treasury
                                            OSM’s determinations of 2013 pay for GM and Ally Top 25 employees. While
                                            SIGTARP was conducting this evaluation, Treasury sold its remaining TARP shares
                                            of GM into the market to arrive at a total loss to taxpayers of $11.159 billion, and
                                            sold some of its Ally common stock into the market to arrive at total losses of $1.8
                                            billion. In April 2014, OSM’s job got even narrower as it set 2014 pay for the Top
                                            25 employees at only one company, Ally.
                                                 SIGTARP found that Treasury continued to award excessive pay by approving
                                            some of the companies’ requests for pay raises and high guaranteed cash salaries,
                                            and approving the companies’ requests to accelerate the time limit for corporate
                                            officials to cash out company stock received as pay, and to eliminate pay tied to
                                            individual performance metrics and the repayment of TARP (long-term restricted
                                            stock). SIGTARP found that after making the pay determinations in April 2013,
                                            Treasury made limited progress since SIGTARP’s last report but did not make the
                                            meaningful reforms needed and previously recommended by SIGTARP. In June
                                            2013, OSM created for the first time a written policy and procedures.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   55




    However, these appear to be an attempt to document what OSM had done
historically without meaningful change as SIGTARP recommended. OSM’s policy
merely recites TARP legislation and the Treasury Rule, both in existence prior to
the establishment of OSM, leaving OSM as an office of Treasury that operates
without formal written policies developed by that office. SIGTARP found that
Treasury did not have robust policies, procedures, or criteria to ensure that OSM’s
guidelines are met. Two aspects of Treasury’s pay-setting process and pay decisions
serve as important lessons learned.
    First, loosening limits on executive compensation for companies unable to repay
TARP subjects Treasury to criticism that it is rewarding top executives at companies
that are losing taxpayers’ money over the interests of the taxpayers already shouldering
billions of dollars in losses on those investments.
     SIGTARP found the same thing that it reported in 2012 – that it continues to
be the case that, given OSM’s overriding goal of repayment to taxpayers, GM and
Ally had significant leverage by proposing and negotiating for excessive pay, warning
that if OSM did not provide competitive pay packages, top officials would leave and
go elsewhere. We note that this is a claim that Feinberg said did not come true.
GM and Ally continued to lack an appreciation for their situation and were notably
persistent in proposing more and more pay with fewer and fewer restrictions for
their top officials. Every year they sought exception after exception to OSM’s
guidelines. Bowing to the scare tactics of companies that employees would leave
if OSM did not approve their proposed pay, in 2013 OSM continued to make pay
decisions in a process that was ad hoc and inconsistent.
    OSM made decisions based on which of the company’s proposals it would
approve, rather than using independent objective criteria designed to adhere to
OSM’s pay guidelines. The result has been that, every year, Treasury awarded
corporate officials at TARP companies more and more exceptions to Treasury’s
pay guidelines, which appears to have encouraged the companies to propose more
exceptions each year.
    Treasury-approved exceptions to its own guideline restrictions on executive
compensation added up incrementally such that by OSM’s fifth year, 2013,
OSM had gotten further and further away from the President’s announcement
and OSM’s prior guidelines, even as taxpayer losses mount. SIGTARP found the
following:

•	 In 2009, Treasury’s guideline was to set pay to “generally not exceed the 50th
   percentile” of what their peers made. Treasury appears now to have done away
   with this guideline and by 2014 set most of Ally’s pay between the 50th and
   75th percentile.
•	 Treasury-approved pay increased 28% for GM and Ally Top 25 employees from
   2009 to 2013.
•	 Treasury awarded average pay of $3 million in 2013 to GM and Ally Top 25
   employees.
•	 In 2013, Treasury approved $3 million in aggregate pay raises for nine GM
   employees, most of whom received pay raises in consecutive annual years.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Those raises were excessive. The pay raises ranged from 4% to 20%, averaging
                                                 9.4%, which exceeded the June 2013 1.8% Consumer Price Index (a measure of
                                                 inflation) by 422%. Treasury awarded these nine employees pay that exceeded
                                                 the 2012 median household income, according to the U.S. Census Bureau, by
                                                 7,600%.
                                            •	   In 2013, Treasury approved 19 of 21 (90%) of the employees for whom GM and
                                                 Ally had requested cash salaries that would exceed the median.
                                            •	   By 2013, Treasury had loosened its guideline that guaranteed cash salary would
                                                 be limited to $500,000 per year, which was based on the President’s statement
                                                 that cash salaries not exceed that threshold. Treasury’s June 2013 guideline
                                                 states: “Base salary paid in cash should in most cases not exceed $500,000.”
                                            •	   In 2009, Treasury awarded fewer than 10% of the officials in the seven
                                                 companies to be paid cash salary in excess of $500,000, which tripled (34%) by
                                                 2013.
                                            •	   In 2009, Treasury awarded 5 employees of GM and Ally cash salaries greater
                                                 than $500,000, which tripled to 16 employees by 2013.
                                            •	   In 2013, Treasury allowed almost all of the remaining Top 25 employees at GM
                                                 and Ally to be paid cash salaries of $450,000 or more.
                                            •	   Typically one-third of compensation in 2009 for Ally and GM, Treasury has
                                                 eliminated long-term restricted stock as part of pay for Ally in 2012 and 2014,
                                                 which is the type of stock referred to by the President, and the only stock tying
                                                 individual performance to TARP repayment.
                                            •	   Treasury loosened time restrictions by a full year for employees to cash out
                                                 company stock received as pay.

                                                 Just as SIGTARP found in its January 2013 report, SIGTARP found that Acting
                                            Special Master Patricia Geoghegan continued to roll back OSM’s application
                                            of guidelines aimed at curbing excessive pay, effectively relinquishing some of
                                            OSM’s authority by relying to a great extent on the company’s pay proposals or
                                            justifications rather than robust policies, procedures, or criteria to ensure that
                                            OSM’s guidelines are met. OSM is granting many company requests without
                                            independent analysis but instead based on the companies’ justification that the
                                            employees had enormous responsibilities and these exceptions are needed to retain
                                            the employees. While compensation committees at corporations may work like this,
                                            it is not good Government practice to get further and further away from important
                                            guidelines by approving exception after exception. Treasury has allowed OSM
                                            to not implement six of seven SIGTARP recommendations that were designed
                                            to keep OSM accountable to guidelines limiting excessive pay. A lack of robust
                                            criteria, policies, and procedures to ensure that guidelines are met leads to a lack of
                                            transparency, inconsistency, and ultimately a lack of accountability to taxpayers.
                                                 The pendulum in OSM’s pay decisions has swung too far in the direction of
                                            keeping companies competitive, without regard for the fact that the reason to keep
                                            companies competitive is so that they can repay taxpayers in full, but GM and
                                            Ally were not repaying taxpayers in full. Rather, taxpayers have suffered billions
                                            of dollars in losses on those TARP investments. There should be no expectation
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   57




on the part of the companies or Treasury that pay should increase as companies
get farther in time from the crisis because that theory does not take into account
the fact that four years have not led these companies to repay taxpayers fully.
GM’s stock price never rose near to Treasury’s break-even price, but Treasury
continued to award pay raises, cash in excess of $500,000, and multimillion-dollar
pay. Treasury’s pay decisions suggest that OSM’s overriding objective/principle of
“repayment of TARP” inures to the benefit of top executives at TARP companies
when Treasury sets pay. According to Feinberg’s book, Secretary Geithner’s primary
concern was “compensation should reflect the need for the company to recruit and
retain key employees so the company ultimately could repay every cent borrowed.
Pay back the taxpayers – with interest. Every company subject to my jurisdiction,
and much of the Treasury bureaucracy, referenced this variable in urging the
special master to be generous when it came to compensation.”
    Feinberg was referring to his role in 2009 and 2010, but since then GM and
Ally have had much trouble repaying TARP fully, which is not reflected in OSM’s
pay decisions. If Treasury wants to use “repayment of TARP” as a factor to approve
“generous” pay, the lack of full repayment of TARP by GM and Ally should likewise
be reflected by Treasury to limit or maintain pay, but not to loosen restrictions on
pay more and more each year. Taxpayers are already subsidizing losses on TARP
investments in these companies and should not be forced by Treasury to subsidize
excessive executive compensation.
    Second, by setting pay further and further away from the President’s and Treasury’s
announced limitations on executive compensation for TARP company officials,
Treasury is missing an opportunity for critical reforms to a material cause of the
financial crisis and a strong deterrent to future bailouts.
    Even though six of the seven TARP exceptional assistance companies are no
longer in TARP, having strong restrictions on executive compensation at TARP
companies remains critical for the future. Should a future bailout occur, it is
important to have two playbooks. The first playbook the public needs would
describe how Treasury and other Government officials actually made decisions
in the TARP bailout, which requires transparency through written policies
and procedures and good documentation. SIGTARP’s reports bring as much
transparency to this decision making as is possible, but ultimately we are limited
due to the lack of robust policies and procedures, and the ad hoc nature by which
OSM makes decisions. The second playbook the public needs would describe how
the Government could have improved, as determined by oversight agencies such as
SIGTARP, so that future Government officials faced with the possibility of a bailout
with limited time, have a go-to guide for best practices in decision making. In the
height of the crisis, when the Government was making much of its decisions, a lack
of some documentation or some objective criteria was to be expected for first-of-
their-kind decisions. It was one thing in 2009 for OSM to operate without written
policies, procedures, and criteria when OSM officials were just trying to get their
hands around a wealth of information on pay at these companies. However, there is
no excuse now for OSM to not have objective criteria to keep OSM accountable to
strong limits on pay at TARP companies. Moreover, OSM loosening restrictions on
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            pay could have the effect of loosening incentives for individual corporate executives
                                            to work toward their company repaying TARP. Bank of America Corporation and
                                            Citigroup Inc. told SIGTARP that the limits on executive compensation motivated
                                            them to get out of TARP’sexceptional assistance programs as soon as they could
                                            in 2009. Ally is still in TARP today, and the Government should be keeping every
                                            incentive it has to get Ally to repay TARP. Now no individual at Ally has to meet any
                                            performance metric to receive their pay or wait until taxpayers are paid back (as
                                            the President announced). This is just what Ally wanted. Removing ties between
                                            individual pay and the long-term success of the company and the repayment of
                                            TARP by the company could have the dangerous effect that Ally executives with no
                                            stake in TARP repayment would not work toward repayment but instead watch the
                                            Government sell Ally common stock into the market at further losses to taxpayers.
                                                In addition, by loosening restrictions on pay, OSM could be sending the
                                            message that the much-needed reforms coming out of the financial crisis are no
                                            longer necessary or required in exchange for Federal dollars. In 2009, the President
                                            announced restraints on pay at TARP companies as reforms, stating: “so that when
                                            firms seek new federal dollars, we won’t find them up to the same old tricks.” By
                                            getting further and further away from the President’s announced reforms and
                                            Treasury’s own guidelines, our nation may find the firms up to theirsame old tricks.
                                                OSM’s position that there is nothing requiring it to follow the President’s
                                            announcement misses the point because the President was announcing reforms
                                            designed to combat one of the material causes of the financial crisis. OSM’s own
                                            guidelines were created as reforms because leading up to the crisis, corporate
                                            officials at TARP companies were paid with high guaranteed cash salaries with “no
                                            skin in the game.” OSM’s guideline under former Special Master Feinberg that
                                            cash salaries generally not exceed $500,000 was about giving an employee “skin
                                            in the game.” Feinberg also used a significant amount of pay in the form of long-
                                            term restricted stock to “join at the hip” the individual and corporation, through
                                            individual performance focused on extended corporate growth over at least three
                                            years, not just short-term corporate success.
                                                Weakening restrictions on executive compensation could have the very
                                            dangerous effect of not providing employees enough skin in the game, and could
                                            tip the balance toward excessive risk. In 2013, OSM tripled the number of
                                            corporate officials paid guaranteed cash salaries over $500,000 in 2009, and put
                                            almost everyone else just under that cash threshold. OSM accelerated by one year
                                            the prior time restriction for corporate officials to cash out corporate stock received
                                            as pay from 2009 to 2014, effectively guaranteeing more cash pay and reducing
                                            an employee’s skin in the game even further. OSM gave a tiny (effectively 5%)
                                            portion of pay to Ally employees in long-term restricted stock in 2013 tied to long-
                                            term corporate success and TARP repayment, only to remove it entirely in 2014.
                                            Eroding reforms coming out of the financial crisis could have the dangerous effect
                                            of allowing companies to end up in the same place that required reforms in the first
                                            place.
                                                Finally, should this nation face the possibility of a future bailout, strong
                                            limitations on executive compensation on this still-existing TARP bailout could
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   59




have a deterrent effect on companies asking the Government for Federal dollars.
No one employee, no matter how valuable to his or her company, is important
enough to risk weakening a deterrent to future bailouts.

Update on SIGTARP’s audit of the Results of Treasury’s Use of Capital
Surveys to and Responses from Recipients of Funds from the Troubled Asset
Relief Program, including the Capital Purchase Program (“CPP”) and the
Community Development Capital Initiative (“CDCI”)
On September 2, 2014, SIGTARP sent a letter to the Secretary of the U.S.
Department of the Treasury (“Treasury”) with an interim report on SIGTARP’s
audit of the Results of Treasury’s Use of Capital Surveys to and Responses from
Recipients of Funds from the Troubled Asset Relief Program, including the
Capital Purchase Program (“CPP”) and the Community Development Capital
Initiative (“CDCI”). The audit objective is to assess Treasury’s surveys and recipient
responses covering the period 2009 through 2012. During audit fieldwork,
SIGTARP identified issues that warranted Treasury’s immediate attention.
    In response to SIGTARP’s repeated recommendations to Treasury that it survey
CPP institutions concerning how they used TARP funds, Treasury began doing so
in 2010. According to Treasury, the purpose of Treasury’s annual “Use of Capital
Survey” is for Treasury to obtain insight into the lending, financial intermediation,
and capital building activities of all CPP and CDCI fund recipients.
    SIGTARP’s September 2014 letter communicated several serious concerns
to the Treasury Secretary. SIGTARP discovered that the surveys posted on
Treasury’s website are not the original documents submitted by the institutions to
Treasury because, according to Treasury, Treasury officials converted the survey
responses to a useable format. However, SIGTARP found that Treasury in some
cases actually modified certain data the institutions reported, presenting a risk of
inaccurate reporting. SIGTARP also found errors in how Treasury summarized
the information provided by the institutions. Treasury does not have an adequate
review process during or after the survey process. Treasury officials told SIGTARP
that there was no oversight concerning whether or not the changes from the
institutions’ data should have been made, nor did Treasury follow up with the
institutions to ensure the changes accurately reflected the data reported. According
to Treasury officials, the only review provided by Treasury supervisors of the survey
submissions was a cursory review of the summary table and the text posted on the
website prior to the institutions’ submission to the Office of Financial Stability
media representative responsible for coordinating the posting. A cursory review
without researching the underlying documents may not have revealed many of the
deficiencies that SIGTARP found.
    Treasury also does not appear to take any action if a CPP institution or CDCI
institution fails to respond to the survey each year on how it is using TARP
funds, despite the fact that these institutions remain in TARP. Moreover, this
is particularly egregious for CDCI institutions as the reporting requirement is
mandatory. If Treasury does not enforce its requirement that institutions report on
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            the use of TARP funds, Treasury is not implementing SIGTARP’s recommendation,
                                            which was designed to bring significant transparency.
                                                SIGTARP found errors that even a cursory review should have detected – errors
                                            that any member of the public would have encountered. For example, of the eight
                                            categories of use of TARP funds presented in Treasury’s summary for 2009, only
                                            percentages for two categories were correct. Moreover, percentages for all eight
                                            categories presented in Treasury’s summary for 2011 and 2012 were incorrect.
                                            Additional obvious errors that should have been detected, including misspelled
                                            words and the omission of information that should have been included in the
                                            narrative section of the website, went undetected and were posted on the website.
                                            In addition, on Treasury’s website, under the caption “Survey Results,” Treasury’s
                                            website states that there are eight categories of use of TARP funds. However, only
                                            seven are listed; the one that is missing is “increase lending or reduce lending less
                                            than otherwise would have occurred,” arguably the most important use of TARP
                                            funds. As another example, in the 2012 surveys, SouthFirst Bank has two surveys
                                            listed under its name. However, only one of those belongs to that institution. The
                                            second survey is data on Pulaski Financial Corporation. Treasury’s website under
                                            the “P” listing of institutions lists no survey for Pulaski Financial Corporation.
                                                The financial crisis of 2008 had a detrimental impact on the financial industry.
                                            Through their tax dollars, American taxpayers funded massive efforts to support
                                            institutions that were on the brink of financial ruin. Simply put, the American
                                            public has a right to know how taxpayer dollars in TARP are being spent. Instead,
                                            Treasury, as well as CPP and CDCI recipients, have left the American public in the
                                            dark. Treasury must ensure that full disclosure is made concerning how CPP and
                                            CDCI recipients used the TARP funds.
                                                SIGTARP’s letter made six recommendations to address these findings. On
                                            August 27, 2014, Treasury provided a response to a draft of this letter, in which it
                                            stated that it generally agreed with each of the recommendations and that it would
                                            keep SIGTARP apprised of its actions to address the recommendations. Treasury
                                            must address the deficiencies SIGTARP identified so that the American taxpayer
                                            can be better assured of the accuracy of Treasury-reported information concerning
                                            the CPP and CDCI programs, and to enhance transparency.
                                                The letter in its entirety, along with Treasury’s response, can be found in
                                            Appendix L.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives
                                            and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
                                            General and her staff meet regularly with and brief members of Congress and
                                            Congressional staff. In July, SIGTARP’s Deputy Chief of Staff, Chuck Jones,
                                            and Senior Policy Advisor, Brian Sano, provided briefings to Congressional staff
                                            on SIGTARP’s July 2014, Quarterly Report. Also in July, the Special Inspector
                                            General, Christy Romero, submitted written Congressional testimony on “What
                                            Makes a Bank Systemically Important?” to the U.S. Senate Banking Committee’s
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                   61




Financial Institutions and Consumer Protection Subcommittee.  Copies of
SIGTARP’s Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and                                                                FIGURE 1.6
cost-effective, obtains services through SIGTARP’s authority to contract.
                                                                                                                                             SIGTARP FY 2014
                                                                                                                                             OPERATING PLAN
Staffing and Infrastructure                                                                                                                  ($ MILLIONS, PERCENTAGE OF $42.2 MILLION)
SIGTARP’s headquarters are in Washington, DC, with regional offices in New
York City, Los Angeles, San Francisco, and Atlanta. As of September 30, 2014,
                                                                                                                                                    Other Services
SIGTARP had 154 employees. The SIGTARP organization chart as of October 29,                                                                               $1.5, 4%
2014, can be found in Appendix K, “Organizational Chart.” SIGTARP posts all of
                                                                                                                                             Advisory Services
its reports, testimony, audits, and contracts on its website, www.sigtarp.gov.                                                                           $2.6
     From its inception through September 30, 2014, SIGTARP’s website has had                                                                                    6%

more than 61.1 million web “hits,” and there have been more than 5.4 million                                                                  Interagency                           Salaries
                                                                                                                                              Agreements 24%                64%     and
downloads of SIGTARP’s quarterly reports. The site was redesigned in May 2012.                                                                       $10.2
From May 10, 2012, through September 30, 2014, there have been 258,006 page                                                                                                         $27.0
       vii
views. From July 1, 2012, through September 30, 2014, there have been 17,202
                                             viii
downloads of SIGTARP’s quarterly reports.                                                                                                                  Travel
                                                                                                                                                        $0.9, 2%

Budget
Figure 1.6 provides a detailed breakdown of SIGTARP’s fiscal year 2014 actuals,                                                              FIGURE 1.7
which reflects total spending of $42.2 million. The Consolidated Appropriations                                                              SIGTARP FY 2015
Act, 2014 (P.L. 113-76) provided $34.9 million in annual appropriations. The                                                                 PROPOSED BUDGET
operating budget includes $34.9 million in annual appropriation and carryover of                                                             ($ MILLIONS, PERCENTAGE OF $46.1 MILLION)

SIGTARP’s remaining no-year funding.
                                                                                                                                                       Other Services
   Figure 1.7 provides a detailed breakdown of SIGTARP’s fiscal year 2015                                                                                    $2.3, 5%
proposed budget, which reflects a total operating plan of $46.1 million. This
would include $34.2 million in requested annual appropriations and portions of                                                                Advisory Services
                                                                                                                                                          $3.2
SIGTARP’s initial funding.                                                                                                                                        7%

                                                                                                                                              Interagency
                                                                                                                                              Agreements 18%                        Salaries
                                                                                                                                                    $8.2                    68%     and

                                                                                                                                                                                    $31.3
                                                                                                                                                      Travel
                                                                                                                                                   $1.1, 2%
vii In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
  system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

  • Numbers reported to SIGTARP as of September 30, 2009
  • Archived numbers provided by Treasury for the period of October through December 2009
  • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

    Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
    than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.
viii Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
62   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT I O N 2   SIGTARP RECOMMENDATIONS
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   65




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
151 recommendations to Treasury and Federal banking regulators. This section
discusses developments with respect to SIGTARP’s recommendations and, in the
table at the end of this section, summarizes all of SIGTARP’s recommendations
and notes the extent of implementation.




UNIMPLEMENTED RECOMMENDATIONS
REGARDING EXCESSIVE EXECUTIVE
COMPENSATION
Executive compensation played a pivotal role in the financial crisis and encouraged
excessive risk taking. Limits on executive compensation at TARP companies serve
as important reforms and possibly deterrents to future crises or bailouts. To address
these issues, Treasury created the Office of the Special Master for TARP Executive
Compensation (“OSM”). OSM has jurisdiction over compensation at companies
that stood out from the more than 700 TARP recipients because of the amount and
nature of their exceptional bailout. OSM sets pay for the Top 25 employees (i.e. the
five senior executive officers and the next 20 most highly compensated employees)
at these TARP exceptional assistance recipients.
    Although SIGTARP has issued three reports on executive compensation that
included formal recommendations addressing these concerns, Treasury has failed
to implement many of SIGTARP’s recommendations. By rejecting SIGTARP’s
recommendations, Treasury has denied the possibility there could be any room for
improvement concerning executive compensation for TARP recipients.
    In January 2012, SIGTARP first reported that Treasury failed to rein in
executive compensation, focused on keeping the companies competitive so that
they could repay TARP. The following year, in January 2013, SIGTARP reported
that Treasury had failed to implement SIGTARP’s recommendations to develop
robust criteria, policies, and procedures to ensure Treasury could meet its own
pay setting guidelines, relying to a great extent on the companies’ pay proposals.
SIGTARP also stressed that Treasury continued to award excessive pay packages,
including large guaranteed cash salaries.
    On September 24, 2014, SIGTARP issued a third report on executive
compensation titled, “Treasury Significantly Loosened Executive Pay Limits
resulting in Excessive Pay for Top 25 Employees at GM and Ally (GMAC) When
the Companies Were Not Repaying TARP in Full and Taxpayers Were Suffering
Billions of Dollars in Losses.” In the report, SIGTARP found that Treasury
has not taken sufficient meaningful action to address serious concerns raised
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            by SIGTARP of excessive Treasury-approved pay and to implement SIGTARP
                                            recommendations. Treasury loosened its own pay restrictions for senior executives
                                            at General Motors and Ally year after year, even as taxpayer losses in these
                                            companies mounted. SIGTARP found that OSM continues to lack robust policies,
                                            procedures, and criteria, which would hold OSM accountable to its executive
                                            compensation guidelines, which were created in the public interest. SIGTARP
                                            found several examples delineating OSM’s rolling back of guidelines, effectively
                                            relinquishing authority by relying to a great extent on the company’s pay proposals
                                            or justifications rather than robust policies, procedures, or criteria to ensure that
                                            OSM’s guidelines are met.
                                                Two aspects of Treasury’s pay-setting process and pay decisions serve as
                                            important lessons learned. First, loosening limits on executive compensation for
                                            companies unable to repay TARP subjects Treasury to criticism that it is rewarding
                                            top executives at companies that are losing taxpayers’ money over the interests of
                                            the taxpayers already shouldering billions of dollars in losses on those investments.
                                            Second, by setting pay further and further away from the President’s and Treasury’s
                                            announced limitations on executive compensation for TARP company officials,
                                            Treasury is missing an opportunity for critical reforms to a material cause of the
                                            financial crisis and a strong deterrent to future bailouts. Moreover, loosening
                                            restrictions on executive pay, despite SIGTARP’s repeated recommendations not
                                            to do so, could send the message that much-needed reforms coming out of the
                                            financial crisis are no longer necessary or required in exchange for Federal dollars.
                                                SIGTARP is extremely concerned that instead of fully implementing SIGTARP’s
                                            recommendations, Treasury has gotten further and further away from important
                                            guidelines by approving exception after exception, being too deferential to
                                            companies where taxpayers have suffered billions of dollars in losses.
                                                As a result, SIGTARP made the following recommendations in its September
                                            2014 report:

                                            •	 The Secretary of the Treasury should require OSM to maintain
                                               documentation of the substance of all OSM communications with TARP
                                               companies.
                                            •	 The Secretary of the Treasury should require all Treasury employees to
                                               maintain documentation of all communications with TARP companies
                                               regarding compensation.
                                            •	 The Secretary of the Treasury should require OSM to maintain
                                               documentation of OSM’s communications with Treasury officials regarding
                                               compensation at TARP companies.
                                            •	 The Secretary of the Treasury should require OSM to use long-term
                                               restricted stock as part of each TARP company’s employee’s compensation
                                               package to ensure compensation is tied to both the employee’s and the
                                               company’s performance, and the full repayment of TARP funds.
                                            •	 The Secretary of the Treasury should direct OSM to conduct an analysis,
                                               independent of company proposals and assertions, for an employee of a
                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   67




     TARP exceptional assistance company to be paid a cash salary exceeding
     $500,000.
•	   The Secretary of the Treasury should direct OSM to document its
     independent analyses regarding the decision that a TARP exceptional
     assistance company employee be paid a cash salary exceeding $500,000.
•	   The Secretary of the Treasury should direct OSM to conduct an analysis,
     independent of company proposals and assertions, for an employee of a
     TARP exceptional assistance company to receive an increase in annual
     compensation.
•	   The Secretary of the Treasury should direct OSM to document its
     independent analyses regarding the decision that a TARP exceptional
     assistance company employee will receive an increase in annual
     compensation.
•	   The Secretary of the Treasury should direct OSM to conduct an analysis,
     independent of company proposals and assertions, for an employee of a
     TARP exceptional assistance company to be paid a cash salary that exceeds
     the market median cash salary for similar positions in similar companies.
•	   The Secretary of the Treasury should direct OSM to document its
     independent analyses regarding the decision that a TARP exceptional
     assistance company employee be paid a cash salary exceeding market
     medians.
•	   The Secretary of the Treasury should direct OSM to include in its written
     procedures whether it will target, for each Top 25 employee of a TARP
     exceptional assistance company, median total compensation for similar
     positions in similar companies.

Treasury has not clearly agreed to implement any of SIGTARP’s recommendations.




UPDATE ON TREASURY’S REPORT ON THE USE OF
TARP FUNDS
Simply put, the American public has a right to know how taxpayer dollars in TARP
are being spent. One of SIGTARP’s first recommendations when it opened its
office in December 2008, soon after TARP was established, was that Treasury
require all TARP recipients to report periodically on their use of TARP funds.
However, Treasury rejected this recommendation. SIGTARP then sent its own
survey to all TARP banks and received responses from 100% of the banks, whose
responses are posted on SIGTARP’s website for the public to view.
    Although SIGTARP reiterated its recommendation throughout 2009, it was
not until 2010 that Treasury began issuing annual surveys to TARP financial
institutions on how they used TARP funds. In June 2013, SIGTARP initiated
an audit to report on the results from these surveys to bring transparency to
TARP financial institutions’ reporting to Treasury on how they used TARP funds.
68   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Although Treasury sends the surveys each year to TARP’s Capital Purchase
                                            Program (“CPP”) and Community Development Capital Initiative (“CDCI”)
                                            institutions, while conducting our audit fieldwork, SIGTARP discovered areas in
                                            the survey process, tabulation, and reporting that raised concerns that warrant
                                            immediate attention and corrective action by Treasury.
                                                On September 2, 2014, SIGTARP issued a interim letter to Treasury Secretary
                                            Lew stating that SIGTARP found that the original surveys are not posted to
                                            Treasury’s website; rather, the posted information was re-created by Treasury
                                            officials using the survey data provided to Treasury. In reviewing this information,
                                            SIGTARP identified errors in the survey data posted by Treasury. Additionally,
                                            SIGTARP found that Treasury modifies some of the data it receives when it posts
                                            that information on its website; the reason behind this modification is unclear.
                                            SIGTARP also found that the summaries provided by Treasury of the data in the
                                            surveys often contain inaccuracies and mathematical errors. SIGTARP notified
                                            Secretary Lew that without accurate reporting of the data contained in the surveys
                                            on Treasury’s website, SIGTARP, the American taxpayers, and other oversight
                                            bodies are unable to get a clear picture on how exactly TARP funds are being used.
                                                SIGTARP also informed Secretary Lew in the letter that SIGTARP found
                                            that there are no consequences for the failure of a TARP recipient to respond to
                                            a survey. Treasury published, on its website, the name of institutions that did not
                                            respond to surveys in 2011, but SIGTARP has been unable to verify that a list of
                                            noncompliant institutions was published for 2009, 2010, and 2012. The failure of
                                            Treasury to post the lists of noncompliant institutions results in less transparency
                                            for the American taxpayer.
                                                Finally, SIGTARP informed Secretary Lew that SIGTARP’s fieldwork revealed
                                            that Treasury does not have an adequate review process during or after the survey
                                            process. According to Treasury officials, the only review provided by Treasury
                                            supervisors was a cursory one.
                                                As a result, the American public is left in the dark concerning how TARP
                                            recipients used billions of taxpayer dollars. To improve transparency and oversight,
                                            SIGTARP made the following recommendations to Treasury:

                                            •	 Treasury should post the original surveys received from CPP and CDCI
                                               institutions on how they used TARP funds for each year to the Treasury
                                               website. The original surveys and responses should not be subjected to any
                                               manipulations or changes to calculate survey results.
                                            •	 Treasury should develop written repeatable operating procedures
                                               for submitting and receiving survey responses from CPP and CDCI
                                               recipients on how they used TARP funds. The procedures should include
                                               the functional roles and responsibilities and automated and manual
                                               process steps involved, such as documenting and determining the survey
                                               population, compiling and analyzing the responses, verifying and validating
                                               the data, resolving discrepancies, and posting the responses on the
                                               Treasury website.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   69




•	 Treasury should take aggressive action to enforce its requests that all
   CPP institutions report annually on their use of TARP funds, and its
   requirement that all CDCI institutions report annually on their use of
   TARP funds. At a minimum, Treasury should draft a letter to each CPP and
   CDCI institution that fails to report each year, and follow up on that letter
   with the institution. Treasury should exercise its rights to compel reporting
   on use of TARP funds by CDCI institutions.
•	 Treasury should fix all errors and/or deficiencies, which SIGTARP
   previously provided to Treasury, and submit documentation to SIGTARP
   confirming the correction/elimination of these errors.
•	 Treasury should perform a thorough review of any and all submissions by
   TARP recipients on their use of TARP funds prior to posting the surveys
   on the Treasury website, and follow up with the institution for any missing
   information or information that is inconsistent or has an obvious error.
•	 Treasury should publicly report on all CPP and CDCI institutions that
   have not submitted a survey response on their use of TARP funds for prior
   years and continue that reporting in future years.

    In response, Treasury stated that it generally agreed with each of SIGTARP’s
recommendations and that it would keep SIGTARP apprised of its actions to
address the recommendations. However, as of September 30, 2014, Treasury has
yet to implement SIGTARP’s recommendations. Treasury should immediately
and fully address the deficiencies SIGTARP identified and implement each of
SIGTARP’s recommendations. Treasury should assure basic transparency to
the American taxpayers who deserve accurate information about how TARP
institutions are using TARP funds. Doing so could also give Treasury more insight
into these TARP institutions. Without this information, Treasury misses an
opportunity to monitor TARP effectively to prevent fraud, waste, and abuse, and
ensure that small businesses in struggling communities get loans TARP was meant
to provide.




SIGTARP RECOMMENDATIONS ON HOUSING
PROGRAMS
Recommendation Concerning Delays in HAMP Mortgage
Modification Decisions
The purpose of Treasury’s Home Affordable Modification Program (“HAMP”)
is to provide affordable and sustainable assistance to homeowners who are still
feeling the effects of the financial crisis. This quarter, SIGTARP made numerous
recommendations with respect to HAMP to Treasury, pointing out opportunities
for Treasury to improve its efforts to provide support to struggling homeowners.
Specifically, SIGTARP’s recommendations focused on the lengthy delays faced by
70   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            homeowners seeking a decision on whether they were accepted into HAMP and
                                            the lack of oversight of Treasury’s MHA Outreach and Borrower Intake Project.
                                                On September 10, 2014, SIGTARP outlined for Treasury the significant
                                            delays on a decision from mortgage servicers faced by struggling homeowners
                                            looking to participate in HAMP and start a HAMP trial modification. Specifically,
                                            May 2014 Treasury data shows that 221,000 homeowners have applied to lower
                                            their mortgage payment through HAMP but have faced significant delays of up
                                            to one year or more on a decision from their mortgage servicer. While Treasury
                                            requires that servicers review a completed HAMP application within 30 days,
                                            Treasury allows servicers to extend the review time indefinitely if the application is
                                            incomplete, even in situations where the application is not complete due to no fault
                                            of the homeowner.
                                                Servicers’ failure to review homeowners’ HAMP applications on a timely basis
                                            results in harm to homeowners. The delay that homeowners face in getting a
                                            decision on whether they can participate in TARP stands in stark contrast to banks
                                            that received quick decisions from their regulator and Treasury on their TARP
                                            applications. Homeowners seeking help through HAMP deserve a timely decision
                                            so that they can either lower their mortgage through HAMP or pursue other
                                            foreclosure alternatives if they are declined. Servicers that contract with Treasury
                                            need to fulfill their obligations to make decisions on submitted HAMP applications
                                            in a timely manner.
                                                In order to remedy this situation and help struggling homeowners obtain
                                            affordable and sustainable assistance through HAMP, SIGTARP recommended:

                                            Treasury should ensure that mortgage servicers who contract with Treasury
                                            have sufficient staffing and other resources to review the number of
                                            homeowner HAMP applications submitted each month, plus additional
                                            applications to decrease any backlog of homeowners who applied in prior
                                            months without a decision.

                                                Treasury failed to respond to SIGTARP’s recommendation. Treasury is still
                                            missing the opportunity to help struggling homeowners by seeking to improve
                                            servicers’ performance with respect to HAMP applicants. If Treasury fails to
                                            take swift and strong action to stop these delays, homeowners will suffer the
                                            consequences. Struggling homeowners who applied for HAMP have waited too
                                            long for an answer from their servicers; they should wait no longer.

                                            Recommendations Concerning the MHA Outreach and
                                            Borrower Intake Project
                                            On August 8, 2014, SIGTARP made recommendations to Treasury with respect
                                            to Treasury’s MHA Outreach and Borrower Intake Project, through which
                                            Treasury allocated $18.3 million in TARP funds to NeighborWorks America
                                            (“NeighborWorks”), a firm that uses housing counselors to assist homeowners
                                            with HAMP applications. Treasury has failed to track, monitor, or analyze the
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   71




effectiveness of the use of $6 million in TARP funds Treasury paid NeighborWorks,
including $2.3 million used for outreach efforts.
    SIGTARP asked Treasury to answer how many of the completed HAMP
applicants assisted by NeighborWorks actually resulted in a homeowner getting into
HAMP by receiving a trial modification. SIGTARP also asked how many of those
trial modifications were converted into permanent HAMP modifications.
    Treasury did not provide those numbers and instead responded to SIGTARP:

“Information not available. This is an intake project, and thus the focus is on
the status of each Initial Package delivered by the agency to the appropriate
servicer and the servicer verifies the package as complete.”

   The fact that treasury does not have this information available leads to the
conclusion that Treasury does not track or monitor whether the TARP funds
spent on this project have actually resulted in affordable and sustainable relief to
homeowners through participation in HAMP. Without monitoring and assessing
these results, Treasury cannot determine the effectiveness or efficiency of the
TARP funds spent on this project and identify risks or areas for improvement.
Treasury should track these results and use that information to help homeowners
actually get help from HAMP.
   Accordingly, SIGTARP made the following recommendations to Treasury:

•	 Treasury should determine how many homeowners who completed a
   HAMP application for which Treasury paid NeighborWorks under the
   MHA Outreach and Borrower Intake Project are accepted into a HAMP
   trial modification and whether that homeowner is granted a permanent
   HAMP modification. Treasury should continue to monitor these results on
   a monthly basis. Treasury should publicly report all of these results on a
   quarterly basis.
•	 Treasury should publicly report for each of the top 10 servicers how many
   homeowners who completed a HAMP application for which Treasury paid
   NeighborWorks were denied by the servicer for a HAMP trial modification.
•	 Treasury should use the results of SIGTARP-recommended monitoring and
   reporting on the MHA Outreach and Borrower Intake Project to determine
   whether there are areas of improvement.

   In Treasury’s response that it does track the information requested, Treasury
appears to not understand that SIGTARP is recommending that Treasury track
homeowner’s applications to see if they actually got help from HAMP. Treasury’s
response to SIGTARP states, “We agree that monitoring the number of applications
approved for a trial period plan is important, as it reflects the status of the
application. That’s why the online application portal tracks this information in real
time. Of the applications verified as complete by September 30th, 30 percent were
approved for a trial period plan, 22 percent were being evaluated for a trial period
plan, and three percent had been withdrawn.” However this is not the information
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SIGTARP recommended that Treasury track. Whether a HAMP application
                                            submitted through this project is “approved” or not does not reflect whether the
                                            homeowner actually got a HAMP trial or permanent modification.
                                                Treasury also responded that, “Treasury separately collects and monitors the
                                            number of homeowners who successfully complete trial period plans and convert to
                                            permanent status.” However, SIGTARP’s recommendation related to tracking those
                                            homeowners who participated in the MHA Outreach and Borrower Intake Project
                                            who successfully completed trial period plans and converted to permanent status.
                                            Treasury does not collect and monitor that information and still has not provided
                                            that information to SIGTARP. Given that Treasury still does not know how many
                                            homeowners it paid NeighborWorks to help complete a HAMP application actually
                                            got into HAMP. SIGTARP considers the recommendation unimplemented.
                                                Treasury responded to SIGTARP’s recommendations also claiming it will
                                            publicly report on the activities and final results of the project. However,
                                            Treasury cannot yet report on the information it does not have, i.e. the number of
                                            homeowners who participated in the MHA Outreach and Borrower Intake Project
                                            who successfully completed trial period plans and converted to permanent status.
                                                Treasury is missing an opportunity to track this information to improve the
                                            program and to prevent fraud, waste, or abuse. Treasury’s failure to track this
                                            project’s results leads to a lack of transparency, accountability, and hampers TARP
                                            oversight. Taxpayers who are funding this project have a right to know whether
                                            their taxpayer dollars are bringing real results in sustainable foreclosure relief
                                            through HAMP to homeowners. Additionally, Treasury must stay on top of the
                                            results of its TARP housing efforts to protect taxpayer dollars and homeowners and
                                            ensure accountability.
SIGTARP RECOMMENDATIONS TABLE
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
1      *   Treasury should include language in the automobile industry
           transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X
           role and expressly giving SIGTARP access to relevant
           documents and personnel.
2      *   Treasury should include language in new TARP agreements                                                                                   Although Treasury has made
           to facilitate compliance and oversight. Specifically, SIGTARP                                                                             substantial efforts to comply with
           recommends that each program participant should (1)                                                                                       this recommendation in many of
           acknowledge explicitly the jurisdiction and authority of                                                                                  its agreements, there have been
           SIGTARP and other oversight bodies, as relevant, to oversee                                                                               exceptions, including in its agreements
           compliance of the conditions contained in the agreement                                                                                   with servicers in MHA.
           in question, (2) establish internal controls with respect to                            X
           that condition, (3) report periodically to the Compliance
           department of the Office of Financial Stability (“OFS-
           Compliance”) regarding the implementation of those controls
           and its compliance with the condition, and (4) provide a
           signed certification from an appropriate senior official to
           OFS-Compliance that such report is accurate.
3      *   All existing TARP agreements, as well as those governing
           new transactions, should be posted on the Treasury website            X
           as soon as possible.
4      *   Treasury should require all TARP recipients to report on the                                                                              While Treasury has required CDCI
           actual use of TARP funds.                                                                                                                 participants to report on their actual
                                                                                                                                                     use of TARP funds, no other TARP
                                                                                                   X
                                                                                                                                                     recipients were required to do so.
                                                                                                                                                     Treasury made the reporting by CPP
                                                                                                                                                     recipients only voluntary.
5      *   Treasury quickly determines its going-forward valuation
           methodology.                                                          X

6      *   Treasury begins to develop an overall investment strategy to
           address its portfolio of stocks and decide whether it intends         X
           to exercise warrants of common stock.
7      *   In formulating the structure of TALF, Treasury should                                                                                     The Federal Reserve adopted
           consider requiring, before committing TARP funds to the                                                                                   mechanisms that address this
           program, that certain minimum underwriting standards and/                                                                                 recommendation.
                                                                                 X
           or other fraud prevention mechanisms be put in place with
           respect to the ABS and/or the assets underlying the ABS
           used for collateral.
8      *   Agreements with TALF participants should include an
           acknowledgment that: (1) they are subject to the oversight
           of OFS-Compliance and SIGTARP, (2) with respect to any
           condition imposed as part of TALF, that the party on which
                                                                                                                                X
           the condition is imposed is required to establish internal
           controls with respect to each condition, report periodically
                                                                                                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           on such compliance, and provide a certification with respect
           to such compliance.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                               73
                                                                                                                                                                                             74
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
9      *   Treasury should give careful consideration before agreeing                                                                                This recommendation was
           to the expansion of TALF to include MBS without a full review                                                                             implemented with respect to CMBS,
                                                                                 X
           of risks that may be involved and without considering certain                                                                             and the Federal Reserve did not
           minimum fraud protections.                                                                                                                expand TALF to RMBS.
10     *   Treasury should oppose any expansion of TALF to legacy                                                                                    This recommendation was
           MBS without significant modifications to the program to                                                                                   implemented with respect to CMBS,
                                                                                 X
           ensure a full assessment of risks associated with such an                                                                                 and the Federal Reserve did not
           expansion.                                                                                                                                expand TALF to RMBS.
11         Treasury should formalize its valuation strategy and begin                                                                                Treasury has formalized its valuation
           providing values of the TARP investments to the public.               X                                                                   strategy and regularly publishes its
                                                                                                                                                     estimates.
12     *   Treasury and the Federal Reserve should provide to                                                                                        On December 1, 2010, the Federal
           SIGTARP, for public disclosure, the identity of the borrowers                                                                             Reserve publicly disclosed the
           who surrender collateral in TALF.                                                                                                         identities of all TALF borrowers and
                                                                                                                                              X      that there had been no surrender of
                                                                                                                                                     collateral. SIGTARP will continue to
                                                                                                                                                     monitor disclosures if a collateral
                                                                                                                                                     surrender takes place.
13     *   In TALF, Treasury should dispense with rating agency                                                                                      The Federal Reserve announced that
           determinations and require a security-by-security screening                                                                               RMBS were ineligible for TALF loans,
                                                                                                                                                                                             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           for each legacy RMBS. Treasury should refuse to participate                                                                               rendering this recommendation moot.
           if the program is not designed so that RMBS, whether new
           or legacy, will be rejected as collateral if the loans backing                                                                     X
           particular RMBS do not meet certain baseline underwriting
           criteria or are in categories that have been proven to be
           riddled with fraud, including certain undocumented subprime
           residential mortgages.
14     *   In TALF, Treasury should require significantly higher haircuts                                                                            This recommendation was
           for all MBS, with particularly high haircuts for legacy RMBS,                                                                             implemented with respect to CMBS,
                                                                                 X
           or other equally effective mitigation efforts.                                                                                            and the Federal Reserve did not
                                                                                                                                                     expand TALF to RMBS.
15     *   Treasury should require additional anti-fraud and credit                                                                                  The Federal Reserve adopted
           protection provisions, specific to all MBS, before                                                                                        mechanisms that address this
           participating in an expanded TALF, including minimum                  X                                                                   recommendation with respect to
           underwriting standards and other fraud prevention                                                                                         CMBS, and did not expand TALF to
           measures.                                                                                                                                 RMBS.
16     *   Treasury should design a robust compliance protocol with
           complete access rights to all TALF transaction participants                                                          X
           for itself, SIGTARP, and other relevant oversight bodies.
17     *   Treasury should not allow Legacy Securities PPIFs to invest
           in TALF unless significant mitigating measures are included           X
           to address these dangers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
18     *   All TALF modeling and decisions, whether on haircuts or any
           other credit or fraud loss mechanisms, should account for
           potential losses to Government interests broadly, including           X
           TARP funds, and not just potential losses to the Federal
           Reserve.
19     *   Treasury should address the confusion and uncertainty on
           executive compensation by immediately issuing the required            X
           regulations.
20     *   Treasury should significantly increase the staffing levels of                                                                             According to Treasury, OFS-Compliance
           OFS-Compliance and ensure the timely development and                                                                                      has increased its staffing level and has
           implementation of an integrated risk management and                                     X                                                 contracted with four private firms to
           compliance program.                                                                                                                       provide additional assistance to OFS-
                                                                                                                                                     Compliance.
21     *   Treasury should require CAP participants to (1) establish an                                                                              Treasury closed the program with
           internal control to monitor their actual use of TARP funds, (2)                                                                           no investments having been made,
           provide periodic reporting on their actual use of TARP funds,                                                                             rendering this recommendation moot.
           (3) certify to OFS-Compliance, under the penalty of criminal
           sanction, that the report is accurate, that the same criteria
                                                                                                                                              X
           of internal controls and regular certified reports should be
           applied to all conditions imposed on CAP participants, and
           (4) acknowledge explicitly the jurisdiction and authority of
           SIGTARP and other oversight bodies, as appropriate, to
           oversee conditions contained in the agreement.
22     *   Treasury should impose strict conflict-of-interest rules upon                                                                             Treasury has adopted some significant
           PPIF managers across all programs that specifically address                                                                               conflict-of-interest rules related to this
           whether and to what extent the managers can (1) invest                                                                                    recommendation, but has failed to
           PPIF funds in legacy assets that they hold or manage on                                 X                                                 impose other significant safeguards.
           behalf of themselves or their clients or (2) conduct PPIF
           transactions with entities in which they have invested on
           behalf of themselves or others.
23     *   Treasury should require that all PPIF fund managers (1)                                                                                   Treasury’s agreements with PPIF
           have stringent investor-screening procedures, including                                                                                   managers include investor-screening
           comprehensive “Know Your Customer” requirements at least                                                                                  procedures such as “Know Your
           as rigorous as that of a commercial bank or retail brokerage                                                                              Customer” requirements. Treasury
           operation to prevent money laundering and the participation                                                                               has agreed that it will have access to
           of actors prone to abusing the system, and (2) be required                              X                                                 any information in a fund manager’s
           to provide Treasury with the identities of all the beneficial                                                                             possession relating to beneficial
           owners of the private interests in the fund so that Treasury                                                                              owners. However, Treasury did not
           can do appropriate diligence to ensure that investors in the                                                                              impose an affirmative requirement
           funds are legitimate.                                                                                                                     that managers obtain and maintain
                                                                                                                                                     beneficial owner information.
24     *   Treasury should require PPIP managers to provide most
           favored nation clauses to PPIF equity stakeholders, to
                                                                                 X
                                                                                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           acknowledge that they owe Treasury a fiduciary duty, and to
           adopt a robust ethics policy and compliance apparatus.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                                  75
                                                                                                                                                                                                76
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
25         Treasury should require servicers in MHA to submit third-                                                                                 Treasury has decided to
           party verified evidence that the applicant is residing in the                                                                             adopt this important SIGTARP
           subject property before funding a mortgage modification.                                              X                                   recommendation. SIGTARP will monitor
                                                                                                                                                     Treasury’s implementation of the
                                                                                                                                                     recommendation.
26     *   In MHA, Treasury should require a closing-like procedure                                                                                  Treasury rejected SIGTARP’s
           be conducted that would include (1) a closing warning                                                                                     recommendation for a closing-like
           sheet that would warn the applicant of the consequences                                                                                   procedure. However, since this
           of fraud; (2) the notarized signature and thumbprint of each                                                                              recommendation was issued, Treasury
           participant; (3) mandatory collection, copying, and retention                                                                             has taken several actions to prevent
           of copies of identification documents of all participants in                                                                              fraud on the part of either MHA
           the transaction; (4) verbal and written warnings regarding                              X                                                 servicers or applicants.
           hidden fees and payments so that applicants are made fully
           aware of them; (5) the benefits to which they are entitled
           under the program (to prevent a corrupt servicer from
           collecting payments from the Government and not passing
           the full amount of the subsidies to the homeowners); and (6)
           the fact that no fee should be charged for the modification.
27     *   Additional anti-fraud protections should be adopted in MHA                                                                                Treasury has taken steps to
           to verify the identity of the participants in the transaction                                                                             implement policies and conduct
           and to address the potential for servicers to steal from                                                                                  compliance reviews to address this
                                                                                                                                                                                                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           individuals receiving Government subsidies without applying                                                                               recommendation. However, it remains
                                                                                                   X
           them for the benefit of the homeowner.                                                                                                    unclear if Treasury has an appropriate
                                                                                                                                                     method to ensure the irregularities
                                                                                                                                                     identified in the compliance reviews are
                                                                                                                                                     resolved.
28     *   In MHA, Treasury should require the servicer to compare                                                                                   Treasury has rejected SIGTARP’s
           the income reported on a mortgage modification application                                                                                recommendation and does not require
           with the income reported on the original loan applications.                                                                               income reported on the modification
                                                                                                                                X
                                                                                                                                                     application to be compared to
                                                                                                                                                     income reported on the original loan
                                                                                                                                                     application.
29     *   In MHA, Treasury should require that verifiable, third-party
           information be obtained to confirm an applicant’s income              X
           before any modification payments are made.
30     *   In MHA, Treasury should defer payment of the $1,000                                                                                       Rather than deferring payment of the
           incentive to the servicer until after the homeowner has                                                                                   incentive until after the homeowner
           verifiably made a minimum number of payments under the                                                                                    has verifiably made a minimum
           mortgage modification program.                                                                                                            number of payments on its permanent
                                                                                                                                X
                                                                                                                                                     modification, Treasury will pay the
                                                                                                                                                     incentive after the servicer represents
                                                                                                                                                     that the homeowner has made three
                                                                                                                                                     payments during the trial period.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
31     *   In MHA, Treasury should proactively educate homeowners
           about the nature of the program, warn them about
                                                                                 X
           modification rescue fraudsters, and publicize that no fee is
           necessary to participate in the program.
32     *   In MHA, Treasury should require its agents to keep track of                                                                               While Treasury’s program
           the names and identifying information for each participant in                                                                             administrator, Fannie Mae, has
           each mortgage modification transaction and to maintain a                                                                                  developed a HAMP system of record
           database of such information.                                                                                                             that maintains servicers’ names,
                                                                                                                                                     investor group (private, portfolio, GSE),
                                                                                                                                                     and participating borrowers’ personally
                                                                                                   X
                                                                                                                                                     identifiable information, such as
                                                                                                                                                     names and addresses, the database
                                                                                                                                                     is not constructed to maintain other
                                                                                                                                                     information that may assist in detecting
                                                                                                                                                     insiders who are committing large-
                                                                                                                                                     scale fraud.
33     *   Treasury should require the imposition of strict information                                                                              Treasury has refused to adopt this
           barriers or “walls” between the PPIF managers making                                                                                      significant anti-fraud measure designed
           investment decisions on behalf of the PPIF and those                                                                 X                    to prevent conflicts of interest. This
           employees of the fund management company who manage                                                                                       represents a material deficiency in the
           non-PPIF funds.                                                                                                                           program.
34     *   Treasury should periodically disclose PPIF trading activity                                                                               Treasury has committed to publish
           and require PPIF managers to disclose to SIGTARP, within                                                                                  on a quarterly basis certain high-
           seven days of the close of the quarter, all trading activity,                                                                             level information about aggregated
           holdings, and valuations so that SIGTARP may disclose                                                                                     purchases by the PPIFs, but not
           such information, subject to reasonable protections, in its                                                                               within seven days of the close of the
                                                                                                                                X
           quarterly reports.                                                                                                                        quarter. Treasury has not committed
                                                                                                                                                     to providing full transparency to show
                                                                                                                                                     where public dollars are invested by
                                                                                                                                                     requiring periodic disclosure of every
                                                                                                                                                     trade in the PPIFs.
35         Treasury should define appropriate metrics and an                                                                                         Treasury has stated that it has
           evaluation system should be put in place to monitor the                                                                                   developed risk and performance
           effectiveness of the PPIF managers, both to ensure they                                                                                   metrics. However, more than four
           are fulfilling the terms of their agreements and to measure                                                                               years into the program, it is still not
                                                                                                   X
           performance.                                                                                                                              clear how Treasury will use these
                                                                                                                                                     metrics to evaluate the PPIP managers
                                                                                                                                                     and take appropriate action as
                                                                                                                                                     recommended by SIGTARP.
36     *   The conditions that give Treasury “cause” to remove a                                                                                     Treasury has refused to adopt this
           PPIF manager should be expanded to include a manager’s                                                                                    recommendation, relying solely
           performance below a certain standard benchmark, or if                                                                                     on Treasury’s right to end the
           Treasury concludes that the manager has materially violated                                                                               investment period after 12 months.
                                                                                                                                X
           compliance or ethical rules.                                                                                                              That timeframe has already expired.
                                                                                                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




                                                                                                                                                     Treasury’s failure to adopt this
                                                                                                                                                     recommendation potentially puts
                                                                                                                                                     significant Government funds at risk.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                                 77
                                                                                                                                                                                                 78
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
37     *   Treasury should require PPIF managers to disclose to
           Treasury, as part of the Watch List process, not only
                                                                                 X
           information about holdings in eligible assets but also
           holdings in related assets or exposures to related liabilities.
38         Treasury should require PPIF managers to obtain and                                                                                       Treasury has agreed that it can have
           maintain information about the beneficial ownership of all of                                                                             access to any information in a fund
           the private equity interests, and Treasury should have the                                                                                manager’s possession relating to
           unilateral ability to prohibit participation of private equity                                                                            beneficial owners. However, Treasury is
           investors.                                                                                                                                not making an affirmative requirement
                                                                                                                                                     that managers obtain and maintain
                                                                                                                                X
                                                                                                                                                     beneficial owner information. Treasury
                                                                                                                                                     will not adopt the recommendation
                                                                                                                                                     to give itself unilateral ability to deny
                                                                                                                                                     access to or remove an investor,
                                                                                                                                                     stating that such a right would deter
                                                                                                                                                     participation.
39     *   Treasury and FRBNY should (1) examine Moody’s assertions                                                                                  Treasury and the Federal Reserve have
           that some credit rating agencies are using lower standards                                                                                discussed concerns about potential
           to give a potential TALF security the necessary AAA rating                                                                                overrating or rating shopping with the
           and (2) develop mechanisms to ensure that acceptance of               X                                                                   rating agencies, and have agreed to
           collateral in TALF is not unduly influenced by the improper                                                                               continue to develop and enhance risk
                                                                                                                                                                                                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           incentives to overrate that exist among the credit agencies.                                                                              management tools and processes,
                                                                                                                                                     where appropriate.
40     *   Treasury should more explicitly document the vote of each
           Investment Committee member for all decisions related to              X
           the investment of TARP funds.
41     *   Treasury should improve existing control systems to
           document the occurrence and nature of external phone calls
           and in-person meetings about actual and potential recipients          X
           of funding under the CPP and other similar TARP-assistance
           programs to which they may be part of the decision making.
42     *   The Secretary of the Treasury should direct the Special
           Master to work with FRBNY officials in understanding AIG
           compensation programs and retention challenges before
                                                                                 X
           developing future compensation decisions that may affect
           both institutions’ ability to get repaid by AIG for Federal
           assistance provided.
43     *   Treasury should establish policies to guide any similar                                                                                   Treasury stated that it does not
           future decisions to take a substantial ownership position in                                                                              anticipate taking a substantial
           financial institutions that would require an advance review                                                                        X      percentage ownership position in any
           so that Treasury can be reasonably aware of the obligations                                                                               other financial institution pursuant to
           and challenges facing such institutions.                                                                                                  EESA.
44     *   Treasury should establish policies to guide decision making                                                                               Treasury has agreed to work closely
           in determining whether it is appropriate to defer to another                                                                              with other Federal agencies that are
                                                                                                   X
           agency when making TARP programming decisions where                                                                                       involved in TARP.
           more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
45         Treasury should rectify the confusion that its own                                                                                        Despite SIGTARP’s repeated
           statements have caused for HAMP by prominently disclosing                                                                                 highlighting of this essential
           its goals and estimates (updated over time, as necessary)                                                                                 transparency and effectiveness
                                                                                                                                X
           of how many homeowners the program will help through                                                                                      measure, Treasury has refused to
           permanent modifications and report monthly on its progress                                                                                disclose clear and relevant goals and
           toward meeting that goal.                                                                                                                 estimates for the program.
46         Treasury should develop other performance metrics                                                                                         Although Treasury has increased its
           and publicly report against them to measure over time                                                                                     reporting of servicer performance, it
           the implementation and success of HAMP. For example,                                                                                      has not identified goals for each metric
           Treasury could set goals and publicly report against those                                                                                and measured performance against
           goals for servicer processing times, modifications as a                                 X                                                 those goals. Treasury has not set an
           proportion of a servicer’s loans in default, modifications                                                                                acceptable metric for redefaults.
           as a proportion of foreclosures generally, rates of how
           many borrowers fall out of the program prior to permanent
           modification, and re-default rates.
47         Treasury should undertake a sustained public service
           campaign as soon as possible, both to reach additional
           borrowers who could benefit from the program and to arm
                                                                                 X
           the public with complete, accurate information — this will
           help to avoid confusion and delay, and prevent fraud and
           abuse.
48         Treasury should reconsider its position that allows servicers
           to substitute alternative forms of income verification based                                                         X
           on subjective determinations by the servicer.
49         Treasury should re-examine HAMP’s structure to ensure that                                                                                Treasury has adopted some programs
           it is adequately minimizing the risk of re-default stemming                                                                               to assist underwater mortgages to
           from non-mortgage debt, second liens, partial interest rate                             X                                                 address concerns of negative equity
           resets after the five-year modifications end, and from many                                                                               but has not addressed other factors
           borrowers being underwater.                                                                                                               contained in this recommendation.
50         Treasury should institute careful screening before putting
           additional capital through CDCI into an institution with
           insufficient capital to ensure that the TARP matching funds           X
           are not flowing into an institution that is on the verge of
           failure.
51         Treasury should develop a robust procedure to audit and
           verify the bona fides of any purported capital raise in CDCI
                                                                                 X
           and to establish adequate controls to verify the source,
           amount and closing of all claimed private investments.
52         Treasury should revise CDCI terms to clarify that Treasury
           inspection and copy rights continue until the entire CDCI
           investment is terminated. Additionally, consistent with
           recommendations made in connection with other TARP                    X
           programs, the terms should be revised to provide expressly
                                                                                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           that SIGTARP shall have access to the CDFI’s records equal
           to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                                79
                                                                                                                                                                                                 80
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
53         Treasury should consider more frequent surveys of a CDCI
           participant’s use of TARP funds than annually as currently
                                                                                                                                X
           contemplated. Quarterly surveys would more effectively
           emphasize the purpose of CDCI.
54         Treasury should ensure that more detail is captured by                                                                                    Treasury has indicated that it has
           the Warrant Committee meeting minutes. At a minimum,                                                                                      implemented this recommendation.
           the minutes should include the members’ qualitative                                                                                       Although the detail of the minutes
                                                                                 X
           considerations regarding the reasons bids were accepted or                                                                                has improved, Treasury is still not
           rejected within fair market value ranges.                                                                                                 identifying how each member of the
                                                                                                                                                     committee casts his or her vote.
55         Treasury should document in detail the substance of                                                                                       Treasury has agreed to document the
           all communications with recipients concerning warrant                                                                                     dates, participants, and subject line of
                                                                                                                                X
           repurchases.                                                                                                                              calls. It has refused to document the
                                                                                                                                                     substance of such conversations.
56     *   Treasury should develop and follow guidelines and internal                                                                                Treasury has adopted procedures
           controls concerning how warrant repurchase negotiations                                                                                   designed to address this
           will be pursued, including the degree and nature of                                                                                       recommendation, including a policy to
           information to be shared with repurchasing institutions                                                                                   discuss only warrant valuation inputs
           concerning Treasury’s valuation of the warrants.                                                                                          and methodologies prior to receiving
                                                                                                                                                     a bid, generally to limit discussion
                                                                                                                                                                                                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                                     to valuation ranges after receiving
                                                                                                   X
                                                                                                                                                     approval from the Warrant Committee,
                                                                                                                                                     and to note the provision of any added
                                                                                                                                                     information in the Committee minutes.
                                                                                                                                                     However, Treasury believes that its
                                                                                                                                                     existing internal controls are sufficient
                                                                                                                                                     to ensure adequate consistency in the
                                                                                                                                                     negotiation process.
57     *   Treasury should promptly take steps to verify TARP                                                                                        Although Treasury largely continues
           participants’ conformance to their obligations, not only by                                                                               to rely on self-reporting, stating
           ensuring that they have adequate compliance procedures                                                                                    that it only plans to conduct testing
           but also by independently testing participants’ compliance.                                                                               where they have particular concerns
                                                                                                   X                                                 as to a TARP recipient’s compliance
                                                                                                                                                     procedures or testing results, it has
                                                                                                                                                     conducted independent testing of
                                                                                                                                                     compliance obligations during some
                                                                                                                                                     compliance reviews.
58     *   Treasury should develop guidelines that apply consistently                                                                                Treasury states that it has developed
           across TARP participants for when a violation is sufficiently                                                                             guidance and provided that guidance
           material to merit reporting, or in the alternative require that                                                                           to the exceptional assistance
           all violations be reported.                                                                                                               participants that were remaining in
                                                                                                                                                     TARP as of June 30, 2011. Treasury
                                                                                                   X
                                                                                                                                                     has not addressed other factors
                                                                                                                                                     contained in this recommendation,
                                                                                                                                                     citing its belief that materiality should
                                                                                                                                                     be subject to a fact and circumstances
                                                                                                                                                     review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
59         For each HAMP-related program and subprogram, Treasury                                                                                    Treasury has provided anticipated
           should publish the anticipated costs and expected                                                                                         costs, but not expected participation.
           participation in each and that, after each program is                                   X
           launched, it report monthly as to the program’s performance
           against these expectations.
60     *   Treasury should re-evaluate the voluntary nature of its                                                                                   Treasury plans to maintain the
           principal reduction program and, irrespective of whether it                                                                               voluntary nature of the program,
           is discretionary or mandatory, consider changes to better                                                                                 providing an explanation that on its
                                                                                                                                              X
           maximize its effectiveness, ensure to the greatest extent                                                                                 face seems unpersuasive to SIGTARP.
           possible the consistent treatment of similarly situated                                                                                   SIGTARP will continue to monitor
           borrowers, and address potential conflict of interest issues.                                                                             performance.
61         Treasury should adopt a uniform appraisal process across
           all HAMP and HAMP-related short-sale and principal                                                                   X
           reduction programs consistent with FHA’s procedures.
62     *   Treasury should reconsider the length of the minimum term                                                                                 For more than a year, Treasury
           of HAMP’s unemployment forbearance program.                                                                                               refused to adopt this recommendation,
                                                                                                                                                     even though average U.S. terms of
                                                                                                                                                     unemployment were lengthening.
                                                                                                                                                     However, in July 2011, the
                                                                                 X
                                                                                                                                                     Administration announced a policy
                                                                                                                                                     change, and Treasury has extended the
                                                                                                                                                     minimum term of the unemployment
                                                                                                                                                     program from three months to 12
                                                                                                                                                     months, effective October 1, 2011.
63         Treasury should launch a broad-based information
           campaign, including public service announcements in target
           markets that focus on warnings about potential fraud, and             X
           include conspicuous fraud warnings whenever it makes
           broad public announcements about the HAMP program.
64         When Treasury considers whether to accept an existing CPP
           participant into SBLF, because conditions for many of the
           relevant institutions have changed dramatically since they
           were approved for CPP, Treasury and the bank regulators               X
           should conduct a new analysis of whether the applying
           institution is sufficiently healthy and viable to warrant
           participation in SBLF.
65         When Treasury conducts the new analysis of an institution’s                                                                               Treasury refused to adopt this
           health and viability, the existing CPP preferred shares should                                                                            recommendation, citing its belief
           not be counted as part of the institution’s capital base.                                                                                 that current CPP participants may be
                                                                                                                                                     unfairly disadvantaged in their SBLF
                                                                                                                                                     applications if their existing CPP
                                                                                                                                X
                                                                                                                                                     investments are not counted as part
                                                                                                                                                     of their capital base, and that SBLF
                                                                                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




                                                                                                                                                     “already provides substantial hurdles
                                                                                                                                                     that CPP recipients must overcome”
                                                                                                                                                     that don’t apply to other applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                              81
                                                                                                                                                                                                 82
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
66         Treasury should take steps to prevent institutions that are                                                                               Treasury refused to adopt this
           refinancing into the SBLF from CPP from securing windfall                                                                                 recommendation, suggesting that
           dividend reductions without any relevant increase in lending.                                                                             its adoption would subvert the will
                                                                                                                                                     of Congress and that SIGTARP’s
                                                                                                                                X
                                                                                                                                                     recommendation “may not be helpful”
                                                                                                                                                     because “it is unclear that using this
                                                                                                                                                     statutorily mandated baseline will lead
                                                                                                                                                     to anomalies.”
67     *   Treasury, as part of its due diligence concerning any
           proposed restructuring, recapitalization, or sale of its CPP
           investment to a third party, should provide to SIGTARP the            X
           identity of the CPP institution and the details of the proposed
           transaction.
68     *   When a CPP participant refinances into SBLF and seeks
           additional taxpayer funds, Treasury should provide to
                                                                                 X
           SIGTARP the identity of the institution and details of the
           proposed additional SBLF investment.
69     *   OFS should adopt the legal fee bill submission standards                                                                                  Treasury told SIGTARP that OFS has
           contained in the FDIC’s Outside Counsel Deskbook, or                                                                                      created new guidance using the FDIC’s
           establish similarly detailed requirements for how law                                                                                     Outside Counsel Deskbook and other
                                                                                 X
                                                                                                                                                                                                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           firms should prepare legal fee bills and describe specific                                                                                resources.
           work performed in the bills, and which costs and fees are
           allowable and unallowable.
70     *   OFS should include in its open legal service contracts                                                                                    Treasury told SIGTARP that OFS has
           detailed requirements for law firms on the preparation and                                                                                distributed its new guidance to all
           submission of legal fee bills, or separately provide the                                                                                  law firms currently under contract to
           instructions to law firms and modify its open contracts,                                                                                  OFS. Treasury further stated that OFS
                                                                                                                 X
           making application of the instructions mandatory.                                                                                         will work with Treasury’s Procurement
                                                                                                                                                     Services Division to begin modifying
                                                                                                                                                     base contracts for OFS legal services
                                                                                                                                                     to include those standards as well.
71     *   OFS should adopt the legal fee bill review standards                                                                                      Treasury told SIGTARP that OFS has
           and procedures contained in the FDIC’s Outside Counsel                                                                                    held training on its newly adopted
           Deskbook, or establish similarly specific instructions and                                                                                guidance prescribing how legal fee bills
           guidance for OFS COTRs to use when reviewing legal fee                                                                                    should be prepared with OFS COTRs
           bills, and incorporate those instructions and guidance into                                                                               and other staff involved in the review
           OFS written policies.                                                                                                                     of legal fee bills, and that the OFS
                                                                                 X                                                                   COTRs will begin reviewing invoices in
                                                                                                                                                     accordance with its new guidance for
                                                                                                                                                     periods starting with March 2011. OFS
                                                                                                                                                     also stated that it incorporated relevant
                                                                                                                                                     portions of its training on the new legal
                                                                                                                                                     fee bill review standards into written
                                                                                                                                                     procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
72     *   OFS should review previously paid legal fee bills to                                                                                      Although Treasury previously agreed
           identify unreasonable or unallowable charges, and seek                                                                                    to implement this recommendation,
           reimbursement for those charges, as appropriate.                                                                                          Treasury only reviewed the legal fee
                                                                                                                                                     bills for one of the five law firms that
                                                                                                                                X                    SIGTARP had already described as
                                                                                                                                                     unreasonable. Treasury refuses to
                                                                                                                                                     seek any reimbursement for those
                                                                                                                                                     charges. See also Recommendation
                                                                                                                                                     81 concerning this issue.
73     *   Treasury should establish detailed guidance and internal                                                                                  Treasury made important changes to
           controls governing how the MHA Servicer Compliance                                                                                        its servicer assessments by including
           Assessment will be conducted and how each compliance                                                                                      metrics for the ratings, including
           area will be weighted.                                                                                                                    several quantitative metrics. However,
                                                                                                                                                     qualitative metrics to assess the
                                                                                                   X
                                                                                                                                                     servicer’s internal controls in the
                                                                                                                                                     three ratings categories remain, and
                                                                                                                                                     guidelines or criteria for rating the
                                                                                                                                                     effectiveness of internal controls are
                                                                                                                                                     still necessary.
74     *   Treasury should ensure that more detail is captured by                                                                                    Minutes of recent MHA Compliance
           the MHA Compliance Committee meeting minutes. At a                                                                                        Committee meetings contain brief
           minimum, the minutes should include MHA-C’s proposed                                                                                      explanations of servicer assessment
           rating for each servicer, the committee members’ qualitative                                                                              rating decisions. However, these
           and quantitative considerations regarding each servicer’s                                                                                 minutes do not explain the Committee’s
           ratings, the votes of each committee member, the final                                  X                                                 deliberations in detail, do not indicate
           rating for each servicer, justification for any difference in                                                                             how members voted beyond a tally of
           that rating with MHA-C’s proposed rating, and any follow-                                                                                 the votes, and do not discuss follow-up
           up including escalation to Treasury’s Office of General                                                                                   actions or escalation.
           Counsel or the Assistant Secretary and the outcomes of that
           escalation.
75     *   Treasury should require that MHA servicer communications                                                                                  Treasury has refused to adopt
           with homeowners relating to changes in the status or                                                                                      this recommendation, saying it
           terms of a homeowner’s modification application, trial or                                                                                 already requires a loan servicer to
           permanent modification, HAFA agreement, or any other                                                                                      communicate in writing with a borrower
           significant change affecting the homeowner’s participation in                                                                             an average of 10 times. However,
           the MHA program, be in writing.                                                                                      X                    most written requirements apply to
                                                                                                                                                     a HAMP application and Treasury’s
                                                                                                                                                     response fails to address homeowners
                                                                                                                                                     who receive miscommunication from
                                                                                                                                                     servicers on important milestones or
                                                                                                                                                     changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                 Continued on next page
                                                                                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014
                                                                                                                                                                                                83
                                                                                                                                                                                                84
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                     Implemented      Implemented   In Process   Not Implemented   TBD/NA   Comments
76     *   Treasury should establish benchmarks and goals for                                                                                        Treasury told SIGTARP that it already
           acceptable program performance for all MHA servicers,                                                                                     established benchmarks in this area,
           including the length of time it takes for trial modifications to                                                                          including that trial periods should last
           be converted into permanent modifications, the conversion                                                                                 three to four months, and escalated
           rate for trial modifications into permanent modifications,                                                                                cases should be resolved in 30
           the length of time it takes to resolve escalated homeowner                                                                                days. If these are the benchmarks
                                                                                                                                X
           complaints, and the percentage of required modification                                                                                   for acceptable performance, many
           status reports that are missing.                                                                                                          servicers have missed the mark.
                                                                                                                                                     Also, Treasury has yet to establish
                                                                                                                                                     a benchmark for conversion rates
                                                                                                                                                     from trial modifications to permanent
                                                                                                                                                     modifications.
77     *   Treasury should publicly assess the top 10 MHA servicers’                                                                                 Treasury has rejected this
           program performance against acceptable performance                                                                                        recommendation, saying only
           benchmarks in the areas of: the length of time it takes                                                                                   that it would “continue to develop
           for trial modifications to be converted into permanent                                                                                    and improve the process where
           modifications, the conversion rate for trial modifications                                                           X                    appropriate.”
           into permanent modifications, the length of time it takes
           to resolve escalated homeowner complaints, and the
           percentage of required modification status reports that are
           missing.
                                                                                                                                                                                                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




78     *   Treasury must ensure that all servicers participating in MHA                                                                              Treasury has rejected this important
           comply with program requirements by vigorously enforcing                                                                                  recommendation, stating that it
           the terms of the servicer participation agreements, including                                                                             believes that the remedies enacted
           using all financial remedies such as withholding, permanently                                                                             have been appropriate and that
                                                                                                                                X
           reducing, and clawing back incentives for servicers who                                                                                   appropriate transparency exists.
           fail to perform at an acceptable level. Treasury should be
           transparent and make public all remedial actions taken
           against any servicer.
79         Treasury should specifically determine the allowability of                                                                                Treasury neither agreed nor disagreed
           $7,980,215 in questioned, unsupported legal fees and                                                                                      with the recommendation.
           expenses paid to the following law firms: Simpson Thacher
           & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                                 X
           Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
           ($146,867); and Bingham McCutchen LLP (novated from
           McKee Nelson LLP, $57,939).
80         The Treasury contracting officer should disallow and seek                                                                                 Treasury neither agreed nor disagreed
           recovery from Simpson Thacher & Bartlett LLP for $91,482                                                                                  with the recommendation.
           in questioned, ineligible fees and expenses paid that were
           not allowed under the OFS contract. Specifically, those are
                                                                                                                                X
           $68,936 for labor hours billed at rates in excess of the
           allowable maximums set in contract TOFS-09-0001, task
           order 1, and $22,546 in other direct costs not allowed
           under contract TOFS-09-007, task order 1.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
81         Treasury should promptly review all previously paid legal fee                                                                             Treasury only reviewed the legal fee
           bills from all law firms with which it has a closed or open                                                                               bills for one of the five law firms that
           contract to identify unreasonable or unallowable charges                                                             X                    SIGTARP had already described as
           and seek reimbursement for those charges, as appropriate.                                                                                 unreasonable. Treasury refuses to seek
                                                                                                                                                     any reimbursements for those charges.
82         Treasury should require in any future solicitation for legal                                                                              Treasury neither agreed nor disagreed
           services multiple rate categories within the various partner,                                                                             with the recommendation.
           counsel, and associate labor categories. The additional                                                              X
           labor rate categories should be based on the number of
           years the attorneys have practiced law.
83         Treasury should pre-approve specified labor categories and                                                                                Treasury neither agreed nor disagreed
           rates of all contracted legal staff before they are allowed to                                                       X                    with the recommendation.
           work on and charge time to OFS projects.
84     *   Treasury, in consultation with Federal banking regulators,                                                                                Treasury responded that it continues
           should develop a clear TARP exit path to ensure that                                                                                      its efforts to wind down CPP through
           as many community banks as possible repay the TARP                                                                                        repayments, restructuring, and sales.
           investment and prepare to deal with the banks that cannot.                                                                                Treasury has not addressed the criteria
                                                                                                                 X
           Treasury should develop criteria pertaining to restructurings,                                                                            for these divestment strategies or
           exchanges, and sales of its TARP investments (including any                                                                               consulted with regulators.
           discount of the TARP investment, the treatment of unpaid
           TARP dividend and interest payments, and warrants).
85     *   Treasury should assess whether it should renegotiate the                                                                                  Treasury rejected this recommendation
           terms of its Capital Purchase Program contracts for those                                                                                 without ever addressing why.
           community banks that will not be able to exit TARP prior                                                             X
           to the dividend rate increase in order to help preserve the
           value of taxpayers’ investments.
86         Treasury should protect borrower personally identifiable                                                                                  Treasury has said it will adopt this
           information (“PII”) and other sensitive borrower information                                                                              recommendation in part. Treasury did
           compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                               not agree to review each HFA’s policies
           that within 90 days, all Housing Finance Agencies (and                                                                                    and procedures to determine if they
           their contractors) (“HFAs”) participating in HHF develop                                                                                  are effective. Also, Treasury did not
           and implement effective policies and procedures to ensure                                                                                 require notification within 24 hours or
           protection against unauthorized access, use, and disposition                                                                              notification to SIGTARP. SIGTARP will
           of PII and other sensitive borrower information; (2) Treasury                                                                             monitor Treasury’s efforts to implement
           reviewing each HFA’s policies and procedures to determine                                                                                 the recommendation.
           if they are effective, and taking such action as is required to                                       X
           ensure effectiveness; (3) requiring that all parties granted
           access to borrower information should be made aware
           of restrictions on copying and disclosing this information;
           (4) requiring annual certification by HFAs to Treasury that
           they are in compliance with all applicable laws, policies
           and procedures pertaining to borrower information; and (5)
           requiring that HFAs promptly notify Treasury and SIGTARP
           within 24 hours, when a breach of security has occurred
                                                                                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           involving borrower information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                                85
                                                                                                                                                                                                86
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
87     *   To ensure that the Office of the Special Master consistently                                                                              While Treasury’s documentation of
           grants exceptions to the $500,000 cash salary cap, the                                                                                    granting these cash salaries has
           Office of the Special Master should substantiate each                                                                                     improved in that it includes some
           exception requested and whether the requests demonstrate                                                                                  additional information beyond
           or fail to demonstrate “good cause.”                                                                                                      the company’s assertions, that
                                                                                                                                                     information is primarily market
                                                                                                                                                     data that the company provides.
                                                                                                                                                     The recommendation was not to
                                                                                                                                X                    document better, but instead to
                                                                                                                                                     “substantiate” which requires some
                                                                                                                                                     criteria for granting exceptions as
                                                                                                                                                     well as independent analysis beyond
                                                                                                                                                     the company’s assertions. Treasury’s
                                                                                                                                                     policies and procedures do not contain
                                                                                                                                                     any criteria for approving cash salaries
                                                                                                                                                     exceeding $500,000 or any discussion
                                                                                                                                                     of any analysis by Treasury.
88     *   The Office of the Special Master should better document                                                                                   In 2012, Treasury began to preserve
           its use of market data in its calculations. At a minimum, the                                                                             the independent market data on which
           Office of the Special Master should prospectively document                                                                                it relied to evaluate the market data
           which companies and employees are used as comparisons                                                                                     submitted by the companies.
                                                                                 X
                                                                                                                                                                                                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           in its analysis of the 50th percentile of the market, and
           it should also maintain records and data so that the
           relationship between its determinations and benchmarks are
           clearly understood.
89     *   The Office of the Special Master should develop more                                                                                      Although Treasury created written
           robust policies, procedures, or guidelines to help ensure                                                                                 policies and procedures in June 2013,
           that its pay determination process and its decisions are                                                                                  OSM’s policy only contains Treasury’s
           evenhanded. These measures will improve transparency                                                                                      rule and language from the statute,
           and help the Office of the Special Master consistently apply                                                                              all of which was existing prior to
           the Interim Final Rule principles of “appropriate allocation,”                                                                            OSM’s creation. Therefore, OSM has
           “performance-based compensation,” and “comparable                                                                                         not created its own formal policies.
           structures and payments.”                                                                                                                 OSM’s written procedures are merely
                                                                                                                                                     a documentation of some of OSM’s
                                                                                                                                X                    existing practices and guidelines, but
                                                                                                                                                     not others as contained in the pay
                                                                                                                                                     determination letters, and were not a
                                                                                                                                                     new development of robust policies,
                                                                                                                                                     procedures or guidelines. They do not
                                                                                                                                                     establish meaningful criteria Treasury
                                                                                                                                                     can follow for approving cash salaries
                                                                                                                                                     exceeding $500,000, pay exceeding
                                                                                                                                                     market medians, pay raises, or the use
                                                                                                                                                     of long term restricted stock.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
90         In order to allow for effective compliance and enforcement                                                                                Treasury responded to this
           in HAMP Tier 2, Treasury should require that the borrower                                                                                 recommendation by requiring that
           prove that the property has been rented and is occupied                                                                                   borrowers certify that they intend to
           by a tenant at the time the borrower applies for a loan                                                                                   rent the property for at least five years
           modification, as opposed to requiring only a certification                                                                                and that they will make reasonable
           that the borrower intends to rent the property. As part of                                                                                efforts to rent. This does not go
           the Request for Mortgage Assistance (“RMA”) application                                                                                   far enough. Requiring only a self-
           for HAMP Tier 2, the borrower should provide the servicer                                                                                 certification, under penalty of perjury,
           with a signed lease and third-party verified evidence of                                                                                  without a strong compliance and
                                                                                                                                X
           occupancy in the form of documents showing that a renter                                                                                  enforcement regime to ensure that the
           lives at the property address, such as a utility bill, driver’s                                                                           intent is carried out and the property
           license, or proof of renter’s insurance. In the case of                                                                                   is actually rented, leaves the program
           multiple-unit properties under one mortgage Treasury should                                                                               vulnerable to risks that TARP funds
           require that the borrower provide the servicer with evidence                                                                              will pay investors for modifications for
           that at least one unit is occupied by a tenant as part of the                                                                             mortgages on vacation homes that are
           RMA.                                                                                                                                      not rented, and may delay, as opposed
                                                                                                                                                     to prevent, foreclosures and increase
                                                                                                                                                     HAMP redefault rates.
91         To continue to allow for effective compliance and                                                                                         Treasury rejected this
           enforcement in HAMP Tier 2 after the trial modification has                                                                               recommendation, stating that eligibility
           started, Treasury should require that, prior to conversion                                                                                is not retested prior to conversion.
           of a trial modification to a permanent modification, the                                                                                  This does not go far enough. Requiring
           borrower certify under penalty of perjury that none of the                                                                                only a self-certification, without a
           occupancy circumstances stated in the RMA have changed.                                                                                   strong compliance and enforcement
                                                                                                                                                     regime to ensure that the intent
                                                                                                                                X                    is carried out and the property is
                                                                                                                                                     actually rented, leaves the program
                                                                                                                                                     vulnerable to risks that TARP funds
                                                                                                                                                     will pay investors for modifications for
                                                                                                                                                     mortgages on vacation homes that are
                                                                                                                                                     not rented, and may delay, as opposed
                                                                                                                                                     to prevent, foreclosures and increase
                                                                                                                                                     HAMP redefault rates.
92         To prevent a property that has received a HAMP Tier 2                                                                                     Treasury told SIGTARP that
           modification from remaining vacant for an extended period                                                                                 implementing this recommendation
           of time after a lease expires or a tenant vacates,                                                                                        would create significant additional
           (a) Treasury should require that borrowers immediately notify                                                                             procedures and documentation
           their servicer if the property has remained vacant for more                                                                               requirements. With no compliance
           than three months.                                                                                                                        regime to determine that a renter is in
           (b) Treasury should require servicers to provide monthly                                                                                  place, the program remains vulnerable
                                                                                                                                X
           reports to Treasury of any properties that have remained                                                                                  to TARP funds being paid to modify
           vacant for more than three months.(c) Treasury should bar                                                                                 mortgages that do not fit within the
           payment of TARP-funded incentives to any participant for                                                                                  intended expansion of the program.
           a loan modification on a property that has been reported
           vacant for more than three months, until such time as the
                                                                                                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           property has been re-occupied by a tenant and the borrower
           has provided third-party verification of occupancy.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                                 87
                                                                                                                                                                                                  88
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
93         In order to protect against the possibility that the extension                                                                            Treasury has not implemented this
           and expansion of HAMP will lead to an increase in mortgage                                                                                recommendation. It is important
           modification fraud,                                                                                                                       that Treasury educate as many
           (a) Treasury should require that servicers provide the                                                                                    homeowners as possible with accurate
           SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                                     information about HAMP in an effort to
           Alert to all HAMP-eligible borrowers as part of their monthly                                                                             prevent mortgage modification fraud.
           mortgage statement until the expiration of the application
                                                                                                                                X
           period for HAMP Tier 1 and 2.
           (b) Treasury should undertake a sustained public service
           campaign as soon as possible both to reach additional
           borrowers who could potentially be helped by HAMP Tier 2
           and to arm the public with complete, accurate information
           about the program to avoid confusion and delay, and to
           prevent fraud and abuse.
94         Given the expected increase in the volume of HAMP                                                                                         Treasury has not implemented this
           applications due to the implementation of HAMP Tier 2,                                                                                    recommendation. Treasury has not
           Treasury should convene a summit of key stakeholders to                                                                                   held a summit of all key stakeholders
                                                                                                                                X
           discuss program implementation and servicer ramp-up and                                                                                   to make the program roll-out efficient
           performance requirements so that the program roll-out is                                                                                  and effective.
           efficient and effective.
95         To ensure servicer compliance with HAMP Tier 2 guidelines                                                                                 Treasury said that it will include metrics
                                                                                                                                                                                                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           and assess servicer performance,                                                                                                          in the future. SIGTARP will continue to
           (a) Treasury should include additional criteria in its servicer                                                                           monitor Treasury’s implementation of
           compliance assessments that measure compliance with the                                                                                   this recommendation.
           program guidelines and requirements of HAMP Tier 2.
                                                                                                                 X
           (b) Treasury should develop and publish separate metrics
           related to HAMP Tier 2 in the compliance results and
           program results sections of the quarterly Making Home
           Affordable (“MHA”) servicer assessments of the Top 10 MHA
           servicers.
96         To allow for assessment of the progress and success                                                                                       Treasury has rejected this
           of HAMP Tier 2, Treasury should set meaningful and                                                                                        recommendation. Treasury’s refusal
           measurable goals, including at a minimum the number of                                                                                    to provide meaningful and measurable
           borrowers Treasury estimates will be helped by HAMP Tier                                                             X                    goals leaves it vulnerable to
           2. Treasury should unambiguously and prominently disclose                                                                                 accusations that it is trying to avoid
           its goals and report monthly on its progress in meeting                                                                                   accountability.
           these goals.
97         Treasury should set meaningful and measurable                                                                                             Treasury has not implemented this
           performance goals for the Hardest Hit Fund program                                                                                        recommendation. It is important that
           including, at a minimum, the number of homeowners                                                                                         Treasury sets meaningful goals and
           Treasury estimates will be helped by the program, and                                                                X                    metrics to identify program successes
           measure the program’s progress against those goals.                                                                                       and set-backs, in order to change the
                                                                                                                                                     program as necessary, and to provide
                                                                                                                                                     transparency and accountability.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
98         Treasury should instruct state housing finance agencies                                                                                   Treasury issued letters to five housing
           in the Hardest Hit Fund to set meaningful and measurable                                                                                  finance agencies requiring those
           overarching and interim performance goals with appropriate                                                                                states to provide an action plan with
           metrics to measure progress for their individual state                                                                                    measurable interim and overall goals,
           programs.                                                                                                                                 including benchmarks, to improve the
                                                                                                                                                     level of homeowner assistance under
                                                                                                   X
                                                                                                                                                     the HHF program. Treasury should
                                                                                                                                                     fully adopt SIGTARP’s recommendation
                                                                                                                                                     with the remaining 14 housing finance
                                                                                                                                                     agencies in the HHF program. SIGTARP
                                                                                                                                                     will continue to monitor implementation
                                                                                                                                                     of this recommendation.
99         Treasury should set milestones at which the state housing                                                                                 Treasury issued letters to five housing
           finance agencies in the Hardest Hit Fund must review the                                                                                  finance agencies requiring those
           progress of individual state programs and make program                                                                                    states to provide an action plan with
           adjustments from this review.                                                                                                             measurable interim and overall goals,
                                                                                                                                                     including benchmarks, to improve the
                                                                                                                                                     level of homeowner assistance under
                                                                                                   X
                                                                                                                                                     the HHF program. Treasury should
                                                                                                                                                     fully adopt SIGTARP’s recommendation
                                                                                                                                                     with the remaining 14 housing finance
                                                                                                                                                     agencies in the HHF program. SIGTARP
                                                                                                                                                     will continue to monitor implementation
                                                                                                                                                     of this recommendation.
100        Treasury should publish on its website and in the Housing                                                                                 Treasury has only partially implemented
           Scorecard on a quarterly basis the total number of                                                                                        this recommendation. Treasury
           homeowners assisted, funds drawn down by states, and                                                                                      recently started publishing some
           dollars expended for assistance to homeowners, assistance                                                                                 aggregated data on its website.
           committed to homeowners, and cash on hand, aggregated                                   X                                                 However, Treasury does not publish all
           by all state Hardest Hit Fund programs.                                                                                                   of the data SIGTARP recommended nor
                                                                                                                                                     does Treasury publish any data at all
                                                                                                                                                     concerning the Hardest Hit Fund in the
                                                                                                                                                     Housing Scorecard.
101        Treasury should develop an action plan for the Hardest                                                                                    Treasury has rejected this
           Hit Fund that includes steps to increase the numbers of                                                                                   recommendation. It is important that
           homeowners assisted and to gain industry support for                                                                                      Treasury change the status quo and
           Treasury-approved HHF programs. Treasury should set                                                                                       fulfill its role as steward over TARP
           interim metrics for how many homeowners it intends to                                                                                     programs, make determinations of
           assist in a Treasury-defined time period in each particular                                                                               which programs are successful and
           program (such as principal reduction, second lien reduction,                                                                              which programs are not working, and
                                                                                                                                X
           or reinstatement). If Treasury cannot achieve the desired                                                                                 ensure that HHF funds are reaching
           level of homeowners assisted in any one program area in                                                                                   homeowners. This may include
           the defined time period, Treasury should put the funds to                                                                                 putting the funds toward programs
           better use toward programs that are reaching homeowners.                                                                                  that are more successful at reaching
                                                                                                                                                     homeowners. It is unacceptable to
                                                                                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




                                                                                                                                                     delegate all of this responsibility to the
                                                                                                                                                     states.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                                  89
                                                                                                                                                                                              90
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
102        Treasury should stop allowing servicers to add a risk                                                                                     Treasury has not implemented this
           premium to Freddie Mac’s discount rate in HAMP’s net                                                                                      recommendation. The addition of a
           present value test.                                                                                                                       risk premium reduces the number
                                                                                                                                                     of otherwise qualified homeowners
                                                                                                                                X
                                                                                                                                                     Treasury helps through HAMP. Treasury
                                                                                                                                                     should implement this recommendation
                                                                                                                                                     to increase assistance to struggling
                                                                                                                                                     homeowners.
103        Treasury should ensure that servicers use accurate                                                                                        Treasury has not implemented this
           information when evaluating net present value test results                                                                                recommendation. Servicer errors using
           for homeowners applying to HAMP and should ensure that                                                                                    NPV inputs and the lack of properly
           servicers maintain documentation of all net present value                                                                                 maintained records on NPV inputs have
                                                                                                                                X
           test inputs. To the extent that a servicer does not follow                                                                                diminished compliance and placed the
           Treasury’s guidelines on input accuracy and documentation                                                                                 protection of homeowner’s rights to
           maintenance, Treasury should permanently withhold                                                                                         challenge servicer error at risk.
           incentives from that servicer.
104        Treasury should require servicers to improve their                                                                                        Treasury has not implemented
           communication with homeowners regarding denial of a                                                                                       this recommendation. Servicers’
           HAMP modification so that homeowners can move forward                                                                                     failure to communicate denial in
           with other foreclosure alternatives in a timely and fully                                                                                 a timely manner can have serious
                                                                                                                                X
           informed manner. To the extent that a servicer does not                                                                                   consequences because a delay may
                                                                                                                                                                                              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           follow Treasury’s guidelines on these communications,                                                                                     prevent homeowners from finding other
           Treasury should permanently withhold incentives from that                                                                                 foreclosure alternatives sooner.
           servicer.
105        Treasury should ensure that more detail is captured by the                                                                                Treasury has not implemented this
           Making Home Affordable Compliance Committee meeting                                                                                       recommendation. SIGTARP found a
           minutes regarding the substance of discussions related to                                                                                 lack of detail in Treasury’s meeting
           compliance efforts on servicers in HAMP. Treasury should                                                                                  minutes and because Treasury failed
                                                                                                                                X
           make sure that minutes clearly outline the specific problems                                                                              to document its oversight, SIGTARP
           encountered by servicers, remedial options discussed, and                                                                                 was unable to verify Treasury’s role
           any requisite actions taken to remedy the situation.                                                                                      in the oversight of servicers or its
                                                                                                                                                     compliance agent Freddie Mac.
106        In order to protect taxpayers who funded TARP against any                                                                                 Neither Treasury nor the Federal
           future threat that might result from LIBOR manipulation,                                                                                  Reserve has agreed to implement this
           Treasury and the Federal Reserve should immediately                                                                                       recommendation despite Treasury
           change any ongoing TARP programs including, without                                                                                       telling SIGTARP that it “share[s
           limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                                    SIGTARP’s] concerns about the
                                                                                                                                X                    integrity” of LIBOR, and the Federal
                                                                                                                                                     Reserve telling SIGTARP that it agreed
                                                                                                                                                     that “recent information regarding the
                                                                                                                                                     way the LIBOR has been calculated has
                                                                                                                                                     created some uncertainty about the
                                                                                                                                                     reliability of the rate.”
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
107        In order to protect taxpayers who invested TARP funds                                                                                     On July 8, 2013, the Financial Stability
           into AIG to the fullest extent possible, Treasury and the                                                                                 Oversight Council unanimously voted
           Federal Reserve should recommend to the Financial Stability                                                                               to designate AIG as systemically
                                                                                 X
           Oversight Council that AIG be designated as a systemically                                                                                important.
           important financial institution so that it receives the
           strongest level of Federal regulation.
108        In order to fulfill Treasury’s responsibility to wind down its                                                                            Treasury has not agreed to implement
           TARP Capital Purchase Program investments in a way that                                                                                   this important recommendation.
           protects taxpayer interests, before allowing a TARP bank
           to purchase Treasury’s TARP shares at a discount to the
           TARP investment (for example as the successful bidder
           at auction), Treasury should undertake an analysis, in                                                               X
           consultation with Federal banking regulators, to determine
           that allowing the bank to redeem its TARP shares at a
           discount to the TARP investment outweighs the risk that the
           bank will not repay the full TARP investment. Treasury should
           document that analysis and consultation.
109        In order to fulfill Treasury’s responsibility to wind down its                                                                            Treasury has not agreed to implement
           TARP investments in a way that promotes financial stability                                                                               this important recommendation.
           and preserves the strength of our nation’s community
           banks, Treasury should undertake an analysis in consultation
           with Federal banking regulators that ensures that it is exiting
           its Capital Purchase Program investments in a way that
           satisfies the goals of CPP, which are to promote financial
           stability, maintain confidence in the financial system and                                                           X
           enable lending. This financial stability analysis of a bank’s
           exit from TARP should determine at a minimum: (1) that the
           bank will remain healthy and viable in the event of an auction
           of Treasury’s preferred shares; and (2) that the bank’s exit
           from TARP does not have a negative impact on the banking
           industry at a community, state, regional, and national level.
           Treasury should document that analysis and consultation.
110        Treasury should better document its decision whether or not                                                                               Treasury has not agreed to implement
           to auction its preferred shares in a TARP bank to adequately                                                                              this important recommendation, but
           reflect the considerations made for each bank and detailed                                                                                is reviewing its practices in light of
                                                                                                                                X
           rationale.                                                                                                                                SIGTARP’s recommendations. SIGTARP
                                                                                                                                                     will monitor Treasury’s efforts to
                                                                                                                                                     implement this recommendation.
111    *   Each year, Treasury should reevaluate total compensation                                                                                  Treasury’s new procedures state that
           for those employees at TARP exceptional assistance                                                                                        OSM may reduce pay, however OSM
           companies remaining in the Top 25 from the prior year,                                                               X                    did not address any guidelines or
           including determining whether to reduce total compensation.                                                                               criteria that it would consider in doing
                                                                                                                                                     so.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
                                                                                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014
                                                                                                                                                                                                91
                                                                                                                                                                                                 92
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
112    *   To ensure that Treasury effectively applies guidelines aimed                                                                              Treasury has not established clear
           at curbing excessive pay and reducing risk taking, Treasury                                                                               policies, procedures, and criteria for
           should develop policies, procedures, and criteria for                                                                                     approving pay in excess of Treasury’s
                                                                                                                                X
           approving pay in excess of Treasury guidelines.                                                                                           guidelines such as the 50th percentile,
                                                                                                                                                     cash salaries greater than $500,000,
                                                                                                                                                     or use of long term restricted stock.
113    *   Treasury should independently analyze whether good cause                                                                                  Treasury has not established criteria
           exists to award a Top 25 employee a pay raise or a cash                                                                                   for awarding an employee a pay
           salary over $500,000. To ensure that the Office of the                                                                                    raise or a cash salary exceeding
           Special Master has sufficient time to conduct this analysis,                                                                              $500,000. Such criteria is important
           Treasury should allow OSM to work on setting Top 25 pay                                                                                   to independently analyzing the basis
           prior to OSM’s receiving the company pay proposals, which                                                                                 for awarding pay raises or cash
           starts the 60-day timeline.                                                                                          X                    salaries greater than $500,000 and
                                                                                                                                                     ensuring consistency in decision-
                                                                                                                                                     making. Treasury’s documentation
                                                                                                                                                     of its justification does not evidence
                                                                                                                                                     independent analysis, but instead sets
                                                                                                                                                     forth the company’s assertions and
                                                                                                                                                     market data supplied by the company.
114    *   To be consistent with Treasury’s Interim Final Rule that the                                                                              In 2013, Treasury allowed some
           portion of performance-based compensation compared                                                                                        GM employees not to have long-
                                                                                                                                                                                                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           to total compensation should be greater for positions that                                                                                term restricted stock and effectively
           exercise higher levels of responsibility, Treasury should                                                                                 approved only 5% of all of Ally
           return to using long-term restricted stock for employees,                                                                                 employees pay in long-term restricted
                                                                                                                                 X
           particularly senior employees such as CEOs.                                                                                               stock and failed to consider positions
                                                                                                                                                     and levels of authority on an individual
                                                                                                                                                     basis, as called for by Treasury’s rule.
                                                                                                                                                     In 2014, Treasury eliminated long-term
                                                                                                                                                     restricted stock for Ally employees.
115        Treasury should conduct in-depth research and analysis to                                                                                 Treasury has agreed to implement this
           determine the causes of redefaults of HAMP permanent                                                                                      important recommendation. Treasury
           mortgage modifications and the characteristics of loans                                                                                   told SIGTARP that it is in the process
           or the homeowner that may be more at risk for redefault.                                                                                  of conducting the recommended
           Treasury should require servicers to submit any additional                                                                                research. SIGTARP will monitor
                                                                                                                 X
           information that Treasury needs to conduct this research                                                                                  Treasury’s efforts to implement the
           and analysis. Treasury should make the results of this                                                                                    recommendation.
           analysis public and issue findings based on this analysis,
           so that others can examine, build on, and learn from this
           research.
116        As a result of the findings of Treasury’s research and                                                                                    Treasury has agreed to consider this
           analysis into the causes of HAMP redefaults, and                                                                                          important recommendation, based on
           characteristics of redefaults, Treasury should modify                                                                              X      the results of research it is conducting.
           aspects of HAMP and the other TARP housing programs in                                                                                    SIGTARP will monitor Treasury’s efforts
           ways to reduce the number of redefaults.                                                                                                  to implement the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                                Continued on next page
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)
                                                                                                 Partially
           Recommendation                                                     Implemented      Implemented   In Process   Not Implemented   TBD/NA   Comments
117        Treasury should require servicers to develop and use                                                                                      Treasury has agreed to implement
           an “early warning system” to identify and reach out to                                                                                    this important recommendation and
           homeowners that may be at risk of redefaulting on a                                                                                       is considering taking further action.
                                                                                                                                X
           HAMP mortgage modification, including providing or                                                                                        SIGTARP will monitor Treasury’s efforts
           recommending counseling and other assistance and                                                                                          to implement the recommendation.
           directing them to other TARP housing programs.
118        In the letter Treasury already requires servicers to send to                                                                              Treasury has agreed to implement
           homeowners who have redefaulted on a HAMP modification                                                                                    this important recommendation and
           about possible options to foreclosure, Treasury should                                                                                    is considering taking further action.
           require the servicers to include other available alternative                                                                              SIGTARP will monitor Treasury’s efforts
           assistance options under TARP such as the Hardest Hit                                                                                     to implement the recommendation.
                                                                                                                                X
           Fund and HAMP Tier 2, so that homeowners can move
           forward with other alternatives, if appropriate, in a timely
           and fully informed manner. To the extent that a servicer
           does not follow Treasury’s rules in this area, Treasury should
           permanently withhold incentives from that servicer.
119        Treasury and the Federal banking regulators should                                                                                        Treasury has not agreed to implement
           improve coordination when collaborating on current and                                                                                    this important recommendation.
           future initiatives by (1) defining the roles of all participants
           at the outset of collaborative efforts by creating precise
           and directed governing documents (i.e., charters) that
           clearly address the responsibilities of each entity; and (2)                                                         X
           jointly documenting processes and procedures, including
           flowcharts, risk management tools, and reporting systems
           to ensure that objectives are met. Each participant should
           sign off to demonstrate their understanding of, and
           agreement with, these procedures.
120        To increase small-business lending by former TARP banks                                                                                   Treasury has not agreed to implement
           participating in SBLF, Treasury should work with the banks                                                                                this important recommendation.
                                                                                                                                X
           to establish new, achievable plans to increase lending going
           forward.
121        To preserve the amount of capital former TARP banks                                                                                       Treasury has not agreed to implement
           participating in SBLF have to lend, the primary Federal                                                                                   this important recommendation.
           banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                                X
           should not approve dividend distributions to common
           shareholders of former TARP banks that have not effectively
           increased small-business lending while in SBLF.
122        In order to prevent confusion, promote transparency, and                                                                                  Treasury has not agreed to implement
           present taxpayers who funded TARP with clear and accurate                                                                                 this important recommendation.
           reporting, when Treasury discusses the amount of TARP
           funds (or CPP funds) recovered or repaid, Treasury should                                                            X
           not count the $2.1 billion in TARP investments that Treasury
           refinanced into the Small Business Lending Fund, which is
           outside of TARP.
                                                                                                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                               93
                                                                                                                                                                                             94
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
123        To ensure that homeowners in HAMP get sustainable relief                                                                                  Treasury has not agreed to implement
           from foreclosure, Treasury should research and analyze                                                                                    this important recommendation.
           whether and to what extent the conduct of HAMP mortgage
           servicers may contribute to homeowners redefaulting on                                                               X
           HAMP permanent mortgage modifications. To provide
           transparency and accountability, Treasury should publish its
           conclusions and determinations.
124        Treasury should establish an achievable benchmark for a                                                                                   Treasury has made progress toward
           redefault rate on HAMP permanent mortgage modifications                                                                                   implementing this recommendation.
           that represents acceptable program performance and                                                                                        In Treasury’s quarterly “MHA Servicer
           publicly report against that benchmark.                                                                                                   Assessment,” published in its October
                                                                                                                                                     2013 “Making Home Affordable
                                                                                                                                                     Performance Report,” Treasury
                                                                                                                                                     included a new servicer performance
                                                                                                                 X
                                                                                                                                                     metric, assessing whether seven HAMP
                                                                                                                                                     servicers complied with Treasury’s
                                                                                                                                                     guidelines concerning homeowners’
                                                                                                                                                     HAMP modifications that servicers
                                                                                                                                                     disqualified. SIGTARP looks forward
                                                                                                                                                     to working with Treasury to fully
                                                                                                                                                     implement this recommendation.
                                                                                                                                                                                             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




125        Treasury should publicly assess and report quarterly on                                                                                   Treasury has not agreed to implement
           the status of the ten largest HAMP servicers in meeting                                                                                   this important recommendation.
           Treasury’s benchmark for an acceptable homeowner
           redefault rate on HAMP permanent mortgage modifications,
           indicate why any servicer fell short of the benchmark,
                                                                                                                                X
           require the servicer to make changes to reduce the
           number of homeowners who redefault in HAMP, and use
           enforcement remedies including withholding, permanently
           reducing, or clawing back incentive payments for any
           servicer that fails to comply in a timely manner.
126        To protect the investment taxpayers made through TARP in                                                                                  Treasury has made some progress
           community banks and to ensure that these banks continue                                                                                   implementing this important
           to lend in their communities which is a goal of TARP’s Capital                                                                            recommendation.
                                                                                                                 X
           Purchase Program, Treasury should enforce its right to
           appoint directors for CPP institutions that have failed to pay
           six or more quarterly TARP dividend or interest payments.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                              Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)
                                                                                                 Partially
           Recommendation                                                     Implemented      Implemented   In Process   Not Implemented   TBD/NA   Comments
127        In enforcing its right to appoint directors to the board                                                                                  Treasury has not agreed to implement
           of CPP institutions that have failed to pay six or more                                                                                   this important recommendation.
           quarterly dividend or interest payments, Treasury should
           prioritize appointing directors to the board of those CPP
           institutions that meet one or more of the following criteria:
           (1) rejected Treasury’s request to send officials to observe
           board meetings; (2) have failed to pay a large number of
           TARP dividend payments or that owe the largest amount
                                                                                                                                X
           of delinquent TARP dividends; or (3) is currently subject to
           an order from their Federal banking regulator, particularly
           orders related to the health or condition of the bank or
           its board of directors. In addition, Treasury should use
           information learned from Treasury officials that have
           observed the bank’s board meetings to assist in prioritizing
           its determination of banks to which Treasury should appoint
           directors.
128        To protect the investment taxpayers made in TARP and to                                                                                   Treasury has not agreed to implement
           ensure that institutions continue to lend in low and moderate                                                                             this important recommendation.
           income communities which is the goal of TARP’s Community
           Development Capital Initiative, Treasury should enforce its                                                          X
           right to appoint directors to CDCI institutions that have failed
           to pay eight or more TARP quarterly dividend (or interest)
           payments.
129        Treasury should increase the amount of the annual incentive                                                                               Treasury has not agreed to implement
           payment paid to each homeowner who remains in HAMP.                                                                                       this important recommendation.
           Treasury should require the mortgage servicer to apply
           the annual incentive payment earned by the homeowner
           to reduce the amount of money that the homeowner must                                                                X
           pay to the servicer for the next month’s mortgage payment
           (or monthly payments if the incentive exceeds the monthly
           mortgage payment), rather than to reduce the outstanding
           principal balance of the mortgage.
130        To educate homeowners and help them avoid becoming                                                                                        Treasury has agreed to implement this
           victims to mortgage modification fraud, Treasury should                                                                                   important recommendation.
           prominently display all of the information containing in
           the Consumer Fraud Alert: “Tips For Avoiding Mortgage
           Modification Scams” created jointly by SIGTARP, Treasury,
           and the Consumer Financial Protection Bureau on the home               X
           page of websites related to HAMP, including Treasury’s TARP
           website and the “Making Home Affordable” website along
           with simple and direct information on SIGTARP’s mission and
           how to contact SIGTARP’s hotline if they suspect mortgage
           modification fraud.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014
                                                                                                                                                                                             95
                                                                                                                                                                                             96
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
131        Treasury should determine how many homeowners who                                                                                         See discussion in Section 2.
           completed a HAMP application for which Treasury paid
           NeighborWorks under the MHA Outreach and Borrower
           Intake Project are accepted into a HAMP trial modification
                                                                                                                                              X
           and whether that homeowner is granted a permanent HAMP
           modification. Treasury should continue to monitor these
           results on a monthly basis. Treasury should publicly report
           all of these results on a quarterly basis.
132        Treasury should publicly report for each of the top 10                                                                                    See discussion in Section 2.
           servicers how many homeowners who completed a HAMP
                                                                                                                                              X
           application for which Treasury paid NeighborWorks were
           denied by the servicer for a HAMP trial modification.
133        Treasury should use the results of SIGTARP-recommended                                                                                    See discussion in Section 2.
           monitoring and reporting on the MHA Outreach and
                                                                                                                                              X
           Borrower Intake Project to determine whether there are
           areas of improvement.
134        Treasury should post the original surveys received from                                                                                   See discussion in Section 2.
           CPP and CDCI institutions on how they used TARP funds for
           each year to the Treasury website. The original surveys and                                                                        X
           responses should not be subjected to any manipulations or
                                                                                                                                                                                             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           changes to calculate survey results.
135        Treasury should develop written repeatable operating                                                                                      See discussion in Section 2.
           procedures for submitting and receiving survey responses
           from CPP and CDCI recipients on how they used TARP
           funds. The procedures should include the functional roles
           and responsibilities and automated and manual process                                                                              X
           steps involved, such as documenting and determining the
           survey population, compiling and analyzing the responses,
           verifying and validating the data, resolving discrepancies,
           and posting the responses on the Treasury website.
136        Treasury should take aggressive action to enforce its                                                                                     See discussion in Section 2.
           requests that all CPP institutions report annually on their use
           of TARP funds, and its requirement that all CDCI institutions
           report annually on their use of TARP funds. At a minimum,
           Treasury should draft a letter to each CPP and CDCI                                                                                X
           institution that fails to report each year, and follow up on
           that letter with the institution. Treasury should exercise its
           rights to compel reporting on use of TARP funds by CDCI
           institutions.
137        Treasury should fix all errors and/or deficiencies, which                                                                                 See discussion in Section 2.
           SIGTARP previously provided to Treasury, and submit
                                                                                                                                              X
           documentation to SIGTARP confirming the correction/
           elimination of these errors.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                 Partially
           Recommendation                                                    Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
138        Treasury should perform a thorough review of any and all                                                                                  See discussion in Section 2.
           submissions by TARP recipients on their use of TARP funds
           prior to posting the surveys on the Treasury website, and                                                                          X
           follow up with the institution for any missing information or
           information that is inconsistent or has an obvious error.
139        Treasury should publicly report on all CPP and CDCI                                                                                       See discussion in Section 2.
           institutions that have not submitted a survey response on
                                                                                                                                              X
           their use of TARP funds for prior years and continue that
           reporting in future years.
140        Treasury should ensure that mortgage servicers who                                                                                        See discussion in Section 2.
           contract with Treasury have sufficient staffing and other
           resources to review the number of homeowner HAMP
                                                                                                                                              X
           applications submitted each month, plus additional
           applications to decrease any backlog of homeowners who
           applied in prior months without a decision.
141        The Secretary of the Treasury should require OSM to                                                                                       See discussion in Section 2.
           maintain documentation of the substance of all OSM                                                                                 X
           communications with TARP companies.
142        The Secretary of the Treasury should require all Treasury                                                                                 See discussion in Section 2.
           employees to maintain documentation of all communications                                                                          X
           with TARP companies regarding compensation.
143        The Secretary of the Treasury should require OSM to                                                                                       See discussion in Section 2.
           maintain documentation of OSM’s communications
                                                                                                                                              X
           with Treasury officials regarding compensation at TARP
           companies.
144        The Secretary of the Treasury should require OSM to use                                                                                   See discussion in Section 2.
           long-term restricted stock as part of each TARP company’s
           employee’s compensation package to ensure compensation                                                                             X
           is tied to both the employee’s and the company’s
           performance, and the full repayment of TARP funds.
145        The Secretary of the Treasury should direct OSM to                                                                                        See discussion in Section 2.
           conduct an analysis, independent of company proposals
           and assertions, for an employee of a TARP exceptional                                                                              X
           assistance company to be paid a cash salary exceeding
           $500,000.
146        The Secretary of the Treasury should direct OSM to                                                                                        See discussion in Section 2.
           document its independent analyses regarding the decision
                                                                                                                                              X
           that a TARP exceptional assistance company employee be
           paid a cash salary exceeding $500,000.
147        The Secretary of the Treasury should direct OSM to                                                                                        See discussion in Section 2.
           conduct an analysis, independent of company proposals
           and assertions, for an employee of a TARP exceptional                                                                              X
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014




           assistance company to receive an increase in annual
           compensation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                               Continued on next page
                                                                                                                                                                                             97
                                                                                                                                                                                   98
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)
                                                                                                Partially
           Recommendation                                                   Implemented       Implemented   In Process   Not Implemented   TBD/NA   Comments
148        The Secretary of the Treasury should direct OSM to                                                                                       See discussion in Section 2.
           document its independent analyses regarding the decision
                                                                                                                                             X
           that a TARP exceptional assistance company employee will
           receive an increase in annual compensation.
149        The Secretary of the Treasury should direct OSM to                                                                                       See discussion in Section 2.
           conduct an analysis, independent of company proposals
           and assertions, for an employee of a TARP exceptional
                                                                                                                                             X
           assistance company to be paid a cash salary that exceeds
           the market median cash salary for similar positions in similar
           companies.
150        The Secretary of the Treasury should direct OSM to                                                                                       See discussion in Section 2.
           document its independent analyses regarding the decision
                                                                                                                                             X
           that a TARP exceptional assistance company employee be
           paid a cash salary exceeding market medians.
151        The Secretary of the Treasury should direct OSM to include                                                                               See discussion in Section 2.
           in its written procedures whether it will target, for each Top
           25 employee of a TARP exceptional assistance company,                                                                             X
           median total compensation for similar positions in similar
           companies.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                                   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              HOMEOWNERS CAN GET LOST IN THE SHUFFLE
              AND SUFFER HARM WHEN THEIR SERVICER
SECT IO N 3   TRANSFERS THEIR MORTGAGE BUT NOT THE
              HAMP APPLICATION OR MODIFICATION
100   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   101




INTRODUCTION
Treasury has made three extensions of the deadline for homeowners to apply for
help with their mortgage through TARP’s signature foreclosure relief program
known as the Home Affordable Modification Program (“HAMP”).1 These
extensions appear to be based on Treasury’s desire to offer more homeowners
the opportunity to participate in HAMP. Each extension of HAMP presents
Treasury with an opportunity for meaningful change rather than keeping the
status quo barriers to homeowner entry into HAMP. However, extending HAMP’s
timeframe is not enough on its own to meaningfully increase homeowner HAMP
participation levels because there are several barriers to a homeowner getting help
from HAMP. SIGTARP has consistently reported on these barriers in order to
increase awareness and ultimately bring meaningful change. SIGTARP has alerted
Treasury and the public to challenges homeowners face in receiving affordable and
sustainable relief through HAMP (which is Treasury’s stated goal), and provided
recommendations for Treasury to remove those obstacles and better protect
homeowners.2 Treasury’s most recent extension, announced on June 26, 2014,
extending the HAMP application deadline to at least December 2016, presents
another opportunity for Treasury to remove barriers to homeowners getting the
help they need from HAMP.3
    One barrier to homeowners receiving affordable and sustainable relief from
HAMP results from mortgage servicers or investors deciding to transfer mortgages
to other servicers. Many homeowners have received notice that their mortgage was
sold, their mortgage company was acquired by another company, or that they will
have a new mortgage servicer to receive their monthly payments. This shuffling
of mortgage servicing is common in the industry. Complications for homeowners
occur when their applications for HAMP, or their HAMP trial or permanent
modifications, get lost in that shuffle.4
    Delays, omissions, or miscommunications between current servicers and new
servicers during the transfer can seriously delay, deny, or decrease relief provided
to HAMP-eligible homeowners. For struggling homeowners seeking or receiving
temporary or permanent assistance under HAMP, the harmful effects of their
HAMP documentation getting lost in the shuffle could be particularly drastic: their
applications for HAMP relief may be “lost,” their trial modifications may not be
honored, they may erroneously be deemed delinquent or in default, or they may
even have foreclosure proceedings commenced against them even though they
have been current on their HAMP-modified mortgage payments.
    Homeowner calls to SIGTARP’s Hotline about difficulties experienced in
HAMP as a result of mortgages being transferred from one servicer to another have
persisted throughout the life of the program and have escalated in the last year.5
Treasury is aware of these complaints because it is SIGTARP’s standard practice
to share these complaints with Treasury soon after receiving them. Additionally,
in a criminal investigation, SIGTARP found problems with SunTrust Mortgage’s
administration of HAMP related to servicing transfers. The case was resolved in
a public non-prosecution agreement with the Department of Justice in 2014.6 In
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             2013, the Consumer Financial Protection Bureau (“CFPB”) also issued a bulletin
                                             on heightened concerns about homeowner complaints they received on transfers
                                             that resulted in lost trial modifications.7 In 2014, CFPB issued a second bulletin
                                             based on similar findings made in their examinations of servicers.8
                                                 The escalated complaints to SIGTARP, SIGTARP’s findings in its SunTrust
                                             investigation, CFPB’s heightened concerns from consumer complaints, and CFPB’s
                                             examination findings confirm that this is an area where Treasury must do more to
                                             protect homeowners. Treasury’s HAMP rules require that the HAMP applications,
                                             modifications, and related information be transferred with the mortgages.9 Treasury
                                             has never reported on any problems with servicers not following these rules despite
                                             Treasury having conducted in-depth assessments of the top servicers’ compliance
                                             with TARP rules.10 Treasury also requires servicers to report any transfers of these
                                             mortgages to Treasury, but Treasury has never reported any servicer’s failure to
                                             report that information.11 Treasury was unable to provide SIGTARP even basic
                                             information regarding the number of HAMP modifications and HAMP-eligible
                                             loans that have been transferred. In August 2014, SIGTARP requested data on all
                                             HAMP servicing transfers that took place since the beginning of HAMP. Treasury
                                             has not provided this information. Given the findings of SIGTARP and CFPB, in
                                             addition to increased complaints by homeowners, Treasury’s lack of findings raises
                                             the question of whether Treasury is doing enough to protect homeowners from
                                             getting lost in the transfer shuffle.
                                                 Treasury is responsible for ensuring that the interests of homeowners are
                                             not adversely affected by the transfer of HAMP-modified mortgages or HAMP
                                             applications by servicers that Treasury pays using TARP dollars. Homeowners
                                             have little ability to protect themselves in this area because the decision of
                                             whether or not to transfer or acquire mortgage servicing assets rests solely with
                                             the participating servicers and investors. Homeowners should be entitled to have
                                             servicers, with whom Treasury contracted to administer HAMP, follow the HAMP
                                             rules set by Treasury. Treasury has the ultimate responsibility to ensure that
                                             homeowners are protected in HAMP, and to ensure that when a servicer or investor
                                             elects to transfer mortgages, it will not negatively affect the ability of homeowners
                                             to participate in HAMP, their credit rating, or whether they are ultimately able to
                                             retain their home.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   103




HOMEOWNERS CONTINUE TO FACE BARRIERS TO
HAMP ASSISTANCE WHEN THEIR MORTGAGES
ARE TRANSFERRED TO ANOTHER SERVICER
Prior to TARP, a mortgage servicer’s primary role was to receive and process
homeowners’ mortgage payments. Treasury added to that role for those servicers
who voluntarily signed a contract to participate in HAMP. Treasury designed
HAMP to have servicers deliver TARP assistance to struggling homeowners, as
illustrated in Figure 3.1. In exchange, Treasury pays servicers incentive payments.12
As of September 2014, Treasury has paid HAMP mortgage servicers nearly $2.5
billion through TARP housing assistance programs.13

FIGURE 3.1

ROLE OF A MORTGAGE SERVICER IN HAMP AS DESIGNED BY TREASURY




1 2 34 5
   Servicer identifies and      Servicer works with          Servicer reviews           Servicer processes         If homeowner gets
   solicits HAMP-eligible       homeowner to complete        homeowner’s HAMP           homeowner payments         three payments
   homeowners                   HAMP application and         application, and decides   during trial and decides   behind, servicer
                                turn in supporting           whether homeowner          whether homeowner          declares a default,
                                documents                    will be offered a HAMP     will be offered a          and then pursues
                                                             trial modification         HAMP permanent             other mitigation or
                                                                                        modification               foreclosure



Source: SIGTARP, analysis of “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,”
3/3/2014, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014.



     Given the time it takes for each of these steps, a transfer                        Servicer processes
                                                                                                          of the mortgage             to
                                                                                                                      If homeowner gets
                                                            Servicer reviews
                                Servicer works with                                     homeowner payments            three payments
another        servicer
  Servicer identifies and
                             can  result      in   significant
                                homeowner to complete
                                                            homeownersdelaysHAMPand confusion to a homeowner no
                                                                                        during trial and decides      behind, servicer
                                                            application and decides
  solicits HAMP-eligible
matter
  homeowners
             where the homeownerHAMP application and
                                turn in supporting
                                                    is in the     HAMP
                                                            whether    homeowner process.     Treasury’s rules
                                                                                        whether homeowner
                                                                                        will be offered a
                                                                                                                            on HAMP
                                                                                                                      declares a default,
                                                                                                                      and then pursues
                                                            will be offered a HAMP
have been clear from                the beginning: when
                                documents
                                                                          a servicer HAMP
                                                            trial modification          transferspermanent
                                                                                        modification
                                                                                                             a  mortgage         or
                                                                                                                      other mitigation or
                                                                                                                      foreclosure
servicing rights to a mortgage that is in or eligible for HAMP, the obligations related
to HAMP for that mortgage are required to be transferred with the mortgage.14
Treasury’s rules specifically state that a servicer may not use a transfer to
circumvent its obligations under its contract with Treasury.15 At the very beginning
of HAMP, Treasury required in its agreement with each servicer that they notify




 1 2 3 4 5
Treasury in writing ofServicer       any works
                                            transfer
                                                   with
                                                          of mortgage
                                                                 Servicer reviews servicing
                                                                                          Serviceror processes
                                                                                                        mortgages of
                                                                                         homeowner payments
                                                                                                                              HAMP-
                                                                                                                        If homeowner    gets
                                                                                                                           three payments
                                                               homeowners HAMP
eligible
   Servicer homeowners
              identifies and       and
                               homeowner   sign     an
                                             to complete
                                 HAMP application and
                                                         agreement           with
                                                            application and decides the  new
                                                                                        during    trialservicer
                                                                                                        and decides confirming          that
                                                                                                                          behind, servicer
    solicits HAMP-eligible                                                                whether homeowner              declares a default,
                                                              whether homeowner
the new         servicer assumed
         homeowners                         all the rights
                                   turn in supporting              and
                                                             will be       obligations
                                                                      offered a HAMP          related
                                                                                             will  be offered to
                                                                                                              a HAMP.    and 16then pursues
                                       documents                                            HAMP permanent               other mitigation or
                                                                 trial modification
     Treasury is responsible for enforcing HAMP’s rules. However, despite Treasury’s           modification                  foreclosure

requirement that HAMP applications and HAMP modifications travel with any
transferred mortgages or servicing transfers, homeowners have faced barriers, from
the very beginning of the program, in receiving help from HAMP as a result of
mortgage servicing transfers.17 SIGTARP has reported on this problem from the
beginning of the program. In October 2010, SIGTARP reported in its Quarterly
Report to Congress that it had been contacted by homeowners who faced problems
with HAMP when their servicer changed. SIGTARP included the following two
examples in that report, which SIGTARP also shared with Treasury:18
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                   “I applied to the Making Home Affordable Program with [my previous
                                                   servicer] and sent requested documents in by 8/31/09. They …told me
                                                   on the phone that they were modifying my loan and interest rate would
                                                   be reduced to less than 5%...[my previous servicer] had taken automatic
                                                   payments from my checking account since closing in early 2003…
                                                   mortgage payments were never delinquent until [my previous servicer]
                                                   failed to take that automatic deduction before selling my servicing
                                                   agreement. The next I heard was from [my new servicer] welcoming me to
                                                   their service and informing me that my payment was already delinquent
                                                   and had a penalty due. They denied all knowledge of my previous
                                                   agreement or negotiations with [my previous servicer] or of the extensive
                                                   paperwork which I had submitted. I had to resubmit all documentation
                                                   and have had nothing but delays and ‘runarounds’ since. I have replied
                                                   to numerous requests for additional documentation which was so often
                                                   ‘misplaced’ or never received or to have automatically expired and to need
                                                   renewal.”

                                                   “Our original mortgage was with [Bank A]…Five months later [Bank
                                                   B] acquires [Bank A] tells us we have to start the process over…almost
                                                   a year later in December 2009 we finally receive the first modification
                                                   paperwork package…we are told by our mortgage adjust specialist…to
                                                   show every possible expense, the more debt we show the better. Even if
                                                   we show we cannot afford the modified payment that is OK because that
                                                   can help us get an even lower payment. We make our five trial payments
                                                   no problem, [June 2010] we got to make our sixth trial payment and are
                                                   told we are denied a loan modification because it has been determined we
                                                   cannot afford the payment. They demand our full mortgage payment.”

                                                 Although HAMP trial modifications are required to be transferred with
                                             mortgages or servicing rights, sometimes that does not happen.19 Mortgage
                                             servicers are typically designed so that the mortgage servicing is in one department
                                             and loss mitigation, which would include HAMP, is in another department. Where
                                             there is a lack of communication and coordination, the department holding the
                                             mortgage or servicing rights might transfer that to another servicer but not tell or
                                             coordinate effectively with the department handling HAMP. Given that a HAMP
                                             trial modification pays less than the original mortgage payment, a new servicer
                                             that does not know that the homeowner is in a HAMP trial modification only sees
                                             that the homeowner has not paid in full, which can then cause the new servicer
                                             to claim that the homeowner is delinquent or, worse, in default, which could even
                                             lead the servicer to start foreclosure proceedings.
                                                 SIGTARP’s criminal investigation into SunTrust Mortgage, a TARP recipient,
                                             for harming homeowners in its administration of the GSE-version of HAMP,
                                             uncovered problems with SunTrust having transferred hundreds of homeowners’
                                             mortgages to NationStar for servicing in 2010 while the homeowners were in
                                             HAMP trial modifications.20 Although the servicing of mortgages transferred, the
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   105




HAMP trial modifications did not. The homeowners were required by their new
servicer to reapply for HAMP with hopes of starting a new trial plan. Homeowners
were harmed. They had been paying a lower interest rate under the original HAMP
trial modification. Sometimes the new servicer put them into a new HAMP trial
modification and sometimes into a non-HAMP trial modification proprietary to the
servicer. The new servicer charged them higher unmodified interest rates, which
were added to their unpaid principal balances.21 SIGTARP’s criminal investigation
was resolved by the Department of Justice executing a non-prosecution agreement
in July 2014 that required SunTrust Bank to pay $320 million, including relief
for victimized homeowners and payments to homeowners for the amount of
excess interest capitalized. SunTrust is required under the agreement with DOJ to
designate an employee responsible for identifying all transfers to another servicer
and ensuring that the new servicer receives information on loss mitigation status,
including HAMP, at the time of the transfer, and for confirming that all documents
associated with loss mitigation status are provided to the new servicer. SunTrust
is also required to retain copies of the documents transferred to the new servicer
and verify that communications with homeowners about transfers contain full and
accurate information.22
    In late 2011, two and half years after the program began, Treasury issued more
detailed guidance to HAMP servicers, effective March 1, 2012.23 Treasury’s 2011
guidance requires both the current servicer and the new servicer to “cooperate with
each other to cause as little disruption as possible to the borrower.” Among other
things, Treasury’s new guidance made clear that servicers transferring mortgage
servicing are responsible for ensuring that all information, documentation, and data
regarding a transferred HAMP-eligible mortgage is provided to the new servicer in
a timely manner, and that the data is accurate and complete. Treasury’s guidance
put a deadline on servicers’ notification to Treasury of at least 30 days in advance
of the transfer,24 and of at least 15 days prior to the transfer for delivery of the
agreement between the old and new servicer, with the list of HAMP-eligible loans
to be delivered attached. Treasury’s 2011 guidance required servicers to “ensure
that all data on the transferred loans reflected in the HAMP Reporting Tool,
including the Official Monthly Report (OMR), is accurate, complete, and up-to-
date before the loans are transferred.” It further required that the new servicers
validate the “receipt and completeness” of the loan level HAMP data with Treasury
within 60 days of the effective date of transfer.
106   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             HOMEOWNER COMPLAINTS ABOUT HAMP
                                             PROBLEMS CAUSED BY SERVICING TRANSFERS
                                             HAVE ESCALATED
                                             In recent years, mortgage servicers have transferred large numbers of mortgages
                                             and mortgage servicing, including HAMP-modifications and HAMP-eligible
                                             loans, to other servicers. Many of these transfers have moved servicing assets from
                                             regulated banks to non-bank servicers such as Ocwen, NationStar, and Green Tree.
                                                 From 2013 to 2014, nearly 100 homeowners contacted SIGTARP asking for
                                             SIGTARP’s help in getting HAMP relief and complaining of problems relating
                                             to the transfer of their mortgage to another servicer, 84 of those calls coming in
                                             2014. Because these homeowners are seeking help with their specific mortgage,
                                             and in order to inform Treasury about homeowner barriers in HAMP, SIGTARP’s
                                             standard practice is to share a copy of homeowner complaints with Treasury soon
                                             after receiving them. The serious problems raised by homeowners include lost and
                                             delayed HAMP applications, trial and permanent modifications not being honored,
                                             and the miscalculation or misapplication of monthly payments. The consequences
                                             of such problems and delays for struggling HAMP-eligible homeowners, many of
                                             whom could not afford their mortgage payments, can be severe. During the time
                                             homeowners’ HAMP determinations are delayed due to servicing transfers, their
                                             financial hardships continue. Many will continue to accrue late fees and unpaid
                                             interest that can hurt their chances of receiving a HAMP modification and that
                                             generally result in less favorable terms for those fortunate enough to receive a
                                             modification. For those already in HAMP, servicing transfers that are not honored,
                                             or payments that are misapplied due to missing paperwork or miscoding of HAMP
                                             data during the transfer, could result in their mortgages reverting to the original
                                             terms that they previously could not afford. The large number of homeowner
                                             complaints identified real harm that Treasury must rapidly and aggressively respond
                                             to before the problem escalates even further.

                                             Lost or Delayed Applications for HAMP Relief
                                             One way homeowners can suffer harm when their mortgages are transferred to a
                                             new servicer is that their applications for HAMP relief may be lost or delayed in
                                             the process. For example, on December 31, 2013, one homeowner reported to
                                             SIGTARP that her completed HAMP application was never transferred from her
                                             original lender to the new servicer. After being advised to wait several months for
                                             the documentation to be received by the new servicer, the homeowner reported
                                             she was required to submit a new application. She also reported that the new
                                             servicer made certain calculation errors in processing her HAMP application. The
                                             homeowner further stated that action on her HAMP application was delayed for
                                             at least six months after the transfer. For homeowners like this, a delay in receiving
                                             assistance has real consequences including not just the delay in receiving a
                                             mortgage modification, but also the likelihood they may fall further behind in their
                                             mortgage payments, further complicating their ability to enter HAMP. In some
                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   107




cases, the missed payments may be so large that, when added to the outstanding
balance, it becomes nearly impossible for the homeowner to reach the necessary
Debt to Income (“DTI”) ratio required for HAMP.25

Failure to Process or Honor HAMP Modifications
Another risk to HAMP homeowners is that the new servicer is never informed of
or otherwise fails to honor the homeowners’ HAMP trial period modifications,
making the homeowner immediately delinquent on the terms of the original
mortgage even when the homeowner made all payments required under the HAMP
modification. Struggling homeowners should not face the additional financial and
other burdens potentially required to assert their rights under HAMP. In one case,
for example, a homeowner reported to SIGTARP that the new servicer failed to
give him a permanent HAMP modification in accordance with HAMP guidelines,
even though he had successfully completed his HAMP trial period plan with his
previous servicer.
    Homeowners who have already qualified for and are complying with the terms
of permanent HAMP modifications can also suffer harm if the new servicer does
not receive or otherwise fails to honor their modification. On February 27, 2013,
one homeowner reported to SIGTARP that his new servicer failed to honor his
permanent HAMP modification, advising him that even though the homeowner
possessed executed and notarized copies of the required documentation, it never
received finalized documents from his previous servicer and would not accept the
homeowner’s modified payments. The new servicer asserted he was therefore in
arrears (at that time by 15 months) under the terms of the original mortgage.
    In a similar case involving a Second Lien Program modification, on May 19,
2014, a homeowner who had received both a HAMP modification on his primary
mortgage and a HAMP-2MP modification on his second mortgage reported to
SIGTARP that the firm that acquired his second mortgage claimed he was not
eligible for that program, even though he had made all payments on time.

Transferee Servicers May Misapply or Miscalculate Payments
After acquiring a mortgage, a transferee servicer also may recalculate income or
payments in ways that disadvantage HAMP homeowners. For example, on February
7, 2014, a homeowner reported to SIGTARP that a new servicer changed the terms
of his HAMP modification by accelerating the amortization of his escrow arrearage
payments over only 36 months, rather than the 60-month period originally
provided. The homeowner stated that this action increased his monthly payments
by almost $200 from what was agreed upon under the HAMP modification with
his prior servicer.
    These and other reports raise continuing concerns that servicers are not
following Treasury’s rules in HAMP and homeowners are suffering as a result.
Despite HAMP existing for five years, these homeowner complaints and others
suggest that many HAMP servicers do not have the capacity, procedures, and
controls to ensure that the transfers they engage in are conducted appropriately
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             and without harm to the struggling homeowners. Homeowners have no say in who
                                             services their mortgage. Homeowners are entitled to the protections laid out in
                                             Treasury’s HAMP rules that the decision by a servicer to transfer their mortgage
                                             will not negatively affect their ability to participate in HAMP, their credit ratings, or
                                             whether they are ultimately able to retain their homes.

                                             CFPB Heightened Concerns
                                             In February 2013, the CFPB issued a public bulletin on heightened concerns of
                                             risks to homeowners in connection with transfers of servicing. In the bulletin,
                                             CFPB discussed consumer complaints that new servicers sometimes fail to honor
                                             the terms of trial loan modifications provided by prior servicers because relevant
                                             documents are not transferred or the new servicer does not take adequate steps to
                                             identify the mortgages that are in trial modifications.26
                                                 On August 19, 2014, CFPB issued a new bulletin saying that its concerns
                                             remained heightened due to the continuing high volume of servicing transfers.
                                             During its examinations, CFPB examiners determined that servicers had failed to
                                             properly identify loans that were in trial or permanent modifications with the prior
                                             servicer at the time of transfer. CFPB also found servicers that had failed to honor
                                             trial or permanent modifications unless they could independently confirm that
                                             the prior servicer properly offered a modification or that the offered modification
                                             met investor criteria. CFPB also reported findings in its examinations that the
                                             transferee servicers did not obtain all of the information they needed from the
                                             transferor servicer.27




                                             TREASURY OVERSIGHT OF HAMP MORTGAGE
                                             SERVICING TRANSFERS
                                             Treasury conducts oversight of HAMP mortgage servicing transfers in two ways.
                                             First, Treasury conducts in depth “kick-the-tires” assessments of the top HAMP
                                             servicers’ compliance with HAMP rules and HAMP performance, which it publicly
                                             reports on quarterly.28 Second, Treasury requires that HAMP servicers report all
                                             transfers to Treasury, recently changing to an automated system in 2013.29

                                             Treasury Has Not Reported Problems Related to Servicing
                                             Transfers in its In Depth Assessment of Top HAMP Servicers
                                             Treasury has the opportunity to go into all of the major HAMP servicers and kick
                                             the tires to make sure the servicer is complying with HAMP rules and to assess
                                             the servicer’s performance in HAMP.30 According to the MHA Program guidelines,
                                             Treasury’s compliance reviews may cover, but are not limited to, servicers’ HAMP
                                             borrower eligibility determinations, underwriting, data accuracy and reporting,
                                             complaint management, internal controls, quality assurance, and document
                                             retention.31 Treasury uses the outcome of the reviews to “require participating
                                             servicers to take specific actions to improve their servicing processes, as needed.”32
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   109




Treasury also has had the benefit of the homeowner complaints received by
SIGTARP that identify each servicer involved and the specific homeowner
information that Treasury can use to target these assessments.
    SIGTARP has found problems with HAMP servicers transferring mortgages
to other servicers but not HAMP applications or HAMP trials.33 CFPB has
found problems with servicers transferring mortgages to other servicers but
not transferring trial modifications.34 It is unclear whether Treasury has found
problems with servicing transfers.
    Treasury has never reported on any problems with servicing transfers or any
servicer’s failure to follow Treasury’s rules in this area.35 Early in HAMP, SIGTARP
recommended that Treasury set performance goals and metrics for servicers in
HAMP and publicly report on the top servicers’ performance.36 In June 2011,
Treasury began publishing quarterly results of its assessments for the largest
HAMP servicers, to “drive servicers to improve their performance” against a series
of compliance benchmarks.37 The most recent Quarterly Performance Report,
covering the second quarter of 2014, assessed the following metrics:38

•	 “Second Look” Assessments: The percentage of loans where Treasury (a)
   did not concur, or (b) was unable to conclude, that the homeowner was
   properly considered for, denied or deemed ineligible for a permanent HAMP
   modification
•	 Income Calculation Errors: How often MHA-C disagrees with a servicer’s
   calculation of a homeowner’s Monthly Gross Income (allowing for up to a 5%
   differential from MHA-C’s calculations)
•	 Incentive Payment Data Errors: The accuracy of data reported by the servicer
   that is used to calculate the program incentives due to servicers, investors and
   homeowners
•	 Single Point of Contact: The percentage of loans where Treasury did not
   concur that the servicer had assigned a Single Point of Contact to a homeowner
   in a timely fashion and otherwise in accordance with MHA guidelines
•	 Non-Approval Notice and Disqualified Modification Noncompliance: The
   percentage of loans where MHA-C did not concur with (a) the completion or
   accuracy of non-approval notices sent to homeowners, and (b) the processing of
   defaulted HAMP modifications, in accordance with MHA guidelines.

    Treasury states that its assessments also evaluate “key indicators of how timely
and effectively servicers assist eligible homeowners under MHA guidelines and
report program data.” These indicators include the percentage of active trial
modifications aged six or more months, the average number of days to resolve
“escalated cases,” the percentage of permanent modifications the servicer reported
within the same month it was effective, and the percentage of missing status
reports on permanent modifications. Unlike the compliance benchmarks, however,
Treasury does not assign an overall rating for these performance indicators.39
    Significantly, Treasury does not include benchmarks of servicer performance
directly relating to servicing transfers. Treasury has never published an assessment
110   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             of the impact of transfers (including to non-bank servicers) on the ultimate
                                             outcomes obtained by the struggling homeowners TARP is intended to assist.
                                             Over the last three years Ocwen, NationStar, and Green Tree have experienced
                                             tremendous growth largely due to servicing transfers.40 Between June 30, 2011 and
                                             June 30, 2014 the number of mortgages serviced by Ocwen has increased almost
                                             five times over, the number of mortgages serviced by Nationstar has increased
                                             almost four times over, and the number of mortgages serviced by Green Tree has
                                             more than doubled.41 As a result, these non-bank servicers are among the largest
                                             HAMP servicers.42 Treasury must ensure the fair treatment of homeowners
                                             receiving or seeking HAMP assistance when their servicers or investors choose
                                             to transfer the servicing of their mortgages. Treasury should include this as part
                                             of their public servicer assessment. Table 3.1 shows Treasury’s published servicer
                                             assessment ratings over the last three years. Over that period, the vast majority
                                             of ratings have been “Moderate Improvement Needed.” During this same period,
                                             there have been numerous legal and regulatory findings and settlements over the
                                             conduct of mortgage servicers, including servicers participating in HAMP, and their
                                             treatment of homeowners.

                                             TABLE 3.1
                                              SERVICER                                      Q3
                                                                                           2011
                                                                                                    Q4
                                                                                                   2011
                                                                                                            Q1
                                                                                                           2012
                                                                                                                   Q2
                                                                                                                  2012
                                                                                                                           Q3
                                                                                                                          2012
                                                                                                                                   Q4
                                                                                                                                  2012
                                                                                                                                          Q1
                                                                                                                                         2013
                                                                                                                                                 Q2
                                                                                                                                                2013
                                                                                                                                                        Q3
                                                                                                                                                       2013
                                                                                                                                                               Q4
                                                                                                                                                              2013
                                                                                                                                                                      Q1
                                                                                                                                                                     2014
                                                                                                                                                                             Q2
                                                                                                                                                                            2014


                                              Bank of America, N.A.                         ●      ●       ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              JPMorgan Chase Bank, N.A.                     ●      ●       ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              Ocwen Loan Servicing, LLC                     ●      ●       ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              Nationstar Mortgage LLC                       ●      ●       ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              Select Portfolio Servicing, Inc.              ●       ●      ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              Wells Fargo Bank, N.A.                        ●       ●      ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              CitiMortgage, Inc.                            ●       ●      ●       ●       ●      ●      ●      ●      ●      ●      ●      ●
                                              Notes:
                                              Table only includes the servicers currently included in the servicer assessments.

                                              Legend:
                                              ● Servicer rated as “Minor Improvement Needed” during the quarter.
                                              ● Servicer rated as “Moderate Improvement Needed” during the quarter.
                                              ● Servicer rated as “Substantial Improvement Needed” during the quarter.
                                              ● Servicer not included in the quarter’s assessment.

                                              Source: SIGTARP, analysis of “Making Home Affordable Program Performance Reports,” (including Quarterly Servicer Assessments),
                                              www.treasury.gov/initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed
                                              10/6/2014.


                                                 Treasury has never permanently withheld TARP payments from servicers. A
                                             few times Treasury has temporarily withheld payments from servicers, which it
                                             just did for CitiMortgage, Inc., only to give the servicer all of the money later.43
                                             The only time Treasury has addressed servicing transfers in its quarterly servicer
                                             assessments was to use servicing transfers as a reason not to withhold incentives.
                                             For example, Treasury’s MHA Servicer Assessment for the first quarter of 2011
                                             stated “Treasury will not withhold servicer incentives owed to Ocwen Loan
                                             Servicing, LLC for this quarter. Because Ocwen’s compliance results for the first
                                             quarter of 2011 were substantially and negatively affected by its acquisition of a
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   111




large servicing portfolio during the compliance testing period, Treasury determined
that withholding servicer incentives was not warranted this quarter. Treasury
will withhold servicer incentives from Ocwen if future compliance results do not
indicate improvements.”44 Treasury never withheld incentive payments to Ocwen.45
The magnitude of the transfer to Ocwen should have put Treasury on notice that
it needed to ensure all HAMP applications and HAMP modifications transferred
with the mortgage.
    Given the heightened concerns articulated by CFPB, and the increasing
number of homeowner complaints that SIGTARP received and provided to
Treasury, the transfer of a HAMP mortgage or HAMP-eligible mortgage is an area
where Treasury needs to make oversight a top priority in order to eliminate another
barrier to HAMP. Treasury’s immediate action is necessary to ensure that HAMP
servicers comply with HAMP rules and to protect homeowners.

Treasury Requires Servicer Reporting on Transfers of HAMP
Mortgages but Treasury’s Oversight of HAMP Servicing
Transfers is Insufficient to Protect HAMP Homeowners
In June 2013, after CFPB’s public bulletin of its heightened concerns and after
receiving from SIGTARP homeowners’ complaints that were made to SIGTARP,
Treasury announced that it would update its HAMP Reporting System to automate
the intake of data on transfers of HAMP-eligible loans to new servicers.46 Treasury’s
announcement provided that, effective August 2013, servicers would input loan
level data for the transfer of every HAMP-eligible mortgage into the HAMP
Reporting Tool, and that there would be an alert set up for each mortgage. Once
the servicer submitted the mortgage as part of a servicing transfer, the HAMP
Reporting Tool would give the mortgage a Servicing Transfer Deal Identifier that
the servicer must provide to the new servicer. Treasury’s program administrator
would then review the transfer and generate a concurrence report. Both servicers
would then have to concur in the new electronic system that the loan list is
accurate or submit a non-concurrence, which would then have to be reviewed.
After the transfer, Treasury’s system would generate a Reconciliation Report that is
sent to both servicers that contains the details of the transfers so that servicers can
reconcile their transfers. This new system became effective with the August 2013
reporting cycle.47
    Presumably, Treasury automated the reporting of HAMP modified (or eligible)
mortgages to protect homeowners and to give Treasury a better tool for oversight
over transfers. Treasury’s new automated system could be used to generate data
that could be an important tool for Treasury to use in assessing whether HAMP
servicers are following the rules and in determining the impact servicing transfers
have on homeowners seeking or receiving HAMP assistance.
    Treasury must take a strong stand in this area. Treasury has required reporting
on transfers from all HAMP servicers, and Treasury conducts in-depth assessments
of the top servicers.48 CFPB’s work in this area has been public.49 SIGTARP gave
112   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury copies of homeowner complaints related to servicing transfers. Therefore,
                                             Treasury is on notice that this is an area of high risk.
                                                 In order to evaluate the impact of servicing transfers on homeowners
                                             participating in HAMP or seeking HAMP, SIGTARP requested that Treasury
                                             provide a list of all HAMP modifications and HAMP-eligible mortgages that
                                             servicers have transferred since the program began. Despite Treasury’s contract
                                             with the servicers and a HAMP requirement that servicers transferring loans or
                                             servicing provide written notice of all transfers on a mortgage level basis, Treasury
                                             has not produced this information.
                                                 Reporting and assessment by Treasury of servicing transfers is essential to
                                             effective oversight. Without this determination, Treasury cannot confidently assure
                                             the public that HAMP homeowners have not been harmed when their mortgages
                                             have been transferred to other servicers, particularly in light of the concerns raised
                                             by CFPB and the HAMP-specific anecdotes of homeowner harm that SIGTARP
                                             provided to Treasury.
                                                 Given the scale of the reported problems related to transfers to new servicers,
                                             and the potentially serious harm to struggling homeowners who need relief from
                                             HAMP, Treasury must be aggressive and swift in sending the message to servicers
                                             that Treasury will not tolerate harm to homeowners in HAMP from servicing
                                             transfers. HAMP is five years old, and servicers have had ample time to understand
                                             the rules and to follow them. Treasury should no longer tolerate a failure to follow
                                             HAMP rules. Treasury should report on violations publicly, and permanently
                                             withhold incentive payments from servicers that do not comply with HAMP rules
                                             on transfers.
SECT IO N 4   TARP OVERVIEW
114   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            115




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.50 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”51 On December 9, 2009, the Secretary
of the Treasury (“Treasury Secretary”) exercised the powers granted him under
Section 120(b) of EESA and extended TARP through October 3, 2010.52 In
accordance with Section 106(e) of EESA, Treasury may expend TARP funds after
October 3, 2010, as long as it does so pursuant to obligations entered into before
that date.53
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.54 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.55
    Treasury’s investment authority under TARP expired on October 3, 2010. This              Obligations: Definite commitments
means that Treasury could not make new obligations after that date. However,                 that create a legal liability for the
dollars that have already been obligated to existing programs may still be expended.         Government to pay funds.
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury          Deobligations: An agency’s cancellation
has deobligated funds, reducing obligations to $455.7 billion as of September                or downward adjustment of previously
30, 2014.56 Of that amount, $425.5 billion had been spent.57 Taxpayers are owed              incurred obligations.
$37.3 billion as of September 30, 2014. According to Treasury, as of September 30,
2014, it had $34.4 billion in write-offs and realized losses, leaving $2.9 billion in
TARP funds outstanding.58 Treasury’s write-offs and realized losses are money that
taxpayers will never get back. These amounts do not include $13.8 billion in TARP
funds spent on housing support programs, which are designed as a Government
subsidy, with no repayments to taxpayers expected.59 In the quarter ended
September 30, 2014, funds that were obligated but unspent remained available
to be spent on only TARP’s housing support programs. According to Treasury, in
the quarter ended September 30, 2014, $1 billion of TARP funds were spent on
housing programs, leaving $24.7 billion obligated and available to be spent.60
    Table 4.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of September 30, 2014. Table
4.1 lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
116                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                Assistance Program (“CAP”), which was never funded, and summarizes three
                                                                                programs under “Automotive Industry Support Programs.” Table 4.2 details write-
                                                                                offs and realized losses in TARP as of September 30, 2014.
TABLE 4.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, PRINCIPAL REFINANCED, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                            Obligation                                                                                                 Principal               Still Owed to
                                           After Dodd-                    Current                                              Principal             Refinanced                  Taxpayers                    Available
                                                 Frank                  Obligation             Expenditure                       Repaid               into SBLF                 under TARP                 to Be Spent
 Program                               (As of 10/3/2010)          (As of 9/30/2014)         (As of 9/30/2014)          (As of 9/30/2014)         (As of 9/30/2014)          (As of 9/30/2014)     a
                                                                                                                                                                                                       (As of 9/30/2014)

 Housing Support
                                                   $45.6                     $38.5c                     $13.8                           NA                     $0.0                          NA                    $24.7
 Programsb
 Capital Purchase
                                                   204.9                     204.9                      204.9                    $197.2d                         2.2                     $5.5                          0.0
 Program
 Community
 Development Capital                                   0.6                       0.6                        0.2                       0.1                        0.0                       0.5                         0.0
 Initiativee
 Systemically Significant
                                                     69.8                      67.8f                      67.8                      54.4                         0.0                     13.5                          0.0
 Failing Institutions
 Targeted Investment
                                                     40.0                      40.0                       40.0                      40.0                         0.0                       0.0                         0.0
 Program
 Asset Guarantee
                                                       5.0                       5.0                        0.0                       0.0                        0.0                       0.0                         0.0
 Program
 Automotive Industry
                                                     81.8g                     79.7h                      79.7                      61.9i                        0.0                     17.8                          0.0
 Support Programs
 Term Asset-Backed
                                                       4.3                       0.1j                       0.1                       0.1                        0.0                       0.0                         0.0
 Securities Loan Facility
 Public-Private
                                                     22.4                      18.8                       18.6                      18.6k                        0.0                       0.0                         0.0l
 Investment Program
 Unlocking Credit for
                                                       0.4                       0.4                        0.4                       0.4                        0.0                       0.0                         0.0
 Small Businesses
 Total                                          $474.8                     $455.7                    $425.5m                    $372.2                         $2.2                    $37.3                       $24.7
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
        Amount taxpayers still owed includes amounts disbursed and still outstanding, plus $34.4 billion in write-offs and realized losses. It does not include $13.8 billion in TARP dollars spent on housing programs.
         These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
            Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
         On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
           Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $372.2 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
            billion refinanced from CPP into the Small Business Lending Fund.
 e
          CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
           expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
           obligation, only $106 million went to non-CPP institutions.
 f
     Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
             Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 h
       Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 i
   $61.9 billion includes both payments toward principal and proceeds recovered from common stock sales.
 j
   On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
    billion.
 k
      On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
       million is included in this repayment total.
 l
    PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
     PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $18.8 billion results
     because Oaktree, Marathon, RJL Western, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. All undrawn debt and equity, with the exception of AG GECC’s
     equity investment, has been deobligated as of September 30, 2014.
 m
               The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Daily TARP Update, 10/1/2014; Treasury, response to SIGTARP data call, 10/6/2014.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                        117



TABLE 4.2
 TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 9/30/2014                                                                                  ($ MILLIONS)
                                                         Total TARP                                                            Realized Lossa,
 TARP Program               Institution                  Investment                                                              Write-Offsb,c                                                     Description
 Autos
                                                                                                                                                          Sold 98,461 shares and equity stake in the
                            Chrysler                                                                                                      $1,328a
                                                                                                                                                                UAW Retiree trust for $560,000,000
                                                                                                                                                           Accepted $1.9 billion as full repayment for
                            Chrysler                                                                                                        1,600b
                                                                                                                                                                               the debt of $3.5 billion
                            Chrysler Total                  $10,465                                                                       $2,928
                            GM                                                                                                              3,203a                           Treasury sold to GM at a loss
                            GM                                                                                                              7,130a                       Treasury sold to public at a loss
                                                                                                                                                                          Loss due to bankruptcy plan of
                            GM                                                                                                                 826a
                                                                                                                                                                                           restructuring
                            GM Total                        $49,500                                                                     $11,159
                                                                                                                                                                    Sold 219,079 common shares in a
                                                                                                                                                                private offering, 95,000,000 common
                            Ally Financial                                                                                                  1,902a                shares, 7,245,670 common shares,
                                                                                                                                                              and 8,890,000 common shares in three
                                                                                                                                                               separate public offerings, all for a loss.
                            Ally Financial
                                                            $17,174                                                                       $1,902
                            Total
                            Total Investment               $79,693      c
                                                                            Total Realized Loss, Write-Offs                             $15,989
 CDCI
                            Premier Bancorp,
                                                                                                                                                 $7a                               Liquidation of failed bank
                            Inc.
                            Total Investment                     $570       Total Realized Loss, Write-Offs                                      $7
 CPP
                            188 CPP Banks                                                                                                $1,666a,b                                      Sales and exchanges
                            27 CPP Banks in                                                                                                                                         Bankruptcy in process,
                                                                                                                                             $797   b
                            Bankruptcy                                                                                                                                         loss written off by Treasury,
                            Pacific Coast                                                                                                                                Bankruptcy process completed,
                                                                                                                                                   4b
                            National Bancorp                                                                                                                                 loss written off by Treasury
                            Anchor Bancorp                                                                                                                               Bankruptcy process completed,
                                                                                                                                               104a
                            Wisconsin, Inc.                                                                                                                                    loss realized by Treasury
                                                                                                                                                                         Bankruptcy process completed,
                            CIT Group Inc.                                                                                                  2,330b
                                                                                                                                                                             loss written off by Treasury
                            Total Investment              $204,895          Total Realized Loss, Write-Offs                               $4,901
 SSFI
                            AIGd                                                                                                        $13,485a                 Sale of TARP common stock at a loss
                            Total Investment                $67,835         Total Realized Loss, Write-Offs                             $13,485
 Total Realized Loss               $28,583                            Total Write-Offs            $5,799
 Total TARP Investment                 $350,439                                                                                                         Total Realized Loss, Write-Offs $34,382
 Notes: Numbers may not total due to rounding.
 a
   Includes investments reported by Treasury as realized losses. Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer
    included in calculating realized losses.
 b
      Includes investments reported by Treasury as write-offs. According to Treasury, in the time since some transactions were classified as write-offs, Treasury has changed its practices and now classifies sales
       of preferred stock at a loss as realized losses.
 c
    Includes $1.5 billion investment in Chrysler Financial, $413 million ASSP investment, and $641 million AWCP investment.
 d
     Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares based upon the
      Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the Treasury. Receipts for non-TARP
      common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in AIG and TARP’s cost basis of $43.53 per common
      share.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Section 105(a) Report, 10/10/2014; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group
 LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 10/1/2014; Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Daily TARP Update, 6/3/2013,
 6/13/2013, 7/1/2014, and 10/1/2014.
118            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TARP PROGRAMS UPDATE
                                                      Some TARP programs are scheduled to last as late as 2022. Other TARP programs
                                                      have no scheduled ending date; TARP money will remain invested until recipients
                                                      pay Treasury back or until Treasury sells its investments in the companies. Table
                                                      4.3 provides details of exit dates and remaining Treasury investments.
                                                          As of September 30, 2014, 145 institutions remain in TARP: 43 banks with
      Common Stock: Equity ownership
                                                      remaining CPP principal investments; 34 CPP banks for which Treasury now holds
      entitling an individual to share in
                                                      only warrants to purchase stock; 68 banks and credit unions in CDCI; and Ally
      corporate earnings and voting rights.
                                                      Financial.61 Treasury does not consider the 34 CPP institutions in which it holds
                                                      only warrants to be in TARP, however Treasury applies all proceeds from the sale of
      Preferred Stock: Equity ownership that
                                                      warrants in these banks to recovery amounts in TARP’s CPP program.62 Treasury
      usually pays a fixed dividend before
                                                      (and therefore the taxpayer) remains a shareholder in companies that have not
      distributions for common stock owners
                                                      repaid the Government. Treasury’s equity ownership is largely in two forms —
      but only after payments due to debt
                                                      common and preferred stock — although it also has received debt in the form of
      holders. It typically confers no voting
                                                      senior subordinated debentures.
      rights. Preferred stock also has priority
                                                          According to Treasury, as of September 30, 2014, 224 banks and credit unions
      over common stock in the distribution
                                                      have exited CPP or CDCI with less than a full repayment, including institutions
      of assets when a bankrupt company is
                                                      whose shares have been sold for less than par value (30), or at a loss at auction
      liquidated.
                                                      (164), and institutions that are in various stages of bankruptcy or receivership
                                                      (30).63 Eighteen banks have been sold at a profit at auction.64 Four CPP banks
      Senior Subordinated Debentures:
                                                      merged with other CPP banks.65
      Debt instrument ranking below senior
                                                          Taxpayers also are entitled to dividend payments, interest, and warrants for
      debt but above equity with regard to
                                                      taking on the risk of TARP investments. According to Treasury, as of September 30,
      investors’ claims on company assets
                                                      2014, Treasury had collected $48.1 billion in interest, dividends, and other income,
      or earnings.
                                                      including $9.5 billion in proceeds from the sale of warrants and stock received as a
                                                      result of exercised warrants.66
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   119




TABLE 4.3
 STATUS OF CONTINUING TARP PROGRAMS
 Program                                                          Investment status as of 9/30/2014
 Home Affordable Modification Program                             2022 to pay incentives on modifications
 Hardest Hit Fund                                                 2017 for states to use TARP funds
 FHA Short Refinance Program                                      2020 for TARP-funded letter of credit
                                                                  Remaining principal investments in 43 banks;
 Capital Purchase Program
                                                                  warrants for stock in an additional 34 banks
                                                                  Remaining principal investments in 68 banks/
 Community Development Capital Initiative
                                                                  credit unions
 Automotive Industry Financing Program                            Remaining investment: 13.8% stake in Ally
 Term Asset-Backed Securities Loan Facility                       2014 maturity of last loan
 Notes: Treasury’s Ally Financial stake as of 9/12/2014.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Daily TARP Update, 10/1/2014; Treasury, response to SIGTARP data
 call, 10/6/2014; and FRBNY, response to SIGTARP data call, 10/9/2014.




COST ESTIMATES
Several Government agencies are responsible under EESA for generating cost
estimates for TARP, including the Congressional Budget Office (“CBO”), the
Office of Management and Budget (“OMB”), and Treasury, whose estimated costs
are audited each year by the Government Accountability Office (“GAO”). Cost
estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
loss and OMB’s August 2009 cost estimate of a $341 billion loss.67
     On March 4, 2014, OMB issued the Administration’s fiscal year 2015 budget,
which included a TARP lifetime cost estimate of $39 billion, based largely on
figures from November 30, 2013.68 This was a decrease from its estimate of $47.5
billion based on December 31, 2012, data.69 According to OMB, this decrease
came largely from a smaller projected loss on the auto program, as well as from a
technical adjustment to interest income that affects the overall Federal deficit, but
has no direct effect on TARP program costs.70 The estimate also assumes principal
repayments and revenue from dividends, warrants, interest, and fees for PPIP of
$2.4 billion and for CPP of $8.3 billion.
     On April 17, 2014, CBO issued a TARP cost estimate based on its evaluation
of data as of March 12, 2014. CBO estimated the ultimate cost of TARP would be
$27 billion, up $6 billion from its estimate of $21 billion in May 2013.71 According
to CBO, the increase is due primarily to an increase in projected mortgage program
spending, offset by a decrease in the estimated costs associated with the automotive
program. CBO estimates that TARP’s largest loss will come from the mortgage
programs. CBO estimated that only $26 billion of obligated funds for housing will
be spent.
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 On December 11, 2013, Treasury issued its September 30, 2013, fiscal year
                                             audited agency financial statements for TARP, which contained a cost estimate of
                                             $40.3 billion.72 According to Treasury, the largest costs from TARP are expected
                                             to come from housing programs and from assistance to AIG and the automotive
                                             industry.73 This estimate assumes that all of the $38.5 billion in funds obligated for
                                             housing support programs will be spent.
                                                 The most recent TARP program cost estimates from each agency are listed in
                                             Table 4.4.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   121




TABLE 4.4
 COST (GAIN) OF TARP PROGRAMS                              ($ BILLIONS)

                                                                                                        Treasury Estimate,
                                                                                                      TARP Audited Agency
 Program Name                                   CBO Estimate                  OMB Estimate             Financial Statement
     Report issued:                                4/17/2014                     3/4/2014                          12/11/2013
     Data as of:                                   3/12/2014                   11/30/2013                           9/30/2013
 Housing Support Programs                                      $26                        $37.5                              $37.7a
 Capital Purchase Program                                      (17)                         (8.3)                             (16.1)
 Systemically Significant
                                                                 15                         17.4                                15.2
 Failing Institutions
 Targeted Investment Program
                                                                 (8)                        (7.5)                               (8.0)
 and Asset Guarantee Program
 Automotive Industry Support
                                                                 14                            20                               14.7
 Programsb
 Term Asset-Backed Securities
                                                                 (1)                        (0.5)                               (0.6)
 Loan Facility
 Public-Private Investment
                                                                 (3)                        (2.4)                               (2.7)
 Program
 Otherc                                                            *                             *                                   *
 Total                                                       $27   d
                                                                                          $56.3                              $40.3e
 Interest on Reestimatesf                                                                  (17.2)                                     
 Adjusted Total                                                                          $39.0e                                       
 Notes: Numbers may not total due to rounding.
 a
    According to Treasury, “The estimated lifetime cost for Treasury Housing Programs under TARP represent the total commitment
     except for the FHA Refinance Program, which is accounted for under credit reform. The estimated lifetime cost of the FHA Refinance
     Program represents the total estimated subsidy cost associated with total obligated amount.”
 b
     Includes AIFP, ASSP, and AWCP.
 c
     Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 d
     The estimate is before administrative costs and interest effects.
 e
     The estimate includes interest on reestimates but excludes administrative costs.
 f
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
    estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

 Sources: OMB Estimate – OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2015/assets/spec.pdf, accessed 10/1/2014; CBO Estimate - CBO, “Report
 on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.pdf,
 accessed 10/1/2014; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset Relief Program Agency Financial
 Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-
 11-13_Final.pdf, accessed 10/1/2014.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TARP PROGRAMS
                                             TARP programs fall into four categories: housing support programs, financial
                                             institution support programs, automotive industry support programs, and asset
                                             support programs.

                                             Housing Support Programs
                                             The stated purpose of TARP’s housing support programs is to help homeowners
                                             and financial institutions that hold troubled housing-related assets. Treasury
                                             obligated only $45.6 billion, then in March 2013, reduced its obligation to $38.5
                                             billion.74 As of September 30, 2014, $13.8 billion (36% of obligated funds) has
                                             been expended.75 However, some of these expended funds have been used for
                                             administrative expenses by the state Housing Finance Agencies participating in the
                                             Hardest Hit Fund program or remain with them as cash on hand.

                                             •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                                umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                                “help bring relief to responsible homeowners struggling to make their mortgage
                                                payments, while preventing neighborhoods and communities from suffering the
                                                negative spillover effects of foreclosure, such as lower housing prices, increased
                                                crime, and higher taxes.”76 MHA, for which Treasury has obligated $29.8
                                                billion of TARP funds, consists of the Home Affordable Modification Program
                                                (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which both modify
                                                first-lien mortgages to reduce payments; the Federal Housing Administration
                                                (“FHA”) HAMP loan modification option for FHA-insured mortgages
                                                (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office of Rural
                                                Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable Foreclosure
                                                Alternatives (“HAFA”) program; the Second Lien Modification Program
                                                (“2MP”); and the U.S. Department of Veterans Affairs (“VA”) HAMP (“VA
                                                HAMP”), which TARP does not fund.77 HAMP in turn encompasses various
                                                initiatives in addition to the modification of first-lien mortgages, including
                                                Home Price Decline Protection (“HPDP”), the Principal Reduction Alternative
                                                (“PRA”), and the Home Affordable Unemployment Program (“UP”).78
                                                Additionally, the overall MHA obligation of $29.8 billion includes $2.7 billion to
                                                support the Treasury/FHA Second-Lien Program (“FHA2LP”), which expired as
                                                of December 31, 2013. FHA2LP was to complement the FHA Short Refinance
                                                program (discussed later) and was intended to support the extinguishment
                                                of second-lien loans, but no second liens had been partially written down or
                                                extinguished under the program before it expired.79
                                                     As of September 30, 2014, MHA had expended $9.3 billion of TARP money
                                                (31% of $29.8 billion).80 Of that amount, $7.7 billion was expended on HAMP,
                                                which includes $1.4 billion expended on homeowners’ HAMP permanent
                                                modifications that later redefaulted.81 In addition, $846.4 million was expended
                                                on HAFA and $656.1 million on 2MP.82 As of September 30, 2014, there
                                                were 474,565 active Tier 1 and 61,975 active Tier 2 permanent first-lien
                                                modifications under the TARP-funded portion of HAMP, an increase of 931
                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                123




   Tier 1 and 6,657 Tier 2 active permanent modifications over the past quarter.83
   For more information, including participation numbers for each of the MHA
   programs and subprograms, see the “Housing Support Programs” discussion in
   this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program is to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath
   of the housing bubble.”84 Treasury obligated $7.6 billion for this program.85 As
   of September 30, 2014, $4.5 billion had been drawn down by the states from
   HHF.86 However, as of June 30, 2014, the latest data available, only $3.1 billion
   had been spent assisting 193,716 homeowners, with the remaining $432.5
   million funds used for administrative expenses and $644.4 million as unspent
   cash-on-hand.87,i For more information, see the “Housing Support Programs”
   discussion in this section.88
•	 FHA Short Refinance Program — Treasury has provided a TARP-funded
   letter of credit for up to $1 billion in loss protection on refinanced first liens.
   As of September 30, 2014, Treasury has paid $47,840 on one claim for one
   default under the program.89 As of September 30, 2014, there have been 4,963
   refinancings under the FHA Short Refinance program, an increase of 339
   refinancings during the past quarter.90 For more information, see the “Housing
   Support Programs” discussion in this section.

Financial Institution Support Programs
Treasury primarily invested capital directly into financial institutions including
banks, bank holding companies, and, if deemed by Treasury critical to the financial                                                       Systemically Significant Institutions:
system, some systemically significant institutions.91                                                                                     Term referring to any financial
                                                                                                                                          institution whose failure would impose
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                                                                        significant losses on creditors and
   purchased preferred stock or subordinated debentures in qualifying financial                                                           counterparties, call into question the
   institutions.92 CPP was intended to provide funds to “stabilize and strengthen                                                         financial strength of similar institutions,
   the U.S. financial system by increasing the capital base of an array of healthy,                                                       disrupt financial markets, raise
   viable institutions, enabling them [to] lend to consumers and business[es].”93                                                         borrowing costs for households and
   Treasury invested $204.9 billion in 707 institutions through CPP, which closed                                                         businesses, and reduce household
   to new funding on December 29, 2009.94 As of September 30, 2014, 77 of those                                                           wealth.
   institutions remained in TARP; in 34 of them, Treasury holds only warrants to
   purchase stock. Treasury does not consider these 34 institutions to be in TARP,
   however Treasury applies all proceeds from the sale of warrants in these banks
   to recovery amounts in TARP’s CPP program. As of September 30, 2014, 43
   of the 77 institutions had outstanding CPP principal investments.95 Nearly a
   quarter of the 707 banks, or 165, refinanced into other Government programs
   — 28 of them into TARP’s CDCI and 137 into SBLF, a non-TARP program.96


i Figures
         obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursements to funds drawn from
 Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
 borrower remittances.
124             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          Only 253 of the banks, or 36% of the original 707, fully repaid CPP otherwise.97
                                                          Of the other banks that have exited CPP, four CPP banks merged with other
                                                          CPP banks, Treasury sold its investments in 30 banks for less than par and its
                                                          investments in 182 banks at auction (164 of those investments sold at a loss),
                                                          and 30 institutions or their subsidiary banks failed, meaning Treasury lost its
                                                          entire investment in those banks.98 As of September 30, 2014, taxpayers were
                                                          still owed $5.5 billion related to CPP. According to Treasury, it had write-offs
                                                          and realized losses of $4.9 billion in the program, leaving $0.6 billion in TARP
                                                          funds outstanding.99 According to Treasury, $197.2 billion of the CPP principal
                                                          (or 96%) had been recovered as of September 30, 2014. The repayment amount
                                                          includes $363.3 million in preferred stock that was converted from CPP
                                                          investments into CDCI and therefore still represents outstanding obligations to
                                                          TARP. Additionally, $2.2 billion was refinanced in 2011 into SBLF, a non-TARP
                                                          Government program.100
                                                               Treasury continues to manage its portfolio of CPP investments, including,
                                                          for certain struggling institutions, converting its preferred equity ownership into
                                                          a more junior form of equity ownership, often at a discount to par value (which
                                                          may result in a loss) in an attempt to preserve some value that might be lost if
                                                          these institutions were to fail. As of September 30, 2014, Treasury has held 26
                                                          sets of auctions to sell all of its preferred stock investments in 182 banks, selling
                                                          all but 18 investments at a discounted price resulting in a loss to Treasury.101
                                                          Treasury lost a total of $1 billion in the auctions, including $781.3 million from
                                                          discounts on principal investments in the institutions and $241.3 million in
                                                          forfeited unpaid dividends and interest owed by the institutions.102 For more
                                                          information, see the “Capital Purchase Program” discussion in this section.
                                                       •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                          Treasury used TARP money to buy preferred stock in or subordinated debt from
      Community Development Financial                     Community Development Financial Institutions (“CDFIs”). Treasury intended
      Institutions (“CDFIs”): Financial                   for CDCI to “improve access to credit for small businesses in the country’s
      institutions eligible for Treasury funding          hardest-hit communities.”103 Under CDCI, TARP made capital investments
      to serve urban and rural low-income                 in the preferred stock or subordinated debt of eligible banks, bank holding
      communities through the CDFI Fund.                  companies, thrifts, and credit unions.104 Eighty-four institutions received $570.1
      CDFIs were created in 1994 by the                   million in funding under CDCI.105 However, 28 of these institutions converted
      Riegle Community Development and                    their existing CPP investment into CDCI ($363.3 million of the $570.1
      Regulatory Improvement Act.                         million) and 10 of those that converted received combined additional funding
                                                          of $100.7 million under CDCI.106 Only $106 million of CDCI money went to
                                                          institutions that were not already TARP recipients. As of September 30, 2014,
                                                          68 institutions remained in CDCI.107 As of September 30, 2014, two remaining
                                                          CDCI institutions had unpaid dividend or interest payments.108 For more
                                                          information, see the “Community Development Capital Initiative” discussion in
                                                          this report.
                                                       •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
                                                          enabled Treasury to invest in systemically significant institutions to prevent
                                                          them from failing.109 Only one firm received SSFI assistance: American
                                                          International Group, Inc. (“AIG”).
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014           125




        The Government’s rescue of AIG involved several different funding facilities
   provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury,
   with various changes to the transactions over time. Combined, Treasury and
   FRBNY committed $182 billion to bail out AIG, of which $161 billion was
   disbursed.110 That included $67.8 billion in TARP funds. Treasury’s investment
   in AIG ended on March 1, 2013.
        As reflected on Treasury’s books and records, taxpayers recouped $54.4
   billion of the $67.8 billion in TARP funds and realized losses from an
   accounting standpoint of $13.5 billion on Treasury’s sale of AIG stock.111 Due
   to a January 2011 restructuring of the FRBNY and Treasury investments,
   Treasury held common stock from both the TARP and FRBNY assistance, and,
   according to Treasury, the Government overall has made a $4.1 billion gain on
   the stock sales, and $959 million has been paid in dividends, interest, and other
   income.112
        On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
   announced that it had designated AIG as a systemically important nonbank
   financial company under Dodd-Frank, thereby subjecting AIG to consolidated
   supervision by the Board of Governors of the Federal Reserve System (“Federal
   Reserve”) and to enhanced prudential standards.113
        For more information, see the “Systemically Significant Failing Institutions
   Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in                  Senior Preferred Stock: Shares that
   financial institutions it deemed critical to the financial system.114 There were         give the stockholder priority dividend
   two expenditures under this program, totaling $40 billion — the purchases of             and liquidation claims over junior
   $20 billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and           preferred and common stockholders.
   Bank of America Corp. (“Bank of America”).115 Treasury also accepted common
   stock warrants from each, as required by EESA. Both banks fully repaid                   Illiquid Assets: Assets that cannot be
   Treasury for its TIP investments.116 Treasury auctioned its Bank of America              quickly converted to cash.
   warrants on March 3, 2010, and auctioned its Citigroup warrants on January
   25, 2011.117 For more information on these transactions, see the “Targeted               Trust Preferred Securities (“TRUPS”):
   Investment Program and Asset Guarantee Program” discussion in this section.              Securities that have both equity and
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide                            debt characteristics, created by
   insurance-like protection for a select pool of mortgage-related or similar assets        establishing a trust and issuing debt
   held by participants whose portfolios of distressed or illiquid assets threatened        to it.
   market confidence.118 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.119 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.120 On December 23, 2009, in connection with Citigroup’s TIP
   repayment, Citigroup and the Government terminated the AGP agreement and
   the Government suffered no loss. On December 28, 2012, FDIC transferred
   $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
   participation in FDIC’s Temporary Liquidity Guarantee Program having closed
   without a loss.121 Treasury converted the TRUPS it received from FDIC into
   Citigroup subordinated notes and subsequently sold them for $894 million.122
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                For more information, see the “Targeted Investment Program and Asset
                                                Guarantee Program” discussion in this section.

                                             Automotive Industry Support Programs
                                             TARP’s automotive industry support through the Automotive Industry Financing
                                             Program (“AIFP”) aimed to “prevent a significant disruption of the American
                                             automotive industry, which would pose a systemic risk to financial market
                                             stability and have a negative effect on the economy of the United States.”123 As of
                                             September 30, 2014, Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc.,
                                             remains the only auto-related company whose stock is owned by Treasury. As of
                                             September 30, 2014, taxpayers are owed $3.7 billion for TARP’s investment in Ally
                                             Financial. In return for its investment, as of September 30, 2014, Treasury held
                                             66,175,340 shares or approximately 13.8% of Ally Financial’s common stock. This
                                             followed its sale of 8.9 million shares on September 12, 2014, in which it recovered
                                             approximately $218.7 million, and concluded its first pre-defined written trading
                                             plan. On October 17, 2014, Treasury announced the conclusion of its second
                                             trading plan with the sale of 11,249,044 shares, recovering approximately $245.5
                                             million.124 Treasury now holds approximately 54.9 million shares of common stock,
                                             or approximately 11.4 % of Ally Financial.125 For the government to break even on
                                             its investment, Ally’s remaining shares would need to trade at approximately $64
                                             per share—about triple the closing price per share of Ally Financial on October
                                             17, 2014.126 This transaction followed the sale of 95 million shares as part of Ally’s
                                             IPO on April 15, 2014 and a subsequent sale of 7.2 million shares on May 14,
                                             2014, recovering $2.4 billion and $182 million, respectively. Prior to the IPO, on
                                             January 23, 2014, Treasury sold 410,000 shares of Ally Financial common stock
                                             for approximately $3 billion in a private placement, after which it owned 37% of
                                             the company’s stock.127 Treasury sold its last shares in General Motors Company
                                             (“GM”) on December 9, 2013. Separately, on March 20, 2014, Treasury wrote off
                                             an $826 million administrative claim in the company’s 2009 bankruptcy, ending all
                                             taxpayer involvement with GM.128
                                                  As of September 30, 2014, taxpayers have lost $11.2 billion on the principal
                                             TARP investment in GM. Taxpayers had also lost $1.9 billion on the sale of Ally
                                             Financial’s common stock, as well as $2.9 billion on the principal TARP investment
                                             in Chrysler Holding LLC (“Chrysler”). Chrysler Financial Services Americas LLC
                                             (“Chrysler Financial”) fully repaid its TARP investment.129
                                                  Through AIFP, Treasury made emergency loans to Chrysler, Chrysler Financial,
                                             and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
                                             and assisted Chrysler and GM during their bankruptcy restructurings. As of
                                             September 30, 2014, $79.7 billion had been disbursed through AIFP and its
                                             subprograms, and Treasury had recovered $61.9 billion in principal repayments,
                                             preferred stock redemption proceeds, and stock sale proceeds. As of September
                                             30, 2014, Treasury had recovered approximately $38.9 billion related to its GM
                                             investment, $13.4 billion related to its Ally Financial/GMAC investment, $8 billion
                                             related to its Chrysler investment, and $1.5 billion related to its Chrysler Financial
                                             investment.130 As of September 30, 2014, Treasury had also received approximately
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   127




$5.6 billion in dividends and interest under AIFP and its two subprograms, ASSP
and AWCP.131
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently recovered), in addition to $2.1
billion in preferred stock and a 61% common equity stake.132 Through a series of
stock sales, Treasury has divested its preferred stock and all of its common stock
as of December 9, 2013. Because the common stock sales all took place below
Treasury’s break-even price, Treasury has booked a loss of $10.3 billion on the sales
as of September 30, 2014, for a total loss on GM of $11.2 billion.133
     Treasury invested a total of $17.2 billion in Ally Financial, and $3.7 billion of
that remained outstanding as of September 30, 2014. On December 30, 2010,
Treasury’s investment was restructured to provide for a 74% common equity
stake, $2.7 billion in TRUPS (including amounts received in warrants that were
immediately converted into additional securities), and $5.9 billion in mandatorily
convertible preferred shares (“MCP”).134 Treasury sold the $2.7 billion in TRUPS
on March 2, 2011, resulting in a $2.5 billion principal repayment to Treasury.135
On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase the $5.9
billion par value of MCP, plus a payment of $725 million to terminate the share
adjustment right (reducing Treasury’s ownership stake from 74% to 63%).136 The
November 20, 2013 repurchase represented a $5.6 billion recovery of principal,
bringing total Ally principal repayments to $8.2 billion.137 Treasury’s sale of
410,000 shares of Ally common stock on January 23, 2014, for approximately $3
billion, brought the amount recovered by Treasury to $10.7 billion.138 In addition,
Treasury’s share sales in the April 15, 2014, IPO are reported at $2.4 billion.139
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.140 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.141
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust. Treasury’s
books reflect a $2.9 billion loss to taxpayers on their principal investment in
Chrysler.142 In addition, Treasury provided a $1.5 billion loan to Chrysler Financial,
which was fully repaid with interest in July 2009.143
     For more information, see the “Automotive Industry Support Programs”
discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — On March 19, 2009, Treasury
   committed $5 billion to ASSP to “help stabilize the automotive supply base and
   restore credit flows,” with loans to GM ($290 million) and Chrysler ($123.1
   million) fully repaid in April 2010.144
•	 Auto Warranty Commitment Program (“AWCP”) — AWCP guaranteed
   Chrysler and GM vehicle warranties during the companies’ bankruptcy, with
   Treasury obligating $640.8 million — $360.6 million for GM and $280.1
   million for Chrysler, both fully repaid to Treasury.145
128             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Asset Support Programs
                                                       The stated purpose of these programs was to support the liquidity and market value
      Asset-Backed Securities (“ABS”): Bonds           of assets owned by financial institutions to free capital so that these firms could
      backed by a portfolio of consumer                extend more credit to support the economy. These assets included various classes
      or corporate loans (e.g., credit card,           of asset-backed securities (“ABS”) and several types of loans.
      auto, or small-business loans). Financial
      companies typically issue ABS backed             •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
      by existing loans in order to fund new              originally designed to increase credit availability for consumers and small
      loans for their customers.                          businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                          investors with non-recourse loans secured by certain types of ABS, including
      Servicing Advances: If borrowers’                   credit card receivables, auto loans, equipment loans, student loans, floor
      payments are not made promptly                      plan loans, insurance-premium finance loans, loans guaranteed by the Small
      and in full, mortgage servicers are                 Business Administration (“SBA”), residential mortgage servicing advances, and
      contractually obligated to advance the              commercial mortgage-backed securities (“CMBS”).146 TALF closed to new loans
      required monthly payment amount in                  in June 2010.147 TALF ultimately provided $71.1 billion in Federal Reserve
      full to the investor. Once a borrower               financing — $59 billion with non-mortgage related ABS as collateral and $12.1
      becomes current or the property is                  billion with CMBS as collateral.148 Of that amount, $14.3 million remained
      sold or acquired through foreclosure,               outstanding as of September 30, 2014.149 As of early 2013, the TALF program
      the servicer is repaid all advanced                 collected fees totaling more than the amount of loans still outstanding.150 As of
      funds.                                              September 30, 2014, there had been no surrender of collateral related to these
                                                          loans.151 For more information, see the “TALF” discussion in this section.
      Commercial Mortgage-Backed                       •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
      Securities (“CMBS”): Bonds backed by                credit markets by using a combination of private equity, matching Government
      one or more mortgages on commercial                 equity, and Government debt to purchase legacy securities, i.e., CMBS and
      real estate (e.g., office buildings, rental         non-agency residential mortgage-backed securities (“non-agency RMBS”).152
      apartments, hotels).                                Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
                                                          by private asset managers invested in non-agency RMBS and CMBS. Treasury
      Legacy Securities: Real estate-related              originally obligated $22.4 billion in TARP funds to the program and reduced
      securities originally issued before                 the amount over time to $18.8 billion as of September 30, 2014. Together, all
      2009 that remained on the balance                   nine PPIFs drew down $18.6 billion in debt and equity financing from Treasury
      sheets of financial institutions because            funding out of the total obligation, and fully repaid Treasury.153 As of September
      of pricing difficulties that resulted from          30, 2014, the entire PPIP portfolio had been liquidated, and seven PPIP funds
      market disruption.                                  were legally dissolved while the other one was winding down operations.154 For
                                                          more information, see the “Public-Private Investment Program” discussion in
      Non-Agency Residential Mortgage-                    this section.
      Backed Securities (“non-agency                   •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
      RMBS”): Financial instrument backed                 Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
      by a group of residential real estate               officials announced that Treasury would buy up to $15 billion in securities
      mortgages (i.e., home mortgages for                 backed by SBA loans under UCSB.155 Treasury obligated a total of $400 million
      residences with up to four dwelling                 for UCSB and made purchases of $368.1 million in 31 securities under the
      units) not guaranteed or owned by                   program. Treasury sold the last of its UCSB securities on January 24, 2012,
      a Government-sponsored enterprise                   ending the program with a net investment gain of about $9 million.156 For more
      (“GSE”) or a Government agency.                     information, see the “Unlocking Credit for Small Businesses/Small Business
                                                          Administration Loan Support” discussion in this section.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014              129




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella
                                                                                             Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention
                                                                                             (“GSEs”): Private corporations created
efforts.157 MHA initially consisted of the Home Affordable Modification Program
                                                                                             and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for
                                                                                             reduce borrowing costs and provide
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at
                                                                                             liquidity in the market, the liabilities
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.158
                                                                                             of which are not officially considered
HAMP was originally intended “to help as many as three to four million financially
                                                                                             direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is
                                                                                             September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”159 On June 1,
                                                                                             GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted
                                                                                             Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the
                                                                                             the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.160 On June 13,
                                                                                             Corporation (“Freddie Mac”), were
2013, Treasury generally extended MHA programs for an additional two years,
                                                                                             placed into Federal conservatorship.
from December 31, 2013, to December 31, 2015.161 On June 26, 2014 it further
                                                                                             They are currently being financially
extended MHA programs for another year, through December 31, 2016.162
                                                                                             supported by the Government.
    Treasury over time expanded MHA to include sub-programs. Treasury also
allocated TARP funds to support two additional housing support efforts: TARP
                                                                                             Loan Servicers: Companies that
funding for 19 state housing finance agencies, called the Housing Finance
                                                                                             perform administrative tasks on
Agency Hardest Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing
                                                                                             monthly mortgage payments until the
Administration (“FHA”) refinancing program. The HHF program is scheduled
                                                                                             loan is repaid. These tasks include
to expire on December 31, 2017. The FHA refinancing program, known as FHA
                                                                                             billing, tracking, and collecting monthly
Short Refinance, is scheduled to expire on December 31, 2014.163
                                                                                             payments; maintaining records of
    Not all housing support programs are funded, or completely funded, by TARP.
                                                                                             payments and balances; allocating
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be
                                                                                             and distributing payment collections
funded by TARP, with the remainder funded by the GSEs.164 Although Treasury
                                                                                             to investors in accordance with
originally committed to use $50 billion in TARP funds for these programs,
                                                                                             each mortgage loan’s governing
it subsequently obligated only $45.6 billion, and in March 2013, reduced its
                                                                                             documentation; following up
obligation to $38.5 billion, which includes $29.8 billion for MHA incentive
                                                                                             on delinquencies; and initiating
payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA Short
                                                                                             foreclosures.
Refinance.165
    Housing support programs include the following initiatives:
                                                                                             Investors: Owners of mortgage loans
                                                                                             or bonds backed by mortgage loans
•	 Home Affordable Modification Program (“HAMP” or “HAMP Tier 1”)
                                                                                             who receive interest and principal
   — HAMP is intended to use incentive payments to encourage loan servicers
                                                                                             payments from monthly mortgage
   (“servicers”) and investors to modify eligible first-lien mortgages so that the
                                                                                             payments. Servicers manage the
   monthly payments of homeowners who are currently in default or generally at
                                                                                             cash flow from homeowners’ monthly
   imminent risk of default will be reduced to affordable and sustainable levels.166
                                                                                             payments and distribute them to
   Incentive payments for modifications to loans owned or guaranteed by the
                                                                                             investors according to Pooling and
   GSEs are paid by the GSEs, not TARP.167 As of September 30, 2014, there were
                                                                                             Servicing Agreements (“PSAs”).
   899,673 active permanent HAMP Tier 1 modifications, 474,565 of which were
   under TARP, with the remainder under the GSE portion of the program.168
130            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           While HAMP generally refers to the first-lien mortgage modification program, it
                                                           also includes the following subprograms:
                                                           çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                               the use of principal reduction in modifications for eligible homeowners
                                                               whose homes are worth significantly less than the remaining outstanding
                                                               balances of their first-lien mortgage loans. It provides TARP-funded
                                                               incentives to offset a portion of the principal reduction provided by the
                                                               investor.169 As of August 31, 2014, there were 129,489 (Tier 1 and Tier 2)
                                                               active permanent modifications through PRA.170
                                                           çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                               encourage additional investor participation and HAMP modifications in
                                                               areas with recent price declines by providing TARP-funded incentives to
                                                               offset potential losses in home values.171 As of August 31, 2014, 218,933
                                                               (Tier 1 and Tier 2) loan modifications had been started under HPDP, and
                                                               145,406 remained active.172
                                                           çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of all or a portion of their payments.173 As of August 31, 2014, which
                                                               according to Treasury is the most recent data available, 4,342 homeowners
                                                               were actively participating in UP.174
                                                      •	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                           Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                           occupied “rental” properties, and to allow homeowners with a wider range of
                                                           debt-to-income ratios to receive modifications.175 As of September 30, 2014,
                                                           71,183 HAMP Tier 2 modifications had become permanent, of which 61,975
                                                           remained active.176 Of Tier 2 permanent modifications started, 10,154 were
                                                           previously HAMP Tier 1 permanent modifications of which 8,081 remained
      Short Sale: Sale of a home for less
                                                           active.
      than the unpaid mortgage balance. A
                                                      •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
      homeowner sells the home and the
                                                           to provide incentives to servicers, investors, and homeowners to pursue short
      investor accepts the proceeds as full
                                                           sales and deeds-in-lieu of foreclosure for homeowners in cases in which the
      or partial satisfaction of the unpaid
                                                           homeowner is unable or unwilling to enter or sustain a modification. Under
      mortgage balance, thus avoiding the
                                                           this program, the servicer releases the lien against the property and the investor
      foreclosure process.
                                                           waives all rights to seek a deficiency judgment against a homeowner who uses a
                                                           short sale or deed-in-lieu when the property is worth less than the outstanding
      Deed-in-Lieu of Foreclosure: Instead
                                                           amount of the mortgage.177 As of September 30, 2014, there were 176,373 short
      of going through foreclosure, the
                                                           sales or deeds-in-lieu under HAFA.178
      homeowner voluntarily surrenders the
                                                      •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
      deed to the home to the investor, as
                                                           second-lien mortgages when a corresponding first lien is modified under
      satisfaction of the unpaid mortgage
                                                           HAMP by a participating servicer.179 As of September 30, 2014, 16 servicers
      balance.
                                                           are participating in 2MP.180 These servicers represent approximately 55 – 60 %
                                                           of the second-lien servicing market.181 As of September 30, 2014, there were
                                                           84,053 active permanently modified second liens in 2MP.182
                                                      •	   Agency-Insured Programs — These programs are similar in structure to
                                                           HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014           131




   by the Department of Agriculture’s Office of Rural Development (“RD”) and
   the Department of Veterans Affairs (“VA”).183 Treasury provides TARP-funded
   incentives to encourage modifications under the FHA and RD modification
   programs, but not for the VA modification program. As of September 30, 2014,
   there were 134 RD-HAMP active permanent modifications, 43,986 FHA-
   HAMP active permanent modifications, and 381 VA-HAMP active permanent
   modifications.184
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.185 According to Treasury, as of December 31, 2013, the program had
   expired and no second liens had been partially written down or extinguished
   under the program.186
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.187 As of June 30, 2014,
   the latest data available, 193,716 homeowners had received assistance under
   HHF.188
•	 FHA Short Refinance Program — This program, which is partially supported
   by TARP funds, is intended to provide homeowners who are current on their
   mortgage an opportunity to refinance existing underwater mortgage loans that                Underwater Mortgage: Mortgage loan
   are not currently insured by FHA into FHA-insured mortgages with lower                      on which a homeowner owes more
   principal balances. Treasury has provided a TARP-funded letter of credit for                than the home is worth, typically as
   up to $1 billion in loss coverage on these newly originated FHA loans.189 As                a result of a decline in the home’s
   of September 30, 2014, 4,963 loans had been refinanced under FHA Short                      value. Underwater mortgages also are
   Refinance.190                                                                               referred to as having negative equity.

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $13.8 billion, or 36%, has been expended as
of September 30, 2014.191 Of that, $1 billion was expended in the quarter ended
September 30, 2014. However, some of the expended funds remain as cash-
on-hand or paid for administrative expenses at state housing finance agencies
(“HFAs”) participating in the Hardest Hit Fund program. Treasury has capped the
aggregate amount available to pay servicer, homeowner, and investor incentives
under MHA programs at $29.8 billion, of which $9.3 billion (31%), has been
spent as of September 30, 2014.192 Treasury allocated $7.6 billion to the Hardest
Hit Fund. As of September 30, 2014, of the $7.6 billion in TARP funds available
for HHF, states had drawn down $4.5 billion.193 As of June 30, 2014, the latest
date for which spending analysis is available, the states had drawn down $4.2
billion.194 As of June 30, 2014, states had spent $3.1 billion (41%) of the allocated
132   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             funds to assist 193,716 homeowners, spent $432.5 million (6%) for administrative
                                                                                                                   i ii
                                             expenses, and held $644.4 million (8%) as unspent cash-on-hand.195, , Treasury
                                             originally allocated $8.1 billion for FHA Short Refinance, but deobligated $7.1
                                             billion in March 2013.196 Of the $1 billion currently allocated for FHA Short
                                             Refinance, $59.7 million has been spent, which includes $50 million held in a pre-
                                             funded reserve account to pay future claims, $9.7 million spent on administrative
                                             expenses, and $47,840 spent on one refinanced mortgage that later redefaulted.197
                                                  Table 4.5 shows the breakdown in expenditures and estimated funding
                                             allocations for these housing support programs. Figure 4.1 also shows these
                                             expenditures, as a percentage of allocations.

                                             TABLE 4.5
                                              TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                              AS OF 9/30/2014 ($ BILLIONS)
                                                                                                                        ALLOCATIONS                             EXPENDITURES
                                              MHA
                                                   HAMPa
                                                        First Lien Modification                                         $19.1                                        $6.3
                                                        PRA Modification                                                    2.0                                        1.0
                                                        HPDP                                                                1.6                                        0.4
                                                        UP                                                                    —   b
                                                                                                                                                                        —
                                                                                 HAMP Total                             $22.7                                       $7.7
                                                   HAFA                                                                     4.2                                        0.8
                                                   2MP                                                                      0.1                                        0.7
                                                   Treasury FHA-HAMP                                                        0.2                                         —c
                                                   RD-HAMP                                                                    —d                                        —d
                                                   FHA2LP                                                                   2.7                                         —
                                                                                   MHA Total                                          $29.8                                    $9.3
                                              HHF (Drawdown by States)e                                                                $7.6                                    $4.5
                                              FHA Short Refinance                                                                      $1.0  f
                                                                                                                                                                               $0.1
                                                                                   Total                                              $38.5                                  $13.8
                                              Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                              a
                                                Includes HAMP Tier 1 and HAMP Tier 2.
                                              b
                                                  Treasury does not allocate TARP funds to UP.
                                              c
                                                Treasury has expended $0.1 billion for the Treasury FHA-HAMP program.
                                              d
                                                 Treasury has allocated $0.02 billion to the RD-HAMP program. As of September 30, 2014, $268,926 has been expended for
                                                  RD-HAMP.
                                              e
                                                Not all of the funds drawn down by states have been used to assist homeowners. As of June 30, 2014, HFAs had drawn down
                                                 approximately $4.2 billion, and, according to the latest data available, only $3.1 billion (41%) of TARP funds allocated for HHF have
                                                 gone to help 193,716 homeowners.
                                              f
                                                This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                              Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, and 10/6/2014; Treasury, Transactions Report-Housing Programs,
                                              9/29/2014; Treasury, Daily TARP Update 10/1/2014.




                                             i According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                               HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                               they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                               assistance, cash-on-hand, or undrawn funds.
                                             ii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursements to funds drawn from
                                                 Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                 borrower remittances.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   133




FIGURE 4.1

                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 9/30/2014 ($ BILLIONS)
              HAMP                                                                                                  34% spent
        $22.7 billion                                                                                               ($7.7 billion)

   Hardest Hit Fund                                        59% spenta
        $7.6 billion                                       ($4.5 billion)

              HAFA                            20% spent
         $4.2 billion                         ($0.8 billion)
                                                                                                      Funds Allocated
            FHA2LP                                                                                    Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           48% spent
         $0.2 billion       ($0.1 billion)

                        0                     $5                 $10              $15                 $20                 $25
                                             billion            billion          billion             billion             billion

                        Notes: Numbers may not total due to rounding. HAMP includes HAMP Tier 1, HAMP Tier 2, HPDP, and PRA.
                        TARP funds are not used to support the UP program, which provides forbearance of a portion of the
                        homeowner’s mortgage payment. RD-HAMP expenditures equal $268,926 as of September 30, 2014.
                        Treasury has allocated $0.1 billion for the 2MP program. As of September 30, 2014, $0.7 billion has been
                        expended for 2MP. As of December 31, 2013, the FHA2LP program had expired.
                        a
                          In this figure, Hardest Hit Funds “spent” represents the amount of funds states had drawn down as of
                          September 30, 2014. Treasury requires states to return any HHF funds drawn down but unspent after
                          December 31, 2017. According to Treasury, committed program funds are funds committed to
                          homeowners who have been approved to participate in HHF programs that are anticipated to be disbursed
                          over the duration of their participation; states vary as to when and how they capture and report
                          funds as committed. HHF funds committed for homeowner assistance are recorded variously as
                          homeowner assistance, cash-on-hand, or undrawn funds.

                        Sources: Treasury, responses to SIGTARP data calls, 1/5/2012 and 10/6/2014.



     As of September 30, 2014, Treasury had active agreements with 81 servicers.198
That compares with 145 servicers that had agreed to participate in MHA as
of October 3, 2010.199 According to Treasury, of the $29.8 billion obligated to
participating servicers under their Servicer Participation Agreements (“SPAs”),
as of September 30, 2014, only $9.3 billion (31%) has been spent, broken down
as follows: $7.7 billion had been spent on completing permanent modifications
of first liens, including HAMP Tier 1, HAMP Tier 2, PRA, and HPDP (536,540
of which remain active); $656.1 million had been spent under 2MP; and $846.4
million had been spent on incentives for short sales or deeds-in-lieu of foreclosure
under HAFA.200 Of the combined amount of incentive payments, according to
Treasury, approximately $4.9 billion went to pay investor or lender incentives, $2.5
billion went to pay servicer incentives, and $1.8 billion went to pay homeowner
incentives.201 As of September 30, 2014, of the $7.6 billion in TARP funds available
for HHF, states had drawn down $4.5 billion.202 As of June 30, 2014, states had
drawn down $4.2 billion and, according to the latest data available, had spent
$3.1 billion (41%) of those funds to assist 193,716 homeowners, spent $432.5
million (6%) for administrative expenses, and held $644.4 million (8%) as unspent
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                        iii
                                             cash-on-hand.203, As of September 30, 2014, there remains $3.1 billion in HHF
                                             in undrawn funds. The remaining $1 billion of TARP housing funds has been
                                             obligated under FHA Short Refinance to purchase a letter of credit to provide up
                                             to $1 billion in first loss coverage and to pay $25 million in fees for the letter of
                                             credit.204 According to Treasury, it has paid only one claim for one default on the
                                             4,963 loans refinanced under FHA Short Refinance. However, Treasury has pre-
                                             funded a reserve account with $50 million to pay future claims and has spent $9.7
                                             million on administrative expenses.205 Table 4.6 shows the breakdown of TARP-
                                             funded expenditures related to housing support programs (not including the GSE-
                                             funded portion of HAMP).




                                             iii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                               Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                               borrower remittances.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   135




TABLE 4.6
 BREAKDOWN OF TARP EXPENDITURES, AS OF 9/30/2014 ($ MILLIONS)
 MHA                                                                             TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
               Servicer Incentive Payment                                            $709.0
               Servicer Current Borrower Incentive Payment                            $16.8
               Annual Servicer Incentive Payment                                  $1,274.2
               Investor Current Borrower Incentive Payment                            $70.3
               Investor Monthly Reduction Cost Share                              $2,725.5
               Annual Borrower Incentive Payment                                  $1,337.1
               Tier 2 Incentive Payments                                             $130.1
          HAMP First Lien Modification Incentives Total                                     $6,263.1
          PRA                                                                               $1,016.2
          HPDP                                                                                 $371.3
          UP                                                                                          $—a
          HAMP Program Incentives Total                                                                     $7,650.6
     HAFA Incentives
          Servicer Incentive Payment                                                                      $249.7
          Investor Reimbursement                                                                          $187.4
          Borrower Relocation                                                                             $409.3
     HAFA Incentives Total                                                                                     $846.4
     Second-Lien Modification Program Incentives
          2MP Servicer Incentive Payment                                                                    $68.4
          2MP Annual Servicer Incentive Payment                                                             $40.9
          2MP Annual Borrower Incentive Payment                                                             $37.9
          2MP Investor Cost Share                                                                         $208.2
          2MP Investor Incentive                                                                          $300.8
     Second-Lien Modification Program Incentives Total                                                         $656.1
     Treasury/FHA-HAMP Incentives
               Annual Servicer Incentive Payment                                                            $49.5
               Annual Borrower Incentive Payment                                                            $47.4
     Treasury/FHA-HAMP Incentives Total                                                                          $96.9
     RD-HAMP                                                                                                           $—b
     FHA2LP                                                                                                            $—
 MHA Incentives Total                                                                                            $9,250.3
 HHF Disbursements (Drawdowns by State HFAs)                                                                     $4,471.5
 FHA Short Refinance (Loss-Coverage)                                                                                  $59.7
 Total Expenditures                                                                                             $13,781.4
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
    payment.
 b
    RD-HAMP expenditures equal $268,926 as of September 30, 2014.

 Source: Treasury, response to SIGTARP data call, 10/6/2014.
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             HOME AFFORDABLE UP: A HIGHLY UNDERUTILIZED
                                             PROGRAM

                                             HAMP has suffered in three stages: (1) not getting enough homeowners into
                                             a HAMP trial mortgage modification; (2) not getting enough homeowners in a
                                             HAMP trial modification converted to a permanent modification; and (3) high
                                             redefault rates of homeowners falling out of a HAMP permanent modification.
                                             Treasury’s Home Affordable Unemployment Program (“UP”) is not reaching its
                                             full potential to help homeowners who become unemployed at any of those
                                             three stages. More than 5 million homeowners have been rejected for a trial
                                             modification under HAMP compared to just over 2 million who have entered
                                             into a HAMP trial modification. Of the more than 2 million homeowners who
                                             started a HAMP trial modification, approximately 800,000 did not convert
                                             to a permanent modification. Additionally, SIGTARP has reported many times
                                             on the high rates of redefault by homeowners who managed to get a HAMP
                                             permanent modification, only to later fall out of HAMP. Treasury specifically
                                             contemplated that unemployment could pose challenges to homeowners
                                             applying for or already in HAMP, and they specifically designed a TARP
                                             program to address that challenge.

                                             Treasury created UP to help unemployed homeowners hold onto their
                                             homes while they seek a HAMP mortgage modification. Under UP, mortgage
                                             servicers can reduce or postpone unemployed homeowners’ mortgage
                                             payments – called “forbearance.” To date, the average reduction in
                                             homeowner monthly payments has been $742.206 When Treasury first rolled
                                             out HAMP, it made the forbearance period 3-6 months. Given the length
                                             of unemployment faced by homeowners, earlier in the program, SIGTARP
                                             recommended that Treasury lengthen the UP forbearance period to one year,
                                             which Treasury eventually did.207

                                             Unfortunately, since its launch in July 2010, only 41,213 homeowners have
                                             started an UP forbearance plan, while nearly 100,000 homeowners have
                                             been rejected for UP relief.208 Only half of the homeowners in UP (21,912)
                                             completed their UP forbearance plan successfully, while almost 15,000
                                             homeowners fell out of UP.209 Only about 15% of homeowners who started an
                                             UP plan went on to receive a HAMP modification.210 About 4,000 homeowners
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   137




are currently in the program.211 Although used in all 50 states and in some
U.S. territories, about half of all UP forbearance has gone to five states:
California, Florida, Illinois, Texas and Pennsylvania.212


A Potential Bridge to Other Assistance and Forbearance
Programs
UP is a potentially valuable, but underutilized, tool for Treasury to use to help
struggling homeowners bridge to a HAMP mortgage modification. UP can
also help homeowners who become unemployed while in HAMP and lose good
standing. However, only 2,576 of the homeowners who sought UP assistance
had previously been in a HAMP modification.213 One explanation for UP’s
underutilization may be that servicer participation in UP is voluntary: there is
no TARP funding for UP, and HAMP servicers are not paid for participating.
Given the continuing high rate of national unemployment and demand for
HAMP modifications, UP seems to be only skimming the surface of help
needed by struggling homeowners. UP presents an opportunity for Treasury
to push servicers to get more help to homeowners through UP, which could
translate to more homeowners getting into HAMP and staying in HAMP.
138           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        HAMP
                                                        According to Treasury, HAMP was intended “to help as many as three to four
                                                        million financially struggling homeowners avoid foreclosure by modifying loans to
                                                        a level that is affordable for borrowers now and sustainable over the long term.”214
                                                        Although HAMP contains several subprograms, the term “HAMP” is most often
                                                        used to refer to the HAMP First-Lien Modification Program, described below.

                                                        HAMP First-Lien Modification Program
                                                        The HAMP First-Lien Modification Program, which went into effect on April
      Trial Modification: Under HAMP, a                 6, 2009, modifies the terms of first-lien mortgages to provide homeowners with
      period of at least three months in                lower monthly payments. A HAMP modification consists of two phases: a trial
      which a borrower is given a chance                modification that was designed to last three months, followed by a permanent
      to establish that he or she can make              modification. Treasury pays incentives for active TARP (non-GSE) HAMP
      lower monthly mortgage payments and               permanent modifications for five years.215 In designing HAMP, the Administration
      qualify for a permanent modification.             envisioned a “shared partnership” between the Government and investors to bring
                                                        distressed homeowners’ first lien monthly payments down to an “affordable and
                                                        sustainable” level.216 The program description immediately below refers only to the
                                                        original HAMP program, which was renamed “HAMP Tier 1,” after the launch of
      For additional information about what
      happens to HAMP permanent modi-
                                                        HAMP Tier 2.
      fications after five years, please see
      the discussion, “Payment Increases on             HAMP Modification Statistics
      HAMP-Modified Mortgages to Begin                  As of September 30, 2014, a total of 899,673 mortgages were in active HAMP
      in 2014,” in this section.                        Tier 1 (“HAMP”) permanent modifications under both TARP (non-GSE) and GSE
                                                        HAMP. Some 24,783 were in active trial modifications. As of September 30, 2014,
                                                        for homeowners receiving permanent modifications, 96% received an interest rate
                                                        reduction, 64.7% received a term extension, 34.9% received principal forbearance,
                                                        and 16.4% received principal forgiveness.217 Table 4.7 shows HAMP modification
                                                        activity, broken out by TARP and GSE loans. For more detail on redefaulted
                                                        modifications over the life of HAMP, see Table 4.10 and Figure 4.3. For more
                                                        detail on HAMP modification activity, broken out by TARP and GSE loans, see
                                                        Table F.1 in Appendix F.
                                     TABLE 4.7
                                      CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 9/30/2014
                                                                                                              Trials
                                                       Trials           Trials             Trials      Converted to        Permanents          Permanents       Permanents
                                                     Started        Cancelled             Active        Permanent          Redefaulted            Paid Off          Active
                                      TARP        1,081,488           352,972            16,398              712,118             227,837                9,716      474,565
                                      GSE         1,071,206           429,417              8,385             633,404             182,815              25,481       425,108
                                      Total      2,152,694           782,389            24,783            1,345,522             410,652              35,197       899,673
                                      Source: Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September 2014,” accessed 10/21/2014.
                                                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   139




   During the most recent quarter 17,753 homeowners started new trials and
19,536 homeowners were able to convert their trials to permanent modifications.
As 18,151 homeowners re-defaulted in HAMP and another 4,943 paid off their
modified loan, the number of active HAMP permanent modifications decreased by
3,558.218
   As shown in Figure 4.2, which shows TARP and GSE HAMP permanent
modifications started, by quarter, the number of new HAMP modifications
continues to decline quarter over quarter.

FIGURE 4.2

HAMP TIER 1 PERMANENT MODIFICATIONS STARTED, BY QUARTER, 2009-2014
180,000

160,000

140,000

120,000

100,000
                                                                                                19,536 HAMP permanent
 80,000                                                                                         modifications were started in
                                                                                                the quarter ended 9/30/2014.
 60,000

 40,000

 20,000

     0
           Q1   Q2   Q3   Q4   Q1   Q2   Q3   Q4   Q1    Q2      Q3   Q4   Q1   Q2   Q3   Q4   Q1   Q2   Q3   Q4   Q1   Q2     Q3
                  2009                2010                2011                   2012                2013               2014

          Note: Includes TARP and GSE permanent modifications.

          Sources: Treasury, “Making Home Affordable Program Performance Report,” 1/19/2010, 4/20/2010, 7/19/2010,
          10/25/2010, 1/31/2011, 5/6/2011, 8/5/2011, 11/3/2011, 2/6/2012, 5/4/2012, 8/3/2012, 11/9/2012, 2/8/2013,
          5/10/2013, 8/9/2013, and 11/8/2013; Treasury, responses to SIGTARP data calls, 2/28/2013, 1/23/2014,
          1/24/2014, and 7/24/2014; Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September
          2014,” accessed 10/21/2014; Fannie Mae, responses to SIGTARP data calls, 1/23/2014, 4/24/2014, and 7/24/2014.


   During this quarter there were 2,235 fewer loans modified under HAMP than
the previous quarter and 147,684 fewer than the second quarter of 2010, the
quarter when the most HAMP permanent modifications were started.219

Payment Increases on HAMP–Modified Mortgages to Begin in 2014
Most homeowners who received HAMP permanent mortgage modifications saw
the interest rates on their loans cut in order to reduce their monthly payments and
make their mortgages more affordable and sustainable over the long term.220 Those
that received modifications in 2009 will see their interest rates rise and monthly
mortgage payments go up this year, and continue to increase for up to another
three years. Some homeowners may eventually see their monthly payment increase
by as much as $1,724 per month.221
    Homeowners that received HAMP permanent mortgage modifications had
their monthly mortgage payments reduced to 31% of their gross monthly income
through a series of steps including extending the term of the mortgage, reducing
140   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             the principal owed, or cutting the interest rate to as low as 2%.222 The terms of
                                             HAMP permanent modifications remain fixed for five years.223 However, after five
                                             years, a homeowner’s mortgage interest rate can increase if the modified interest
                                             rate had been reduced below where the national average rate was for a 30-year
                                             conforming fixed-rate mortgage on the date of the modification.224 The average
                                             interest rate over the last five years has generally been between 3.5% and 5.4%,
                                             and most modifications cut rates well below that benchmark.225 After five years, the
                                             interest rate on the modified loan can step up incrementally by up to 1% per year
                                             until it reaches that benchmark.226
                                                 Table 4.8 shows before-modification, after-modification, and after all
                                             modification increases, median interest rates, interest rate increases, payments, and
                                             payment increases for homeowners who face interest rate and payment increases
                                             on HAMP mortgage modifications, by year. For more detail, see Table F.2 in
                                             Appendix F.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014          141




TABLE 4.8
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES BY YEAR, AS OF
 8/31/2014
                                                Permanent                                                      Interest Ratea                    Monthly Paymenta
                                               Modifications
                                                        with
                         Total Active            Scheduled
   Year                   Permanent                Payment                                                                      Median                              Median
  Modified              Modifications             Increases               Modification Status                Median           Increase            Median          Increase
                                                                             Before Modification               6.50%                   —          $1,437                $—
    2009                         32,892                 30,746                 After Modification              2.00%                   —             $765                —
                                                                              After All Increases             4.94%              2.78%            $1,028               $245
                                                                             Before Modification               6.50%                   —          $1,451                 —
    2010                        299,007                278,304                 After Modification              2.00%                   —             $786                —
                                                                              After All Increases             4.98%              2.58%            $1,041               $239
                                                                             Before Modification               6.38%                   —          $1,438                 —
    2011                        229,546                204,322                 After Modification              2.00%                   —             $806                —
                                                                              After All Increases             4.60%              2.36%            $1,041               $219
                                                                             Before Modification               6.25%                   —          $1,425                 —
    2012                        153,272                124,244                 After Modification              2.00%                   —             $746                —
                                                                              After All Increases             3.66%              1.59%              $898               $140
                                                                             Before Modification               6.10%                   —          $1,356                 —
    2013                        126,999                104,847                 After Modification              2.00%                   —             $715                —
                                                                              After All Increases             3.81%              1.57%              $879               $149
                                                                             Before Modification               6.13%                   —          $1,285                 —
    2014                         59,204                 50,704                 After Modification              2.00%                   —             $709                —
                                                                              After All Increases             4.32%              2.29%              $899               $178
                                                                             Before Modification               6.38%                   —          $1,419                 —
  All Years                    900,920                793,167                  After Modification              2.00%                   —             $769                —
                                                                              After All Increases             4.48%              2.22%              $985               $197
 Notes:
 a
   Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 68,313 HAMP permanent modifications with incomplete records.

 Source: SIGTARP analysis of Treasury HAMP data.
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 As shown in Table 4.8, 793,167 of the 900,920 (88%) homeowners who had
                                             active HAMP Tier 1 permanent modifications as of August 31, 2014 are scheduled
                                             for these eventual interest rate and payment increases.227 That means just
                                             107,753 homeowners, or 12%, will not experience payment increases.228 Among
                                             homeowners scheduled to have mortgage interest rate and payment increases, the
                                             median interest rate for these loans was 6.38% before modification; the median
                                             monthly payment was $1,419.229 HAMP permanent modifications reduced the
                                             median interest rate for these homeowners’ loans to 2% and their median monthly
                                             payment to $769.230 The scheduled payment increases will cause their median
                                             interest rate to rise to 4.48% and their median payment to increase to $985.231
                                             Their median rate increase will be 2.22% and their median payment increase will
                                             be $197.232 Some homeowners could eventually see their mortgage interest rates
                                             increase to as much as 5.4%; for some, payments eventually could increase by
                                             $1,724 per month; and after all payment increases, the highest mortgage payment
                                             any homeowner would pay per month would be $8,274.233 (SIGTARP’s rate and
                                             payment analysis excludes 68,313 HAMP permanent modifications that are
                                             scheduled to adjust but for which records are incomplete.)

                                             Homeowners in All States Will Be Affected by Payment Increases
                                             Table 4.9 shows, as of August 31, 2014, all active HAMP permanent modifications
                                             with scheduled monthly mortgage payment increases, by state.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   143




TABLE 4.9
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
 AS OF 8/31/2014
                                                                     Percentage         Median
                                  Total Active Permanent    of Active Permanent       Payment            Maximum
                   Total Active        Modifications With     Modifications With      Increase            Payment
                    Permanent        Scheduled Payment      Scheduled Payment          After All   Increase After
 State            Modifications                 Increases               Increase    Increasesa      All Increasesa
 Alabama                 4,723                     3,569                    76%            $95              $928
 Alaska                    401                       324                    81%            177                809
 Arizona                32,834                    29,053                    88%            185              1,208
 Arkansas                1,837                     1,485                    81%              97               789
 California            235,252                  215,124                     91%            300              1,724
 Colorado               12,392                    10,772                    87%            171              1,094
 Connecticut            11,776                    10,384                    88%            191              1,237
 Delaware                2,633                     2,236                    85%            168                834
 Florida               113,565                    99,682                    88%            162              1,168
 Georgia                31,491                    26,341                    84%            133              1,061
 Guam                        7                         7                  100%               53               173
 Hawaii                  3,645                     3,353                    92%            358              1,230
 Idaho                   3,302                     2,800                    85%            158                894
 Illinois               46,168                    40,979                    89%            173              1,072
 Indiana                 8,005                     6,311                    79%              93             1,022
 Iowa                    1,960                     1,606                    82%              91               626
 Kansas                  2,024                     1,655                    82%            103              1,042
 Kentucky                3,178                     2,577                    81%              91               865
 Louisiana               4,796                     3,777                    79%            101                922
 Maine                   2,450                     2,156                    88%            142                709
 Maryland               28,402                    24,950                    88%            242              1,174
 Massachusetts          21,352                    19,357                    91%            232              1,064
 Michigan               25,316                    21,614                    85%            120              1,273
 Minnesota              13,293                    11,735                    88%            171              1,117
 Mississippi             2,887                     2,155                    75%              87               730
 Missouri                8,334                     6,694                    80%            104                878
 Montana                 1,015                       858                    85%            170              1,074
 Nebraska                1,121                       907                    81%              88               632
 Nevada                 19,096                    17,087                    89%            212              1,042
 New Hampshire           3,833                     3,369                    88%            180                806
 New Jersey             29,687                    26,956                    91%            235              1,100
 New Mexico              3,083                     2,559                    83%            140                913
 New York               48,682                    45,130                    93%            291              1,507
                                                                                          Continued on next page
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                 HAMP  TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
                 AS OF 8/31/2014 (CONTINUED)
                                                                                                                         Percentage                     Median
                                                                            Total Active Permanent              of Active Permanent                   Payment                Maximum
                                                       Total Active              Modifications With               Modifications With                  Increase                Payment
                                                        Permanent              Scheduled Payment                Scheduled Payment                      After All       Increase After
                 State                                Modifications                       Increases                         Increase                Increasesa          All Increasesa
                 North Carolina                                15,628                              12,945                              83%                  $114                 $1,060
                 North Dakota                                      136                                 110                             81%                    111                     560
                 Ohio                                          18,116                              15,079                              83%                     97                     886
                 Oklahoma                                        1,966                              1,531                              78%                     83                     784
                 Oregon                                        10,093                               9,031                              89%                    192                  1,052
                 Pennsylvania                                  18,645                              15,540                              83%                    129                     890
                 Puerto Rico                                     3,225                              3,013                              93%                     93                     982
                 Rhode Island                                    4,304                              3,876                              90%                    191                     905
                 South Carolina                                  7,999                              6,522                              82%                    116                  1,105
                 South Dakota                                      281                                 233                             83%                    122                     836
                 Tennessee                                       8,558                              6,718                              78%                     95                  1,075
                 Texas                                         23,791                              18,891                              79%                     96                  1,169
                 Utah                                            7,548                              6,559                              87%                    198                  1,023
                 Vermont                                           794                                 691                             87%                    149                     853
                 Virgin Islands                                        7                                  7                          100%                     183                     549
                 Virginia                                      20,833                              18,172                              87%                    227                  1,118
                 Washington                                    19,370                              17,363                              90%                    220                  1,155
                 District of Columbia                            1,532                              1,365                              89%                    258                  1,096
                 West Virginia                                   1,143                                 936                             82%                    121                     626
                 Wisconsin                                       8,020                              6,716                              84%                    123                     968
                 Wyoming                                           391                                 307                             79%                    160                     829
                 Total                                      900,920                             793,167                               88%                  $197                 $1,724
                 a
                     Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 68,313 HAMP permanent modifications with incomplete records.

                 Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            145




    As shown in Table 4.9 above, homeowners in four states account for more
than half of the HAMP permanent modifications scheduled for interest rate and
payment increases: California, Florida, New York, and Illinois.234 Homeowners
in 11 jurisdictions face mortgage payment increases that are more than the $197
national median: California, Hawaii, Maryland, Massachusetts, Nevada, New
Jersey, New York, Virginia, Utah, Washington, and Washington, DC.235 While 88%
of homeowners nationally with HAMP-modified mortgages face scheduled interest
rate and payment increases, that percentage is even higher in 17 jurisdictions:
Arizona, California, Connecticut, Guam, Hawaii, Illinois, Massachusetts,
Minnesota, Nevada, New Jersey, New York, Oregon, Puerto Rico, Rhode Island, the
Virgin Islands, Washington, and Washington, DC.236

Homeowners Who Have Redefaulted on HAMP Permanent
                                                      iv
Modifications or Are at Risk of Redefaulting
As of September 30, 2014, HAMP has helped more than 899,673 homeowners
avoid foreclosure through permanent mortgage modifications, but another 410,652
homeowners (or 31%) fell three months behind in payments and, thus, redefaulted
out of the program – often into a less advantageous private sector modification
or even worse, into foreclosure.237 This percentage (cumulative redefault rate)                                                            Cumulative Redefault Rate: The
includes all homeowners who received HAMP permanent modifications since                                                                    total number of HAMP permanent
the start of the program. As of September 30, 2014, taxpayers lost $1.4 billion in                                                         modifications that have redefaulted
TARP funds paid to servicers and investors as incentives for 227,837 homeowners                                                            (as of a specific date) divided by the
who received TARP (non-GSE) HAMP permanent modifications and later                                                                         total number of HAMP permanent
redefaulted.238 Also, 87,657 (10% of active HAMP permanent modifications) had                                                              modifications started (as of the same
missed one to two monthly mortgage payments and, thus, are at risk of redefaulting                                                         specific date).
out of the program.239
    The longer a homeowner remains in HAMP, the more likely he or she is to
redefault out of the program, with homeowners redefaulting on the oldest HAMP                                                               For more on homeowners who have
                                              v
permanent modifications at a rate of 52.4%. The likelihood of homeowners                                                                    redefaulted on HAMP permanent
redefaulting on their HAMP modifications increase as their modifications age.                                                               mortgages or are at risk of defaulting,
Nearly half of all homeowners who received a HAMP permanent modification                                                                    see SIGTARP’s July 2013 Quarterly
                                                                                                                                            Report, pages 161-184.
received it in 2009 and 2010.240 Homeowners who received HAMP permanent
modifications in 2009 redefaulted at rates ranging from 46.2% to 52.4%,
homeowners who received HAMP permanent modifications in 2010 redefaulted at
rates ranging from 37.7% to 44.9%.241
    Homeowners who redefaulted fell out of the HAMP program, and their HAMP
permanent modification was not sustainable. Once again, they risked losing
their homes and some may have lost their homes. Treasury reported that of the
homeowners with redefaulted loans reported by twenty servicers that participated
in a survey, as of August 31, 2014, the latest data provided by Treasury, 23% of
homeowners moved into the foreclosure process, 11% of homeowners lost their
home via a short sale or deed-in-lieu of foreclosure, and 26% of homeowners


iv In this section, “HAMP” refers to the original HAMP First-Lien Modification Program, which Treasury later named HAMP Tier 1.
v Treasury’s calculation of redefault rates may exclude some modifications due to missing or invalid data.
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             who redefaulted received an alternative modification, usually a private sector
                                             modification.242
                                                Table 4.10 shows the number homeowners that received HAMP modifications
                                             and the number and percentage of homeowners who have redefaulted by year for
                                             GSE and non-GSE loans.

                                             TABLE 4.10
                                              HAMP TIER 1 PERMANENT MODIFICATION REDEFAULT ACTIVITY, AS OF
                                              9/30/2014
                                                                              Permanents Started                         Permanents Redefaulted
                                                                Year
                                                             Modified                                                                            Redefault Rate
                                                                                Annual      Cumulative             Annual      Cumulative           Cumulative
                                                               2009             23,633            23,633                129              129                       1%
                                                               2010            243,262          266,895            29,015            29,144                    11%
                                                               2011            185,254          452,149            59,080            88,224                    20%
                                              TARP             2012            114,745          566,894            58,860           147,084                    26%
                                                               2013             98,423          665,317            49,413           196,497                    30%
                                                               2014             46,801          712,118            31,340           227,837                    32%
                                                               Total          712,118                   —        227,837                   —
                                                               2009             43,305            43,305                339              339                       1%
                                                               2010            269,450          312,755            27,730            28,069                        9%
                                                               2011            168,423          481,178            51,287            79,356                    16%
                                              GSE              2012             87,280          568,458            49,229           128,585                    23%
                                                               2013             43,497          611,955            33,990           162,575                    27%
                                                               2014             21,449          633,404            20,240           182,815                    29%
                                                               Total          633,404                   —        182,815                   —
                                                               2009             66,938            66,938                468              468                       1%
                                                               2010            512,712          579,650            56,745            57,213                    10%
                                                               2011            353,677          933,327           110,367           167,580                    18%
                                              Total            2012            202,025        1,135,352           108,089           275,669                    24%
                                                               2013            141,920        1,277,272            83,403           359,072                    28%
                                                               2014             68,250        1,345,522            51,580           410,652                    31%
                                                               Total       1,345,522                    —        410,652                   —
                                              Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; December 31, 2013
                                              and September 30, 2014.

                                              Sources : Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013,
                                              10/23/2013, 1/23/2014, and 1/24/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013 and 1/23/2014; Treasury,
                                              “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September 2014,” accessed 10/21/2014; SIGTARP Quarterly
                                              Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress,
                                              1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   147




   As shown in Table 4.10, 31% of all homeowners that received HAMP
modifications subsequently redefaulted, this is up from 30% in the previous
quarter. During this quarter 18,151 homeowners redefaulted on their HAMP
modification, bringing the total to 410,652.243
   Figure 4.3 provides detail on the status (active and redefaulted) over time of
homeowners’ HAMP permanent modifications by the year they originated.

FIGURE 4.3

ACTIVE AND REDEFAULTED HAMP MODIFICATIONS BY YEAR OF MODIFICATION,
AS OF 9/30/2014
600,000


500,000


400,000


300,000


200,000


100,000


     0
                 2009               2010                2011               2012   2013   2014


             Modifications Redefaulted
             Modifications Active

          Source: Fannie Mae, response to SIGTARP data call, 10/22/2014.


   As illustrated in Figure 4.3, over time the rate at which homeowners redefault
on their HAMP modifications increase. More than 40% of the homeowners that
obtained permanent modifications in 2009 and 2010 have since redefaulted,
compared to only 9% of the homeowners that received HAMP modifications in
2013 and 2014.244
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Servicer Redefault Rates
                                             As of September 30, 2014, of 1,231,165 homeowners’ HAMP permanent
                                             modifications currently serviced by 10 of the largest servicers, 356,676, or 29%,
                                             subsequently redefaulted. Table 4.11 provides data on homeowners’ HAMP
                                             permanent modifications by servicers participating in HAMP and currently
                                             servicing the modifications listed.

                                             TABLE 4.11
                                              HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS AND REDEFAULTS
                                              CURRENTLY WITHIN SERVICERS’ PORTFOLIOS, BY SERVICER, AS OF
                                              9/30/2014
                                                                                                                                                              Percentage
                                                                                                                               Permanent                    of Permanent
                                                                                                  Permanent                  Modifications                  Modifications
                                                                                                 Modifications                Redefaulted                    Redefaulted
                                              Ocwen Loan Servicing, LLCa                                 284,450                       92,019                             32%
                                              Wells Fargo Bank, N.A.b                                    199,784                       51,742                             26%
                                              JPMorgan Chase Bank, N.A.           c
                                                                                                         187,741                       44,784                             24%
                                              Nationstar Mortgage LLC                                    142,927                       38,883                             27%
                                              Bank of America, N.A.d                                     105,478                       33,890                             32%
                                              Select Portfolio Servicing, Inc.                             82,207                      33,525                             41%
                                              Seterus Incorporated                                         63,051                      20,368                             32%
                                              Green Tree Servicing LLC                                     84,825                      19,023                             22%
                                              CitiMortgage Inc                                             58,301                      15,830                             27%
                                              U.S. Bank National Association                               22,401                       6,612                             30%
                                              Other                                                      185,540                       62,725                             34%
                                              Total                                                  1,416,705                      419,401                              30%
                                              Notes: HAMP include HAMP Tier 1 and Tier 2 modifications, including those that received assistance under the Home Price Decline
                                              Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs. Includes both TARP and GSE modifications. Includes
                                              modifications listed by the current servicer of the loan.
                                              a
                                                Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                                              b
                                                Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                                              c
                                                JPMorgan Chase Bank, N.A. includes EMC Mortgage Corporation.
                                              d
                                                Bank of America includes the former BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.

                                              Source: Treasury, “HAMP 1MP: Program Volumes - Combined Tier 1/Tier 2: Top 25 HAMP Servicers – September 2014,” accessed
                                              10/21/2014.



                                                As shown in Table 4.11, four servicers account for more than half of these
                                             homeowners’ HAMP permanent modifications that redefaulted: Ocwen Loan
                                             Servicing, LLC, with 92,019 homeowners’ permanent modifications redefaulted;
                                             Wells Fargo Bank, N.A., with 51,742 homeowners’ permanent modifications
                                             redefaulted, JPMorgan Chase Bank, NA, with 44,784 homeowners’ permanent
                                             modifications redefaulted and Nationstar Mortgage LLC with 38,883 homeowners’
                                             permanent modifications redefaulted.245 Of these 10 servicers participating in
                                             HAMP, the three servicers with the highest percentage of homeowners’ HAMP
                                             permanent modifications made that redefaulted were Select Portfolio Servicing,
                                             Inc. with 40.8% of homeowners’ permanent modifications redefaulted; Ocwen
                                             Loan Servicing, LLC, with 32.3% of homeowners’ permanent modifications
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   149




redefaulted; and Seterus Incorporated, with 32.3% of homeowners’ permanent
modifications redefaulted, as compared with the average for the 10 of 29%.246

Redefaults: Impact on Taxpayers Funding TARP
Taxpayers have lost about $1.4 billion in TARP funds paid to servicers and investors
as incentives for 227,837 homeowners’ non-GSE, HAMP (Tier 1) permanent
mortgage modifications that redefaulted.247 As of September 30, 2014, Treasury
has distributed $7.4 billion in TARP funds for 712,118 homeowners’ non-GSE,
HAMP (Tier 1) permanent modifications.248 According to Treasury, $4.1 billion
of that was designated for investor incentives, $2.0 billion for servicer incentives,
and $1.3 billion for homeowner incentives.249 (Homeowner incentives are paid to
servicers that, in turn, apply the payment to a homeowner’s mortgage). According
to Treasury, 19% of those funds were paid for incentives on homeowners’ HAMP
permanent modifications that later redefaulted.250
    Table 4.12 shows payments for homeowners’ HAMP permanent modifications
(active, redefaulted, and paid off mortgages) that are currently within servicers’
portfolios.
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




             TABLE 4.12
              TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS CURRENTLY WITHIN
              SERVICERS’ PORTFOLIOS, AS OF 9/30/2014
                                                                                                                           TARP                                         Percentage of Total
                                                         TARP Incentive                TARP Incentive                  Incentive                 Total TARP                 TARP Incentive
                                                          Payments for                  Payments for               Payments for                    Incentive                 Payments for
                                                           Permanents                    Permanents                 Permanents                Payments for                     Permanents
              Servicer Name                                      Active                  Redefaulted                    Paid Off             Permanents All                    Redefaulted 
              Ocwen Loan Servicing,
                                                         $1,753,536,188                  $450,157,760               $20,822,469              $2,224,516,417                                    20%
              LLCa
              Select Portfolio Servicing,
                                                             395,498,509                  190,447,274                   4,402,233                 590,348,016                                  32%
              Inc.
              Wells Fargo Bank, N.A.d                     1,002,499,128                   178,903,934                 16,863,284               1,198,266,346                                   15%
              JPMorgan Chase Bank,
                                                          1,033,106,756                   138,640,606                 12,277,090               1,184,024,452                                   12%
              NAb
              Bank of America, N.A.c                         558,990,342                    99,587,348                  9,140,849                 667,718,539                                  15%
              Nationstar Mortgage LLCe                       438,924,922                    94,786,446                  5,025,247                 538,736,615                                  18%
              CitiMortgage Inc                               208,363,187                    41,303,637                  5,421,511                 255,088,335                                  16%
              Specialized Loan Servicing
                                                               54,922,524                   30,512,720                     855,705                 86,290,949                                  35%
              LLC
              Bayview Loan Servicing
                                                               96,585,864                   23,736,854                  2,108,106                 122,430,824                                  19%
              LLC
              Carrington Mortgage
                                                               49,915,350                   19,762,912                     889,968                 70,568,230                                  28%
              Services, LLC.
              Other                                          363,401,666                  122,367,333                 14,595,676                  500,364,676                                  24%
              Grand Total                              $5,955,744,438               $1,390,206,822                 $92,402,139             $7,438,353,399                                      19%
              Notes: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan.
              The incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used.
              Totals shown here exclude payments and/or drafts performed for modifications that are not currently Permanent Modifications. Totals shown here include payments under the
              HAMP Tier 1, Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.
              a
                Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
              b
                JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
              c
                Bank of America N.A. includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
              d
                Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
              e
                Nationstar Mortgage LLC includes MorEquity, Inc and the former Aurora Loan Services LLC.

              Source: Treasury, response to SIGTARP data call, 10/10/2014.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   151




    As shown in Table 4.12, more than half of TARP funds that Treasury spent for
HAMP permanent modifications that redefaulted were for mortgages currently
serviced by three servicers, Ocwen Loan Servicing, LLC, Wells Fargo Bank, N.A.,
                                                                vi
and Select Portfolio Servicing, Inc. (listed in Table 4.12).251, Almost all (91%) of
TARP funds Treasury spent for HAMP permanent modifications that redefaulted
were for mortgages currently serviced by 10 servicers (listed in Table 4.12).252

Redefaults: Impact on States
Homeowners are redefaulting throughout the nation. In most states at least 30%
of homeowners in the HAMP program have redefaulted on their modifications.253
Tables 4.13 – 4.19 and Figure 4.4 show regional and state breakdowns of the
number of homeowners with HAMP permanent modifications, the number
of homeowners with active permanent modifications, the number who have
redefaulted on modifications, and the redefault rates.




vi Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
  by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
  transfers are not taken into account when the current servicer on the loan is used.
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 4.13
                                              REDEFAULTED HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS, BY
                                              REGION, CUMULATIVE AS OF 9/30/2014
                                                                                    Permanent                         Active                Redefaulted
                                                                                   Modifications               Modifications               Modifications           Redefault Rate
                                              West                                         366,506                   268,378                         89,569                    24%
                                              Mountain West/Plains                              72,883                   47,167                      22,762                    31%
                                              Southwest/South Central                      109,089                       68,064                      37,080                    34%
                                              Midwest                                      209,590                   132,038                         71,663                    34%
                                              Mid-Atlantic/Northeast                       300,614                   196,028                         97,541                    32%
                                              Southeast                                    286,840                   187,998                         92,037                    32%
                                              Total                                    1,345,522                    899,673                      410,652                       31%
                                              Notes: Includes GSE and non-GSE modifications. Of HAMP permanent modifications, 35,197 loans have been paid off.

                                              Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed 10/23/2014.


                                             FIGURE 4.4
                                             REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
                                             AS OF 9/30/2014

                                                  AK
                                                                                      MOUNTAIN WEST/
                                                                                          PLAINS
                                                                                          22,762                                      MIDWEST                           MID-ATLANTIC/
                                                                         WA                                                            71,663                            NORTHEAST
                                                                                                                                                             VT    ME
                                                                                           MT        ND                                                                    97,541
                                                                    OR                                              MN                                                 NH
                                                                                                                               WI                           NY
                                                  WEST                           ID                      SD                                                             MA
                                                                                                                                       MI
                                                 89,569
                                                                                           WY
                                                                                                                     IA                                               CT RI
                                                                                                                                            OH         PA            NJ
                                                                                                         NE
                                                                           NV                                                   IL    IN                            DE
                                                                   CA                 UT                                                             WV VA        MD
                                                                                                CO                   MO
                                                                                                              KS                           KY                    DC
                                                            HI                                                                                        NC
                                                                                                                                      TN
                                                                                  AZ                           OK        AR                           SC
                                                                                                NM
                                                  GU                                                                                MS AL       GA           SOUTHEAST
                                                                                                          TX              LA                                   92,037

                                                                                                                                                      FL           PR    VI
                                                                                  SOUTHWEST/
                                                                                 SOUTH CENTRAL
                                                                                     37,080

                                                             WEST                                                              MIDWEST
                                                             MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                                                             SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014               153




West
TABLE 4.14
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                   Permanent                        Active                Redefaulted
                                                                  Modifications              Modifications               Modifications           Redefault Rate
                                       WA
                                                     AK                        642                         401                         192                   30%
            AK                                       CA                  317,370                     234,867                      75,469                     24%
                                    OR
                                                     GU                          10                           7                           2                  20%
                                                     HI                      5,090                      3,661                       1,259                    25%
                                                     OR                    14,792                     10,077                        4,195                    28%
                  GU                                 WA                    28,602                     19,365                        8,452                    30%
                                  CA
                                                     Total              366,506                     268,378                       89,569                     24%
                                                     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
                   HI
                                                     Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                     10/23/2014.

       WEST                            >27%
       Percentage of Redefaults        25-27%
       on HAMP Permanent               <25%
       Modifications



Mountain West/Plains
TABLE 4.15
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                   Permanent                        Active                Redefaulted
                                                                  Modifications              Modifications               Modifications           Redefault Rate
                        MT             ND
                                                     CO                    18,005                     12,349                        4,642                    26%

             ID                        SD            ID                      4,954                      3,287                       1,471                    30%
                         WY                          KS                      3,383                      2,016                       1,207                    36%
                                       NE            MT                      1,505                      1,011                          400                   27%
       NV
                  UT                                 ND                        220                         134                           63                  29%
                             CO
                                            KS
                                                     NE                      1,959                      1,117                          723                   37%
                                                     NV                    30,376                     19,074                      10,668                     35%
     MOUNTAIN WEST/                         >27%
                                                     SD                        491                         279                         163                   33%
                                            25-27%
     PLAINS                                 <25%
     Percentage of Redefaults on                     UT                    11,338                       7,506                       3,227                    28%
     HAMP Permanent Modifications
                                                     WY                        652                         394                         198                   30%
                                                     Total                72,883                      47,167                      22,762                     31%
                                                     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                     Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                     10/23/2014.
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       Southwest/South Central
       TABLE 4.16
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                               Permanent                        Active                Redefaulted
                                                                              Modifications              Modifications               Modifications           Redefault Rate

             AZ                               OK                 AR                      3,133                      1,850                       1,136                    36%
                       NM                                  AR
                                                                 AZ                    51,548                     32,670                      17,209                     33%
                                                           LA    LA                      8,309                      4,797                       3,251                    39%
                                         TX
                                                                 NM                      4,662                      3,075                       1,434                    31%
                                                                 OK                      3,411                      1,961                       1,279                    37%
                                                                 TX                    38,026                     23,711                      12,771                     34%
              SOUTHWEST/                                >27%     Total              109,089                       68,064                      37,080                     34%
                                                        25-27%
              SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
              Percentage of Redefaults
              on HAMP Permanent                                  Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                                 10/23/2014.
              Modifications



       Midwest
       TABLE 4.17
        REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                               Permanent                        Active                Redefaulted
                                                                              Modifications              Modifications               Modifications           Redefault Rate
                                                                 IA                      3,453                      1,945                       1,316                    38%
                     MN
                               WI                                IL                    71,528                     46,093                      24,221                     34%
                                              MI                 IN                    13,233                       7,989                       4,781                    36%
                       IA
                                                                 KY                      5,351                      3,171                       1,964                    37%
                                    IL   IN        OH
                                                                 MI                    38,717                     25,250                      12,136                     31%
                          MO
                                               KY                MN                    20,879                     13,233                        6,930                    33%
                                                                 MO                    14,146                       8,284                       5,363                    38%
               MIDWEST                              >27%
                                                                 OH                    28,908                     18,085                      10,014                     35%
               Percentage of Redefaults             25-27%
               on HAMP Permanent                    <25%         WI                    13,375                       7,988                       4,938                    37%
               Modifications
                                                                 Total              209,590                     132,038                       71,663                     34%
                                                                 Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                                 Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                                 10/23/2014.
                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014               155




Mid-Atlantic/Northeast
TABLE 4.18
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                             VT    ME                   CT                    18,467                     11,777                        6,334                    34%

                                        NH              DC                      2,345                      1,532                          722                   31%
                        NY               MA             DE                      4,378                      2,633                       1,650                    38%
                                              RI
                                   CT
                   PA             NJ                    MA                    32,686                     21,278                      10,478                     32%
                                 DE                     MD                    43,818                     28,380                      14,467                     33%
             WV VA
             WV                MD
                              DC                        ME                      4,082                      2,458                       1,477                    36%
                                                        NH                      6,218                      3,820                       2,171                    35%
                                                        NJ                    47,474                     29,747                      16,823                     35%
       MID-ATLANTIC/                      >27%
                                          25-27%        NY                    69,611                     48,780                      19,610                     28%
       NORTHEAST                          <25%
       Percentage of                                    PA                    30,748                     18,628                      11,283                     37%
       Redefaults on HAMP
       Permanent Modifications                          RI                      6,763                      4,302                       2,315                    34%
                                                        VA                    30,908                     20,762                        9,159                    30%
                                                        VT                      1,243                         792                         391                   31%
                                                        WV                      1,873                      1,139                          661                   35%
                                                        Total              300,614                     196,028                       97,541                     32%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                        10/23/2014.



Southeast
TABLE 4.19
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 9/30/2014
                                                                      Permanent                        Active                Redefaulted
                                                                     Modifications              Modifications               Modifications           Redefault Rate
                                  NC                    AL                      8,206                      4,705                       3,213                    39%
             TN
                              SC                        FL                  166,598                     113,629                      49,724                     30%
        MS    AL        GA                              GA                    49,255                     31,438                      16,649                     34%
                                              PR
                                                        MS                      5,191                      2,870                       2,164                    42%
                                                   VI
                                                        NC                    25,553                     15,603                        9,053                    35%
                                  FL
                                                        PR                      4,240                      3,261                          896                   21%
                                                        SC                    13,005                       7,967                       4,610                    35%
       SOUTHEAST                         >27%
       Percentage of                     25-27%         TN                    14,785                       8,518                       5,728                    39%
       Redefaults on HAMP                <25%
                                                        VI                            7                          7                          —                    0%
       Permanent Modifications
                                                        Total              286,840                     187,998                       92,037                     32%
                                                        Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                        Source: Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed
                                                        10/23/2014.
156           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         As shown in the preceding tables, only 24% of homeowners in the West Coast
                                                     have redefaulted in HAMP, this relatively low redefault rate is driven primarily
                                                     by California, where only 24% of homeowners have redefaulted (only Guam,
                                                     Puerto Rico, and the Virgin Islands have lower rates of redefault). Conversely,
                                                     homeowners in the Midwest and Deep South have fared the worst in HAMP. At
                                                     least 31% of participating homeowners in each Midwestern state have redefaulted
                                                     on their HAMP modification. In the Deep South, 42% of Mississippi homeowners
                                                     participating in HAMP have redefaulted, the highest redefault rate in the nation,
                                                     while 39% of homeowners in Louisiana, Alabama, and Tennessee have redefaulted.
                                                         California has the highest number of homeowners who redefaulted on HAMP
                                                     permanent modifications with 75,469, followed by Florida, Illinois, and New York
                                                     with 49,724, 24,221, and 19,610, respectively. Homeowners in each of these states
                                                     have redefaulted at rates lower than their regional average, but these states have
                                                     significantly more homeowners in HAMP modifications than any others.

                                                     Starting a HAMP Tier 1 Modification
                                                     Homeowners may request participation in HAMP.254 Homeowners who have
                                                     missed two or more payments must be solicited for participation by their
                                                     servicers.255 Before offering the homeowner a trial modification, also known as a
                                                     trial period plan (“TPP”), the servicer must verify the accuracy of the homeowner’s
                                                     income and other eligibility criteria. In order to verify the homeowner’s eligibility
                                                     for a modification under the program, homeowners must submit the following
                                                     documents as part of an “initial package.”256

                                                     •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
      For more information on the RMA                   servicer with the homeowner’s financial information, including the cause of the
      form and what constitutes hardship,               homeowner’s hardship;
      see SIGTARP’s April 2011 Quarterly             •	 signed and completed requests for Federal tax return transcripts or the most
      Report, page 62.
                                                        recent Federal income tax return, including all schedules and forms;
      For more information on the                    •	 income verification documentation, such as recent pay stubs or evidence of
      Verification Policy, see SIGTARP’s                other sources of income; and
      April 2011 Quarterly Report, page 63.          •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
                                                        document) that the homeowner has not been convicted in the past 10 years of
                                                        any of the following in connection with a mortgage or real estate transaction:
                                                        felony larceny, theft, fraud, or forgery; money laundering, or tax evasion.

                                                         In order for a loan to be eligible for a HAMP modification, the homeowner’s
                                                     initial package, consisting of the four documents described above, must be
                                                     submitted by the homeowner on or before December 31, 2015. Additionally, in
                                                     order to be eligible for incentive payments, the permanent modification must be
                                                     effective on or before September 2016.257
                                                         Participating servicers verify monthly gross income for the homeowner and the
                                                     homeowner’s household, as well as other eligibility criteria.258 Then, in the case of
                                                     HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                     by HAMP guidelines to calculate the reduction in the homeowner’s monthly
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            157




mortgage payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a
payment equal to 31% of his or her monthly gross income.259
    In the first step of that waterfall, the servicer capitalizes any unpaid interest and
fees (i.e., adds them to the outstanding principal balance). Second, the servicer
reduces the interest rate in incremental steps to as low as 2%. If the 31% DTI ratio
threshold still has not been reached, in the third step the servicer extends the term
of the mortgage to a maximum of 40 years from the modification date. If these
steps are still insufficient to reach the 31% threshold, the servicer may forbear
principal (defer its due date), subject to certain limits.260 The forbearance amount
is not interest bearing and results in a lump-sum payment due upon the earliest
of the sale date of the property, the payoff date of the interest-bearing mortgage
balance, or the maturity date of the mortgage.261
    Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the homeowner’s monthly payment to
achieve the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any
point in the HAMP waterfall described above, or as part of PRA.262
    After completing these modification calculations, all loans that meet HAMP
                                                                                                 Net Present Value (“NPV”) Test:
eligibility criteria and are either deemed generally to be in imminent default or
                                                                                                 Compares the money generated by
delinquent by two or more payments must be evaluated using a standardized net
                                                                                                 modifying the terms of the mortgage
present value (“NPV”) test that compares the NPV result for a modification to
                                                                                                 with the amount an investor can
the NPV result for no modification.263 The NPV test compares the expected cash
                                                                                                 reasonably expect to recover in a
flow from a modified loan with the expected cash flow from the same loan with
                                                                                                 foreclosure sale.
no modifications to determine which option will be more valuable to the mortgage
investor. A positive NPV test result indicates that a modified loan is more valuable
                                                                                                 Loan-to-Value (“LTV”) Ratio: Lending
to the investor than the existing loan. In that case, under HAMP rules, the servicer
                                                                                                 risk assessment ratio that mortgage
must offer the homeowner a mortgage modification. If the test generates a negative
                                                                                                 lenders examine before approving a
result, modification is optional.264 Servicers cannot refuse to evaluate a homeowner
                                                                                                 mortgage; calculated by dividing the
for a modification simply because the outstanding loan currently has a low loan-to-
                                                                                                 outstanding amount of the loan by
value (“LTV”) ratio, meaning the homeowner owes less than the value of the home.
                                                                                                 the value of the collateral backing the
The lower the LTV ratio is, the higher the probability that a foreclosure will be
                                                                                                 loan. Loans with high LTV ratios are
more profitable to an investor than a modification.
                                                                                                 generally seen as higher risk because
    Since September 1, 2011, most of the largest mortgage servicers participating
                                                                                                 the homeowner has less of an equity
in MHA have been required to assign a single point of contact to homeowners
                                                                                                 stake in the property.
potentially eligible for evaluation under HAMP, HAFA, or UP.265 The single point
of contact has the primary responsibility for communicating with the homeowner
about options to avoid foreclosure, his/her status in the process, coordination
                                                                                                 For more about the HAMP NPV test,
of receipt of documents, and coordination with other servicer personnel to
                                                                                                 see the June 18, 2012, SIGTARP
promote compliance with MHA timelines and requirements throughout the entire                     audit report “The NPV Test’s Impact
delinquency, imminent default resolution process, or foreclosure.266                             on HAMP.”

How HAMP Tier 1 First-Lien Modifications Work
Treasury intended that HAMP trial modifications would last three months.
Historically, many trial modifications have lasted longer. According to Treasury, as
of September 30, 2014, of a combined total of 24,783 active trials under both GSE
and TARP (non-GSE) HAMP, 4,263 (17%) had lasted more than six months.267
158           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Homeowners in trial modifications may qualify for conversion to a permanent
                                                     modification as long as they make the required modified payments on time and
                                                     provide proper documentation, including a signed modification agreement.268
                                                     The terms of permanent modifications under HAMP Tier 1 remain fixed for five
                                                     years.269 After five years, the loan’s interest rate can increase if the modified interest
                                                     rate had been reduced below the 30-year conforming fixed interest rate on the date
                                                     of the initial modification. The interest rate can rise incrementally by up to 1%
                                                     per year until it reaches that rate.270 Otherwise, the modified interest rate remains
                                                     permanent.
                                                         If the homeowner misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the homeowner is, in effect, left with the original
                                                     terms of the mortgage. The homeowner is responsible for the difference between
                                                     the original mortgage payment amount and the reduced trial payments that were
                                                     made during the trial. In addition, the homeowner may be liable for late fees that
                                                     were generated during the trial. In other words, a homeowner can be assessed late
                                                     fees for failing to make the original pre-modification scheduled payments during
                                                     the trial period, even though under the trial modification the homeowner is not
                                                     required to make these payments. Late fees are waived only for homeowners who
                                                     receive a permanent modification.271

                                                     What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                     Homeowner Rights
                                                     Treasury has issued guidance governing both the obligations of servicers and the
                                                     rights of homeowners in connection with the denial of loan modification requests.
                                                     Homeowners must receive a Non-Approval Notice if they are rejected for a HAMP
                                                     modification. A homeowner who is not approved for HAMP Tier 1 is automatically
                                                     considered for HAMP Tier 2. If the servicer offers the homeowner a HAMP Tier 2
                                                     trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
                                                     Approval Notice is sent only if the HAMP Tier 2 is not offered. Homeowners can
                                                     request reconsideration or re-evaluation if they believe one or more NPV analysis
                                                     inputs is incorrect or if they experience a change in circumstance. Servicers
                                                     are obligated to have written procedures and personnel in place to respond to
                                                     homeowner inquiries and disputes that constitute “escalated cases” in a timely
                                                     manner.272
                                                         Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be used
                                                     by homeowners prior to applying for a HAMP modification or after a denial of
      For more information on HAMP                   a HAMP modification. Homeowners can enter the NPV input values listed in
      servicer obligations and homeowner             the HAMP Non-Approval Notice received from their servicer, or substitute with
      rights, see SIGTARP’s April 2011               estimated NPV input values, to compare the estimated outcome provided by
      Quarterly Report, pages 67-76.
                                                     CheckMyNPV.com against that on the Non-Approval Notice.

                                                     Modification Incentives
                                                     For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                                     time flat $1,000 incentive payment to a sliding scale based on the length of time
                                                     the loan was delinquent as of the effective date of the TPP. For loans less than
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   159




or equal to 120 days delinquent, servicers receive $1,600.273 For loans 121-
210 days delinquent, servicers receive $1,200. For loans more than 210 days
delinquent, servicers receive only $400. Starting on March 1, 2014, each of these
incentive payments for servicers increased by $400.274 For homeowners whose
monthly mortgage payment was reduced through HAMP by 6% or more, servicers
also receive incentive payments of up to $1,000 annually for three years if the
homeowner remains in good standing (defined as less than three full monthly
payments delinquent).275
    For HAMP Tier 1, homeowners whose monthly mortgage payment is reduced
through HAMP by 6% or more and who make monthly payments on time earn
an annual principal reduction of up to $1,000.276 The principal reduction accrues
monthly and is payable for each of the first five years as long as the homeowner
remains in good standing.277 Under both HAMP Tier 1 and HAMP Tier 2, the
investor is entitled to five years of incentives that make up part of the difference
between the homeowner’s new monthly payment and the old one.
    As of September 30, 2014, of the $29.8 billion in TARP funds allocated to the
81 servicers participating in MHA, 91% was allocated to 10 servicers.278 Table 4.20
shows incentive payments made to these servicers.
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                    TABLE 4.20
                     TARP INCENTIVE PAYMENTS BY 10 SERVICERS, AS OF 9/30/2014
                                                                                         Incentive                    Incentive                  Incentive
                                                                                        Payments                     Payments                   Payments               Total Incentive
                                                       SPA Cap Limit                 to Borrowers                  to Investors               to Servicers                  Payments
                     Ocwen Loan
                                                     $6,449,003,040                 $361,632,249             $1,184,283,799                 $525,163,403             $2,071,079,451
                     Servicing, LLCa
                     JPMorgan Chase
                                                       3,308,473,562                 349,333,828                  970,007,469                 451,609,864              1,770,951,160
                     Bank, NAb
                     Bank of America,
                                                       7,006,911,111                 347,302,247                  732,027,727                 421,962,736              1,501,292,710
                     N.A.c
                     Wells Fargo Bank,
                                                       5,057,709,156                 299,165,366                  791,029,251                 403,052,731              1,493,247,348
                     N.A.d
                     CitiMortgage Inc                    880,029,481                   81,305,250                 272,839,921                 120,662,342                 474,807,513
                     Select Portfolio
                                                       1,382,303,176                 105,559,658                  217,829,881                 134,755,514                 458,145,053
                     Servicing, Inc.
                     Nationstar
                                                       1,290,730,226                   81,595,315                 222,110,725                 119,386,185                 423,092,225
                     Mortgage LLCe
                     OneWest Bank                      1,491,371,108                   62,987,761                 215,382,905                   87,380,184                365,750,850
                     Saxon Mortgage
                                                         100,807,086                   19,655,075                  41,738,413                   39,413,598                100,807,086
                     Services Inc
                     U.S. Bank National
                                                         180,713,453                   16,585,714                  36,992,858                   26,046,129                  79,624,702
                     Association
                     Total                       $27,148,051,398               $1,725,122,463              $4,684,242,949              $2,329,432,687               $8,738,798,098
                     Notes: Numbers may not total due to rounding. On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and
                     transferring the subservicing relationships to third-party servicers. The remaining SPA Cap Limit stated above represents the amount previously paid to Saxon Mortgage
                     Services, Inc. prior to ceasing servicing operations.
                     a
                       Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                     b
                       JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
                     c
                       Bank of America N.A. includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
                     d
                       Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                     e
                       Nationstar Mortgage LLC includes MorEquity, Inc and the former Aurora Loan Services LLC.

                     Source: Treasury, Transactions Report-Housing Programs, 9/29/2014.



                                                           As shown in Table 4.20, Ocwen Loan Servicing, LLC, received $2,071,079,451
                                                       in total incentive payments, the most of any servicer. The four largest HAMP
                                                       servicers (Ocwen Loan Servicing, LLC; JPMorgan Chase Bank, NA; Bank of
                                                       America, N.A.; and Wells Fargo Bank, N.A.) received 78% of all incentives paid
                                                       out. Only 17% of the incentives paid to Ocwen Loan Servicing, LLC went to
                                                       homeowners, least among the four largest servicers. Conversely, 23% of incentives
                                                       paid to Bank of America, N.A. went to homeowners, the highest among the four
                                                       largest servicers. Of the $8.7 billion in total incentives paid to all servicers, 20%
                                                       went to homeowners, 54% went to investors, and the remaining 27% went to the
                                                       servicers.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014       161




HAMP Tier 2
Effective June 1, 2012, HAMP Tier 2 expanded HAMP.279 As in HAMP Tier 1,
HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
modifications on mortgages of non-owner-occupied “rental” properties that are
tenant-occupied or vacant.280 Under the original HAMP (now HAMP Tier 1),
mortgage modifications for “rental” properties had been expressly excluded; HAMP
Tier 2 also allows homeowners with a wider range of debt-to-income situations to
receive modifications.281 Treasury’s stated policy objectives for HAMP Tier 2 are
that it “will provide critical relief to both renters and those who rent their homes,
while further stabilizing communities from the blight of vacant and foreclosed
properties.”282 A homeowner may have up to five loans with HAMP Tier 2
modifications, as well as a single HAMP Tier 1 modification on the mortgage for
his or her primary residence.283 If a homeowner loses “good standing” on a HAMP
Tier 1 modification and it has either been at least one year since the effective date
of that modification or there has been a “change in circumstance,” he or she is
eligible for a HAMP Tier 2 remodification.284 Approximately 8,081 of homeowners
in active HAMP Tier 2 permanent modifications were previously in HAMP Tier 1
permanent modifications.285
    According to Treasury, as of September 30, 2014, a total of 61 of the 81
servicers with active MHA servicer agreements had fully implemented HAMP Tier
2.286 The remaining 20 of those servicers will not implement HAMP Tier 2 because
they are in the process of terminating their servicer participation agreement, they
have gone out of business, their servicer participation agreement was signed to
participate only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding
down their non-GSE servicing operations.287 All 10 of the largest servicers have
reported that they had implemented HAMP Tier 2.288 According to Treasury, as of
September 30, 2014, it had paid $212.2 million in incentives in connection with              For SIGTARP’s recommendations for
                                                                                             the improvement of HAMP Tier 2,
71,183 HAMP Tier 2 permanent modifications, 61,975 of which remain active.289                see SIGTARP’s April 2012 Quarterly
    HAMP Tier 2 mortgage modification activity and property occupancy status is              Report, pages 185-189.
shown in Table 4.21.
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                              TABLE 4.21
                               HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS,
                               AS OF 9/30/2014
                                                                                                     Trials
                                                        Trials         Trials          Trials    Converted          Permanents         Permanents    Permanents
                               Property Type          Started      Cancelled          Active     Permanent          Disqualified          Paid-Off       Active
                               Borrower
                                                       88,313            5,817       15,728            66,768               8,240             426        58,102
                               Occupied
                               Tenant Occupied           5,035              325          774             3,936                 452             31         3,453
                               Vacant                      638               51          108               479                  57              2          420
                               Total                   93,986            6,193      16,610            71,183                8,749             459       61,975
                               Source: “Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.


                                                    As shown in Table 4.21, of the 93,986 HAMP Tier 2 trial mortgage
                                                modifications started, 88,313 (94%), were for owner-occupied properties;
                                                5,035 (6%), were for tenant-occupied properties, and 638 (1%) were for vacant
                                                properties.290 Of owner-occupied properties that received a HAMP Tier 2 trial
                                                modification, 15,728 trial modifications (18%) were active and 66,768 (76%) were
                                                converted to permanent modifications, of which 58,102 (87%) were active.291 Of
                                                owner-occupied properties that received a HAMP Tier 2 trial modification, 5,817
                                                (7%) were cancelled, and of those that received a permanent modification, 8,240
                                                (12%) redefaulted.292 Around 84% of tenant-occupied properties that received
                                                either a trial or permanent HAMP Tier 2 mortgage modification have remained
                                                active, as of September 30, 2014.293 Of vacant properties that received a HAMP
                                                Tier 2 trial modification, 108 (17%) were in active trial modifications, 420
                                                (66%) were in active permanent modifications, and 108 (17%) had their trial or
                                                permanent modification cancelled.294

                                                HAMP Tier 2 Eligibility
                                                HAMP Tier 2 expands the eligibility criteria related to a homeowner’s debt-to-
                                                income ratio and also allows modifications on loans secured by “rental” properties.
                                                Owner-occupied loans that are ineligible for a HAMP Tier 1 modification due to
                                                excessive forbearance or negative NPV also may be eligible for Tier 2. Vacant rental
                                                properties are permitted in the program, as are those occupied by legal dependents,
                                                parents, or grandparents, even if no rent is charged. The program is not, however,
                                                according to Treasury, intended for vacation homes, second homes, or properties
                                                that are rented only seasonally. Additionally, loans on rental properties must be at
                                                least two payments delinquent – those in imminent default are not eligible.295
                                                    However, Treasury does not require that the property be rented. Treasury
                                                requires only that a homeowner certify intent to rent the property to a tenant on a
                                                year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                                does not intend to use the property as a second residence for at least five years.296
                                                According to Treasury, servicers are not typically required to obtain third-party
                                                verifications of the homeowner’s rental property certification when evaluating a
                                                homeowner for HAMP.297
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   163




    To be considered for HAMP Tier 2, homeowners must satisfy several basic
HAMP requirements: the loan origination date must be on or before January
1, 2009; the homeowner must have a documented hardship; the property must
conform to the MHA definition of a “single-family residence” (1-4 dwelling units,
including condominiums, co-ops, and manufactured housing); the property must
not be condemned; and the loan must fall within HAMP’s unpaid principal balance
limitations.298 If a homeowner satisfies these requirements, and in addition, the
loan has never been previously modified under HAMP (except for the exceptions
discussed above), the servicer is required to solicit the homeowner for HAMP Tier
2. In certain other cases, the homeowner may still be eligible for HAMP Tier 2, but
the servicer is not required to solicit the homeowner.299

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates homeowners using an NPV test
that considers the value of the loan to the investor before and after a modification.
Owner-occupant homeowners are evaluated for both HAMP Tier 1 and Tier 2 in
a single process. If a homeowner is eligible for both modifications, he or she will
receive a HAMP Tier 1 modification.300
     As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) the modified principal and interest payment
under HAMP Tier 2 must not be greater than the premodification principal and
interest payment in effect at the time of HAMP Tier 2 consideration. The post-
modification DTI ratio range increased in February 2013 to not less than 10% or
greater than 55%. If the homeowner was previously in a HAMP Tier 1 modification
(either trial or permanent), then the new payment must be at least 10% below the
previously modified payment. Because HAMP Tier 2 does not target a specific
DTI ratio, the HAMP Tier 2 waterfall is not a series of incremental steps, but a
consistent set of actions that are applied to the loan. After these actions are applied,
if the result of the NPV test is positive and the modification also achieves the DTI
and payment reduction goals, the servicer must offer the homeowner a HAMP Tier
2 modification. If the result of the HAMP Tier 2 NPV test is negative, modification
is optional.301
     As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the 30-year conforming fixed interest
rate on the date of the initial modification. The third step extends the term of the
loan by up to 40 years from the modification effective date. Finally, if the loan’s
pre-modification mark-to-market LTV ratio is greater than 115%, the servicer
forbears principal in an amount equal to the lesser of (1) an amount that would
create a post-modification LTV ratio of 115%, or (2) an amount equal to 30% of
the post-modification principal balance. Unlike HAMP Tier 1, there is no excessive
forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also include
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             several exceptions to this waterfall to allow for investor restrictions on certain types
                                             of modifications.302
                                                 The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                             modification waterfall” in addition to the one described here. This waterfall uses
                                             principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                             reduction is optional. Servicers may also reduce principal on HAMP Tier 2
                                             modifications using PRA.303
                                                 HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
                                             exceptions, notably that HAMP Tier 2 modifications do not pay annual homeowner
                                             or servicer incentives.304

                                             MHA Outreach and Borrower Intake Project
                                             On February 14, 2013, Treasury entered into an agreement with the Neighborhood
                                             Reinvestment Corporation, also called NeighborWorks America (“NeighborWorks”),
                                             to launch a nationwide MHA initiative with housing counselors “in an effort to
                                             increase the number of homeowners that successfully request assistance under
                                             MHA.”305 NeighborWorks is a Congressionally chartered corporation that through
                                             a national network of non-profit organizations administers housing programs,
                                             including housing counseling.306 The initiative, called the MHA Outreach and
                                             Borrower Intake Project, will pay $450 to housing counseling agencies for each
                                             homeowner they worked with to submit complete applications for HAMP to
                                             servicers.307 Treasury allocated $18.3 million in TARP funds for the project.308 As
                                             of September 30, 2014, housing counselors have initiated HAMP application work
                                             for 12,491 homeowners, of whom 3,801 have had their completed applications
                                             submitted to an MHA servicer and accepted by that MHA servicer, whether or
                                             not the homeowner eventually receives a mortgage modification.309 According
                                             to Treasury, housing counseling agencies are due $1,710,450 for those accepted
                                             applications.310 NeighborWorks has, as of September 30, 2014, requested $6.5
                                             million in total funds, mostly for outreach, oversight, and administration, as well as
                                             for the counseling agency payments. Of the $6.5 million in total funds committed
                                             to this program only 23 percent of the committed funds are used for agency
                                             counseling payments. The remaining 77 percent are designated for administration,
                                             marketing and outreach.311
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014     165




TABLE 4.22                                                              FIGURE 4.5
 MHA OUTREACH AND BORROWER INTAKE                                       MHA OUTREACH AND
 PROJECT, AS OF 9/30/2014                                               BORROWER INTAKE PROJECT,
 Agency Counseling Fees                               $1,503,000        AS OF 9/30/2014
 Administrative Expenses
   Intermediary Oversight Fees                          $258,104
   Administration (NWA)                                1,330,844                                    23%
   Quality Control & Compliance                           209,545
                                                                                77%
   Technology Build                                       470,069
   Counselor Training                                     251,048
 Outreach Expenses
                                                                           Administration, Marketing, and
   Agency Outreach Fees                               $1,618,469           Outreach Fees
                                                                           Agency Counseling Fees
   Supplemental Outreach Fees                             493,513
                                                                        Note: Administrative Expenses includes
   Virtual Outreach Events                                     59,168   intermediary oversight fees, agency outreach
                                                                        fees, supplemental outreach fees, administration
                                                                        (nwa), quality control & compliance, technology
   Traditional Outreach Events                            269,283       build, and counselor training.
 Total Expenses                                     $6,463,043          Source: Treasury, response to SIGTARP data call,
                                                                        10/6/2014.
 Source: Treasury, Response to SIGTARP Data Call, 10/6/2014.



Additional TARP-Funded MHA Housing Support Programs
From April 2009 until September 2010, Treasury announced a number of
additional MHA support programs for homeowners with non-GSE mortgages.
TARP funds have been allocated to most but not all of these additional programs.
Three of these programs fall under the umbrella of the HAMP program: the Home
Price Decline Protection (“HPDP”) program, the Home Affordable Unemployment
Program (“UP”), and the Principal Reduction Alternative (“PRA”). The remaining
                                                                                                                                 For more information on these
additional MHA programs include collaborations with other Federal agencies,                                                      additional housing programs, see
programs that aim to extinguish homeowners’ second mortgages (second liens), and                                                 SIGTARP’s October 2013 Quarterly
programs that offer alternatives to foreclosure. Table 4.23 provides more detail on                                              Report, pages 93-99.
these programs.
166             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



TABLE 4.23
 ADDITIONAL MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS, AS OF 9/30/2014
                                                                                                Homeowners Assistedm         Estimated
                                                                             Estimated Number                                      TARP              TARP
                         Date           Date                              of Homeowners to be Permanents Permanents          Allocation     Expenditures
 Program            Announced        Started   Purpose                                 Assisted   Started      Active      (In Billions)a     (In Billions)
                                            To provide incentives
 Principal                                  to investors to
 Reduction                                  modify homeowners’
                      6/3/2010    10/1/2010                                                    —     161,440c   129,489c          $2.00               $1.0
 Alternative                                mortgages under HAMP
 (“PRA”)b                                   by reducing the principal
                                            amount owed.
                                            To provide additional
                                            TARP-funded incentives
 Home Price                                 to investors to modify
 Decline                                    mortgages through
                     7/31/2009     9/1/2009                                                    —     218,933c   145,406c           1.55               0.37
 Protection                                 HAMP by partially
 (“HPDP”)b                                  offsetting possible
                                            losses from home price
                                            declines.
                                               To temporarily -- fully
 Home
                                               or partially -- suspend
 Affordable
                    3/26/2010d    7/1/2010e    mortgage payments                               —      41,213      4,342f            —g                 —g
 Unemployment
                                               for unemployed
 Program (“UP”)b
                                               homeowners.
                                               To provide TARP-
                                               funded incentives to
                                               servicers, investors,
 Home
                                               and homeowners to
 Affordable
                                               complete short sales
 Foreclosure       11/30/2009     4/5/2010h                                                    —     176,373          —            4.15               0.85
                                               and deeds-in-lieu to
 Alternatives
                                               avoid foreclosure and
 (“HAFA”)
                                               relocate homeowners
                                               unable to sustain a
                                               modified mortgage.
                                            To provide incentives
                                            to servicers, investors,
                                            and borrowers to
                                                                         “A Second Lien Program
                                            modify second
                                                                          to Reach up to 1 to 1.5
                                            mortgages (second
 Second Lien                                                                Million Homeowners,”
                                            liens) -- with a partial
 Modification                                                              according to Treasury,
                     4/28/2009    8/13/2009 or full extinguishment                                   141,428     84,053            0.13               0.66
 Program                                                                            “Making Home
                                            of the loan balance
 (“2MP”)                                                                     Affordable, Program
                                            -- for homeowners with
                                                                             Update, Fact Sheet,”
                                            a corresponding first
                                                                                      4/28/2009.
                                            mortgage (first lien)
                                            that was modified under
                                            HAMP.
                                                                               “Tens of thousands
                                                                            of FHA borrowers will
                                                                           now be able to modify
                                                                           their mortgages in the
                                                                              same manner as so
 Treasury/
                                                                             many others who are
 Federal Housing
                                            To provide TARP-funded,           taking advantage of
 Administration-
                                            HAMP-like incentives              the Administration’s
 Home
                                            to servicers and             Making Home Affordable
 Affordable         7/30/2009i    8/15/2009                                                           55,131     43,986            0.23               0.10
                                            homeowners to modify          program,” according to
 Modification
                                            mortgages insured by            HUD Secretary Shaun
 Program
                                            the FHA.                         Donovan, HUD Press
 (“Treasury/FHA-
                                                                         Release, “HUD Secretary
 HAMP”)
                                                                             Donovan Announces
                                                                                 New FHA-Making
                                                                           Home Affordable Loan
                                                                         Modification Guidelines,”
                                                                                     7/30/2009.
                                                                                                                                  Continued on next page
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                      167




ADDITIONAL TARP-FUNDED MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS,
AS OF 9/30/2014 (CONTINUED)
                                                                                                                          Homeowners Assistedm                                  Estimated
                                                                                                       Estimated Number                                                               TARP                  TARP
                              Date                  Date                                            of Homeowners to be Permanents Permanents                                   Allocation         Expenditures
Program                  Announced               Started       Purpose                                           Assisted   Started      Active                               (In Billions)a         (In Billions)
Department
of Agriculture
                                                       To provide TARP-funded,
Rural
                                                       HAMP-like incentives to
Development-
                                                       servicers and borrowers
Home                     9/17/2010i          9/24/2010                                                                          —                 172                134                 0.02                     —j
                                                       for modifications of
Affordable
                                                       mortgages insured by
Modification
                                                       RD.
Program (“RD-
HAMP”)
                                                       To provide TARP-funded
Treasury/
                                                       incentives to servicers
Federal Housing
                                                       and investors to partially
Administration
                                                       or fully extinguish
Second Lien              3/26/2010i           8/6/2010                                                                          —                    0                  0                2.69                   0.00
                                                       second mortgages
Program
                                                       (second liens) for
(“Treasury/FHA-
                                                       mortgages modified and
2LP”) l
                                                       insured by the FHA.
Department                                             To provide non-TARP-
of Veterans                                            funded, HAMP-like
Affairs-Home                                           incentives to servicers
Affordable                 1/8/2010i          2/1/2010 and borrowers for                                                        —                 514                381                  —k                     —k
Modification                                           modifications of
Program (“VA                                           mortgages insured by
HAMP”)                                                 the VA.
Notes:
a
    Estimated TARP allocations are as of January 5, 2012.
b
    Program is a subprogram of the Home Affordable Modification Program (“HAMP”).
c
    Includes HAMP Tier 1 and Tier 2 modifications.
d
    In a 3/26/2010 press release, Treasury announced the concept of what was later named the “UP” program in Treasury’s May 11, 2010 Supplemental Directive.
e
    Treasury announced that servicers could implement UP before July 1, 2010.
f
   As of 8/31/2014, 4,544 homeowners who received UP assistance subsequently received HAMP modifications.
g
    Treasury does not allocate TARP funds to UP.
h
    Treasury announced that some servicers could implement HAFA before April 5, 2010.
i
  In its April 6, 2009 Supplemental Directive, Treasury announced that “Mortgage loans insured, guaranteed or held by a Federal Government agency (e.g., FHA, HUD, VA and Rural Development) may be eligible for the
   HAMP, subject to guidance issued by the relevant agency. Further details regarding inclusion of these loans in the HAMP will be provided in a subsequent Supplemental Directive.”
j
   As of September 30, 2014, $268,926 has been expended for RD-HAMP.
k
    Treasury does not provide incentive compensation related to VA-HAMP.
l
   As of December 31, 2013, the FHA2LP program had expired.
m
     Number of homeowners assisted via PRA, HPDP, and UP presented as of 8/31/2014, the most recent data provided by Treasury.

Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, 1/8/2014, 1/24/2014, 4/9/2014, 4/25/2014, 7/8/2014, 7/24/2014, 10/6/2014, and 10/10/2014; Treasury, “Home Affordable Unemployment
Program NON GSE Forbearance Plans Worksheet – August 2014,” accessed 10/21/2014; Treasury, “HAFA Program Inventory – Program Type – September 2014,“ accessed 10/23/2014; Treasury, “2MP
Program Inventory – Program Type by Payor – September 2014,“ accessed 10/23/2014; Treasury, “FHA & RD HAMP Trial Starts – Program Summary – September 2014,” accessed 10/23/2014; VA, responses
to SIGTARP data calls, 1/8/2014, 4/3/2014, 7/7/2014 and 10/23/2014; Treasury, Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.34, 93/163/20132014; Treasury,
press releases, 4/28/2013, 7/31/2009, 11/30/2009, and 3/26/2010; Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009; Treasury, “Supplemental
Directive 09-04: Home Affordable Modification Program -- Home Price Decline Protection Incentives,” 7/31/2009; Treasury, “Supplemental Directive 09-09: Introduction of Home Affordable Foreclosure Alternatives
-- Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009; Treasury, “Supplemental Directive 09-09 Revised: Introduction of Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure
Update,” 3/26/2010; Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010; Treasury, “Fact Sheet: FHA Program Adjustments to Support Refinancings
for Underwater Homeowners,” 3/26/2010; Treasury, “HAMP Improvements Fact Sheet: Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010; Treasury, “Supplemental
Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010; Treasury, “Supplemental Directive 10-05: Home Affordable Modification Program - Modification of Loans with Principal Reduction Alternative,”
6/3/2010; Treasury, Supplemental Directive 10-10: Home Affordable Modification Program – Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010; HUD, press release, 7/30/2009; VA,
Circular 26-10-2, 1/8/2010; and VA, Circular 26-10-6, 5/24/2010.
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Housing Finance Agency Hardest Hit Fund (“HHF”)
                                             More than four years ago, in February 2010, in an attempt to help families in
                                             places hurt the most by the housing crisis, the Administration launched the TARP-
                                             funded Housing Finance Agency Innovation Fund for the Hardest Hit Housing
                                             Markets (“Hardest Hit Fund” or “HHF”).312 The Administration announced that
                                             TARP funds would be used for “innovative measures to help families in the states
                                             that have been hit the hardest by the aftermath of the housing bubble.”313 This
                                             TARP-funded housing support program was to be developed and administered by
                                                                                                                                  vii
                                             state housing finance agencies (“HFAs”) with Treasury’s approval and oversight.314,
                                             Treasury allocated $7.6 billion in TARP funds for the HHF program and,
                                             through four rounds of funding in 2010, obligated these TARP funds to 18 states
                                             and the District of Columbia (“states”) – those states that Treasury deemed to have
                                             significant home price declines and high unemployment rates.315 Treasury approved
                                             each of the 19 states’ initial program proposals and approves any proposed changes
                                             to programs.316 These proposals include estimates of the number of homeowners to
                                             be helped through each program (some states have more than one program).317
                                                  The first round of HHF allocated $1.5 billion of the amount initially allocated
                                             for MHA initiatives. According to Treasury, these funds were designated for five
                                             states where the average home price had decreased more than 20% from its peak.
                                             The five states were Arizona, California, Florida, Michigan, and Nevada.318 Plans to
                                             use these funds were approved by Treasury on June 23, 2010.319
                                                  On March 29, 2010, Treasury expanded HHF to include five additional states
                                             and increased the program’s potential funding by $600 million, bringing total
                                             funding to $2.1 billion. The additional $600 million was designated for North
                                             Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                             these states were selected because of their high concentrations of people living in
                                             economically distressed areas, defined as counties in which the unemployment rate
                                             exceeded 12%, on average, in 2009.320 Plans to use these funds were approved by
                                             Treasury on August 3, 2010.321
                                                  On August 11, 2010, Treasury pledged a third round of HHF funding of $2
                                             billion to states with unemployment rates at or above the national average.322
                                             The states designated to receive funding were Alabama, California, Florida,
                                             Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
                                             North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
                                             Washington, DC.323 Treasury approved third round proposals on September 23,
                                             2010.324 On September 29, 2010, a fourth round of HHF funding of an additional
                                             $3.5 billion was made available to existing HHF participants.325
                                                  Treasury allocated the $7.6 billion in TARP funds to 18 states and the District
                                             of Columbia and has over time approved HHF programs in several categories:326


                                             vii Participating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
                                               Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of September
                                               30, 2014, there were 73 active HHF programs run by the 19 state HFAs. According to Treasury, seven states: Illinois, New Jersey,
                                               Rhode Island, Washington, DC, Ohio, Tennessee and Oregon are no longer accepting applications for assistance from homeowners
                                               because they determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF
                                               assistance.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014        169




•	    Unemployment assistance, including past-due payment assistance
•	    Mortgage modification, including principal reduction assistance
•	    Second-lien reduction assistance
•	    Transition assistance, including short sale and deed-in-lieu of foreclosure
•	    Demolition

    According to Treasury, states can reallocate funds between programs and modify
existing programs as needed, with Treasury approval, until December 31, 2017.327
According to Treasury, between June 30, 2014 and September 30, 2014, six states
have reallocated funds, modified or eliminated existing programs, or established
new HHF programs with Treasury approval, increasing the total number of HHF
programs in 18 states and Washington, DC, as of September 30, 2014, to 73,
up from 70 programs as of June 30, 2014.328 According to Treasury, the six states
that made changes to their programs between June 30, 2014 and September 30,
2014 include Indiana, South Carolina, Washington, DC, Florida, Alabama and
California. The District of Columbia added a Tax Lien Extinguishment component
to its HomeSaver program. Florida extended the period during which loans sold
in a HUD Distressed Asset Program may be eligible for assistance under its
Modification-Enabling Pilot Program. Indiana clarified military-related eligible
hardships under its Unemployment Bridge, Recast Modification and Transition
Assistance Programs, among other changes. California added a Reverse Mortgage
                                                                                                                                            For more information on HHF,
Assistance Program, with an allocation of $25 million.329                                                                                   see: SIGTARP’s April 12, 2012,
    As of September 30, 2014, two additional states added blight elimination                                                                audit report, “Factors Affecting
programs: Alabama and South Carolina. South Carolina introduced a new                                                                       Implementation of the Hardest Hit
Neighborhood Initiative Program, providing up to $35,000 per property for the                                                               Fund Program,” SIGTARP’s October
removal, greening, and maintenance of vacant, abandoned and blighted properties,                                                            2013 Quarterly Report, pages 189-
                                                                                                                                            255, SIGTARP’s January 2014
allocating $35 million for the overall blight elimination program.330                                                                       Quarterly Report, pages 97-154, and
                                                                                                                                            SIGTARP’s April 2014 Quarterly
States’ TARP Allocations and Spending for HHF                                                                                               Report, pages 97-156.
Of the $7.6 billion in TARP funds available for HHF, states collectively had drawn
down $4.5 billion (59%) as of September 30, 2014.331 As of June 30, 2014, the
latest date for which spending analysis is available, states had drawn down $4.2
billion (55%).332 However, not all of that has been spent on direct assistance to
homeowners. States have spent $3.1 billion (41% of the $7.6 billion) to assist
193,716 individual homeowners. States have spent the rest of the funds on
administrative expenses or hold the money as cash-on-hand. States have spent
$432.5 million (6%) on administrative expenses; and held $644.4 million (8%) as
                                                                           viii
unspent cash-on-hand, as of June 30, 2014, the latest data available.333, There
remains $3.4 billion (45%) in undrawn funds available for HHF, as of June 30,
2014.334
     As of June 30, 2014, the latest data available, in aggregate, after more than
three and a half years, states had spent 41% ($3.1 billion) of the $7.6 billion in

viii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursements to funds drawn from
     Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
     borrower remittances.
170   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TARP funds that Treasury allocated for the HHF program to provide assistance
                                                         ix
                                             to 223,327 program participants (which translates to 193,716 individual
                                             homeowners), or 41% of the number of homeowners the states anticipated helping
                                                                     x
                                             with HHF in 2011.335,
                                                 As of June 30, 2014, 80.9% of the HHF assistance received by homeowners
                                             was for unemployment assistance, including past-due payment assistance.336 As
                                             SIGTARP found in its April 2012 audit, these were the only types of assistance
                                             for which the Government-sponsored enterprises (“GSE”s) previously directed
                                             servicers to participate. The remaining assistance can be broken down to 18.5% for
                                             mortgage modification, including principal reduction assistance, 0.4% for second-
                                             lien reduction assistance, and 0.2% for transition assistance.337 As of June 30, 2014,
                                             Michigan, Ohio, and Indiana are the only states to report activity under their blight
                                             elimination programs, with the removing and greening of 329 properties. Michigan
                                             has spent $3,283,453 in removing and greening 315 properties, while Ohio spent
                                             $130,100 removing and greening 14 properties.338
                                                 Figure 4.6 shows state uses of TARP funds obligated for HHF by percent, as of
                                             June 30, 2014, the most recent figures available.




                                             ix D
                                                 ata was incomplete at date of publication, as Nevada’s data for Program Participation, which are not included in this number, were
                                                not yet available.
                                             x According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                              programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                              and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                              cash-on-hand, or undrawn funds.
                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014         171



FIGURE 4.6

STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
FOR HHF, BY PERCENT, AS OF 6/30/2014

Alabama
$162.5 million
allocated
Arizona
$267.8 million
allocated
California
$1,975.3 million
allocated
Florida
$1,057.8 million
allocated
Georgia
$339.3 million
allocated
Illinois
$445.6 million
allocated
Indiana
$221.7 million
allocated
Kentucky
$148.9 million
allocated
Michigan
$498.6 million
allocated
Mississippi
$101.9 million
allocated
Nevada
$194.0 million
allocated
New Jersey
$300.5 million
allocated
North Carolina
$482.8 million
allocated
Ohio
$570.4 million
allocated
Oregon
$220.0 million
allocated
Rhode Island
$79.4 million
allocated
South Carolina
$295.4 million
allocated
Tennessee
$217.3 million
allocated
Washington D.C.
$20.7 million
allocated
TOTAL
$7.6 billion

                                             20
                   0                                                  40                        60                        80                           100

                        Homeowner Assistance                             Cash-on-Hand
                        Administrative Expenses                          Undrawn Funds

                   Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                   participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                   and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                   as homeowner assistance, cash-on-hand, or undrawn funds. Figures obtained from each state’s Quarterly Financial Report,
                   which reconciles each type of cash disbursements to funds drawn from Treasury. As such, all expenses are based on actual
                   cash disbursements. Additionally, cash-on-hand may include lien recoveries and borrower remittances. State spending figures
                   as of June 30, 2014, are the most recent available; Treasury has separately published September 30, 2014, figures for
                   amounts drawn down; as of September 30, 2014, states have drawn down $4.5 billion.

                   Sources: Treasury, Transactions Report-Housing Programs, 6/26/2014; Treasury, responses to SIGTARP data calls,
                   7/5/2013, 10/3/2013, 10/7/2013, 10/17/2013, 1/17/2014, 1/22/2014, 1/23/2014, 4/9/2014, 7/8/2014, and
                   10/6/2014.
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             State Estimates of Homeowner Participation in HHF
                                             According to Treasury, as of June 30, 2014, states had spent $3.1 billion to help
                                             193,716 homeowners; in the quarter ended June 30, 2014, states had spent
                                             $362.5 million to help 14,919 homeowners.339 Each state estimates the number
                                             of homeowners to be helped in its programs. In the beginning of 2011, states
                                             collectively estimated that they would help 546,562 homeowners with HHF.340
                                             Since then, with Treasury’s approval, states have changed their programs (including
                                             reducing the estimated number of homeowners to be helped), cancelled programs,
                                             and started new programs.341 As of June 30, 2014, the states estimated helping
                                             301,702 homeowners with HHF, which is 244,860 fewer homeowners than the
                                             states estimated helping with HHF in 2011, a reduction of 45%.
                                                 Importantly, the states collectively estimate that HHF will help 301,702
                                             homeowners but fail to take into account that when states report program
                                             participation numbers, homeowners may be counted more than once when they
                                             receive assistance from multiple HHF programs offered in their state (as of June
                                             30, 2014, 14 states have more than one program). For example, a homeowner may
                                             have lost his job, missed three months of mortgage payments, and then sought
                                             help from his state. This homeowner might be qualified to receive assistance from
                                             two HHF programs offered by his state, one that could help him make up missed
                                             mortgage payments, and a second that could help him pay his future mortgage
                                             payments while he seeks new employment. Treasury requires states to estimate the
                                             number of people who will participate in each of their programs, and then report
                                             the number who actually participate in each program.342 It also requires them to
                                             report the total number of individual homeowners assisted, which is lower than the
                                             reported program participation numbers when homeowners have participated in
                                             more than one program offered by their state.343
                                                                                                       xi
                                                 As of June 30, 2014, the states reported that 223,327 homeowners
                                             participated in HHF programs. However, because homeowners may participate
                                                                              344

                                             in more than one program, the reported program participation numbers are higher
                                             than the total number of individual homeowners assisted. According to Treasury,
                                             193,716 individual homeowners participated in HHF programs.345
                                                 Table 4.24 provides each state’s estimate of the number of homeowners it
                                             projects it will help and the actual number of homeowners helped as of June 30,
                                                   xii
                                             2014.




                                             xi D
                                                 ata was incomplete at date of publication, as Nevada’s data for Program Participation, which are not included in this number, were
                                                not yet available.
                                             xii Program participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent,
                                               in foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   173




TABLE 4.24
 HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
 ASSISTANCE PROVIDED BY STATE AS OF 6/30/2014
                                  Estimated Number
                                     of Participating
                                       Households to                  Actual Borrowers
                                      be Assisted by              Receiving Assistance                Assistance Provided
 Recipient                            12/31/2017*                  as of 6/30/2014**                  as of 6/30/2014**
 Alabama                                             5,800                              3,445                    $27,466,526
 Arizona                                             7,606                              3,090                      71,009,582
 California                                        66,570                             40,797                     723,778,214
 Florida                                           39,000                             17,982                     356,578,005
 Georgia                                           15,100                               5,148                      81,481,383
 Illinois                                          13,500                             13,371                     285,414,282
 Indiana                                           10,150                               3,594                      42,141,198
 Kentucky                                            5,960                              5,727                      65,244,040
 Michigan                                          11,477                             21,194                     164,797,747
 Mississippi                                         3,500                              2,480                      33,468,949
 Nevada                                              7,565                              5,325                      83,593,953
 New Jersey                                          6,500                              5,673                    172,209,645
 North Carolina                                    21,310                             16,767                     257,478,422
 Ohio                                              41,201                             20,316                     307,866,338
 Oregon                                            15,150                             10,505                     152,959,336
 Rhode Island                                        3,413                              3,075                      59,520,610
 South Carolina                                    19,400                               7,956                    109,596,788
 Tennessee                                           7,700                              6,575                    107,995,580
 Washington, DC                                        800                                 696                     12,734,866
 Total                                          301,702                            193,716                 $3,115,335,466
 Notes: Estimated includes highest estimate of a range. Program expenses obtained from each state’s Quarterly Financial Report,
 which reconciles each type of cash disbursement to funds drawn from Treasury. As such, all expenses are based on actual cash
 disbursements.

 *Source: Estimates are from the latest HFA Participation Agreements as of 6/30/2014. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 **Sources: Treasury, response to SIGTARP data call, 10/6/2014; Second Quarter 2014 HFA Performance Data quarterly reports
 and Second Quarter 2014 HFA Aggregate Quarterly Report.
174   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             State by State Updates
                                             Of the 19 states participating in HHF, over time all states have reduced their
                                             estimates of how many homeowners will participate in HHF, most of them
                                             significantly since their peak estimates. Collectively, since the peak in early 2011,
                                             the 19 states have reduced their estimates of how many people they would help
                                             by 45%. Seven states have reduced their estimates by more than 50%: Alabama
                                             (57% reduction), Florida (63% reduction), Illinois (53% reduction), Kentucky (60%
                                             reduction), Michigan (77% reduction), Nevada (68% reduction), and Rhode Island
                                             (74% reduction).
                                                 Collectively, as of June 30, 2014, the states have spent $3.1 billion on direct
                                             assistance to homeowners, or 41% of the $7.6 billion in TARP funds obligated to
                                                      xiii
                                             HHF.346, Of the 19 HHF states, Rhode Island has spent the highest percentage,
                                             75%, of its obligated funds on homeowner assistance. Alabama has spent the lowest
                                             percentage, 17%. In addition to Alabama, three other states have spent less than
                                             27% of their obligated funds on assistance to homeowners: Indiana, Arizona, and
                                             Georgia. For each of the states, the following pages review estimates of program
                                             participation and reported numbers of homeowners who have been assisted, as well
                                             as expenditures compared with obligated funds.
                                                 According to Treasury, seven states are no longer accepting applications for
                                             assistance from homeowners because they determined that their allocated HHF
                                             funds would be spent on homeowners who already have been approved for HHF
                                             assistance.347 They include Tennessee, Rhode Island, Illinois, New Jersey, Oregon,
                                             Ohio and Washington, DC. Rhode Island stopped accepting applications after
                                             January 31, 2013.348 Illinois stopped accepting applications after September
                                             30, 2013.349 New Jersey stopped accepting applications after November 30,
                                             2013.350 Washington, DC stopped accepting applications after November 22,
                                             2013. Ohio stopped accepting new applications after April 30, 2014 and Oregon
                                             Homeownership Stabilization Initiative stopped accepting new applications after
                                             June 30, 2014. Tennessee stopped accepting applications as of September 30,
                                             2014.351 Table 4.25 below provides a snapshot of states’ HHF activity by program
                                             type.




                                             xiii A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   175




TABLE 4.25
 HHF PROGRAMS BY STATE, AS OF 6/30/2014
                                                                                                 Second Lien           Past-Due             Blight        Total
 State                      Unemploymenta              Transitionb        Modificationc           Reductiond           Paymente          Eliminationf   Programs
 ALABAMA                               X                      X                    X                                                                       3
ARIZONA                                X                      X                    X                     X                                                 4
CALIFORNIA                             X                      X                    X                     X                   X                             5
FLORIDA                                X                                          XX                                        XX                             5
GEORGIA                                X                                           X                                         X                             3
ILLINOIS                               X                                          XX                                                            X          4
INDIANA                                X                      X                    X                                                            X          4
KENTUCKY                               X                                                                                                                   1
MICHIGAN                               X                                          XX                                         X                  X          5
MISSISSIPPI                            X                                                                                                                   1
NEVADA                                XX                      X                  XXX                     X                                                 7
NEW JERSEY                             X                                                                                                                   1
NORTH CAROLINA                        XX                                           X                     X                                                 4
OHIO                                   X                      X                 XXXX                                         X                  X          8
OREGON                                 X                                          XX                                         X                             4
RHODE ISLAND                           X                      X                   XX                                         X                             5
SOUTH CAROLINA                         X                      X                    X                                         X                             4
TENNESSEE                              X                                                                                                                   1
WASHINGTON, DC                         X                                                                                                                   1
Total Programs                        21                      8                   24                     4                   9                  4         70
 Legend:
 X:	       One program
 XX: 	     Two programs
 XXX:	     Three programs
 XXXX:	    Four programs

 Notes:
 a
   Monthly subsidy that reduces the unemployment homeowner’s mortgage payment, in some cases paying it in full.
 b
   One-time benefit to help eligible homeowners relocate to new housing following a short sale or deed-in-lieu of foreclosure program.
 c
   One-time benefit that reduces the principal and/or improves the terms of the mortgage to reduce the homeowner’s payment to an affordable level.
 d
   One-time payment to incent servicers to extinguish 2nd mortgages or provide more affordable payments.
 e
   One-time benefit that pays off past due balances.
 f
   Programs that demolish vacant or condemned properties in order stabilize home values and improve neighborhoods.

 Source: Treasury, response to SIGTARP data call, 7/8/2014.
176   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Alabama’s HHF Programs
                                             Even though Treasury obligated $162,521,345 of HHF funds to Alabama, Alabama
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.352 As of June 30, 2014, the state had drawn down $40 million (25%)
                                                                 xiv
                                             of those funds.353, As of June 30, 2014, the most recent data available, Alabama
                                             had spent $27.5 million (17% of its obligated funds) to help 3,445 individual
                                                                                      xv
                                             homeowners with its HHF programs.354, The remaining $6.8 million (4%) was
                                             spent on administrative expenses, and $6.1 million (4%) is held as cash-on-
                                                      xvi
                                             hand.355, As of June 30, 2014, the state had three active HHF programs, one to
                                             provide unemployment assistance to homeowners, a second to modify homeowners’
                                             mortgages, and a third to provide HHF transition assistance. At the end of 2010,
                                             Alabama estimated that it would help as many as 13,500 homeowners with HHF
                                             but, as of June 30, 2014, reduced that peak estimate by 57%, to 5,800. Figure
                                             4.7 shows, in aggregate, the number of homeowners estimated to participate in
                                             Alabama’s programs (estimated program participation), the reported number of
                                             homeowners who participated in one or more programs (program participation),
                                             and the total number of individual homeowners assisted, as of June 30, 2014.
                                             Figure 4.8 shows the number of homeowners estimated to participate in each of
                                             Alabama’s programs (estimated program participation) and the reported number
                                             of homeowners who participated in each of Alabama’s programs (program
                                             participation), as of June 30, 2014.




                                             xiv Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Alabama had
                                                 drawn down $40 million.
                                             xv A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             xvi Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                                  Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                  borrower remittances.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   177




FIGURE 4.7

ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 6/30/2014
15,000

                                                          Peak estimate: 13,500
                                                          6/30/2014 estimate: 5,800
12,000                                                    6/30/2014 program participation: 3,445
                                                          Homeowners assisted: 3,445



 9,000




 6,000




 3,000




    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury
         and Alabama Housing Finance Authority, Commitment to Purchase Financial Instrument and HFA
         Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
         6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly
         Performance Reports Q1 2011 - Q2 2014, no date.
178              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.8

       ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

            HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                                                     SHORT SALE ASSISTANCE PROGRAM
            HOMEOWNERS (UNEMPLOYMENT)                                                                                                (TRANSITION)
             15,000                                                   Peak estimate: 13,500                                          2,000                       Peak estimate: 1,500
                                                                      6/30/14 estimate: 3,100                                                                    6/30/14 estimate: 1,500
             12,000
                                                                      6/30/14 program participation: 3,442                           1,500                       6/30/14 program participation: 0
              9,000
                                                                                                                                     1,000
               6,000

               3,000
                                                                                                                                      500

                   0                                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                          Program Participation                                  State Estimated Program Participation                          Program Participation




            LOAN MODIFICATION ASSISTANCE PROGRAM
            (MODIFICATION)
              2,000                                         Peak estimate: 1,200
                                                            6/30/14 estimate: 1,200
              1,500                                         6/30/14 program participation: 3
              1,000

                500

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                          Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
       Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
       9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q2
       2014, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   179




Arizona’s HHF Programs
Even though Treasury obligated $267,766,006 of HHF funds to Arizona, Arizona
is not getting a significant amount of these funds out the door to help homeowners
with HHF.356 As of June 30, 2014, the state had drawn down $127 million (47%)
                    xvii
of those funds.357, As of June 30, 2014, the most recent data available, Arizona
had spent $71 million (27% of its obligated funds) to help 3,090 individual
                                         xviii
homeowners with its HHF programs.358, The remaining $13.8 million (5%)
was spent on administrative expenses, and $13.5 million (5%) is held as cash-on-
         xix
hand.359, As of June 30, 2014, the state had four active HHF programs: one to
modify homeowners’ mortgages with principal reduction assistance, a second to
provide HHF second-lien reduction assistance to homeowners, a third to provide
unemployment assistance to homeowners, and a fourth to provide transition
assistance to homeowners. At the end of 2010, Arizona estimated that it would help
as many as 11,959 homeowners with HHF but, as of June 30, 2014, had reduced
that peak estimate by 36%, to 7,606.
    Figure 4.9 shows, in aggregate, the number of homeowners estimated to
participate in Arizona’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 4.10 shows the number of homeowners
estimated to participate in each of Arizona’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Arizona’s programs (program participation), as of June 30, 2014.




xvii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Arizona had
     drawn down $155.8 million.
xviii A
       ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xix Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
     Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
     borrower remittances.
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.9

                                                    ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 6/30/2014

                                                    12,000



                                                    10,000



                                                     8,000



                                                     6,000
                                                                                       Peak estimate: 11,959
                                                                                       6/30/2014 estimate: 7,606
                                                     4,000                             6/30/2014 program participation: 3,318
                                                                                       Homeowners assisted: 3,090


                                                     2,000



                                                        0
                                                             Q1’10
                                                             Q110 Q2’10
                                                                   Q210 Q3’10
                                                                        Q310 Q4’10
                                                                              Q410 Q1’11
                                                                                   Q111 Q2’11
                                                                                         Q211 Q3’11
                                                                                              Q311 Q4’11
                                                                                                    Q411 Q1’12
                                                                                                         Q112 Q2’12
                                                                                                               Q212 Q3’12
                                                                                                                    Q312 Q4’12
                                                                                                                          Q412 Q1’13
                                                                                                                               Q113 Q2’13
                                                                                                                                     Q213 Q3’13
                                                                                                                                          Q313 Q4’13
                                                                                                                                                Q413 Q1’14
                                                                                                                                                     Q114 Q2’14
                                                                                                                                                           Q214


                                                                State Estimated Program Participation            Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                             double-counted individual homeowners who received assistance from more than one program in states
                                                             that have more than one program.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Arizona (Home) Foreclosure Prevention Funding Corporation,
                                                             Proposal, no date; Treasury and Arizona (Home) Foreclosure Prevention Funding Corporation,
                                                             Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona
                                                             (Home) Foreclosure Prevention Funding Corporation, first through thirteenth Amendment[s] to
                                                             Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
                                                             8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013, 10/30/2013, and 2/27/2014;
                                                             Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly
                                                             performance reports), Quarterly Performance Reports Q3 2010 - Q2 2014, no date; Treasury,
                                                             responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                          181




FIGURE 4.10

 ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2014

      PRINCIPAL REDUCTION ASSISTANCE                                                                                           SECOND MORTGAGE ASSISTANCE COMPONENT
      (MODIFICATION)                                                                                                           (SECOND-LIEN REDUCTION)
                                                                  Peak estimate: 7,227
                                                                                                                                                                                             Peak estimate: 1,875
                                                                  6/30/14 estimate: 1,849
       10,000                                                                                                                   2,000                                                        6/30/14 estimate: 1,279
                                                                  6/30/14 program participation: 750
                                                                                                                                                                                             6/30/14 program participation: 182
         8,000
                                                                                                                                1,500
         6,000
                                                                                                                                1,000
         4,000
                                                                                                                                 500
         2,000

            0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




      UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                                                    SHORT SALE ASSISTANCE COMPONENT
      ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                                      (TRANSITION)
                                                                Peak estimate: 4,140
         6,000
                                                                6/30/14 estimate: 4,140                                         2,000                                                       Peak estimate: 1,200
         5,000                                                  6/30/14 program participation: 2,291                                                                                        6/30/14 estimate: 338
                                                                                                                                1,500                                                       6/30/14 program participation: 95
         4,000
         3,000                                                                                                                  1,000
         2,000
                                                                                                                                 500
         1,000
            0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
 Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
 Corporation, first through thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
 6/6/2013, 10/30/2013, and 2/27/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3
 2010 - Q2 2014, no date; Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             California’s HHF Programs
                                             Even though Treasury obligated $1,975,334,096 of HHF funds to California,
                                             California is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.360 As of June 30, 2014, the state had drawn down $967.5
                                                                                xx
                                             million (49%) of those funds.361, As of June 30, 2014, the most recent data
                                             available, California had spent $723.8 million (37% of its obligated funds) to help
                                                                                                         xxi
                                             40,797 individual homeowners with its HHF programs.362, The remaining $80.9
                                             million (4%) was spent on administrative expenses, and $175.9 million (9%) is held
                                                                  xxii
                                             as cash-on-hand.363, As of June 30, 2014, the state had five active HHF programs:
                                             one to provide unemployment assistance to homeowners, a second to modify
                                             homeowners’ mortgages with principal reduction assistance, a third to provide
                                             HHF transition assistance to homeowners, a fourth to provide past-due payment
                                             assistance to homeowners, and a fifth to provide HHF second-lien, principal
                                             reduction assistance to homeowners.
                                                 At the end of 2010, California estimated that it would help as many as 101,337
                                             homeowners with HHF but, as of June 30, 2014, had reduced that peak estimate
                                             by 34%, to 66,570.
                                                 Figure 4.11 shows, in aggregate, the number of homeowners estimated to
                                             participate in California’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 4.12 shows the number of homeowners
                                             estimated to participate in each of California’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             California’s programs (program participation), as of June 30, 2014.




                                             xx T
                                                 reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, California had
                                                drawn down $967.5 million.
                                             xxi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             xxii F igures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                                  Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                  borrower remittances.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   183




FIGURE 4.11

CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2014

120,000



100,000



 80,000



 60,000

                                         Peak estimate: 101,337
                                         6/30/2014 estimate: 66,570
 40,000                                  6/30/2014 program participation: 43,974
                                         Homeowners assisted: 40,797


 20,000



     0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14


             State Estimated Program Participation                 Homeowners Assisted
             Program Participation

      Notes: Estimated includes highest estimate of a range. Program participation numbers may have
      double-counted individual homeowners who received assistance from more than one program in states
      that have more than one program.

      Sources: States provide estimates for program participation and report program participation and
      homeowners assisted numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury
      and CalHFA Mortgage Assistance Corporation, Commitment to Purchase Financial Instrument and HFA
      Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through thirteenth
      Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011,
      10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, 2/27/2014, and
      4/11/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports &
      Statistics, Quarterly Reports,” Quarterly Performance Reports Q4 2010 - Q2 2014, no date.
184              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      FIGURE 4.12

       CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

            UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                                 MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
            (UNEMPLOYMENT)                                                                                                           (PAST-DUE PAYMENT)
                                                                    Peak estimate: 60,531
            100,000                                                 6/30/14 estimate: 42,000                                         25,000                                                  Peak estimate: 17,293
                                                                    6/30/14 program participation: 32,970                                                                                    6/30/14 estimate: 9,200
             80,000                                                                                                                  20,000                                                  6/30/14 program participation: 6,376
             60,000                                                                                                                  15,000

             40,000                                                                                                                  10,000

             20,000                                                                                                                   5,000

                  0                                                                                                                       0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                               TRANSITION ASSISTANCE PROGRAM
                                                                                                                                     (TRANSITION)
                                                                      Peak estimate: 25,135                                                                                                    Peak estimate: 6,471
             50,000                                                                                                                  10,000                                                    6/30/14 estimate: 1,000
                                                                      6/30/14 estimate: 14,000
             40,000                                                   6/30/14 program participation: 3,952                            8,000
                                                                                                                                                                                               6/30/14 program participation: 642

             30,000                                                                                                                   6,000

             20,000                                                                                                                   4,000

             10,000                                                                                                                   2,000

                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                               State Estimated Program Participation                          Program Participation                                  State Estimated Program Participation                           Program Participation




            COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                                      LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
            REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                                                REDUCTION PROGRAM (MODIFICATION)

                500                                                                                                                    200

                375                                                                                                                    150

                250                                                                                                                    100        Peak estimate: 166
                           Peak estimate: 370
                                                                                                                                                  6/30/14 estimate: 0
                           6/30/14 estimate: 370
                125                                                                                                                     50        6/30/14 program participation: 0
                           6/30/14 program participation: 34
                  0                                                                                                                       0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            NEIGHBORWORKS SACRAMENTO SHORT SALE
            GATEWAY PROGRAM (TRANSITION)

                200                                                         Peak estimate: 91
                                                                            6/30/14 estimate: 0
                150                                                         6/30/14 program participation: 0

                100

                 50

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
       Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through thirteenth Amendment[s]
       to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, 2/27/2014, and 4/11/2014; CalHFA
       Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” Quarterly Performance Reports Q4 2010 - Q2 2014, no date; Treasury, response to SIGTARP
       data call, 10/3/2013.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   185




Florida’s HHF Programs
Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
is not getting a significant amount of these funds out the door to help homeowners
with HHF.364 As of June 30, 2014, the state had drawn down $476.3 million (45%)
                    xxiii
of those funds.365, As of June 30, 2014, the most recent data available, Florida
had spent $356.6 million (34% of its obligated funds) to help 17,982 individual
                                         xxiv
homeowners with its HHF programs.366, The remaining $42.2 million (4%)
was spent on administrative expenses, and $78.6 million (7%) is held as cash-on-
         xxv
hand.367, As of June 30, 2014, the state had five active HHF programs: one to
provide unemployment assistance to homeowners, a second and third to provide
past-due payment assistance to homeowners, and a fourth and fifth to modify
homeowners’ mortgages. At the start of 2011, Florida estimated that it would help
as many as 106,000 homeowners with HHF but, as of June 30, 2014, had reduced
that peak estimate by 63%, to 39,000.
    Figure 4.13 shows, in aggregate, the number of homeowners estimated to
participate in Florida’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 4.14 shows the number of homeowners
estimated to participate in each of Florida’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Florida’s programs (program participation), as of June 30, 2014.




xxiii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Florida had
     drawn down $536.3 million.
xxiv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xxv Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
     Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
     borrower remittances.
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.13

                                                    FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 6/30/2014

                                                    120,000



                                                    100,000



                                                     80,000



                                                     60,000                                   Peak estimate: 106,000
                                                                                              6/30/2014 estimate: 39,000
                                                                                              6/30/2014 program participation: 28,831
                                                                                              Homeowners assisted: 17,982
                                                     40,000



                                                     20,000



                                                         0
                                                              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14


                                                                 State Estimated Program Participation                 Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                              double-counted individual homeowners who received assistance from more than one program in states
                                                              that have more than one program.

                                                              Sources: States provide estimates for program participation and report program participation and
                                                              homeowners assisted numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and
                                                              Florida Housing Finance Corporation, Commitment to Purchase Financial Instrument and HFA
                                                              Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth
                                                              Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012,
                                                              9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit
                                                              Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q2 2014, no
                                                              date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                         187




FIGURE 4.14

 FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2014

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                                 MORTGAGE LOAN REINSTATEMENT PROGRAM
      (UNEMPLOYMENT)                                                                                                           (PAST-DUE PAYMENT)
       100,000                                                 Peak estimate: 53,000                                           100,000
                                                                                                                                                                                        Peak estimate: 53,000
        80,000
                                                               6/30/14 estimate: 25,000                                         80,000                                                  6/30/14 estimate: 25,000
                                                               6/30/14 program participation: 13,399                                                                                    6/30/14 program participation: 12,508
        60,000                                                                                                                  60,000

        40,000                                                                                                                  40,000

        20,000                                                                                                                  20,000

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                    State Estimated Program Participation                          Program Participation




      MODIFICATION ENABLING PILOT PROGRAM                                                                                      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)
      (MODIFICATION)
         2,000                                                                                                                 50,000                                                  Peak estimate: 10,000
                                                                                                                               40,000                                                  6/30/14 estimate: 10,000
         1,500                               Peak estimate: 1,500                                                                                                                      6/30/14 program participation: 2,751
                                             6/30/14 estimate: 1,500                                                           30,000
         1,000                               6/30/14 program participation: 12
                                                                                                                               20,000
          500
                                                                                                                               10,000

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                    State Estimated Program Participation                          Program Participation




      ELDERLY MORTGAGE ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)
       10,000                                                   Peak estimate: 2,500
         8,000
                                                                6/30/14 estimate: 2,500
                                                                6/30/14 program participation: 161
         6,000

         4,000

         2,000

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. Florida estimates that it will serve approximately 25,000 homeowners in the
 aggregate between its Unemployment Mortgage Assistance Program and its Mortgage Loan Reinstatement Program.

 Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
 Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
 Reports, Quarterly Performance Reports Q3 2010 - Q2 2014, no date; Treasury, response to SIGTARP data call, 10/3/2013.
188   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Georgia’s HHF Programs
                                             Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.368 As of June 30, 2014, the state had drawn down $144.4 million (43%)
                                                                 xxvi
                                             of those funds.369, As of June 30, 2014, the most recent data available, Georgia
                                             had spent $81.5 million (24% of its obligated funds) to help 5,148 individual
                                                                                      xxvii
                                             homeowners with its HHF program.370, The remaining $16.4 million (5%) was
                                             spent on administrative expenses, and $46.9 million (14%) is held as cash-on-
                                                      xxviii
                                             hand.371, As of June 30, 2014, the state had three active HHF programs: one to
                                             provide unemployment assistance to homeowners, a second to provide past-due
                                             payment assistance to homeowners, and a third to modify homeowners’ mortgages.
                                             At the end of 2010, Georgia estimated that it would help as many as 18,300
                                             homeowners with HHF but, as of June 30, 2014, had reduced that peak estimate
                                             by 17%, to 15,100.372
                                                 Figure 4.15 shows the number of homeowners estimated to participate in
                                             Georgia’s program and the number of homeowners who have been assisted, as
                                             of June 30, 2014. Figure 4.16 shows the number of homeowners estimated to
                                             participate in each of Georgia’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Georgia’s programs
                                             (program participation), as of June 30, 2014.




                                             xxvi T
                                                   reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Georgia had
                                                  drawn down $144.4 million.
                                             xxvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xxviii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
                                                     from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
                                                     recoveries and borrower remittances.
                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   189




FIGURE 4.15

GEORGIA’S ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 6/30/2014

20,000




15,000




                                              Peak estimate: 18,300
10,000                                        6/30/2014 estimate: 15,100
                                              6/30/2014 program participation: 5,148
                                              Homeowners assisted: 5,148



 5,000




    0
         Q1’10
         Q110 Q2’10
               Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114 Q2’14
                                                                                                       Q214


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and homeowners assisted numbers.
         GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA
         Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
         12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc.,
         HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q2 2014, no
         date.
190              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.16

       GEORGIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

            MORTGAGE PAYMENT ASSISTANCE                                                                                              MORTGAGE REINSTATEMENT PROGRAM
            (UNEMPLOYMENT)      Peak estimate: 18,300
                                                                                                                                     (PAST-DUE PAYMENT)
             25,000                                                   6/30/14 estimate: 9,100                                        10,000
                                                                      6/30/14 program participation: 5,146
             20,000
                                                                                                                                      7,500                               Peak estimate: 5,000
             15,000                                                                                                                                                       6/30/14 estimate: 5,000
                                                                                                                                      5,000                               6/30/14 program participation: 2
             10,000

               5,000
                                                                                                                                      2,500

                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation




            RECAST/MODIFICATION (MODIFICATION)

              2,000

              1,500                                Peak estimate: 1,000
                                                   6/30/14 estimate: 1,000
              1,000                                6/30/14 program participation: 0

                500

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                          Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and homeowners assisted numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
       Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
       12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q2 2014, no
       date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   191




Illinois’s HHF Programs
Treasury obligated $445,603,557 of HHF funds to Illinois.373 As of June 30, 2014,
                                                                    xxix
the state had drawn down $360 million (81%) of those funds.374, As of June 30,
2014, the most recent data available, Illinois had spent $285.4 million (64% of its
                                                                xxx
obligated funds) to help 13,371 individual homeowners.375, The remaining $25.2
million (6%) was spent on administrative expenses, and $54.9 million (12%) is held
                      xxxi
as cash-on-hand.376, As of June 30, 2014, the state had four HHF programs: one
to provide unemployment assistance to homeowners, a second and third to modify
homeowners’ mortgages and a fourth to demolish vacant properties. Illinois stopped
accepting new applications from struggling homeowners seeking help from their
                                                          xxxii
HHF programs submitted after September 30, 2013.377, In mid-2011, Illinois
estimated that it would help as many as 29,000 homeowners with HHF but, as of
June 30, 2014, reduced that peak estimate by 53%, to 13,500.
     Figure 4.17 shows, in aggregate, the number of homeowners estimated to
participate in Illinois’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
June 30, 2014. Because homeowners may participate in more than one program,
the reported program participation numbers are higher than the total number of
individual homeowners assisted. Figure 4.18 shows the number of homeowners
estimated to participate in each of Illinois’s programs (estimated program
participation) and the reported number of homeowners who participated in each of
Illinois’s programs (program participation), as of June 30, 2014.




xxix Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Illinois had
     drawn down $360 million.
xxx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
    assistance, cash-on-hand, or undrawn funds.
xxxi Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
      from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries
      and borrower remittances. Illinois HHF administrative expenses are paid by the Illinois State Administrative division, which the Illinois
      HFA periodically reimburses using HHF funding. As the Illinois HFA did not make any reimbursement payments to the Illinois State
      Administrative division in Q2, they did not report any administrative expense cash disbursements during the period.
xxxii According to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
       allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
192   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.17

                                                    ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 6/30/2014

                                                    30,000



                                                    25,000



                                                    20,000



                                                    15,000


                                                                                  Peak estimate: 29,000
                                                    10,000                        6/30/2014 estimate: 13,500
                                                                                  6/30/2014 program participation: 13,393
                                                                                  Homeowners assisted: 13,371

                                                     5,000



                                                        0
                                                             Q1’10
                                                             Q110 Q2’10
                                                                   Q210 Q3’10
                                                                        Q310 Q4’10
                                                                              Q410 Q1’11
                                                                                   Q111 Q2’11
                                                                                         Q211 Q3’11
                                                                                              Q311 Q4’11
                                                                                                    Q411 Q1’12
                                                                                                         Q112 Q2’12
                                                                                                               Q212 Q3’12
                                                                                                                    Q312 Q4’12
                                                                                                                          Q412 Q1’13
                                                                                                                               Q113 Q2’13
                                                                                                                                     Q213 Q3’13
                                                                                                                                          Q313 Q4’13
                                                                                                                                                Q413 Q1’14
                                                                                                                                                     Q114 Q2’14
                                                                                                                                                           Q214


                                                                State Estimated Program Participation              Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                             double-counted individual homeowners who received assistance from more than one program in
                                                             states that have more than one program. For its “Blight Elimination Program” (Demolition), Illinois
                                                             estimated a number of blighted properties proposed to be eliminated. This number is not included in
                                                             the aggregate estimate of all programs because it refers to properties and not homeowners.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Illinois Housing Development Authority, Proposal, no date; Treasury
                                                             and Illinois Housing Development Authority, Commitment to Purchase Financial Instrument and HFA
                                                             Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through tenth
                                                             Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012,
                                                             8/2/2012, 9/28/2012, 3/8/2012, 8/9/2013, and 4/11/2014; Illinois Housing Development
                                                             Authority, Illinois Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q2
                                                             2014, no date.
                                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                         193




FIGURE 4.18

 ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2014

      HARDEST HIT FUND HOMEOWNER EMERGENCY                                                                                     MORTGAGE RESOLUTION FUND PROGRAM
      LOAN PROGRAM (UNEMPLOYMENT)                                                                                              (MODIFICATION)

       50,000                                                   Peak estimate: 27,000                                           2,000
                                                                6/30/14 estimate: 12,000
       40,000                                                   6/30/14 program participation: 12,930                           1,500
                                                                                                                                                                 Peak estimate: 2,000
       30,000
                                                                                                                                1,000                            6/30/14 estimate: 1,000
       20,000                                                                                                                                                    6/30/14 program participation: 185
                                                                                                                                 500
       10,000

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                         State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation




      HOME PRESERVATION PROGRAM (MODIFICATION)                                                                                 HARDEST HIT FUND BLIGHT REDUCTION PROGRAM
                                                                                                                               (DEMOLITION)

          500                                                                                                                    100

          375                       Peak estimate: 500                                                                            75                 6/30/14 blighted homes proposed to be eliminated: 50
                                    6/30/14 estimate: 500                                                                                            6/30/14 actual blighted homes eliminated: 0
          250                       6/30/14 program participation: 278                                                            50

          125                                                                                                                     25

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                         State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Illinois estimated a number of
 blighted properties proposed to be eliminated. This number is not included in the aggregate estimate of all programs because it refers to properties and not homeowners.

 Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
 Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through tenth Amendment[s] to
 Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, 8/9/2013, and 4/11/2014; Illinois Housing Development Authority, Illinois Hardest
 Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q2 2014, no date.
194   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Indiana’s HHF Programs
                                             Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.378 As of June 30, 2014, the state had drawn down $66.3 million (30%)
                                                                 xxxiii
                                             of those funds.379, As of June 30, 2014, the most recent data available, Indiana
                                             had spent $42.1 million (19% of its obligated funds) to help 3,594 individual
                                                                                      xxxiv
                                             homeowners with its HHF programs.380, The remaining $13.4 million (6%)
                                             was spent on administrative expenses, and $11 million (5%) is held as cash-on-
                                                      xxxv
                                             hand.381, As of June 30, 2014, the state had four active HHF programs: one to
                                             provide unemployment assistance to homeowners, a second to modify homeowners’
                                             mortgages, a third to provide transition assistance to homeowners, and a fourth
                                             to demolish vacant properties. At the start of 2011, Indiana estimated helping as
                                             many as 16,257 homeowners with HHF but, as of June 30, 2014, reduced that
                                             peak estimate by 38%, to 10,150.
                                                 Figure 4.19 shows, in aggregate, the number of homeowners estimated to
                                             participate in Indiana’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of June
                                             30, 2014. Figure 4.20 shows the number of homeowners estimated to participate
                                             in each of Indiana’s programs (estimated program participation) and the reported
                                             number of homeowners who participated in each of Indiana’s programs (program
                                             participation), as of June 30, 2014.




                                             xxxiii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Indiana had
                                                   drawn down $66.3 million.
                                             xxxiv A
                                                    ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                    HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                    capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                    assistance, cash-on-hand, or undrawn funds.
                                             xxxv Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
                                                   from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
                                                   recoveries and borrower remittances.
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   195




FIGURE 4.19

INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 6/30/2014

20,000




15,000




10,000


                                                Peak estimate: 16,257
                                                6/30/2014 estimate: 10,150
 5,000                                          6/30/2014 program participation: 3,594
                                                Homeowners assisted: 3,594




    0
         Q1’10
         Q110 Q2’10
               Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114 Q2’14
                                                                                                       Q214


            State Estimated Program Participation               Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
         (Demolition), Indiana estimated a number of blighted properties proposed to be eliminated. This
         number is not included in the aggregate estimate of all programs because it refers to properties and
         not homeowners.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Indiana Housing and Community Development Authority, Proposal,
         9/1/2010 and (amended) 2/14/2011; Treasury and Indiana Housing and Community Development
         Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
         9/23/2010; Indiana Housing and Community Development Authority, first through eighth
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012,
         7/17/2012, 9/28/2012, 3/8/2013, and 12/12/2013; Indiana Housing and Community Development
         Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance
         Reports Q2 2011 - Q2 2014, no date.
196              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.20

       INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

            HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                                                     HARDEST HIT FUND RECAST/MODIFICATION
            PROGRAM (UNEMPLOYMENT)                                                                                                   PROGRAM (MODIFICATION)
             25,000                                                    Peak estimate: 16,257                                          2,000

             20,000                                                    6/30/14 estimate: 8,000
                                                                       6/30/14 program participation: 3,557                           1,500
                                                                                                                                                                                 Peak estimate: 2,000
             15,000                                                                                                                                                              6/30/14 estimate: 2,000
                                                                                                                                      1,000
             10,000                                                                                                                                                              6/30/14 program participation: 35
                                                                                                                                       500
               5,000

                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                   State Estimated Program Participation                          Program Participation




            HARDEST HIT FUND TRANSITION ASSISTANCE                                                                                   HARDEST HIT FUND BLIGHT ELIMINATION PROGRAM
            PROGRAM (TRANSITION)                                                                                                     (DEMOLITION)
                200                                                                                                                   5,000

                                                                                                                                      4,000
                150
                                             Peak estimate: 150
                                             6/30/14 estimate: 150                                                                    3,000          6/30/14 blighted homes proposed to be eliminated: 5,000
                100
                                             6/30/14 program participation: 2                                                                        6/30/14 actual blighted homes eliminated: 0
                                                                                                                                      2,000
                 50                                                                                                                   1,000

                   0                                                                                                                     0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Indiana estimated a number of
       blighted properties proposed to be eliminated. This number is not included in the aggregate estimate of all programs because it refers to properties and not homeowners.

       Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
       2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
       Community Development Authority, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, 3/8/2013, and
       12/12/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q2 2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   197




Kentucky’s HHF Program
Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
Kentucky is not getting a significant amount of these funds out the door to help
homeowners with HHF.382 As of June 30, 2014, the state had drawn down $84
                                     xxxvi
million (56%) of those funds.383, As of June 30, 2014, the most recent data
available, Kentucky had spent $65.2 million (44% of its obligated funds) to help
                                                             xxxvii
5,727 individual homeowners with its HHF program.384,               The remaining $10.6
million (7%) was spent on administrative expenses, and $8.7 million (6%) is held as
                  xxxviii
cash-on-hand.385,         As of June 30, 2014, the state had one active HHF program,
to provide unemployment assistance to homeowners. At the end of 2010, Kentucky
estimated that it would provide HHF unemployment assistance to as many as
15,000 homeowners but, as of June 30, 2014, reduced that peak estimate by 60%,
to 5,960. As of June 30, 2014, Kentucky had helped 5,727 homeowners with HHF
unemployment assistance.
    Figure 4.21 shows the number of homeowners estimated to participate in
Kentucky’s program and the number of homeowners who have been assisted, as of
June 30, 2014.




xxxvi Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Kentucky
      had drawn down $104 million.
xxxvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxxviii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
         from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
         recoveries and borrower remittances.
198   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 4.21

                                                     KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM
                                                     (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION AND
                                                     HOMEOWNERS ASSISTED, AS OF 6/30/2014

                                                     15,000




                                                     12,000




                                                      9,000




                                                      6,000

                                                                     Peak estimate: 15,000
                                                                     6/30/2014 estimate: 5,960
                                                      3,000          6/30/2014 program participation: 5,727
                                                                     Homeowners assisted: 5,727



                                                         0
                                                              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14


                                                                 State Estimated Program Participation                 Homeowners Assisted

                                                              Notes: Estimated includes highest estimate of a range.

                                                              Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                              Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky Housing Corporation,
                                                              Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
                                                              Kentucky Housing Corporation, first through sixth Amendment[s] to Agreement[s], 9/29/2010,
                                                              12/16/2010, 3/31/2011, 9/28/2011, 3/3/2012, and 12/14/2012; Kentucky Housing Corporation,
                                                              American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemploy-
                                                              ment Bridge Program, Quarterly Performance Reports Q4 2010 - Q2 2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   199




Michigan’s HHF Programs
Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
Michigan is not getting a significant amount of these funds out the door to help
homeowners with HHF.386 As of June 30, 2014, the state had drawn down $204.4
                                 xxxix
million (41%) of those funds.387, As of June 30, 2014, the most recent data
available, Michigan had spent $164.8 million (33% of its obligated funds) to help
                                                         xl
21,194 individual homeowners with HHF programs.388, As of June 30, 2014,
Michigan had spent $3.3 million to demolish vacant properties. The remaining
$21.7 million (4%) was spent on administrative expenses, and $19.1 million (4%) is
                          xli
held as cash-on-hand.389, As of June 30, 2014, the state had five HHF programs:
one to modify homeowners mortgage, a second to modify homeowners’ mortgages
with principal reduction assistance, a third to provide past-due payment assistance
to homeowners, a fourth to provide unemployment assistance to homeowners, and
a fifth to demolish vacant properties. At the end of 2010, Michigan estimated that
it would help as many as 49,422 homeowners with HHF, but, as of June 30, 2014,
had reduced that peak estimate by 77%, to 11,477.
     Figure 4.22 shows, in aggregate, the number of homeowners estimated to
participate in Michigan’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of June
30, 2014. Figure 4.23 shows the number of homeowners estimated to participate
in each of Michigan’s programs (estimated program participation) and the reported
number of homeowners who participated in each of Michigan’s programs (program
participation), as of June 30, 2014.




xxxix Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Michigan
       had drawn down $304.1 million.
xl According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
   programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
   and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
   cash-on-hand, or undrawn funds.
xli Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
     Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
     borrower remittances.
200   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.22

                                                    MICHIGAN ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 6/30/2014

                                                    50,000




                                                    40,000




                                                    30,000




                                                    20,000

                                                                     Peak estimate: 49,422
                                                                     6/30/2014 estimate: 11,477
                                                    10,000           6/30/2014 program participation: 21,194
                                                                     Homeowners assisted: 21,194



                                                        0
                                                             Q110 Q2’10
                                                             Q1’10 Q210 Q3’10
                                                                        Q310 Q4’10
                                                                              Q410 Q1’11
                                                                                   Q111 Q2’11
                                                                                         Q211 Q3’11
                                                                                              Q311 Q4’11
                                                                                                    Q411 Q1’12
                                                                                                         Q112 Q2’12
                                                                                                               Q212 Q3’12
                                                                                                                    Q312 Q4’12
                                                                                                                          Q412 Q1’13
                                                                                                                               Q113 Q2’13
                                                                                                                                     Q213 Q3’13
                                                                                                                                          Q313 Q4’13
                                                                                                                                                Q413 Q1’14
                                                                                                                                                     Q114 Q2’14
                                                                                                                                                           Q214


                                                                State Estimated Program Participation               Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
                                                             (Demolition), Michigan estimated a number of blighted properties proposed to be eliminated. This
                                                             number is not included in the aggregate estimate of all programs because it refers to properties and
                                                             not homeowners.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Proposal, 10/15/2010; Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan
                                                             Homeowner Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to
                                                             Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012,
                                                             6/6/2013, and 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q2 2014, no date;
                                                             Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                         201




FIGURE 4.23

 MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2014

      PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                                             LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                                   Peak estimate: 3,044                                                                                                 Peak estimate: 21,760
         6,000                                                                                                                 25,000
                                                                   6/30/14 estimate: 300                                                                                                6/30/14 estimate: 6,600
         5,000                                                     6/30/14 program participation: 302                          20,000                                                   6/30/14 program participation: 14,560
         4,000
                                                                                                                               15,000
         3,000
                                                                                                                               10,000
         2,000
         1,000                                                                                                                  5,000

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




      UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                                    MODIFICATION PLAN PROGRAM (MODIFICATION)
      (UNEMPLOYMENT)
        25,000                                                                                                                  1,000

        20,000
                                                                                                                                 750
        15,000
                    Peak estimate: 24,618                                                                                        500             Peak estimate: 825
        10,000                                                                                                                                   6/30/14 estimate: 295
                    6/30/14 estimate: 4,282
         5,000      6/30/14 program participation: 6,262                                                                         250             6/30/14 program participation: 70

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




      BLIGHT ELIMINATION PROGRAM (DEMOLITION)

         5,000

         4,000

         3,000
                         6/30/14 blighted homes proposed to be eliminated: 4,000
         2,000           6/30/14 actual blighted homes eliminated: 315
         1,000

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                           Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan estimated a number of
 blighted properties proposed to be eliminated. This number is not included in the aggregate estimate of all programs because it refers to properties and not homeowners.

 Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
 Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
 Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, 6/6/2013, and
 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q2 2014, no date; Treasury, response to
 SIGTARP data calls, 10/7/2013 and 7/8/2014.
202   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Mississippi’s HHF Program
                                             Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
                                             Mississippi is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.390 As of June 30, 2014, the state had drawn down $44.3
                                                                               xlii
                                             million (44%) of those funds.391, As of June 30, 2014, the most recent data
                                             available, Mississippi had spent $33.5 million (33% of its obligated funds) to help
                                                                                                       xliii
                                             2,480 individual homeowners with its HHF program.392, The remaining $7.3
                                             million (7%) was spent on administrative expenses, and $3.7 million (4%) is held
                                                                  xliv
                                             as cash-on-hand.393, As of June 30, 2014, the state had one HHF program, to
                                             provide unemployment assistance to homeowners. At the end of 2010, Mississippi
                                             estimated that it would provide HHF unemployment assistance to as many as
                                             3,800 homeowners, but as of June 30, 2014, reduced that peak estimate by 8%,
                                             to 3,500. As of June 30, 2014, Mississippi had provided HHF unemployment
                                             assistance to 2,480 homeowners.
                                                 Figure 4.24 shows the number of homeowners estimated to participate in
                                             Mississippi’s program and the number of homeowners who have been assisted, as
                                             of June 30, 2014.




                                             xlii T
                                                   reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Mississippi
                                                  had drawn down $55.8 million.
                                             xliii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xliv F igures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                                  Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                  borrower remittances.
                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   203




FIGURE 4.24

MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 6/30/2014

4,000


3,500


3,000                            Peak estimate: 3,800
                                 6/30/14 estimate: 3,500
                                 6/30/14 program participation: 2,480
2,500
                                 Homeowners assisted: 2,480

2,000


1,500


1,000


 500


   0
        Q110 Q2’10
        Q1’10 Q210 Q3’10
                   Q310 Q4’10
                         Q410 Q1’11
                              Q111 Q2’11
                                    Q211 Q3’11
                                         Q311 Q4’11
                                               Q411 Q1’12
                                                    Q112 Q2’12
                                                          Q212 Q3’12
                                                               Q312 Q4’12
                                                                     Q412 Q1’13
                                                                          Q113 Q2’13
                                                                                Q213 Q3’13
                                                                                     Q313 Q4’13
                                                                                           Q413 Q1’14
                                                                                                Q114 Q2’14
                                                                                                      Q214

            State Estimated Program Participation                Homeowners Assisted

        Notes: Estimated includes highest estimate of a range.

        Sources: States provide estimates for program participation and homeowners assisted numbers.
        Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi Home Corporation,
        Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
        Mississippi Home Corporation, first through seventh Amendment[s] to Agreement[s], 9/29/2010,
        12/16/2010, 12/8/2011, 9/28/2011, 1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013;
        Mississippi Home Corporation, Financial Disclosures, Hardest Hit Fund, HFA Performance Data
        Report[s], Quarterly Performance Reports Q4 2010 - Q2 2014, no date.
204   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                      xlv
                                             Nevada’s HHF Programs
                                             Treasury obligated $194,026,240 of HHF funds to Nevada.394 As of June 30, 2014,
                                                                                                             xlvi
                                             the state had drawn down $112 million (58%) of those funds.395, As of June 30,
                                             2014, the most recent data available, Nevada had spent $83.6 million (43% of its
                                                                                                                              xlvii
                                             obligated funds) to help 5,325 individual homeowners with its HHF programs.396,
                                             The remaining $12.3 million (6%) was spent on administrative expenses, and $16.6
                                                                                      xlviii
                                             million (9%) is held as cash-on-hand.397, As of June 30, 2014, the state had seven
                                             active HHF programs: two to provide unemployment assistance to homeowners,
                                             three to modify homeowners’ mortgages with principal reduction assistance, one
                                             for second-lien reduction assistance to homeowners, and one to provide transition
                                             assistance to homeowners. In mid-2011, Nevada estimated that it would help as
                                             many as 23,556 homeowners with HHF but, as of June 30, 2014, reduced that
                                             peak estimate by 68%, to 7,565.
                                                 Figure 4.25 shows, in aggregate, the number of homeowners estimated to
                                             participate in Nevada’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             March 31, 2014. Figure 4.26 shows the number of homeowners estimated to
                                             participate in each of Nevada’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Nevada’s programs
                                             (program participation), as of March 31, 2014.




                                             xlv Program Participation data for Nevada were not yet available at time of publication.
                                             xlvi T
                                                   reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Nevada had
                                                  drawn down $112 million.
                                             xlvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xlviii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
                                                     from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
                                                     recoveries and borrower remittances.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   205




FIGURE 4.25

NEVADA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 3/31/2014

25,000

                                                            Peak estimate: 23,556
                                                            3/31/2014 estimate: 6,854
                                                            3/31/2014 program participation: 5,202
20,000                                                      Homeowners assisted: 5,202




15,000




10,000




 5,000




    0
         Q110 Q2’10
         Q1’10 Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: As Nevada Program Participation data was not yet available at time of publication for June 30,
         2014, we have published the most up-to-date information available, as of March 31, 2014.
         Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Nevada Affordable Housing Assistance Corporation, Proposal,
         6/14/2010; Treasury and Nevada Affordable Housing Assistance Corporation, Commitment to
         Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable
         Housing Assistance Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010,
         9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,
         6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance Corporation,
         Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q1 2014,
         no date.
206              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.26

       NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 3/31/2014

            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                         SECOND MORTGAGE REDUCTION PLAN
                                                                                                                               (SECOND-LIEN REDUCTION)
                                                                    Peak estimate: 3,016
               6,000                                                3/31/14 estimate: 1,040                                     6,000                                                   Peak estimate: 2,200
               5,000                                                3/31/14 program participation: 1,210                        5,000                                                   3/31/14 estimate: 500
               4,000                                                                                                            4,000
                                                                                                                                                                                        3/31/14 program participation: 406

               3,000                                                                                                            3,000
               2,000                                                                                                            2,000
               1,000                                                                                                            1,000
                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                              State Estimated Program Participation                       Program Participation                                State Estimated Program Participation                       Program Participation




            SHORT-SALE ACCELERATION PROGRAM                                                                                    MORTGAGE ASSISTANCE PROGRAM
            (TRANSITION)                                                                                                       (UNEMPLOYMENT)
               2,000                                                                                                           25,000                                                   Peak estimate: 16,969
                                                                                                                               20,000
                                                                                                                                                                                        3/31/14 estimate: 4,033
               1,500                                                                                                                                                                    3/31/14 program participation: 3,268
                                                                                                                               15,000
               1,000
                          Peak estimate: 1,713                                                                                 10,000
                          3/31/14 estimate: 60
                500
                          3/31/14 program participation: 100                                                                    5,000

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                               State Estimated Program Participation                      Program Participation                                State Estimated Program Participation                       Program Participation




            MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE                                                                            HOME RETENTION PROGRAM (MODIFICATION)
            (UNEMPLOYMENT)
                500                                                                                                             2,000

                375                                                                                                             1,500                Peak estimate: 1,150
                           Peak estimate: 416                                                                                                        3/31/14 estimate: 1,150
                250                                                                                                             1,000
                           3/31/14 estimate: 71                                                                                                      3/31/14 program participation: 0
                125        3/31/14 program participation: 218                                                                    500

                   0                                                                                                                0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14

                               State Estimated Program Participation                      Program Participation                                State Estimated Program Participation                       Program Participation



       Notes: As Nevada Program Participation data was not yet available at time of publication for June 30, 2014, we have published the most up-to-date information available, as of March 31, 2014.
       Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
       through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
       Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q1 2014, no date.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   207




New Jersey’s HHF Program
Treasury obligated $300,548,144 of HHF funds to New Jersey.398 New Jersey
has drawn down $245.5 million (82%) of obligated funds and spent $172.2
million (57%) of its obligated funds on program expenses to help 5,673 individual
                xlix l
homeowners.399, , The remaining $21.2 million (7%) was spent on administrative
                                                              li
expenses, and $52.9 million (18%) is held as cash-on-hand.400, As of June 30,
2014, the state had one active HHF program, to provide unemployment assistance
to homeowners. From the end of 2010 to the end of 2013, New Jersey estimated
helping 6,900 homeowners with HHF but, as of June 30, 2014, reduced that peak
estimate by 6%, to 6,500. According to Treasury, New Jersey stopped accepting new
applications from struggling homeowners seeking help from their HHF programs
                                        lii
submitted after November 30, 2013.401,
    Figure 4.27 shows the number of homeowners estimated to participate in New
Jersey’s program and the number of homeowners who have been assisted, as of
June 30, 2014.




xlix T
      reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, New Jersey
    had drawn down $245.5 million.
lA
  ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
  cash-on-hand, or undrawn funds.
li Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
    Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
    borrower remittances.
lii A
     ccording to Treasury, New Jersey is no longer accepting applications for assistance from homeowners because it determined that its
    allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
208   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 4.27

                                                     NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)
                                                     ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                     ASSISTED, AS OF 6/30/2014

                                                     8,000


                                                     7,000


                                                     6,000


                                                     5,000                            Peak estimate: 6,900
                                                                                      6/30/2014 estimate: 6,500
                                                                                      6/30/2014 program participation: 5,673
                                                     4,000                            Homeowners assisted: 5,673

                                                     3,000


                                                     2,000


                                                     1,000


                                                        0
                                                             Q1’10
                                                             Q110 Q2’10
                                                                   Q210 Q3’10
                                                                        Q310 Q4’10
                                                                              Q410 Q1’11
                                                                                   Q111 Q2’11
                                                                                         Q211 Q3’11
                                                                                              Q311 Q4’11
                                                                                                    Q411 Q1’12
                                                                                                         Q112 Q2’12
                                                                                                               Q212 Q3’12
                                                                                                                    Q312 Q4’12
                                                                                                                          Q412 Q1’13
                                                                                                                               Q113 Q2’13
                                                                                                                                     Q213 Q3’13
                                                                                                                                          Q313 Q4’13
                                                                                                                                                Q413 Q1’14
                                                                                                                                                     Q114 Q2’14
                                                                                                                                                           Q214


                                                                 State Estimated Program Participation                Homeowners Assisted

                                                             Notes: Estimated includes highest estimate of a range.

                                                             Sources: States provide estimates for program participation and homeowners assisted numbers. New
                                                             Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010; Treasury and New Jersey
                                                             Housing and Mortgage Finance Agency, Commitment to Purchase Financial Instrument and HFA
                                                             Participation Agreement, 9/23/2010; New Jersey Housing and Mortgage Finance Agency, first
                                                             through seventh Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012,
                                                             8/24/2012, 10/30/2013, and 4/11/2014; New Jersey Housing and Mortgage Finance Agency, The
                                                             New Jersey HomeKeeper Program, About the Program, Performance Reports, Quarterly Performance
                                                             Reports Q3 2011 - Q2 2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   209




North Carolina’s HHF Programs
Treasury obligated $482,781,786 of HHF funds to North Carolina.402 As of June
30, 2014, the state had drawn down $352.9 million (73%) of those funds and
spent $257 million (53%) of their obligated funds on program expenses to help
                                   liii liv
16,767 individual homeowners.403, , The remaining $44.4 million (9%) was spent
                                                                                 lv
on administrative expenses, and $53.6 million (11%) is held as cash-on-hand.404,
As of June 30, 2014, the state had four active HHF programs: two to provide
unemployment assistance to homeowners, a third to provide second-lien reduction
assistance to homeowners, and a fourth to modify homeowners’ mortgages with
principal reduction. From mid-2011 to mid-2013, North Carolina estimated that
it would help as many as 22,290 homeowners with HHF, but as of June 30, 2014,
reduced that peak estimate to 21,310.
    Figure 4.28 shows, in aggregate, the number of homeowners estimated to
participate in North Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of June 30, 2014. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 4.29 shows the number
of homeowners estimated to participate in each of North Carolina’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of North Carolina’s programs (program participation), as of
June 30, 2014.




liii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, North Carolina
    had drawn down $352.9 million.
liv According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
lv Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
    Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
    borrower remittances.
210   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.28

                                                    NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
                                                    PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                    ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2014

                                                     25,000




                                                     20,000

                                                                                           Peak estimate: 22,290
                                                                                           6/30/2014 estimate: 21,310
                                                     15,000                                6/30/2014 program participation: 16,856
                                                                                           Homeowners assisted: 16,767



                                                     10,000




                                                      5,000




                                                         0
                                                              Q1’10
                                                              Q110 Q2’10
                                                                    Q210 Q3’10
                                                                         Q310 Q4’10
                                                                               Q410 Q1’11
                                                                                    Q111 Q2’11
                                                                                          Q211 Q3’11
                                                                                               Q311 Q4’11
                                                                                                     Q411 Q1’12
                                                                                                          Q112 Q2’12
                                                                                                                Q212 Q3’12
                                                                                                                     Q312 Q4’12
                                                                                                                           Q412 Q1’13
                                                                                                                                Q113 Q2’13
                                                                                                                                      Q213 Q3’13
                                                                                                                                           Q313 Q4’13
                                                                                                                                                 Q413 Q1’14
                                                                                                                                                      Q114 Q2’14
                                                                                                                                                            Q214


                                                                 State Estimated Program Participation            Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                              double-counted individual homeowners who received assistance from more than one program in states
                                                              that have more than one program.

                                                              Sources: States provide estimates for program participation and report program participation and
                                                              homeowners assisted numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010;
                                                              Treasury and North Carolina Housing Finance Agency, Commitment to Purchase Financial Instrument
                                                              and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through
                                                              seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011,
                                                              1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund
                                                              & Performance Reporting, Quarterly Performance Reports Q3 2010 - Q2 2014, no date; Treasury,
                                                              response to SIGTARP data call, 10/7/2013.
                                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                         211




FIGURE 4.29

 NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 6/30/2014

      MORTGAGE PAYMENT PROGRAM-1                                                                                               MORTGAGE PAYMENT PROGRAM-2
      (UNEMPLOYMENT)                                                                                                           (UNEMPLOYMENT)
        6,000                                                                                                                  15,000
        5,000                                                                                                                  12,000
        4,000                                                                                                                                                   Peak estimate: 14,100
                                                                                                                                9,000                           6/30/14 estimate: 14,100
        3,000
                                                                                                                                6,000                           6/30/14 program participation: 12,478
        2,000                                                        Peak estimate: 5,750
                                                                     6/30/14 estimate: 5,410                                    3,000
        1,000
                                                                     6/30/14 program participation: 4,269
             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation




      SECOND MORTGAGE REFINANCE PROGRAM                                                                                        PERMANENT LOAN MODIFICATION PROGRAM
      (SECOND-LIEN REDUCTION)                                                                                                  (MODIFICATION)
        2,000                                                                                                                    500

        1,500                                                                                                                    375

        1,000                                    Peak estimate: 2,000                                                            250                                                         Peak estimate: 440
                                                 6/30/14 estimate: 1,000                                                                                                                     6/30/14 estimate: 0
          500                                    6/30/14 program participation: 109                                              125                                                         6/30/14 program participation: 0

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation




      PRINCIPAL REDUCTION RECAST PROGRAM                                                                                       MODIFICATION ENABLING PILOT PROJECT
      (MODIFICATION)                                                                                                           (MODIFICATION)
        2,000                                                                                                                   1,000

        1,500                                                                                                                    750
                                                                                                                                                                       Peak estimate: 800
        1,000                          Peak estimate: 680                                                                        500                                   6/30/14 estimate: 800
                                       6/30/14 estimate: 0                                                                                                             6/30/14 program participation: 0
          500                          6/30/14 program participation: 0                                                          250

             0                                                                                                                      0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                         State Estimated Program Participation                          Program Participation                                   State Estimated Program Participation                          Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
 Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through seventh Amendment[s] to
 Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting,
 Quarterly Performance Reports Q3 2010 - Q2 2014, no date; Treasury, response to SIGTARP data call, 10/7/2013.
212   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Ohio’s HHF Programs
                                             Treasury obligated $570,395,099 of HHF funds to Ohio.405 As of June 30, 2014,
                                                                                                                 lvi
                                             the state had drawn down $404.9 million (71%) of those funds.406, As of June
                                             30, 2014, the most recent data available, Ohio had spent $307.9 million (54%
                                             of its obligated funds) to help 20,316 individual homeowners with its HHF
                                                           lvii
                                             programs.407, The remaining $38.8 million (7%) was spent on administrative
                                                                                                           lviii
                                             expenses, and $59.4 million (10%) is held as cash-on-hand.408, As of June 30,
                                             2014, the state had eight active HHF programs: four to modify homeowners’
                                             mortgages, a fifth to provide past-due payment assistance to homeowners, a sixth to
                                             provide unemployment assistance to homeowners, a seventh to provide transition
                                             assistance to homeowners and an eighth to demolish vacant properties. Under this
                                             program, Ohio has spent $130,100 and demolished and removed 14 properties.
                                             Ohio’s HFA stopped accepting new applications after April 30, 2014.409 At the end
                                             of 2010, Ohio estimated that it would help as many as 63,485 homeowners with
                                             HHF but, as of June 30, 2014, reduced that peak estimate by 35%, to 41,201.
                                                 Figure 4.30 shows, in aggregate, the number of homeowners estimated to
                                             participate in Ohio’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 4.31 shows the number of homeowners
                                             estimated to participate in each of Ohio’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             Ohio’s programs (program participation), as of June 30, 2014.




                                             lvi Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Ohio had
                                                 drawn down $439.9 million.
                                             lvii A
                                                   ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                  cash-on-hand, or undrawn funds.
                                             lviii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                                    Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                    borrower remittances.
                                                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   213




FIGURE 4.30

OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 6/30/2014

80,000                                             Peak estimate: 63,485
                                                   6/30/2014 estimate: 41,201
                                                   6/30/2014 program participation: 33,072
70,000                                             Homeowners assisted: 20,316

60,000


50,000


40,000


30,000


20,000


10,000


    0
         Q1’10
         Q110 Q2’10
               Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114 Q2’14
                                                                                                       Q214


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program. For its “Blight Elimination Program” (Demolition), Ohio estimated a
         number of blighted properties proposed to be eliminated. This number is not included in the aggregate
         estimate of all programs because it refers to properties and not homeowners.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Ohio Homeowner Assistance LLC, Proposal [revised], 4/11/2011;
         Treasury and Ohio Homeowner Assistance LLC, Commitment to Purchase Financial Instrument and
         HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,
         12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance
         LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2014, no
         date; Treasury, response to SIGTARP data call, 10/7/2013.
214            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.31

       OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

           RESCUE PAYMENT ASSISTANCE PROGRAM                                                                                       MORTGAGE PAYMENT ASSISTANCE PROGRAM
           (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                                               (UNEMPLOYMENT)
                                                                  6/30/14 estimate: 21,000                                                                                                 Peak estimate: 31,900
            25,000                                                6/30/14 program participation: 17,115                            50,000                                                  6/30/14 estimate: 15,500
            20,000                                                                                                                 40,000                                                  6/30/14 program participation: 12,525

            15,000                                                                                                                 30,000

            10,000                                                                                                                 20,000

             5,000                                                                                                                 10,000

                 0                                                                                                                     0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                            State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




           MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                                               LIEN ELIMINATION ASSISTANCE (MODIFICATION)
           PROGRAM (MODIFICATION)
                                                                                                                                                                                           Peak estimate: 2,350
             7,500                                                                                                                  6,000                                                  6/30/14 estimate: 1,150
             6,000                                                                                                                  5,000                                                  6/30/14 program participation: 871
                                                                                                                                    4,000
             4,500
                           Peak estimate: 6,400                                                                                     3,000
             3,000         6/30/14 estimate: 1,300                                                                                  2,000
             1,500         6/30/14 program participation: 999
                                                                                                                                    1,000
                 0                                                                                                                     0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                            State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




           TRANSITION ASSISTANCE PROGRAM                                                                                           HOMEOWNERSHIP RETENTION ASSISTANCE
           (TRANSITION)                                                                                                            (MODIFICATION)
                                                                           Peak estimate: 4,900                                                                                            Peak estimate: 3,100
             6,000                                                         6/30/14 estimate: 63                                     6,000                                                  6/30/14 estimate: 1,738
             5,000                                                         6/30/14 program participation: 63                        5,000                                                  6/30/14 program participation: 1,289
             4,000                                                                                                                  4,000
             3,000                                                                                                                  3,000
             2,000                                                                                                                  2,000
             1,000                                                                                                                  1,000
                 0                                                                                                                     0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                            State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation
                                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                         215




OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
PROGRAM, AS OF 6/30/2014 (CONTINUED)

   HOMEOWNER STABILIZATION ASSISTANCE                                                                                       SHORT REFINANCE PROGRAM
   PROGRAM (MODIFICATION)                                                                                                   (TRANSITION)
                                                                                                                                                                                          Peak estimate: 6,500
      6,000                                                                                                                 10,000                                                        6/30/14 estimate: 0
      5,000                                                                                                                  8,000                                                        6/30/14 program participation: 0
      4,000                             Peak estimate: 900
                                        6/30/14 estimate: 450                                                                6,000
      3,000
                                        6/30/14 program participation: 210                                                   4,000
      2,000
      1,000                                                                                                                  2,000

          0                                                                                                                      0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                      State Estimated Program Participation                          Program Participation                                  State Estimated Program Participation                           Program Participation




   NEIGHBORHOOD INITIATIVE PROGRAM
   (DEMOLITION)
    10,000

     8,000           6/30/14 blighted homes proposed to be eliminated: 5,000
                     6/30/14 actual blighted homes eliminated: 14
      6,000

      4,000

      2,000

          0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                     State Estimated Program Participation                           Program Participation



Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Ohio estimated a number of
blighted properties proposed to be eliminated. This number is not included in the aggregate estimate of all programs because it refers to properties and not homeowners.

Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth Amendment[s] to Agreement[s],
9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance LLC, Save the Dream Ohio:
Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q2 2014, no date; Treasury, response to SIGTARP data call, 10/7/2013.
216   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Oregon’s HHF Programs
                                             Treasury obligated $220,042,786 of HHF funds to Oregon.410 As of June 30, 2014,
                                                                                                                 lix
                                             the state had drawn down $188.7 million (86%) of those funds.411, As of June
                                             30, 2014, the most recent data available, Oregon had spent $153 million (70%
                                                                                                              lx
                                             of its obligated funds) to help 10,505 individual homeowners.412, The remaining
                                             $31.4 million (14%) was spent on administrative expenses, and $15.7 million (7%)
                                                                         lxi
                                             is held as cash-on-hand.413, As of June 30, 2014, the state had four active HHF
                                             programs: two to modify homeowners’ mortgages, a third to provide unemployment
                                             assistance to homeowners, and a fourth to provide past-due payment assistance to
                                             homeowners. Oregon stopped accepting new applications after June 30, 2014.414
                                             As of March 31, 2014, Oregon estimated that it would help as many as 15,280
                                             homeowners with HHF but, as of June 30, 2014, had decreased that estimate to
                                             15,150.415
                                                 Figure 4.32 shows, in aggregate, the number of homeowners estimated to
                                             participate in Oregon’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             June 30, 2014. Because homeowners may participate in more than one program,
                                             the reported program participation numbers are higher than the total number of
                                             individual homeowners assisted. Figure 4.33 shows the number of homeowners
                                             estimated to participate in each of Oregon’s programs (estimated program
                                             participation) and the reported number of homeowners who participated in each of
                                             Oregon’s programs (program participation), as of June 30, 2014.




                                             lix Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Oregon had
                                                 drawn down $188.7 million.
                                             lx A
                                                 ccording to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             lxi Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
                                                  Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
                                                  borrower remittances.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   217




FIGURE 4.32

OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 6/30/2014

20,000                                 Peak estimate: 15,280
                                       6/30/2014 estimate: 15,150
                                       6/30/2014 program participation: 13,751
                                       Homeowners assisted: 10,505

15,000




10,000




 5,000




    0
         Q110
         Q1’10 Q210
               Q2’10 Q310
                     Q3’10 Q410
                           Q4’10 Q111
                                 Q1’11 Q211
                                       Q2’11 Q311
                                             Q3’11 Q411
                                                   Q4’11 Q112
                                                         Q1’12 Q212
                                                               Q2’12 Q312
                                                                     Q3’12 Q412
                                                                           Q4’12 Q113
                                                                                 Q1’13 Q213
                                                                                       Q2’13 Q310
                                                                                             Q3’13 Q413
                                                                                                   Q4’13 Q114
                                                                                                         Q1’14 Q214
                                                                                                               Q2’14


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no
         date; Treasury and Oregon Affordable Housing Assistance Corporation, Commitment to Purchase
         Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing
         Assistance Corporation, first through fifteenth Amendment[s] to Agreement[s], 9/23/2010,
         9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012,
         7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, 8/28/2013, 2/27/2014, and 6/11/2014; Oregon
         Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting,
         Quarterly Performance Reports Q2 2011 - Q2 2014, no date.
218              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.33

       OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 6/30/2014

            LOAN MODIFICATION ASSISTANCE PROGRAM                                                                                     MORTGAGE PAYMENT ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                                           (UNEMPLOYMENT)
               6,000                                                        Peak estimate: 2,600                                     15,000                    Peak estimate: 11,000
               5,000                                                        6/30/14 estimate: 0                                                                6/30/14 estimate: 11,000
                                                                                                                                     12,000
                                                                            6/30/14 program participation: 0                                                   6/30/14 program participation: 10,042
               4,000
                                                                                                                                      9,000
               3,000
                                                                                                                                      6,000
               2,000
               1,000                                                                                                                  3,000

                  0                                                                                                                       0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            LOAN PRESERVATION ASSISTANCE PROGRAM                                                                                     TRANSITION ASSISTANCE PROGRAM
            (PAST-DUE PAYMENT)                                                                                                       (TRANSITION)
                                                                  Peak estimate: 4,000
               6,000                                              6/30/14 estimate: 3,900                                             6,000                                                         Peak estimate: 2,515
               5,000                                              6/30/14 program participation: 3,530                                5,000                                                         6/30/14 estimate: 0
                                                                                                                                                                                                    6/30/14 program participation: 0
               4,000                                                                                                                  4,000
               3,000                                                                                                                  3,000
               2,000                                                                                                                  2,000
               1,000                                                                                                                  1,000
                  0                                                                                                                       0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            LOAN REFINANCE ASSISTANCE PROGRAM                                                                                        REBUILDING AMERICAN HOMEOWNERSHIP
            (MODIFICATION)                                                                                                           ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                                           Peak estimate: 330
                500
                                                                           6/30/14 estimate: 200                                       200                                                       Peak estimate: 50
                                                                           6/30/14 program participation: 133                                                                                    6/30/14 estimate: 50
                375                                                                                                                    150                                                       6/30/14 program participation: 46

                250                                                                                                                    100

                125                                                                                                                     50

                  0                                                                                                                       0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
       fifteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013,
       8/28/2013, 2/27/2014, and 6/11/2014; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q2
       2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   219




Rhode Island’s HHF Program
Treasury obligated $79,351,573 of HHF funds to Rhode Island.416 As of June 30,
                                                           lxii
2014, the state had drawn down 100% of those funds.417, As of June 30, 2014,
the most recent data available, Rhode Island had spent $59.5 million (75% of its
                                                                                   lxiii
obligated funds) to help 3,075 individual homeowners with its HHF programs.418,
The remaining $7.8 million (10%) was spent on administrative expenses, and $12.5
                                           lxiv
million (16%) is held as cash-on-hand.419, As of June 30, 2014, the state had five
HHF programs: two to modify homeowners’ mortgages (one of which includes
principal reduction assistance), a third to provide past-due payment assistance to
homeowners, a fourth to provide transition assistance to homeowners, and a fifth
to provide unemployment assistance to homeowners. According to Treasury, Rhode
Island stopped accepting new applications from struggling homeowners seeking
                                                                     lxv
help from their HHF programs submitted after January 31, 2013.420, At the end of
2010, Rhode Island estimated that it would help as many as 13,125 homeowners
with HHF but, as of June 30, 2014, reduced that peak estimate by 74%, to 3,413.
    Figure 4.34 shows, in aggregate, the number of homeowners estimated to
participate in Rhode Island’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of June 30, 2014. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 4.35 shows the number
of homeowners estimated to participate in each of Rhode Island’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of Rhode Island’s programs (program participation), as of June
30, 2014.




lxii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Rhode Island
     had drawn down 100% of its obligated funds.
lxiii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
lxiv Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
      Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
      borrower remittances.
lxv A
     ccording to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined that
    its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
220   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 4.34

                                                     RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,
                                                     PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                     ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2014

                                                     15,000


                                                                                                       Peak estimate: 13,125
                                                                                                       6/30/2014 estimate: 3,413
                                                     12,000
                                                                                                       6/30/2014 program participation: 3,339
                                                                                                       Homeowners assisted: 3,075


                                                      9,000




                                                      6,000




                                                      3,000




                                                         0
                                                              Q1’10
                                                              Q110 Q2’10
                                                                    Q210 Q3’10
                                                                         Q310 Q4’10
                                                                               Q410 Q1’11
                                                                                    Q111 Q2’11
                                                                                          Q211 Q3’11
                                                                                               Q311 Q4’11
                                                                                                     Q411 Q1’12
                                                                                                          Q112 Q2’12
                                                                                                                Q212 Q3’12
                                                                                                                     Q312 Q4’12
                                                                                                                           Q412 Q1’13
                                                                                                                                Q113 Q2’13
                                                                                                                                      Q213 Q3’13
                                                                                                                                           Q313 Q4’13
                                                                                                                                                 Q413 Q1’14
                                                                                                                                                      Q114 Q2’14
                                                                                                                                                            Q214


                                                                 State Estimated Program Participation             Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                              may have double-counted individual homeowners who received assistance from more
                                                              than one program in states that have more than one program.

                                                              Sources: States provide estimates for program participation and report program
                                                              participation and homeowners assisted numbers. Rhode Island Housing and Mortgage
                                                              Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and
                                                              Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase
                                                              Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
                                                              and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s],
                                                              9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,
                                                              12/14/2012, 7/17/2013, and 1/31/2014; Rhode Island Housing and Mortgage Finance
                                                              Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly
                                                              Performance Reports Q4 2010 - Q2 2014, no date; Treasury, response to SIGTARP data
                                                              call, 10/7/2013.
                                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                                       221




FIGURE 4.35

 RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 6/30/2014

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                                                    TEMPORARY AND IMMEDIATE HOMEOWNER
      (MODIFICATION)                                                                                                          ASSISTANCE (PAST-DUE PAYMENT)
        3,500                                                                                                                 3,000
        3,000                                                     Peak estimate: 3,500                                                                                                   Peak estimate: 2,750
                                                                                                                              2,500
        2,500                                                     6/30/14 estimate: 477                                                                                                  6/30/14 estimate: 681
                                                                  6/30/14 program participation: 467                          2,000                                                      6/30/14 program participation: 667
        2,000
        1,500                                                                                                                 1,500
        1,000                                                                                                                 1,000
         500                                                                                                                   500
            0                                                                                                                     0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                  State Estimated Program Participation                          Program Participation




      MOVING FORWARD ASSISTANCE (TRANSITION)                                                                                  MORTGAGE PAYMENT ASSISTANCE –
                                                                       Peak estimate: 875
                                                                                                                              UNEMPLOYMENT (UNEMPLOYMENT)
        1,000                                                          6/30/14 estimate: 70                                   6,000
                                                                       6/30/14 program participation: 65                                                                              Peak estimate: 6,000
                                                                                                                              5,000                                                   6/30/14 estimate: 2,153
         750
                                                                                                                              4,000                                                   6/30/14 program participation: 2,112
         500                                                                                                                  3,000
                                                                                                                              2,000
         250
                                                                                                                              1,000
            0                                                                                                                    0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation                                  State Estimated Program Participation                          Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

         200                                                           Peak estimate: 100
                                                                       6/30/14 estimate: 32
         150
                                                                       6/30/14 program participation: 28
         100

          50

            0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                        State Estimated Program Participation                          Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
 7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
 and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, 7/17/2013, and
 1/31/2014; Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q2 2014, no date; Treasury,
 response to SIGTARP data call, 10/7/2013.
222   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             South Carolina’s HHF Programs
                                             Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
                                             South Carolina is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.421 As of June 30, 2014, the state had drawn down
                                                                                      lxvi
                                             $137.5 million (47%) of those funds.422, As of June 30, 2014, the most recent
                                             data available, South Carolina had spent $109.6 million (37% of its obligated
                                                                                                                     lxvii
                                             funds) to help 7,956 individual homeowners with its HHF programs.423, The
                                             remaining $20.3 million (7%) was spent on administrative expenses, and $8.1
                                                                                       lxviii
                                             million (3%) is held as cash-on-hand.424, As of June 30, 2014, the state had four
                                             active HHF programs: one to provide unemployment assistance to homeowners,
                                             a second to provide past-due payment assistance to homeowners, a third to
                                             modify homeowners’ mortgages, and a fourth to provide transition assistance to
                                             homeowners. South Carolina ended its program to provide second-lien reduction
                                             assistance to homeowners. At the end of 2010, South Carolina estimated that it
                                             would help as many as 34,100 homeowners with HHF but, as of June 30, 2014,
                                             reduced that peak estimate by 43%, to 19,400.
                                                 Figure 4.36 shows, in aggregate, the number of homeowners estimated to
                                             participate in South Carolina’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of June 30, 2014. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 4.37 shows the number
                                             of homeowners estimated to participate in each of South Carolina’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of South Carolina’s programs (program participation), as of
                                             June 30, 2014.




                                             lxvi T
                                                   reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, South
                                                  Carolina had drawn down $150 million.
                                             lxvii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             lxviii Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
                                                     from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
                                                     recoveries and borrower remittances.
                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   223




FIGURE 4.36

SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 6/30/2014

35,000


30,000


25,000


20,000


15,000
                                 Peak estimate: 34,100
                                 6/30/2014 estimate: 19,400
                                 6/30/2014 program participation: 12,261
10,000                           Homeowners assisted: 7,956


 5,000


    0
         Q1’10
         Q110 Q2’10
               Q210 Q3’10
                    Q310 Q4’10
                          Q410 Q1’11
                               Q111 Q2’11
                                     Q211 Q3’11
                                          Q311 Q4’11
                                                Q411 Q1’12
                                                     Q112 Q2’12
                                                           Q212 Q3’12
                                                                Q312 Q4’12
                                                                      Q412 Q1’13
                                                                           Q113 Q2’13
                                                                                 Q213 Q3’13
                                                                                      Q313 Q4’13
                                                                                            Q413 Q1’14
                                                                                                 Q114 Q2’14
                                                                                                       Q214


            State Estimated Program Participation             Homeowners Assisted
            Program Participation

     Notes: Estimated includes highest estimate of a range. Program participation numbers may have
     double-counted individual homeowners who received assistance from more than one program in states
     that have more than one program.

     Sources: States provide estimates for program participation and report program participation and
     homeowners assisted numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing
     Corp., Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC
     Housing Corp., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
     12/16/2010, 8/31/2011, 11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports,
     Quarterly Performance Reports Q1 2011 - Q2 2014, no date.
224              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 4.37

       SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
       BY PROGRAM, AS OF 6/30/2014

            MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                                       DIRECT LOAN ASSISTANCE PROGRAM
            (UNEMPLOYMENT)         Peak estimate: 14,000                                                                             (PAST-DUE PAYMENT)
                                                                            6/30/14 estimate: 6,000                                                                                          Peak estimate: 11,000
             15,000                                                         6/30/14 program participation: 4,408                     15,000                                                  6/30/14 estimate: 9,500
             12,000                                                                                                                  12,000                                                  6/30/14 program participation: 7,680

               9,000                                                                                                                  9,000

               6,000                                                                                                                  6,000

               3,000                                                                                                                  3,000

                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            HAMP ASSISTANCE PROGRAM                                                                                                  PROPERTY DISPOSITION ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                                           (TRANSITION)
                                                                                                                                                                                                  Peak estimate: 6,000
               6,000                 Peak estimate: 6,000                                                                             6,000
                                                                                                                                                                                                  6/30/14 estimate: 400
               5,000                 6/30/14 estimate: 0                                                                              5,000                                                       6/30/14 program participation: 172
                                     6/30/14 program participation: 0
               4,000                                                                                                                  4,000
               3,000                                                                                                                  3,000
               2,000                                                                                                                  2,000
               1,000                                                                                                                  1,000
                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation




            SECOND MORTGAGE ASSISTANCE PROGRAM                                                                                       MODIFICATION ASSISTANCE PROGRAM
            (SECOND-LIEN REDUCTION)                                                                                                  (MODIFICATION)
               6,000                                                        Peak estimate: 2,600                                      6,000
               5,000                                                        6/30/14 estimate: 0                                       5,000
                                                                            6/30/14 program participation: 0                                                                    Peak estimate: 3,500
               4,000                                                                                                                  4,000
                                                                                                                                                                                6/30/14 estimate: 3,500
               3,000                                                                                                                  3,000
                                                                                                                                                                                6/30/14 program participation: 1
               2,000                                                                                                                  2,000
               1,000                                                                                                                  1,000
                   0                                                                                                                      0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13 Q1’14 Q2’14

                              State Estimated Program Participation                           Program Participation                                  State Estimated Program Participation                           Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
       Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011,
       11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q2 2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   225




Tennessee’s HHF Program
Treasury obligated $217,315,593 of HHF funds to Tennessee.425 As of June 30,
2014, the state had drawn down $127.3 million (59%) of those funds and spent
                                                            lxix lxx
$108 million (50%) to help 6,575 individual homeowners.426, , The remaining
$15.1 million (7%) was spent on administrative expenses, and $4.5 million (2%) is
                         lxxi
held as cash-on-hand.427, As of June 30, 2014, the state had one HHF program,
to provide unemployment assistance to homeowners. As of September 30,
2014, Tennessee has stopped accepting new applications.428 At the end of 2011,
Tennessee estimated that it would provide HHF unemployment assistance to as
many as 13,500 homeowners with HHF but, as of June 30, 2014, reduced that
peak estimate by 43%, to 7,700. As of June 30, 2014, Tennessee had provided HHF
unemployment assistance to 6,575 homeowners.
    Figure 4.38 shows the number of homeowners estimated to participate in
Tennessee’s program and the number of homeowners who have been assisted, as of
June 30, 2014.




lxix T
      reasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Tennessee
     had drawn down $150.6 million.
lxx According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
lxxi Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn from
      Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien recoveries and
      borrower remittances.
226   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 4.38

                                                    TENNESSEE’S HARDEST HIT FUND PROGRAM (UNEMPLOYMENT)
                                                    ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                    ASSISTED, AS OF 6/30/2014

                                                     15,000




                                                     12,000




                                                      9,000

                                                                                                 Peak estimate: 13,500
                                                                                                 6/30/2014 estimate: 7,700
                                                                                                 6/30/2014 program participation: 6,575
                                                      6,000
                                                                                                 Homeowners assisted: 6,575



                                                      3,000




                                                         0
                                                              Q1’10
                                                              Q110 Q2’10
                                                                    Q210 Q3’10
                                                                         Q310 Q4’10
                                                                               Q410 Q1’11
                                                                                    Q111 Q2’11
                                                                                          Q211 Q3’11
                                                                                               Q311 Q4’11
                                                                                                     Q411 Q1’12
                                                                                                          Q112 Q2’12
                                                                                                                Q212 Q3’12
                                                                                                                     Q312 Q4’12
                                                                                                                           Q412 Q1’13
                                                                                                                                Q113 Q2’13
                                                                                                                                      Q213 Q3’13
                                                                                                                                           Q313 Q4’13
                                                                                                                                                 Q413 Q1’14
                                                                                                                                                      Q114 Q2’14
                                                                                                                                                            Q214


                                                                 State Estimated Program Participation                 Homeowners Assisted

                                                              Notes: Estimated includes highest estimate of a range.

                                                              Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                              Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and Tennessee Housing
                                                              Development Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
                                                              9/23/2010; Tennessee Housing Development Agency, first through eighth Amendment[s] to
                                                              Agreement[s], 9/29/2010, 12/16/2010, 5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012,
                                                              11/15/2012, and 6/11/2014; Tennessee Housing Development Agency, Keep My Tennessee Home,
                                                              Reports, Quarterly Performance Reports Q1 2011 - Q2 2014, no date.
                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   227




Washington, DC’s HHF Program
Treasury obligated $20,697,198 of HHF funds to Washington, DC.429 As of
June 30, 2014, Washington, DC had drawn down $18.2 million (88%) of those
          lxxii
funds.430, As of June 30, 2014, the most recent data available, Washington,
DC had spent $12.7 million (62% of its obligated funds) to help 696 individual
                  lxxiii
homeowners.431, The remaining $2.9 million (14%) was spent on administrative
                                                            lxxiv
expenses and $2.9 million (14%) is held as cash-on-hand.432, As of June 30, 2014,
Washington, DC had one HHF program, to provide unemployment assistance to
homeowners. At the end of 2010, Washington, DC estimated that it would provide
HHF unemployment assistance to as many as 1,000 homeowners with HHF
but, as of June 30, 2014, reduced that peak estimate by 20%, to 800. As of June
30, 2014, Washington, DC had provided HHF unemployment assistance to 696
homeowners. Washington, DC stopped accepting new applications after November
22, 2013.433
    Figure 4.39 shows the number of homeowners estimated to participate in
Washington, DC’s program and the number of homeowners who have been
assisted, as of June 30, 2014.




lxxii Treasury has separately published September 30, 2014, figures for amounts drawn down; as of September 30, 2014, Washington,
      DC had drawn down $18.2 million.
lxxiii According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
lxxiv Figures obtained from each state’s Quarterly Financial Report, which reconciles each type of cash disbursement to funds drawn
       from Treasury. As such, all expenses are based on actual cash disbursements. Additionally, cash-on-hand may include lien
       recoveries and borrower remittances.
228   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 4.39

                                                     WASHINGTON, DC’S HOMESAVER PROGRAM (UNEMPLOYMENT)
                                                     ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                     ASSISTED, AS OF 6/30/2014

                                                      1,000




                                                       800

                                                                                              Peak estimate: 1,000
                                                                                              6/30/2014 estimate: 800
                                                       600                                    6/30/2014 program participation: 696
                                                                                              Homeowners assisted: 696



                                                       400




                                                       200




                                                         0
                                                              Q110
                                                              Q1’10 Q210
                                                                    Q2’10 Q310
                                                                          Q3’10 Q410
                                                                                Q4’10 Q111
                                                                                      Q1’11 Q211
                                                                                            Q2’11 Q311
                                                                                                  Q3’11 Q411
                                                                                                        Q4’11 Q112
                                                                                                              Q1’12 Q212
                                                                                                                    Q2’12 Q312
                                                                                                                          Q3’12 Q412
                                                                                                                                Q4’12 Q113
                                                                                                                                      Q1’13 Q213
                                                                                                                                            Q2’13 Q313
                                                                                                                                                  Q3’13 Q413
                                                                                                                                                        Q4’13 Q114
                                                                                                                                                              Q1’14 Q214
                                                                                                                                                                    Q2’14


                                                                 State Estimated Program Participation                 Homeowners Assisted

                                                              Notes: Estimated includes highest estimate of a range.

                                                              Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                              District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury and District of Columbia
                                                              Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation
                                                              Agreement, 9/23/2010; District of Columbia Housing Finance Agency, first through eighth
                                                              Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011,
                                                              3/29/2012, 12/14/2012, and 9/20/2013; District of Columbia Housing Finance Agency,
                                                              HomeSaver – A Foreclosure Prevention Program, Quarterly Performance Reports Q1 2011 - Q2
                                                              2014, no date.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014         229




FHA Short Refinance Program
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives homeowners the option of refinancing an underwater, non-
FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
value. A homeowner current on the existing first-lien mortgage not insured by FHA
on a primary residence or having made three successful trial period payments;
in a negative equity position qualifies under standard FHA underwriting and
credit score requirements. Treasury reduced TARP funds allocated to provide loss
protection to FHA through a $1 billion for 10 years (October 2020) letter of credit,
                                                                                             For more information concerning
plus up to $25 million in fees for the letter of credit.434 FHA Short Refinance is
                                                                                             FHA Short Refinance eligibility, see
voluntary for servicers. Therefore, not all underwater homeowners who qualify may            SIGTARP’s April 2011 Quarterly
be able to participate in the program.435 As of September 30, 2014, according to             Report, pages 85-87.
Treasury, 4,963 loans had been refinanced under the program.436 As of September
30, 2014, Treasury has paid $47,840 on one claim for one default under the
program; however, it is possible that more loans have defaulted but FHA has not
yet evaluated the claims.437 Treasury has deposited $50 million into a reserve
account for future claims.438 It has also spent approximately $9.7 million on
administrative expenses associated with the letter of credit.439
     Servicers must review the current a third-party appraisal by a HUD-approved
appraiser. The homeowner is then reviewed for credit risk and, if necessary, referred
for a review to confirm that the homeowner’s total monthly mortgage payments on
all liens after the refinance is not greater than 31% of the homeowner’s monthly
gross income and the homeowner’s total household debt is not greater than 50%.440
Next, the lien holders must forgive principal that is more than 115% of the value
of the home. The first-lien lender must forgive at least 10% of principal balance of
the first-lien loan, in exchange for a cash payment for 97.75% of the current home
value from the proceeds of the refinance. The lender may maintain a subordinate
second lien for up to 17.25% of that value.441
     If a homeowner defaults, the letter of credit purchased by Treasury
compensates the investor for a first percentage of losses covering approximately
4.38% – 18.85% of the unpaid principal balance with FHA responsible for the
remaining losses.442 Treasury’s letter of credit ended on June 1, 2013. This leaves
FHA solely responsible for covering any losses for mortgages originated on or after
June 1, 2013, through September 30, 2014.443
230            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                                      Treasury created six TARP programs through which it made capital investments
                                                      or asset guarantees in exchange for equity in participating financial institutions.
                                                      Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                      Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                      (“CAP”), were open to all qualifying financial institutions. The other three, the
                                                      Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
                                                      Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
                                                      available on a case-by-case basis to institutions that needed assistance beyond that
                                                      available through CPP. With the expiration of TARP funding authorization, no new
                                                      investments can be made through these six programs.

                                                      Capital Purchase Program
                                                      Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                                      way to promote financial stability, maintain confidence in the financial system, and
                                                      enable lenders to meet the nation’s credit needs.444 CPP was a voluntary program
      Subchapter S Corporations                       open by application to qualifying financial institutions, including U.S.-controlled
      (“S corporations”): Corporate form              banks, savings associations, and certain bank and savings and loan holding
      that passes corporate income, losses,           companies.445
      deductions, and credit through to                   Under CPP, Treasury used TARP funds predominantly to purchase preferred
      shareholders for Federal tax purposes.          equity interests in the financial institutions. The institutions issued Treasury senior
      Shareholders of S corporations report           preferred shares that pay a 5% annual dividend for the first five years and a 9%
      the flow-through of income and losses           annual dividend thereafter. Subchapter S corporations (“S corporations”) paid an
      on their personal tax returns and are           initial rate of 7.7%, that increases to 13.8%. Rate increases began in the quarter
      taxed at their individual income tax            ended December 31, 2013.
      rates.                                              In addition to the senior preferred shares, publicly traded institutions issued
                                                      Treasury warrants to purchase common stock with an aggregate market price equal
      Subordinated Debentures: Form of debt           to 15% of the senior preferred share investment.446 Privately held institutions issued
      security that ranks below other loans           warrants to Treasury to purchase additional senior preferred stock worth 5% of
      or securities with regard to claims on          Treasury’s initial preferred stock investment.447 According to Treasury, through CPP,
      assets or earnings.                             in total Treasury purchased $204.9 billion in preferred stock and subordinated
                                                      debentures from 707 institutions in 48 states, the District of Columbia, and Puerto
                                                      Rico.448
      For discussion of SIGTARP’s
      recommendations on TARP exit paths              Status of Program
      for community banks, see SIGTARP’s              As of September 30, 2014, 77 of the 707 institutions remained in CPP; in 34 of
      October 2011 Quarterly Report,                  them, Treasury holds only warrants to purchase stock. Treasury does not consider
      pages 167-169.                                  these 34 institutions to be in TARP, however Treasury applies all proceeds from
                                                      the sale of warrants in these banks to recovery amounts in TARP’s CPP program.
      For discussion of SIGTARP’s
      recommendations issued on October               As of September 30, 2014, 43 of the 77 institutions had outstanding principal
      9, 2012, regarding CPP preferred                investments. Taxpayers were still owed $5.5 billion.449 According to Treasury, it had
      stock auctions, see SIGTARP’s                   write-offs and realized losses of $4.9 billion in the program, leaving $0.6 billion
      October 2012 Quarterly Report,                  in TARP funds outstanding. While Treasury has not yet realized those losses, it
      pages 180-183.
                                                      expects that all of its investments in the banks will be lost.450
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                           231




    As of September 30, 2014, Treasury has recovered $197.2 billion of the CPP                                                                FIGURE 4.40
principal (or 96.2%).451 Treasury converted $363.3 million in preferred stock for                                                             STATUS OF CPP RECIPIENTS,
nearly a quarter (165) of CPP bank investments into CDCI, which therefore is still                                                            AS OF 9/30/2014
an outstanding obligation to TARP. Additionally, $2.2 billion in CPP investments in
                                                                                                                                                                       3%
137 banks was refinanced in 2011 into SBLF, a non-TARP Treasury program.452
    However, only 253 of the 707 banks, or 36%, fully repaid CPP principal.453 Of
                                                                                                                                                          23%
the other banks that exited with less than full repayment, four CPP banks merged                                                                                            36%
                                                                                                                                               1%
with other CPP banks; Treasury sold its investments in 30 banks for less than par                                                              4%
and sold at auction its investments in 182 banks (Treasury sold 18 of these at a                                                               4%
loss); and 30 institutions or their subsidiary banks failed, meaning Treasury has                                                              4%                         6%
                                                                                                                                                               19%
lost or expects to lose its entire investment in those banks.454 Figure 4.40 shows the
status of the 707 CPP recipients as of September 30, 2014.                                                                                        Fully Repaid Principal (253)
    As of September 30, 2014, Treasury had received approximately $12.1 billion in                                                                Remaining Principal Investment in CPP (43)
                                                                                                                                                  Refinanced into SBLF (137)
interest and dividends from CPP recipients. Treasury also had received $8 billion
                                                                                                                                                  Refinanced into CDCI (28)
through the sale of CPP warrants that were obtained from TARP recipients.455 For                                                                  Sold for less than par (30)
a complete list of CPP share repurchases, see Appendix D: “Transaction Detail.”                                                                   Failed/subsidiary failed (30)
    Although the 10 largest investments accounted for $142.6 billion of the                                                                       Merged (4)
program, CPP made many smaller investments: 311 of the 707 recipients                                                                             Auction: Sold at loss (164)
                                                                                                                                                  Auction: Sold at profit (18)
received less than $10 million.456 All but one of the recipients with remaining
principal investments have outstanding investments of less than $100 million,                                                                 Note: 34 banks repaid CPP principal but remain in TARP
                                                                                                                                              with Treasury holding only warrants.
with more than half of the banks with remaining principal investments, or 65%,
                                                                                                                                              Source: Treasury, response to SIGTARP data call,
having outstanding investments of less than $10 million.457 Table 4.26 shows the                                                              10/6/2014.
distribution of investments by amount.

TABLE 4.26
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 9/30/2014
                                                                                              Principal                Outstanding
                                                                                
                                                                                           Investmenta                   Principalb
 $10 billion or more                                                                                       6                           0
 $1 billion to $10 billion                                                                               19                            0
 $100 million to $1 billion                                                                              57                            1
 $10 million to $100 million                                                                           314                           14
 Less than $10 million                                                                                 311                           28
 Total                                                                                                 707                           43
 Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
 transactions through CPP.
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.
 b
   Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
    CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
    protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
    banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
    investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 34 institutions that have
    repaid their CPP principal but still have warrants outstanding.

 Source: Treasury, response to SIGTARP data call, 10/6/2014.
232   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 As of September 30, 2014, of the 43 banks with remaining principal
                                             investments in CPP, 11 were in the Southeast region, eight were in the Southwest/
                                             South Central region, eight were in the Midwest region, seven were in the
                                             Mid-Atlantic/Northeast region, six were in the West region, and three were in
                                             the Mountain West/Plains region. The Southeast region and the Mid-Atlantic/
                                             Northeast region had the largest total remaining CPP investments; $348.1 billion
                                             and $81.8 million, respectively. These regions were followed in remaining CPP
                                             investments by the Southwest/South Central region ($348.1 million), the Midwest
                                             region ($73.5 million), the West region ($41.4 million), and the Mountain West/
                                             Plains region ($8 million). Table 4.27 and Figure 4.41 show the geographical
                                             distribution of the banks that remain in CPP as of September 30, 2014, by region.
                                             Tables 4.28–4.33 show the distribution by state.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   233




TABLE 4.27
 BANKS WITH CPP PRINCIPAL REMAINING, BY REGION, AS OF 9/30/2014
                                                                                           Number of Banks
                                    Banks with                       Principal                   with Missed            Value of Missed
                                    Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                     Principal                      Remaining                     Payments                    Payments
 West                                               6             $41,356,000                                      5          $5,907,246
 Mountain West/Plains                               3               7,976,000                                      2           1,588,395
 Southwest/South Central                            8              66,529,000                                      7           9,471,725
 Midwest                                            8              73,477,000                                      6          14,375,286
 Mid-Atlantic/Northeast                             7              81,845,000                                      6          13,657,898
 Southeast                                         11             348,057,602                                      9          28,403,440
 Total                                         43            $619,240,602                                        35          $73,403,989



FIGURE 4.41
AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 9/30/2014

    AK
                                    MOUNTAIN WEST/
                                        PLAINS
                                      $8 MILLION                                      MIDWEST                     MID-ATLANTIC/
                        WA                                                           $73 MILLION                   NORTHEAST
                                         MT                                                                  VT ME $82 MILLION
                                                        ND
                   OR                                              MN                                                 NH
                                                                               WI                           NY
                               ID                       SD                                                             MA
                                                                                       MI
   WEST                                  WY
                                                                     IA                                              CT RI
$41 MILLION                                                                                 OH         PA           NJ
                                                        NE
                          NV                                                    IL    IN                          DE
                   CA               UT                                                               WV VA
                                              CO                     MO                                          MD
                                                             KS                            KY
                                                                                                      NC
                                                                                      TN
           HI                  AZ                             OK        AR                            SC
                                              NM
                                                                                    MS AL       GA          SOUTHEAST
                                                         TX               LA                               $348 MILLION

                                                                                                      FL                 PR
                                SOUTHWEST/
                               SOUTH CENTRAL
                                $67 MILLION

                WEST                                                           MIDWEST
                MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
234   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        West
        TABLE 4.28
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                    Number of Banks
                                                                       Banks with       Principal         with Missed  Value of Missed
                                               WA                      Remaining      Investment    Dividend/Interest Dividend/Interest
                                                                        Principal      Remaining           Payments          Payments
                   AK
                                          OR                   AK              0              $0                   0                $0
                                                               CA              6     41,356,000                    5         5,907,246
                                                               HI              0               0                   0                 0
                                                               OR              0               0                   0                 0
                                          CA                   WA              0               0                   0                 0
                                                               Total           6    $41,356,000                    5       $5,907,246
                           HI

             WEST                         >$100 million
             Principal investment         $21-$100 million
             remaining in CPP banks       $1-$20 million
                                          $0




        Mountain West/Plains
        TABLE 4.29
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                    Number of Banks
                                                                       Banks with       Principal         with Missed  Value of Missed
                                                                       Remaining      Investment    Dividend/Interest Dividend/Interest
                                MT             ND                       Principal      Remaining           Payments          Payments
                                                               CO              1     $3,076,000                    1          $873,695
                     ID                        SD
                                                               ID              0               0                   0                 0
                                 WY
                                                               KS              1       2,800,000                   1           714,700
                                               NE
              NV
                          UT                                   MT              0               0                   0                 0
                                     CO
                                                    KS         ND              0               0                   0                 0
                                                               NE              0               0                   0                 0

          MOUNTAIN WEST/                    >$100 million      NV              0               0                   0                 0
                                            $21-$100 million
          PLAINS                            $1-$20 million     SD              0               0                   0                 0
          Principal investment
                                            $0                 UT              0               0                   0                 0
          remaining in CPP banks
                                                               WY              1       2,100,000                   0                 0
                                                               Total           3     $7,976,000                    2       $1,588,395
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   235




Southwest/South Central
TABLE 4.30
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                 Number of Banks
                                                                    Banks with       Principal         with Missed  Value of Missed
                                                                    Remaining      Investment    Dividend/Interest Dividend/Interest
     AZ                                 OK                           Principal      Remaining           Payments          Payments
                  NM                             AR
                                                            AR              2    $37,117,000                    2        $6,880,058
                                                 LA         AZ              2       6,440,000                   2           732,010
                                   TX
                                                            LA              1       2,400,000                   1           163,500
                                                            NM              0               0                   0                 0
                                                            OK              0               0                   0                 0
   SOUTHWEST/                            >$100 million      TX              3     20,572,000                    2         1,696,157
                                         $21-$100 million
   SOUTH CENTRAL                         $1-$20 million     Total           8    $66,529,000                    7       $9,471,725
   Principal investment                  $0
   remaining in CPP banks




Midwest
TABLE 4.31
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                 Number of Banks
                                                                    Banks with       Principal         with Missed  Value of Missed
                                                                    Remaining      Investment    Dividend/Interest Dividend/Interest
          MN                                                         Principal      Remaining           Payments          Payments
                    WI
                               MI                           IA              0              $0                   0                $0
             IA                                             IL              3     23,040,000                    2         5,230,581
                         IL   IN    OH
                                                            IN              0               0                   0                 0
               MO
                                   KY                       KY              2     41,300,000                    2         7,792,750
                                                            MI              0               0                   0                 0
     MIDWEST                        >$100 million           MN              0               0                   0                 0
     Principal investment           $21-$100 million
     remaining in CPP               $1-$20 million          MO              2       4,037,000                   1           119,668
     banks                          $0
                                                            OH              0               0                   0                 0
                                                            WI              1       5,100,000                   1         1,232,288
                                                            Total           8    $73,477,000                    6      $14,375,286
236   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Mid-Atlantic/Northeast
        TABLE 4.32
          BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                          Number of Banks
                                                                            Banks with        Principal         with Missed  Value of Missed
                                    VT    ME                                Remaining       Investment    Dividend/Interest Dividend/Interest
                                                                             Principal       Remaining           Payments          Payments
                                               NH                   CT              0               $0                   0                $0
                               NY               MA
                                                     RI             DE              0                0                   0                 0
                                            CT
                          PA                NJ                      MA              1      12,063,000                    1         3,558,585
                                          DE
                  WV VA                  MD                         MD              5      60,343,000                    4         7,763,160
                  WV
                                                                    ME              0                0                   0                 0
                                                                    NH              0                0                   0                 0
             MID-ATLANTIC/                       >$100 million      NJ              1        9,439,000                   1         2,336,153
                                                 $21-$100 million
             NORTHEAST                           $1-$20 million     NY              0                0                   0                 0
             Principal investment                $0
             remaining in CPP banks                                 PA              0                0                   0                 0
                                                                    RI              0                0                   0                 0
                                                                    VA              0                0                   0                 0
                                                                    VT              0                0                   0                 0
                                                                    WV              0                0                   0                 0
                                                                    Total           7     $81,845,000                    6      $13,657,898



        Southeast
        TABLE 4.33
          BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                                          Number of Banks
                                                                            Banks with        Principal         with Missed  Value of Missed
                                         NC                                 Remaining       Investment    Dividend/Interest Dividend/Interest
                     TN
                                     SC                                      Principal       Remaining           Payments          Payments

               MS              GA                                   AL              1      $2,760,000                    1          $413,655
                      AL
                                                     PR             FL              4      71,307,000                    4        17,777,423
                                                                    GA              2      19,680,000                    2         4,487,040
                                         FL
                                                                    MS              1        2,443,320                   0                 0
                                                                    NC              0                0                   0                 0
              SOUTHEAST                        >$100 million
                                                                    PR              1     238,972,282                    0                 0
              Principal investment             $21-$100 million
              remaining in CPP                 $1-20 million        SC              2      12,895,000                    2         5,725,323
              banks                            $0
                                                                    TN              0                0                   0                 0
                                                                    Total          11    $348,057,602                    9      $28,403,440
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   237




Dividends and Interest
As of September 30, 2014, Treasury had received $12.1 billion in dividends on its
CPP investments.458 However, as of that date, missed dividend and interest pay-
ments by 178 institutions, including banks with missed payments that no longer
have outstanding CPP principal investments, totaled approximately $516.7 million.
Approximately $33.6 million of the unpaid amounts are non-cumulative, meaning
that the institution has no legal obligation to pay Treasury unless the institution
declares a dividend.459
    More than four-fifths, or 35 of the 43 banks that had remaining CPP principal
investments as of September 30, 2014, were not current on their dividend and
interest payments to Treasury.460 The 35 banks were behind by as many as 23
payments and in total were overdue in payments to Treasury of $73.4 million.461 As
of September 30, 2014, 34 of the 43 banks with remaining principal investments
were overdue by at least three payments, including 32 banks that were overdue by
at least six payments.462 Of the banks with remaining principal investments that are
not current on payments, 25 have unpaid dividend and interest payments that are
cumulative, and seven have unpaid dividend payments that are non-cumulative.
Tables 4.28–4.33 show the distribution of missed payments and value of those
payments by state.
238           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     CPP Dividend Rates Increase for Remaining Banks
                                                     Most banks with remaining principal investments have reached the five-year an-
                                                     niversary in CPP, at which point their dividend rate increased from 5% to 9% (some
                                                     banks structured as S corporations have had their interest rate increase from 7.7%
                                                     to 13.8%).
                                                         By the August 15, 2014, payment date, rates will increase to 9% for an
                                                     additional nine banks, of which seven are already behind on dividend payments.
                                                     Rates will increase for one more bank by November 15, 2014, and for the
                                                     remaining one bank by February 15, 2015. Table 4.34 lists the remaining banks by
                                                     date of dividend rate increase.
                                                         As of September 30, 2014, of the 43 banks with remaining principal
                                                     investments in CPP, 35 already have overdue missed dividends and interest. For
                                                     these banks, with the increase in the dividend rate, the amount overdue to Treasury
      For more on SIGTARP’s October                  will grow more quickly. While all banks, regardless of size, received CPP on the
      2011 recommendation regarding                  same terms, the one-size-fits-all repayment terms may not fit all. Because so many
      how Treasury should treat community            of these banks are not paying the 5% dividend, an increase to 9% may not have
      banks unable to exit TARP before the           the intended effect of incentivizing them to exit TARP, particularly if they lack the
      dividend rate increase, see SIGTARP’s
                                                     ability to raise capital. In October 2011, SIGTARP recommended to Treasury that
      October 2011 Quarterly Report,
      pages 167-169, and SIGTARP’s                   it assess whether it should renegotiate the terms of its CPP contracts for those
      January 2012 Quarterly Report,                 community banks that will not be able to exit TARP prior to the dividend rate
      pages 159-161.                                 increase. Treasury did not implement this recommendation.
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   239




TABLE 4.34
 CPP-RELATED DIVIDEND RATE INCREASES, AS OF 9/30/2014
                                                                                                                     Number
                                                                                              Value of Missed       of Missed
                                                            Investment      Outstanding      Dividend/Interest       Dividend
 Institution                              Location                Date   Capital Amount             Payments        Payments
 Rate Increased 2/15/2014
 First BanCorp                            San Juan, PR       1/16/2009    $238,972,282
 FNB United Corp.                         Asheboro, NC       2/13/2009      51,500,000
 Porter Bancorp Inc.                      Louisville, KY    11/21/2008      35,000,000             $5,950,000              12
 First United Corporation                 Oakland, MD        1/30/2009      30,000,000
 Broadway Financial Corporation           Los Angeles, CA   11/14/2008      15,000,000
                                          Mount Pleasant,
 Tidelands Bancshares, Inc                                  12/19/2008      14,448,000              3,164,866              16
                                          SC
 One United Bank                          Boston, MA        12/19/2008      12,063,000              3,558,585              22
 Cecil Bancorp, Inc.                      Elkton, MD        12/23/2008      11,560,000              2,976,700              19
 NCAL Bancorp                             Los Angeles, CA   12/19/2008      10,000,000              1,971,250              13
 Western Community Bancshares, Inc.       Palm Desert, CA   12/23/2008       7,290,000              1,834,538              17
 Citizens Commerce Bancshares, Inc.       Versailles, KY      2/6/2009       6,300,000              1,842,750              20
 Patapsco Bancorp, Inc.                   Dundalk, MD       12/19/2008       6,000,000              1,591,500              18
 Rising Sun Bancorp                       Rising Sun, MD      1/9/2009       5,983,000              1,749,960              20
                                          Rancho Santa
 CalWest Bancorp                                             1/23/2009       4,656,000              1,108,200              16
                                          Margarita, CA
 Lone Star Bank                           Houston, TX         2/6/2009       3,072,000                986,657              22
                                          Garden Grove,
 US Metro Bank                                                2/6/2009       2,861,000                486,000              11
                                          CA
 Goldwater Bank, N.A.                     Scottsdale, AZ     1/30/2009       2,568,000                681,000              18
 Saigon National Bank                     Westminster, CA   12/23/2008       1,549,000                507,258              23
 Calvert Financial Corporation            Ashland, MO        1/23/2009       1,037,000                119,668               7
 Rate Increased 5/15/2014
 Liberty Shares, Inc.                     Hinesville, GA     2/20/2009      17,280,000              3,939,840              16
 HCSB Financial Corporation               Loris, SC           3/6/2009      12,895,000              2,546,763              15
 Farmers & Merchants Bancshares, Inc.     Houston, TX         3/6/2009      11,000,000                709,500               5
 Regent Bancorp, Inc.                     Davie, FL           3/6/2009       9,982,000              2,275,860              16
 City National Bancshares Corporation     Newark, NJ         4/10/2009       9,439,000              2,336,153              19
 Highlands Independent Bancshares, Inc.   Sebring, FL         3/6/2009       6,700,000              1,436,313              15
 Capital Commerce Bancorp, Inc.           Milwaukee, WI      4/10/2009       5,100,000              1,232,288              17
 Pinnacle Bank Holding Company, Inc.      Orange City, FL     3/6/2009       4,389,000              1,060,320              17
 Metropolitan Capital Bancorp, Inc.       Chicago, IL        4/10/2009       4,388,000
 Allied First Bancorp, Inc.               Oswego, IL         4/24/2009       3,652,000                683,498              13
 St. Johns Bancshares, Inc.               St. Louis, MO      3/13/2009       3,000,000
 Prairie Star Bancshares, Inc.            Olathe, KS          4/3/2009       2,800,000                714,700              18
 Citizens Bank & Trust Company            Covington, LA      3/20/2009       2,400,000                163,500               5
                                                                                                        Continued on next page
240   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




       CPP-RELATED DIVIDEND RATE INCREASES, AS OF 9/30/2014                                                     (CONTINUED)

                                                                                                                                                                                      Number
                                                                                                                                                       Value of Missed               of Missed
                                                                                               Investment               Outstanding                   Dividend/Interest               Dividend
       Institution                                              Location                             Date            Capital Amount                          Payments                Payments
       CSRA Bank Corp.                                          Wrens, GA                      3/27/2009                   $2,400,000                             $547,200                 16
       Crazy Woman Creek Bancorp, Inc.                          Buffalo, WY                    2/20/2009                     2,100,000
       Rate Increased 8/15/2014
       U.S. Century Bank                                        Miami, FL                        8/7/2009                  50,236,000                          13,004,930                  19
       Chambers Bancshares, Inc.           a
                                                                Danville, AR                   5/29/2009                   19,817,000                            3,164,866                  7
       OneFinancial Corporationb                                Little Rock, AR                  6/5/2009                  17,300,000                            3,715,192                 10
       Suburban Illinois Bancorp, Inc.c                         Elmhurst, IL                   6/19/2009                   15,000,000                            4,547,083                 14
       Harbor Bankshares Corporation                            Baltimore, MD                  7/17/2009                     6,800,000                           1,445,000                 17
       Community Bancshares, Inc.                               Kingman, AZ                    7/24/2009                     3,872,000
       Grand Mountain Bancshares, Inc.                          Granby, CO                     5/29/2009                     3,076,000                              873,695                21
       SouthFirst Bancshares, Inc.                              Sylacauga, AL                  6/12/2009                     2,760,000                              413,655                11
       Rate Increases 11/15/2014
       Grand Financial Corporationd                             Hattiesburg, MS                9/25/2009                     2,443,320
       Rate Increases 2/15/2015
       Liberty Bancshares, Inc.                                 Fort Worth, TX                 12/4/2009                     6,500,000
       Notes: Numbers may not total due to rounding.
       a
         Chambers Bancshares, Inc. is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (5/29/2009).
       b
         OneFinancial Corporation is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/5/2009).
       c
         Suburban Illinois Bancorp, Inc. is an S-Corporation, so its interest rate increased from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/19/2009).
       d
         Grand Financial Corporation is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (9/25/2009).
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   241




Treasury’s Policy on Missed Dividend and Interest Payments
According to Treasury, it “evaluates its CPP investments on an ongoing basis with
the help of outside advisors, including external asset managers. The external asset
managers provide a valuation for each CPP investment” that results in Treasury
assigning the institution a credit score.463 For those that have unfavorable credit
scores, including any institution that has missed more than three dividend (or
interest) payments, Treasury has stated that the “asset manager dedicates more
resources to monitoring the institution and may talk to the institution on a more
frequent basis.”464
    Under the terms of the preferred shares or subordinated debentures held by
Treasury as a result of its CPP investments, in certain circumstances, such as when
a participant misses six dividend (or interest) payments, Treasury has the right to
appoint up to two additional members to the institution’s board of directors.465
These directors will not represent Treasury, but rather will have the same fiduciary
duties to shareholders as all other directors. They will be compensated by the
institution in a manner similar to other directors.466
    As of September 30, 2014, of the 43 institutions with remaining principal
investments, 32 CPP institutions have missed at least six payments.467 As of
September 30, 2014, Treasury had made director appointments to the boards
of directors of 16 CPP banks, as noted in Table 4.36.468 Most of those banks no
longer have remaining CPP principal investments. None of the 43 banks with
remaining principal investments have Treasury-appointed directors.
    For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.469 As of September 30, 2014, of the 43 CPP banks
with remaining principal investments, 34 had missed at least five payments.470
According to Treasury, the observers would be selected from its Office of Financial
Stability (“OFS”) and assigned to “gain a better understanding of the institution’s
condition and challenges and to observe how the board is addressing the
situation.”471 Their participation would be “limited to inquiring about distributed
materials, presentations, and actions proposed or taken during the meetings, as
well as addressing any questions concerning” their role.472 The findings of the
observers are taken into account when Treasury evaluates whether to appoint
individuals to an institution’s board of directors.473 As of September 30, 2014,
Treasury had assigned observers to 13 current CPP recipients, as noted in Table
4.36.474
    Twelve banks have rejected Treasury’s requests to send an observer to the
institutions’ board meetings.475 The banks had initial CPP investments of as much
as $27 million, have missed as many as 23 quarterly dividend payments to Treasury,
and have been overdue in dividend payments by as much as $4.1 million.476 Five
of these banks have since been sold at a loss to Treasury at auction.477 Three of
these banks have remaining CPP principal investments, all of which continue to
have missed payments.478 At 23 missed dividend payments, Saigon National Bank,
Westminster, California, which has never made a dividend payment, has more
missed payments than any TARP bank, yet rejected Treasury’s request to send an
242   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                               observer to its board meetings.479 Table 4.35 lists the banks that rejected Treasury
                                                               observers.
                                                                    Seven of the 707 banks that received CPP investments have never made a
                                                               single dividend payment to Treasury since receiving CPP investments. Of these
                                                               seven banks, three have remaining CPP principal investments and two have exited
                                                               TARP as a result of bankruptcy. Midwest Banc Holdings, Inc., Melrose Park,
                                                               Illinois, and One Georgia Bank, Atlanta, Georgia, both exited CPP by bankruptcy.
                                                               The three remaining banks that have never made a dividend payment are: Saigon
                                                               National Bank, Westminster, California (23 missed payments); Lone Star Bank,
                                                               Houston, Texas (22); and Grand Mountain Bankshares, Granby, Colorado (21).


      TABLE 4.35
       CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                 CPP Principal                 Number of                 Value of Missed             Date of Treasury                     Date of
       Institution                                                 Investment            Missed Payments                       Payments                       Request                   Rejection
       Intermountain Community Bancorp                             $27,000,000                                 —a                          $—                 3/11/2011                4/12/2011
      Community Bankers Trust Corporation                            17,680,000                                —   b
                                                                                                                                             —              10/18/2011               11/23/2011
      White River Bancshares Company c                               16,800,000                               14   d
                                                                                                                                 3,204,600                    3/28/2012                4/27/2012
      Timberland Bancorp, Inc.c                                      16,641,000                                —e                            —                6/27/2011                8/18/2011
      Alliance Financial Services Inc.c                              12,000,000                               12f                3,020,400                    3/10/2011                 5/6/2011
      Central Virginia Bankshares, Inc.g                             11,385,000                               15h                2,134,688                      3/9/2011               5/18/2012
       Commonwealth Business Bankc                                     7,701,000                               10i               1,049,250                    8/13/2010                9/20/2010
      Pacific International Bancorpj                                   6,500,000                               —k                            —                9/23/2010              11/17/2010
       Rising Sun Bancorp                                              5,983,000                               20                1,749,960                    12/3/2010                2/28/2011
      Omega Capital Corp.c                                             2,816,000                               15l                  575,588                   12/3/2010                1/13/2011
       Citizens Bank & Trust Company                                   2,400,000                                 5                  163,500                   9/23/2010              11/17/2010
       Saigon National Bank                                            1,549,000                               23                   507,258                   8/13/2010                9/20/2010
       Notes: Numbers may not total due to rounding.
       a
          Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed
           payments totaling $4.1 million.
       b
             Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling
              $1.5 million.
       c
           Bank was sold at a loss at auction.
       d
            White River Bancshares Company was sold at auction and its missed payments to Treasury were not repaid.
       e
           Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7
            million.
       f
         Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
       g
              Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
       h
          Central Virginia Bankshares, Inc. was sold to C&F Financial Corporation and its missed payments to Treasury were not repaid.
       i
         Commonwealth Business Bank was sold at a loss at auction and its missed payments to Treasury were not repaid.
       j
         Bank has exited the Capital Purchase Program.
       k
         Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments
          totaling $0.8 million.
       l
         Omega Capital Corp. was sold at a loss at auction and its missed payments to Treasury were not repaid.

       Source: Treasury, Dividends and Interest Report, 10/10/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   243




    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes
institutions from its “non-current” reporting: (i) that have completed a
recapitalization, restructuring, or exchange with Treasury (though Treasury does
report such institutions as non-current during the pendency of negotiations); (ii)
for which Treasury sold the CPP investment to a third party, or otherwise disposed
of the investment to facilitate the sale of the institution to a third party; (iii) that
filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.480 SIGTARP
generally includes such activity in Table 4.36 under “Value of Unpaid Amounts”
with the value set as of the date of the bankruptcy, restructuring, or other event
that relieves the institution of the legal obligation to continue to make dividend
and interest payments. If a completed transaction resulted in payment to Treasury
for all unpaid dividends and interest, SIGTARP does not include the institution’s
obligations under unpaid amounts. As of September 30, 2014, for all CPP banks,
including those that were missing payments when they exited, 94 banks had missed
at least 10 dividend (or interest) payments and 140 banks had missed five dividend
(or interest) payments totaling $430.8 million.481 Table 4.36 lists CPP recipients
that had unpaid dividend (or interest) payments as of September 30, 2014. For
a complete list of CPP recipients and institutions making dividend or interest
payments, see Appendix D: “Transaction Detail.”
244             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 4.36
       CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014
                                                                                         Observers
                                                                             Number       Assigned
                                                     Dividend or            of Missed   to Board of   Value of Missed        Value of Unpaid
       Company                                       Payment Type           Payments     Directors1        Payments2             Amounts2,3,4
       Saigon National Bank                          Non-Cumulative               23                        $507,258                $507,258
       Lone Star Bank                                Non-Cumulative               22        ✓                986,657                 986,657
       OneUnited Bank                                Interest                     22        ✓              3,558,585               3,558,585
       Grand Mountain Bancshares, Inc.               Cumulative                   21        ✓                873,695                 873,695
       Citizens Commerce Bancshares, Inc.            Cumulative                   20                       1,842,750               1,842,750
       Rising Sun Bancorp                            Cumulative                   20                       1,749,960               1,749,960
       Cecil Bancorp, Inc.                           Cumulative                   19        ✓              2,976,700               2,976,700
       City National Bancshares Corporation          Cumulative                   19                       2,336,153               2,336,153
       U.S. Century Bank                             Non-Cumulative               19        ✓             13,004,930              13,004,930
       Goldwater Bank, N.A.**                        Non-Cumulative               18                         681,000                 681,000
       Patapsco Bancorp, Inc.                        Cumulative                   18                       1,591,500               1,591,500
       Prairie Star Bancshares, Inc.                 Cumulative                   18                         714,700                 714,700
       Capital Commerce Bancorp, Inc.                Cumulative                   17                       1,232,288               1,232,288
       Harbor Bankshares Corporation**               Cumulative                   17                       1,615,000               1,445,000
       Pinnacle Bank Holding Company                 Cumulative                   17                       1,060,320               1,060,320
       Western Community Bancshares, Inc.            Cumulative                   17                       1,834,538               1,834,538
       CalWest Bancorp                               Cumulative                   16                       1,108,200               1,108,200
       CSRA Bank Corp.                               Cumulative                   16                         547,200                 547,200
       Liberty Shares, Inc.                          Cumulative                   16        ✓              3,939,840               3,939,840
       Regent Bancorp, Inc**                         Cumulative                   16                       2,275,860               2,275,860
       Tidelands Bancshares, Inc                     Cumulative                   16        ✓              3,178,560               3,178,560
       HCSB Financial Corporation                    Cumulative                   15        ✓              2,546,763               2,546,763
       Highlands Independent Bancshares, Inc.        Cumulative                   15                       1,436,313               1,436,313
       Suburban Illinois Bancorp, Inc.*,**           Interest                     14        ✓              4,547,083               4,547,083
       Allied First Bancorp, Inc.                    Cumulative                   13                         683,498                 683,498
       NCAL Bancorp                                  Cumulative                   13        ✓              1,971,250               1,971,250
       Porter Bancorp, Inc.                          Cumulative                   12        ✓              5,950,000               5,950,000
       SouthFirst Bancshares, Inc.                   Cumulative                   11                         413,655                 413,655
       US Metro Bank  **
                                                     Non-Cumulative               11                         486,000                 486,000
       OneFinancial Corporation     *,**
                                                     Non-Cumulative               10        ✓              3,715,192               3,715,192
       Calvert Financial Corporation                 Cumulative                    7                         119,668                 119,668
       Chambers Bancshares, Inc.       *,**
                                                     Interest                      7        ✓              3,164,866               3,164,866
       Citizens Bank & Trust Company                 Non-Cumulative                5                         163,500                 163,500
       Farmers & Merchants Barcshares, Inc.   *,**
                                                     Cumulative                    5                       1,458,875                 709,500
       Community Bancshares, Inc.                    Cumulative                    1                         102,020                  51,010
                                                                                                                        Continued on next page
                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014               245




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014                                       (CONTINUED)

                                                                                            Observers
                                                                                Number      Assigned
                                                              Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                       Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
Exchanges, Sales, Recapitalizations,
                                                                                                                                                         
and Failed Banks
United American Bank*****                                     Non-Cumulative         21                                $2,482,702             $2,482,702
Royal Bancshares of Pennsylvania, Inc.                *****
                                                              Cumulative             20                                7,601,750              7,601,750
Idaho Bancorp****                                             Cumulative             19        ✓                        1,786,238              1,786,238
Blue Valley Ban Corp     *****
                                                              Cumulative             18                                4,893,750              4,893,750
Pacific City Financial Corporation        *****
                                                              Cumulative             18                                 3,973,050              3,973,050
Centrue Financial Corporation*****                            Cumulative             18                                6,959,475              6,959,475
Georgia Primary Bank      *****
                                                              Non-Cumulative         18        ✓                        1,113,163              1,113,163
Northern States Financial Corp*****                           Cumulative             18                                3,872,475              3,872,475
Anchor BanCorp Wisconsin, Inc.          ****
                                                              Cumulative             17                               23,604,167             23,604,167
First Banks, Inc.*****                                        Cumulative             17                               64,543,063             64,543,063
Syringa Bancorp   ****
                                                              Cumulative             17        ✓                        1,853,000              1,853,000
Market Bancorporation, Inc.                                   Cumulative             16                                  449,080                 449,080
Provident Community Bancshares, Inc.                          Cumulative             15                                 1,737,375              1,737,375
Central Virginia Bankshares, Inc.        *****
                                                              Cumulative             15                                 2,134,688              2,134,688
Omega Capital Corp.      *****
                                                              Cumulative             15                                  575,588                 575,588
Rogers Bancshares, Inc.****                                   Cumulative             15                                5,109,375              5,109,375
Pathway Bancorp*****                                          Cumulative             15                                  761,588                 761,588
Bridgeview Bancorp, Inc.*****                                 Cumulative             15                                7,766,250              7,766,250
Madison Financial Corporation*****                            Cumulative             15                                  688,913                 688,913
Midtown Bank & Trust Company**,*****                          Non-Cumulative         15                                 1,067,213              1,067,213
TCB Holding Company****                                       Cumulative             15        ✓                        2,397,488              2,397,488
Provident Community Bancshares, Inc.*****                     Cumulative             15                                 1,737,375              1,737,375
Marine Bank & Trust Company           *****
                                                              Non-Cumulative         15                                  613,125                 613,125
1st FS Corporation   *****
                                                              Cumulative             14        ✓                        2,864,575              2,864,575
Dickinson Financial Corporation II*****                       Cumulative             14                                27,859,720             27,859,720
FC Holdings, Inc.*****                                        Cumulative             14                                 4,013,730              4,013,730
Ridgestone Financial Services, Inc.           *****
                                                              Cumulative             14                                 2,079,175              2,079,175
Intervest Bancshares Corporation*****                         Cumulative             14                                4,375,000              4,375,000
Fidelity Federal Bancorp     *****
                                                              Cumulative             14                                 1,229,924              1,229,924
Premierwest Bancorp*****                                      Cumulative             14                                7,245,000              7,245,000
Great River Holding Company          *,**,*****
                                                              Cumulative             14                                 2,466,660              2,466,660
Bank of the Carolinas Corporation*****                        Cumulative             14        ✓                        2,306,325              2,306,325
White River Bancshares Company             *****
                                                              Cumulative             14                                 3,204,600              3,204,600
                                                                                                                                    Continued on next page
246             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014                              (CONTINUED)

                                                                                         Observers
                                                                             Number      Assigned
                                                           Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                              Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
      First Southwest Bancorporation, Inc.*****            Cumulative             13                                 $974,188                $974,188
      Tennessee Valley Financial Holdings, Inc.*****       Cumulative             13                                  531,375                 531,375
      First Sound Bank  *****
                                                           Non-Cumulative         13                                 1,202,500              1,202,500
      Pacific Commerce Bank**,*****                        Non-Cumulative         13                                  751,089                 695,771
      Patriot Bancshares, Inc.   *****
                                                           Cumulative             13        ✓                        4,612,010              4,612,010
      Stonebridge Financial Corp.         *****
                                                           Cumulative             12        ✓                        1,794,180              1,794,180
      Premier Financial Corp*,**,*****                     Interest               12                                 1,597,857              1,597,857
      Citizens Bancshares Co. (MO)          ****
                                                           Cumulative             12                                4,086,000              4,086,000
      Northwest Bancorporation, Inc.*****                  Cumulative             12                                 1,716,750              1,716,750
      Plumas Bancorp*****                                  Cumulative             12        ✓                        1,792,350              1,792,350
      Gold Canyon Bank****                                 Non-Cumulative         12                                  254,010                 254,010
      Santa Clara Valley Bank, N.A.        *****
                                                           Non-Cumulative         12                                  474,150                 474,150
      Spirit BankCorp, Inc.*****                           Cumulative             12        ✓                        4,905,000              4,905,000
      Alliance Financial Services, Inc.*,*****             Interest               12                                 3,020,400              3,020,400
      First Trust Corporation   *,*****
                                                           Interest               12                                4,522,611              4,522,611
      Community First, Inc.*****                           Cumulative             12        ✓                        2,911,200              2,911,200
      Eastern Virginia Bankshares, Inc.            *****
                                                           Cumulative             11        ✓                        3,300,000              3,300,000
      The Queensborough Company*****                       Cumulative             11                                 1,798,500              1,798,500
      Boscobel Bancorp, Inc     *,*****
                                                           Interest               11                                 1,288,716              1,288,716
      Investors Financial Corporation of Pettis
                                                           Interest               11                                  922,900                 922,900
      County, Inc.*
      Florida Bank Group, Inc.*****                        Cumulative             11        ✓                        3,068,203              3,068,203
      Reliance Bancshares, Inc.     *****
                                                           Cumulative             11        ✓                        5,995,000              5,995,000
      Village Bank and Trust Financial Corp.*****          Cumulative             11        ✓                        2,026,475              2,026,475
      AB&T Financial Corporation      *****
                                                           Cumulative             11                                  481,250                 481,250
      Atlantic Bancshares, Inc.    *****
                                                           Cumulative             11                                  299,255                 299,255
      First Financial Service Corporation*****             Cumulative             10        ✓                        2,500,000              2,500,000
      Old Second Bancorp, Inc.*****                        Cumulative             10                                9,125,000              9,125,000
      Security State Bank Holding-Company*,**,*****        Interest               10        ✓                        2,931,481              2,931,481
      Bank of George   *****
                                                           Non-Cumulative         10                                  364,150                 364,150
      Valley Community Bank*****                           Non-Cumulative         10                                  749,375                 749,375
      Commonwealth Business Bank             *****
                                                           Non-Cumulative         10                                 1,049,250              1,049,250
      Gregg Bancshares, Inc.****                           Cumulative              9                                  101,115                 101,115
      Metropolitan Bank Group, Inc./NC Bancorp,
                                                           Cumulative              9        ✓                       12,716,368              9,511,543
      Inc.***
      National Bancshares, Inc.*****                       Cumulative              9                                 3,024,383              3,024,383
                                                                                                                                 Continued on next page
                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014               247




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014                                          (CONTINUED)

                                                                                               Observers
                                                                                   Number      Assigned
                                                                 Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                          Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
SouthCrest Financial Group, Inc.*****                            Cumulative              9                                $1,581,863             $1,581,863
Citizens Bancorp  ****
                                                                 Cumulative              9                                 1,275,300              1,275,300
Community Pride Bank Corporation                    *,**,*****
                                                                 Interest                9                                  803,286                 803,286
Premier Bank Holding Company****                                 Cumulative              9                                 1,164,938              1,164,938
RCB Financial Corporation*****                                   Cumulative              9                                 1,055,520              1,055,520
Central Federal Corporation*****                                 Cumulative              8                                  722,500                 722,500
CoastalSouth Bancshares, Inc.               *****
                                                                 Cumulative              8                                 1,687,900              1,687,900
HMN Financial, Inc.*****                                         Cumulative              8                                 2,600,000              2,600,000
One Georgia Bank   ****
                                                                 Non-Cumulative          8                                  605,328                 605,328
Independent Bank Corporation***                                  Cumulative              8        ✓                       14,193,996              6,164,420
First Intercontinental Bank*****                                 Non-Cumulative          8                                  697,400                 697,400
Coloeast Bankshares, Inc.         *****
                                                                 Cumulative              8        ✓                        1,090,000              1,090,000
Cascade Financial Corporation*****                               Cumulative              7                                 3,409,875              3,409,875
Integra Bank Corporation         ****
                                                                 Cumulative              7                                 7,313,775              7,313,775
Princeton National Bancorp, Inc.****                             Cumulative              7                                 2,194,763              2,194,763
Maryland Financial Bank     *****
                                                                 Non-Cumulative          7                                  162,138                 162,138
Brogan Bankshares, Inc.*                                         Interest                7                                  352,380                 352,380
Severn Bancorp, Inc.     *****
                                                                 Cumulative              6                                 1,754,475              1,754,475
Central Pacific Financial Corp.***,9                             Cumulative              6                                10,125,000                      —
Coastal Banking Company, Inc.               *****
                                                                 Cumulative              6                                  995,000                 995,000
First Reliance Bancshares, Inc.             *****
                                                                 Cumulative              6                                 1,254,720              1,254,720
FNB United Corp.***                                              Cumulative              6        ✓                        3,862,500                      —
FPB Bancorp, Inc. (FL)    ****
                                                                 Cumulative              6                                  435,000                 435,000
Indiana Bank Corp.****                                           Cumulative              6                                  107,310                 107,310
Naples Bancorp, Inc.     *****
                                                                 Cumulative              6                                  327,000                 327,000
First Place Financial Corp.                                      Cumulative              6                                 5,469,525              5,469,525
Worthington Financial Holdings, Inc.*****                        Cumulative              6                                  222,360                 222,360
Fort Lee Federal Savings Bank****                                Non-Cumulative          6                                  106,275                 106,275
Alarion Financial Services, Inc.            *****
                                                                 Cumulative              6                                  532,560                 532,560
Community Financial Shares, Inc.               ***
                                                                 Cumulative              5                                  759,820                 759,820
Delmar Bancorp*****                                              Cumulative              5                                  613,125                 613,125
First BanCorp (PR) ***
                                                                 Cumulative              5        ✓                       42,681,526                      —
First Federal Bancshares of Arkansas,
                                                                 Cumulative              5                                 1,031,250              1,031,250
Inc.*****
Flagstar Bancorp, Inc.*****                                      Cumulative              5                                16,666,063             16,666,063
Midwest Banc Holdings, Inc.             5
                                                                 Cumulative              5                                 4,239,200              4,239,200
                                                                                                                                       Continued on next page
248             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014                                  (CONTINUED)

                                                                                             Observers
                                                                                 Number      Assigned
                                                               Dividend or      of Missed   to Board of          Value of Missed           Value of Unpaid
      Company                                                  Payment Type     Payments     Directors1               Payments2                Amounts2,3,4
      Pacific Capital Bancorp***,9                             Cumulative              5                                $13,547,550                     $—
      GulfSouth Private Bank      ****
                                                               Non-Cumulative          5                                   494,063                 494,063
      Northwest Commercial Bank                ****
                                                               Non-Cumulative          5                                   135,750                 135,750
      IA Bancorp, Inc.**,*****                                 Cumulative              5                                   472,365                 393,638
      CB Holding Corp.   ****
                                                               Cumulative              4                                   224,240                 224,240
      Colony Bankcorp, Inc.*****                               Cumulative              4                                  1,400,000              1,400,000
      First Community Bank Corporation of
                                                               Cumulative              4                                   534,250                 534,250
      America*****
      Green Bankshares, Inc.*****                              Cumulative              4                                  3,613,900              3,613,900
      Hampton Roads Bankshares, Inc.***,9                      Cumulative              4                                  4,017,350              4,017,350
      Pierce County Bancorp       ****
                                                               Cumulative              4                                   370,600                 370,600
      Santa Lucia Bancorp*****                                 Cumulative              4                                   200,000                 200,000
      Sterling Financial Corporation (WA)              ***,9
                                                               Cumulative              4                                 18,937,500             18,937,500
      TIB Financial Corp***** ,7                               Cumulative              4                                  1,850,000              1,850,000
      Community Bank of the Bay            6
                                                               Non-Cumulative          4                                    72,549                  72,549
      The Bank of Currituck      *****
                                                               Non-Cumulative          4                                   219,140                 219,140
      The Connecticut Bank and Trust
                                                               Non-Cumulative          4                                   246,673                 246,673
      Company*****
      Plato Holdings Inc.*,*****                               Interest                4                                   207,266                 207,266
      Virginia Company Bank       *****
                                                               Non-Cumulative          3                                   185,903                 185,903
      Blue River Bancshares, Inc.****                          Cumulative              3                                   204,375                 204,375
      Community West Bancshares                *****
                                                               Cumulative              3                                   585,000                 585,000
      Legacy Bancorp, Inc.****                                 Cumulative              3                                   206,175                 206,175
      Sonoma Valley Bancorp        ****
                                                               Cumulative              3                                   353,715                 353,715
      Superior Bancorp Inc.****                                Cumulative              3                                  2,587,500              2,587,500
      Tennessee Commerce Bancorp, Inc.****                     Cumulative              3                                  1,125,000              1,125,000
      The South Financial Group, Inc.             ***** ,7
                                                               Cumulative              3                                 13,012,500             13,012,500
      Treaty Oak Bancorp, Inc.*****                            Cumulative              3                                   133,553                 133,553
      Bank of Commerce     *****
                                                               Non-Cumulative          3                                   122,625                 122,625
      Carolina Trust Bank*****                                 Non-Cumulative          3                                   150,000                 150,000
      Commerce National Bank                                   Non-Cumulative          3                                   150,000                 150,000
      Cadence Financial Corporation*****                       Cumulative              2                                   550,000                 550,000
      First Alliance Bancshares, Inc.*****                     Cumulative              2                                    93,245                  93,245
      Pacific Coast National Bancorp****                       Cumulative              2                                   112,270                 112,270
      The Baraboo Bancorporation, Inc.*****                    Cumulative              2                                   565,390                 565,390
      Colonial American Bank       *****
                                                               Non-Cumulative          2                                    15,655                  15,655
                                                                                                                                      Continued on next page
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                        249




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2014                                                                       (CONTINUED)

                                                                                                                      Observers
                                                                                                    Number            Assigned
                                                                 Dividend or                       of Missed         to Board of                    Value of Missed                     Value of Unpaid
Company                                                          Payment Type                      Payments           Directors1                         Payments2                          Amounts2,3,4
Fresno First Bank***                                             Non-Cumulative                                 2                                              $33,357                              $33,357
FBHC Holding Company              *,*****
                                                                 Interest                                       2                                              123,127                              123,127
Gateway Bancshares, Inc.                                         Cumulative                                     2                                              163,500                              163,500
CIT Group Inc.****,8                                             Cumulative                                     2                                          29,125,000                          29,125,000
UCBH Holdings, Inc.****                                          Cumulative                                     1                                           3,734,213                            3,734,213
Exchange Bank*****                                               Non-Cumulative                                 1                                              585,875                              585,875
Tifton Banking Company            ****
                                                                 Non-Cumulative                                 1                                                51,775                               51,775
Total                                                                                                                                                $599,233,685                         $516,678,278
Notes: Numbers may not total due to rounding. Approximately $32.2 million of the $511.6 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

*
  Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
**
   Partial payments made after the due date.
***
    Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
****
     Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
*****
      Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n    Treasury has appointed one or more directors to the Board of Directors.
✓    Treasury has assigned an observer to the Board of Directors.

1
  F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
   an observer to the board of directors.
2
   Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
   Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
  Program.
4
    Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
     investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
     For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
      amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
      Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
      For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
      For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
       amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
       Completed exchanges:
        - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
        amounts reflect the figures Treasury reported prior to the exchange.
        - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
        amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 7/10/2014; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013, 10/7/2013, 1/13/2014, 4/10/2014, 7/11/2014, and 10/6/2014.
250   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                                 Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                                 institutions,” as of September 30, 2014, 30 CPP participants had gone bankrupt or
                                                 had a subsidiary bank fail, as indicated in Table 4.37.482

            TABLE 4.37
             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 9/30/2014                            ($ MILLIONS)

                                                        Initial
                                                     Invested     Investment                      Bankruptcy/
             Company                                  Amount            Date           Status     Failure Datea            Subsidiary Bank
                                                                                    Bankruptcy
                                                                                  proceedings
                                                                               completed with
                                                                                   no recovery                                     CIT Bank,
             CIT Group Inc., New York, NY            $2,330.0     12/31/2008                        11/1/2009
                                                                                  of Treasury’s                            Salt Lake City, UT
                                                                                   investment;
                                                                               subsidiary bank
                                                                                remains active
                                                                                In bankruptcy;
             UCBH Holdings Inc., San                                                                               United Commercial Bank,
                                                        298.7     11/14/2008   subsidiary bank      11/6/2009
             Francisco, CA                                                                                                San Francisco, CA
                                                                                         failed
                                                                                    Bankruptcy
                                                                                  proceedings
                                                                               completed with
             Pacific Coast National Bancorp,                                      no recovery                         Pacific Coast National
                                                           4.1     1/16/2009                       11/13/2009
             San Clemente, CA                                                    of Treasury’s                      Bank, San Clemente, CA
                                                                                   investment;
                                                                               subsidiary bank
                                                                                         failed
                                                                                In bankruptcy;                             Midwest Bank and
             Midwest Banc Holdings, Inc.,
                                                        89.4b      12/5/2008   subsidiary bank      5/14/2010                Trust Company,
             Melrose Park, IL
                                                                                         failed                            Elmwood Park, IL
             Sonoma Valley Bancorp,                                            Subsidiary bank                          Sonoma Valley Bank,
                                                           8.7     2/20/2009                        8/20/2010
             Sonoma, CA                                                                  failed                               Sonoma, CA
             Pierce County Bancorp,                                            Subsidiary bank                      Pierce Commercial Bank,
                                                           6.8     1/23/2009                        11/5/2010
             Tacoma, WA                                                                  failed                                Tacoma, WA
             Tifton Banking Company,
                                                           3.8     4/17/2009             Failed    11/12/2010                             N/A
             Tifton, GA
             Legacy Bancorp, Inc.,                                             Subsidiary bank                                   Legacy Bank,
                                                           5.5     1/30/2009                        3/11/2011
             Milwaukee, WI                                                               failed                                  Milwaukee, WI
             Superior Bancorp, Inc.,                                           Subsidiary bank                                Superior Bank,
                                                         69.0      12/5/2008                        4/15/2011
             Birmingham, AL                                                              failed                              Birmingham, AL
             Integra Bank Corporation,                                         Subsidiary bank
                                                         83.6      2/27/2009                        7/29/2011     Integra Bank, Evansville, IN
             Evansville, IN                                                              failed
             One Georgia Bank, Atlanta, GA                 5.5      5/8/2009             Failed     7/15/2011                             N/A
                                                                               Subsidiary bank                           First Peoples Bank,
             FPB Bancorp, Port Saint Lucie, FL             5.8     12/5/2008                        7/15/2011
                                                                                         failed                          Port Saint Lucie, FL
                                                                               Subsidiary bank                     Citizens Bank of Northern
             Citizens Bancorp, Nevada City, CA           10.4     12/23/2008                        9/23/2011
                                                                                         failed                   California, Nevada City, CA
                                                                                                                     Continued on next page
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             251




CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 9/30/2014                                                                   ($ MILLIONS) (CONTINUED)

                                                       Initial
                                                    Invested        Investment                                         Bankruptcy/
Company                                              Amount               Date                         Status          Failure Datea                    Subsidiary Bank
                                                                                            Subsidiary bank
CB Holding Corp., Aledo, IL                               $4.1       5/29/2009                                          10/14/2011               Country Bank, Aledo, IL
                                                                                                      failed
Tennessee Commerce Bancorp,                                                                 Subsidiary bank                                       Tennessee Commerce
                                                          30.0     12/19/2008                                             1/27/2012
Inc., Franklin, TN                                                                                    failed                                          Bank, Franklin, TN
Blue River Bancshares, Inc.,                                                                Subsidiary bank
                                                            5.0        3/6/2009                                           2/10/2012            SCB Bank, Shelbyville, IN
Shelbyville, IN                                                                                       failed
Fort Lee Federal Savings Bank                               1.3      5/22/2009                          Failed            4/20/2012                                       N/A
                                                                                            Subsidiary bank                                      Glasgow Savings Bank,
Gregg Bancshares, Inc.                                      0.9      2/13/2009                                            7/13/2012
                                                                                                      failed                                              Glasgow, MO
Premier Bank Holding Company                                9.5      3/20/2009                 In bankruptcy              8/14/2012                                       N/A
GulfSouth Private Bank                                      7.5      9/25/2009                          Failed          10/19/2012                                        N/A
Investors Financial Corporation of                                                          Subsidiary bank
                                                            4.0        5/8/2009                                         10/19/2012              Excel Bank, Sedalia, MO
Pettis County, Inc.                                                                                   failed
                                                                                                                                                         First Place Bank,
First Place Financial Corporation                         72.9       3/13/2009                 In bankruptcy            10/29/2012
                                                                                                                                                               Warren, OH
                                                                                            Subsidiary bank                                        Citizens First National
Princeton National Bancorp                                25.1       1/23/2009                                            11/2/2012
                                                                                                      failed                                          Bank, Princeton, IL
Gold Canyon Bank                                            1.6      6/26/2009                          Failed              4/5/2013                                      N/A
Indiana Bank Corp.                                          1.3      4/24/2009                 In bankruptcy                4/9/2013                                      N/A
Rogers Bancshares, Inc.                                   25.0       1/30/2009                 In bankruptcy                7/5/2013                                      N/A
                                                                                              Filed for and
Anchor BanCorp Wisconsin Inc.                           110.0        1/30/2009           exited bankruptcy                8/12/2013                                       N/A
                                                                                                protectionc
                                                                                            Subsidiary bank                                          Texas Community
TCB Holding Company                                       11.7       1/16/2009                                          12/13/2013
                                                                                                      failed                                   Bank,The Woodlands, TX
                                                                                            Subsidiary bank
Syringa Bancorp                                             8.0      1/16/2009                                            1/31/2014               Syringa Bank,Boise, ID
                                                                                                      failed
Idaho Bancorp, Boise, ID                                    6.9      1/16/2009                 In bankruptcy              4/24/2014                                       N/A
Total                                               $3,246.1                                                                                                                  
Notes: Numbers may not total due to rounding.
a
  Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
b
  The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
   (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
c
  Treasury recouped $6 million of its investment once the company’s plan of reorganization became effective.

Source: Treasury, Transactions Report, 9/30/2014.
252   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Realized Losses and Write-offs
                                             When a CPP investment is sold at a loss, or an institution that Treasury invested
                                             in fails or has its subsidiary fail, Treasury records the loss as a realized loss or a
                                             write-off. For these recorded losses, Treasury has no expectation of regaining any
                                             portion of the lost investment. According to Treasury, as of September 30, 2014,
                                             Treasury had realized losses and write-offs of $4.9 billion on its CPP investments.
                                             This total includes $17.4 million in realized losses this quarter. Table 4.38 shows all
                                             realized losses and write-offs by Treasury on CPP investments through September
                                             30, 2014.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   253




TABLE 4.38
 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014           ($ MILLIONS)

                                                TARP
 Institution                              Investment   Loss          Date   Description
Realized Losses
The Bank of Currituck                            $4     $2     12/3/2010 Sale of preferred stock at a loss
Treaty Oak Bancorp, Inc.                          3      3     2/15/2011 Sale of preferred stock at a loss
Cadence Financial Corporation                    44      6      3/4/2011 Sale of preferred stock at a loss
                                                                            Sale of subordinated
FBHC Holding Company                              3      2      3/9/2011
                                                                            debentures at a loss
First Federal Bancshares of Arkansas,
                                                 17     11      5/3/2011 Sale of preferred stock at a loss
Inc.
First Community Bank Corporation of
                                                 11      3     5/31/2011 Sale of preferred stock at a loss
America
Cascade Financial Corporation                    39     23     6/30/2011 Sale of preferred stock at a loss
Green Bankshares, Inc.                           72      4      9/7/2011 Sale of preferred stock at a loss
Santa Lucia Bancorp                               4      1    10/21/2011 Sale of preferred stock at a loss
Banner Corporation/Banner Bank                  124     14      4/3/2012 Sale of preferred stock at a loss
First Financial Holdings Inc.                    65      8      4/3/2012 Sale of preferred stock at a loss
MainSource Financial Group, Inc.                 57      4      4/3/2012 Sale of preferred stock at a loss
Seacoast Banking Corporation of
                                                 50      9      4/3/2012 Sale of preferred stock at a loss
Florida
Wilshire Bancorp, Inc.                           62      4      4/3/2012 Sale of preferred stock at a loss
WSFS Financial Corporation                       53      4      4/3/2012 Sale of preferred stock at a loss
Central Pacific Financial Corp.                 135     62      4/4/2012    Sale of common stock at a loss
Ameris Bancorp                                   52      4     6/19/2012 Sale of preferred stock at a loss
Farmers Capital Corporation                      30      8     6/19/2012 Sale of preferred stock at a loss
First Capital Bancorp, Inc.                      11      1     6/19/2012 Sale of preferred stock at a loss
First Defiance Financial Corp.                   37      1     6/19/2012 Sale of preferred stock at a loss
LNB Bancorp, Inc.                                25      3     6/19/2012 Sale of preferred stock at a loss
Taylor Capital Group, Inc.                      105     11     6/19/2012    Sale of preferred stock at a loss
United Bancorp, Inc.                             21      4     6/19/2012 Sale of preferred stock at a loss
Fidelity Southern Corporation                    48      5      7/3/2012 Sale of preferred stock at a loss
First Citizens Banc Corp                         21      2      7/3/2012 Sale of preferred stock at a loss
Firstbank Corporation                            33      2      7/3/2012 Sale of preferred stock at a loss
Metrocorp Bancshares, Inc.                       45      1      7/3/2012 Sale of preferred stock at a loss
Peoples Bancorp of North Carolina, Inc.          25      2      7/3/2012 Sale of preferred stock at a loss
Pulaski Financial Corp.                          33      4      7/3/2012 Sale of preferred stock at a loss
Southern First Bancshares, Inc.                  17      2      7/3/2012 Sale of preferred stock at a loss
Naples Bancorp, Inc.                              4      3     7/12/2012 Sale of preferred stock at a loss
Commonwealth Bancshares, Inc.                    20      5      8/9/2012 Sale of preferred stock at a loss
Diamond Bancorp, Inc.                            20      6      8/9/2012 Sale of preferred stock at a loss
Fidelity Financial Corporation                   36      4      8/9/2012 Sale of preferred stock at a loss
                                                                                    Continued on next page
254   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014             ($ MILLIONS) (CONTINUED)

                                                                          TARP
                         Institution                                Investment   Loss          Date   Description
                         Market Street Bancshares, Inc.                   $20     $2      8/9/2012    Sale of preferred stock at a loss
                         CBS Banc-Corp.                                    24      2     8/10/2012 Sale of preferred stock at a loss
                         Marquette National Corporation                    36     10     8/10/2012 Sale of preferred stock at a loss
                         Park Bancorporation, Inc.                         23      6     8/10/2012 Sale of preferred stock at a loss
                         Premier Financial Bancorp, Inc.                    7      2     8/10/2012 Sale of preferred stock at a loss
                         Trinity Capital Corporation                       36      9     8/10/2012 Sale of preferred stock at a loss
                         Exchange Bank                                     43      5     8/13/2012 Sale of preferred stock at a loss
                         Millennium Bancorp, Inc.                           7      4     8/14/2012 Sale of preferred stock at a loss
                         Sterling Financial Corporation                   303    188     8/20/2012    Sale of preferred stock at a loss
                         BNC Bancorp                                       31      2     8/29/2012 Sale of preferred stock at a loss
                         First Community Corporation                       11      0     8/29/2012 Sale of preferred stock at a loss
                         First National Corporation                        14      2     8/29/2012 Sale of preferred stock at a loss
                         Mackinac Financial Corporation                    11      1     8/29/2012 Sale of preferred stock at a loss
                         Yadkin Valley Financial Corporation               13      5     9/18/2012 Sale of preferred stock at a loss
                         Alpine Banks of Colorado                          70     13     9/20/2012 Sale of preferred stock at a loss
                         F & M Financial Corporation (NC)                  17      1     9/20/2012 Sale of preferred stock at a loss
                         F&M Financial Corporation (TN)                    17      4     9/21/2012 Sale of preferred stock at a loss
                         First Community Financial Partners, Inc.          22      8     9/21/2012 Sale of preferred stock at a loss
                         Central Federal Corporation                        7      4     9/26/2012 Sale of preferred stock at a loss
                         Congaree Bancshares, Inc.                          3     0.6   10/31/2012 Sale of preferred stock at a loss
                         Metro City Bank                                    8     0.8   10/31/2012 Sale of preferred stock at a loss
                         Blue Ridge Bancshares, Inc.                       12      3    10/31/2012    Sale of preferred stock at a loss
                         Germantown Capital Corporation                     5     0.4   10/31/2012    Sale of preferred stock at a loss
                         First Gothenburg Bancshares, Inc.                  8     0.7   10/31/2012 Sale of preferred stock at a loss
                         Blackhawk Bancorp, Inc.                           10     0.9   10/31/2012 Sale of preferred stock at a loss
                         Centerbank                                         2     0.4   10/31/2012 Sale of preferred stock at a loss
                         The Little Bank, Incorporated                      8     0.1   10/31/2012 Sale of preferred stock at a loss
                         Oak Ridge Financial Services, Inc.                 8     0.6   10/31/2012 Sale of preferred stock at a loss
                         Peoples Bancshares of TN, Inc.                     4      1    10/31/2012    Sale of preferred stock at a loss
                         Hometown Bankshares Corporation                   10     0.8   10/31/2012    Sale of preferred stock at a loss
                         Western Illinois Bancshares, Inc.                 11     0.7    11/9/2012 Sale of preferred stock at a loss
                         Capital Pacific Bancorp                            4     0.2    11/9/2012 Sale of preferred stock at a loss
                         Three Shores Bancorporation, Inc.                  6     0.6    11/9/2012 Sale of preferred stock at a loss
                         Regional Bankshares, Inc.                          2     0.1    11/9/2012 Sale of preferred stock at a loss
                         Timberland Bancorp, Inc.                          17      2     11/9/2012 Sale of preferred stock at a loss
                         First Freedom Bancshares, Inc.                     9     0.7    11/9/2012 Sale of preferred stock at a loss
                         Bankgreenville Financial Corporation               1     0.1    11/9/2012 Sale of preferred stock at a loss
                                                                                                      Sale of subordinated
                         F&C Bancorp. Inc.                                  3     0.1   11/13/2012
                                                                                                      debentures at a loss
                                                                                                              Continued on next page
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   255




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014           ($ MILLIONS) (CONTINUED)

                                               TARP
Institution                              Investment   Loss          Date   Description
                                                                           Sale of subordinated
Farmers Enterprises, Inc.                      $12    $0.4   11/13/2012
                                                                           debentures at a loss
Franklin Bancorp, Inc.                           5      2    11/13/2012 Sale of preferred stock at a loss
Sound Banking Company                            3     0.2   11/13/2012    Sale of preferred stock at a loss
Parke Bancorp, Inc.                             16      5    11/29/2012 Sale of preferred stock at a loss
Country Bank Shares, Inc.                        8     0.6   11/29/2012    Sale of preferred stock at a loss
Clover Community Bankshares, Inc.                3     0.4   11/29/2012 Sale of preferred stock at a loss
CBB Bancorp                                      4     0.3   11/29/2012 Sale of preferred stock at a loss
Alaska Pacific Bancshares, Inc.                  5     0.5   11/29/2012 Sale of preferred stock at a loss
Trisummit Bank                                   7      2    11/29/2012 Sale of preferred stock at a loss
Layton Park Financial Group, Inc.                3     0.6   11/29/2012    Sale of preferred stock at a loss
Community Bancshares of Mississippi,
Inc. (Community Holding Company of               1     0.1   11/30/2012 Sale of preferred stock at a loss
Florida, Inc.)
FFW Corporation                                  7     0.7   11/30/2012 Sale of preferred stock at a loss
Hometown Bancshares, Inc.                        2     0.1   11/30/2012 Sale of preferred stock at a loss
Bank of Commerce                                 3     0.5   11/30/2012 Sale of preferred stock at a loss
Corning Savings And Loan Association             1     0.1   11/30/2012 Sale of preferred stock at a loss
Carolina Trust Bank                              4     0.6   11/30/2012 Sale of preferred stock at a loss
Community Business Bank                          4     0.3   11/30/2012 Sale of preferred stock at a loss
KS Bancorp, Inc                                  4     0.7   11/30/2012 Sale of preferred stock at a loss
Pacific Capital Bancorp                        195     15    11/30/2012    Sale of common stock at a loss
Community West Bancshares                       16      4    12/11/2012 Sale of preferred stock at a loss
Presidio Bank                                   11      2    12/11/2012    Sale of preferred stock at a loss
The Baraboo Bancorporation, Inc.                21      7    12/11/2012 Sale of preferred stock at a loss
Security Bancshares of Pulaski County,
                                                 2     0.7   12/11/2012    Sale of preferred stock at a loss
Inc.
Central Community Corporation                   22      2    12/11/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Manhattan Bancshares, Inc.                       3     0.1   12/11/2012
                                                                           debentures at a loss
First Advantage Bancshares, Inc.                 1     0.1   12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                3     0.1   12/20/2012 Sale of preferred stock at a loss
First Business Bank, National
                                                 4     0.4   12/20/2012 Sale of preferred stock at a loss
Association
Bank Financial Services, Inc.                    1     0.1   12/20/2012 Sale of preferred stock at a loss
                                                                           Sale of subordinated
Century Financial Services Corporation          10     0.2   12/20/2012
                                                                           debentures at a loss
Hyperion Bank                                    2     0.5   12/21/2012 Sale of preferred stock at a loss
First Independence Corporation                   3     0.9   12/21/2012 Sale of preferred stock at a loss
First Alliance Bancshares, Inc.                  3      1    12/21/2012 Sale of preferred stock at a loss
Community Financial Shares, Inc.                 7      4    12/21/2012    Sale of preferred stock at a loss
                                                                                   Continued on next page
256   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014          ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment   Loss         Date   Description
                         Alliance Financial Services, Inc.              $12     $3     2/7/2013    Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         Biscayne Bancshares, Inc.                        6     0.2    2/8/2013
                                                                                                   debentures at a loss
                         Citizens Bancshares Co.                         25     12     2/8/2013 Sale of preferred stock at a loss
                         Colony Bankcorp, Inc.                           28      6     2/8/2013 Sale of preferred stock at a loss
                         Delmar Bancorp                                   9      3     2/8/2013 Sale of preferred stock at a loss
                         Dickinson Financial Corporation II             146     65     2/8/2013    Sale of preferred stock at a loss
                         F & M Bancshares, Inc.                           4     0.5    2/8/2013 Sale of preferred stock at a loss
                         First Priority Financial Corp.                   5      1     2/8/2013 Sale of preferred stock at a loss
                         HMN Financial, Inc.                             26      7     2/8/2013 Sale of preferred stock at a loss
                         Waukesha Bankshares, Inc.                        6     0.4    2/8/2013 Sale of preferred stock at a loss
                         FC Holdings, Inc.                               21      2    2/20/2013 Sale of preferred stock at a loss
                         First Sound Bank                                 7      4    2/20/2013 Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         First Trust Corporation                         18      4    2/20/2013
                                                                                                   debentures at a loss
                         National Bancshares, Inc.                       25      6    2/20/2013 Sale of preferred stock at a loss
                         Ridgestone Financial Services, Inc.             11      2    2/20/2013 Sale of preferred stock at a loss
                         Carolina Bank Holdings, Inc.                    16      1    2/21/2013 Sale of preferred stock at a loss
                         Santa Clara Valley Bank, N.A.                    3     0.4    3/8/2013 Sale of preferred stock at a loss
                         Coastal Banking Company, Inc.                   10     0.4   3/11/2013 Sale of preferred stock at a loss
                         CoastalSouth Bancshares, Inc.                   16      3    3/11/2013 Sale of preferred stock at a loss
                         First Reliance Bancshares, Inc.                 15      5    3/11/2013 Sale of preferred stock at a loss
                         Southcrest Financial Group, Inc.                13      1    3/11/2013 Sale of preferred stock at a loss
                         The Queensborough Company                       12     0.3   3/11/2013 Sale of preferred stock at a loss
                         Old Second Bancorp, Inc.                        73     47    3/27/2013 Sale of preferred stock at a loss
                         Stonebridge Financial Corp.                     11      9    3/27/2013 Sale of preferred stock at a loss
                         Alliance Bancshares, Inc.                        3     0.1   3/28/2013 Sale of preferred stock at a loss
                                                                                                   Sale of subordinated
                         Amfirst Financial Services, Inc                  5     0.2   3/28/2013
                                                                                                   debentures at a loss
                         First Southwest Bancorporation, Inc.             6     0.5   3/28/2013 Sale of preferred stock at a loss
                         Flagstar Bancorp, Inc.                         267     24    3/28/2013    Sale of preferred stock at a loss
                         United Community Banks, Inc.                   180      7    3/28/2013    Sale of preferred stock at a loss
                                                                                                Exchange of preferred stock at
                         First Security Group, Inc.                      33     18    4/11/2013
                                                                                                a loss
                         BancStar, Inc.                                   9     0.1   4/26/2013 Sale of preferred stock at a loss
                         NewBridge Bancorp                               52      1    4/29/2013 Sale of preferred stock at a loss
                         First Financial Service Corporation             20      9    4/29/2013 Sale of preferred stock at a loss
                         Guaranty Federal Bancshares, Inc.               17     0.4   4/29/2013 Sale of preferred stock at a loss
                         Intervest Bancshares Corporation                25      1    6/24/2013 Sale of preferred stock at a loss
                         First Western Financial, Inc.                   20      3    6/24/2013 Sale of preferred stock at a loss
                         Worthington Financial Holdings, Inc.             3     0.4   6/24/2013 Sale of preferred stock at a loss
                                                                                                           Continued on next page
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   257




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014          ($ MILLIONS) (CONTINUED)

                                              TARP
Institution                             Investment   Loss          Date   Description
Farmers & Merchants Financial
                                               $0    $0.1    6/24/2013 Sale of preferred stock at a loss
Corporation
Metropolitan Bank Group, Inc.                  82     49     6/28/2013 Sale of preferred stock at a loss
Alarion Financial Services, Inc.                7     0.1    7/22/2013 Sale of preferred stock at a loss
Anchor Bancorp Wisconsin, Inc.                110    104     9/27/2013    Sale of common stock at a loss
Centrue Financial Corporation                  33     22    10/18/2013 Sale of preferred stock at a loss
ColoEast Bankshares, Inc.                      10      1     7/22/2013    Sale of preferred stock at a loss
Commonwealth Business Bank                     20     0.4    7/17/2013 Sale of preferred stock at a loss
Crosstown Holding Company                      11     0.2    7/22/2013 Sale of preferred stock at a loss
Desoto County Bank                              3     0.5    9/25/2013 Sale of preferred stock at a loss
First Bancorp (PR)                            400     72     9/13/2013    Sale of common stock at a loss
First Banks, Inc.                             295    190     9/25/2013    Sale of preferred stock at a loss
First Intercontinental Bank                     6      3     8/12/2013 Sale of preferred stock at a loss
Florida Bank Group, Inc.                       20     12     8/14/2013 Sale of preferred stock at a loss
Mountain Valley Bancshares, Inc.                3      —     7/22/2013 Sale of preferred stock at a loss
RCB Financial Corporation                       9      1     9/25/2013 Sale of preferred stock at a loss
Severn Bancorp, Inc.                           23      —     9/25/2013 Sale of preferred stock at a loss
Universal Bancorp                              10     0.5    8/12/2013 Sale of preferred stock at a loss
Virginia Company Bank                           5      2     8/12/2013 Sale of preferred stock at a loss
Central Virginia Bankshares, Inc.              11      8     10/1/2013 Sale of preferred stock at a loss
Bank of George                                  3      2    10/21/2013 Sale of preferred stock at a loss
Blue Valley Ban Corp                           22     0.5   10/21/2013    Sale of preferred stock at a loss
Spirit Bank Corp Inc.                          30     21    10/21/2013 Sale of preferred stock at a loss
Valley Community Bank                           6      3    10/21/2013    Sale of preferred stock at a loss
Monarch Community Bancorp, Inc.                 7      2    11/15/2013 Sale of common stock at a loss
AB&T Financial Corporation                      4      2    11/19/2013    Sale of preferred stock at a loss
Bridgeview Bancorp, Inc.                       38     28    11/19/2013 Sale of preferred stock at a loss
Midtown Bank & Trust Company                    5      2    11/19/2013    Sale of preferred stock at a loss
Village Bank and Trust Financial Corp          15      9    11/19/2013 Sale of preferred stock at a loss
1st Financial Services Corporation             16      8    12/31/2013    Sale of preferred stock at a loss
Pacific Commerce Bank                           4      2     2/10/2014 Sale of preferred stock at a loss
Meridian Bank                                  13      2     3/17/2014 Sale of preferred stock at a loss
IA Bancorp, Inc/Indus American Bank             6     0.1    3/17/2014 Sale of preferred stock at a loss
Community First Bancshares, Inc. (AR)          13     0.2    2/10/2014 Sale of preferred stock at a loss
Georgia Primary Bank                            5      3     2/10/2014 Sale of preferred stock at a loss
Chicago Shore Corporation                       7     0.1    3/17/2014 Sale of preferred stock at a loss
Hampton Roads Bankshares, Inc.                 80     77     4/14/2014 Sale of preferred stock at a loss
Community First, Inc.                          18     12     4/14/2014 Sale of common stock at a loss
Northern States Financial Corporation          17     11     4/30/2014 Sale of preferred stock at a loss
Provident Community Bancshares, Inc.            9      4     4/30/2014 Sale of preferred stock at a loss
                                                                                  Continued on next page
258   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014             ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment     Loss         Date   Description
                         Communityone Bancorp/FNB United Corp.          $52      $41     5/23/2014   Sale of common stock at a loss
                         United American Bank                             9        5      7/2/2014   Sale of preferred stock at a loss
                         Maryland Financial Bank                          2        1      7/2/2014   Sale of preferred stock at a loss
                         Marine Bank & Trust Company                      3        1      7/2/2014   Sale of preferred stock at a loss
                         Bank of the Carolinas Corporation               13       10     7/16/2014   Sale of preferred stock at a loss
                         Total CPP Realized Losses                             $1,528
                         Write-Offs
                         CIT Group Inc.                              $2,330    $2,330   12/10/2009   Bankruptcy
                         Pacific Coast National Bancorp                   4        4     2/11/2010 Bankruptcy
                         South Financial Group, Inc.a                   347      217     9/30/2010   Sale of preferred stock at a loss
                         TIB Financial Corpa                             37       25     9/30/2010   Sale of preferred stock at a loss
                         UCBH Holdings Inc.                             299      299     11/6/2009   Bankruptcy
                         Midwest Banc Holdings, Inc.                     85       85     5/14/2010   Bankruptcy
                         Sonoma Valley Bancorp                            9        9     8/20/2010   Bankruptcy
                         Pierce County Bancorp                            7        7     11/5/2010   Bankruptcy
                         Tifton Banking Company                           4        4    11/12/2010 Bankruptcy
                         Legacy Bancorp, Inc.                             6        6     3/11/2011   Bankruptcy
                         Superior Bancorp Inc.                           69       69     4/15/2011   Bankruptcy
                         FPB Bancorp, Inc.                                6        6     7/15/2011   Bankruptcy
                         One Georgia Bank                                 6        6     7/15/2011   Bankruptcy
                         Integra Bank Corporation                        84       84     7/29/2011   Bankruptcy
                         Citizens Bancorp                                10       10     9/23/2011   Bankruptcy
                         CB Holding Corp.                                 4        4    10/14/2011   Bankruptcy
                         Tennessee Commerce Bancorp, Inc.                30       30     1/27/2012   Bankruptcy
                         Blue River Bancshares, Inc.                      5        5     2/10/2012   Bankruptcy
                         Fort Lee Federal Savings Bank, FSB               1        1     4/20/2012   Bankruptcy
                         Gregg Bancshares, Inc.                           1        1     7/13/2012   Bankruptcy
                         Premier Bank Holding Company                    10       10     8/14/2012   Bankruptcy
                         GulfSouth Private Bank                           8        8    10/19/2012   Bankruptcy
                         Investors Financial Corporation of
                                                                          4        4    10/19/2012 Bankruptcy
                         Pettis County, Inc.
                         First Place Financial Corp.                     73       73    10/29/2012   Bankruptcy
                         Princeton National Bancorp, Inc.                25       25     11/2/2012   Bankruptcy
                         Gold Canyon Bank                                 2        2      4/5/2013   Bankruptcy
                         Indiana Bank Corp.                               1        1      4/9/2013   Bankruptcy
                         Rogers Bancshares, Inc                          25       25      7/5/2013   Bankruptcy
                         TCB Holding Company                             12       12    12/13/2013 Bankruptcy
                                                                                                             Continued on next page
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                        259




 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2014                                                        ($ MILLIONS) (CONTINUED)

                                                                  TARP
 Institution                                                Investment                      Loss                   Date      Description
 Syringa Bancorp                                                         $8                    $8         1/31/2014 Bankruptcy
 Idaho Bancorp                                                             7                     7        4/24/2014 Bankruptcy
 Total CPP Write-Offs                                                                   $3,373                                                                         
 Total of CPP Realized Losses and
                                                                                        $4,901                                                                         
 Write-Offs
 Notes: Numbers may not total due to rounding.
 a
   In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
    realized losses.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, response to SIGTARP data call, 10/6/2014.



Restructurings, Recapitalizations, Exchanges, and Sales of
CPP Investments
Certain CPP institutions continue to experience high losses and financial
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
improve the quality of their capital, these institutions may ask Treasury to convert
its CPP preferred shares into a more junior form of equity or to accept a lower
valuation, resulting in Treasury taking a discount or loss. If a CPP institution
is undercapitalized and/or in danger of becoming insolvent, it may propose to
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
private capital) and to “attempt to preserve value” for Treasury’s investment.483
Treasury may also sell its investment in a troubled institution to a third party at
a discount in order to facilitate that party’s acquisition of a troubled institution.                                                                   Undercapitalized: Condition in which a
According to Treasury, although it may incur partial losses on its investment in the                                                                    financial institution does not meet its
course of these transactions, such an outcome may be deemed necessary to avoid                                                                          regulator’s requirements for sufficient
the total loss of Treasury’s investment that would occur if the institution failed.484                                                                  capital to operate under a defined level
    Under these circumstances, the CPP participant asks Treasury for a formal                                                                           of adverse conditions.
review of its proposal. The proposal details the institution’s recapitalization plan
and may estimate how much capital the institution plans to raise from private                                                                           Due Diligence: Appropriate level of
investors and whether Treasury and other preferred shareholders will convert                                                                            attention or care a reasonable person
their preferred stock to common stock. The proposal may also involve a proposed                                                                         should take before entering into an
discount on the conversion to common stock, although Treasury would not realize                                                                         agreement or a transaction with
any loss until it disposes of the stock.485 In other words, Treasury would not know                                                                     another party. In finance, it often refers
whether a loss will occur, or the extent of such a loss, until it sells the common                                                                      to the process of conducting an audit
stock it receives as part of such an exchange. According to Treasury, when it                                                                           or review of the institution before
receives such a request, it asks one of the external asset managers that it has                                                                         initiating a transaction.
hired to analyze the proposal and perform due diligence on the institution.486 The
external asset manager interviews the institution’s managers, gathers non-public
information, and conducts loan-loss estimates and capital structure analysis.
The manager submits its evaluation to Treasury, which then decides whether to
restructure its CPP investment.487
    Table 4.39 shows all restructurings, recapitalizations, exchanges, and sales of
CPP investments through September 30, 2014.
260             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 4.39
       TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014                                   ($ MILLIONS)

                                             Investment        Original       Combined
       Company                                     Date    Investments      Investments                                                 Investment Status
       Citigroup Inc.                       10/28/2008        $2,500.0                                   Exchanged for common stock/warrants and sold
       Provident Bankshares                 11/14/2008           151.5
                                                                                                 Provident preferred stock exchanged for new M&T Bank
       M&T Bank Corporation                 12/23/2008           600.0        $1,081.5a     Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                               redeemed by M&T Bank Corporation; Sold
       Wilmington Trust Corporation         12/12/2008           330.0
       Popular, Inc.                         12/5/2008           935.0                                            Exchanged for trust preferred securities
       First BanCorp                           1/6/2009          400.0                             Exchanged for mandatorily convertible preferred stock
       South Financial Group, Inc.           12/5/2008           347.0                                                                                Sold
       Sterling Financial Corporation        12/5/2008           303.0                                                Exchanged for common stock, Sold
       Whitney Holding Corporation          12/19/2008           300.0                                                                                Sold
       First Banks, Inc.                    12/31/2008           295.4                                                                      Sold at auction
       Flagstar Bancorp Inc.                 1/30/2009           267.0                                                              Sold at loss in auction
       Pacific Capital Bancorp              11/21/2008           195.0                                                      Exchanged for common stock
       United Community Banks, Inc.          12/5/2008           180.0                                                              Sold at loss in auction
       Dickinson Financial Corporation II    1/16/2009           146.0                                                              Sold at loss in auction
       Central Pacific Financial Corp.         1/9/2009          135.0                                                      Exchanged for common stock
       Banner Corporation                   11/21/2008           124.0                                                              Sold at loss in auction
       BBCN Bancorp, Inc.                   11/21/2008            67.0
                                                                                 122.0b   Exchanged for a like amount of securities of BBCN Bancorp, Inc.
       Center Financial Corporation         12/12/2008            55.0
       First Merchants                       2/20/2009           116.0                        Exchanged for trust preferred securities and preferred stock
       Taylor Capital Group                 11/21/2008           104.8                                                              Sold at loss in auction
       Metropolitan Bank Group Inc.          6/26/2009            71.5                    Exchanged for new preferred stock in Metropolitan Bank Group,
                                                                                  81.9c
       NC Bancorp, Inc.                      6/26/2009              6.9                                                        Inc. and later sold at loss

       Hampton Roads Bankshares             12/31/2008            80.3                                                      Exchanged for common stock
       Old Second Bancorp, Inc.              1/16/2009            73.0                                                              Sold at loss in auction
       Green Bankshares                     12/23/2008            72.3                                                                                Sold
       Independent Bank Corporation         12/12/2008            72.0                             Exchanged for mandatorily convertible preferred stock
       Alpine Banks of Colorado              3/27/2009            70.0                                                              Sold at loss in auction
       Superior Bancorp, Inc.d               12/5/2008            69.0                                            Exchanged for trust preferred securities
       First Financial Holdings Inc.         12/5/2008            65.0                                                              Sold at loss in auction
       Wilshire Bancorp, Inc.               12/12/2008            62.2                                                              Sold at loss in auction
                                                                                                   Exchanged for common stock and securities purchase
       Standard Bancshares Inc.              4/24/2009            60.0
                                                                                                                                          agreements
       MainSource Financial Group, Inc.      1/16/2009            57.0                                                              Sold at loss in auction
       WSFS Financial Corporation            1/23/2009            52.6                                                              Sold at loss in auction
       NewBridge Bancorp                    12/12/2008            52.4                                                              Sold at loss in auction
       Ameris Bancorp                       11/21/2008            52.0                                                              Sold at loss in auction
                                                                                                                                  Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                   261




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014                              ($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                              Investment Status
Seacoast Banking Corporation of
                                      12/19/2008         $50.0                                                          Sold at loss in auction
Florida
Communityone Bancorp/FNB United
                                       3/13/2009          51.5                                                          Sold at loss in auction
Corp.
Fidelity Southern Corporation         12/19/2008          48.2                                                          Sold at loss in auction
MetroCorp Bancshares, Inc.             1/16/2009          45.0                                                          Sold at loss in auction
Cadence Financial Corporation           1/9/2009          44.0                                                          Sold at loss in auction
Exchange Bank                         12/19/2008          43.0                                                          Sold at loss in auction
Crescent Financial Bancshares, Inc.     1/9/2009          24.9                  Exchanged for a like amount of securities of Crescent Financial
                                                                       $42.8e
ECB Bancorp, Inc.                      1/16/2009          17.9                                                                Bancshares, Inc.

PremierWest Bancorp                    2/13/2009          41.4                                                                            Sold
Capital Bank Corporation              12/12/2008          41.3                                                                            Sold
Reliance Bancshares, Inc.              2/13/2009          40.0                                                                  Sold at auction
Cascade Financial Corporation         11/21/2008          39.0                                                          Sold at loss in auction
Bridgeview Bancorp, Inc.              12/19/2008          38.0                                                          Sold at loss in auction
TIB Financial Corp.                    12/5/2008          37.0                                                                            Sold
First Defiance Financial Corp.         12/5/2008          37.0                                                          Sold at loss in auction
Fidelity Financial Corporation        12/19/2008          36.3                                                          Sold at loss in auction
Marquette National Corporation        12/19/2008          35.5                                                          Sold at loss in auction
Trinity Capital Corporation            3/27/2009          35.5                                                          Sold at loss in auction
Firstbank Corporation                  1/30/2009          33.0                                                          Sold at loss in auction
First Security Group, Inc.              1/9/2009          33.0                                                                            Sold
Centrue Financial Corporation           1/9/2009          32.7                                                          Sold at loss in auction
Pulaski Financial Corp                 1/16/2009          32.5                                                          Sold at loss in auction
BNC Bancorp                            12/5/2008          31.3                                                          Sold at loss in auction
Royal Bancshares of Pennsylvania,
                                       2/20/2009          30.4                                                                  Sold at auction
Inc.
Spirit Bank Corp. Inc.                 3/27/2009          30.0                                                          Sold at loss in auction
Farmers Capital Bank Corporation        1/9/2009          30.0                                                          Sold at loss in auction
Colony Bankcorp, Inc.                   1/9/2009          28.0                                                          Sold at loss in auction
HMN Financial, Inc                    12/23/2008          26.0                                                          Sold at loss in auction
Patriot Bancshares, Inc.              12/19/2008          26.0                                                          Sold at loss in auction
LNB Bancorp Inc.                      12/12/2008          25.2                                                          Sold at loss in auction
Peoples Bancorp of North Carolina,
                                      12/23/2008          25.1                                                          Sold at loss in auction
Inc.
Citizens Bancshares Co.                5/29/2009          25.0                                                          Sold at loss in auction
Intervest Bancshares Corporation      12/23/2008          25.0                                                          Sold at loss in auction
National Bancshares, Inc.              2/27/2009          24.7                                                          Sold at loss in auction
                                                                                                                       Continued on next page
262            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014    ($ MILLIONS) (CONTINUED)

                                            Investment        Original       Combined
      Company                                     Date    Investments      Investments               Investment Status
      CBS Banc-Corp                          3/27/2009          $24.3                              Sold at loss in auction
      Eastern Virginia Bankshares, Inc.       1/9/2009           24.0                                     Sold at auction
      Severn Bancorp, Inc.                  11/21/2008           23.4                                     Sold at auction
      First Citizens Banc Corp               1/23/2009           23.2                              Sold at loss in auction
      Park Bancorporation, Inc.               3/6/2009           23.2                              Sold at loss in auction
      Premier Financial Bancorp, Inc.        10/2/2009           22.3                              Sold at loss in auction
      Central Community Corporation          2/20/2009           22.0                              Sold at loss in auction
      First Community Financial Partners,
                                            12/11/2009           22.0                              Sold at loss in auction
      Inc.
      Blue Valley Ban Corp                   12/5/2008           21.8                              Sold at loss in auction
      FC Holdings, Inc.                      6/26/2009           21.0                              Sold at loss in auction
      The Baraboo Bancorporation, Inc.       1/16/2009           20.7                              Sold at loss in auction
      United Bancorp, Inc.                   1/16/2009           20.6                              Sold at loss in auction
      Florida Bank Group, Inc.               7/24/2009           20.5                                                Sold
      Diamond Bancorp, Inc.                  5/22/2009           20.4                              Sold at loss in auction
      Commonwealth Bancshares, Inc.          5/22/2009           20.4                              Sold at loss in auction
      First Western Financial, Inc.           2/6/2009           20.4                              Sold at loss in auction
      Market Street Bancshares, Inc.         5/15/2009           20.3                              Sold at loss in auction
      BNCCORP, Inc.                          1/16/2009           20.1                                     Sold at auction
      First Financial Service Corporation     1/9/2009           20.0                              Sold at loss in auction
      First Trust Corporation                 6/5/2009           18.0                              Sold at loss in auction
      Community First Inc.                   2/27/2009           17.8                                     Sold at auction
      Southern First Bancshares, Inc.        2/27/2009           17.3                              Sold at loss in auction
      F&M Financial Corporation (TN)         2/13/2009           17.2                              Sold at loss in auction
      F & M Financial Corporation (NC)        2/6/2009           17.0                              Sold at loss in auction
      Northern States Financial Corp.        2/20/2009           17.2                              Sold at loss in auction
      Guaranty Federal Bancshares, Inc.      1/30/2009           17.0                              Sold at loss in auction
      White River Bancshares Company         2/20/2009           16.8                                     Sold at auction
      Timberland Bancorp Inc.               12/23/2008           16.6                              Sold at loss in auction
      First Federal Bankshares of
                                              3/6/2009           16.5                                                Sold
      Arkansas, Inc.
      1st Financial Services Corporation    11/14/2008           16.4                                                Sold
      Parke Bancorp Inc.                     1/30/2009           16.3                              Sold at loss in auction
      Pacific City Financial Corporation    12/19/2008           16.2                                     Sold at auction
      Carolina Bank Holdings, Inc.            1/9/2009           16.0                              Sold at loss in auction
      CoastalSouth Bancshares, Inc.          8/28/2009           16.0                              Sold at loss in auction
      Community West Bancshares             12/19/2008           15.6                              Sold at loss in auction
                                                                                                  Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014              263




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014                            ($ MILLIONS) (CONTINUED)

                                        Investment       Original     Combined
Company                                       Date   Investments    Investments                                        Investment Status
First Reliance Bancshares, Inc            3/6/2009         $15.3                                                     Sold at loss in auction
Broadway Financial Corporation          11/14/2008          15.0                                              Exchanged for common stock
First Community Bancshares, Inc          5/15/2009          14.8                                                                       Sold
Village Bank and Trust Financial Corp     5/1/2009          14.7                                                     Sold at loss in auction
First National Corporation               3/13/2009          13.9                                                     Sold at loss in auction
Yadkin Valley Financial Corporation      7/24/2009          13.3                                                     Sold at loss in auction
Bank of the Carolinas Corporation        4/17/2009          13.2                                                                       Sold
SouthCrest Financial Group, Inc.         7/17/2009          12.9                                                                       Sold
Community First Bancshares, Inc.          4/3/2009          12.7                                                     Sold at loss in auction
Alliance Financial Services Inc.         6/26/2009          12.0                                                     Sold at loss in auction
Farmers Enterprises, Inc.                6/19/2009          12.0                                                     Sold at loss in auction
The Queensborough Company                 1/9/2009          12.0                                                     Sold at loss in auction
Plumas Bancorp                           1/30/2009          11.9                                                            Sold at auction
Central Virginia Bankshares              1/30/2009          11.4                                                                       Sold
First Community Corporation             11/21/2008          11.4                                                     Sold at loss in auction
Western Illinois Bancshares, Inc.       12/23/2008          11.4                                                     Sold at loss in auction
First Capital Bancorp, Inc.               4/3/2009          11.0                                                     Sold at loss in auction
Mackinac Financial Corporation           4/24/2009          11.0                                                     Sold at loss in auction
Ridgestone Financial Services, Inc.      2/27/2009          11.0                                                     Sold at loss in auction
First Community Bank Corporation
                                        12/23/2008          11.0                                                                       Sold
of America
Stonebridge Financial Corp.              1/23/2009          11.0                                                     Sold at loss in auction
Security State Bank Holding
                                          5/1/2009          10.8                                                            Sold at auction
Company
Presidio Bank                           11/20/2009          10.8                                                     Sold at loss in auction
Crosstown Holding Company                1/23/2009          10.7                                                            Sold at auction
Northwest Bancorporation, Inc.           2/13/2009          10.5                                                            Sold at auction
Blackhawk Bancorp, Inc.                  3/13/2009          10.0                                                     Sold at loss in auction
Century Financial Services
                                         6/19/2009          10.0                                                     Sold at loss in auction
Corporation
ColoEast Bankshares, Inc.                2/13/2009          10.0                                                            Sold at auction
HomeTown Bankshares Corporation          9/18/2009          10.0                                                     Sold at loss in auction
Coastal Banking Company, Inc.            12/5/2008          10.0                                                     Sold at loss in auction
Universal Bancorp                        5/22/2009           9.9                                                            Sold at auction
Provident Community Bancshares,
                                         3/13/2009           9.3                                                     Sold at loss in auction
Inc.
Delmar Bancorp                           12/4/2009           9.0                                                     Sold at loss in auction
RCB Financial Corporation                6/19/2009           8.9                                                            Sold at auction
                                                                                                                    Continued on next page
264            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014    ($ MILLIONS) (CONTINUED)

                                             Investment       Original       Combined
      Company                                      Date   Investments      Investments               Investment Status
      United American Bank                    2/20/2009          $8.7                              Sold at loss in auction
      First Freedom Bancshares, Inc.         12/22/2009            8.7                             Sold at loss in auction
      BancStar, Inc.                           4/3/2009            8.6                             Sold at loss in auction
      First Western Financial, Inc.            2/6/2009            8.6                             Sold at loss in auction
      Great River Holding Company             7/17/2009            8.4                             Sold at loss in auction
      Commonwealth Business Bank              1/23/2009            7.7                                    Sold at auction
      Metro City Bank                         1/30/2009            7.7                             Sold at loss in auction
      Oak Ridge Financial Services, Inc.      1/30/2009            7.7                             Sold at loss in auction
      First Gothenburg Bancshares, Inc.       2/27/2009            7.6                             Sold at loss in auction
      Country Bank Shares, Inc.               1/30/2009            7.5                             Sold at loss in auction
      The Little Bank, Incorporated          12/23/2009            7.5                             Sold at loss in auction
      First Sound Bank                       12/23/2008            7.4                                               Sold
      FFW Corporation                        12/19/2008            7.3                             Sold at loss in auction
      Millennium Bancorp, Inc.                 4/3/2009            7.3                                               Sold
      Central Federal Corporation             12/5/2008            7.2                                               Sold
      Community Financial Shares, Inc.        5/15/2009            7.0                                               Sold
      TriSummit Bank                           4/3/2009            7.0                             Sold at loss in auction
      Chicago Shore Corporation               7/31/2009            7.0                             Sold at loss in auction
      Monarch Community Bancorp, Inc           2/6/2009            6.8                                               Sold
      Fidelity Federal Bancorp               11/13/2009            6.7                                    Sold at auction
      Alarion Financial Services, Inc.        1/23/2009            6.5                                    Sold at auction
      First Intercontinental Bank             3/13/2009            6.4                                    Sold at auction
      Biscayne Bancshares, Inc.               6/19/2009            6.4                             Sold at loss in auction
      Premier Financial Bancorp, Inc.         5/22/2009            6.3                                    Sold at auction
      Meridian Bank                           2/13/2009            6.2                             Sold at loss in auction
      IA Bancorp, Inc.                        9/18/2009            6.0                             Sold at loss in auction
      Three Shores Bancorporation, Inc.       1/23/2009            5.7                             Sold at loss in auction
      Boscobel Bancorp Inc.                   5/15/2009            5.6                                    Sold at auction
      Waukesha Bankshares, Inc.               6/26/2009            5.6                             Sold at loss in auction
      First Southwest Bancorporation, Inc.     3/6/2009            5.5                             Sold at loss in auction
      Valley Community Bank                    1/9/2009            5.5                             Sold at loss in auction
      Midtown Bank & Trust Company            2/27/2009            5.2                             Sold at loss in auction
      Franklin Bancorp, Inc.                  5/22/2009            5.1                             Sold at loss in auction
      AmFirst Financial Services, Inc.        8/21/2009            5.0                             Sold at loss in auction
      Germantown Capital Corporation           3/6/2009            5.0                             Sold at loss in auction
      Alaska Pacific Bancshares Inc.           2/6/2009            4.8                             Sold at loss in auction
      First Priority Financial Corp.         12/18/2009            4.6                             Sold at loss in auction
                                                                                                  Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                265




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014                            ($ MILLIONS) (CONTINUED)

                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                          Investment Status
Virginia Company Bank                   6/12/2009          $4.7                                                              Sold at auction
Georgia Primary Bank                     5/1/2009           4.5                                                       Sold at loss in auction
Community Pride Bank Corporation       11/13/2009           4.4                                                              Sold at auction
CBB Bancorp                            12/20/2009           4.4                                                       Sold at loss in auction
Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                                                       Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                       Sold at loss in auction
Pacific Commerce Bank                  12/23/2008           4.1                                                       Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                         Sold
Carolina Trust Bank                      2/6/2009           4.0                                                       Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                         Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                       Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                       Sold at loss in auction
KS Bancorp Inc.                         8/21/2009           4.0                                                       Sold at loss in auction
Naples Bancorp, Inc.                    3/27/2009           4.0                                                                         Sold
Peoples of Bancshares of TN, Inc.       3/20/2009           3.9                                                       Sold at loss in auction
Pathway Bancorp                         3/27/2009           3.7                                                              Sold at auction
F & M Bancshares, Inc.                  11/6/2009           3.5                                                       Sold at loss in auction
AB&T Financial Corporation              1/23/2009           3.5                                                       Sold at loss in auction
First Alliance Bancshares, Inc.         6/26/2009           3.4                                                       Sold at loss in auction
Madison Financial Corporation           3/13/2009           3.4                                                              Sold at auction
Congaree Bancshares, Inc.                1/9/2009           3.3                                                       Sold at loss in auction
Mountain Valley Bancshares, Inc.        9/25/2009           3.3                                                              Sold at auction
Treaty Oak Bancorp, Inc.                1/16/2009           3.3                                                                         Sold
First Independence Corporation          8/28/2009           3.2                                                       Sold at loss in auction
Oregon Bancorp, Inc.                    4/24/2009           3.2                                                              Sold at auction
Sound Banking Co.                        1/9/2009           3.1                                                       Sold at loss in auction
Marine Bank& Trust Company               3/6/2009           3.0                                                       Sold at loss in auction
Alliance Bancshares, Inc.               6/26/2009           3.0                                                       Sold at loss in auction
Bank of Commerce                        1/16/2009           3.0                                                       Sold at loss in auction
Clover Community Bankshares, Inc.       3/27/2009           3.0                                                       Sold at loss in auction
F & C Bancorp. Inc.                     5/22/2009           3.0                                                       Sold at loss in auction
FBHC Holding Company                   12/29/2009           3.0                                                                         Sold
Fidelity Resources Company              6/26/2009           3.0                             Exchanged for preferred stock in Veritex Holding
Layton Park Financial Group, Inc.      12/18/2009           3.0                                                       Sold at loss in auction
Tennessee Valley Financial Holdings,
                                       12/23/2008           3.0                                                              Sold at auction
Inc.
Berkshire Bancorp                       6/12/2009           2.9                         Exchanged for preferred stock in Customers Bancorp
                                                                                                                    Continued on next page
266              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2014                                                                                ($ MILLIONS) (CONTINUED)

                                                            Investment              Original           Combined
      Company                                                     Date          Investments          Investments                                                                      Investment Status
      Santa Clara Valley Bank, N.A.                          2/13/2009                     $2.9                                                                                    Sold at loss in auction
      Omega Capital Corp.                                    4/17/2009                       2.8                                                                                             Sold at auction
      Bank of George                                         3/13/2009                       2.7                                                                                   Sold at loss in auction
      Worthington Financial Holdings, Inc.                   5/15/2009                       2.7                                                                                   Sold at loss in auction
      Community Investors Bancorp, Inc.                    12/23/2008                        2.6                                                                                   Sold at loss in auction
      Manhattan Bancshares, Inc.                             6/19/2009                       2.6                                                                                   Sold at loss in auction
      Plato Holdings Inc.                                    7/17/2009                       2.5                                                                                   Sold at loss in auction
      Brogan Bankshares, Inc.                                5/15/2009                       2.4                                                                                             Sold at auction
      CenterBank                                               5/1/2009                      2.3                                                                                   Sold at loss in auction
      Security Bancshares of Pulaski
                                                             2/13/2009                       2.2                                                                                   Sold at loss in auction
      County, Inc.
      Market Bancorporation, Inc.                            2/20/2009                       2.1                                                                                             Sold at auction
      Atlantic Bancshares, Inc.                            12/29/2009                        2.0                                                                                             Sold at auction
      Hometown Bancshares, Inc.                              2/13/2009                       1.9                                                                                   Sold at loss in auction
      Maryland Financial Bank                                3/27/2009                       1.7                                                                                   Sold at loss in auction
      Hyperion Bank                                            2/6/2009                      1.6                                                                                   Sold at loss in auction
      Regional Bankshares Inc.                               2/13/2009                       1.5                                                                                   Sold at loss in auction
      Desoto County Bank                                     2/13/2009                       1.2                                                                                             Sold at auction
      First Advantage Bancshares, Inc.                       5/22/2009                       1.2                                                                                   Sold at loss in auction
      Community Bancshares of MS                               2/6/2009                      1.1                                                                                   Sold at loss in auction
      BankGreenville Financial Corp.                         2/13/2009                       1.0                                                                                   Sold at loss in auction
      Bank Financial Services, Inc.                          8/14/2009                       1.0                                                                                   Sold at loss in auction
      Corning Savings and Loan
                                                             2/13/2009                       0.6                                                                                   Sold at loss in auction
      Association
      Farmers & Merchants Financial
                                                             3/20/2009                       0.4                                                                                   Sold at loss in auction
      Corporation
      Freeport Bancshares, Inc.                                2/6/2009                      0.3                                                                                             Sold at auction
      Notes: Numbers may be affected due to rounding.
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original $600
         million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
      b
            The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
             Corporation of $55 million.
      c
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of $6.9
          million plus unpaid dividends of $3.5 million.
      d
           The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
      e
          The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formerly Crescent Financial Corporation) of $24.9 million and the original
           investment of ECB Bancorp, Inc. of $17.9 million.

      Source: Treasury, Transactions Report, 9/30/2014.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014         267




Treasury’s Sale of TARP Preferred Stock Investments at Auction
Overview of CPP Preferred Stock Auctions
From March 2012 through September 30, 2014, Treasury has held 26 sets of auc-
tions in which it has sold all of its preferred stock investments in 182 CPP banks.488
For publicly traded banks, Treasury auctioned the shares through a placement
agent and the shares were available for purchase by the general public. For private
banks, Treasury auctioned the shares directly and the auctions were accessible only
to qualified purchasers. The preferred stock for all but 18 of the banks sold at a
discounted price and resulted in losses to Treasury.489 In the 26 auction sets, the
range of discount on the investments was 1% to 83%.490 When Treasury sells all of
its preferred shares of a CPP bank, it forfeits the right to collect missed dividends
and interest payments from the bank. Of the 182 banks in which Treasury sold its
stock through the auction process, 71 were overdue on payments to Treasury.491
The $241.3 million owed to Treasury for missed payments by these 71 banks will
never be recovered.492 As of September 30, 2014, Treasury lost a total of $1 billion
in the auctions, which includes $781.3 million lost on principal investments sold
at a discount and $241.3 million on forfeited missed dividends and interest owed
by these institutions.493 Less than a quarter of the banks, 43, bought back some of           On October 9, 2012, SIGTARP made
their shares at the discounted price.494 In one set of auctions this quarter, Treasury        three recommendations regarding
                                                                                              CPP preferred stock auctions, which
sold all of its TARP preferred investment in six banks.495 The one auction this quar-
                                                                                              are discussed in detail in SIGTARP’s
ter accrued losses to Treasury of $0.4 million.496                                            October 2012 Quarterly Report,
    Table 4.40 shows details for the auctions of preferred stock in CPP banks                 pages 180-183.
through September 30, 2014.
268                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




TABLE 4.40
 INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014
                                                                                                                                        Total Loss
                                                                                                        Percentage                   from Auction
                                                                                                          of Shares                     Sales and
                               Auction                                                        Discount Repurchased          Missed         Missed
 Institution                     Date      Investment    Net Proceeds      Auction Loss     Percentage by Institution    Dividends      Dividends
 Stonebridge
                            3/15/2013     $10,973,000      $1,879,145          $9,093,855          83%                  $1,794,180   $10,888,035
 Financial Corp.
 AB&T Financial
                           11/19/2013       3,500,000         914,215           2,585,785          74%                    481,250      3,067,035
 Corporation
 Bridgeview Bancorp,
                           11/19/2013      38,000,000      10,450,000          27,550,000          73%                   7,766,250    35,316,250
 Inc.
 Maryland Financial
                             7/2/2014       1,700,000         502,000           1,198,000          70%                    621,138      1,819,138
 Bank
 Spirit Bank Corp.
                           11/19/2013      30,000,000        9,000,000         21,000,000          70%                   4,905,000    25,905,000
 Inc.
 Community First Inc.       4/14/2014      17,806,000        5,350,703         12,455,297          70%                   2,911,200    15,366,497
 Georgia Primary
                            2/10/2014       4,500,000        1,531,145          2,968,855          66%                   1,113,163     4,082,018
 Bank
 Old Second
                             3/1/2013      73,000,000      25,547,320          47,452,680          65%                   9,125,000    56,577,680
 Bancorp, Inc.a
 First Banks, Inc.          8/12/2013     295,400,000     104,749,295      190,650,705             65%                  64,543,063   255,193,768
 Centrue Financial
                           10/21/2013      32,668,000      10,631,697          21,186,665          65%                   6,959,475    28,146,140
 Corporation
 Bank of George            10/21/2013       2,672,000         955,240           1,716,760          64%                    364,150      2,080,910
 United American
                             7/2/2014       8,700,000        3,294,050          5,405,950          62%                   2,482,702     7,888,652
 Bank
 Village Bank and
                           11/19/2013      14,738,000        5,672,361          9,065,639          62%                   2,026,475    11,092,114
 Trust Financial Corp
 Valley Community
                           10/21/2013       5,500,000        2,296,800          3,203,200          58%                    749,375      3,952,575
 Bank
 First Priority
                            1/29/2013       9,175,000        4,012,094          5,162,906          56%                                 5,162,906
 Financial Corp.
 First Intercontinental
                            8/12/2013       6,398,000        3,222,113          3,175,887          50%                    697,400      3,873,287
 Bank
 Citizens Bancshares
                            1/29/2013      24,990,000      12,679,301          12,310,699          49%                   4,086,000    16,396,699
 Co.
 First Financial
                            4/29/2013      20,000,000      10,733,778           9,266,222          46%                   2,500,000    11,766,222
 Service Corporation
 Dickinson Financial
                            1/29/2013     146,053,000      79,903,245          66,149,755          45%                  27,859,720    94,009,475
 Corporation II
 Midtown Bank &
                           11/19/2013       5,222,000        3,133,200          2,088,800          40%          100%     1,067,213     3,156,013
 Trust Company
 Delmar Bancorp             1/29/2013       9,000,000        5,453,900          3,546,100          39%                    613,125      4,159,225
 Virginia Company
                            8/12/2013       4,700,000        2,843,974          1,856,026          39%                    185,903      2,041,929
 Bank
 Pacific Commerce
                            2/10/2014       4,060,000        2,494,961          1,565,039          39%                    695,771      2,260,810
 Bank
 Franklin Bancorp,
                            11/9/2012       5,097,000        3,191,614          1,905,386          37%                                  1,905,386
 Inc.
                                                                                                                            Continued on next page
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            269




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                    (CONTINUED)

                                                                                                                                    Total Loss
                                                                                             Percentage                          from Auction
                                                                                               of Shares                            Sales and
                          Auction                                                  Discount Repurchased              Missed            Missed
Institution                 Date    Investment   Net Proceeds   Auction Loss     Percentage by Institution        Dividends         Dividends
Hyperion Bank          12/20/2012   $1,552,000      $983,800       $568,200             37%                                         $568,200
First Community
Financial Partners,     9/12/2012   22,000,000     14,211,450     7,788,550             35%                                        7,788,550
Inc.b
The Baraboo
                       12/11/2012   20,749,000     13,399,227     7,349,773             35%                       $565,390         7,915,163
Bancorporation, Inc.
Marine Bank& Trust
                         7/2/2014    3,000,000      1,985,000     1,015,000             34%                         613,125        1,628,125
Company
First Reliance
                         3/1/2013   15,349,000     10,327,021     5,021,979             33%                       1,254,720        6,276,699
Bancshares, Inc.
Security Bancshares
of Pulaski County,     12/11/2012    2,152,000      1,475,592       676,408             31%                                          676,408
Inc.
First Alliance
                       12/20/2012    3,422,000      2,370,742     1,051,258             31%                          93,245        1,144,503
Bancshares, Inc.
Marquette National
                        7/27/2012   35,500,000     25,313,186    10,186,814             29%            31%                        10,186,814
Corporation
Parke Bancorp, Inc.    11/30/2012   16,288,000     11,595,735     4,692,265             29%                                        4,692,265
First Independence
                       12/20/2012    3,223,000      2,286,675       936,325             29%                                          936,325
Corporation
HMN Financial, Inc.     1/29/2013   26,000,000     18,571,410     7,428,590             29%                       2,600,000       10,028,590
Farmers Capital
                        6/13/2012   30,000,000     21,594,229     8,405,771             28%                                        8,405,771
Bank Corporation
Diamond Bancorp,
                        7/27/2012   20,445,000     14,780,662     5,664,338             28%                                        5,664,338
Inc.
Park
                        7/27/2012   23,200,000     16,772,382     6,427,618             28%            30%                         6,427,618
Bancorporation, Inc.
Community West
                       12/11/2012   15,600,000     11,181,456     4,418,544             28%                         585,000        5,003,544
Bancshares
Commonwealth
                        7/27/2012   20,400,000     15,147,000     5,253,000             26%            26%                         5,253,000
Bancshares, Inc.
Trinity Capital
                        7/27/2012   35,539,000     26,396,503     9,142,497             26%                                         9,142,497
Corporation
TriSummit Bank         11/30/2012    7,002,000      5,198,984     1,803,016             26%                                         1,803,016
Alliance Financial
                        1/29/2013   12,000,000      8,912,495     3,087,505             26%                       3,020,400         6,107,905
Services, Inc.
National Bancshares,
                         2/7/2013   24,664,000     18,318,148     6,345,852             26%                       3,024,383         9,370,235
Inc.
Blue Ridge
                       10/31/2012   12,000,000      8,969,400     3,030,600             25%                                         3,030,600
Bancshares, Inc.
Peoples Bancshares
                       10/31/2012    3,900,000      2,919,500       980,500             25%                                          980,500
of TN, Inc.
First Trust
                         2/7/2013   17,969,000     13,612,558     4,356,442             24%                                         4,356,442
Corporation
Colony Bankcorp,
                        1/29/2013   28,000,000     21,680,089     6,319,911             23%                       1,400,000         7,719,911
Inc.
                                                                                                                      Continued on next page
270                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                               (CONTINUED)

                                                                                                                                        Total Loss
                                                                                                        Percentage                   from Auction
                                                                                                          of Shares                     Sales and
                               Auction                                                        Discount Repurchased          Missed         Missed
Institution                      Date      Investment    Net Proceeds      Auction Loss     Percentage by Institution    Dividends      Dividends
F&M Financial
                            9/12/2012     $17,243,000     $13,443,074          $3,799,926          22%                                $3,799,926
Corporation (TN)
Layton Park Financial
                           11/30/2012       3,000,000        2,345,930           654,070           22%                                   654,070
Group, Inc.
CoastalSouth
                             3/1/2013      16,015,000       12,606,191          3,408,809          21%                  $1,687,900     5,096,709
Bancshares, Inc.
Seacoast Banking
Corporation of              3/28/2012      50,000,000       40,404,700          9,595,300          19%                                 9,595,300
Florida
United Bancorp, Inc.        6/13/2012      20,600,000       16,750,221          3,849,779          19%                                 3,849,779
Alpine Banks of
                            9/12/2012      70,000,000       56,430,297         13,569,703          19%                                13,569,703
Colorado
CenterBank                 10/31/2012       2,250,000        1,831,250           418,750           19%                                   418,750
Ridgestone Financial
                             2/7/2013      10,900,000        8,876,677          2,023,323          19%                   2,079,175     4,102,498
Services, Inc.
Congaree
                           10/31/2012       3,285,000        2,685,979           599,021           18%           35%                     599,021
Bancshares Inc.
Corning Savings and
                           11/30/2012         638,000          523,680           114,320           18%                                   114,320
Loan Association
KS Bancorp, Inc.           11/30/2012       4,000,000        3,283,000           717,000           18%                                   717,000
DeSoto County Bank          9/25/2013       2,681,000        2,196,896           484,104           18%           79%                     484,104
Meridian Bank               3/17/2014      12,535,000       10,328,152          2,206,848          18%                                 2,206,848
First Western
                            7/27/2012      20,440,000       17,022,298          3,417,702          17%                                 3,417,702
Financial, Inc.c
Bank of Commerce           11/30/2012       3,000,000        2,477,000           523,000           17%                    122,625        645,625
Carolina Trust Bank        11/30/2012       4,000,000        3,362,000           638,000           16%                    150,000        788,000
Presidio Bank              12/11/2012      10,800,000        9,058,369          1,741,631          16%                                 1,741,631
Santa Clara Valley
                             3/1/2013       2,900,000        2,440,379           459,621           16%                    474,150        933,771
Bank, N.A.
Timberland Bancorp,
                            11/9/2012      16,641,000       14,209,334          2,431,666          15%                                 2,431,666
Inc.
Worthington
Financial Holdings,         6/24/2013       2,720,000        2,318,851           401,149           15%                    222,360        623,509
Inc.
First Financial
                            3/28/2012      65,000,000       55,926,478          9,073,522          14%                                 9,073,522
Holdings Inc.
Clover Community
                           11/30/2012       3,000,000        2,593,700           406,300           14%                                   406,300
Bankshares, Inc.
Banner Corporation          3/28/2012     124,000,000     108,071,915          15,928,085          13%                                15,928,085
LNB Bancorp Inc.            6/13/2012      25,223,000       21,863,750          3,359,250          13%                                 3,359,250
Pulaski Financial
                            6/27/2012      32,538,000       28,460,338          4,077,662          13%                                 4,077,662
Corp
Exchange Bank               7/27/2012      43,000,000       37,259,393          5,740,607          13%           47%                   5,740,607
                                                                                                                            Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            271




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                      (CONTINUED)

                                                                                                                                      Total Loss
                                                                                               Percentage                          from Auction
                                                                                                 of Shares                            Sales and
                           Auction                                                   Discount Repurchased              Missed            Missed
Institution                  Date     Investment   Net Proceeds   Auction Loss     Percentage by Institution        Dividends         Dividends
First National
                         8/23/2012   $13,900,000    $12,082,749    $1,817,251             13%                                       $1,817,251
Corporation
Taylor Capital Group     6/13/2012   104,823,000     92,254,460    12,568,540             12%                                       12,568,540
Fidelity Financial
                         7/27/2012    36,282,000     32,013,328     4,268,672             12%            58%                         4,268,672
Corporation
Yadkin Valley
Financial                9/12/2012    49,312,000     43,486,820     5,825,180             12%                                        5,825,180
Corporationd
Three Shores
                         11/9/2012     5,677,000      4,992,788       684,212             12%                                          684,212
Bancorporation, Inc.
Alaska Pacific
                        11/30/2012     4,781,000      4,217,568       563,432             12%                                          563,432
Bancshares, Inc.
Fidelity Southern
                         6/27/2012    48,200,000     42,757,786     5,442,214             11%                                        5,442,214
Corporation
First Citizens Banc
                         6/27/2012    23,184,000     20,689,633     2,494,367             11%                                        2,494,367
Corp
Southern First
                         6/27/2012    17,299,000     15,403,722     1,895,278             11%             6%                         1,895,278
Bancshares, Inc.
Market Street
                         7/27/2012    20,300,000     18,069,213     2,230,787             11%            89%                         2,230,787
Bancshares, Inc.
Premier Financial
                         7/27/2012    22,252,000     19,849,222     2,402,778             11%            46%                         2,402,778
Bancorp, Inc.
Metro City Bank         10/31/2012     7,700,000      6,861,462       838,538             11%            15%                           838,538
BankGreenville
                         11/9/2012     1,000,000       891,000        109,000             11%                                          109,000
Financial Corporation
FFW Corporation         11/30/2012     7,289,000      6,515,426       773,574             11%                                          773,574
First Advantage
                        12/11/2012     1,177,000      1,046,621       130,379             11%                                          130,379
Bancshares, Inc.
FC Holdings, Inc.         2/7/2013    21,042,000     18,685,927     2,356,073             11%                      $4,013,730        6,369,803
First Southwest
                         3/15/2013     5,500,000      4,900,609       599,391             11%                         974,188        1,573,579
Bancorporation, Inc.
ColoEast
                         7/22/2013    10,000,000      8,947,125     1,052,875             11%                       1,090,000        2,142,875
Bankshares, Inc.
WSFS Financial
                         3/28/2012    52,625,000     47,435,299     5,189,701             10%                                         5,189,701
Corporation
CBS Banc-Corp.           7/27/2012    24,300,000     21,776,396     2,523,604             10%            95%                          2,523,604
Blackhawk Bancorp
                        10/31/2012    10,000,000      9,009,000       991,000             10%                                          991,000
Inc.
First Gothenburg
                        10/31/2012     7,570,000      6,822,136       747,864             10%                                          747,864
Banschares, Inc.
Bank Financial
                        12/20/2012     1,004,000       907,937         96,063             10%                                            96,063
Services, Inc.
SouthCrest Financial
                          3/1/2013    12,900,000     11,587,256     1,312,744             10%                       1,581,863         2,894,607
Group, Inc.
                                                                                                                        Continued on next page
272               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                               (CONTINUED)

                                                                                                                                         Total Loss
                                                                                                        Percentage                    from Auction
                                                                                                          of Shares                      Sales and
                              Auction                                                         Discount Repurchased           Missed         Missed
Institution                     Date      Investment    Net Proceeds      Auction Loss      Percentage by Institution     Dividends      Dividends
Flagstar Bancorp,
                           3/15/2013 $266,657,000       $240,627,277          $26,029,723          10%                  $16,666,063    $42,695,786
Inc.
First Capital
                           6/13/2012      10,958,000        9,931,327           1,026,673           9%           50%                     1,026,673
Bancorp, Inc.
BNC Bancorp                8/23/2012      31,260,000       28,365,685           2,894,315           9%                                   2,894,315
Germantown Capital
                          10/31/2012       4,967,000        4,495,616            471,384            9%           25%                       471,384
Corporation, Inc.
HomeTown
Bankshares                10/31/2012      10,000,000        9,093,150            906,850            9%                                     906,850
Corporation
Oak Ridge Financial
                          10/31/2012       7,700,000        7,024,595            675,405            9%                                     675,405
Services, Inc.
First Freedom
                           11/9/2012       8,700,000        7,945,492            754,508            9%           69%                       754,508
Bancshares, Inc.
Sound Banking
                           11/9/2012       3,070,000        2,804,089            265,911            9%                                     265,911
Company
Country Bank
                          11/30/2012       7,525,000        6,838,126            686,874            9%                                     686,874
Shares, Inc.
Bank of Southern
                          12/20/2012       4,243,000        3,850,150            392,850            9%           30%                       392,850
California, N.A.
Farmers &
Merchants Financial        6/24/2013         442,000          400,425             41,575            9%                                      41,575
Corporation
RCB Financial
                           9/25/2013       8,900,000        8,073,279            826,721            9%                    1,055,520      1,882,241
Corporation
MainSource Financial
                           3/28/2012      57,000,000       52,277,171           4,722,829           8%           37%                     4,722,829
Group, Inc.
Ameris Bancorp             6/13/2012      52,000,000       47,665,332           4,334,668           8%                                   4,334,668
Peoples Bancorp of
                           6/27/2012      25,054,000       23,033,635           2,020,365           8%           50%                     2,020,365
North Carolina, Inc.
Regional
                           11/9/2012       1,500,000        1,373,625            126,375            8%           47%                       126,375
Bankshares, Inc.
CBB Bancorp               11/30/2012       4,397,000        4,066,752            330,248            8%           35%                       330,248
Central Community
                          12/11/2012      22,000,000       20,172,636           1,827,364           8%                                   1,827,364
Corporation
Waukesha
                           1/29/2013       5,625,000        5,161,674            463,326            8%                                     463,326
Bankshares, Inc.
Wilshire Bancorp,
                           3/28/2012      62,158,000       57,766,994           4,391,006           7%           97%                     4,391,006
Inc.
Firstbank
                           6/27/2012      33,000,000       30,587,530           2,412,470           7%           48%                     2,412,470
Corporation
Capital Pacific
                           11/9/2012       4,000,000        3,715,906            284,094            7%                                     284,094
Bancorp
Western Illinois
                           11/9/2012      11,422,000       10,616,305            805,695            7%           89%                       805,695
Bancshares, Inc.
                                                                                                                              Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014            273




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                     (CONTINUED)

                                                                                                                                     Total Loss
                                                                                              Percentage                          from Auction
                                                                                                of Shares                            Sales and
                          Auction                                                   Discount Repurchased              Missed            Missed
Institution                 Date     Investment   Net Proceeds   Auction Loss     Percentage by Institution        Dividends         Dividends
Community
Bancshares of          11/30/2012    $1,050,000      $977,750        $72,250              7%            52%                           $72,250
Mississippi, Inc.
Community Business
                       11/30/2012     3,976,000      3,692,560       283,440              7%                                          283,440
Bank
Hometown
                       11/30/2012     1,900,000      1,766,510       133,490              7%            39%                           133,490
Bancshares, Inc.
F & M Bancshares,
                        1/29/2013     8,144,000      7,598,963       545,037              7%                                          545,037
Inc.
Carolina Bank
                         2/7/2013    16,000,000     14,811,984     1,188,016              7%                                        1,188,016
Holdings, Inc.
Mackinac Financial
                        8/23/2012    11,000,000     10,380,905       619,095              6%                                          619,095
Corporation
F & M Financial
                        9/12/2012    17,000,000     15,988,500     1,011,500              6%            84%                         1,011,500
Corporation (NC)
Community Investors
                       12/20/2012     2,600,000      2,445,000       155,000              6%            54%                           155,000
Bancorp, Inc.
Commonwealth
                        7/22/2013     7,701,000      7,250,414       450,586              6%           100%       $1,049,250        1,499,836
Business Bank
Universal Bancorp       8/12/2013     9,900,000      9,312,028       587,972              6%                                          587,972
First Defiance
                        6/13/2012    37,000,000     35,084,144     1,915,856              5%            45%                         1,915,856
Financial Corp.
F&C Bancorp, Inc.       11/9/2012     2,993,000      2,840,903       152,097              5%                                          152,097
Farmers Enterprises,
                        11/9/2012    12,000,000     11,439,252       560,748              5%            99%                           560,748
Inc.
Coastal Banking
                         3/1/2013     9,950,000      9,408,213       541,787              5%                         746,250         1,288,037
Company, Inc.
Alliance Bancshares,
                        3/15/2013     2,986,000      2,831,437       154,563              5%                                          154,563
Inc.
AmFirst Financial
                        3/15/2013     5,000,000      4,752,000       248,000              5%                                          248,000
Services, Inc.
United Community
                        3/15/2013   180,000,000    171,517,500     8,482,500              5%                                         8,482,500
Banks, Inc.
Biscayne
                        1/29/2013     6,400,000      6,170,630       229,370              4%            53%                           229,370
Bancshares, Inc.
Guaranty Federal
                        4/29/2013    12,000,000     11,493,900       506,100              4%                                          506,100
Bancshares, Inc.e
Intervest Bancshares
                        6/24/2013    25,000,000     24,007,500       992,500              4%            25%                           992,500
Corporation
MetroCorp
                        6/27/2012    45,000,000     43,490,360     1,509,640              3%            97%                         1,509,640
Bancshares, Inc.
First Community
                        8/23/2012    11,350,000     10,987,794       362,206              3%            33%                           362,206
Corporation
The Little Bank,
                       10/31/2012     7,500,000      7,285,410       214,590              3%            63%                           214,590
Incorporated
                                                                                                                       Continued on next page
274              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                            (CONTINUED)

                                                                                                                                     Total Loss
                                                                                                     Percentage                   from Auction
                                                                                                       of Shares                     Sales and
                             Auction                                                       Discount Repurchased          Missed         Missed
Institution                    Date      Investment    Net Proceeds      Auction Loss    Percentage by Institution    Dividends      Dividends
Manhattan
                         12/11/2012      $2,639,000       $2,560,541          $78,459            3%           96%                     $78,459
Bancshares, Inc.
The Queensborough
                           3/1/2013      12,000,000       11,605,572          394,428            3%                  $1,798,500     2,192,928
Company
BancStar, Inc.            4/29/2013       8,600,000        8,366,452          233,548            3%           12%                     233,548
NewBridge Bancorp         4/29/2013      52,372,000       50,837,239         1,534,761           3%                                 1,534,761
Alarion Financial
                          7/22/2013       6,514,000        6,338,584          175,416            3%                    532,560        707,976
Services, Inc.
Crosstown Holding
                          7/22/2013      10,650,000       10,356,564          293,436            3%                                   293,436
Company
Century Financial
                         12/20/2012      10,000,000        9,751,500          248,500            2%                                   248,500
Services Corporation
Mountain Valley
                          7/22/2013       3,300,000        3,242,000           58,000            2%           91%                       58,000
Bancshares, Inc.
Blue Valley Ban Corp     10/21/2013      21,750,000       21,263,017          486,983            2%                   4,893,750     5,380,733
Community First
                          2/10/2014      12,725,000       12,446,703          278,297            2%                                   278,297
Bancshares, Inc.
IA Bancorp, Inc.          3/17/2014       5,976,000        5,863,113          112,887            2%                    472,365        585,252
Plato Holdings Inc.       4/29/2013       2,500,000        2,478,750           21,250            1%                    207,266        228,516
Fidelity Federal
                          7/22/2013       6,657,000        6,586,509           70,491            1%                   1,229,924     1,300,415
Bancorp
Omega Capital Corp.       7/22/2013       2,816,000        2,791,000           25,000            1%                    575,588        600,588
Premier Financial
                          7/22/2013       6,349,000        6,270,436           78,564            1%           60%     1,597,857     1,676,421
Corp.
Community Pride
                          8/12/2013       4,400,000        4,351,151           48,849            1%                    803,286        852,135
Bank Corporation
Chicago Shore
                          3/17/2014       7,000,000        6,937,000           63,000            1%                                     63,000
Corporation
Severn Bancorp, Inc.      9/25/2013      23,393,000       23,367,268           25,732            0%                   1,754,475     1,780,207
Oregon Bancorp,
                         10/21/2013       3,216,000        3,216,000                0            0%           78%                            0
Inc.
Freeport
                          4/14/2014         301,000          301,000                0            0%           78%                            0
Bancshares, Inc.
Severn Bancorp, Inc.      9/25/2013      40,000,000       40,196,000         (196,000)           0%                   5,995,000     5,799,000
BNCCORP, Inc.             3/17/2014      20,093,000       20,114,700          (21,700)           0%                                   (21,700)
Tennessee Valley
Financial Holdings,       4/29/2013       3,000,000        3,041,330          (41,330)          (1%)                   531,375        490,045
Inc
Northwest
                           3/1/2013      10,500,000       10,728,783         (228,783)          (2%)                  1,716,750     1,487,967
Bancorporation, Inc.
Madison Financial
                         11/19/2013       3,370,000        3,446,196          (76,196)          (2%)                   688,913        612,717
Corporation
                                                                                                                         Continued on next page
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                         275




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 9/30/2014                                                                      (CONTINUED)

                                                                                                                                                                                                         Total Loss
                                                                                                                                            Percentage                                                from Auction
                                                                                                                                              of Shares                                                  Sales and
                                       Auction                                                                                    Discount Repurchased                                Missed                Missed
Institution                              Date            Investment          Net Proceeds                Auction Loss           Percentage by Institution                          Dividends             Dividends
Brogan Bankshares,
                                  4/29/2013             $2,400,000               $2,495,024                   ($95,024)                    (4%)                                     $352,380               $257,356
Inc.
White River
Bancshares                          7/2/2014            16,800,000               17,683,309                   (883,309)                    (5%)                                    3,204,600               2,321,291
Company
Plumas Bancorp                    4/29/2013             11,949,000               12,907,297                   (958,297)                    (8%)                   58%              1,792,350                 834,053
Boscobel Bancorp,
                                    3/1/2013              5,586,000                6,116,943                  (530,943)                  (10%)                                     1,288,716                 757,773
Inc.
Eastern Virginia
                                10/21/2013              24,000,000               26,498,640                (2,498,640)                   (10%)                                     3,300,000                 801,360
Bankshares, Inc.
Atlantic Bancshares,
                                  2/10/2014               2,000,000                2,275,000                  (275,000)                  (14%)                                       299,255                   24,255
Inc.
Patriot Bancshares,
                                  4/14/2014             26,038,000               29,736,177                (3,698,177)                   (14%)                                     4,612,010                 913,833
Inc.
Security State Bank
                                  6/24/2013             10,750,000               12,409,261                (1,659,261)                   (15%)                                     2,254,985                 595,724
Holding Company
Pathway Bancorp                   6/24/2013               3,727,000                4,324,446                  (597,446)                  (16%)                                       761,588                 164,142
Royal Bancshares of
                                    7/2/2014            30,407,000               36,337,548                (5,930,548)                   (20%)                    38%              7,601,750               1,671,202
Pennsylvania, Inc.
Market
                                    7/2/2014              2,060,000                2,467,662                  (407,662)                  (20%)                                       449,080                   41,418
Bancorporation, Inc.
Pacific City Financial
                                11/19/2013              16,200,000               19,685,754                (3,485,754)                   (22%)                    53%              3,973,050                 487,296
Corporation
Total Auction Losses                                                                                  $781,314,736
Total Missed Dividends                                                                                                                                                     $241,304,263
Notes: Numbers may not total due to rounding.
a
  Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
b
  Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on 9/12/2012,
   and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
c
  Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
d
  This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
e
  The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

Sources: Treasury, Transactions Report, 9/30/2014; SNL Financial LLC data.
276            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For a discussion of SIGTARP’s                   CPP Banks Refinancing into CDCI and SBLF
      August 20, 2013, recommendation                 On October 21, 2009, the Administration announced the Community
      to Treasury regarding the inclusion of
      SBLF funds as TARP repayments, see
                                                      Development Capital Initiative (“CDCI”) as another TARP-funded program.497
      SIGTARP’s October 2013 Quarterly                Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
      Report, pages 281-282.                          credit unions.498 Qualifying CPP banks applied for the new TARP program, and 28
                                                      banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
      For information on TARP banks that              into CDCI.499 For more information on CDCI, see “Community Development
      refinanced into SBLF, see SIGTARP’s
      April 9, 2013, audit report, “Banks
                                                      Capital Initiative” in this section.
      that Used the Small Business Lending                 On September 27, 2010, the President signed into law the Small Business Jobs
      Fund to Exit TARP.”                             Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
                                                      to make up to $30 billion in capital investments in institutions with less than $10
      For a detailed list of CPP banks that           billion in total assets.500 According to Treasury, it received a total of 935 SBLF
      refinanced into SBLF, see SIGTARP’s
      October 2012 Quarterly Report, pages
                                                      applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).501
      88-92.                                          Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.
                                                      The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock
      For a discussion of the impact of TARP          with the SBLF investments.502 None of the CDCI recipients were approved for
      and SBLF on community banks, see                participation.
      SIGTARP’s April 2012 Quarterly
      Report, pages 145-167.
                                                      Warrant Disposition
      For more information on warrant                 As required by EESA, Treasury received warrants when it invested in troubled
      disposition, see SIGTARP’s audit                assets from financial institutions, with an exception for certain small institutions.
      report of May 10, 2010, “Assessing              With respect to financial institutions with publicly traded securities, these warrants
      Treasury’s Process to Sell Warrants
      Received from TARP Recipients.”                 gave Treasury the right, but not the obligation, to purchase a certain number of
                                                      shares of common stock at a predetermined price.503 Because the warrants rise in
                                                      value as a company’s share price rises, they permit Treasury (and the taxpayer) to
                                                      benefit from a firm’s potential recovery.504
                                                          For publicly traded institutions, the warrants received by Treasury under CPP
                                                      allowed Treasury to purchase additional shares of common stock in a number
      Exercise Price: Preset price at which
                                                      equal to 15% of the value of the original CPP investment at a specifie exercise
      a warrant holder may purchase each
                                                      price.505 Treasury’s warrants constitute assets with a fair market value that
      share. For warrants in publicly traded
                                                      Treasury estimates using relevant market quotes, financial models, and/or third-
      institutions issued through CPP, this
                                                      party valuations.506 As of September 30, 2014, Treasury had not exercised any
      was based on the average stock price
                                                      of these warrants.507 For privately held institutions, Treasury received warrants
      during the 20 days before the date
                                                      to purchase additional preferred stock or debt in an amount equal to 5% of the
      that Treasury granted preliminary CPP
                                                      CPP investment. Treasury exercised these warrants immediately.508 Unsold and
      participation approval.
                                                      unexercised warrants expire 10 years from the date of the CPP investment.509 As
                                                      of September 30, 2014, Treasury had received $8 billion through the sale of CPP
                                                      warrants obtained by TARP recipients.510

                                                      Repurchase of Warrants by Financial Institutions
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with
                                                      Treasury to buy back its warrants. As of September 30, 2014, 174 publicly traded
                                                      institutions had bought back $3.9 billion worth of warrants, of which $5.9 million
                                                      was purchased this quarter. As of that same date, 280 privately held institutions,
                                                      the warrants of which had been immediately exercised, bought back the resulting
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   277




additional preferred shares for a total of $173.3 million, of which $5.2 million was
bought back this quarter.511 Table 4.41 lists publicly traded institutions that repaid
TARP and repurchased warrants in the quarter ended September 30, 2014. Table
4.42 lists privately held institutions that had done so in the same quarter.512

TABLE 4.41
 CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
 ENDING 9/30/2014
                                                                                            Number of                  Amount of
 Repurchase                                                                                  Warrants                Repurchase
 Date                 Company                                                             Repurchased              ($ Thousands)
 7/23/2014            Popular, Inc.                                                            2,093,284             $3,000,000.0
 9/3/2014             Intervest Bancshares Corporation                                            691,882              2,892,066.0
 7/16/2014            Bank of the Carolinas Corporation                                           475,204                           0.0
 Total                                                                                        3,260,370            $5,892,066.0
 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
 traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
 individual financial institution.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011,
 7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, 7/11/2013, 10/10/2013,
 1/8/2014, 4/11/2014, 7/15/2014, 10/10/2014.


TABLE 4.42
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 9/30/2014
                                                                                             Number of                 Amount of
 Repurchase                                                                                   Warrants               Repurchase
 Date                 Company                                                              Repurchased             ($ Thousands)
 8/29/2014            Central Bancorp, Inc. / United Central Bank                               1,125,000                   $1,125.0
                      White River Bancshares Company / Signature
 7/2/2014                                                                                         840,000                       840.0
                      Bank of Arkansas
                      First Community Bancshares, Inc / First
 7/16/2014                                                                                        740,000                       740.0
                      Community Bank
 3/27/2013            Stonebridge Financial Corp.                                                 549,000                       549.0
 7/23/2014            Greer Bancshares Incorporated                                               500,000                       500.0
 7/2/2014             United American Bank                                                        435,000                       435.0
 3/28/2014            First Southwest Bancorporation, Inc.                                        275,000                       275.0
 3/28/2014            AmFirst Financial Services, Inc          a
                                                                                                  250,000                       250.0
 7/3/2014             Marine Bank & Trust Company                                                 150,000                       150.0
 3/28/2014            Alliance Bancshares, Inc.                                                   149,000                       149.0
 7/2/2014             Market Bancorporation, Inc. / New Market Bank                               105,000                       105.0
 7/2/2014             Maryland Financial Bank                                                       85,000                        85.0
 Total                                                                                        5,203,000                   $5,203.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
 a
   S-Corporation Institution: issued subordinated debt instead of preferred stock.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury response to SIGTARP data call, 10/10/2014.
278   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury Warrant Auctions
                                             If Treasury and the repaying institution cannot agree upon the price for the
                                             institution to repurchase its warrants, Treasury may conduct a public or private
                                             offering to auction the warrants.513 As of September 30, 2014, the combined
                                             proceeds from Treasury’s public and private warrant auctions totaled $5.5 billion.514

                                             Public Warrant Auctions
                                             In November 2009, Treasury began selling warrants via public auctions.515
                                             Through September 30, 2014, Treasury had held 26 public auctions for warrants it
                                             received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.516
                                             Treasury did not conduct any public warrant auctions this quarter.517 Final closing
                                             information for all public warrant auctions is shown in Table 4.43.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                             279



TABLE 4.43
 PUBLIC TREASURY WARRANT AUCTIONS, AS OF 9/30/2014
                                                                                              Number of Warrants             Minimum               Selling      Proceeds to Treasury
 Auction Date                   Company                                                                  Offered             Bid Price              Price                ($ Millions)
                                Bank of America A Auction (TIP)a                                         150,375,940              $7.00              $8.35                        $1,255.6
 3/3/2010
                                Bank of America B Auction (CPP)a                                         121,792,790                1.50              2.55                            310.6
 12/10/2009                     JPMorgan Chase                                                             88,401,697               8.00             10.75                            950.3
 5/20/2010                      Wells Fargo and Company                                                  110,261,688                6.50              7.70                            849.0
 9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973             10.50              13.70                            713.7
 4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192             15.00              19.20                            324.2
                                Citigroup A Auction (TIP & AGP)         a
                                                                                                         255,033,142                0.60              1.01                            257.6
 1/25/2011
                                Citigroup B Auction (CPP)a                                               210,084,034                0.15              0.26                              54.6
 9/16/2010                      Lincoln National Corporation                                               13,049,451             13.50              16.60                            216.6
 5/6/2010                       Comerica Inc.                                                              11,479,592             15.00              16.00                            183.7
 12/3/2009                      Capital One                                                                12,657,960               7.50             11.75                            148.7
 11/29/2012                     M&T Bank Corporation                                                         1,218,522            23.50               1.35                              32.3
 2/8/2011                       Wintrust Financial Corporation                                               1,643,295            13.50              15.80                              26.0
 6/2/2011                       Webster Financial Corporation                                                3,282,276              5.50              6.30                              20.4
                                SunTrust A Auctionb                                                          6,008,902              2.00              2.70                              16.2
 9/22/2011
                                SunTrust B Auctionb                                                        11,891,280               1.05              1.20                              14.2
 3/9/2010                       Washington Federal, Inc.                                                     1,707,456              5.00              5.00                              15.6
 3/10/2010                      Signature Bank                                                                 595,829            16.00              19.00                              11.3
 12/15/2009                     TCF Financial                                                                3,199,988              1.50              3.00                               9.6
 12/5/2012                      Zions Bancorporation                                                         5,789,909            23.50              26.50                               7.8
 3/11/2010                      Texas Capital Bancshares, Inc.                                                 758,086              6.50              6.50                               6.7
 2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500              1.40              2.20                               6.4
 5/18/2010                      Valley National Bancorp                                                      2,532,542              1.70              2.20                               5.6
 11/30/2011                     Associated Banc-Corpc                                                        3,983,308              0.50              0.90                               3.6
 6/2/2010                       First Financial Bancorp                                                        465,117              4.00              6.70                               3.1
 6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557              0.85              1.15                               3.0
 Total                                                                                               1,090,695,026                                                               $5,446.4
 Notes: Numbers may not total due to rounding.
 a
   Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
 b
   Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
 c
   According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

 Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
 10/1/2014; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 10/1/2014; Comerica
 Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 10/1/2014; Wells Fargo and Company, “Definitive
 Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 10/1/2014; First Financial Bancorp, “Prospectus Supplement,”
 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 10/1/2014; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
 www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 10/1/2014; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
 SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 10/1/2014; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 10/1/2014; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
 data/70858/000119312510051260/d8k.htm, accessed 10/1/2014; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
 d424b2.htm, accessed 10/1/2014; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
 10/1/2014; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 10/1/2014; JPMorgan
 Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 10/1/2014; Capital One Financial, “Prospectus Supplement,”
 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2013; Hartford Financial Services Group,
 Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/1/2014; Treasury,
 “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
 aspx, accessed 10/1/2014; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
 d424b5.htm, accessed 10/1/2014; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 10/1/2014; Treasury,
 Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-
 releases/Pages/tg1033.aspx, accessed 10/1/2014; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
 10/1/2014; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2014; Boston Private Financial Holdings,
 Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 10/1/2014; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.
 sec.gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 10/1/2014; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
 data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 10/1/2014; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
 Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 10/1/2014; Treasury, Citigroup Preliminary Prospectus – CPP
 Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 10/1/2014; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2014; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of SunTrust Banks, Inc.,” 9/21/2011,
 www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 10/1/2014; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated
 Banc-Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 10/1/2014; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase
 Common Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 10/1/2014; Treasury, “Treasury Department Announces Public
 Offering of Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 10/1/2014.
280            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Private Warrant Auctions
      Qualified Institutional Buyers (“QIB”):         On November 17, 2011, Treasury conducted a private auction to sell the warrants
      Institutions that under U.S. securities         of 17 CPP institutions for $12.7 million.518 On June 6, 2013, it conducted a second
      law are permitted to buy securities             private auction to sell the warrants of 16 banks for $13.9 million.519 Details from
      that are exempt from registration               both auctions are listed in Table 4.44. Treasury stated that private auctions were
      under investor protection laws and              necessary because the warrants did not meet the listing requirements for the major
      to resell those securities to other             exchanges, it would be more cost-effective for these smaller institutions, and that
      QIBs. Generally these institutions own          grouping the warrants of several institutions in a single auction would raise investor
      and invest at least $100 million in             interest in the warrants.520 The warrants were not registered under the Securities
      securities, or are registered broker-           Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered
      dealers that own or invest at least $10         only in private transactions to “(1) ‘qualified institutional buyers’ as defined in
      million in securities.                          Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited
                                                      investors’ affiliated with the issuer.”521
      Accredited Investors: Individuals or
      institutions that by law are considered
      financially sophisticated enough so
      that they can invest in ventures that
      are exempt from investor protection
      laws. Under U.S. securities laws, these
      include many financial companies,
      pension plans, wealthy individuals,
      and top executives or directors of the
      issuing companies.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   281




TABLE 4.44
 PRIVATE TREASURY WARRANT AUCTIONS AS OF 9/30/2014
                                                                                   Number of                   Proceeds to
 Date                       Company                                           Warrants Offered                    Treasury
 11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
 11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
 11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
 11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
 11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
 11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
 11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
 11/17/2011                 Encore Bancshares                                              364,026                   637,071
 11/17/2011                 LCNB Corporation                                               217,063                   602,557
 11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
 11/17/2011                 First Merchants Corporation                                    991,453                   367,500
 11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
 11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
 11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
 11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
 11/17/2011                 First Busey Corporation                                        573,833                     63,677
 11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
 6/6/2013                   Banner Corporation                                             243,998                   134,201
 6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
 6/6/2013                   Central Pacific Financial Corp.                                 79,288                   751,888
 6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
 6/6/2013                   Community West Bancshares                                      521,158                   698,351
 6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
 6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                            International Bancshares
 6/6/2013                                                                               1,326,238                 4,018,511
                            Corporation
 6/6/2013                   Mainsource Financial Group, Inc.                               571,906                1,512,177
 6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
 6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
 6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
 6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
 6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
 6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
 6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
 6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
 Total                                                                               14,613,817              $26,566,831
 Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
 center/press-releases/Pages/tg1365.aspx, accessed 7/1/2014; “Treasury Completes Auction to Sell Warrants Positions,”
 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 10/1/2014.
282             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more information on CDCI                     Community Development Capital Initiative
      institutions that remain in TARP and
                                                       The Administration announced the Community Development Capital Initiative
      their use of TARP funds, see the report
      in SIGTARP’s April 2014 Quarterly                (“CDCI”) on October 21, 2009. According to Treasury, the program was intended
      Report: “Banks and Credit Unions                 to help small businesses obtain credit.522 Under CDCI, TARP made $570.1
      in TARP’s CDCI Program Face                      million in investments in the preferred stock or subordinated debt of 84 eligible
      Challenges.”                                     banks, bank holding companies, thrifts, and credit unions certified as Community
                                                       Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
                                                       these lower-cost capital investments were intended to strengthen the capital base
      Community Development Financial                  of CDFIs and enable them to make more loans in low and moderate-income
      Institutions (“CDFIs”): Financial                communities.523 CDCI was open to certified, qualifying CDFIs or financial
      institutions eligible for Treasury funding       institutions that applied for CDFI status by April 30, 2010.524
      to serve urban and rural low-income                  According to Treasury, CPP-participating CDFIs that were in good standing
      communities through the CDFI Fund.               could exchange their CPP investments for CDCI investments.525 CDCI closed to
      CDFIs were created in 1994 by the                new investments on September 30, 2010.526
      Riegle Community Development and                     Treasury invested $570.1 million in 84 institutions under the program — 36
      Regulatory Improvement Act.                      banks or bank holding companies and 48 credit unions.527 Of the 36 investments in
                                                       banks and bank holding companies, 28 were conversions from CPP (representing
                                                       $363.3 million of the total $570.1 million); the remaining eight were not CPP
                                                       participants. Treasury provided an additional $100.7 million in CDCI funds to 10
                                                       of the banks converting CPP investments. Only $106 million of the total CDCI
                                                       funds went to institutions that were not in CPP.

                                                       Status of Funds
                                                       As of September 30, 2014, 68 institutions remained in CDCI. Fifteen institutions
                                                       have fully repaid Treasury and have exited CDCI. Three institutions have partially
                                                       repaid and remain in the program. Premier Bancorp, Inc., Wilmette, Illinois,
                                                       previously had its subsidiary bank fail and thus almost all of Treasury’s $6.8 million
                                                       investment was lost.528
                                                           As of September 30, 2014, taxpayers were still owed $471.7 million related
                                                       to CDCI.529 According to Treasury, it had realized losses of $6.7 million in the
                                                       program that will never be recovered, leaving $465 million outstanding.530
                                                       According to Treasury, $98.4 million of the CDCI principal (or 17%) had been
                                                       repaid as of September 30, 2014.531 As of September 30, 2014, Treasury had
                                                       received approximately $43.2 million in dividends and interest from CDCI
                                                       recipients.532 Tables 4.45 through 4.50 show banks and credit unions remaining in
                                                       CDCI by region and state as of September 30, 2014. Table 4.51 lists the current
                                                       status of all CDCI investments as of September 30, 2014.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   283




TABLE 4.45
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY REGION, AS OF
 9/30/2014
                                             Original              Remaining                                            Remaining          Remaining
                                          Number of                Number of                         Remaining          Number of          Number of
                                         Participants             Participants                      Investment             Banks         Credit Unions
 Mid-Atlantic/Northeast                                 24                        21           $67,151,000                           5             16
 Southeast                                              22                        18           286,513,000                          16              2
 West                                                   14                        13                26,799,000                       2             11
 Southwest/South Central                                11                         8                58,112,000                       2              6
 Midwest                                                11                         8                26,432,000                       4              4
 Mountain West/Plains                                    2                         0                             0                   0              0
 Total                                                  84                     68         $465,007,000                              29             39
 Source: Treasury, Transactions Report, 9/30/2014.


FIGURE 4.42
AMOUNT OF CDCI PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 9/30/2014

    AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                               $0                                         MIDWEST                           MID-ATLANTIC/
                            WA                                                           $26 MILLION                         NORTHEAST
                                                                                                                 VT    ME
                                              MT             ND                                                              $67 MILLION
                       OR                                               MN                                                 NH
                                                                                   WI                           NY
   WEST                             ID                       SD                                                             MA
                                                                                           MI
$27 MILLION
                                              WY
                                                                         IA                                               CT RI
                                                                                                OH         PA            NJ
                                                             NE
                              NV                                                    IL    IN                           DE
                      CA                 UT                                                              WV VA
          GU                                       CO                    MO                                           MD
                                                                  KS                           KY
                                                                                                          NC
                                                                                          TN
           HI                        AZ                            OK        AR                           SC
                                                   NM
                                                                                        MS AL       GA          SOUTHEAST
                                                              TX              LA                               $287 MILLION

                                                                                                          FL                   PR
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                     $58 MILLION

                WEST                                                               MIDWEST
                MOUNTAIN WEST/PLAINS                                               MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                            SOUTHEAST
284     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      Mid-Atlantic/Northeast
      TABLE 4.46
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                  Original          Remaining                           Remaining     Remaining
                                                                               Number of            Number of               Remaining   Number of     Number of
                                                                              Participants         Participants            Investment      Banks    Credit Unions
                                  VT    ME
                                                                    CT                       1                    1           $7,000           0               1
                                             NH
                                                                    DC                       3                    3       13,303,000           2               1
                             NY               MA
                                                     RI             NJ                       2                    1           31,000           0               1
                                        CT
                        PA             NJ                           NY                      13                   12       42,660,000           2              10
                                      DE
                   WV VA
                   WV               MD                              PA                       1                    1          100,000           0               1
                                   DC
                                                                    VA                       3                    2        9,959,000           1               1
                                                                    VT                       1                    1        1,091,000           0               1
       MID-ATLANTIC/                       >$10 million             Total                  24                   21       $67,151,000           5              16
                                           $1 million-$10 million
       NORTHEAST                           $1-$1 million            Source: Treasury, Transactions Report, 9/30/2014.
       Principal investment                $0
       remaining in CDCI banks




      Southeast
      TABLE 4.47
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                  Original          Remaining                           Remaining     Remaining
                                                                               Number of            Number of               Remaining   Number of     Number of
                                                                              Participants         Participants            Investment      Banks    Credit Unions
                                   NC
                   TN                                               AL                       3                    3      $16,698,000           2               1
                                  SC
                                                                    GA                       2                    2       12,841,000           2               0
            MS     AL    GA
                                                PR                  MS                      12                   10      220,444,000           9               1
                                                                    NC                       3                    1       11,735,000           1               0
                                   FL                               SC                       1                    1       22,000,000           1               0
                                                                    TN                       1                    1        2,795,000           1               0
       SOUTHEAST                       >$10 million                 Total                  22                   18      $286,513,000          16               2
       Principal investment            $1 million-$10 million
                                       $1-1 million                 Source: Treasury, Transactions Report, 9/30/2014.
       remaining in CDCI
       banks                           $0
                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014       285




West
TABLE 4.48
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                        Original          Remaining                            Remaining      Remaining
                                                                     Number of            Number of              Remaining     Number of      Number of
                                                                    Participants         Participants           Investment        Banks     Credit Unions
                                       WA
                                                          AK                       1                    1       $1,600,000              0                  1
          AK                                              CA                       9                    8       21,503,000              2                  6
                                  OR
                                                          GU                       1                    1        2,650,000              0                  1
                                                          HI                       2                    2          971,000              0                  2
                                                          WA                       1                    1           75,000              0                  1
                 GU                                       Total                  14                   13      $26,799,000               2              11
                                 CA
                                                          Source: Treasury, Transactions Report, 9/30/2014.


                 HI

  WEST                       >$10 million
  Principal investment       $1 million-$10 million
  remaining in CDCI banks    $1-$1 million
                             $0




Southwest/South Central
TABLE 4.49
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                        Original          Remaining                            Remaining      Remaining
                                                                     Number of            Number of              Remaining     Number of      Number of
                                                                    Participants         Participants           Investment        Banks     Credit Unions
     AZ                          OK
               NM                           AR            AR                       1                    1      $33,800,000              1                  0
                                                          AZ                       1                    1        2,500,000              0                  1
                                            LA
                            TX                            LA                       6                    4       18,204,000              1                  3
                                                          TX                       3                    2        3,608,000              0                  2
                                                          Total                  11                     8     $58,112,000               2                  6
                                                          Source: Treasury, Transactions Report, 9/30/2014.
 SOUTHWEST/                      >$10 million
                                 $1 million-$10 million
 SOUTH CENTRAL                   $1-$1 million
 Principal investment            $0
 remaining in CDCI banks
286     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      Midwest
      TABLE 4.49
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                          Original          Remaining                          Remaining     Remaining
                                                                                       Number of            Number of              Remaining   Number of     Number of
                                                                                      Participants         Participants           Investment      Banks    Credit Unions
                                                                            IL                       7                    6     $25,193,000           4               2
                   MN
                              WI                                            IN                       2                    2       1,239,000           0               2
                                             MI
                                                                            MN                       1                    0               0           0               0
                    IA
                                         IN       OH                        WI                       1                    0               0           0               0
                                   IL
                        MO                                                  Total                  11                     8     $26,432,000           4               4
                                              KY
                                                                            Source: Treasury, Transactions Report, 9/30/2014.


         MIDWEST                             >$10 million
         Principal investment                $1 million -$10 million
         remaining in CDCI                   $1-$1 million
         banks                               $0




      Mountain West/Plains
      TABLE 4.50
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 9/30/2014
                                                                                          Original          Remaining                          Remaining     Remaining
                                                                                       Number of            Number of              Remaining   Number of     Number of
                                                                                      Participants         Participants           Investment      Banks    Credit Unions
                                   MT                  ND                   MT                       1                    0              $0           0               0
                                                                            WY                       1                    0               0           0               0
                    ID                                 SD
                                        WY                                  Total                    2                    0              $0           0               0
                                                       NE                   Source: Treasury, Transactions Report, 9/30/2014.
            NV
                         UT
                                         CO
                                                            KS


      MOUNTAIN WEST/                               >$10 million
                                                   $1 million-$10 million
      PLAINS                                       $1-$1 million
      Principal investment
                                                   $0
      remaining in CDCI banks
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   287




TABLE 4.51
 CDCI INVESTMENT SUMMARY, AS OF 9/30/2014
                                               Amount      Additional       Total CDCI
 Institution                                 from CPP     Investment       Investment
 Institutions Remaining in CDCI
 BancPlus Corporation                      $50,400,000   $30,514,000      $80,914,000
 Community Bancshares of Mississippi,
                                            54,600,000                     54,600,000
 Inc.
 Southern Bancorp, Inc.                     11,000,000    22,800,000       33,800,000
 Security Federal Corporation               18,000,000     4,000,000       22,000,000
 Carver Bancorp, Inc                        18,980,000                     18,980,000
 Security Capital Corporation               17,910,000                     17,910,000
 The First Bancshares, Inc.                  5,000,000    12,123,000       17,123,000
 First American International Corp.         17,000,000                     17,000,000
 State Capital Corporation                  15,750,000                     15,750,000
 Guaranty Capital Corporation               14,000,000                     14,000,000
 Citizens Bancshares Corporation             7,462,000     4,379,000       11,841,000
 M&F Bancorp, Inc.                          11,735,000                     11,735,000
 Liberty Financial Services, Inc.            5,645,000     5,689,000       11,334,000
 Mission Valley Bancorp                      5,500,000     4,836,000       10,336,000
 United Bancorporation of Alabama, Inc.     10,300,000                     10,300,000
 IBC Bancorp, Inc.                           4,205,000     3,881,000        8,086,000
 Fairfax County Federal Credit Union                                        8,044,000
 The Magnolia State Corporation                                             7,922,000
 First Eagle Bancshares, Inc.                7,875,000                      7,875,000
 Carter Federal Credit Union*                                               6,300,000
 First Vernon Bancshares, Inc.               6,245,000                      6,245,000
 IBW Financial Corporation                   6,000,000                      6,000,000
 CFBanc Corporation                                                         5,781,000
 American Bancorp of Illinois, Inc.                                         5,457,000
 Lafayette Bancorp, Inc.                     4,551,000                      4,551,000
 Hope Federal Credit Union                                                  4,520,000
 Community Bank of the Bay                   1,747,000     2,313,000        4,060,000
 Bainbridge Bancshares, Inc.                                                3,372,000
 Border Federal Credit Union                                                3,260,000
 Kilmichael Bancorp, Inc.                                                   3,154,000
 PGB Holdings, Inc.                          3,000,000                      3,000,000
 Santa Cruz Community Credit Union                                          2,828,000
 Cooperative Center Federal Credit Union                                    2,799,000
 Tri-State Bank of Memphis                   2,795,000                      2,795,000
                                                                 Continued on next page
288   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              CDCI INVESTMENT SUMMARY, AS OF 9/30/2014               (CONTINUED)

                                                                                            Amount        Additional          Total CDCI
                                              Institution                                 from CPP       Investment          Investment
                                              Institutions Remaining in CDCI
                                              Community First Guam Federal Credit
                                                                                                                              2,650,000
                                              Union
                                              Shreveport Federal Credit Union                                                 2,646,000
                                              Pyramid Federal Credit Union                                                    2,500,000
                                              Alternatives Federal Credit Union                                               2,234,000
                                              Virginia Community Capital, Inc.                                                1,915,000
                                              Southern Chautauqua Federal Credit Union                                        1,709,000
                                              Tongass Federal Credit Union                                                    1,600,000
                                              D.C. Federal Credit Union                                                       1,522,000
                                              Vigo County Federal Credit Union                                                1,229,000
                                              Opportunities Credit Union                                                      1,091,000
                                              Butte Federal Credit Union                                                      1,000,000
                                              Lower East Side People’s Federal Credit
                                                                                                                                898,000
                                              Union
                                              Independent Employers Group Federal
                                                                                                                                698,000
                                              Credit Union
                                              Bethex Federal Credit Union                                                       502,000
                                              Community Plus Federal Credit Union                                               450,000
                                              Liberty County Teachers Federal Credit
                                                                                                                                435,000
                                              Union*
                                              Tulane-Loyola Federal Credit Union                                                424,000
                                              Northeast Community Federal Credit
                                                                                                                                350,000
                                              Union
                                              North Side Community Federal Credit
                                                                                                                                325,000
                                              Union
                                              Genesee Co-op Federal Credit Union                                                300,000
                                              Brooklyn Cooperative Federal Credit Union                                         300,000
                                              Union Settlement Federal Credit Union                                             295,000
                                              Neighborhood Trust Federal Credit Union                                           283,000
                                              Prince Kuhio Federal Credit Union                                                 273,000
                                              Phenix Pride Federal Credit Union                                                 153,000
                                              Buffalo Cooperative Federal Credit Union                                          145,000
                                              Hill District Federal Credit Union                                                100,000
                                              Episcopal Community Federal Credit
                                                                                                                                100,000
                                              Union
                                              Thurston Union of Low-Income People
                                                                                                                                 75,000
                                              (TULIP) Cooperative Credit Union
                                                                                                                   Continued on next page
                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   289




CDCI INVESTMENT SUMMARY, AS OF 9/30/2014                                         (CONTINUED)

                                                                       Amount         Additional       Total CDCI
Institution                                                          from CPP        Investment       Investment
Institutions Remaining in CDCI
Renaissance Community Development
                                                                                                          31,000
Credit Union
Faith Based Federal Credit Union                                                                          30,000
Fidelis Federal Credit Union                                                                              14,000
Union Baptist Church Federal Credit Union                                                                 10,000
East End Baptist Tabernacle Federal
                                                                                                           7,000
Credit Union
Total                                                      $299,700,000            $90,535,000     $469,966,000
Institutions Fully Repaid                                                                                       
First M&F Corporation                                         $30,000,000                           $30,000,000
University Financial Corp, Inc.                                 11,926,000          $10,189,000      22,115,000
PSB Financial Corporation                                            9,734,000                         9,734,000
Freedom First Federal Credit Union                                                                     9,278,000
BankAsiana                                                                                             5,250,000
First Choice Bank                                                    5,146,000                         5,146,000
Bancorp of Okolona, Inc.                                                                               3,297,000
Atlantic City Federal Credit Union                                                                     2,500,000
Gateway Community Federal Credit Union                                                                 1,657,000
Southside Credit Union                                                                                 1,100,000
Brewery Credit Union                                                                                   1,096,000
First Legacy Community Credit Union                                                                    1,000,000
UNO Federal Credit Union                                                                                743,000
Greater Kinston Credit Union                                                                            350,000
UNITEHERE Federal Credit Union (Workers
                                                                                                          57,000
United Federal Credit Union)
Total                                                        $56,806,000           $10,189,000      $93,323,000
Bankrupt or with Failed Subsidiary Banks
Premier Bancorp, Inc.                                           $6,784,000                           $6,784,000
Total                                                          $6,784,000                            $6,784,000
Overall Total                                              $363,290,000          $100,724,000      $570,073,000
Notes: Numbers may not total due to rounding.

* Institution has made a partial payment on Treasury’s investment.

Source: Treasury, Transactions Report, 9/30/2014.
290   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Missed Dividends
                                             As of September 30, 2014, two institutions still in CDCI had unpaid dividend
                                             or interest payments to Treasury totaling $34,275.533 As a result of a bankrupt
                                             institution that exited CDCI without remitting its interest payments, the total
                                             value of all missed payments equals $350,899. Treasury has the right to appoint
                                             two directors to the board of directors of institutions that have missed eight
                                             dividends and interest payments, whether consecutive or nonconsecutive.534 As
                                             of September 30, 2014, Treasury had not appointed directors to the board of any
                                             CDCI institution.535 Treasury has sent an observer to the board meetings of one
                                             institution, First Vernon Bancshares, Inc., Vernon, Alabama, however no observer
                                             is currently attending board meetings of this institution.536 Treasury made a request
                                             to send an observer to the board meetings of First American International Corp.,
                                             Brooklyn, New York, in February 2013, but the institution, which remains in TARP
                                             as of September 30, 2014, rejected Treasury’s request.537 Table 4.52 lists CDCI
                                             institutions that are not current on dividend or interest payments.


                                             TABLE 4.52
                                              CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF
                                              9/30/2014
                                                                                          Dividend or                Number of Missed   Value of Missed
                                              Institution                                 Payment Type                      Payments          Payments
                                              Premier Bancorp, Inc.*                      Interest                                 6          $316,624
                                              Tri-State Bank of Memphis                   Non-Cumulative                           1            13,975
                                              Community Bank of the Bay                   Non-Cumulative                           1            20,300
                                              Total                                                                                          $350,899
                                              Notes: Numbers may not total due to rounding.

                                              * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

                                              Source: Treasury, Dividends and Interest Report, 10/10/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014           291




Terms for Senior Securities and Dividends
An eligible bank, bank holding company, or thrift could apply to receive capital in            Risk-Weighted Assets: Risk-based
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-             measure of total assets held by
owned, nonprofit financial institution with a capital and governance structure                 a financial institution. Assets are
different from that of for-profit banks) could apply for Government funding of up              assigned broad risk categories. The
to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets             amount in each risk category is then
for banks.538 Participating credit unions and S corporations issued subordinated               multiplied by a risk factor associated
debt to Treasury in lieu of the preferred stock issued by other CDFI participants.539          with that category. The sum of the
Many CDFI investments have an initial dividend rate of 2%, which increases to                  resulting weighted values from each of
9% after eight years. Participating S corporations pay an initial rate of 3.1%, which          the risk categories is the bank’s total
increases to 13.8% after eight years.540 A CDFI participating in CPP had the                   risk-weighted assets.
opportunity to request to convert those shares into CDCI shares, thereby reducing
the annual dividend rate it pays the Government from 5% to as low as 2%.541
According to Treasury, CDFIs were not required to issue warrants because of the
de minimis exception in EESA, which grants Treasury the authority to waive the
warrant requirement for qualifying institutions in which Treasury invested $100
million or less.
    If during the application process a CDFI’s primary regulator deemed it to
be undercapitalized or to have “quality of capital issues,” the CDFI had the
opportunity to raise private capital to achieve adequate capital levels. Treasury
would match the private capital raised on a dollar-for-dollar basis, up to a total of
5% of the financial institution’s risk-weighted assets. In such cases, private investors
had to agree to assume any losses before Treasury.542
292            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more on SIGTARP’s September                 Systemically Significant Failing Institutions Program
      2012 recommendation to Treasury and
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
      the Federal Reserve regarding AIG’s
      designation as a systemically important         program was established to “provide stability and prevent disruptions to financial
      financial institution, see SIGTARP’s            markets from the failure of a systemically significant institution.”543 Through
      July 2013 Quarterly Report, pages               SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
      201-203.                                        in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.544 AIG also received bailout funding from the Federal Reserve Bank
      For more information on AIG and how
      the company changed while under                 of New York (“FRBNY”). In January 2011, FRBNY and Treasury restructured
      TARP, see SIGTARP’s July 2012                   their agreements with AIG to use additional TARP funds and AIG funds to pay off
      Quarterly Report, pages 151-167.                amounts owed to FRBNY and transfer FRBNY’s common stock and its interests to
                                                      Treasury.545
                                                           AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
                                                      investment in AIG ended on March 1, 2013.546
      Special Purpose Vehicle (“SPV”):
                                                          According to Treasury, taxpayers have received full payment on FRBNY’s loans,
      A legal entity, often off-balance-
                                                      plus interest and fees of $6.8 billion; full repayment of the loans to two special
      sheet, that holds transferred assets
                                                      purpose vehicles (“SPVs”), called Maiden Lane II and Maiden Lane III, plus $8.2
      presumptively beyond the reach of the
                                                      billion in gains from securities cash flows and sales and $1.3 billion in interest;
      entities providing the assets, and that
                                                      and full payment of the insurance-business SPVs, plus interest and fees of $1.4
      is legally isolated from its sponsor or
                                                      billion547 Treasury’s books and records reflect only the shares of AIG that Treasury
      parent company.
                                                      received in TARP, reflecting that taxpayers have recouped $54.4 billion of the
                                                      $67.8 billion in TARP funds spent and realized losses on the sale of TARP shares
                                                      from an accounting standpoint of $13.5 billion548 However, because TARP funds
      For a more detailed description of              paid off amounts owed to FRBNY in return for stock, Treasury’s position is that the
      the AIG Recapitalization Plan, see              Government has made $4.1 billion selling AIG common shares and $959 million in
      SIGTARP’s January 2014 Quarterly                dividends, interest, and other income.549
      Report, pages 219-220.

      For more information on Treasury’s
      sales of AIG common shares and AIG’s
      buybacks of shares, see SIGTARP’s
      July 2013 Quarterly Report, page 131.

      For more information on Treasury’s
      Equity Ownership Interest in AIG, see
      SIGTARP’s January 2014 Quarterly
      Report, page 220.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014           293




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.550 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”551 Both banks repaid TIP in December 2009.552 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.553 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.554

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to                Trust Preferred Securities (“TRUPS”):
provide loss protection on a pool of Citigroup assets valued at approximately $301          Securities that have both equity
billion. In return, as a premium, the Government received warrants to purchase              and debt characteristics created by
Citigroup common stock and $7 billion in preferred stock. The preferred stock was           establishing a trust and issuing debt
subsequently exchanged for trust preferred securities (“TRUPS”).555                         to it.
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.556
Although Treasury’s asset guarantee was not a direct cash investment, it exposed
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in                  For a discussion of the basis of the
connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated                decision to provide Federal assistance
the AGP agreement. Although at the time of termination the asset pool suffered              to Citigroup, see SIGTARP’s audit
a $10.2 billion loss, this number was below the agreed-upon deductible and the              report, “Extraordinary Financial
                                                                                            Assistance Provided to Citigroup,
Government suffered no loss.557                                                             Inc.,” dated January 13, 2011.
     At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by
Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in
exchange for the early termination of the loss protection. FDIC retained all of its
$3 billion in securities.558 Pursuant to that termination agreement, on December
28, 2012, FDIC transferred $800 million of those securities to Treasury because
Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed
without a loss.559 On February 4, 2013, Treasury exchanged the $800 million of
securities it received from FDIC into Citigroup subordinated notes, which it then
sold for $894 million.560
     Separately, on September 29, 2010, Treasury entered into an agreement with
Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
held under AGP for new TRUPS. Because the interest rate necessary to receive
par value was below the interest rate paid by Citigroup to Treasury, Citigroup
increased the principal amount of the securities sold by Treasury by an additional
$12 million, thereby enabling Treasury to receive an additional $12 million in
294   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             proceeds from the $2.2 billion sale of the Citigroup TRUPS, which occurred on
                                             September 30, 2010.561 On January 25, 2011, Treasury auctioned the Citigroup
                                             warrants it had received under AGP for $67.2 million.562 In addition to recovering
                                             the full bailout amount, taxpayers have received $13.4 billion over the course of
                                             Citigroup’s participation in AGP, TIP, and CPP, including dividends, other income,
                                             and warrant sales.563
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.564 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to FDIC, and $57 million was paid to the Federal Reserve.565
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014          295




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent the collapse of the U.S. auto industry, which would have posed a significant
risk to financial market stability, threatened the overall economy, and resulted in
the loss of one million U.S. jobs.”566
     On December 9, 2013, Treasury sold its remaining shares of General Motors
Company (“GM”) common stock.567 Separately, on March 20, 2014, Treasury
wrote off an $826 million administrative claim in the company’s 2009 bankruptcy,
ending all taxpayer involvement in GM.568 As of September 30, 2014, Ally Financial
Inc. (“Ally Financial”), formerly GMAC Inc., is the only remaining auto-related
company in which Treasury owns a stake, with $3.7 billion owed to taxpayers.
On August 14, 2014, Treasury announced that “it would continue to wind down
its investment in Ally Financial (Ally) by selling additional shares of common
stock through its first pre-defined written trading plan.”569 The first trading plan
concluded on September 12, 2014 with the sale of 8,890,000 shares, recovering
approximately $218.7 million and reducing Treasury’s stake to 13.8 %.570 Following
this transaction, Treasury held 66,175,340 shares of Ally Financial common
stock. On October 17, 2014, Treasury announced the conclusion of its second
trading plan with the sale of 11,249,044 shares, recovering approximately $245.5
million. Treasury now holds approximately 54.9 million shares of common stock, or
approximately 11.4% of Ally Financial.571 For the Government to break even on its
investment, Ally’s remaining shares would need to trade at approximately $64 per
share — triple the closing price per share of Ally Financial on October 17, 2014.572
Earlier, on January 23, 2014, Treasury sold 410,000 shares of Ally Financial
common stock for approximately $3 billion in a private placement, reducing its
stake to 37% of the company’s stock.573 Following this, on April 15, 2014, Treasury
sold 95 million shares of Ally common stock for approximately $2.4 billion ($25 per
share) as part of an initial public offering (“IPO”). Following the Ally Financial IPO,        For more information on GMAC/Ally
Treasury reported that it would still hold 82,311,010 shares; reducing Treasury’s              Financial, see “Taxpayers Continue to
                                                                                               Own 74% of GMAC (Rebranded as
stake in Ally to about 17%.574 Subsequently, on May 14, 2014 Treasury exercised its
                                                                                               Ally Financial Inc.) from the TARP
over-allotment option to sell an additional 7,245,670 shares of Ally common stock              Bailouts,” in SIGTARP’s January 2013
at the IPO price of $25, recovering $181 million and further reducing its stake to             Quarterly Report, pages 147-164.
approximately 16%. Following this transaction, Treasury was still owed $4 billion.575
     As of September 30, 2014, taxpayers had lost $11.2 billion on the TARP
investment in GM from selling GM common stock at prices below the
Government’s cost basis, as well as from the write-off of its remaining investment
in Old GM in the amount of $826 million, according to Treasury.576 Additionally,
taxpayers lost $1.9 billion on the sale of Ally Financial’s common stock.577
Taxpayers also lost $2.9 billion on Treasury’s investment in Chrysler LLC, which
exited TARP in 2011. A fourth company, Chrysler Financial Services Americas LLC
296   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             (“Chrysler Financial”), repaid all its TARP money in 2009. AWCP and ASSP were
                                             terminated in July 2009, and April 2010, respectively.
                                                 Treasury initially obligated approximately $84.8 billion in TARP funds through
                                             the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
                                             Financial.578 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
                                             bailout after $2.1 billion in loan commitments to Chrysler were never drawn
                                             down, and all available funding for the ASSP program was not used.579 As of
                                             September 30, 2014, taxpayers were owed $17.8 billion, of which $16 billion in
                                             losses have been realized or written off and will never be repaid, leaving $1.8 billion
                                             outstanding.580
                                                 Treasury’s investments in AIFP and the two related programs and the
                                             companies’ principal repayments are summarized in Table 4.53.

                                             TABLE 4.53
                                              TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS
                                              AND RECOVERIES, AS OF 9/30/2014 ($ BILLIONS)
                                                                                                                   Ally
                                                                                            General           Financial                             Chrysler
                                                                                            Motorsa               Inc.b          Chryslerc          Financial                 Total
                                              Automotive Industry
                                                                                                                                                                                       
                                              Financing Program
                                                 Treasury Investment                           $49.5               $17.2              $10.5                $1.5              $78.6
                                                 Principal Repaid/
                                                                                                 38.3                13.4                 7.6                1.5               60.8
                                                 Recovered
                                              Auto Supplier Support
                                              Program
                                                 Treasury Investment                               0.3                                    0.1                                    0.4
                                                 Principal Repaid/
                                                                                                   0.3                                    0.1                                    0.4
                                                 Recovered
                                              Auto Warranty
                                              Commitment Program
                                                 Treasury Investment                               0.4                                    0.3                                    0.6
                                                 Principal Repaid                                  0.4                                    0.3                                    0.6
                                              Total Treasury Investment                        $50.2              $17.2               $10.9                $1.5             $79.7
                                              Total Principal Repaid/
                                                                                               $38.9              $13.4                 $8.0               $1.5             $61.9
                                              Recovered
                                              Still Owed to Taxpayers                         $11.2d               $3.7e                $2.9               $0.0             $17.8
                                              Realized Loss on
                                                                                           ($11.2d)               ($1.9)             ($2.9)                               ($16.0)
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Principal repaid includes a series of debt payments totaling $160 million recovered from GM bankruptcy.
                                              b
                                                   Investment includes an $884 million Treasury loan to GM, which GM invested in GMAC in January 2009.
                                              c
                                                Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
                                                 rights under an agreement with the UAW retirement trust related to Chrysler shares.
                                              d
                                                  Realized loss on investment and amount still owed to taxpayers include the $826 million claim in GM’s bankruptcy, which Treasury
                                                   wrote off in the first quarter of 2014.
                                              e
                                                 Amount still owed to taxpayers does not include subsequent recoveries from the second trading plan, which Treasury announced
                                                  concluded on October 17, 2014.

                                              Sources: Treasury, Transactions Report, 9/30/2014; Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Daily TARP
                                              Update, 10/1/2014.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014     297




Automotive Industry Financing Program
AIFP, the largest of the three auto bailout programs, has not expended any
TARP funds for the automotive industry since December 30, 2009.581 Of AIFP-
related loan principal repayments and share sale proceeds, as of September
30, 2014, Treasury had received approximately $38.3 billion related to its GM
investment, $13.4 billion related to its Ally Financial/GMAC investment, $7.6
billion related to its Chrysler investment, and $1.5 billion related to its Chrysler
Financial investment.582 In addition to principal repayments, Treasury had received
approximately $5.6 billion in dividends and interest as of September 30, 2014.583

GM
Between September 26, 2013 and December 9, 2013, Treasury sold its remaining
101.3 million shares of GM common stock. As of September 30, 2014, taxpayers
had lost $11.2 billion on the investment in GM.584 Treasury provided approximately
$49.5 billion to GM through AIFP, the largest of the automotive rescue
programs.585 As a result of GM’s bankruptcy, Treasury’s investment was converted
to a 61% common equity stake in GM, $2.1 billion in preferred stock in GM, and
a $7.1 billion loan to GM ($6.7 billion through AIFP and $360.6 million through
AWCP).

Debt Repayments
As of September 30, 2014, GM had made approximately $756.7 million in
dividend and interest payments to Treasury under AIFP.586 GM repaid the $6.7
billion loan provided through AIFP with interest, using a portion of the escrow
account that had been funded with TARP funds. What remained in escrow was
released to GM with the final debt payment by GM.587

Sales of GM Stock
In November and December 2010, GM successfully completed an initial public                   For more on the results of GM’s
offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common              November 2010 IPO, see SIGTARP’s
stock and 100 million shares of Series B mandatorily convertible preferred shares            January 2011 Quarterly Report,
                                                                                             page 163.
(“MCP”) for total gross proceeds of $23.1 billion.588 As part of the IPO priced at
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in
net proceeds, reducing its number of common shares to 500.1 million and its
ownership in GM from 61% to 33%.589 On December 15, 2010, GM repurchased
Treasury’s Series A preferred stock (83.9 million shares) for total proceeds of
$2.1 billion and a capital gain to Treasury of approximately $41.9 million.590 In
early 2011, Treasury further diluted its ownership from 33% to 32% when GM
contributed 61 million of its common shares to fund GM’s pension plans.591
    After that, Treasury continued to sell GM stock, both directly to GM and in
the public markets. On December 21, 2012, Treasury sold 200 million common
shares to GM at $27.50 per share, for total proceeds of $5.5 billion.592 On January
18, 2013, Treasury announced the first of four pre-arranged written trading plans
to divest its remaining shares.593 Under the first trading plan, which ended April
298            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      17, 2013, Treasury sold 58.4 million shares at an average share price of $28.05 for
                                                      total proceeds of $1.6 billion.594 During Treasury’s second trading plan that ended
                                                      on September 13, 2013, it sold 110.3 million shares at an average share price
                                                      of $34.65, for total proceeds of $3.8 billion.595 In Treasury’s third trading plan,
                                                      ending on November 20, 2013, 70.2 million GM shares sold at an average share
                                                      price of $36.51, for proceeds of $2.6 billion.596 In the fourth and final trading plan,
                                                      between November 21, 2013, and December 9, 2013, Treasury sold its remaining
                                                      31.1 million GM shares for an average price of $38.82 per share, for proceeds of
                                                      $1.2 billion.597 In addition to the trading plans, on June 12, 2013, Treasury sold 30
                                                      million shares of common stock at $34.41 per share in a public equity offering that
                                                      raised $1 billion.598
                                                          As of September 30, 2014, taxpayers had realized losses from an accounting
                                                      standpoint of $10.3 billion on all GM common shares sold from November
                                                      2010 through December 9, 2013, according to Treasury.599 The losses are due to
                                                      Treasury’s sales of GM common shares at prices below its cost basis of $43.52
                                                      per share. In addition, Treasury’s write-off of an $826 million claim in GM’s
                                                      bankruptcy, brought the total loss to taxpayers to $11.2 billion.600

                                                      Ally Financial, formerly known as GMAC
      For a discussion of the history and             Ally Financial is still in TARP and as of September 30, 2014, taxpayers were
      financial condition of Ally Financial,          owed $3.7 billion for the TARP investment in it. In return for its investment, as
      see SIGTARP’s January 2013
                                                      of September 30, 2014, Treasury held approximately 13.8% of Ally Financial’s
      Quarterly Report, pages 147-164.
                                                      common stock.601 On January 23, 2014, Treasury sold 410,000 shares of Ally
                                                      Financial common stock for approximately $3 billion in a private placement, after
                                                      which its ownership stake was reduced from 63% to 37% of the company’s stock.
                                                      The stock sold at $7,375 per share.602 Following this, Treasury announced it would
                                                      sell 95 million shares of common stock for $2.4 billion in Ally’s IPO on April 10,
                                                      2014, further reducing taxpayers’ share to 82,311,010 shares, or 17%. Treasury’s
                                                      stake was further reduced to approximately 16% following the sale of 7,245,670
                                                      over-allotment shares of Ally common stock at the IPO price of $25.603 Treasury’s
                                                      share sales continued through its first trading plan, which concluded on September
                                                      12, 2014 with the sale of 8,890,000 shares, recovering approximately $218.7
                                                      million. This reduced Treasury’s stake to 13.8%.604 On October 17, 2014, Treasury
                                                      announced the conclusion of its second trading plan with the sale of 11,249,044
                                                      shares, recovering approximately $245.5 million. Treasury now holds approximately
                                                      54.9 million shares of common stock, or approximately 11.4 % of Ally Financial.605
                                                      For the Government to break even on its investment, Ally’s remaining shares would
                                                      need to trade at approximately $64 per share—triple the closing price per share of
                                                      Ally Financial on October 17, 2014.606
                                                           On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase $5.938
                                                      billion par value of MCP, plus a payment of $725 million to terminate the share
                                                      adjustment right.607 As of September 30, 2014, Treasury has recovered $13.4
                                                      billion through stock sales and repayments of Ally Financial shares since providing
                                                      bailout assistance to the company five and a half years ago.608 The company
                                                      also had paid a total of $3.7 billion in quarterly dividends to Treasury through
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   299




September 30, 2014, as required by the terms of the preferred stock that Ally
Financial issued to Treasury.609
     Ally Financial received $17.2 billion in three separate direct injections of TARP
funds, plus a TARP-funded capital injection from GM. On December 29, 2008,
Treasury purchased $5 billion in senior preferred equity from GMAC and received
an additional $250 million in preferred shares through warrants that Treasury
exercised immediately at a cost of $2,500.610 In January 2009, Treasury loaned
GM $884 million to invest in GMAC.611 In May 2009, Treasury exchanged this
$884 million debt for a 35% common equity ownership in GMAC.612 On May 21,
2009, Treasury made an additional investment in GMAC when it purchased $7.5
billion of MCP and received warrants that Treasury immediately exercised for an
additional $375 million in MCP at an additional cost of approximately $75,000.613
On December 30, 2009, Treasury invested another $3.8 billion in GMAC, and
Treasury received $2.5 billion in trust preferred securities (“TRUPS”) and $1.3
billion in MCP. Treasury also received warrants, which were immediately exercised,
to purchase an additional $127 million in TRUPS and $62.5 million in MCP at an
additional cost of approximately $1,270 and $12,500, respectively.614 Additionally,
Treasury converted $3 billion of its MCP into GMAC common stock, increasing
its common equity ownership from 35% to 56%.615 On May 10, 2010, GMAC
changed its name to Ally Financial Inc.616
     On December 30, 2010, Treasury announced the conversion of $5.5 billion
of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
stake in Ally Financial’s common equity from 56% to 74%.617 On March 7, 2011,
Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering,
resulting in $2.5 billion in proceeds to Treasury.618
     Following the conversion, the private equity firm Cerberus Capital
Management, L.P. (“Cerberus”) held 8.7%, third-party investors collectively held
7.6%, an independently managed trust owned by GM held 5.9%, and GM directly
held a 4% stake in Ally Financial’s common equity.619 Later, GM’s interests were
consolidated in the trust and on December 12, 2013, GM sold its stake for $0.9
billion.620 As of June 6, 2014, Treasury held a 15.6% stake in Ally’s common stock,
and Third Point Loan LLC and Cerberus held 9.5% and 8.7%, respectively.621 As of
September 30, 2014, Treasury held a 13.8% stake in Ally’s common stock.622

Ally Financial Sells Some Stock in Private Placement; Repurchases Preferred
Shares from Treasury
On November 20, 2013, Ally Financial closed two transactions that reduced
Treasury’s stake in the company from 74% to 63%.623 In one transaction, Ally
Financial completed a private placement of 216,667 shares of its common stock for
an aggregate purchase price of $1.3 billion. In the other transaction, Ally Financial
repurchased from Treasury all of its MCP and also terminated Treasury’s existing
share adjustment right associated with those shares.624 Ally said it paid Treasury
$5.2 billion to repurchase $5.938 billion par value of MCP, plus a payment of $725
million to terminate the share adjustment right.625
300   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 According to Treasury, under new agreements associated with these
                                             transactions, Treasury had the right to designate a majority of the Ally Financial
                                             Board of Directors as long as its ownership stake exceeded 50%, which it no longer
                                             does.626 As of June 30, 2014, Treasury had designated six of the 11 directors,
                                             however, two Treasury-appointed directors, Brian MacDonald and Henry S. Miller
                                             retired from the Board at the time of its annual meeting on July 17, 2014.627 Also
                                             at the Annual Meeting, Ally Financial’s Board nominated three former Treasury
                                             designated board members to remain as directors: Robert T. Blakely, Gerald
                                             Greenwald, and Marjorie Magner. Treasury designated an additional nominee,
                                             former board member Mathew Pendo, for election at the 2014 annual meeting.628
                                                 On December 23, 2013, Ally Financial announced that the Federal Reserve
                                             had granted the company financial holding company status, permitting it to engage
                                             in a broader range of business activities, while continuing to operate its insurance
                                             and remarketing businesses.629 In addition, on March 24, 2014 the Federal Reserve
                                             announced that Ally Financial had passed its CCAR “stress test.”630

                                             Ally Financial IPO
                                             On April 9, 2014, Treasury announced an IPO of Ally Financial common stock,
                                             reporting that it would sell 95 million shares of Ally stock with an option for the
                                             purchase of an additional 14.3 million of Treasury’s shares.631 Treasury reported
                                             that the shares would be offered at $25 per share for $2.375 billion in proceeds. In
                                             addition, Treasury granted a 30-day option to purchase the additional shares, which
                                             traded on the New York stock exchange.632
                                                 Ally had announced its IPO plans as early as March 31, 2011, by filing a
                                             Form S-1 Registration statement for an IPO with the Securities and Exchange
                                             Commission (“SEC”).633 The document includes a prospectus relating to the
                                             issuance of Ally Financial common stock.634 The prospectus also outlines certain
                                             aspects of Ally Financial’s business operations and risks facing the company.635
                                                 Ally Financial disclosed additional details about its IPO in several amended
                                             Form S-1 Registration statements filed over time with the SEC, the most recent on
                                             March 27, 2014.636

                                             Ally Financial Released from Mortgage Claims of Bankrupt Subsidiary
                                             On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                             Residential Capital, LLC (“ResCap”) filed for bankruptcy court relief under
                                             Chapter 11 of the U.S. Bankruptcy Code, and that it was exploring strategic
                                             alternatives for its international operations.637 As a result of the Chapter 11 filing,
                                             Ally Financial said that it deconsolidated ResCap from its financial statements
                                             and wrote down its equity interest in ResCap to zero.638 On June 26, 2013, the
                                             U.S. Bankruptcy Court approved Ally Financial’s proposed settlement to pay
                                             $2.1 billion to the ResCap estate for release from certain mortgage claims and
                                             liabilities.639 As part of the settlement, ResCap on June 13, 2013, fully repaid Ally
                                             Financial’s secured claim for $1.13 billion owed under existing credit facilities.640
                                             Ally Financial recorded a charge of about $1.6 billion in the second quarter of
                                             2013 related to the settlement, and said it would make its settlement payment
                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   301




to the ResCap estate when the reorganization plan became effective.641 The U.S.
Bankruptcy Court approved the ResCap reorganization plan on December 11,
2013, marking the court’s formal approval of broad releases for all mortgage-related
claims against Ally Financial. The plan became effective December 17, 2013.642

Ally Financial Agrees to Sell International, Other Assets
On November 21, 2012, Ally Financial announced it had reached agreements
to sell its remaining international assets over time for $9.2 billion in proceeds.
According to Ally Financial, that included the sale of most of its operations in
Europe and Latin America to GM Financial Company, Inc. (“GM Financial”), and
a 40% stake in a joint venture in China. From this, Ally Financial received $2.6
billion in total proceeds.643 In June, 2013, Ally Financial said it completed the sale
of its business in France, and on October 1, 2013, it said it completed the sale
of its Brazil operations to GM Financial for $611 million.644 Ally Financial also
has said it expects the sale of a joint venture stake in China to close in 2014.645
In addition, it sold its Canadian auto finance operation to Royal Bank of Canada
for $4.1 billion and its Mexican insurance business to ACE Group for $865
million, in sales completed on February 1, 2013, and May 2, 2013, respectively.646
Additionally, Ally Financial’s subsidiary, Ally Bank, announced in March 2013 that
it agreed to sell its entire agency mortgage servicing rights to Ocwen Financial
and Quicken Loans.647 Both sales were completed on April 17, 2013, according to
Ally Bank, which said it received a combined $850 million in proceeds from the
transactions.648 Table 4.54 summarizes Ally Financial’s international and domestic
asset sales.

TABLE 4.54
 ALLY FINANCIAL - 2013 ASSET SALES                              ($ MILLIONS)

                               Sale Proceeds                    Buyer        Sale Closed
 Ally Credit Canada,                                     Royal Bank of
                                           $4,100                                   2/1/13
 ResMor Trust                                                  Canada
 Ally Bank                                                     Walter
 wholesale                                      N/A       Investment              2/28/13
 mortgage unit                                           Management
 Units in Latin
 America, Europe,                          $2,600         GM Financial             4/2/13a
 China
 Ally Bank                                                      Ocwen
 mortgage                                    $850            Financial,           4/17/13
 servicing                                              Quicken Loans
 ABA Seguros
                                             $865          ACE Group                5/2/13
 Insurance
 Brazilian
                                             $611         GM Financial            10/1/13
 operations
 Total Proceeds:                          $9,026                                             
 Notes: Numbers may not total due to rounding.
 a
   The closing on 4/2/2013 did not include China assets, which are expected to close in 2014.

 Sources: Ally Financial SEC filings, press releases.
302   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Chrysler
                                             Taxpayers suffered a $2.9 billion loss on the TARP investment in Chrysler. Through
                                             October 3, 2010, Treasury made approximately $12.5 billion available to Chrysler:
                                             $4 billion before bankruptcy to CGI Holding LLC, parent of Chrysler and Chrysler
                                             Financial; $1.9 billion in financing to Chrysler during bankruptcy; and $6.6 billion
                                             to Chrysler afterwards, in exchange for 10% of Chrysler common equity.649
                                                 In 2010, following the bankruptcy court’s approval of Chrysler’s liquidation
                                             plan, the $1.9 billion loan was extinguished without repayment.650 As of September
                                             30, 2014, Treasury had recovered approximately $57.4 million from asset sales
                                             during bankruptcy.651 Of the $4 billion lent to Chrysler’s parent company, CGI
                                             Holding LLC, $500 million of the debt was assumed by Chrysler while the
                                             remaining $3.5 billion was held by CGI Holding LLC.652 Treasury later accepted
                                             $1.9 billion in full satisfaction of the $3.5 billion loan.653
                                                 In spring 2011, Chrysler used the proceeds from a series of refinancing
                                             transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
                                             to repay the loans from Treasury.654
                                                 In mid-2011, Treasury sold to Fiat for $500 million Treasury’s remaining equity
                                             ownership interest in Chrysler. Treasury also sold to Fiat for $60 million Treasury’s
                                             rights to receive proceeds under an agreement with the United Auto Workers
                                             (“UAW”) retiree trust pertaining to the trust’s shares in Chrysler.655
                                                 As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
                                             in interest payments to Treasury under AIFP.656

                                             Chrysler Financial
                                             Chrysler Financial fully repaid the TARP investment, which included a Treasury
                                             loan of $1.5 billion to support Chrysler Financial’s retail lending in January
                                             2009. On July 14, 2009, Chrysler Financial fully repaid the loan in addition to
                                             approximately $7.4 million in interest payments.657 Additionally, on May 14, 2010,
                                             Treasury accepted $1.9 billion in full satisfaction of a $3.5 billion loan to CGI
                                             Holding LLC, relinquishing any claim on Chrysler Financial.658 On December
                                             21, 2010, TD Bank Group agreed to purchase Chrysler Financial from Cerberus,
                                             the owner of CGI Holding LLC, for approximately $6.3 billion completing its
                                             acquisition on April 1, 2011.659

                                             Auto Supplier Support Program (“ASSP”) and Auto Warranty
                                             Commitment Program (“AWCP”)
                                             On March 19, 2009, Treasury committed $5 billion to ASSP to “help stabilize the
                                             automotive supply base and restore credit flows,” with loans to GM ($290 million)
                                             and Chrysler ($123.1 million) fully repaid in April 2010.660
                                                AWCP guaranteed Chrysler and GM vehicle warranties during the companies’
                                             bankruptcy, with Treasury obligating $640.8 million — $360.6 million for GM and
                                             $280.1 million for Chrysler, both fully repaid to Treasury.661
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014              303




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
by providing eligible borrowers $71.1 billion in non-recourse loans through the               Non-Recourse Loan: Secured loan
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                    in which the borrower is relieved of
ABS and commercial mortgage-backed securities (“CMBS”).662 Treasury initially                 the obligation to repay the loan upon
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from              surrendering the collateral.
any TALF loans that defaulted.663 As of February 6, 2013, all TARP funding for
TALF was either deobligated or recovered.664 Of the $71.1 billion in TALF loans,              Collateral: Asset pledged by a
none have defaulted and $14.3 million remained outstanding as of September 30,                borrower to a lender until a loan is
2014.665                                                                                      repaid. Generally, if the borrower
    PPIP used nine Public-Private Investment Fund (“PPIF”) managers and a                     defaults on the loan, the lender gains
combination of TARP and private equity funding to help financial institutions                 ownership of the pledged asset and
trade in their legacy mortgage-backed securities (“MBS”). One PPIP manager,                   may sell it to satisfy the debt. In TALF,
The TCW Group, Inc. (“TCW”), withdrew soon after the program began. A total                   the ABS or CMBS purchased with
of $18.6 billion in TARP funding was drawn down and fully repaid by PPIP                      the TALF loan is the collateral that is
fund managers.666 As of September 30, 2014, the entire PPIP portfolio had been                posted with FRBNY.
liquidated, and seven PPIP funds were legally dissolved while the last remaining
fund was winding down operations.667
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.668 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.669

TALF
TALF, which was announced in November 2008, issued $71.1 billion in loans
collateralized by eligible ABS.670 According to FRBNY, TALF was “designed to
increase credit availability and support economic activity by facilitating renewed
issuance of consumer and business ABS.”671 TALF is divided into two parts:672

•	 a lending program, TALF, in which FRBNY originated and managed 3-5 year
   non-recourse loans to eligible borrowers using eligible ABS and CMBS as
   collateral. TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, to which Treasury provided $100
   million in TARP funds (all of which was subsequently recovered) to purchase
   collateral from FRBNY if borrowers chose to surrender it and walk away from
   their loans or if the collateral is seized in the event of default.

   The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
operation until final TALF loans mature on October 29, 2014.673 TALF loans are
304            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For a discussion of the credit rating           non-recourse (unless the borrower has made any misrepresentations or breaches
      agency industry and an analysis of              warranties or covenants), which means that FRBNY cannot hold the borrower
      the impact of nationally recognized             liable for any losses beyond the surrender of collateral for the TALF loan.674
      statistical rating organizations on TARP             As of September 30, 2014, $14.3 million in TALF loans was outstanding.675
      and the overall financial market, see
                                                      According to FRBNY, no TALF borrowers have surrendered collateral in lieu of
      SIGTARP’s October 2009 Quarterly
                                                      repayment and consequently no collateral has been purchased by TALF LLC since
      Report, pages 113–148.
                                                      its inception.676

                                                      Lending Program
      Haircut: Difference between the value           TALF provided a total of $71.1 billion in loans through FRBNY. FRBNY lent
      of the collateral and the value of the          each borrower the amount of the market price of the pledged collateral minus the
      loan (the loan value is less than the           haircut, subject to certain limitations.677 A haircut, which represents the amount of
      collateral value).                              money put up by the borrower (the borrower’s “skin in the game”), was required for
                                                      each TALF loan.678
      “Skin in the Game”: Equity stake in an             TALF provided $59 billion of loans to purchase non-mortgage-backed ABS.
      investment; down payment; the amount            As of September 30, 2014, there were no ABS outstanding.679 Table 4.55 lists all
      an investor can lose.                           TALF loans collateralized by non-mortgage-backed ABS loans, by ABS sector.

                                                      TABLE 4.55
                                                       TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
                                                       ($ BILLIONS)

                                                       ABS Sector
                                                       Auto Loans                                                                                                             $12.8
                                                       Credit Card Receivables                                                                                                  26.3
                                                       Equipment Loans                                                                                                           1.6
                                                       Floor Plan Loans                                                                                                          3.9
                                                       Premium Finance                                                                                                           2.0
                                                       Servicing Advance Receivables                                                                                             1.3
                                                       Small-Business Loans                                                                                                      2.2
                                                       Student Loans                                                                                                             8.9
                                                       Total ABS                                                                                                             $59.0
                                                       Notes: Numbers may not total due to rounding. Data as of 9/30/2014.

                                                       Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                                       html, accessed 10/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/
                                                       markets/TALF_recent_operations.html, accessed 10/1/2014.



                                                         TALF also provided $12.1 billion of loans to purchase CMBS. Approximately
                                                      99% of which ($12 billion) was used to purchase legacy CMBS, the remaining 1%
                                                      ($100 million) was used to purchase newly issued CMBS.680 As of September 30,
                                                      2014, $14.3 million was outstanding.681
                                                         As of September 30, 2014, $71.1 billion in TALF loans had been repaid.
                                                      According to FRBNY, the outstanding collateral on the remaining $14.3 million in
                                                      TALF loans was performing as expected.682
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             305




Asset Disposition Facility                                                                 For detailed descriptions of the TALF
Through September 30, 2014, Treasury has received a total of $13 million in                Lending Program and TALF Asset
interest from the Asset Disposition Facility.683 During the remaining two years of         Disposition Facility, see SIGTARP’s July
                                                                                           2014 Quarterly Report, pages 258–261.
the program, any interest, fees, and gains collected above the remaining principal
on outstanding TALF loans will be shared by Treasury (90%) and FRBNY (10%).684
As of September 30, 2014, Treasury had received $631.9 million in additional
gains and FRBNY had received $70.2 million.685
306             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Public-Private Investment Program
      Legacy Securities: Real estate-related           According to Treasury, the purpose of the Public-Private Investment Program
      securities originally issued before              (“PPIP”) was to purchase legacy securities from banks, insurance companies,
      2009 that remained on the balance                mutual funds, pension funds, and other eligible financial institutions as defined
      sheets of financial institutions because         in EESA, through Public-Private Investment Funds (“PPIFs”).686 PPIFs were
      of pricing difficulties that resulted from       partnerships, formed specifically for this program, that invested in mortgage-backed
      market disruption.                               securities using equity capital from private-sector investors combined with TARP
                                                       equity and debt. A private-sector fund management firm oversaw each PPIF on
      Equity: Investment that represents an            behalf of investors. According to Treasury, the aim of PPIP was to “restart the
      ownership interest in a business.                market for legacy securities, allowing banks and other financial institutions to free
                                                       up capital and stimulate the extension of new credit.”687
      Debt: Investment in a business that                  Treasury selected nine fund management firms to establish PPIFs. One PPIP
      is required to be paid back to the               manager, TCW, subsequently withdrew. As of September 30, 2014, the entire
      investor, usually with interest.                 PPIP portfolio had been liquidated, and seven PPIP funds were legally dissolved
                                                       while the other one was winding down operations. Private investors and Treasury
                                                       co-invested in the PPIFs to purchase legacy securities from financial institutions.
      For more information on the selection of         The fund managers raised private-sector capital. Treasury matched the private-
      PPIP managers, see SIGTARP’s October             sector equity dollar-for-dollar and provided debt financing in the amount of the
      7, 2010, audit report entitled “Selecting        total combined equity. Each PPIP manager was also required to invest at least $20
      Fund Managers for the Legacy                     million of its own money in the PPIF.688 Each PPIF was approximately 75% TARP
      Securities Public-Private Investment             funded.
      Program.”                                            Under the program, Treasury, the PPIP managers, and the private investors
                                                       shared PPIF profits and losses on a pro rata basis based on their limited partnership
      For more information on the withdrawal           interests. Treasury also received warrants in each PPIF that gave Treasury the
      of TCW as a PPIP manager, see                    right to receive an extra portion of the fund’s final profits that would otherwise be
      SIGTARP’s January 2010 Quarterly
                                                       distributed to the private investors.689
      Report, page 88.
                                                           The PPIP portfolio consisted of eligible securities and cash assets. The
                                                       securities eligible for purchase by PPIFs (“eligible assets”) were non-agency
                                                       residential mortgage-backed securities (“non-agency RMBS”) and commercial
                                                       mortgage-backed securities (“CMBS”) that also met the following criteria: issued
                                                       before January 1, 2009 (legacy); rated when issued AAA or equivalent by two or
                                                       more credit rating agencies designated as nationally recognized statistical rating
                                                       organizations (“NRSROs”); secured directly by actual mortgages, leases, or other
                                                       assets, not other securities (other than certain swap positions, as determined by
                                                       Treasury); and located primarily in the United States (the loans and other assets


      Pro Rata: Refers to dividing something          Limited Partnership: Partnership in which     Non-Agency Residential Mortgage-
      among a group of participants according         there is at least one partner whose           Backed Securities (“non-agency RMBS”):
      to the proportionate share that each            liability is limited to the amount invested   Financial instrument backed by a group
      participant holds as a part of the whole.       (limited partner) and at least one partner    of residential real estate mortgages (i.e.,
                                                      whose liability extends beyond monetary       home mortgages for residences with up
                                                      investment (general partner).                 to four dwelling units) not guaranteed
                                                                                                    or owned by a Government-sponsored
                                                                                                    enterprise (“GSE”), or a Government
                                                                                                    agency.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   307




that secure the non-agency RMBS and CMBS); and purchased from financial
institutions eligible for TARP participation.690

PPIP Process
Funds chosen to participate in PPIP raised private capital, which Treasury
matched on a three to one basis (one part equity and two parts debt) up to a
preset maximum set by Treasury. To obtain obligated funds, PPIP managers sent a
notice to Treasury and the private investors requesting a “draw down” of portions
of obligated contributions in order to purchase specific investments or to pay
certain expenses and debts of the partnerships.691 After obtaining the funds, PPIP
managers were required to provide monthly portfolio reports to Treasury and other
investors.692

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar
obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
power. PPIF fund-raising was completed in December 2009. After the capital-
raising stage, Treasury obligated a total of $22.4 billion in a combination of
matching equity funds and debt financing for PPIP, which included funds for
TCW, which subsequently withdrew from the program. Table 4.56 shows equity
and debt committed by Treasury for the eight PPIFs that actively participated in
the program.
308   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                              TABLE 4.56
                               PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER                                                                 ($ BILLIONS)

                                                                                                                                                       Total
                                                                              Private-Sector              Treasury             Treasury          Purchasing          Purchasing
                               Manager                                                Equity                Equity                 Debt              Powera          Power Used
                               AG GECC PPIF Master Fund, L.P.                                $1.2               $1.2                  $2.5                 $5.0                  90%
                               AllianceBernstein Legacy
                                                                                               1.2                1.2                  2.3                   4.6                 92%
                               Securities Master Fund, L.P.
                               BlackRock PPIF, L.P.                                            0.7                0.7                  1.4                   2.8                 76%
                               Invesco Legacy Securities Master
                                                                                               0.9                0.9                  1.7                   3.4                 68%
                               Fund, L.P.
                               Marathon Legacy Securities
                               Public-Private Investment                                       0.5                0.5                  0.9                   1.9               100%
                               Partnership, L.P.
                               Oaktree PPIP Fund, L.P.                                         1.2                1.2                  2.3                   4.6                 48%
                               RLJ Western Asset Public/Private
                                                                                               0.6                0.6                  1.2                   2.5               100%
                               Master Fund, L.P.
                               Wellington Management Legacy
                                                                                               1.1                1.1                  2.3                   4.6               100%
                               Securities PPIF Master Fund, LP
                               Totals for Fundsb                                            $7.4                $7.4               $14.7                $29.4                   83%
                               Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. One fund was winding down operations and had not
                               been legally dissolved as of September 30, 2014: AG GECC.
                               a
                                 Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
                               b
                                 TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the
                                  total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

                               Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/6/2014.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   309




   The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.693 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”694 The investment
periods for all PPIFs expired in 2012.695
   Subsequently, fund managers had up to five years ending in 2017 to manage
and sell off the fund’s investment portfolio and return proceeds to taxpayers and
investors, with the ability to extend that period under certain circumstances.696
However, by June 30, 2013, all PPIP managers had liquidated their portfolios.

Amounts Drawn Down
The eight PPIP managers drew down a total of approximately $24.4 billion to buy
legacy securities during their investment periods, spending $6.1 billion in private-
sector equity capital and $18.3 billion in TARP equity and debt funding.697 The
last fund’s investment period ended in December 2012.698 Treasury also disbursed
$356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
from the program.699
    As a group, the funds drew down and spent about 83% of the total money
available to them to invest in legacy real estate-backed securities.700 All unused
TARP debt financing has been deobligated by Treasury.701 Unused TARP equity
financing is deobligated when each fund is legally dissolved.

PPIP Fund Repayments and Liquidations
Throughout the program, PPIP managers were required to make TARP payments
to Treasury for debt principal, debt interest, and equity capital. Under the program,
the PPIP funds also shared profits from the investments with Treasury. All PPIFs
have fully repaid their TARP debt and equity financing.702 The nine PPIFs together
had repaid $12.4 billion in TARP debt and $6.3 billion in TARP equity, including
payments by TCW, as of September 30, 2014.
    The PPIP managers wound down their portfolios as follows:

•	 In June 2013, Oaktree liquidated its remaining PPIP investments.703 According
   to Treasury, Oaktree fully repaid Treasury’s equity investment of $555.9 million
   and Treasury debt of $1.1 billion, with interest. On December 31, 2013,
   Oaktree filed a formal certificate with the state of Delaware declaring that its
   PPIF had been dissolved.704
•	 In June 2013, Marathon liquidated its remaining PPIP investments.705
   According to Treasury, Marathon fully repaid Treasury’s equity investment of
   $474.6 million and Treasury debt of $949 million, with interest. On June 10,
   2014, Marathon filed a formal certificate with the state of Delaware declaring
   that its PPIF had been dissolved.706
•	 In May 2013, AG GECC liquidated its remaining PPIP investments.707
   According to Treasury, AG GECC fully repaid Treasury’s equity investment of
   $1.1 billion and Treasury debt of $2.2 billion, with interest. As of September
310   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  30, 2014, AG GECC’s PPIF had approximately $0 in cash to pay for wind-down
                                                  expenses.708
                                             •	   In February 2013, Wellington liquidated its remaining PPIP investments.709
                                                  According to Treasury, Wellington fully repaid Treasury’s equity investment of
                                                  $1.1 billion and Treasury debt of $2.3 billion, with interest. On July 25, 2013,
                                                  Wellington filed a formal certificate with the state of Delaware declaring that its
                                                  PPIF had been dissolved.710
                                             •	   In November 2012, BlackRock liquidated its remaining PPIP investments.711
                                                  According to Treasury, BlackRock fully repaid Treasury’s equity investment of
                                                  $528.2 million and Treasury debt of $1.1 billion, with interest.712 On December
                                                  20, 2013, BlackRock filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.713
                                             •	   In September 2012, AllianceBernstein liquidated its remaining PPIP
                                                  investments.714 According to Treasury, AllianceBernstein fully repaid Treasury’s
                                                  equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with
                                                  interest.715 On August 23, 2013, AllianceBernstein filed a formal certificate with
                                                  the state of Delaware declaring that its PPIF had been dissolved.716
                                             •	   In October 2012, RLJ Western liquidated its remaining PPIP investments.717
                                                  According to Treasury, RLJ Western fully repaid Treasury’s equity investment of
                                                  $620.6 million and Treasury debt of $1.2 billion, with interest.718 On December
                                                  31, 2012, RLJ Western filed a formal certificate with the state of Delaware
                                                  declaring that its PPIF had been dissolved.719
                                             •	   Invesco was the first of the PPIP funds to sell its portfolio, liquidating it in
                                                  March 2012.720 According to Treasury, Invesco fully repaid Treasury’s equity
                                                  investment of $581 million and Treasury debt of $1.2 billion, with interest.721
                                                  On October 3, 2012, Invesco filed a formal certificate with the state of
                                                  Delaware declaring that its PPIF had been dissolved.722

                                                 In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
                                             managers paid a total of $3.5 billion in gross income payments and capital gains
                                             to the Government through September 30, 2014, as well as $87 million in
                                             warrant proceeds.723 Table 4.57 shows each fund’s payments to Treasury through
                                             September 30, 2014.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   311




TABLE 4.57
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 9/30/2014                                                         ($ MILLIONS)

                                                                                                                                   Gross
                                                                                                                                 Income
                                                                      Debt                 Debt              Equity           Payments               Equity
                                                                  Principal             Interest            Capital          and Capital            Warrant
 Manager                                                         Payments             Payments           Paymentsa                 Gains          Paymentsb
 AG GECC PPIF Master Fund, L.P.                                      $2,235                    $66             $1,117                 $778                  $19
 AllianceBernstein Legacy Securities
                                                                       2,128                     58              1,064                  481                   12
 Master Fund, L.P.
 BlackRock PPIF, L.P.                                                  1,053                     34                528                  395                   10
 Invesco Legacy Securities Master Fund,
                                                                       1,162                     18                581                  139                     3
 L.P.
 Marathon Legacy Securities Public-Private
                                                                          949                    28                475                  364                     9
 Investment Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                               1,111                     17                556                  232                     6
 RLJ Western Asset Public/Private Master
                                                                       1,241                     37                621                  421                   11
 Fund, L.P.
 UST/TCW Senior Mortgage Securities
                                                                          200                   0.3                156                    20                 0.5
 Fund, L.P.
 Wellington Management Legacy Securities
                                                                       2,299                     61              1,149                  651                   16
 PPIF Master Fund, LP
 Totals for All Funds                                              $12,378                  $320              $6,247               $3,481                   $87
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. One fund was winding down operations and had not
 been legally dissolved as of September 30, 2014: AG GECC.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
    the private partners in excess of their contributed capital.

 Sources: Treasury, Transactions Report, 9/30/2014; Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Dividends and Interest Report,
 10/10/2014.
312           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For information on the securities              Securities Purchased by PPIFs
      purchased by PPIFs, see SIGTARP’s              According to their agreements with Treasury, PPIP managers invested in both
      April 2014 Quarterly Report, pages             RMBS and CMBS, except for Oaktree, which invested only in CMBS.724 Figure
      237-244.
                                                     4.42 shows the collective value of securities held by all PPIFs at the end of each
                                                     calendar quarter from the beginning of the funds’ investment period, until all
                                                     securities were sold in the quarter ended June 30, 2013, broken down by RMBS
                                                     and CMBS.

                                                     FIGURE 4.42

                                                     INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
                                                     25



                                                     20



                                                     15



                                                     10



                                                      5



                                                      0
                                                          Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


                                                             Commercial Mortgage-Backed Securities Investments
                                                             Residential Mortgage-Backed Securities Investments

                                                          Notes: Numbers may not total due to rounding.

                                                          Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
                                                          March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
                                                          March 2013, and June 2013.


                                                         PPIF investments were classified by underlying asset type. All non-agency
                                                     RMBS investments were considered residential because the underlying assets were
                                                     mortgages for residences with up to four dwelling units. For CMBS, the assets were
                                                     commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                                     as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                                     or residential uses), and self-storage. Over the course of the program, the portfolio
                                                     held large concentrations of office and retail. Figure 4.43 breaks down CMBS
                                                     investment distribution by sector from December 31, 2009, through June 30,
                                                     2013.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   313




FIGURE 4.43

AGGREGATE CMBS SECTOR HOLDINGS BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Office                  Multifamily             Lodging/Hotel
        Retail                  Industrial              Other

     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Non-agency RMBS and CMBS were classified by the degree of estimated
default risk (sometimes referred to as “quality”). In general, the highest-quality
rankings went to mortgages with the strictest requirements regarding borrower
credit, completeness of documentation, and underwriting standards. Treasury
characterized the investment-quality levels of risk for the types of mortgage loans
that support non-agency RMBS as follows:725

•	 Prime — mortgage loan made to a borrower with good credit that generally met
   the lender’s strictest underwriting criteria.
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
   documentation or other characteristics that do not meet the standards for prime
   loans.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gave the borrower choices about how much interest and principal to pay each
   month, which could result in an increasing loan principal balance over time.
•	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
   subprime, or option ARM but met the definition of “eligible assets” above.

   Treasury characterized CMBS according to the bond’s degree of “credit
enhancement,” i.e., the percentage of the underlying mortgage pool by balance that
must be written down before the bond had any losses.726
314   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                securitization with the highest level of credit enhancement.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.727
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
                                                at issuance.
                                             •	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
                                                AM, or AJ but met the definition of “eligible assets” above.

                                                Figure 4.44 and Figure 4.45 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels from December 31,
                                             2009, through June 30, 2013, by market value, as reported by PPIP managers.

                                             FIGURE 4.44

                                             AGGREGATE RMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Prime                   Subprime                      Other – RMBS
                                                     Alt-A                   Option Arm

                                                  Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   315




FIGURE 4.45

AGGREGATE CMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

 6

 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Super Senior            AM          AJ         Other – CMBS


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Figures 4.46 and 4.47 show the distribution of non-agency RMBS and CMBS
investments held in PPIP by respective risk levels from December 31, 2009,
through June 30, 2013, as a percentage of market value, as reported by PPIP
managers.
316   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 4.46

                                             AGGREGATE RMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%



                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Prime                   Subprime                      Other – RMBS
                                                       Alt-A                   Option Arm

                                                    Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                             FIGURE 4.47

                                             AGGREGATE CMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

                                             100%



                                              80%



                                              60%



                                              40%


                                              20%



                                               0%
                                                    Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                       Super Senior            AJ
                                                       AM                      Other – CMBS

                                                    Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                    * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                      the best information available. Estimates do not have a material effect on the presentations in this report.

                                                    Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   317




   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figures 4.48 and 4.49 show
the states with the greatest representation in the underlying non-agency RMBS and
CMBS investments in PPIFs, as reported by PPIP managers from December 31,
2009, through June 30, 2013.

FIGURE 4.48

AGGREGATE RMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        California              New York                       Other
        Florida                 Virginia/New Jersey

     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers. Virginia
     ranked fourth from Q4 2009 – Q2 2012 and was replaced by New Jersey from Q3 2012 forward.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
318   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 4.49

                                             AGGREGATE CMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     California              Texas                    Other
                                                     New York                Florida

                                                  Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                                Non-agency RMBS and CMBS can be classified by the delinquency of the
                                             underlying mortgages. Figures 4.50 and 4.51 show the distribution of non-agency
                                             RMBS and CMBS investments held in PPIP by delinquency levels, as reported by
                                             PPIP managers from December 31, 2009, through June 30, 2013.
                                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   319




FIGURE 4.50

AGGREGATE AVERAGE RMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)
20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


FIGURE 4.51

AGGREGATE AVERAGE CMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Current                 30-59 Days                    60+ Days


     Notes: Numbers may not total due to rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
320            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.728
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      guaranteed loans.
                                                      March 2, 2010, and August 27, 2010, respectively.729 Under the governing agree-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      SBA Pool Certificates: Ownership
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
      interest in a bond backed by SBA-
                                                      ties that Treasury was the buyer.730 From March 19, 2010, to September 28, 2010,
      guaranteed loans.
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
                                                      Shay Financial for a total of approximately $368.1 million.731
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
      For more information on SBA 7(a)                SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.732
      Loan Program mechanics and                      According to Treasury, over the life of the program Treasury also had received
      TARP support for the program, see               $29 million and $13.3 million in amortizing principal and interest payments,
      SIGTARP’s April 2010 Quarterly
                                                      respectively.733
      Report, pages 105-106.

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page
      134.
             TARP OPERATIONS AND
SECT ION 5
             ADMINISTRATION
322   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   323




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.734 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.735 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM OPERATING
EXPENDITURES
As of September 30, 2014, Treasury has obligated $420 million for TARP
administrative costs and $1.1 billion in programmatic operating expenditures for
a total of $1.6 billion since the beginning of TARP. Of that, $176.4 million has
been obligated in the year since September 30, 2013. According to Treasury, as of
September 30, 2014, it had spent $381.5 million on TARP administrative costs
and $1.1 billion on programmatic operating expenditures, for a total of $1.5 billion
since the beginning of TARP. Of that, $185 million has been spent in the year since
September 30, 2013.736
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of September 30, 2014,
it employs 33 career civil servants, 52 term appointees, and 22 reimbursable
detailees, for a total of 107 full-time employees.737 Between TARP’s inception in
2008 and September 30, 2014, Treasury had retained 156 private vendors — 21
financial agents and 135 contractors — to help administer TARP.738 According to
Treasury, as of September 30, 2014, 51 private vendors were active — 8 financial
agents and 43 contractors, some with multiple contracts.739 The number of private-
sector staffers who provide services under these agreements dwarfs the number of
people working for OFS. According to Fannie Mae and Freddie Mac, as of June
30, 2014, together they had about 514 people dedicated to working on their TARP
contracts.740 According to Treasury, as of June 30, 2014, or September 30, 2014
— the latest numbers available vary due to reporting cycles — at least another 184
people were working on other active OFS contracts, including financial agent and
legal services contracts, for a total of approximately 698 private-sector employees
working on TARP.741
    Table 5.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through September 30, 2014.
The administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 5.2 provides a summary of OFS service contracts, which include
costs to hire financial agents and contractors, and obligations through September
324   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             30, 2014, excluding costs and obligations related to personnel services, travel, and
                                             transportation.

                                             TABLE 5.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                         Ending 9/30/2014         Ending 9/30/2014
                                              Administrative                                                                                                                        
                                                  Personnel Services                                                                                                                
                                                      Personnel Compensation & Benefits                                   $134,361,417                          $134,361,417
                                                  Total Personnel Services                                              $134,361,417                           $134,361,417
                                               
                                                  Non-Personnel Services
                                                      Travel & Transportation of Persons                                      $2,519,071                            $2,511,120
                                                      Transportation of Things                                                      11,960                                 11,960
                                                      Rents, Communications, Utilities &
                                                                                                                                  715,716                                715,716
                                                      Misc. Charges
                                                      Printing & Reproduction                                                            459                                   459
                                                      Other Services                                                        280,048,256                           241,815,852
                                                      Supplies & Materials                                                     2,105,886                              1,881,701
                                                      Equipment                                                                   246,603                                246,603
                                                      Land & Structures                                                                    —                                      —
                                                      Investments & Loans                                                                  —                                      —
                                                      Grants, Subsidies & Contributions                                                    —                                      —
                                                      Insurance Claims & Indemnities                                                       —                                      —
                                                      Dividends and Interest                                                             634                                   634
                                                  Total Non-Personnel Services                                          $285,648,586                           $247,184,045
                                              Total Administrative                                                      $420,010,003                           $381,545,462
                                              Programmatic                                                           $1,145,237,547                         $1,092,291,489
                                              Total Administrative and Programmatic                                  $1,565,247,550                         $1,473,836,951
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, response to SIGTARP data call, 10/10/2014.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.742 Treasury hired no new
                                             financial agents in the quarter ended September 30, 2014.743
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             325




TABLE 5.2

 OFS SERVICE CONTRACTS
                                                                                 Type of
 Date         Vendor                           Purpose                           Transaction          Obligated Value        Expended Value
              Simpson Thacher & Bartlett       Legal services for the
 10/9/2008                                                                       Contract                   $931,090                $931,090
              MNP LLP                          implementation of TARP
                                               Investment and Advisory
 10/10/2008   Ennis Knupp & Associates Inc.1                                     Contract                   2,635,827              2,635,827
                                               Services
              The Bank of New York Mellon                                        Financial
 10/14/2008                                    Custodian                                                   59,496,769             57,687,935
              Corporation                                                        Agent
 10/15/2008   PricewaterhouseCoopers, LLP      Internal control services         Contract                  34,980,857             33,505,992
                                               For process mapping consultant    Interagency
 10/16/2008   Turner Consulting Group, Inc.2                                                                    9,000                        —
                                               services                          Agreement
 10/17/2008   Ernst & Young LLP                Accounting Services               Contract                  13,640,626             13,640,626
                                               Legal services for the Capital
 10/28/2008   Hughes Hubbard & Reed LLP                                          Contract                   2,835,357              2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/28/2008   Squire Sanders & Dempsey LLP                                       Contract                   2,687,999              2,687,999
                                               Purchase Program
 10/30/2008   Lindholm & Associates, Inc.      Human resources services          Contract                     614,963                   614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/6/2008                                                                       Contract                   2,702,441              2,702,441
              LLP4                             industry loans
                                                                                 Interagency
 11/8/2008    Internal Revenue Service         Detailees                                                       97,239                    97,239
                                                                                 Agreement
                                                                                 Interagency
 11/16/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                     8,095                     8,095
                                                                                 Agreement
              Department of the Treasury —                                       Interagency
 11/24/2008                                    Administrative Support                                      16,131,121             16,131,121
              Departmental Offices                                               Agreement
              Trade and Tax Bureau —           IAA — TTB Development, Mgmt       Interagency
 12/2/2008                                                                                                     67,489                    67,489
              Treasury                         & Operation of SharePoint         Agreement
                                                                                 Interagency
 12/4/2008    Washington Post3                 Subscription                                                       395                        —
                                                                                 Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase
 12/9/2008                                                                       Contract                     102,769                   102,769
              LLP4                             of asset-backed securities
                                               Admin action to correct system
 12/9/2008    Thacher Proffitt & Wood4                                           Contract                          —                         —
                                               issue
                                                                                 Interagency
 12/14/2008   Office of Thrift Supervision     Detailees                                                      164,823                   164,823
                                                                                 Agreement
              Department of Housing and                                          Interagency
 12/15/2008                                    Detailees                                                           —                         —
              Urban Development                                                  Agreement
                                                                                 Interagency
 12/21/2008   Office of Thrift Supervision     Detailees                                                           —                         —
                                                                                 Agreement
              Cushman and Wakefield of VA      Painting Services for TARP
 12/23/2008                                                                      Contract                       8,841                     8,841
              Inc.                             Offices
              Securities and Exchange                                            Interagency
 1/5/2009                                      Detailees                                                       30,416                    30,416
              Commission                                                         Agreement
 1/6/2009     Colonial Parking Inc.            Lease of parking spaces           Contract                     275,217                   244,017
                                                                                                                        Continued on next page
326          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                            Type of
      Date         Vendor                              Purpose                              Transaction   Obligated Value        Expended Value
                   Cadwalader Wickersham & Taft
      1/26/2009                                        Bankruptcy Legal Services            Contract            $409,955                $409,955
                   LLP
                   Whitaker Brothers Bus
      1/26/2009                                        Paper Shredder                       Contract              $3,213                  $3,213
                   Machines Inc.
                   Office of the Comptroller of the                                         Interagency
      1/29/2009                                        Detailees                                                 501,118                 501,118
                   Currency                                                                 Agreement
                                                       IAA — GAO required by P.L. 110-
                   Government Accountability                                                Interagency
      2/1/2009                                         343 to conduct certain activities                       7,459,049               7,459,049
                   Office                                                                   Agreement
                                                       related to TARP IAA
                                                                                            Interagency
      2/2/2009     Internal Revenue Service2           Detailees                                                 242,499                 242,499
                                                                                            Agreement
                                                       Temporary Services for
                                                       Document Production, FOIA
      2/8/2009     Pat Taylor & Associates, Inc.                                            Contract             692,108                 692,108
                                                       assistance, and Program
                                                       Support
                                                       Initiate Interim Legal Services in
                   Locke Lord Bissell & Liddell
      2/11/2009                                        support of Treasury Investments      Contract             272,225                 272,225
                   LLP
                                                       under EESA
                                                       Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                                474,252,873             464,695,766
                                                       Program                              Agent
                                                       Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                               329,447,320             320,903,691
                                                       Program                              Agent
                                                                                            Interagency
      2/19/2009    Financial Clerk U.S. Senate         Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                            Agreement
                                                                                            Interagency
      2/19/2009    Office of Thrift Supervision        Detailees                                                 189,533                 189,533
                                                                                            Agreement
                   Simpson Thacher & Bartlett
      2/19/2009                                        Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   MNP LLP
                                                       Capital Assistance Program (II)
      2/19/2009    Venable LLP                                                              Contract           1,394,724               1,394,724
                                                       Legal Services
                   Securities and Exchange                                                  Interagency
      2/25/2009                                        Detailees                                                  18,531                  18,531
                   Commission                                                               Agreement
                   Pension Benefit Guaranty            Financial Advisory Services          Interagency
      2/26/2009                                                                                                7,750,000               7,750,000
                   Corporation                         Related to Auto Program              Agreement
                   The Boston Consulting Group         Management Consulting relating
      3/5/2009                                                                              Contract             991,169                 991,169
                   Inc.                                to the Auto industry
                                                       Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                            2,947,780               2,947,780
                                                       Program                              Agent
                                                       SBA Initiative Legal Services
      3/29/2009    Bingham McCutchen LLP5              — Contract Novated from TOFS-        Contract             273,006                 143,893
                                                       09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/29/2009                                        Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/29/2009    Haynes and Boone, LLP               Auto Investment Legal Services       Contract             345,746                 345,746
                                                       SBA Initiative Legal Services
                                                       — Contract Novated to
      3/29/2009    McKee Nelson LLP5                                                        Contract             149,349                 126,631
                                                       TOFS-10-D-0001 with Bingham
                                                       McCutchen LLP
                                                                                                                            Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             327




OFS SERVICE CONTRACTS                     (CONTINUED)

                                                                                  Type of
Date        Vendor                             Purpose                            Transaction          Obligated Value        Expended Value
            Sonnenschein Nath & Rosenthal
3/29/2009                                      Auto Investment Legal Services     Contract                  $1,834,193             $1,834,193
            LLP4
                                               Credit Reform Modeling and
3/30/2009   FI Consulting Inc.                                                    Contract                   4,867,118              4,071,602
                                               Analysis
                                                                                  Interagency
4/2/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                            35,190                    25,812
                                                                                  Agreement
            The Boston Consulting Group        Management Consulting relating
4/2/2009                                                                          Contract                   4,100,195              4,099,923
            Inc.                               to the Auto industry
            Bureau of Engraving and                                               Interagency
4/16/2009                                      Detailee for PTR Support                                         45,822                    45,822
            Printing                                                              Agreement
4/16/2009   Herman Miller Inc.                 Aeron Chairs                       Contract                      53,799                    53,799
                                                                                  Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                    51,457,781             50,188,970
                                                                                  Agent
                                                                                  Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                    27,438,003             27,438,003
                                                                                  Agent
            Piedmont Investment Advisors,                                         Financial
4/21/2009                                      Asset Management Services                                    12,896,927             12,896,927
            LLC                                                                   Agent
                                                                                  Interagency
4/29/2009   State Department                   Detailees                                                            —                         —
                                                                                  Agreement
                                                                                  Interagency
5/4/2009    Federal Reserve Board              Detailees                                                        48,422                    48,422
                                                                                  Agreement
            Department of the Treasury —       “Making Home Affordable” Logo      Interagency
5/12/2009                                                                                                          325                      325
            U.S. Mint                          search                             Agreement
                                               Executive Search and
5/14/2009   Knowledgebank Inc.2                recruiting Services — Chief        Contract                     124,340                   124,340
                                               Homeownership Officer
                                               Freedom of Information Act
                                               (FOIA) Analysts to support the
5/15/2009   Phacil Inc.                                                           Contract                      90,304                    90,304
                                               Disclosure Services, Privacy and
                                               Treasury Records
            Securities and Exchange            Support Services for Mark-to-      Interagency
5/19/2009                                                                                                      430,000                   430,000
            Commission                         market study and FinSOB            Agreement
                                                                                  Interagency
5/21/2009   Department of Justice — ATF        Detailees                                                       243,772                   243,772
                                                                                  Agreement
                                               Legal services for work under
5/25/2009   Anderson, McCoy & Orta             Treasury’s Public-Private          Contract                   2,286,996              2,286,996
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett
5/25/2009                                      Treasury’s Public-Private          Contract                   7,849,026              3,526,454
            MNP LLP
                                               Investment Funds (PPIF) program
            Financial Management Service       Development of an Information      Interagency
6/8/2009                                                                                                        89,436                    89,436
            (FMS)                              Management Plan (IMP)              Agreement
                                               Federal Consulting Group           Interagency
6/28/2009   Department of the Interior                                                                          49,000                    49,000
                                               (Foresee)                          Agreement
                                               Executive search services for
7/16/2009   Korn/Ferry International           the OFS Chief Investment Officer   Contract                      74,023                    74,023
                                               position
                                                                                                                         Continued on next page
328          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                          Type of
      Date         Vendor                              Purpose                            Transaction   Obligated Value        Expended Value
                   Cadwalader Wickersham & Taft
      7/29/2009                                        Restructuring Legal Services       Contract          $1,278,696              $1,278,696
                   LLP
      7/29/2009    Debevoise & Plimpton LLP            Restructuring Legal Services       Contract               1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/29/2009                                        Restructuring Legal Services       Contract              26,493                  26,493
                   Carol, LLP
                                                                                          Interagency
      8/9/2009     Department of Justice               Detailees                                                54,569                  54,679
                                                                                          Agreement
                   National Aeronautics and Space                                         Interagency
      8/9/2009                                         Detailees                                               140,889                 140,889
                   Administration (NASA)                                                  Agreement
                                                       Executive Compensation Data
      8/17/2009    Mercer (US) Inc.                                                       Contract               3,000                    3,000
                                                       Subscription
                                                                                          Interagency
      8/24/2009    Department of Justice               Detailees                                                63,248                  63,248
                                                                                          Agreement
      9/1/2009     Knowledge Mosaic Inc.               SEC filings subscription service   Contract               5,000                    5,000
                                                       Executive Compensation Data
      9/9/2009     Equilar, Inc.                                                          Contract              59,990                  59,990
                                                       Subscription
      9/10/2009    PricewaterhouseCoopers, LLP         PPIP compliance                    Contract           3,559,089               3,559,089
                                                                                          Interagency
      9/17/2009    Bureau of Public Debt (BPD)         Administrative Resource Center                          436,054                 436,054
                                                                                          Agreement
                                                                                          Interagency
      9/29/2009    Immixtechnology Inc.3               EnCase eDiscovery ProSuite                              210,184                       —
                                                                                          Agreement
                                                                                          Interagency
      9/29/2009    Immixtechnology Inc.3               Guidance Inc.                                            18,000                       —
                                                                                          Agreement
      9/29/2009    NNA INC.                            Newspaper Delivery                 Contract               8,220                    8,220
                                                       SNL Unlimited, a web-based
      9/29/2009    SNL Financial LC                                                       Contract             460,000                 460,000
                                                       financial analytics service
                   Department of the Treasury —                                           Interagency
      11/8/2009                                        Administrative Support                               18,239,373              17,772,584
                   Departmental Offices                                                   Agreement
                                                                                          Interagency
      12/15/2009   Internal Revenue Service            Detailees                                                    —                        —
                                                                                          Agreement
      12/21/2009   Hughes Hubbard & Reed LLP                                              Contract           1,653,289                 896,050
                                                                                          Financial
      12/22/2009   Avondale Investments, LLC           Asset Management Services                               772,657                 772,657
                                                                                          Agent
                                                                                          Financial
      12/22/2009   Bell Rock Capital, LLC              Asset Management Services                             2,815,292               2,815,292
                                                                                          Agent
                                                                                          Financial
      12/22/2009   KBW Asset Management, Inc.          Asset Management Services                             4,937,433               4,937,433
                                                                                          Agent
                   Lombardia Capital Partners,                                            Financial
      12/22/2009                                       Asset Management Services                             3,217,866               3,217,866
                   LLC                                                                    Agent
                   Paradigm Asset Management                                              Financial
      12/22/2009                                       Asset Management Services                             4,813,771               4,661,730
                   Co., LLC                                                               Agent
                   Raymond James (f/k/a Howe                                              Financial
      12/22/2009                                       Asset Management Services                             3,124,094               3,124,094
                   Barnes Hoefer & Arnett, Inc.)                                          Agent
                   Howe Barnes Hoefer & Arnett,                                           Financial
      12/23/2009                                       Asset Management Services                             3,124,094               3,124,094
                   Inc.                                                                   Agent
                                                                                                                          Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             329




OFS SERVICE CONTRACTS                     (CONTINUED)

                                                                                  Type of
Date        Vendor                            Purpose                             Transaction          Obligated Value        Expended Value
                                              IAA — GAO required by P.L.110-
            Government Accountability                                             Interagency
1/13/2010                                     343 to conduct certain activities                             $7,304,722             $7,304,722
            Office                                                                Agreement
                                              related to TARP
            Association of Government
1/14/2010                                     CEAR Program Application            Contract                       5,000                     5,000
            Accountants
                                                                                  Interagency
2/15/2010   Internal Revenue Service          Detailees                                                         52,742                    52,742
                                                                                  Agreement
                                              FNMA IR2 assessment — OFS
2/15/2010   The MITRE Corporation             task order on Treasury MITRE        Contract                     730,192                   730,192
                                              Contract
                                                                                  Interagency
2/17/2010   Bureau of Public Debt (BPD)       Administrative Resource Center                                 1,221,140              1,221,140
                                                                                  Agreement
3/7/2010    Qualx Corporation                 FOIA Support Services               Contract                     549,518                   549,518
            Department of the Treasury —                                          Interagency
3/11/2010                                     Administrative Support                                           671,731                   671,731
            Departmental Offices                                                  Agreement
            Financial Management Service                                          Interagency
3/21/2010                                     IT Executives signature license                                   73,750                    73,750
            (FMS)                                                                 Agreement
            Federal Maritime Commission                                           Interagency
3/25/2010                                     Detailees                                                        158,600                   158,600
            (FMC)                                                                 Agreement
            Morgan Stanley & Co.                                                  Financial
3/29/2010                                     Disposition Agent Services                                    16,685,290             16,685,290
            Incorporated                                                          Agent
                                                                                  Interagency
4/1/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                                  4,797,556              4,797,556
                                                                                  Agreement
4/7/2010    Squire Sanders & Dempsey LLP      Housing Legal Services              Contract                   1,229,350                   918,224
4/11/2010   Hewitt EnnisKnupp, Inc.  1
                                              Investment Consulting Services      Contract                   5,468,948              4,458,789
                                              Data and Document Management
4/21/2010   Digital Management Inc.                                               Contract                          —                         —
                                              Consulting Services
                                              Data and Document Management
4/21/2010   MicroLink LLC                                                         Contract                  17,260,533             15,783,325
                                              Consulting Services
                                              Data and Document Management
4/22/2010   RDA Corporation                                                       Contract                  10,297,246              9,124,852
                                              Consulting Services
                                                                                  Interagency
5/3/2010    Internal Revenue Service          Detailees                                                          1,320                     1,320
                                                                                  Agreement
                                                                                  Financial
5/17/2010   Lazard Fréres & Co. LLC           Transaction Structuring Services                              14,222,312             14,222,312
                                                                                  Agent
            Reed Elsevier Inc (dba            Accurint subscription service for
6/23/2010                                                                         Contract                       8,208                     8,208
            LexisNexis)                       one year — 4 users
                                              Financial Institution Management
            The George Washington
6/29/2010                                     & Modeling — Training course        Contract                       5,000                     5,000
            University
                                              (J.Talley)
                                              Program Compliance Support
7/20/2010   Navigant Consulting Inc.                                              Contract                   5,613,246              1,831,889
                                              Services
                                              Program Compliance Support
7/20/2010   Regis & Associates PC                                                 Contract                   1,933,557              1,217,249
                                              Services
                                              Program Compliance Support
7/21/2010   Ernst & Young LLP                                                     Contract                  11,083,520              6,343,150
                                              Services
                                                                                                                         Continued on next page
330          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                       (CONTINUED)

                                                                                         Type of
      Date         Vendor                             Purpose                            Transaction   Obligated Value        Expended Value
                                                      Program Compliance Support
      7/21/2010    PricewaterhouseCoopers, LLP                                           Contract                 $—                       $—
                                                      Services
      7/21/2010    Schiff Hardin LLP                  Housing Legal Services             Contract              97,526                  97,526
      7/26/2010    West Publishing Corporation        Subscription Service for 4 users   Contract               6,664                    6,664
                                                      Omnibus procurement for legal
      8/5/2010     Alston & Bird LLP                                                     Contract             232,482                 232,482
                                                      services
                   Cadwalader Wickersham & Taft       Omnibus procurement for legal
      8/5/2010                                                                           Contract           6,367,027               3,706,654
                   LLP                                services
                   Fox, Hefter, Swibel, Levin &       Omnibus procurement for legal
      8/5/2010                                                                           Contract             150,412                 150,412
                   Carol, LLP                         services
                                                      Omnibus procurement for legal
      8/5/2010     Haynes and Boone, LLP                                                 Contract                  —                        —
                                                      services
                                                      Omnibus procurement for legal
      8/5/2010     Hughes Hubbard & Reed LLP                                             Contract           2,817,792               1,359,797
                                                      services
                                                      Omnibus procurement for legal
      8/5/2010     Love & Long LLP                                                       Contract                  —                        —
                                                      services
                                                      Omnibus procurement for legal
      8/5/2010     Orrick Herrington Sutcliffe LLP                                       Contract                  —                        —
                                                      services
                   Paul, Weiss, Rifkind, Wharton &    Omnibus procurement for legal
      8/5/2010                                                                           Contract          10,147,314               6,919,484
                   Garrison LLP                       services
                                                      Omnibus procurement for legal
      8/5/2010     Perkins Coie LLP                                                      Contract                  —                        —
                                                      services
                                                      Omnibus procurement for legal
      8/5/2010     Seyfarth Shaw LLP                                                     Contract                  —                        —
                                                      services
                   Shulman, Rogers, Gandal,           Omnibus procurement for legal
      8/5/2010                                                                           Contract             213,317                 213,347
                   Pordy & Ecker, PA                  services
                   Sullivan Cove Reign Enterprises    Omnibus procurement for legal
      8/5/2010                                                                           Contract                  —                        —
                   JV                                 services
                                                      Omnibus procurement for legal
      8/5/2010     Venable LLP                                                           Contract             498,100                      960
                                                      services
      8/11/2010    Knowledge Mosaic Inc.              SEC filings subscription service   Contract               5,000                    5,000
                   Department of Housing and                                             Interagency
      8/29/2010                                       Detailees                                                29,915                       —
                   Urban Development                                                     Agreement
                                                      One-year subscription (3 users)
                                                      to the CQ Today Breaking News
      8/31/2010    CQ-Roll Call Inc.                  & Schedules, CQ Congressional      Contract               7,500                    7,500
                                                      & Financial Transcripts, CQ
                                                      Custom Email Alerts
                                                      SBA 7(a) Security Purchase
      9/16/2010    Bingham McCutchen LLP5                                                Contract              11,177                  11,177
                                                      Program
                                                      Program Operations Support
                                                      Services to include project
      9/26/2010    Davis Audrey Robinette             management, scanning and           Contract           4,476,497               3,952,431
                                                      document management and
                                                      correspondence
                                                                                                                         Continued on next page
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             331




OFS SERVICE CONTRACTS                      (CONTINUED)

                                                                                   Type of
Date         Vendor                            Purpose                             Transaction          Obligated Value        Expended Value
                                               GSA Task Order for procurement
                                               books — FAR, T&M, Government
9/29/2010    CCH Incorporated                                                      Contract                      $2,430                    $2,430
                                               Contracts Reference, World
                                               Class Contracting
             Department of the Treasury —                                          Interagency
9/30/2010                                      Administrative Services                                          660,601                   660,601
             Departmental Offices                                                  Agreement
                                                                                   Interagency
9/30/2010    Financial Clerk U.S. Senate       Congressional Oversight Panel                                  5,200,000              2,777,752
                                                                                   Agreement
10/7/2010    Management Concepts Inc.          Training Course - 11107705          Contract                         995                      995
10/7/2010    Management Concepts Inc.          Training Course - CON 217           Contract                       1,025                     1,025
10/7/2010    Management Concepts Inc.          Training Course - CON 216           Contract                       1,025                     1,025
10/7/2010    Management Concepts Inc.          Training Course - CON 217           Contract                       1,025                     1,025
10/7/2010    Management Concepts Inc.          Training Course - Anlytc Boot       Contract                       1,500                     1,500
10/7/2010    Management Concepts Inc.          Training Course - CON 218           Contract                       2,214                     2,214
10/7/2010    Management Concepts Inc.          Training Course - CON 218           Contract                       2,214                     2,214
10/7/2010    Management Concepts Inc.          Training Course - CON 218           Contract                       2,214                     2,214
             Hispanic Association of           Ratification - Internship program
10/13/2010                                                                         Contract                      12,975                    12,975
             Colleges & Universities           for Aug – Dec 2009
                                               IAA — GAO required by P.L. 110-
             Government Accountability                                             Interagency
10/25/2010                                     343 to conduct certain activities                              5,600,000              3,738,195
             Office                                                                Agreement
                                               related to TARP
                                               FNMA IR2 assessment — OFS
                                               task order on Treasury MITRE
11/8/2010    The MITRE Corporation             Contract for cost and data          Contract                   2,288,166              1,850,677
                                               validation services related to
                                               HAMP FA
                                               Structuring and Disposition         Financial
11/18/2010   Greenhill & Co., Inc.                                                                            6,139,167              6,139,167
                                               Services                            Agent
                                               Acquisition Support Services —
12/2/2010    Addx Corporation                  PSD TARP (action is an order        Contract                   1,299,002              1,299,002
                                               against BPA)
             Reed Elsevier Inc. (dba           Accurint subscription services
12/28/2010                                                                         Contract                         684                      684
             LexisNexis)                       one user
                                                                                   Interagency
1/4/2011     Canon U.S.A. Inc.                 Administrative Support                                            12,013                    12,013
                                                                                   Agreement
             Perella Weinberg Partners &       Structuring and Disposition         Financial
1/18/2011                                                                                                     5,542,473              5,542,473
             Co.                               Services                            Agent
             Treasury Franchise Fund —                                             Interagency
1/23/2011                                      Administrative Support                                         1,090,859              1,090,860
             BPD                                                                   Agreement
             Association of Government
1/25/2011                                      CEAR Program Application            Contract                       5,000                     5,000
             Accountants
                                               Mentor Program Training (call
2/23/2011    ESI International Inc.                                                Contract                       6,563                     6,563
                                               against IRS BPA)
             Department of the Treasury —                                          Interagency
2/27/2011                                      Administrative Services                                       13,523,880             13,001,815
             Departmental Offices                                                  Agreement
                                               Executive Compensation Data
3/2/2011     Equilar, Inc.                                                         Contract                      59,995                    59,995
                                               Subscription
                                                                                                                          Continued on next page
332          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                      (CONTINUED)

                                                                                         Type of
      Date         Vendor                             Purpose                            Transaction   Obligated Value        Expended Value
                                                      Executive Compensation Data
      3/9/2011     Mercer (US) Inc.                                                      Contract              $7,425                  $3,600
                                                      Subscription
      3/21/2011    Harrison Scott Publications Inc.   Subscription Service               Contract               5,894                    5,894
                   Federal Reserve Bank of New        FRBNY monitoring and reporting     Interagency
      4/19/2011                                                                                             1,300,000               1,004,063
                   York (FRBNY) HR                    on financial conditions of AIG     Agreement
      4/25/2011    PricewaterhouseCoopers, LLP        Financial Services Omnibus         Contract           5,804,710               4,863,595
      4/26/2011    ASR Analytics LLC                  Financial Services Omnibus         Contract           5,356,872               2,855,305
      4/26/2011    Ernst & Young LLP                  Financial Services Omnibus         Contract           1,706,480                 652,054
      4/26/2011    FI Consulting, Inc.                Financial Services Omnibus         Contract           3,954,123               3,700,386
      4/26/2011    Lani Eko & Company CPAs LLC        Financial Services Omnibus         Contract              50,000                       —
      4/26/2011    MorganFranklin Corporation         Financial Services Omnibus         Contract           1,187,957                 648,452
      4/26/2011    Oculus Group, Inc.                 Financial Services Omnibus         Contract           4,069,893               2,830,809
      4/27/2011    Booz Allen Hamilton, Inc.          Financial Services Omnibus         Contract             984,953                 507,255
      4/27/2011    KPMG LLP                           Financial Services Omnibus         Contract              50,000                       —
                   Office of Personnel
                   Management (OPM) — Western                                            Interagency
      4/27/2011                                       Leadership Training                                      21,300                       —
                   Management Development                                                Agreement
                   Center
                   Reed Elsevier Inc (dba             Accurint subscriptions by
      5/30/2011                                                                          Contract              10,260                  10,260
                   LexisNexis)                        LexisNexis for 5 users
                                                      Five (5) user subscriptions to
      5/30/2011    West Publishing Corporation        CLEAR by West Government           Contract               7,515                    7,515
                                                      Solutions
                                                      Project Leadership, Management
      6/1/2011     ESI International Inc.                                                Contract              14,195                  14,195
                                                      and Communications Workshop
                                                      One year subscription to the
                                                      CQ Today Breaking News &
      6/8/2011     CQ-Roll Call Inc.                  Schedules, CQ Congressional &      Contract               7,500                    7,500
                                                      Financial Transcripts, CQ Custom
                                                      Email Alerts
                                                      Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                     Contract             711,698                 664,590
                                                      Monitoring Subscription Services
                   Internal Revenue Service —                                            Interagency
      7/27/2011                                       Detailee                                                 84,234                  84,234
                   Procurement                                                           Agreement
                                                                                         Interagency
      9/8/2011     Financial Management Service       NAFEO Internship Program                                 22,755                  22,755
                                                                                         Agreement
                                                      MHA Felony Certification
      9/11/2011    ADC LTD NM                                                            Contract             339,489                 339,489
                                                      Background Checks (BPA)
                   ABMI — All Business Machines,      4 Level 4 Security Shredders
      9/14/2011                                                                          Contract               4,392                    4,392
                   Inc                                and Supplies
                                                      Renewing TD010-F-249 SEC
      9/28/2011    Knowledge Mosaic Inc.                                                 Contract               4,200                    4,200
                                                      filings Subscription Service
                                                                                         Interagency
      9/29/2011    Department of the Interior         Administrative Services                                  78,000                  78,000
                                                                                         Agreement
                                                                                         Interagency
      10/3/2011    Internal Revenue Service           Detailees                                               168,578                  84,289
                                                                                         Agreement
                                                                                                                         Continued on next page
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014             333




OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                      Type of
Date         Vendor                              Purpose                              Transaction          Obligated Value        Expended Value
             ABMI — All Business Machines,       4 Level 4 Security Shredders
10/19/2011                                                                            Contract                      $4,827                    $4,827
             Inc.                                and Supplies
11/17/2011   Qualx Corporation                   FOIA Support Services                Contract                      68,006                    68,006
                                                                                      Financial
11/29/2011   Houlihan Lokey, Inc.                Transaction Structuring Services                               13,175,000             12,737,500
                                                                                      Agent
                                                 Pre-Program and Discovery
12/19/2011   The Allison Group LLC                                                    Contract                      19,065                    19,065
                                                 Process Team Building
                                                                                      Interagency
12/29/2011   Department of the Treasury          Administrative Support                                            901,433                   899,268
                                                                                      Agreement
             Department of the Treasury —                                             Interagency
12/29/2011                                       Administrative Services                                        15,098,746             10,127,276
             Departmental Offices                                                     Agreement
                                                 IAA — GAO required by P.L. 110-
             Government Accountability                                                Interagency
1/3/2012                                         343 to conduct certain activities                               2,500,000              2,475,936
             Office                                                                   Agreement
                                                 related to TARP IAA
             Office of Personnel
                                                 Frontline Leadership Training
             Management (OPM) — Western                                               Interagency
1/4/2012                                         for OFS Managers (7/25/11-                                         31,088                        —
             Management Development                                                   Agreement
                                                 7/29/11)
             Center
                                                 ABS/MBS Data Subscription
2/1/2012     Moody’s Analytics Inc.                                                   Contract                   2,575,713              2,575,712
                                                 Services
                                                 Structuring and Disposition          Financial
2/7/2012     Greenhill & Co., LLC                                                                                1,680,000              1,680,000
                                                 Services                             Agent
             Association of Goverment
2/13/2012                                        CEAR Program Application             Contract                      $5,000                    $5,000
             Accountants
2/26/2012    Diversified Search LLC              CPP Board Placement Services         Contract                     346,112                   296,112
             Integrated Federal Solutions,
3/5/2012                                         TARP Acquisition Support (BPA)       Contract                   3,551,388              2,631,469
             Inc.
                                                                                      Interagency
3/14/2012    Department of Interior              Federal Consulting Group                                           87,500                    57,500
                                                                                      Agreement
                                                 Administrative Support – Shared
             Department of the Treasury —                                             Interagency
3/29/2012                                        infrastructure, financial systems,                              1,137,451              1,137,451
             Departmental Offices WCF                                                 Agreement
                                                 OPA and DO by all employees
3/29/2012    E-Launch Multimedia, Inc.           Subscription Service                 Contract                          —                         —
                                                 Maintenance Agreement for
4/2/2012     Cartridge Technology, Inc.                                               Contract                      23,538                    14,384
                                                 Canon ImageRunner
                                                 Executive Compensation Data
5/9/2012     Equilar Inc.                                                             Contract                      44,995                    44,995
                                                 Subscription
                                                 Litigation support for No. 10-647
                                                                                      Interagency
6/11/2012    Department of Justice               (Fed.Cl.) and No. 11-100 (Fed.                                  1,737,884                   284,163
                                                                                      Agreement
                                                 Cl.)
6/14/2012    Qualx Corporation                   FOIA Support Services                Contract                     104,112                   104,112
                                                 Subscription for Anti Fraud Unit
6/30/2012    West Publishing Corporation                                              Contract                       8,660                     8,660
                                                 to Perform Background Research
7/25/2012    Knowledge Mosaic Inc.               SEC filings subscription service     Contract                       4,750                     4,750
                                                                                      Interagency
7/31/2012    Internal Revenue Service            COR Training                                                        4,303                     4,303
                                                                                      Agreement
                                                                                                                             Continued on next page
334          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                      (CONTINUED)

                                                                                          Type of
      Date         Vendor                             Purpose                             Transaction   Obligated Value        Expended Value
                                                      Subscription to Commercial
      8/2/2012     Harrison Scott Publications Inc.                                       Contract              $3,897                  $3,897
                                                      Mortgage Alert Online Service
                   Treasury Franchise Fund —          Administrative Resource Center      Interagency
      9/18/2012                                                                                                826,803                 826,803
                   BPD                                (ARC)                               Agreement
                                                      Data Subscription Services for
      9/27/2012    SNL Financial LC                   Financial, Regulatory, and Market   Contract             180,000                 180,000
                                                      Data and Services
                   Government Accountability                                              Interagency
      11/18/2012                                      Oversight services                                     4,800,000               3,896,582
                   Office                                                                 Agreement
                   Association of Government
      12/12/2012                                      CEAR Program Application            Contract               5,000                    5,000
                   Accountants
                   Department of the Treasury —       Administrative support services     Interagency
      12/18/2012                                                                                            12,884,241              10,751,898
                   Departmental Offices               for FY 2013                         Agreement
                                                                                          Financial
      1/1/2013     Lazard Fréres & Co. LLC            Transaction Structuring Services                       2,708,333               2,708,333
                                                                                          Agent
                                                                                          Financial
      1/1/2013     Lazard Fréres & Co. LLC            Transaction Structuring Services                       6,060,484               6,060,484
                                                                                          Agent
                                                      Executive Compensation Data
      2/12/2013    Mercer (US) Inc.                                                       Contract               4,050                    4,050
                                                      Subscription
                   Department of the Treasury —                                           Interagency
      3/3/2013                                        Administrative Support                                 1,159,268               1,159,268
                   Departmental Offices WCF                                               Agreement
                   Department of Housing and                                              Interagency
      3/6/2013                                        Research and Analysis Services                           499,348                 444,381
                   Urban Development                                                      Agreement
      3/25/2013    Bloomberg Finance L.P.             Subscription                        Contract               5,400                    5,400
                   IRS - Treasury Acquisition                                             Interagency
      3/26/2013                                       COR Training - TAI                                        21,000                       —
                   Institute                                                              Agreement
                                                                                          Interagency
      4/30/2013    Internal Revenue Service           Legal Services                                            88,854                  88,854
                                                                                          Agreement
                                                      Executive Compensation Data
      5/9/2013     Equilar Inc.                                                           Contract              45,995                  45,995
                                                      Subscription
      6/12/2013    West Publishing Corporation        Monthly subscription for 4 users    Contract              16,668                  16,668
      7/31/2013    Evolution Management Inc.          Outplacement Services for OFS       Contract              85,238                  41,774
                                                      Subscription service utilized by
      8/19/2013    Knowledge Mosaic Inc               the Chief Counsel’s Office for      Contract               4,500                    4,500
                                                      OFS-related matters
                   Government Accountability                                              Interagency
      9/24/2013                                       Administrative Support                                   644,988                 644,998
                   Office                                                                 Agreement
                                                      Financial Data Subscription
      9/26/2013    SNL Financial                      Services — Information              Contract             420,000                 200,000
                                                      Technology
                   Department of the Treasury —                                           Interagency
      11/21/2013                                      Administrative Support                                 9,453,973               8,191,848
                   Departmental Offices                                                   Agreement
                                                                                          Interagency
      11/21/2013   Internal Revenue Service           Legal Services                                           107,185                 107,185
                                                                                          Agreement
                   Treasury Franchise Fund —                                              Interagency
      11/26/2013                                      Administrative Support                                 1,886,578               1,884,147
                   BPD                                                                    Agreement
                                                                                                                          Continued on next page
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                                        335




OFS SERVICE CONTRACTS                                        (CONTINUED)

                                                                                                                   Type of
Date                 Vendor                                        Purpose                                         Transaction                     Obligated Value                    Expended Value
                     Association of Government
12/11/2013                                                         CEAR Program Application                        Contract                                      $5,000                             $5,000
                     Accountants
                                                                                                                   Interagency
12/17/2013           Department of Justice                         Litigation Services                                                                      1,459,000                                        —
                                                                                                                   Agreement
                                                                                                                   Interagency
3/5/2014             Department of Justice                         Litigation Services                                                                      2,000,000                             747,767
                                                                                                                   Agreement
                     Department of the Treasury —                                                                  Interagency
3/12/2014                                                          Administrative Support                                                                   2,705,893                          1,917,985
                     DO OCIO                                                                                       Agreement
                                                                   On-line Subscription Service
3/24/2014            Mercer (US) Inc.                                                                              Contract                                       4,472                                      —
                                                                   Executive Compensation Data
4/14/2014            Bloomberg Finance L.P.                        Administrative Support                          Contract                                       5,700                               5,700
6/13/2014            Winvale Group LLC                             Administrative Support                          Contract                                    174,067                              41,561
Total                                                                                                                                             $1,433,334,460                     $1,353,142,562
Notes: Numbers may not total due to rounding. Table 5.2 includes all vendor contracts administered under Federal Acquisition Regulations, interagency agreements, and financial agency agreements
entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no
task orders have been awarded and so those contracts are not reflected in this table.
1
  EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
2
  Awarded by other agencies on behalf of OFS and are not administered by PSD.
3
  Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
4
  Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
5
  McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.

Source: Treasury, response to SIGTARP data call, 10/15/2014.
336   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              MONITORING INTERCONNECTIONS
SECT IO N 6
              OF THE LARGEST TARP BANKS
338   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   339




MONITORING INTERCONNECTIONS OF THE
LARGEST TARP BANKS
Taxpayers were called upon to shoulder the more than $420 billion TARP bailout
because the financial stability of our country was threatened by the dangerously
interconnected nature of large financial institutions. The greatest lesson learned
from the financial crisis is the power that these too big to fail institutions had over
not just each other, but over our entire economy – the fates of Wall Street and
Main Street are tied together. These firms were tied as creditors and counterparties
to each other so that if one went down, it would not just pull the others down with
it, it would pull our entire economy down. Because our banking system was so
entangled, the impact of the crisis was felt by banks of all sizes, all over the country.
Taxpayers who funded TARP made a long-term investment to restore financial
stability now and for the future. They placed their money, confidence, and trust in
the hands of regulators and policy makers to first reestablish financial stability, and
then to begin the long and arduous task to uncover, unmask, and understand the
root causes of the financial crisis, to prevent similar threats and future bailouts.
     The interconnections of the largest financial institutions, which can threaten
the economy, require constant monitoring to protect hardworking Americans. Even
if regulators may not be able to predict the nature of a future crisis.
     By examining the past, we can take advantage of lessons learned to protect
taxpayers in the future. The institutions themselves must continue to assess how
interconnectedness caused the crisis, whether those same connections exist
today, and whether they still pose excessive risk. In order to address too big to fail,
regulators must understand, monitor, and address any interconnection that could
spiral one institution’s troubles into a threat to the entire country. Because not all
interconnections pose a dangerous threat, regulators should take advantage of the
opportunity now to use data they already collect from interconnected financial
institutions to assess whether the interconnections existing today pose a threat to
financial stability. The time to act is now, while the waters are relatively calm, not
when the storm begins and the flood levels start to rise.
     An important part of SIGTARP’s mission is to protect taxpayers by bringing
transparency to Government decisions made in the wake of the financial crisis
because there are important implications for the future. For these reasons,
SIGTARP explored these interconnections further. SIGTARP conducted analysis
of some of the interconnections between six of the largest TARP recipients
(JPMorgan, Bank of America, Citigroup, Wells Fargo, Goldman Sachs, and Morgan
Stanley) in 2008 through 2014 from publicly available balance sheet information
for bank holding companies, collected by the Federal Reserve, to see what has
changed and what has stayed the same. Because Goldman Sachs and Morgan
Stanley did not report 2008 data, SIGTARP used their data starting in 2009. The
following provides an update to SIGTARP’s findings first published July 30, 2014.
340   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Size and Assets

                                             Total Assets
                                             What does this indicator demonstrate? This is a measure of a bank’s overall size.
                                             When a bank acquires cash, securities (for example, bonds), loans, or other
                                             investments as a result of its financial activities, it records them as assets on its
                                             balance sheet; the sum of all a bank’s assets are its total assets.

                                             How does it connect firms to each other? The largest banks share a network
                                             of contractual links to each other as creditors and counterparties in financial
                                             transactions. If one of these large banks experiences distress or fails, it can spread
                                             consequences to the other large banks via these links.

                                             How could it threaten financial stability? Uncertainty about the financial condition
                                             of one institution can cause market participants to question the financial condition
                                             of other large banks, called contagion. This can undermine confidence in these
                                             institutions and the financial system as a whole.

                                             How did it contribute to the financial crisis and TARP? As SIGTARP previously
                                             reported, the first nine TARP institutions were selected in part because of their
                                             size, as they held more than $11 trillion in banking assets – approximately 75% of
                                             all assets held by U.S. owned banks as of June 30, 2008. Testifying about a small
                                             number of large institutions holding a big share of financial assets, former Treasury
                                             Secretary Paulson told the Financial Crisis Inquiry Commission in May of 2010,
                                             such concentration “is a dangerous risk.”
                                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   341




What does this currently indicate about interconnectedness?

            FIGURE 6.1
            TOTAL CONSOLIDATED ASSETS ($ TRILLIONS)
             $3.0




              2.5




              2.0




              1.5




              1.0




              0.5




              0.0
                       2008        2009        2010       2011        2012        2013        2014


                       Bank of America                JPMorgan                    Morgan Stanley
                       Citigroup                      Goldman Sachs               Wells Fargo

                    Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                    information.


   Since June 2008, Wells Fargo (163%), Bank of America (26%), and JPMorgan
(42%) have all grown in asset size, due in part to acquisitions. Wells Fargo acquired
Wachovia, Bank of America acquired Merrill Lynch and JPMorgan acquired Bear
Stearns. Since June 2009, Morgan Stanley (22%) has also grown larger. Citigroup
and Goldman Sachs are smaller today, by 9% and 3%, respectively. The combined
assets of these six banks, as of June 30, 2014, totaled $9.9 trillion, totaling more
than half of the total assets held by the largest 100 bank holding companies in the
U.S.

Trading & Available-For-Sale Securities
What does this indicator demonstrate? When a bank invests in a financial security
(for example asset-backed or mortgage-backed bonds) to profit from the short-term
changes in its price, the bank holds that security on its balance sheet as a trading
asset. Similar financial securities that are not actively traded, but that the bank
intends to resell before that asset reaches maturity are categorized as available-for-
sale.

How does it connect firms to each other? Mark to market accounting rules require
a bank to value trading assets and available-for-sale securities on its balance sheet
at the price the bank would receive from selling that asset in an orderly market.
Because the largest banks hold similar securities on their balance sheets (as shown
342   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             in Figure 6.3 below), and the prices of these assets fluctuate in unison, distress at
                                             one of the largest banks can cause the values of these assets to drop precipitously.

                                             How could it threaten financial stability? If a large bank experiences financial
                                             distress, it could be forced to reduce its risk by selling assets at fire sale prices. This
                                             requires other large banks to revalue their similar assets to these lower fire sale
                                             prices, potentially causing their own financial distress and forcing their own sale at
                                             fire sale prices. The resulting downward spiral in asset prices erodes bank capital
                                             levels, reduces earnings, and triggers the requirement that banks post additional
                                             collateral, which leaves banks more vulnerable to additional stress.

                                             How did it contribute to the financial crisis and TARP? In 2007 and 2008, rating
                                             agencies downgraded mortgage backed securities (“MBS”) and collateralized
                                             debt obligations (“CDOs”) reflecting the higher probability that the underlying
                                             mortgages would default. As the crisis unfolded, the value of mortgage assets (like
                                             MBS) that banks held, and had borrowed against, plunged. Concerns about banks’
                                             financial condition mounted and investors grew increasingly reluctant to extend
                                             credit to firms thought to have a high exposure to mortgage assets. In cases where
                                             the banks pledged MBS and CDOs to secure short-term borrowings or other
                                             transactions, these write-downs triggered collateral calls, requiring banks to provide
                                             additional collateral to compensate for the increased risk. Investors panicked,
                                             fearing more losses and that banks could not sell these troubled mortgage-related
                                             assets in an illiquid market. Both the direct losses and the market-wide contagion
                                             that ensued, risked leading to the failure or near failure of many large financial
                                             firms across the system.
                                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   343




What does this currently indicate about interconnectedness?

            FIGURE 6.2
            TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES
            COMBINED (AS A PERCENTAGE OF TOTAL ASSETS)
             50%


              45


              40


              35


              30


              25


              20


              15


              10


               5


               0
                      2008        2009        2010       2011        2012        2013        2014


                      Bank of America                JPMorgan                    Morgan Stanley
                      Citigroup                      Goldman Sachs               Wells Fargo

                   Source: FR Y-9C data, June 2009 – June 2014. See pages 363-369 for more
                   information.


    As of June 30, 2014, Goldman Sachs (39.8%), Morgan Stanley (37.9%),
and Citigroup (30.5%) had more than one-third of their assets in trading assets
and available-for-sale securities, at similar levels to June 2009 and 2010. Within
these categories, Morgan Stanley significantly increased its holdings of safer U.S.
Treasuries from 5% in June 2009 to 19% in June 2014, and remained at relatively
similar levels of holdings of mortgage-backed securities and asset-backed and
other debt securities. Goldman Sachs increased its holdings in trading assets and
available-for-sale securities from 38.4% in June 2009 to 39.8% in June 2014.
Citigroup demonstrated a decrease from 34.1% as a percentage of total assets
in June 2008 to 30.5% in June 2014. The largest percentage of these assets
held by Citigroup is in asset-backed and other debt securities at 39.2%, which
has remained at relatively similar levels since June 2008. Citigroup significantly
increased its levels of safer U.S. Treasuries from 2.5% in June 2008 to 18.4%
in June 2014, which exceeds its 12.5% holdings in mortgage-backed securities.
Wells Fargo increased assets in trading assets and available-for-sale securities from
16.6% in June 2008 to 20.1% in June 2014, with the largest increase in municipal
securities, followed by structured financial products. As a component of Wells
Fargo’s portfolio, mortgage-backed securities decreased from 67.5% in June 2008
to 50.6% in June 2014. Bank of America overall decreased its trading assets and
available-for-sale securities from 28.5% in June 2008 to 24.6% in June 2014. For
344               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                Bank of America, the largest portion of assets in these categories is in mortgage-
                                                                backed securities, which has decreased from 53.1% in June 2008 to 42.3% in June
                                                                2014.
      FIGURE 6.3

       COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES (BY BANK)
        BANK OF AMERICA                                          CITIGROUP                                                  JPMORGAN
        100%                                                     100%                                                       100%



          90                                                       90                                                         90



          80                                                       80                                                         80



          70                                                       70                                                         70



          60                                                       60                                                         60



          50                                                       50                                                         50



          40                                                       40                                                         40



          30                                                       30                                                         30



          20                                                       20                                                         20



          10                                                       10                                                         10



           0                                                        0                                                          0

               2008   2009   2010   2011   2012   2013   2014           2008   2009   2010   2011   2012   2013   2014             2008   2009   2010   2011   2012   2013   2014




        GOLDMAN SACHS                                            MORGAN STANLEY                                             WELLS FARGO
        100%                                                     100%                                                       100%



          90                                                       90                                                         90



          80                                                       80                                                         80



          70                                                       70                                                         70



          60                                                       60                                                         60



          50                                                       50                                                         50



          40                                                       40                                                         40



          30                                                       30                                                         30



          20                                                       20                                                         20



          10                                                       10                                                         10



           0                                                        0                                                          0

               2008   2009   2010   2011   2012   2013   2014           2008   2009   2010   2011   2012   2013   2014             2008   2009   2010   2011   2012   2013   2014




               Derivatives with positive fair value                     Structured financial products                              U.S. Government Agency Obligations
               Other trading assets                                     Asset-backed securities and other debt securities          U.S. Treasuries
               Loans                                                    Mortgage-backed securities
               Investments in equity securities/funds                   Municipal obligations
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   345




Level 3 Assets
What does this indicator demonstrate? Assets that are illiquid and difficult to value
are deemed “Level 3 assets” because their fair value cannot be determined using
observable measures, such as market prices. Rather, banks calculate prices for
these securities using their own best estimates derived from internal models. On
a balance sheet these assets are included in the following categories: available-for-
sale securities, loans and leases held for sale or held for investment, and trading
assets, and can include asset-backed securities, mortgage-backed securities, or
derivatives with a positive fair value. A derivative might be considered a Level l asset
if it trades through a clearing house where there is an observable price. However,
the pricing becomes more opaque if a derivative does not trade through a clearing
house. Then the derivative might be valued according to internal corporate models
and considered a Level 3 asset.

How does it connect firms to each other? Level 3 asset values rely on internal
corporate models. As then-Chairman of the Federal Reserve Bernanke testified
before Congress in requesting TARP, “because nobody knows what the true hold
to maturity price is, without a market to determine that price, investors would have
to trust the internal estimate of banks.” If a bank with a high proportion of Level 3
assets on its balance sheet faces severe problems, market confidence in the bank
and its internal estimates could rapidly decrease, which can spread to its creditors
and counterparties.

How could it threaten financial stability? Uncertainty about the value of a bank’s
assets can deter investors and lenders from providing capital or credit. Potential
write-downs on these assets reduce earnings and capital, and can trigger collateral
calls, which can further drain liquidity. The loss of funding can force fire sales and
heightens counterparty credit risk as the troubled bank may be unable to pay its
contractual promises to other banks, putting those institutions at risk of losses and
eroding market confidence.

How did it contribute to the financial crisis and TARP? In requesting TARP
authority, then-Treasury Secretary Henry Paulson testified before Congress
on September 24, 2008, “if there are failing institutions, we can address those
individually. But more broadly, the problem is that with the complexity of these
securities and the difficulty of valuation, nobody knows what the banks are worth,
and therefore it is very difficult for private capital to come in to create more balance
sheet capacity so banks can make loans.” The largest banks had to write-down
billions in mark-to-market losses for these securities that they owned.
346   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.4
                                                           LEVEL 3 ASSETS
                                                           (AS A PERCENTAGE OF TOTAL ASSETS)
                                                           10%


                                                             9


                                                             8


                                                             7


                                                             6


                                                             5


                                                             4


                                                             3


                                                             2


                                                             1


                                                             0
                                                                      2009          2010         2011          2012          2013           2014


                                                                     Bank of America               JPMorgan                     Morgan Stanley
                                                                     Citigroup                     Goldman Sachs                Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 Since June 2009, each of these large banks has decreased their Level 3 assets
                                             as a percentage of total assets. While most of the banks cut these levels at least in
                                             half, only Goldman Sachs has not. Level 3 assets at Goldman Sachs account for
                                             5% of total assets in June 2014, down from 7% in June 2008, but are nearly double
                                             each of the other banks as a percentage of total assets.

                                             Liabilities

                                             Borrowing
                                             What does this indicator demonstrate? When a bank borrows money, it records these
                                             transactions as liabilities on its balance sheet, although off-balance sheet leverage
                                             can also be significant and not easily detected. Banks typically engage in leverage
                                             by borrowing to acquire more assets, with the aim of increasing their profits.

                                             How does it connect firms to each other? Leverage amplifies the impact of a bank’s
                                             distress on other banks, both directly, by increasing the amount of exposure that
                                             other banks have as creditors, and indirectly, by increasing the size of any asset
                                             liquidation that a bank is forced to undertake as it comes under financial pressure.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   347




How could it threaten financial stability? Leverage allows a bank to increase its
potential gains or losses on an investment beyond what would be possible through
a direct investment of its own funds. Therefore, if a bank experiences losses, having
used financial leverage, it will sustain larger losses. By increasing its exposure
relative to capital, leverage raises the likelihood that a bank will suffer losses
exceeding its capital. Leverage also increases a bank’s dependence on its creditors’
willingness and ability to fund its balance sheet.

How did it contribute to the financial crisis and TARP? Excessive leverage by banks
was a major contributor to the financial crisis. As then-Treasury Secretary Paulson
testified before the Financial Crisis Inquiry Commission, “we are living beyond
our means on borrowed money and borrowed time….Our financial institutions,
including commercial and investment banks, were notable examples of this
overleveraging. In general, these institutions did not maintain sufficient high-
quality capital, which left them unable to absorb the significant losses they incurred
as the housing bubble burst. Many of them did not understand their liquidity
positions fully.” In the years before the crisis, many of the largest banks borrowed
to the hilt, on dangerously weak capital levels, leaving them more exposed to
financial distress or collapse if their investments declined in value. Former Treasury
Secretary Geithner testified before Congress on financial reforms on September
23, 2009, “The biggest part of the failure of our system was to allow very large
institutions to take on leverage without constraint. And that is what really causes
crises, what makes them so powerful. And that is why a centerpiece of any reform
effort has to be the establishment of more conservative constraints on leverage
applied to institutions whose future could be critical to the economy as a whole.”

Other Borrowed Money & Subordinated Notes
What does this indicator demonstrate? Banks with a large amount of outstanding
debt are generally more interconnected with the broader financial system, in part
because financial institutions hold a large proportion of outstanding debt.
348   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.5
                                                           OTHER BORROWED MONEY & SUBORDINATED NOTES
                                                           (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                           35%



                                                            30



                                                            25



                                                            20



                                                            15



                                                            10



                                                             5



                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 Each of these large banks decreased their levels of other borrowed money and
                                             subordinated notes as a percentage of total liabilities from June 2008 (June 2009
                                             for Goldman Sachs and Morgan Stanley) to June 2014. Goldman Sachs has the
                                             highest levels of other borrowed money and subordinated notes of the six financial
                                             institutions at 30.3% of total liabilities in June 2014 (a decrease from 31.1% in
                                             June 2009). Morgan Stanley has the next highest levels at 21.9% of total liabilities
                                             (down from 30.3% in June 2009). The largest reduction came from Wells Fargo,
                                             which decreased its percentage of other borrowed money and subordinated notes
                                             from 31.7% of total liabilities in June 2008 to 13% in June 2014. Bank of America
                                             also reduced its levels from 24.6% of liabilities in June 2008 to 15.7% in June
                                             2014. Citigroup reduced its levels from 27.2% in June 2008 to 16.9% in June
                                             2014.

                                             Derivatives
                                             Firms can be interconnected to each other in many ways related to derivatives. For
                                             example, as SIGTARP previously reported, according to a Federal Reserve Board
                                             memorandum assessing Citigroup’s systemic risk, Citigroup was a major player
                                             in a wide range of derivatives markets, both as a counterparty to over-the-counter
                                             trades, and as a broker and clearing firm for trades on exchanges.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   349




Derivative Liabilities
What does this indicator demonstrate? Derivatives can come in the form of liabilities
in the cost that the bank would incur to exit its interest, foreign exchange,
commodity, equity, and credit derivative contracts held for trading.

How does it connect firms to each other? A bank that has a greater level of derivative
liabilities poses higher counterparty risk throughout the financial system.

How could it threaten financial stability? Counterparty risk is the risk that a
counterparty to a transaction could default before the final settlement of the
contract. Counterparty risk of derivative financial instruments arises when the
derivatives position held by a firm is “in the money” and there is the risk of
nonpayment from the associated counterparty.

How did it contribute to the financial crisis and TARP? Then-Treasury Secretary
Paulson testified before the Financial Crisis Inquiry Commission, “Derivative
contracts, including excessively complex financial products, exacerbated the
problems. These instruments embedded leverage in the institutions’ balance
sheets, along with risks which were so obscured that at times they were not fully
understood by investors, creditors, rating agencies, regulators, or the managements
themselves.”
350   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.6
                                                           DERIVATIVE LIABILITIES
                                                           (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                           10%


                                                             9


                                                             8


                                                             7


                                                             6


                                                             5


                                                             4


                                                             3


                                                             2


                                                             1


                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 Wells Fargo has the smallest amount of derivatives liabilities, historically near
                                             or less than 1% of total liabilities. By far, Goldman Sachs and Morgan Stanley have
                                             the highest levels of derivative liabilities as a percentage of total liabilities, and
                                             these have decreased from 8.2% for Goldman Sachs in June 2009 to 5.9% in June
                                             2014, and 6.9% in June 2009 for Morgan Stanley to 4.7% in June 2014. Citigroup
                                             and JPMorgan had significant drops in their derivative liabilities as a percentage of
                                             total liabilities. Citigroup went from 5.9% in June 2008, down more than half to
                                             2.8% in June 2014, with most of that reduction coming at the time of Citigroup’s
                                             second TARP bailout in June 2009. JPMorgan also cut their derivative liability as
                                             a percentage of total liabilities by more than half from 5.9% in June 2008 to 2.2%
                                             in June 2014, most of the reduction taking place in 2009. Bank of America has a
                                             smaller percentage of derivative liabilities, but that percentage rose from 1.3% as
                                             a percentage of total liabilities in June 2008 to 2.9% in June 2010, then dropped
                                             down to 1.8% in June 2014.
                                                 Derivative holdings may not fully expose dangerous risk. As then-Treasury
                                             Secretary Geithner testified before Congress on financial reforms about derivatives,
                                             “the people who provide that protection, write those commitments, whatever
                                             the form is, they need to hold margin and capital so it allows them to meet those
                                             commitments. And that was the big failure in the system.”
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   351




Credit Derivatives
A credit derivative is an agreement that shifts credit risk from one party to
another. The party selling protection (acting as a guarantor) takes on the risk that
a “reference entity” (which can be a security, such as a bond, or an individual
company, such as a bank) will default from the protection buyer (acting as a
beneficiary). Most of the credit derivatives held by the largest banks are credit
default swaps. A credit default swap (“CDS”) is an insurance-like contract where
the protection buyer pays a periodic fee to the protection seller in return for
compensation if a reference entity defaults.

Credit Derivatives Sold
What does this indicator demonstrate? After a financial company sells credit
protection, it is obligated to make an insurance-like payment if a specified credit
event occurs.

How did it contribute to the financial crisis and TARP? Beginning in 2007,
insurance giant AIG began experiencing a significant drain on its finances when,
among other things, the company began paying increasing amounts of cash
collateral to counterparties that had purchased CDS from AIG’s Financial Products
group. The problem according to then-Chairman Bernanke in testimony to
Congress on March 24, 2009, was that AIG was essentially using these swaps to
sell insurance against which they neither had the capital to cover, nor had hedged.

    By September 2008, bankruptcy loomed for AIG, in part because AIG was
unlikely to be able to raise the capital needed to meet additional calls for large
collateral payments in the case of an anticipated downgrade in its credit rating. On
September 15, 2008, the three largest credit rating agencies downgraded AIG. The
next day, because of concerns that an AIG bankruptcy could cause systemic risk
to the entire financial system, the Federal Reserve, with the support of Treasury,
authorized The Federal Reserve Bank of New York to lend up to $85 billion to
the firm under its emergency powers. Including $68 billion in TARP, AIG’s total
Government bailout package ultimately totaled $182 billion.
352   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.7
                                                           CREDIT DERIVATIVES SOLD ($ TRILLIONS)

                                                            $6




                                                             5




                                                             4




                                                             3




                                                             2




                                                             1




                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                  As the seller of derivatives, the bank effectively serves as a guarantor, requiring
                                             the bank to make a significant payment if a triggering event occurs. Wells Fargo,
                                             which had the lowest levels of credit derivatives sold in June 2008 at about $1
                                             billion, increased that to $15.6 billion by June 2014. JPMorgan had by far the
                                             highest levels of credit derivatives sold at more than $5 trillion in June 2008. While
                                             it remains at much higher levels than the other banks, it has reduced its levels to
                                             $2.4 trillion by June 2014. The next highest levels of credit derivatives sold were
                                             Goldman Sachs (at $3.0 trillion in June 2009), followed by Morgan Stanley (at
                                             $2.8 trillion in June 2009) and Bank of America (at $2.6 trillion in June 2009).
                                             Both Goldman Sachs and Morgan Stanley have reduced credit derivatives sold
                                             since June 2009 to $1.3 trillion and $1.1 trillion in June 2014, respectively. Bank
                                             of America had a spike in the amount of credit derivatives sold in June 2009 after
                                             purchasing Merrill Lynch, which later decreased, but still left it similar to June
                                             2013 at $1.3 trillion. In June 2008, Citigroup had $1.7 trillion in credit derivatives
                                             sold, which decreased to $1.1 trillion in June 2014.

                                             Credit Derivatives Bought
                                             What does this indicator demonstrate? The protection buyer pays premiums to
                                             the protection seller for credit protection. By purchasing a CDS, the buyer is
                                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   353




transferring the risk that a reference entity will default to the protection seller. The
buyer receives a significant payment upon a triggering event.

How did it contribute to the financial crisis and TARP? Each of the largest banks
included in this analysis, or a company they acquired, were counterparties to AIG,
having bought CDS protection leading up to the crisis. They soon learned that the
protection they bought was only as good as the strength of their counterparty.

What does this currently indicate about interconnectedness?

             FIGURE 6.8
             CREDIT DERIVATIVES BOUGHT ($ TRILLIONS)

              $6




               5




               4




               3




               2




               1




               0
                      2008        2009        2010       2011        2012        2013        2014


                      Bank of America                JPMorgan                    Morgan Stanley
                      Citigroup                      Goldman Sachs               Wells Fargo

                   Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                   information.


   Of the six banks, JPMorgan has had the highest levels of credit derivatives
bought since June 2008. JPMorgan has significantly brought down its credit
derivatives bought from $5.2 trillion in June 2008 to $2.7 trillion in June 2014.
However, this amount is still more than $1 trillion above what the other largest
banks have. Bank of America had a spike in credit derivatives bought from slightly
more than $1.3 trillion in June 2008 to $2.7 trillion in June 2009 after acquiring
Merrill Lynch, which it has reduced each year, but in June 2014 at $1.3 trillion was
similar to June 2008. Although Goldman Sachs and Morgan Stanley did not report
2008 data, both reduced the amount of credit derivatives bought from $3.1 trillion
(Goldman Sachs) and $2.9 trillion (Morgan Stanley) in June 2009 to $1.4 trillion
(Goldman Sachs) and $1.1 trillion (Morgan Stanley) in June 2014. Citigroup has
lowered its credit derivatives bought, initially starting off smaller than some of the
354   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             banks at $1.9 trillion in June 2008 to $1.2 trillion in June 2014. Wells Fargo had
                                             a significantly smaller amount of credit derivatives bought compared to the other
                                             big banks in June 2008 ($2.4 billion in June 2008), and the bank has increased its
                                             holding to $19.7 billion in June 2014.

                                             CDS Outstanding for which the Bank is a Reference Entity
                                             What does this indicator demonstrate? One of the components involved in a credit
                                             derivative contract is the reference entity. The reference entity is not a counterparty
                                             to a CDS – it is neither the protection buyer nor seller. Rather, a default by the
                                             reference entity triggers a payment from the seller to the buyer. The amount of
                                             CDS written on a bank identifies the scale of contracts that would be triggered if
                                             the bank defaults.

                                             How does it connect firms to each other? If a credit event occurs, for example the
                                             reference defaults on its bonds, the buyer of the CDS receives payment from the
                                             seller. If the amount of CDS sold on a particular bank is high, this indicates that
                                             a large number of institutions may be exposed to that bank and that if the bank
                                             defaults on its bonds or fails, a significant number of financial market participants
                                             may be affected.
                                                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   355




What does this currently indicate about interconnectedness?

            FIGURE 6.9
            GROSS NOTIONAL VALUE OF CDS WRITTEN ON THE
            BANK ($ BILLIONS)
            $140



             120



             100



              80



              60



              40



              20




               0
                      2008         2009          2010         2011         2012         2013         2014


                      Bank of America                   JPMorgan                        Morgan Stanley
                      Citigroup                         Goldman Sachs                   Wells Fargo

                   Source: This data is publically available in DTCC’s trade information warehouse. It can be
                   accessed at www.dtcc.com/repository-otc-data.aspx. See pages 363-369 for more
                   information.


    In these transactions, two independent parties are betting on whether the bank
will fulfill its obligations to its creditors. A default by the bank triggers payment
from the protection seller to the protection buyer. Since June 2009, counterparties
have reduced the amount of CDS outstanding where each bank serves as a
reference entity. In June 2014, market participants were less exposed than in June
2009, but still significantly exposed, ranging from a gross notional $30 billion to
$54.7 billion, on whether these banks will fulfill their obligations.

Leverage (Short Term Funding)
Regulators were caught unaware of how much the largest banks had leveraged
themselves using short-term borrowing (like commercial paper and repurchase
agreements (repos)) and derivatives. Even a modest drop in the value of a bank’s
assets would severely deplete its capital. When uncertainty led to disruptions in the
short-term funding markets, some institutions that relied on these channels to fund
their operations faced liquidity challenges, and later failed or had to be rescued.
These markets and other interconnections, created contagion, as the crisis spread
even to markets and companies with little or no direct exposure to the mortgage
market.
356   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As former Chairman Bernanke testified on September 24, 2008, when
                                             requesting TARP from Congress,

                                                    While perhaps manageable in itself, Lehman’s default was combined
                                                    with the unexpectedly rapid collapse of AIG, which together
                                                    contributed to the development last week of extraordinarily turbulent
                                                    conditions in global financial markets. These conditions caused
                                                    equity prices to fall sharply, the cost of short-term credit, where
                                                    available, to spike upward, and the liquidity to dry up in many
                                                    markets. Losses at a large money market mutual fund sparked
                                                    extensive withdrawals from a number of such funds. A marked
                                                    increase in the demand for safe assets, a flight to quality, sent the
                                                    yield on Treasury bills down to a few hundredths of a percent. By
                                                    further reducing asset values and potentially restricting the flow
                                                    of credit to households and businesses, these developments pose a
                                                    direct threat to economic growth.

                                                 Former Treasury Secretary Timothy Geithner testified before Congress in
                                             September 2009, that systemic risk included “the extent to which we are reliant on
                                             very short-term funding that can flee in a heartbeat. And that is what brought the
                                             system crashing down.” He further explained, “How you are funded is as important
                                             to how much risk you take. In fact, they are totally and completely related. And it is
                                             this mismatch between very short-term liabilities that can run and long-term assets
                                             that are liquid that allow the risk in them that creates the inherent vulnerability to
                                             crisis.”

                                             Commercial Paper
                                             What does this indicator demonstrate? Commercial paper is a form of short-term
                                             debt issued by large banks and corporations that matures in 270 days or less. It
                                             may be backed by other financial assets or unsecured. Companies with strong
                                             credit may issue unsecured commercial paper that is not backed by collateral.
                                             Firms generally “roll over” outstanding issues of commercial paper, selling new
                                             commercial paper to pay off previously issued, maturing paper.

                                             How does it connect firms to each other? A bank’s ability to borrow from other
                                             institutions in the commercial paper market expands its available funding beyond
                                             traditional channels, like deposits, allowing that bank to leverage up its balance
                                             sheet. Banks can use their borrowings to acquire riskier assets that earn higher
                                             profits.

                                             How could it threaten financial stability? Commercial paper is considered “hot
                                             money” because borrowers repeatedly roll them over when the loan comes due.
                                             Banks that are overly reliant on “wholesale” funding (including commercial paper,
                                             repos, and brokered deposits, rather than traditional deposits) using short-term
                                             liabilities to fund long-term assets, are exposed to wholesale funding markets that
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   357




are subject to runs, and liquidity freezes, requiring banks to either raise capital or
sell assets to meet short-term debt requirements.

How did it contribute to the financial crisis and TARP? Money market funds are
the largest buyers of commercial paper. As then-Treasury Secretary Paulson
testified before Congress in requesting TARP authorization, “There is $1.7 trillion
of commercial paper even in the money markets. Commercial paper is short-
term lending for businesses and businesses need this money to flow, to fund daily
operations. If they can’t use that, it all goes back on the banks and it creates a big
problem.”
    When Lehman Brothers failed, the Reserve Primary Fund – a prime money
market mutual fund that had $785 million in exposure to Lehman Brothers –
“broke the buck” when its net asset value (“NAV”) fell below $1, to 97 cents per
share. Although Lehman Brother’s commercial paper represented only a small
portion of the Reserve Fund’s total assets (about 1.2%), investors were concerned
about the value of the fund’s other holdings. Fearing for the value of their
investments, worried investors pulled their money out of the fund, which saw its
assets decline by nearly two thirds in about 24 hours. Disruptions quickly spread
to other parts of the money market. In a flight to quality, investors dumped their
commercial paper holdings and increased their holdings in seemingly safer money
market funds and Treasury bonds.
    After Lehman Brothers failed, investors lost the appetite to hold unsecured
commercial paper from any large financial institution. Then-Chairman Bernanke
testified to Congress about AIG’s bailout, “Money market mutual funds and others
that held AIG’s roughly $20 billion of commercial paper would also have taken
losses ... [AIG’s] failure would have exacerbated the problems of the money market
mutual funds.”
    An unprecedented increase in the rates on commercial paper soon followed,
creating problems for borrowers, particularly for financial companies, as well as
for nonfinancial corporations that used commercial paper to pay their immediate
expenses such as payroll. The broad-based run on commercial paper markets raised
the prospect of some of the largest companies in the United States losing the
capacity to fund and access commercial paper markets.
358   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.10
                                                           COMMERCIAL PAPER
                                                           (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                            4%




                                                             3




                                                             2




                                                             1




                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 JPMorgan has significantly higher commercial paper outstanding than the
                                             other banks, a level that has increased from 2.3% of liabilities in June 2009 to 3.2%
                                             of liabilities in June 2014. In June 2008, Bank of America’s commercial paper
                                             outstanding was higher than the other banks at 3.9% of liabilities, but it reduced it
                                             to virtually zero in June 2014. The bank with the third highest level of commercial
                                             paper outstanding in June 2008 was Wells Fargo at 1.9%, which it has reduced to
                                             0.3% in June 2014. Citigroup has decreased its commercial paper outstanding from
                                             1.7% in June 2008 to 0.9% in June 2014, which is the second highest level of usage
                                             for these banks. Morgan Stanley and Goldman Sachs have historically had very low
                                             levels of commercial paper outstanding.

                                             Securities Sold Under Agreements To Repurchase — Repo Borrowing
                                             (A Liability)
                                             What does this indicator demonstrate? Used to borrow cash short-term, in this
                                             transaction (also called a repurchase agreement, or “repo”), the borrowing
                                             bank agrees to “sell” securities temporarily and to “repurchase” the securities,
                                             or equivalent ones, from the lender at a later date. Under the agreement, the
                                             borrowing bank hands over securities as collateral and a fee to the lender. The
                                             bank selling the security, agreeing to repurchase it in the future, considers this
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   359




transaction a repo; the other party buying the security, agreeing to sell it in the
future, deems it a reverse repo.

How does it connect firms to each other? A bank’s ability to borrow from other
institutions in the short-term repo market expands its available funding beyond
traditional channels, like deposits, allowing that bank to leverage up its balance
sheet. Banks can use these borrowings to acquire riskier assets that earn higher
profits.

How could it threaten financial stability? Repos are renewed, or “rolled over,”
frequently and, for that reason, can be considered “hot money” because lenders can
quickly move in and out of these investments on short-notice. When a bank relies
on short-term funding (such as overnight) to finance its longer-term positions, a
sudden loss of funding can force the bank to sell assets at low market prices (fire
sales), or potentially suffer through collateral pressure.

How did it contribute to the financial crisis and TARP? Banks often used mortgage-
related securities as collateral to obtain repo loans. When the market value of
the collateral fell, the repo lenders demanded more collateral from the borrower
to back the repo loan. As the quality of mortgage-related assets deteriorated and
confidence in these financial products plummeted, repo lenders became less and
less willing to accept any collateral with potential subprime exposure, or to extend
credit to banks that appeared to be exposed to the mortgage market. Repo lenders
cared just as much about the health of the repo borrower as about the quality of
the collateral. Repo lenders also insisted on ever-shorter maturities, eventually of
just one day – an inherently destabilizing stipulation, because it gave lenders the
option to quickly pull their funding if they lost confidence in the borrower. Former
Treasury Secretary Paulson explained to the Financial Crisis Inquiry Commission
in May 2010, “the lending practices were very sloppy and borrowing practices....
If I’m repoing a mortgage security, and you’re giving me 100% of the value lending
on that, and not asking for a haircut, that’s sloppy. And so, what happened was,
there was an assumption you could keep borrowing at ‘full value’ on these securities
when they were dropping in value.”
360   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.11
                                                           REPO BORROWING
                                                           (AS A PERCENTAGE OF TOTAL LIABILITIES)
                                                           30%




                                                            25




                                                            20




                                                            15




                                                            10




                                                             5




                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 Morgan Stanley and Goldman Sachs continue with the highest levels of repo
                                             borrowings. Morgan Stanley started off with 17.6% of liabilities in repo borrowing
                                             in June 2009, had a sharp increase in June 2010 to 28.2%, which decreased to
                                             18.9% in June 2014. Goldman Sachs increased its repo borrowing over these
                                             years from 18.5% of total liabilities in June 2009 to 20.9% in June 2013, before
                                             decreasing to 15% in June 2014. Citigroup’s repo borrowing increased to 12.9% of
                                             liabilities in June 2013 from 12.4% in June 2008, but also decreased to 10.8% in
                                             June 2014. Bank of America’s repo borrowing spiked in June 2012, but overall has
                                             slightly decreased from 14.1% of liabilities in June 2008 to 11.3% in June 2014.
                                             JPMorgan has had the most fluctuations over these years, but has slightly reduced
                                             its use from 11.2% of liabilities in June 2008 to 9.4% in June 2014. Wells Fargo
                                             does not have as much repo borrowing as the other five banks, but increased its
                                             usage from 1.1% in June 2008 to 3.1% in June 2014.

                                             Securities Purchased Under Agreements To Resell — Repo Lending
                                             (An Asset)
                                             What does this indicator demonstrate? Used as a way to lend cash short-term, in
                                             this transaction (also called a reverse repurchase agreement or reverse repo), the
                                             lending bank agrees to “purchase” securities temporarily from the borrower and
                                             to resell the securities, or equivalent ones, back to the borrower at a later date. In
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   361




exchange, the lending bank receives both securities as collateral and a fee from the
borrower.

How does it connect firms to each other? A repo agreement effectively creates a
secured loan with the securities as collateral. A repo borrower can use the cash
it obtains to buy higher yielding securities, while the repo lender can sell the
collateral if the borrower fails to pay. Experience has shown, however, that the
collateral securities may not serve as sufficient protection to the repo lender if the
repo borrower becomes insolvent or fails.

How could it threaten financial stability? Repos are typically undertaken on the
basis that the repo lender will sell collateral securities immediately following a
borrower’s default in order to be able to recover its cash. Collateral fire sales may
lead to market turmoil, especially if the defaulting repo borrower’s pool of collateral
assets is large relative to the market and concentrated in less liquid asset classes.
The sudden influx of collateral assets for sale puts downward pressure on prices,
with contagion to other financial institutions that have used similar securities as
collateral or hold them in their trading portfolios.

How did it contribute to the financial crisis and TARP? The $2.8 trillion “tri-party”
repo market started to break down as short-term lenders began demanding more
collateral. This made it increasingly difficult for some banks to finance themselves
and created more and more liquidity pressure on them. Regulators arranged
support to Bear Stearns because they believed the bank’s collapse threatened to
freeze the tri-party repo market, leaving short-term lenders with collateral they
would try to dump on the market causing a significant drop in asset prices. As
Former Chairman Bernanke explained to the Financial Crisis Inquiry Commission,
“Another element…that comes up a lot is interconnectedness. Which means,
for example, Bear Stearns, which is not that big a firm, our view on why it was
important to save it—you may disagree—but our view was that because it was so
essentially involved in this critical repo financing market, that its failure would have
brought down that market, which would have had implications for other firms.”
362   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             What does this currently indicate about interconnectedness?

                                                           FIGURE 6.12
                                                           REVERSE REPOS
                                                           (AS A PERCENTAGE OF TOTAL ASSETS)
                                                           45%


                                                            40


                                                            35


                                                            30


                                                            25


                                                            20


                                                            15


                                                            10


                                                             5


                                                             0
                                                                     2008        2009        2010       2011        2012        2013        2014


                                                                     Bank of America                JPMorgan                    Morgan Stanley
                                                                     Citigroup                      Goldman Sachs               Wells Fargo

                                                                  Source: FR Y-9C data, June 2008 – June 2014. See pages 363-369 for more
                                                                  information.


                                                 Morgan Stanley and Goldman Sachs have consistently had higher levels of
                                             repo lending than the other banks. Goldman Sachs had the highest levels of repo
                                             lending at 32.5% of total assets in June 2014. Goldman Sachs repo lending stayed
                                             near 40% of total assets between June 2009 and June 2011, before dropping
                                             beginning in June 2012. Morgan Stanley’s repo lending dropped from 40% in
                                             June 2010 to 31% of total assets in June 2014. Citigroup’s levels of repo lending
                                             increased from 10.5% in June 2008 to 14.5% of total assets in June 2011, before
                                             decreasing during the next three years to 13.1% in June 2014. Bank of America’s
                                             repo lending spiked from 6.2% in June 2008 to 11.5% in June 2011, before
                                             decreasing slightly to 11.1% in June 2014, still above June 2009 levels. JPMorgan’s
                                             repo lending fluctuated, decreasing one year, then increasing the next between
                                             June 2008 to June 2012, before it decreased in June 2013, and again in June 2014
                                             to 14.4% of assets. Wells Fargo has not engaged in a significant amount of repo
                                             lending compared to the other banks and was at 1.9% of total assets in June 2014.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014           363




INDICATORS OF INTERCONNECTEDNESS
This information is collected from publicly available data submitted by JPMorgan (JPM), Bank of America (BAC),
Citigroup (C), Wells Fargo (WFC), Goldman Sachs (GS), and Morgan Stanley (MS) to the Federal Reserve (in quarterly
Consolidated Financial Statements known as “FR Y-9C” reports), indicating how the banks remain interconnected to each
in June 2014, as they were in June 2008.

TABLE 6.1
 TOTAL ASSETS      (000’s)

                     2008               2009              2010              2011             2012              2013              2014
 BAC        $1,723,269,816     $2,256,059,674    $2,370,594,235   $2,264,435,837    $2,162,083,396   $2,125,686,000    $2,172,001,000
 C           2,100,385,000      1,851,914,000     1,937,656,000     1,956,626,000    1,916,451,000     1,883,988,000     1,909,715,000
 JPM         1,775,670,000      2,026,642,000     2,014,019,000     2,246,764,000    2,290,146,000     2,439,494,000     2,520,336,000
 GS                      N/A     890,137,000        883,529,000      937,192,000      948,981,000       938,611,000        860,008,000
 MS                      N/A     676,957,000        808,930,000      830,747,000      748,517,000       802,691,000        826,568,000
 WFC          609,074,000       1,284,176,000     1,225,862,000     1,259,734,000    1,336,204,000     1,440,563,000     1,598,874,000


TABLE 6.2
 TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES (AS A PERCENTAGE
 OF TOTAL ASSETS)
                 2008            2009           2010         2011          2012          2013          2014
 BAC             28.5%          24.1%           25.2%       26.7%          26.1%         24.8%         24.6%
 C               34.1%          28.3%           29.9%       31.0%          30.8%         31.0%         30.5%
 JPM             36.4%          37.0%           35.1%       34.6%          33.5%         30.9%         28.0%
 GS                N/A          38.4%           36.9%       38.6%          40.9%         39.5%         39.8%
 MS                N/A          43.4%           39.9%       35.3%          33.4%         35.7%         37.9%
 WFC             16.6%          19.2%           16.7%       19.1%          21.8%         21.4%         20.1%
364    SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 6.3
       BANK OF AMERICA (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE
       SECURITIES)
                                     2008          2009            2010    2011    2012    2013                 2014
       U.S. Treasuries               4.4%           4.7%           12.6%   11.9%   13.1%    8.3%               13.0%
       U.S. Govt Agency
                                     2.5%           1.8%            2.0%    1.0%    1.3%    0.9%                 1.1%
       Obligations
       Municipal obligations         3.5%           3.6%            4.1%    3.0%    2.4%    2.2%                 2.8%
       Mortgage-backed
                                    53.1%          42.2%           43.3%   46.3%   49.1%   49.8%               42.3%
       securities (MBS)
       Asset-backed securities
       (ABS) and other debt         15.3%          16.9%           17.1%   17.1%   17.5%   17.5%               18.6%
       securities
       Structured financial
                                      N/A           1.1%            0.9%    0.5%    0.4%    0.9%                 1.0%
       products
       Investments in equity
                                     5.9%           2.2%            0.6%    3.4%    0.2%    0.8%                 1.1%
       securities/funds
       Loans                         0.6%           1.4%            0.8%    0.6%    0.6%    1.2%                 1.6%
       Other trading assets          5.0%           7.6%            5.4%    7.1%    5.7%    8.8%               10.5%
       Derivatives with
                                     9.6%          18.5%           13.4%    9.0%    9.5%    9.6%                 8.0%
       positive fair value


       CITIGROUP (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                                     2008          2009            2010    2011    2012    2013                 2014
       U.S. Treasuries               2.5%           3.3%           10.6%    9.5%   13.1%   14.3%               18.4%
       U.S. Govt Agency
                                     4.4%           4.0%            8.4%    8.2%    5.9%    4.2%                 2.9%
       Obligations
       Municipal obligations         4.2%           4.5%            3.8%    3.3%    4.0%    3.7%                 2.7%
       Mortgage-backed
                                    14.3%          15.1%           11.0%   11.9%   14.9%   16.2%               12.5%
       securities (MBS)
       Asset-backed securities
       (ABS) and other debt         39.2%          41.5%           43.8%   46.2%   39.5%   37.9%               39.2%
       securities
       Structured financial
                                      N/A           2.2%            2.5%    1.1%    0.9%    1.5%                 1.5%
       products
       Investments in equity
                                     0.6%           1.2%            1.0%    1.0%    0.6%    0.7%                 1.0%
       securities/funds
       Loans                         5.4%           3.7%            2.6%    2.8%    2.4%    2.3%                 2.2%
       Other trading assets         15.0%          10.6%            6.4%    6.9%    8.3%    9.6%               11.0%
       Derivatives with
                                    14.5%          13.8%            9.7%    9.0%   10.3%    9.7%                 8.7%
       positive fair value
                                                                                                   Continued on next page
                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014       365




JPMORGAN (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                          2008    2009     2010      2011          2012                 2013        2014
U.S. Treasuries            4.3%    2.3%     3.0%      2.5%          4.0%                 7.2%        7.1%
U.S. Govt Agency
                           1.4%    5.6%     3.1%      1.2%          1.2%                 0.8%        0.5%
Obligations
Municipal obligations      2.4%    2.1%     2.1%      2.6%          4.9%                 4.9%        5.0%
Mortgage-backed
                          20.6%   33.6%    30.1%     28.3%        27.1%                26.5%        22.4%
securities (MBS)
Asset-backed securities
(ABS) and other debt      22.0%   28.3%    29.9%     29.7%        29.1%                27.5%        28.1%
securities
Structured financial
                           N/A     2.4%     2.7%      2.8%          4.1%                 3.8%        4.2%
products
Investments in equity
                           0.3%    0.3%     0.3%      0.4%          0.3%                 0.3%        0.5%
securities/funds
Loans                     10.4%    4.2%     4.5%      4.7%          4.5%                 5.1%        4.7%
Other trading assets      19.6%    8.4%    13.0%     17.9%        13.9%                14.1%        18.7%
Derivatives with
                          19.0%   13.0%    11.3%      9.8%        10.8%                  9.8%        8.8%
positive fair value


GOLDMAN SACHS (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE
SECURITIES)
                          2009    2010     2011      2012          2013                 2014
U.S. Treasuries            7.6%   11.7%     9.2%     11.6%        14.5%                12.8%
U.S. Govt Agency
                           4.7%    3.9%     2.4%      3.6%          1.5%                 1.7%
Obligations
Municipal obligations      0.9%    0.7%     0.9%      0.9%          0.4%                 0.4%
Mortgage-backed
                          17.5%   15.5%    16.8%     16.2%        14.5%                14.4%
securities (MBS)
Asset-backed securities
(ABS) and other debt      22.8%   23.6%    24.2%     23.9%        22.8%                21.5%
securities
Structured financial
                           0.3%    0.5%     0.9%      0.8%          0.8%                 0.7%
products
Investments in equity
                           0.2%    0.1%     0.0%      0.1%          0.0%                 0.0%
securities/funds
Loans                      7.5%    6.8%     6.1%      3.3%          4.0%                 2.7%
Other trading assets      18.5%   20.5%    24.5%     21.8%        23.3%                30.0%
Derivatives with
                          20.1%   16.6%    15.0%     17.8%        18.0%                15.8%
positive fair value
                                                                           Continued on next page
366   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      MORGAN STANLEY (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-
      SALE SECURITIES)
                                    2009           2010           2011    2012    2013    2014
      U.S. Treasuries                5.0%         10.7%            7.7%   14.9%   14.4%   19.0%
      U.S. Govt Agency
                                     8.9%          6.4%            1.7%    3.3%    2.1%    1.0%
      Obligations
      Municipal obligations          1.5%          1.0%            1.1%    1.1%    0.6%    0.5%
      Mortgage-backed
                                   10.3%          10.7%           13.2%   15.5%   14.6%   11.0%
      securities (MBS)
      Asset-backed securities
      (ABS) and other debt         21.5%          22.6%           27.8%   23.1%   20.8%   18.8%
      securities
      Structured financial
                                     0.6%          1.2%            1.3%    0.9%    1.0%    0.9%
      products
      Investments in equity
                                     0.0%          0.1%            0.0%    0.0%    0.0%    0.0%
      securities/funds
      Loans                        11.0%           7.7%            4.1%    3.2%    2.5%    3.1%
      Other trading assets         21.2%          22.9%           27.9%   24.8%   31.0%   35.7%
      Derivatives with
                                   19.8%          16.7%           15.3%   13.2%   13.1%   10.0%
      positive fair value


      WELLS FARGO (COMPOSITION OF TRADING ASSETS AND AVAILABLE-FOR-SALE SECURITIES)
                                    2008           2009           2010    2011    2012    2013    2014
      U.S. Treasuries                0.7%          1.0%            1.5%    1.4%    2.0%    2.4%    4.2%
      U.S. Govt Agency
                                     1.0%          1.9%            2.2%    5.5%    1.5%    3.0%    3.1%
      Obligations
      Municipal obligations          7.5%          5.5%            8.7%   11.0%   13.7%   14.1%   14.7%
      Mortgage-backed
                                   67.5%          64.4%           53.3%   50.8%   52.7%   51.4%   50.6%
      securities (MBS)
      Asset-backed securities
      (ABS) and other debt         13.2%          13.9%           17.7%   16.2%   16.0%   14.9%   11.2%
      securities
      Structured financial
                                      N/A          1.6%            2.7%    3.5%    3.4%    6.1%    7.0%
      products
      Investments in equity
                                     3.6%          2.4%            2.5%    1.8%    1.0%    0.9%    1.2%
      securities/funds
      Loans                          0.0%          0.0%            0.0%    0.0%    0.0%    0.4%    0.6%
      Other trading assets           2.0%          1.1%            1.5%    2.2%    1.9%    2.2%    3.6%
      Derivatives with
                                     4.5%          8.2%           10.0%    7.5%    7.8%    4.6%    3.9%
      positive fair value
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014          367




TABLE 6.4
 LEVEL 3 ASSETS (AS A PERCENTAGE OF TOTAL ASSETS)
                 2009            2010              2011           2012           2013            2014
 BAC              5.4%           3.8%               3.2%           1.9%           1.5%            1.3%
 C                6.1%           4.3%               3.3%           2.7%           2.4%            2.3%
 JPM              6.8%           5.9%               4.9%           4.5%           2.8%            2.4%
 GS               7.0%           5.8%               5.5%           5.3%           4.9%            5.0%
 MS               8.7%           6.7%               5.7%           4.8%           3.1%            2.7%
 WFC              4.8%           3.9%               3.8%           3.7%           2.9%            2.2%


TABLE 6.5
 OTHER BORROWED MONEY & SUBORDINATED NOTES (AS A PERCENTAGE OF TOTAL
 LIABILITIES)
                 2008            2009              2010           2011           2012            2013           2014
 BAC             24.6%          27.2%              26.4%          23.4%         17.7%            16.3%         15.7%
 C               27.2%          26.8%              28.6%          23.9%         20.1%            16.6%         16.9%
 JPM             22.6%          21.9%              22.9%          20.7%         17.5%            18.3%         18.1%
 GS                N/A          31.1%              29.8%          30.6%         27.3%            26.7%         30.3%
 MS                N/A          30.3%              24.9%          29.1%         27.6%            24.0%         21.9%
 WFC             31.7%          23.0%              18.4%          14.5%         12.2%            11.1%         13.0%


TABLE 6.6
 DERIVATIVE LIABILITIES (AS A PERCENTAGE OF TOTAL LIABILITIES)
                 2008            2009              2010           2011           2012            2013           2014
 BAC              1.3%           2.5%               2.9%           2.5%           2.6%            2.4%          1.8%
 C                5.9%           3.8%               3.3%           3.7%           3.4%            3.1%          2.8%
 JPM              5.9%           3.6%               3.3%           3.1%           3.6%            2.9%          2.2%
 GS                N/A           8.2%               7.1%           5.5%           6.0%            6.0%          5.9%
 MS                N/A           6.9%               6.4%           5.3%           5.1%            5.7%          4.7%
 WFC              0.2%           0.6%               0.8%           0.9%           1.2%            0.6%          0.5%


TABLE 6.7
 CREDIT DERIVATIVES SOLD          (000’s)

                     2008                   2009                2010              2011                2012              2013                2014
 BAC        $1,356,142,973     $2,647,500,566       $2,444,637,106      $2,031,317,220      $1,646,433,518    $1,560,454,000    $1,302,648,000
 C           1,726,043,000      1,365,688,000        1,181,324,000        1,352,785,000      1,383,774,000     1,360,849,000     1,107,165,000
 JPM         5,007,989,000      3,326,008,000        2,746,166,000        3,092,913,000      3,013,849,000     3,102,861,000     2,434,227,000
 GS                      N/A    2,977,776,000        2,145,116,000        2,081,314,000      1,871,017,000     1,709,995,000     1,338,608,000
 MS                      N/A    2,789,703,000        2,234,662,000        2,866,302,000      2,160,584,000     1,740,881,000     1,122,335,000
 WFC             1,025,000       105,173,000               59,743,000       44,536,000          29,551,000        22,527,000        15,612,000
368           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 6.8
       CREDIT DERIVATIVES BOUGHT          (000’s)

                           2008              2009                 2010              2011              2012              2013               2014
       BAC         1,337,181,255     2,650,678,318     2,444,185,049        2,107,064,575     1,683,485,453     1,568,773,000      1,328,216,000
       C           1,874,595,000     1,480,266,000     1,290,479,000        1,472,477,000     1,489,129,000     1,427,296,000      1,169,586,000
       JPM         5,224,083,000     3,487,227,000     2,697,695,000        3,012,524,000     3,001,170,000     3,132,788,000      2,665,454,000
       GS                      N/A   3,149,806,000     2,291,587,000        2,222,651,000     1,980,549,000     1,790,159,000      1,416,260,000
       MS                      N/A   2,895,483,000     2,285,865,000        2,887,766,000     2,146,260,000     1,717,922,000      1,117,048,000
       WFC            2,379,000       116,517,000            62,190,000       42,516,000        31,491,000        26,239,000         19,683,000


      TABLE 6.9
       CDS OUTSTANDING FOR WHICH THE BANK IS A REFERENCE ENTITY (GROSS NOTIONAL)
                            2008               2009                 2010              2011               2012              2013                2014
       BAC                     N/A 101,671,155,302      76,869,071,074       79,766,387,586    85,827,723,648     58,042,670,084     54,728,891,766
       C                       N/A   56,186,042,866     53,252,443,648       55,622,112,811    64,975,971,946     48,032,222,237     38,251,674,130
       JPM                     N/A 119,233,578,679      81,346,125,810       83,393,010,123    82,593,442,781     56,234,013,304     44,414,999,405
       GS                      N/A   68,046,203,478     63,869,374,264       68,545,728,444    75,738,112,171     58,662,039,398     42,227,236,738
       MS                      N/A   71,333,226,421     66,025,144,827       72,138,088,976    82,301,264,223     62,112,044,546     42,666,038,163
       WFC                     N/A   95,022,067,874     58,472,934,008       61,598,271,285    57,745,932,380     43,443,110,071     30,044,687,963



      TABLE 6.10
       COMMERCIAL PAPER (AS A PERCENTAGE OF TOTAL LIABILITIES)
                       2008           2009           2010           2011           2012          2013           2014
       BAC              3.9%          0.7%            1.1%           0.3%           0.0%          0.0%           0.0%
       C                1.7%          1.7%            2.0%           1.3%           1.2%          1.1%           0.9%
       JPM              3.1%          2.3%            2.2%           2.5%           2.9%          3.2%           3.2%
       GS                N/A          0.1%            0.2%           0.1%           0.1%          0.2%           0.1%
       MS                N/A          0.1%            0.1%           0.1%           0.0%          0.0%           0.0%
       WFC              1.9%          0.6%            0.6%           0.3%           0.4%          0.3%           0.3%


      TABLE 6.11
       REPOS (AS A PERCENTAGE OF TOTAL LIABILITIES)
                       2008           2009           2010           2011           2012          2013           2014
       BAC            14.1%          13.1%           14.3%          11.7%         14.8%          12.3%          11.3%
       C              12.4%          10.8%           11.0%          11.4%         12.3%          12.9%          10.8%
       JPM            11.2%          15.7%           12.6%          12.2%         12.4%          11.6%           9.4%
       GS                N/A         18.5%           19.9%          19.7%         19.4%          20.9%          15.0%
       MS                N/A         17.6%           28.2%          22.2%         20.6%          23.0%          18.9%
       WFC              1.1%          1.4%            2.5%           3.1%           2.9%          2.9%           3.1%
                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014   369




TABLE 6.12
 REVERSE REPOS (AS A PERCENTAGE OF TOTAL ASSETS)
             2008     2009       2010       2011         2012          2013          2014
 BAC          6.2%     8.7%      11.3%     11.5%        11.2%          11.1%         11.1%
 C           10.5%     9.9%      11.9%     14.5%        14.2%          14.0%         13.1%
 JPM         17.8%    14.2%      15.9%     14.9%        17.2%          15.1%         14.4%
 GS           N/A     41.9%      42.8%     38.6%        36.8%          36.1%         32.5%
 MS           N/A     33.9%      40.0%     37.7%        37.7%          33.8%         31.0%
 WF           0.3%     0.9%       1.0%      2.0%          2.5%          2.3%          1.9%
                     ENDNOTES
370            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      1.	    Treasury, Treasury Notes, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.
             gov/connect/blog/Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 10/6/2014;
             Treasury, “Obama Administration Extends Deadline for Making Home Affordable Program,” 5/30/2013, www.makinghomeaffordable.gov/about-
             mha/latest-news/Pages/Obama-Administration-Extends-Deadline-for-Making-Home-Affordable-Program.aspx, accessed 10/6/2014; Treasury
             Press Release, “Secretary Lew Unveils New Efforts to Assist Struggling and Prospective Homeowners, Provide More Affordable Options for
             Renters,” 6/26/2014, www.treasury.gov/press-center/press-releases/Pages/jl2444.aspx, accessed 10/6/2014.
      2.	    SIGTARP, “Reports & Audits,” www.sigtarp.gov/pages/reportsaudits.aspx, accessed 10/6/2014.
      3.	    Treasury Press Release, “Secretary Lew Unveils New Efforts to Assist Struggling and Prospective Homeowners, Provide More Affordable
             Options for Renters,” 6/26/2014, www.treasury.gov/press-center/press-releases/Pages/jl2444.aspx, accessed 10/6/2014.
      4.	    SIGTARP, analysis of complaints received from homeowners participating in or seeking MHA assistance.
      5.	    SIGTARP, analysis of complaints received from homeowners participating in or seeking MHA assistance.
      6.	    SIGTARP Press Statement, “$320 Million Non-Prosecution Agreement Reached with TARP Recipient SunTrust Bank for Harming
             Homeowners Who Sought HAMP Home Loan Modifications,” 7/3/2014, www.sigtarp.gov/Statements/Romero_Remarks_on_SunTrust_
             Nonprosecution_Agreement.pdf, accessed 10/6/2014.
      7.	    Consumer Financial Protection Bureau, “CFPB Bulletin 2013-01,” 2/11/2013, files.consumerfinance.gov/f/201302_cfpb_bulletin-on-servicing-
             transfers.pdf, accessed 10/6/2014.
      8.	    Consumer Financial Protection Bureau, “Bulletin 2014-01,” 8/19/2014, files.consumerfinance.gov/f/201408_cfpb_bulletin_mortgage-servicing-
             transfer.pdf, accessed 10/6/2014.
      9.	    Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.24 - 28, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014.
      10.	   SIGTARP, analysis of Treasury Press Releases, www.treasury.gov/press-center/Pages/default.aspx, accessed 10/6/2014; SIGTARP, analysis of
             “Making Home Affordable Program Performance Reports,” (including Quarterly Servicer Assessments), www.treasury.gov/initiatives/financial-
             stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014.
      11.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.24 - 28, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014; SIGTARP, analysis of Treasury Press Releases,
             www.treasury.gov/press-center/Pages/default.aspx, accessed 10/6/2014; SIGTARP, analysis of “Making Home Affordable Program Performance
             Reports,” (including Quarterly Servicer Assessments), www.treasury.gov/initiatives/financial-stability/reports/Pages/Making-Home-Affordable-
             Program-Performance-Report.aspx, accessed 10/6/2014.
      12.	   SIGTARP, analysis of MHA Compensation Matrix, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
             mhacompensationmatrix01242014.pdf, accessed 10/6/2014.
      13.	   Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/financial-stability/reports/Pages/TARP-Housing-
             Transaction-Reports.aspx accessed 10/17/2014.
      14.	   Treasury, “Commitment to Purchase Financial Instrument and Servicer Participation Agreement,” pp.9 -10, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/servicerparticipationagreement.pdf, accessed 10/6/2014.
      15.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.24 - 28, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014.
      16.	   Treasury, “Commitment to Purchase Financial Instrument and Servicer Participation Agreement,” pp.9 - 10, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/servicerparticipationagreement.pdf, accessed 10/6/2014.
      17.	   SIGTARP, analysis of complaints received from homeowners participating in or seeking MHA assistance.
      18.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
             pdf, accessed 10/6/2014.
      19.	   SIGTARP, analysis of complaints received from homeowners participating in or seeking MHA assistance.
      20.	   U.S. Department of Justice, Restitution and Remediation Agreement with SunTrust, www.sec.gov/Archives/edgar/
             data/750556/000075055614000139/hampfinalagreementcombined.htm, accessed 10/6/2014.
      21.	   U.S. Department of Justice, Restitution and Remediation Agreement with SunTrust, www.sec.gov/Archives/edgar/
             data/750556/000075055614000139/hampfinalagreementcombined.htm, accessed 10/6/2014.
      22.	   U.S. Department of Justice, Restitution and Remediation Agreement with SunTrust, www.sec.gov/Archives/edgar/
             data/750556/000075055614000139/hampfinalagreementcombined.htm, accessed 10/6/2014.
      23.	   Treasury, Supplemental Directive 11-12, “Making Home Affordable Program – Servicing Transfers,” 12/27/2011, available at www.hmpadmin.
             com/portal/programs/docs/hamp_servicer/sd1112.pdf, accessed 9/26/2014.
      24.	   Pursuant to Supplemental Directive 11-12, transfers resulting from mergers, acquisitions or other changes of control of the original servicer
             were required to be provided “as soon as legally possible.”
      25.	   SIGTARP, analysis of “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.110-112,
             www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014.
      26.	   Consumer Financial Protection Bureau, “CFPB Bulletin 2013-01,” 2/11/2013, files.consumerfinance.gov/f/201302_cfpb_bulletin-on-servicing-
             transfers.pdf, accessed 10/6/2014.
      27.	   Consumer Financial Protection Bureau, “Bulletin 2014-01,” 8/19/2014, files.consumerfinance.gov/f/201408_cfpb_bulletin_mortgage-servicing-
             transfer.pdf, accessed 10/6/2014.
      28.	   Treasury, “Making Home Affordable Program Performance Reports,” (including Q2 2014 MHA Servicer Assessments), www.treasury.gov/
             initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’
             Report,” Fiscal Year 2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed
             10/6/2014.
      29.	   Treasury, “MHA Servicing Transfers and Job Aid,” www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhaservicingtransfers.pdf, accessed
             10/6/2014.
      30.	   Treasury, “Making Home Affordable Program Performance Reports,” (including Q2 2014 MHA Servicer Assessments), www.treasury.gov/
             initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                 371


       Report,” Fiscal Year 2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed
       10/6/2014.
31.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.35-36, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014.
32.	   Treasury, “Making Home Affordable Program Performance Reports,” (including Q2 2014 MHA Servicer Assessments), www.treasury.gov/
       initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’
       Report,” Fiscal Year 2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed
       10/6/2014.
33.	   U.S. Department of Justice, Restitution and Remediation Agreement with SunTrust, www.sec.gov/Archives/edgar/
       data/750556/000075055614000139/hampfinalagreementcombined.htm, accessed 10/6/2014.
34.	   Consumer Financial Protection Bureau, “CFPB Bulletin 2013-01,” 2/11/2013, files.consumerfinance.gov/f/201302_cfpb_bulletin-on-servicing-
       transfers.pdf, accessed 10/6/2014; Consumer Financial Protection Bureau, “Bulletin 2014-01,” 8/19/2014, files.consumerfinance.gov/f/201408_
       cfpb_bulletin_mortgage-servicing-transfer.pdf, accessed 10/6/2014.
35.	   SIGTARP, analysis of Treasury Press Releases, www.treasury.gov/press-center/Pages/default.aspx, accessed 10/6/2014; SIGTARP, analysis of
       “Making Home Affordable Program Performance Reports,” (including Quarterly Servicer Assessments), www.treasury.gov/initiatives/financial-
       stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014.
36.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
       Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/6/2014.
37.	   Treasury, “Making Home Affordable, Program Performance Report Through April 2011,” www.treasury.gov/initiatives/financial-stability/reports/
       Documents/April%202011%20MHA%20Report%20FINAL.PDF, accessed 10/6/2014.
38.	   Treasury, “Making Home Affordable Program Performance Reports,” (including Q2 2014 MHA Servicer Assessments), www.treasury.gov/
       initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’
       Report,” Fiscal Year 2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed
       10/6/2014.
39.	   Treasury, “Making Home Affordable Program Performance Reports,” (including Q2 2014 MHA Servicer Assessments), www.treasury.gov/
       initiatives/financial-stability/reports/Pages/Making-Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’
       Report,” Fiscal Year 2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed
       10/6/2014.
40.	   Urban Institute, “Nonbank Specialty Servicers: What’s the Big Deal?,” August 2014, www.urban.org/UploadedPDF/413198-Nonbank-Speciality-
       Servicers-Whats-the-Big-Deal.pdf, accessed 10/17/2014.
41.	   SEC EDGAR database, Q2 2011 and Q2 2014, Quarterly Financial Report (10-Q) filings of Ocwen Financial Corp., Nationstar Mortgage
       Holdings Inc., and Walter Investment Management Corp, www.sec.gov, accessed 10/17/2014.
42.	   Treasury, “HAMP 1MP: Program Volumes - Combined Tier 1/Tier 2: Top 25 HAMP Servicers – August 2014,” accessed 10/15/2014.
43.	   Treasury response to SIGTARP data call 10/10/2014.
44.	   Treasury, “Making Home Affordable, Program Performance Report Through April 2011,” www.treasury.gov/initiatives/financial-stability/reports/
       Documents/April%202011%20MHA%20Report%20FINAL.PDF, accessed 10/6/2014.
45.	   Treasury response to SIGTARP data call 10/10/2014.
46.	   Treasury, “HAMP Reporting System Servicer Release Notes,” 6/17/2013, www.hmpadmin.com//portal/programs/docs/hamp_servicer/release_
       notes/hampreleasenotes080113.pdf, accessed 10/6/2014.
47.	   Treasury, “MHA Servicing Transfers and Job Aid,” www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhaservicingtransfers.pdf, accessed
       10/6/2014.
48.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, pp.24 - 28, www.
       hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/6/2014; Treasury, “Making Home Affordable Program
       Performance Reports,”(including Q2 2014 MHA Servicer Assessments), www.treasury.gov/initiatives/financial-stability/reports/Pages/Making-
       Home-Affordable-Program-Performance-Report.aspx, accessed 10/6/2014; Treasury, “Citizens’ Report,” Fiscal Year 2013, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/Citizens_Report_FY2013-1-28-14.pdf, accessed 10/6/2014.
49.	   Consumer Financial Protection Bureau, “CFPB Bulletin 2013-01,” 2/11/2013, files.consumerfinance.gov/f/201302_cfpb_bulletin-on-servicing-
       transfers.pdf, accessed 10/6/2014; Consumer Financial Protection Bureau, “Bulletin 2014-01,” 8/19/2014, files.consumerfinance.gov/f/201408_
       cfpb_bulletin_mortgage-servicing-transfer.pdf, accessed 10/6/2014.
50.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
51.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
52.	   Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 10/1/2014.
53.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
54.	   Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
55.	   Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009, §202; Dodd-Frank Wall Street Reform and Consumer Protection Act,
       P.L. 111-203, 7/21/2010, §1302.
56.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       10.01.2014.pdf, accessed 10/1/2014.
57.	   Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
       2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014.
58.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014.
59.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       10.01.2014.pdf, accessed 10/1/2014.
60.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       10.01.2014.pdf, accessed 10/1/2014.
372            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      61.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
             Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      62.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
             Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      63.	   Treasury, response to SIGTARP data call, 10/6/2014.
      64.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
             Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      65.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
             Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      66.	   Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
             2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014.
      67.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 10/1/2014; OMB, “Analytical
             Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed
             10/1/2014.
      68.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2015/assets/topics.pdf, accessed 10/1/2014.
      69.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2014/assets/econ_analyses.pdf, accessed 10/1/2014.
      70.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2015/assets/topics.pdf, accessed 10/1/2014.
      71.	   CBO, “Report on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.
             pdf, accessed 10/1/2014; CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/
             attachments/44256_TARP.pdf, accessed 10/1/2014.
      72.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,” 12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 10/1/2014.
      73.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 10/1/2014.
      74.	   Treasury, response to SIGTARP data call, 10/6/2014.
      75.	   Treasury, response to SIGTARP data call, 10/6/2014.
      76.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 10/1/2014.
      77.	   Treasury, “Office of Financial Stability, Agency Financial Report —Troubled Asset Relief Program, Fiscal Year 2013,” 12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 10/1/2014.
      78.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 10/1/2014;
             Treasury, “Principal Reduction Alternative (PRA),” no date, www.makinghomeaffordable.gov/programs/lower-payments/Pages/pra.aspx, accessed
             10/1/2014; Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.hmpadmin.com/portal/news/docs/2009/
             hpdprelease073109.pdf, accessed 10/1/2014.
      79.	   Treasury, response to SIGTARP data call, 10/6/2014.
      80.	   Treasury, response to SIGTARP data call, 10/6/2014.
      81.	   Treasury, response to SIGTARP data call, 10/10/2014.
      82.	   Treasury, response to SIGTARP data call, 10/6/2014.
      83.	   SIGTARP, “Quarterly Report to Congress,” 7/30/2014; www.sigtarp.gov/Quarterly%20Reports/July_30_2014_Report_to_Congress.pdf, accessed
             10/8/2014; Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September 2014,” accessed 10/21/2014.
      84.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 10/1/2014.
      85.	   Treasury, response to SIGTARP data call, 10/6/2014.
      86.	   Treasury, response to SIGTARP data call, 10/6/2014.
      87.	   Treasury, response to SIGTARP data call, 10/6/2014.
      88.	   Treasury, response to SIGTARP data call, 10/6/2014.
      89.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
             AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
             Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2014.
      90.	   Treasury, response to SIGTARP data call, 10/10/2014.
      91.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      92.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/1/2014.
      93.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/1/2014.
      94.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
             Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      95.	   Treasury, response to SIGTARP data call, 10/6/2014.
      96.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      97.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      98.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                 373


        reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
99.	    Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
        2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/
        initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed
        10/2/2014.
100.	   Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
        2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/
        initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed
        10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
101.	   Treasury, response to SIGTARP data call, 10/6/2014.
102.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
103.	   Treasury, response to SIGTARP draft report, 10/8/2010.
104.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
        investment-programs/cdci/Pages/Overview.aspx, accessed 10/1/2014.
105.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
106.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
107.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
108.	   Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
        Dividends%20Interest%20Report.pdf, accessed 10/11/2014.
109.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
        10/1/2014.
110.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
        9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2014.
111.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        10.01.2014.pdf, accessed 10/1/2014.
112.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        10.01.2014.pdf, accessed 10/1/2014.
113.	   Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
        Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 10/1/2014.
114.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
        OFS%20AFR%2009_24.pdf, accessed 10/1/2014.
115.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
116.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
117.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
118.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
        OFS%20AFR%2009_24.pdf, accessed 10/1/2014.
119.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
        center/press-releases/Pages/hp1358.aspx, accessed 10/1/2014.
120.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
        Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
        pdf, accessed 10/1/2014.
121.	   Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2014.
122.	   Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
        TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2014.
123.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
        Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 10/1/2014.
124.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
        Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 10/1/2014.
125.	   Treasury Press Release, “Taxpayers Recover $245.5 Million from Second Ally Trading Plan,” 10/17/2014, www.treasury.gov/press-center/press-
        releases/Pages/jl2668.aspx, accessed on 10/20/2014.
126.	   SIGTARP calculation based on Treasury Press release of 10/17/2014.
127.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale
        of Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 10/1/2014.
128.	   Treasury response to SIGTARP data call, 10/6/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014; Treasury, “Office of Financial Stability – Troubled Asset
        Relief Program Agency Financial Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
        AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 10/1/2014.
129.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
374             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, Daily
              TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf,
              accessed 10/1/2014.
      130.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      131.	   Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
              Dividends%20Interest%20Report.pdf, accessed 10/11/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-
              stability/reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014.
      132.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      133.	   Treasury, response to SIGTARP data call, 10/6/2014.
      134.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      135.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      136.	   Treasury, Blog Posting, “Taxpayers Are One Step Closer to Exiting Ally,” www.treasury.gov/connect/blog/Pages/Taxpayers-are-One-Step-Closer-
              to-Exiting-Ally.aspx, accessed 10/1/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
              Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
              Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 10/1/2014.
      137.	   Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              1.2.2014.pdf, accessed 10/2/2014.
      138.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-
              stability/reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014.
      139.	   Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/10/2014, www.treasury.gov/press-center/press-
              releases/Pages/jl2351.aspx, accessed 10/1/2014.
      140.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      141.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 10/1/2014.
      142.	   Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
              2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014.
      143.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      144.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      145.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      146.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/1/2014.
      147.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
              10/1/2014.
      148.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
              10/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
              TALF_recent_operations.html, accessed 10/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.
              org/markets/cmbs_operations.html, accessed 10/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no
              date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 10/1/2014; FRBNY, response to SIGTARP data call, 10/6/2014.
      149.	   FRBNY, response to SIGTARP data call, 10/9/2014.
      150.	   Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
              Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
              10/1/2014.
      151.	   FRBNY, response to SIGTARP data call, 10/9/2014.
      152.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
              gov/press-center/press-releases/Pages/tg65.aspx, accessed 10/1/2014.
      153.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      154.	   Treasury, response to SIGTARP data call, 10/6/2014.
      155.	   Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
              tg58.aspx, accessed 10/1/2014.
      156.	   Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
              www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 10/1/2014.
      157.	   Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
              President-on-the-mortgage-crisis/, accessed 10/1/2014.
      158.	   Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
              releases/Pages/tg33.aspx, accessed 10/1/2014.
      159.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      160.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                  375


      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
161.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
162.	 Treasury Press Release: “Secretary Lew Unveils New Efforts to Assist Struggling and Prospective Homeowners, Provide More Affordable
      Options for Renters,” 6/26/2014, www.treasury.gov/press-center/press-releases/Pages/jl2444.aspx, accessed 10/1/2014.
163.	 Treasury, response to SIGTARP data call, 6/25/2013.
164.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
      doc11227/03-17-tarp.pdf, accessed 10/1/2014.
165.	 Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      10.01.2014.pdf, accessed 10/8/2014; Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/8/2014.
166.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/1/2014.
167.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2014.
168.	 Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September 2014,” accessed 10/21/2014.
169.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
170.	 Treasury, response to SIGTARP data call, 10/6/2014.
171.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
      5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 10/1/2014.
172.	 Treasury, response to SIGTARP data call, 10/6/2014.
173.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
174.	 Treasury, “Home Affordable Unemployment Program NON GSE Forbearance Plans Worksheet – August 2014,” accessed 10/21/2014.
175.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
176.	 Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September 2014,” accessed 10/21/2014.
177.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
      alternatives.jsp, accessed 10/1/2014.
178.	 Treasury, “HAFA Program Inventory – Program Type – September 2014,” accessed 10/23/2014.
179.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
180.	 Treasury, response to SIGTARP data call, 10/6/2014.
181.	 Treasury, response to SIGTARP data call, 10/6/2014.
182.	 Treasury, “2MP Program Inventory – Program Type by Payor – September 2014,” accessed 10/23/2014.
183.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014; Department of Veterans Affairs, “Revised VA Making Home
      Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed 10/1/2014.
184.	 VA, response to SIGTARP data call, 10/23/2014; Treasury, “FHA & RD HAMP Trial Starts – Program Summary – September 2014,” accessed
      10/23/2014.
185.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2014.
186.	 Treasury, response to SIGTARP data call, 10/6/2014.
187.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2014.
188.	 Treasury, responses to SIGTARP data call, 10/6/2014; Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014; Alabama
      Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.
      aspx, accessed 10/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance
      reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/1/2014; CalHFA Mortgage Assistance Corporation, “Keep
      Your Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/1/2014;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/
      StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/1/2014; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/1/2014;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 10/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      10/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/1/2014; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/1/2014;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
      nv.gov/, accessed 10/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/1/2014; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      10/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 10/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
      date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
376             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
              l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
              Resources/Reports.aspx, accessed 10/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
              keepmytnhome.org/news-and-reports/, accessed 10/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
              Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
              tabid/219/Default.aspx, accessed 10/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      189.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
              AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
              Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/8/2014.
      190.	   Treasury, response to SIGTARP data call, 10/10/2014.
      191.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              10.01.2014.pdf, accessed 10/8/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      192.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              10.01.2014.pdf, accessed 10/8/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      193.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/8/2014.
      194.	   Treasury, responses to SIGTARP data calls, 7/8/2014 and, 10/6/2014.
      195.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA
              Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
              Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014.
      196.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              10.01.2014.pdf, accessed 10/8/2014; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
              Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 10/1/2014; Treasury, briefing to SIGTARP and other Federal agency
              staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
              stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
              Agreement.pdf, accessed 10/1/2014.
      197.	   Treasury, response to SIGTARP data call, 10/6/2014.
      198.	   Treasury, response to SIGTARP data call, 10/6/2014.
      199.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
              pdf, accessed 10/1/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      200.	   Treasury, responses to SIGTARP data call 10/6/2014; Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September
              2014,” accessed 10/21/2014.
      201.	   Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/8/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      202.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/8/2014.
      203.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014 7/8/2014, and 10/6/2014; Treasury, “HFA
              Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
              Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014.
      204.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
              AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
              Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/1/2014.
      205.	   Treasury, responses to SIGTARP data calls, 10/6/2014 and 10/10/2014.
      206.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      207.	   Borrowers who were in a UP plan as of October 1, 2011 were required to be considered for a mandatory extension of forbearance to an
              aggregate total minimum of 12 months. Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version
              4.4,” Chapter III: UP, 3/3/2014, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/17/2014;
              Treasury, “Program Guidance,” www.hmpadmin.com/portal/programs/guidance.jsp, accessed 10/17/2014; SIGTARP Letter to Treasury, “The
              Proposed Unemployed Forbearance May Not Be of Sufficient Duration,” April 20, 2010.
      208.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      209.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      210.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      211.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      212.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      213.	   Treasury, HAMP (UP) Tables, August 2014, accessed 10/16/2014.
      214.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      215.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      216.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      217.	   Treasury, “HAMP 1MP: Program Volumes - Program Type & Payor by Tier - September 2014,” accessed 10/21/2014; Treasury, “HAMP
              1MP Modification Statistics - All Active Permanent Modifications: Modification Characteristics by Occupancy- September 2014,” accessed
              10/22/2014.
      218.	   SIGTARP, “Quarterly Report to Congress,” 7/30/2014; www.sigtarp.gov/Quarterly%20Reports/July_30_2014_Report_to_Congress.pdf, accessed
              10/8/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September 2014,” accessed 10/21/2014.
      219.	   SIGTARP, “Quarterly Report to Congress,” 7/30/2014; www.sigtarp.gov/Quarterly%20Reports/July_30_2014_Report_to_Congress.pdf, accessed
              10/8/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September 2014,” accessed 10/21/2014.
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                377


220.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/1/2014;
      SIGTARP analysis of Treasury HAMP data.
221.	 SIGTARP analysis of Treasury HAMP data.
222.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
223.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
224.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
225.	 Freddie Mac, “Primary Mortgage Market Survey Archives,” www.freddiemac.com/pmms/pmms_archives.html, accessed 10/1/2014; SIGTARP
      analysis of Treasury HAMP data.
226.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
227.	 SIGTARP analysis of Treasury HAMP data.
228.	 SIGTARP analysis of Treasury HAMP data.
229.	 SIGTARP analysis of Treasury HAMP data.
230.	 SIGTARP analysis of Treasury HAMP data.
231.	 SIGTARP analysis of Treasury HAMP data.
232.	 SIGTARP analysis of Treasury HAMP data.
233.	 SIGTARP analysis of Treasury HAMP data.
234.	 SIGTARP analysis of Treasury HAMP data.
235.	 SIGTARP analysis of Treasury HAMP data.
236.	 SIGTARP analysis of Treasury HAMP data.
237.	 Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September 2014,” accessed 10/21/2014; OCC, “Mortgage
      Metrics Report, Second Quarter 2014,” June 2014, www.occ.gov/publications/publications-by-type/other-publications-reports/mortgage-
      metrics-2014/mortgage-metrics-q2-2014.pdf, accessed 10/10/2014; In its “Mortgage Metrics Report, Second Quarter 2014,” OCC compared a
      snapshot of HAMP permanent modifications and private modifications, from the first quarter of 2013 through the first quarter of 2014, between
      three and 15 months after the modifications became effective, and 60 or more days late on payments.
238.	 Treasury, response to SIGTARP data call, 10/10/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September
      2014,” accessed 10/21/2014.
239.	 Treasury, “HAMP 1MP: Program Volumes Supplemental - Current Delinquency Status - September 2014,” accessed 10/23/2014.
240.	 Treasury, HAMP Redefault Tables 1-16 - September 2014 - Delinquency Status by Vintage - September 2014,” accessed 10/23/2014.
241.	 Treasury, HAMP Redefault Tables 1-16 - September 2014 - Delinquency Status by Vintage - September 2014,” accessed 10/23/2014.
242.	 Treasury, response to SIGTARP data call 10/22/2014.
243.	 “SIGTARP, “Quarterly Report to Congress,” 7/30/2014; www.sigtarp.gov/Quarterly%20Reports/July_30_2014_Report_to_Congress.pdf, accessed
      10/8/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September 2014,” accessed 10/21/2014.
244.	 Fannie Mae, response to SIGTARP data call 10/22/2014.
245.	 Treasury, “HAMP 1MP: Program Volumes - Combined Tier 1/Tier 2: Top 25 HAMP Servicers – September 2014,” accessed 10/21/2014.
246.	 Treasury, “HAMP 1MP: Program Volumes - Combined Tier 1/Tier 2: Top 25 HAMP Servicers – September 2014,” accessed 10/21/2014.
247.	 Treasury, response to SIGTARP data call 10/10/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September
      2014,” accessed 10/21/2014.
248.	 Treasury, response to SIGTARP data call 10/10/2014; Treasury, “HAMP 1MP Program Volumes – Program Type and Payor by Tier – September
      2014,” accessed 10/21/2014
249.	 Treasury, response to SIGTARP data call, 10/6/2014.
250.	 Treasury, response to SIGTARP data call, 10/10/2014.
251.	 Treasury, response to SIGTARP data call, 10/10/2014.
252.	 Treasury, response to SIGTARP data call, 10/10/2014.
253.	 Treasury, “HAMP 1MP: Program Volumes Supplemental - Tier 1: State - September 2014,” accessed 10/23/2014.
254.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
255.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
256.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
257.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
258.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
259.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
260.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
261.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
262.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
378            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      263.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      264.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2014.
      265.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      266.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      267.	 Treasury, “HAMP 1MP Conversion Metrics - Conversion Rate by Servicer - Program to Date – September 2014,” accessed 10/21/2014.
      268.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      269.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2014.
      270.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/1/2014.
      271.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      272.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      273.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      274.	 Treasury, “Supplemental Directive 13-08, Making Home Affordable Program – Borrower Post-Modification Counseling and Servicer Incentives,”
            9/30/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1308.pdf, accessed 10/1/2014.
      275.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      276.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      277.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      278.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/8/2014.
      279.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      280.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      281.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      282.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 10/10/2014.
      283.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      284.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      285.	 Treasury, “HAMP 1MP Program Volumes – Tier 1 Activity on Tier 2 Trial Starts– September 2014,” accessed 10/21/2014.
      286.	 Treasury, response to SIGTARP data call, 10/6/2014.
      287.	 Treasury, response to SIGTARP data call, 10/6/2014.
      288.	 Treasury, response to SIGTARP data call, 11/2/2012.
      289.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      290.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      291.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      292.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      293.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      294.	 Treasury, “HAMP 1MP Program Volumes – Tier 2 Property Type – September 2014,” accessed 10/21/2014.
      295.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      296.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      297.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      298.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      299.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      300.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
      301.	 Treasury, “Supplemental Directive 14-02, Making Home Affordable Program – Administrative Clarifications,” 4/22/2014, www.hmpadmin.com/
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                379


        portal/programs/docs/hamp_servicer/sd1402.pdf, accessed 10/9/2014;Treasury, “Making Home Affordable Program Handbook for Servicers
        of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed
        10/1/2014.
302.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
303.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
304.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014.
305.	   Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
        www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
        10/1/2014.
306.	   Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
        www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
        10/1/2014.
307.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.4,” 3/3/2014, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_44.pdf, accessed 10/1/2014; NeighborWorks, “Making Home Affordable Outreach and
        Intake Project Funding Announcement, Revised,” 3/7/2013, www.neighborworks.org/Documents/HomeandFinance_Docs/Foreclosure_Docs/
        ModificationAssistance_Docs/MHAOutreachandIntakeProjectFundingAnnouncementRevi.aspx, accessed 10/2/2014; NeighborWorks, “Making
        Home Affordable Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,” 3/6/2013.
308.	   Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
        www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
        10/2/2014.
309.	   Treasury, response to SIGTARP data call, 10/6/2014.
310.	   Treasury, response to SIGTARP data call, 10/6/2014.
311.	   Treasury, response to SIGTARP data call, 10/6/2014.
312.	   The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
        markets, accessed 10/2/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
        gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/2/2014.
313.	   The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
        markets, accessed 10/2/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.
        gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 10/2/2014.
314.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 7/8/2014 and 10/8/2014; The White House, “Help for the Hardest Hit
        Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 10/2/2014; www.treasury.gov/
        initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “White House: Help
        for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed
        10/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
        makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/2/2014; Treasury, “HFA Hardest-Hit Fund Frequently
        Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf,
        accessed 10/2/2014; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.
        treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
        3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014;
        Treasury, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
        with Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/2/2014; Treasury, “Hardest Hit
        Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
        Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/2/2014; Treasury, “Obama Administration Approves State Plans for
        Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
        tg757.aspx, accessed 10/2/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
        Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 10/2/2014; Treasury, Transactions
        Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
        9-29-10.pdf, accessed 10/2/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
        Treas_Overview_11.03.10.pdf, accessed 10/2/2014.
315.	   Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
        FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 10/2/2014; Treasury, “Administration Announces Second Round of Assistance
        for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 10/2/2014; Treasury,
        “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
        Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 10/2/2014; Treasury, Transactions Report,
        9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-10.pdf,
        accessed 10/2/2014.
316.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
        makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/2/2014; Treasury, “Hardest Hit Fund Program
        Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
        accessed 10/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
        TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/2/2014; Treasury,
380             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.
              treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/2/2014; Treasury, “Obama Administration Approves State Plans For
              $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.
              aspx, accessed 10/2/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
              Overview_11.03.10.pdf, accessed 10/2/2014.
      317.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.
              makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 10/2/2014; Treasury, “Hardest Hit Fund Program
              Guidelines Round 2,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx,
              accessed 10/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/
              TARP-Programs/housing/Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/2/2014; Treasury,
              “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010,
              www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/2/2014; Treasury, “Obama Administration Approves State Plans
              For $600 million of ‘Hardest Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/
              tg813.aspx, accessed 10/2/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/
              Treas_Overview_11.03.10.pdf, accessed 10/2/2014; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements,
              Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/
              Archival-information.aspx, accessed 10/2/2014; SIGTARP analysis of HFA participation agreements and amendments.
      318.	   Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
              6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/2/2014.
      319.	   Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
              6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/2/2014.
      320.	   Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
              center/press-releases/Pages/tg618.aspx, accessed 10/2/2014.
      321.	   National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
              foreclosure-initiative, accessed 10/2/2014.
      322.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
              with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
              10/2/2014.
      323.	   HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
              With Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
              10/2/2014.
      324.	   Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 10/2/2014.
      325.	   Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
              reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/2/2014.
      326.	   Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “Hardest Hit Fund, Archived
              Program Information, Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-
              stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; SIGTARP analysis of HFA participation agreements
              and amendments.
      327.	   Treasury, “Hardest Hit Fund: Program Purpose and Overview,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              hhf/Pages/default.aspx, accessed 10/2/2014.
      328.	   Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
      329.	   Treasury, Monthly Report to Congress, July 2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/July%202014%20
              Monthly%20Report%20to%20Congress.pdf accessed 10/23/2014; Treasury Monthly Report to Congress, August 2014,www.treasury.gov/
              initiatives/financial-stability/reports/Documents/August%202014%20Monthly%20Report%20to%20Congress.pdf accessed 10/8/2014.
      330.	   Treasury, Monthly Report to Congress, July 2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/July%202014%20
              Monthly%20Report%20to%20Congress.pdf accessed 10/23/2014; Treasury, Monthly Report to Congress, September 2014, www.treasury.
              gov/initiatives/financial-stability/reports/Documents/Final%20September%202014%20Monthly%20Report%20to%20Congress.pdf accessed
              10/23/2014.
      331.	   Treasury, Transactions Report-Housing Programs, 9/29/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2009.29.2014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 10/3/2013,
              1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
      332.	   Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
      333.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA
              Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
              Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014.
      334.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 10/3/2013,
              1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
      335.	   Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate Quarterly
              Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
              hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
              “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                 381


        10/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
        keepyourhomecalifornia.org/quarterly-reports/, accessed 10/2/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund
        (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed
        10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/
        programs/treasuryReports.asp, accessed 10/2/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date,
        www.illinoishardesthit.org/spv-7.aspx, accessed 10/2/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit
        Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 10/2/2014; Kentucky Housing Corporation,
        “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],”
        no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation,
        “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed
        10/2/2014; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.
        mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/2/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest
        Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 10/2/2014; New Jersey Housing and Mortgage Finance
        Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx,
        accessed 10/2/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date,
        www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio:
        Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation,
        “Oregon Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/2/2014; Rhode
        Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/
        HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 10/2/2014; SC
        Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 10/2/2014; Tennessee Housing Development
        Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/2/2014; District of Columbia
        Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/
        Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 10/2/2014; SIGTARP analysis of HFA quarterly
        performance reports.
336.	   Treasury, response to SIGTARP data call, 10/6/2014.
337.	   Treasury, response to SIGTARP data call, 10/6/2014.
338.	   Treasury, response to SIGTARP data call, 10/6/2014.
339.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA
        Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
        Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014.
340.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
        gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; SIGTARP analysis of HFA
        participation agreements and amendments.
341.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
        gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; SIGTARP analysis of HFA
        participation agreements and amendments.
342.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
        hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
        treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Treasury, “Hardest
        Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
        HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 10/2/2014; Treasury, “Hardest Hit Fund, Archived Program
        Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
        initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014; Alabama Housing Finance
        Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
        10/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
        no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
        Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/2/2014;
        Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.org/
        StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
        Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/2/2014; Illinois Housing
        Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/2/2014;
        Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
        www.877gethope.org/reports/, accessed 10/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
        Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
        10/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
        gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/2/2014; Mississippi Home Corporation, “Financial Disclosures,
        Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/2/2014;
        Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
        nv.gov/, accessed 10/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
        Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/2/2014; North Carolina Housing Finance Agency, “Hardest
        Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
        10/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
        accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
        date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
        Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
        l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
382             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Resources/Reports.aspx, accessed 10/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
              keepmytnhome.org/news-and-reports/, accessed 10/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
              Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
              tabid/219/Default.aspx, accessed 10/2/2014; SIGTARP analysis of HFA quarterly performance reports.
      343.	   Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama,
              Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/2/2014; Arizona (Home) Foreclosure
              Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.
              aspx?ID=405&CID=11, accessed 10/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
              Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/2/2014; Florida Housing Finance Corporation,
              “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
              aspx?PAGE=0277, accessed 10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.
              state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/2/2014; Illinois Housing Development Authority, “Illinois
              Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/2/2014; Indiana Housing and Community
              Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/,
              accessed 10/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program,
              Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/2/2014;
              Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
              mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/2/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/2/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 10/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/2/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              10/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
              date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
              Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
              l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
              Resources/Reports.aspx, accessed 10/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
              keepmytnhome.org/news-and-reports/, accessed 10/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
              Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
              tabid/219/Default.aspx, accessed 10/2/2014; SIGTARP analysis of HFA quarterly performance reports.
      344.	   Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama,
              Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/2/2014; Arizona (Home) Foreclosure
              Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.
              aspx?ID=405&CID=11, accessed 10/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
              Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/2/2014; Florida Housing Finance Corporation,
              “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
              aspx?PAGE=0277, accessed 10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.
              state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/2/2014; Illinois Housing Development Authority, “Illinois
              Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/2/2014; Indiana Housing and Community
              Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/,
              accessed 10/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program,
              Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 10/2/2014;
              Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
              mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 10/2/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/2/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 10/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 10/2/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              10/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no
              date, www.oregonhomeownerhelp.org/en/reporting, accessed 10/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest
              Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmense
              l=c580fa7b_10737418238_10737418240_btnlink, accessed 10/2/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/
              Resources/Reports.aspx, accessed 10/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.
              keepmytnhome.org/news-and-reports/, accessed 10/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure
              Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/
              tabid/219/Default.aspx, accessed 10/2/2014; SIGTARP analysis of HFA quarterly performance reports.
      345.	   Treasury, response to SIGTARP data call, 10/6/2014; Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/
              initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/1/2014.
      346.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, “HFA Aggregate Quarterly Report Q2 2014,”
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                383


        no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20Q22014%20Report.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
347.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
348.	   Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Rhode Island Housing and Mortgage Finance
        Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 10/2/2014.
349.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Illinois Housing Development Authority,
        “Welcome to the Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org, accessed 10/2/2014.
350.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; New Jersey Housing and Mortgage
        Finance Agency, “The New Jersey HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 10/2/2014.
351.	   Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
352.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
353.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
354.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2014, 2nd
        Quarter,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 10/2/2014; SIGTARP analysis of Alabama Housing
        Finance Authority quarterly performance report.
355.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
356.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
357.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
358.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.
        gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed
        10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate Quarterly
        Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting,
        Hardest Hit Fund-2nd Quarter 2014,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 10/2/2014; SIGTARP analysis
        of Arizona (Home) Foreclosure Prevention Funding Corporation quarterly performance report.
359.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
360.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
361.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
362.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
        Quarterly Reports, 2014, Second Quarter (Period ending 6/30/14),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 10/2/2014;
        SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly performance report.
363.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
364.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
365.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
366.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly
        Reports, HHF QTR Report ending 6/30/14,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277,
        accessed 10/2/2014; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
367.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
384             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      368.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      369.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      370.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/201, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, June 2014 Report,” no
              date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/2/2014; SIGTARP analysis of GHFA Affordable
              Housing Inc. quarterly performance report.
      371.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      372.	   Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/2/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
              Treasury Reports, June 2014 Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 10/2/2014;
              SIGTARP analysis of GHFA Affordable Housing Inc. quarterly performance report; “Hardest Hit Fund, Archived Program Information,
              Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-
              Programs/housing/hhf/Pages/Archival-information.aspx, accessed 10/2/2014.
      373.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      374.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      375.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF
              Second Quarter Performance Report 2014,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 10/2/2014; SIGTARP analysis of Illinois
              Housing Development Authority quarterly performance report.
      376.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      377.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Illinois Housing
              Development Authority, “Welcome to the Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 10/2/2014.
      378.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      379.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      380.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly
              Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q2) 2014 as submitted to Treasury August 15, 2014,” no date,
              www.877gethope.org/reports/, accessed 10/2/2014; SIGTARP analysis of Indiana Housing and Community Development Authority quarterly
              performance report.
      381.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      382.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      383.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      384.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014              385


        Asset Relief Program, Kentucky Unemployment Bridge Program, Unemployment Bridge Program 2nd Quarter 2014 Report,” no date, www.
        kyhousing.org/page.aspx?id=3165, accessed 10/2/2014; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
385.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
386.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
387.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
388.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury
        Reports, Quarter End 6/30/2014,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed
        10/2/2014; SIGTARP analysis of Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
389.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
390.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
391.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
392.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls,1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance
        Data Report, 2nd Quarter 2014,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 10/6/2014; SIGTARP analysis of
        Mississippi Home Corporation quarterly performance report.
393.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
394.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
395.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
396.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014.
397.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
398.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
399.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
        accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
        Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
        Q22014%20Report.pdf, accessed 10/2/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program,
        About the Program, Performance Reports, New Jersey Second Quarter 2014 Performance Report,” no date, www.njhomekeeper.com/spv-55.
        aspx, accessed 10/2/2014; SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
400.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
        10/6/2014.
401.	   Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; New Jersey Housing and Mortgage Finance Agency,
        “The New Jersey HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 10/6/2014.
402.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
403.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
386             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting,
              Quarterly Reports, Quarter 2 – April – June 2014,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 10/2/2014;
              SIGTARP analysis of North Carolina Housing Finance Agency quarterly performance report.
      404.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      405.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      406.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      407.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Second Quarter
              2014 Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 10/2/2014; SIGTARP analysis of Ohio Homeowner Assistance LLC
              quarterly performance report.
      408.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      409.	   Treasury, response to SIGTARP data call, 10/6/2014.
      410.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      411.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      412.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization
              Initiative, Reporting, OHSI Quarter 2 2014 Report (April - June 2014),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed
              10/2/2014; SIGTARP analysis of Oregon Affordable Housing Assistance Corporation quarterly performance report.
      413.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      414.	   Treasury, response to SIGTARP data call, 10/6/2014.
      415.	   Treasury, “HFA Aggregate Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/HFA%20Aggregate%20Q22014%20Report.pdf, accessed 10/2/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
              Homeownership Stabilization Initiative, Reporting, OHSI 2 2014 Report (April - June 2014),” no date, www.oregonhomeownerhelp.org/en/
              reporting, accessed 10/2/2014; “Hardest Hit Fund, Archived Program Information, Participation Agreements, Amendments, and Initial Program
              Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed
              10/2/2014; SIGTARP analysis of HFA participation agreements and amendments.
      416.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
      417.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      418.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
              accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
              Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
              Q22014%20Report.pdf, accessed 10/2/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode
              Island, About HHFRI, REPORTS, Q2 2014,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa
              7b_10737418238_10737418240_btnlink, accessed 10/2/2014; SIGTARP analysis of Rhode Island Housing and Mortgage Finance Corporation
              quarterly performance report.
      419.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
              10/6/2014.
      420.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, 10/17/2013, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Rhode Island
              Housing and Mortgage Finance Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 10/2/2014.
      421.	   Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014              387


422.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
      10/6/2014.
423.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
      accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
      Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
      Q22014%20Report.pdf, accessed 10/2/2014; SC Housing Corp, “SC HELP, Reports, Quarter ending June 30, 2014,” no date, www.schelp.gov/
      Resources/Reports.aspx, accessed 10/2/2014; SIGTARP analysis of SC Housing Corp quarterly performance report.
424.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
      10/6/2014.
425.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
426.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
      accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
      Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
      Q22014%20Report.pdf, accessed 10/2/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, Second Quarter
      2014 Report,” no date, www.keepmytnhome.org/news-and-reports/, accessed 10/2/2014; SIGTARP analysis of Tennessee Housing Development
      Agency quarterly performance report.
427.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
      10/6/2014.
428.	 Treasury, response to SIGTARP data call, 10/6/2014.
429.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014.
430.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 7/8/2014 and
      10/6/2014.
431.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 6/26/2014, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2006%2026%202014.pdf,
      accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014; Treasury, “HFA Aggregate
      Quarterly Report Q2 2014,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20Aggregate%20
      Q22014%20Report.pdf, accessed 10/2/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
      Program[quarterly performance reports], DCHFA HomeSaver Program – June 30, 2014 Quarterly Report,” www.dchfa.org/DCHFAHome/
      Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 10/2/2014; SIGTARP analysis of District of Columbia
      Housing Finance Agency quarterly performance report.
432.	 Treasury, Transactions Report-Housing Programs, 6/26/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2006%2026%202014.pdf, accessed 10/2/2014; Treasury, responses to SIGTARP data calls, 1/17/2014,
      4/9/2014, 7/8/2014 and 10/6/2014.
433.	 Treasury, responses to SIGTARP data calls, 1/17/2014, 4/9/2014, 7/8/2014 and 10/6/2014.
434.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 10/6/2014.
435.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
      latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 10/9/2014.
436.	 Treasury, response to SIGTARP data call, 10/10/2014.
437.	 Treasury, response to SIGTARP data call, 10/6/2014.
438.	 Treasury, response to SIGTARP data call, 10/6/2014.
439.	 Treasury, response to SIGTARP data call, 10/6/2014.
440.	 HUD, response to SIGTARP draft report, 1/10/2011.
441.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
      letters/mortgagee/files/10-23ml.pdf, accessed 10/9/2014.
442.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and
      other Federal agency staff, 3/8/2013.
443.	 Treasury, response to SIGTARP data call, 10/6/2014.	
444.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
445.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
446.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
447.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.
      pdf, accessed 10/1/2014.
448.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
388            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      449.	 Treasury, response to SIGTARP data call, 10/6/2014.
      450.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      451.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      452.	 Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20September%20
            2014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed
            10/2/2014; Treasury, response to SIGTARP data call, 10/6/2014.
      453.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      454.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      455.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      456.	 Treasury, response to SIGTARP data call, 10/6/2014.
      457.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      458.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      459.	 Treasury, response to SIGTARP data call 10/6/2014; Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/September%202014%20Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      460.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      461.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      462.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      463.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/1/2014.
      464.	 Treasury, response to SIGTARP data call, 10/6/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 10/1/2014.
      465.	 Treasury, response to SIGTARP data call 10/6/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
            no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
            Observer%20Fact%20Sheet.pdf, accessed 10/1/2014.
      466.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2014.
      467.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      468.	 Treasury, response to SIGTARP data call, 10/6/2014.
      469.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2014.
      470.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      471.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2014.
      472.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2014.
      473.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
            10/1/2014.
      474.	 Treasury, response to SIGTARP data call, 10/6/2014.
      475.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      476.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      477.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      478.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      479.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      480.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                389


      Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
481.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
482.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
483.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/6/2014.
484.	 Treasury conference call, 3/19/2010.
485.	 Treasury, response to SIGTARP draft report, 1/14/2012.
486.	 Treasury conference call, 3/19/2010.
487.	 Treasury conference call, 3/19/2010.
488.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
489.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
490.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
491.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
492.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
493.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
494.	 SNL Financial LLC data.
495.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
496.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
497.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 10/1/2014.
498.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
499.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
500.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
501.	 Treasury, response to SIGTARP data call, 10/5/2011.
502.	 Treasury, response to SIGTARP data call, 10/5/2011.
503.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 10/1/2014.
504.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
      Report%20Aug2011.pdf, accessed 10/1/2014.
505.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2014.
506.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2014.
507.	 Treasury, response to SIGTARP data call, 10/10/2014.
508.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2014.
509.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
      Report%20Aug2011.pdf, accessed 10/1/2014; Treasury, response to SIGTARP data call, 10/10/2014.
510.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
511.	 Treasury, response to SIGTARP data call, 10/10/2014.
512.	 Treasury, response to SIGTARP data call, 10/10/2014.
513.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/1/2014.
514.	 Treasury, response to SIGTARP data call, 10/10/2014.
515.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 10/1/2014.
516.	 Treasury, response to SIGTARP data call 10/10/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
517.	 Treasury, response to SIGTARP data call, 10/10/2014.
518.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 10/1/2014.
519.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
      accessed 10/1/2014.
520.	 Treasury conference call, 11/10/2011.
521.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 10/1/2014.
522.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 10/1/2014.
390            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      523.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
            cdci/Pages/faqs.aspx, accessed 10/1/2014; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 10/1/2014; Treasury Press Release, “Treasury Announces
            Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
            9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 10/1/2014.
      524.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/1/2014.
      525.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
            investment-programs/cdci/Pages/default.aspx, accessed 10/1/2014.
      526.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 10/1/2014.
      527.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      528.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      529.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      530.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      531.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      532.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      533.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      534.	 Treasury, “Community Development Capital Initiative CDFI Bank/Thrift Senior Preferred Stock - Summary of CDCI Senior Preferred
            Terms,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Documents/CDCI20Bank-
            Thrift20Term20Sheet20042610.pdf, accessed 10/1/2014.
      535.	 Treasury, response to SIGTARP data call, 10/6/2014.
      536.	 Treasury, response to SIGTARP data call, 10/6/2014.
      537.	 Treasury, response to SIGTARP data call, 10/6/2014.
      538.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2014.
      539.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 10/1/2014.
      540.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
            10/1/2014; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
            10/1/2014.
      541.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2014.
      542.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/1/2014.
      543.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
            FY2010BIB-Complete.pdf, accessed 10/1/2014.
      544.	 Treasury, response to SIGTARP data call, 1/8/2010.
      545.	 Federal Reserve Board - Credit and Liquidity Programs and the Balance Sheet, no date, www.federalreserve.gov/monetarypolicy/bst_
            supportspecific.htm, accessed 10/1/2014.
      546.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      547.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 10/1/2014; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 10/1/2014; FRBNY, “Summary of
            Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
            10/1/2014.
      548.	 Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            10.01.2014.pdf, accessed 10/1/2014.
      549.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014; Treasury, Dividends
            and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20Dividends%20
            Interest%20Report.pdf, accessed 10/11/2014.
      550.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 10/1/2014; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                391


      accessed 10/1/2014.
551.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
      10/1/2014.
552.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/3/2014.
553.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
554.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
555.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
      Citigroup%20Exchange%20Agreement.pdf, accessed 10/1/2014; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/1/2014.
556.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 10/1/2014.
557.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/1/2014.
558.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 10/1/2014.
559.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2014.
560.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
      TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 10/1/2014.
561.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/1/2014.
562.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
563.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/3/2014; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds
      of $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1841.aspx, accessed 10/1/2014.
564.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 10/1/2014.
565.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 10/1/2014.
566.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
      accessed 10/1/2014.
567.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
      jl2236.aspx, accessed 10/1/2014.
568.	 Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      10.01.2014.pdf, accessed 10/1/2014; Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal
      Year 2013, 12/11/13, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed
      10/1/2014.
569.	 Treasury Press Release, “Treasury Announces Plan to Sell Additional Ally Financial Common Stock, Treasury,” 8/14/2014, www.treasury.gov/
      press-center/press-releases/Pages/jl2608.aspx, accessed 10/22/2014.
570.	 Treasury Press Release, “Taxpayers Recover $218.7 Million From First Ally Trading Plan; Treasury Launches Second Plan to Sell Additional Ally
      Common Stock,” 9/12/2014, www.treasury.gov/press-center/press-releases/Pages/jl2631.aspx, accessed 10/1/2014.
571.	 Treasury Press Release, “Taxpayers Recover $245.5 Million from Second Ally Trading Plan,” 10/17/2014, www.treasury.gov/press-center/press-
      releases/Pages/jl2668.aspx, accessed on 10/20/2014.
572.	 SIGTARP calculation based on Treasury Press release of 10/17/2014.
573.	 Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-
      center/press-releases/Pages/jjl2258.aspx, 10/1/2014.
574.	 Treasury, Section 105(a) Report, 5/12/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/April%202014%20Monthly%20
      Report%20to%20Congress.pdf, accessed 10/1/2014; Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public
      Offering,” 4/9/2014, www.treasury.gov/press-center/press-releases/Pages/jl2351.aspx, accessed 10/1/2014; Ally Financial, Amendment No. 11
      to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed
      10/1/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial Common Stock,” 3/27/2014, www.treasury.gov/
      press-center/press-releases/Pages/jl2335.aspx, accessed 10/1/2014.
575.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
      php?s=20295&item=123030, accessed 10/1/2014.
576.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014; New York Times, “A Primer on the New General
      Motors,” 7/10/2009, www.nytimes.com/2009/07/11/business/11primer.html, accessed 10/21/2014.
577.	 Treasury, response to SIGTARP data call 10/6/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014.
578.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
579.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
      Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, “Office of Financial Stability: Agency Financial Report-
      Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
      OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2014.
392            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      580.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%2010.01.2014.pdf, accessed 10/1/2014.
      581.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      582.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      583.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      584.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
            jl2236.aspx, accessed 10/1/2014; Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.
            gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed
            10/2/2014; Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/
            press-center/press-releases/Pages/jl2173.aspx, accessed 10/1/2014.
      585.	 Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
            Monthly%20Report%20to%20Congress.pdf, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      586.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
            Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      587.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 10/1/2014.
      588.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2014.
      589.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2014; Treasury
            Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
            Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 10/1/2014; GM
            Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, media.gm.com/content/media/
            be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 10/1/2014.
      590.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 10/1/2014.
      591.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/1/2014.
      592.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
            gov/press-center/press-releases/Pages/tg1810.aspx, accessed 10/1/2014.
      593.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1826.aspx, accessed 10/1/2014.
      594.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      595.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury Press Release, “Treasury Announces Next Step in Plan to
            Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1926.aspx, accessed 10/1/2014; Treasury,
            response to SIGTARP data call, 10/6/2014.
      596.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      597.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      598.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
            releases/Pages/jl1976.aspx, accessed 10/1/2014.
      599.	 Treasury, response to SIGTARP data call, 10/6/2014; Treasury, Section 105(a) Report, 10/10/2014, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/Final%20September%202014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014.
      600.	 Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            10.01.2014.pdf, accessed 10/1/2014.
      601.	 Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial Common Stock,” 3/27/2014, www.treasury.gov/press-
            center/press-releases/Pages/jl2335.aspx, accessed on 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-
            stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      602.	 Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
            Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale
            of Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 10/1/2014.
      603.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
            php?s=20295&item=123030, accessed 10/1/2014.
      604.	 Treasury Press Release, “Taxpayers Recover $218.7 Million From First Ally Trading Plan; Treasury Launches Second Plan to Sell Additional Ally
            Common Stock,” 9/12/2014, www.treasury.gov/press-center/press-releases/Pages/jl2631.aspx, accessed 10/1/2014.
      605.	 Treasury Press Release, “Taxpayers Recover $245.5 Million from Second Ally Trading Plan,” 10/17/2014, www.treasury.gov/press-center/press-
            releases/Pages/jl2668.aspx, accessed on 10/20/2014.
      606.	 SIGTARP calculation based on Treasury Press release of 10/17/2014.
      607.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
            8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
            Treasury, accessed 10/1/2014.
      608.	 Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            10.01.2014.pdf, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                 393


609.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
      Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
610.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 10/1/2014.
611.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2014.
612.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2014.
613.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/1/2014; Treasury, Section
      105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 10/1/2014.
614.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/1/2014.
615.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/1/2014.
616.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 10/1/2014.
617.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 10/1/2014.
618.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1081.aspx, accessed 10/1/2014.
619.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
      10/1/2014.
620.	 GM Press Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.
      html/content/Pages/news/us/en/2013/Dec/1212-ally.html, accessed 10/1/2014.
621.	 Ally Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/
      data/40729/000119312513285728/d388008ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 11 to Form S-1 Registration
      Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed 10/1/2014; GM Press
      Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.html/content/
      Pages/news/us/en/2013/Dec/1212-ally.html, accessed 10/1/2014; Ally Financial, Schedule Form DEF14A Statement, June 6, 2014, www.sec.gov/
      Archives/edgar/data/40729/000004072914000147/a2014proxy.htm, accessed 10/1/2014.
622.	 Ally Press Release, “Ally Financial Statement on Additional U.S. Treasury Recovery,” 5/9/2014, media.ally.com/index.
      php?s=20295&item=123030, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
623.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-
      11-20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 10/1/2014; Treasury, Transactions Report,
      9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-
      14_INVESTMENT.pdf, accessed 10/2/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
      Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
      Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 10/1/2014.
624.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
      20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 10/1/2014; Ally Financial Press Release, “Ally
      Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-
      20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 10/1/2014.
625.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
      20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 10/1/2014.
626.	 Treasury, response to SIGTARP data call, 10/6/2014.
627.	 Treasury, response to SIGTARP data call, 10/6/2014.
628.	 Treasury, response to SIGTARP data call, 10/6/2014.
629.	 Ally Press Release, “Ally Financial Granted Financial Holding Company Status,” 12/23/2013, media.ally.com/2013-12-23-Ally-Financial-
      Granted-Financial-Holding-Company-Status, accessed 10/1/2014.
630.	 Federal Reserve Board Press Release, 3/24/2014, www.federalreserve.gov/newsevents/press/bcreg/bcreg20140320a1.pdf, accessed 10/1/2014.
631.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
      press-releases/Pages/jl2351.aspx, accessed on 10/1/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial
      Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx, accessed 10/1/2014.
632.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/press-
      releases/Pages/jl2351.aspx, accessed on 10/1/2014; Ally Financial Press Release, “Ally Financial Launches Initial Public Offering of Common
      Stock,” 3/27/2014, media.ally.com/2014-03-27-Ally-Financial-Launches-Initial-Public-Offering-of-Common-Stock, accessed 10/1/2014.
633.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 10/1/2014.
634.	 Ally Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/
      data/40729/000119312514117494/d651440ds1a.htm, accessed 10/1/2014.
635.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
      10/1/2014.
636.	 Ally Financial, Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dl
      l?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 10/1/2014; Ally Financial, Amendment No. 2 to Form
      S-1Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&Session
      ID=yWV1FqvBONn9GA7, accessed 10/1/2014; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.
      sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 4 to Form S-1
      Registration Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/1/2014; Ally
394             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Financial, Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
              d167661ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
              Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 7 to Form S-1
              Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 10/1/2014; Ally
              Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
              d388008ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 9 to Form S-1 Registration Statement, 12/23/2013, www.sec.gov/
              Archives/edgar/data/40729/000119312513482886/d611675ds1a.htm, accessed 10/1/2014; Ally Financial, Amendment No. 10 to Form S-1
              Registration Statement, 3/3/2013, www.sec.gov/Archives/edgar/data/40729/000119312514080365/d651440ds1a.htm, accessed 10/1/2014; Ally
              Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/
              d651440ds1a.htm, accessed 10/1/2014.
      637.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 10/1/2014.
      638.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 10/1/2014; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/
              edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 10/1/2014.
      639.	   In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
              Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement
              with Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, www.rescaprmbssettlement.com/docs/4098.
              pdf, accessed 10/1/2014.
      640.	   Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
              com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 10/1/2014.
      641.	   Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
              31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 10/1/2014.
      642.	   In re: Residential Capital LLC, et. al., U.S. Bankruptcy Court for the Southern District of New York, Case No.12-12020, “Notice
              of Entry of Confirmation Order Confirming the Second Amended Joint Chapter 11 Plan Proposed by Residential Capital,
              LLC,et. al., and the Official Committee of Unsecured Creditors and Occurrence of Effective Date,” 12/17/2013, www.kccllc.net/
              documents/1212020/1212020131217000000000007.pdf, accessed 10/1/2014; Ally Press Release, “ResCap Plan of Reorganization Approved by
              U.S. Bankruptcy Court,” media.ally.com/2013-12-11-ResCap-Plan-of-Reorganization-Approved-by-U-S-Bankruptcy-Court, accessed 10/1/2014.
      643.	   Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
              com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 10/1/2014.
      644.	   Ally Financial Press Release, “Ally Financial Completes Sale Of Operations In Brazil,” 10/2/2013, media.ally.com/2013-10-01-Ally-Financial-
              Completes-Sale-of-Operations-in-Brazil, accessed 10/1/2014.
      645.	   Ally Financial, 10-K, 3/3/2014, www.sec.gov/Archives/edgar/data/40729/000004072914000007/gjm2013123110k.htm, accessed 10/1/2014; Ally
              Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-31-
              Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 10/1/2014.
      646.	   Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
              php?s=20295&item=122599, accessed 10/1/2014; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance
              Business,” 5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 10/1/2014.
      647.	   Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
              21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 10/1/2014.
      648.	   Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
              Completes-Sales-of-Mortgage-Servicing-Rights, accessed 10/1/2014.
      649.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      650.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      651.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      652.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      653.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, 10/2/2014.
      654.	   Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
              media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 10/1/2014; Treasury
              Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
              accessed 10/1/2014.
      655.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 10/1/2014.
      656.	   Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
              Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      657.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.
              gov/initiatives/financial-stability/reports/Documents/September%202014%20Dividends%20Interest%20Report.pdf, accessed 10/10/2014.
      658.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      659.	   TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, mediaroom.tdbank.com/index.
              php?s=30379&item=94198, accessed 10/1/2014; TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/
              data/1337471/000095012311032930/y90599e8vk.htm, accessed 10/1/2014; Banking Business Review, “TD Bank closes acquisition of Chrysler
                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                  395


        Financial,” 4/1/2011, retailbanking.banking-business-review.com/news/td-bank-closes-acquisition-of-chrysler-financial-040411, accessed
        10/1/2014.
660.	   Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/
        pages/tg64.aspx, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
        Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014; Treasury, Section 105(a)
        Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
        Report_final.pdf, accessed 10/1/2014.
661.	   Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/1/2014; Treasury, Transactions Report,
        9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_
        INVESTMENT.pdf, accessed 10/2/2014.
662.	   Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 10/1/2014.
663.	   Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 10/1/2014.
664.	   Treasury, Daily TARP Update, 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
        10.01.2014.pdf, accessed 10/1/2014; Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/
        Documents/10-2-14%20Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
665.	   FRBNY, response to SIGTARP data call, 10/9/2014.
666.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
667.	   Treasury, response to SIGTARP data call, 10/6/2014.
668.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
669.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
        Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
670.	   Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
        11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/1/2014.
671.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
        accessed 10/1/2014.
672.	   Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
        lendingfacilities_201003.htm, accessed 10/1/2014.
673.	   FRBNY, response to SIGTARP draft report, 7/9/2010.
674.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
        html, accessed 10/1/2014.
675.	   FRBNY, response to SIGTARP data call, 10/9/2014.
676.	   FRBNY, response to SIGTARP data call, 10/9/2014.
677.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
        html, accessed 10/1/2014.
678.	   FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
        html, accessed 10/1/2014; Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,”
        December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 10/1/2014.
679.	   FRBNY, response to SIGTARP data call, 10/9/2014.
680.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
        10/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
        html, accessed 10/1/2014.
681.	   FRBNY, response to SIGTARP data call, 10/9/2014.
682.	   FRBNY, response to SIGTARP data call, 10/9/2014.
683.	   Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response
        Program Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx,
        accessed 10/1/2014; Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/
        September%202014%20Dividends%20Interest%20Report.pdf, accessed 10/11/2014.
684.	   Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
        States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
        Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
        accessed 10/1/2014.
685.	   FRBNY, response to SIGTARP data call, 10/9/2014; Treasury, response to SIGTARP data call, 10/6/2014.
686.	   Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
        pdf, accessed 10/1/2014.
687.	   Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
        aspx, accessed 10/1/2014.
688.	   Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
        www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2014.
689.	   Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
        ppip/Pages/purpose-and-overview.aspx, accessed 10/1/2014.
690.	   Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
        www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2014.
691.	   Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
        Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/1/2014.
692.	   Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
396             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2014; Treasury, “Amended and Restated
              Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
              Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/1/2014.
      693.	   Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
              Pages/Program-Status.aspx, accessed 10/1/2014.
      694.	   Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
              gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/1/2014.
      695.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      696.	   Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
              Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20%28redacted%29.pdf, accessed 10/1/2014.
      697.	   Treasury, response to SIGTARP data call, 10/6/2014.
      698.	   Treasury, response to SIGTARP data call, 10/6/2014.
      699.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      700.	   Treasury, response to SIGTARP data call, 10/6/2014.
      701.	   Treasury, response to SIGTARP data call, 10/6/2014.
      702.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      703.	   PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      704.	   Treasury, response to SIGTARP data call, 10/6/2014.
      705.	   PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
      706.	   Treasury, response to SIGTARP data call, 10/6/2014.
      707.	   PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
      708.	   Treasury, response to SIGTARP data call, 10/6/2014.
      709.	   PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
      710.	   Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Wellington
              Management Legacy Securities PPIF (Offshore), L.P., 7/25/2013, Authentication No. 0616264, File No. 4709656.
      711.	   BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
              12/5/2012, www.businesswire.com/news/home/20121205006450/en/BlackRock-Liquidates-Public-Private-Investment-Partnership-23.5-
              Internal, accessed 10/1/2014; BlackRock PPIP monthly report for November 2012 submitted to Treasury and SIGTARP, 12/14/2012.
      712.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      713.	   Treasury, response to SIGTARP data call, 10/6/2014.
      714.	   AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
              for Treasury,” 10/9/2012, phx.corporate-ir.net/phoenix.zhtml?c=60983&p=irol-newsArticle&ID=1743175&highlight=, accessed 10/1/2014;
              AllianceBernstein PPIP monthly report for September 2012, submitted to Treasury and SIGTARP, 10/15/2012.
      715.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      716.	   Treasury, response to SIGTARP data call, 10/6/2014.
      717.	   RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership at a 23.9% Internal Rate of
              Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
              partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html, accessed 10/1/2014; RLJ Western PPIP monthly report for
              November 2012, submitted to Treasury and SIGTARP, 11/15/2012.
      718.	   Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
              Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      719.	   Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
              Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      720.	   Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
              com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 10/1/2014; Invesco PPIP monthly report for March 2012, submitted
              to Treasury and SIGTARP, 4/16/2012.
      721.	   Treasury, Transactions Report, 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20Transactions%20
              Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014.
      722.	   Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
              Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      723.	   Treasury, response to SIGTARP data call, 10/6/2014.
      724.	   Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
              accessed 10/1/2014.
      725.	   Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 10/1/2014.
      726.	   Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 10/1/2014.
      727.	   Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
              111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 10/1/2014.
      728.	   Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
              accessed 10/1/2014; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 29, 2014                397


      recovery_act_faqs.pdf, accessed 10/1/2014.
729.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
      (Execution%20Version).pdf, accessed 10/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
      Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-
      Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
      pdf, accessed 10/1/2014.
730.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1203.aspx, accessed 10/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
      Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
      Purchase%20Agreement%20(Execution%20Version).pdf, accessed 10/1/2014; Treasury, “Master Purchase Agreement for SBA Pooled
      Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/
      investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20
      Inc.%20MPA%20(73485877_2).pdf, accessed 10/1/2014.
731.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 10/2/2014.
732.	 Treasury, Transactions Report, 4/2/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/04-02-12%20Transactions%20Report%20as%20of%2003-31-12_INVESTMENT.pdf, accessed 10/2/2014.
733.	 Treasury, Dividends and Interest Report, 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202014%20
      Dividends%20Interest%20Report.pdf, accessed 10/11/2014.
734.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
735.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
736.	 Treasury, responses to SIGTARP data calls, 10/6/2014 and 10/10/2014.
737.	 Treasury, response to SIGTARP data call, 10/10/2014.
738.	 Treasury, response to SIGTARP data call, 10/10/2014.
739.	 Treasury, response to SIGTARP data call, 10/10/2014.
740.	 Fannie Mae, response to SIGTARP data call, 10/6/2014; Freddie Mac, response to SIGTARP data call, 10/6/2014.
741.	 Treasury, response to SIGTARP data call, 10/10/2014.
742.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
743.	 Treasury, response to SIGTARP data call, 10/15/2014.
398           APPENDIX A I GLOSSARY I OCTOBER 29, 2014




      GLOSSARY
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Deed-in-Lieu of Foreclosure: Instead of going through
      a percentage of loans for small businesses that cannot             foreclosure, the homeowner voluntarily surrenders the
      otherwise obtain conventional loans at reasonable terms.           deed to the home to the investor as satisfaction of the
      Accredited Investors: Individuals or institutions that             unpaid mortgage balance.
      by law are considered financially sophisticated enough             Deobligations: An agency’s cancellation or downward
      so that they can invest in ventures that are exempt from           adjustment of previously incurred obligations.
      investor protection laws. Under U.S. securities laws, these        Due Diligence: Appropriate level of attention or care a
      include many financial companies, pension plans, wealthy           reasonable person should take before entering into an
      individuals, and top executives or directors of the issuing        agreement or a transaction with another party. In finance,
      companies.                                                         it often refers to the process of conducting an audit or
      Asset-Backed Securities (“ABS”): Bonds backed by                   review of the institution before initiating a transaction.
      a portfolio of consumer or corporate loans (e.g., credit           Equity: Investment that represents an ownership interest
      card, auto, or small-business loans). Financial companies          in a business.
      typically issue ABS backed by existing loans in order to
      fund new loans for their customers.                                Exercise Price: Preset price at which a warrant holder
                                                                         may purchase each share. For warrants in publicly traded
      Collateral: Asset pledged by a borrower to a lender until          institutions issued through CPP, this was based on the
      a loan is repaid. Generally, if the borrower defaults on the       average stock price during the 20 days before the date that
      loan, the lender gains ownership of the pledged asset and          Treasury granted preliminary CPP participation approval.
      may sell it to satisfy the debt. In TALF, the ABS or CMBS
      purchased with the TALF loan is the collateral that is             Government-Sponsored Enterprises (“GSEs”): Private
      posted with FRBNY.                                                 corporations created and chartered by the Government to
                                                                         reduce borrowing costs and provide liquidity in the market,
      Commercial Mortgage-Backed Securities (“CMBS”):                    the liabilities of which are not officially considered direct
      Bonds backed by one or more mortgages on commercial                taxpayer obligations. On September 7, 2008, the two
      real estate (e.g., office buildings, rental apartments,            largest GSEs, the Federal National Mortgage Association
      hotels).                                                           (“Fannie Mae”) and the Federal Home Loan Mortgage
      Common Stock: Equity ownership entitling an individual             Corporation (“Freddie Mac”), were placed into Federal
      to share in corporate earnings and voting rights.                  conservatorship. They are currently being financially
      Community Development Financial Institutions                       supported by the Government.
      (“CDFIs”): Financial institutions eligible for Treasury            Haircut: Difference between the value of the collateral
      funding to serve urban and rural low-income communities            and the value of the loan (the loan value is less than the
      through the CDFI Fund. CDFIs were created in 1994                  collateral value).
      by the Riegle Community Development and Regulatory                 Illiquid Assets: Assets that cannot be quickly converted
      Improvement Act.                                                   to cash.
      Cumulative Redefault Rate: The total number of HAMP                Investors: Owners of mortgage loans or bonds backed
      permanent modifications that have redefaulted (as of               by mortgage loans who receive interest and principal
      a specific date) divided by the total number of HAMP               payments from monthly mortgage payments. Servicers
      permanent modifications started (as of the same specific           manage the cash flow from homeowners’ monthly
      date).                                                             payments and distribute them to investors according to
      Debt: Investment in a business that is required to be paid         Pooling and Servicing Agreements (“PSAs”).
      back to the investor, usually with interest.
                                                                                    GLOSSARY I APPENDIX A I OCTOBER 29, 2014    399




Legacy Securities: Real estate-related securities originally     Obligations: Definite commitments that create a legal
issued before 2009 that remained on the balance sheets           liability for the Government to pay funds.
of financial institutions because of pricing difficulties that   Pool Assemblers: Firms authorized to create and market
resulted from market disruption.                                 pools of SBA-guaranteed loans.
Limited Partnership: Partnership in which there is at            Preferred Stock: Equity ownership that usually pays
least one partner whose liability is limited to the amount       a fixed dividend before distributions for common stock
invested (limited partner) and at least one partner whose        owners but only after payments due to debt holders. It
liability extends beyond monetary investment (general            typically confers no voting rights. Preferred stock also has
partner).                                                        priority over common stock in the distribution of assets
Loan Servicers: Companies that perform administrative            when a bankrupt company is liquidated.
tasks on monthly mortgage payments until the loan is             Pro Rata: Refers to dividing something among a group of
repaid. These tasks include billing, tracking, and collecting    participants according to the proportionate share that each
monthly payments; maintaining records of payments and            participant holds as a part of the whole.
balances; allocating and distributing payment collections
to investors in accordance with each mortgage loan’s             Qualified Institutional Buyers (“QIB”): Institutions that
governing documentation; following up on delinquencies;          under U.S. securities law are permitted to buy securities
and initiating foreclosures.                                     that are exempt from registration under investor protection
                                                                 laws and to resell those securities to other QIBs. Generally
Loan-to-Value (“LTV”) Ratio: Lending risk assessment             these institutions own and invest at least $100 million
ratio that mortgage lenders examine before approving a           in securities, or are registered broker-dealers that own or
mortgage; calculated by dividing the outstanding amount          invest at least $10 million in securities.
of the loan by the value of the collateral backing the loan.
Loans with high LTV ratios are generally seen as higher          Risk-Weighted Assets: Risk-based measure of total assets
risk because the borrower has less of an equity stake in the     held by a financial institution. Assets are assigned broad
property.                                                        risk categories. The amount in each risk category is then
                                                                 multiplied by a risk factor associated with that category.
Nationally Recognized Statistical Rating Organization            The sum of the resulting weighted values from each of the
(“NRSRO”): Credit rating agency registered with the              risk categories is the bank’s total risk-weighted assets.
SEC. Credit rating agencies provide their opinion of
the creditworthiness of companies and the financial              SBA Pool Certificates: Ownership interest in a bond
obligations issued by companies. The ratings distinguish         backed by SBA-guaranteed loans.
between investment grade and non-investment grade                Senior Preferred Stock: Shares that give the stockholder
equity and debt obligations.                                     priority dividend and liquidation claims over junior
Net Present Value (“NPV”) Test: Compares the money               preferred and common stockholders.
generated by modifying the terms of the mortgage with the        Senior Subordinated Debentures: Debt instrument
amount an investor can reasonably expect to recover in a         ranking below senior debt but above equity with regard to
foreclosure sale.                                                investors’ claims on company assets or earnings.
Non-Agency Residential Mortgage-Backed Securities                Servicing Advances: If borrowers’ payments are not made
(“non-agency RMBS”): Financial instrument backed by              promptly and in full, mortgage servicers are contractually
a group of residential real estate mortgages (i.e., home         obligated to advance the required monthly payment
mortgages for residences with up to four dwelling units)         amount in full to the investor. Once a borrower becomes
not guaranteed or owned by a Government-sponsored                current or the property is sold or acquired through
enterprise (“GSE”) or a Government Agency.                       foreclosure, the servicer is repaid all advanced funds.
Non-Recourse Loan: Secured loan in which the borrower
is relieved of the obligation to repay the loan upon
surrendering the collateral.
400           APPENDIX A I GLOSSARY I OCTOBER 29, 2014




      Short Sale: Sale of a home for less than the unpaid             Sources:
                                                                      Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
      mortgage balance. A homeowner sells the home and the            fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
      investor accepts the proceeds as full or partial satisfaction   10/13/2014.

      of the unpaid mortgage balance, thus avoiding the               Federal Reserve Board, Federal Reserve Banks Operating Circular No. 9: Treasury Investments and
                                                                      Collateral Securing Public Funds and Financial Interests of the Government, www.frbservices.org/
      foreclosure process.                                            files/regulations/pdf/operating_circular_9_072513.pdf, accessed 10/13/2014.
                                                                      FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 10/13/2014.
      Skin in the Game: Equity stake in an investment; down
                                                                      FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
      payment; the amount an investor can lose.                       card_securitization/glossary.html, accessed 10/13/2014.
                                                                      FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
      Special Purpose Vehicle (“SPV”): A legal entity,                rules/2000-4600.html, accessed 10/13/2014.
      often off-balance-sheet, that holds transferred assets          FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed
      presumptively beyond the reach of the entities providing        10/13/2014.
                                                                      SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
      the assets, and that is legally isolated from its sponsor or    3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
      parent company.                                                 Affordable_Modification_Program.pdf, accessed 10/13/2014.
                                                                      GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
      Subchapter S Corporations (“S corporations”):                   special.pubs/d06382sp.pdf, p. 7-3, accessed 10/13/2014.
      Corporate form that passes corporate income, losses,            GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                      on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
      deductions, and credit through to shareholders for Federal      pdf, accessed 10/13/2014; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
      tax purposes. Shareholders of S corporations report the         Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                      Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 10/13/2014.
      flow-through of income and losses on their personal tax         IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
      returns and are taxed at their individual income tax rates.     Employed/Abusive-Offshore-Tax-Avoidance-Schemes-Glossary-of-Offshore-Terms, accessed
                                                                      10/13/2014.
      Subordinated Debentures: Form of debt security that             Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012, www.
                                                                      hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
      ranks below other loans or securities with regard to claims     accessed 10/13/2014.
      on assets or earnings.                                          SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/
                                                                      idc/groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed
      Systemically Significant Institutions: Term referring           10/13/2014.
      to any financial institution whose failure would impose         SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/13/2014.

      significant losses on creditors and counterparties, call        Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                      10/13/2014.
      into question the financial strength of similar institutions,   Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
      disrupt financial markets, raise borrowing costs for            center/press-releases/Pages/tg58.aspx, accessed 10/13/2014.

      households and businesses, and reduce household wealth.         Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                      Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
      Trial Modification: Under HAMP, a period of at least            aspx, accessed 10/13/2014.
                                                                      Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
      three months in which a borrower is given a chance to           Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
      establish that he or she can make lower monthly mortgage        sd1014.pdf, accessed 10/13/2014.

      payments and qualify for a permanent modification.              Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                      treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 10/13/2014.
      Trust Preferred Securities (“TRUPS”): Securities that           U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                      www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/13/2014.
      have both equity and debt characteristics created by
                                                                      U.S. Department of Housing and Urban Development, “Glossary,” no date, portal.hud.gov/hudportal/
      establishing a trust and issuing debt to it.                    HUD?src=/program_offices/housing/sfh/buying/glossary, accessed 10/13/2014.

      Undercapitalized: Condition in which a financial
      institution does not meet its regulator’s requirements
      for sufficient capital to operate under a defined level of
      adverse conditions.
      Underwater Mortgage: Mortgage loan on which a
      homeowner owes more than the home is worth, typically
      as a result of a decline in the home’s value. Underwater
      mortgages also are referred to as having negative equity.
                                                                               ACRONYMS AND ABBREVIATIONS I APPENDIX B I OCTOBER 29, 2014             401




ACRONYMS AND ABBREVIATIONS

              2MP      Second Lien Modification Program                              ERISA     Employee Retirement Income Security Act
               ABS     asset-backed securities                                  Fannie Mae Federal National Mortgage Association
          the “Act” Securities Act of 1933                                             FDIC    Federal Deposit Insurance Corporation
               AGP Asset Guarantee Program                                    Farmers Bank Farmers Bank & Trust, N.A.
               AIFP    Automotive Industry Financing Program                       Farmers
                                                                                            Farmers Enterprises, Inc.
                                                                                Enterprises
                AIG    American International Group, Inc.
                                                                                               Federal Deposit Insurance Corporation Office of
Ally, Ally Financial   Ally Financial Inc.                                        FDIC OIG
                                                                                               Inspector General
              ASSP Auto Supplier Support Program
                                                                            Federal Reserve    Board of Governors of the Federal Reserve System
             AWCP      Auto Warranty Commitment Program
                                                                                       FHA     Federal Housing Administration
               BAC     Bank of America Corporation
                                                                                   FHA2LP      Treasury/FHA Second-Lien Program
       Blue Valley     Blue Valley
                                                                                        Fiat   Fiat North America LLC
               BOC     Bank of the Commonwealth
                                                                                               Financial Institutions Reform, Recovery, and
                                                                                    FIRREA
               CAP Capital Assistance Program                                                  Enforcement Act
               CBO     Congressional Budget Office                                             Office of Inspector General-Board of Governors of
                                                                                   FRB OIG
                                                                                               the Federal Reserve System
              CDCI     Community Development Capital Initiative
                                                                                    FRBNY      Federal Reserve Bank of New York
              CDFI     Community Development Financial Institution
                                                                               Freddie Mac Federal Home Loan Mortgage Corporation
               CDO     collateralized debt obligations
                                                                                      FSOC     Financial Stability Oversight Council or the Council
              CEBT     Colorado East Bank and Trust
                                                                                       FTC     Federal Trade Commission
               CEO     chief executive officer
                                                                                       GAO     Government Accountability Office
         Cerberus      Cerberus Capital Management, L.P.
                                                                                        GM     General Motors Company
               CFO     chief financial officer
                                                                               GM Financial    General Motors Financial Company, Inc.
             CFPB      Consumer Financial Protection Bureau
                                                                                       GSE     Government-sponsored enterprise
          Chrysler     Chrysler Holding LLC
                                                                                      HAFA     Home Affordable Foreclosure Alternatives program
Chrysler Financial     Chrysler Financial Services Americas LLC
                                                                                               Home Affordable Modification Program; HAMP
                       Council of the Inspectors General on Integrity and            HAMP
              CIGIE                                                                            Tier 1
                       Efficiency
                                                                               HAMP Tier 2 Home Affordable Modification Program Tier 2
         Citigroup     Citigroup Inc.
                                                                                       HFA     Housing Finance Agency
             CMBS      commercial mortgage-backed securities
                                                                                       HHF     Hardest Hit Fund
Coastal Securities Coastal Securities, Inc.
                                                                            HHF or Hardest
      Countrywide Countrywide Financial Corporation                                        Housing Finance Agency Hardest Hit Fund
                                                                                  Hit Fund
               CPP Capital Purchase Program
                                                                                      HOPE Home Owners Protection Economics, Inc.
                       Department of Education Office of Inspector
            DE OIG                                                                    HPDP     Home Price Decline Protection
                       General
                                                                                       HUD     Department of Housing and Urban Development
                       Dodd-Frank Wall Street Reform and Consumer
  Dodd-Frank Act
                       Protection Act                                                   IPO initial public offering
                DTI    debt-to-income                                                   IRS    Internal Revenue Service
              EESA     Emergency Economic Stabilization Act of 2008                Jobs Act    Small Business Jobs Act of 2010
    Eligible Assets    securities eligible for purchase by PPIFs                 KC United KC United, LLC
402     APPENDIX B I ACRONYMS AND ABBREVIATIONS I OCTOBER 29, 2014




                 LTV    loan-to-value                                      servicing advance receivables for residential mortgage servicing
                                                                                  receivables advances
                M&T     M&T Bank Corporation
                                                                              Shay Financial    Shay Financial Services, Inc.
                MBS mortgage-backed securities
                                                                                                Office of the Special Inspector General for the
                MCP mandatorily convertible preferred shares                        SIGTARP
                                                                                                Troubled Asset Relief Program
                MHA     Making Home Affordable program
                                                                                                Special Inspector General for the Troubled Asset
                                                                                SIGTARP Act
                NAV net asset value                                                             Relief Program Act of 2009
                        Neighborhood Reinvestment Corporation and             Small Business
      NeighborWorks                                                                          Jobs Act of 2010
                        NeighborWorks America                                       Jobs Act
        Non-Agency Non-Agency Residential Mortgage-Backed                                SPA Servicer Participation Agreements
             RMBS Securities
                                                                              Special Master Special Master for TARP Executive Compensation
                NPV net present value
                                                                                         SPV    special purpose vehicle
             NRSRO nationally recognized statistical rating organization
                                                                                         SSFI   Systemically Significant Failing Institutions program
               NYAG New York State Attorney General
                                                                                        TALF Term Asset-Backed Securities Loan Facility
                 OFS    Office of Financial Stability
                                                                                        TARP Troubled Asset Relief Program
                OMB     Office of Management and Budget
                                                                                         TBW Taylor, Bean and Whitaker Mortgage Corporation
         Option ARM Option Adjustable Rate Mortgage
                                                                                         TCW The TCW Group, Inc.
                        Office of the Special Master for TARP Executive
                OSM                                                         Tennessee Valley    Tennessee Valley Financial Holdings, Inc.
                        Compensation
                                                                                     TierOne TierOne Bank
                 OTS    Office of Thrift Supervision
                                                                                          TIP Targeted Investment Program
                        Professional Cleaning and Innovative Building
                 PCI
                        Services, Inc.                                                   TPP trial period plan
                  PII   personally identifiable information                         Treasury Department of the Treasury
                PPIF Public-Private Investment Fund                                             Department of Treasury Office of Inspector
                                                                                Treasury OIG
                                                                                                General
                PPIP Public-Private Investment Program
                                                                                    Treasury
                 PRA Principal Reduction Alternative                                         Secretary of the Treasury
                                                                                   Secretary
                 PSA Pooling and Servicing Agreements
                                                                              Treasury/FHA- HAMP Loan Modification Option for FHA-insured
                 QIB    Qualified Institutional Buyers                                HAMP Mortgages
                        Department of Agriculture Office of Rural                     TRUPS     trust preferred securities
                  RD
                        Development
                                                                                                Tennesse Valley Authority's Office of the Inspector
                                                                                     TVA OIG
                        Department of Agriculture Office of Rural                               General
           RD-HAMP
                        Development HAMP
                                                                                         UAW    United Auto Workers
             ResCap Residential Capital, LLC
                                                                                        UCSB    Unlocking Credit for Small Businesses
                RMA request for mortgage assistance
                                                                                           UP   Home Affordable Unemployment Program
               RMBS residential mortgage-backed securities
                                                                                           VA   Department of Veterans Affairs
                        Railroad Retirement Board Office of Inspector
            RRB OIG                                                                             Department of Veterans Affairs Home Affordable
                        General                                                     VA HAMP
                                                                                                Modification Program
          S&L crisis    the savings and loan crisis
                                                                            Wilmington Trust    Wilmington Trust Company
      S corporations subchapter S corporations
                 SBA Small Business Administration
               SBLF     Small Business Lending Fund
                 SEC    Securities and Exchange Commission
           servicers    loan servicers
                                                                                         REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 29, 2014           403




REPORTING REQUIREMENTS
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

#     EESA        EESA Reporting       Treasury Response to SIGTARP Data Call                                                          SIGTARP Report
      Section     Requirement                                                                                                          Section
1     Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 4: “TARP
      121(c)(A)   the categories of    2010.                                                                                           Overview”
                  troubled assets      Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                  purchased or                                                                                                         Appendix D:
                                       troubled assets under TARP since that date.
                  otherwise procured                                                                                                   “Transaction
                  by the Treasury      Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/           Detail”
                  Secretary.           financial-stability/Pages/default.aspx, as of 7/11/2013, or as otherwise noted:
                                       CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                       by providing capital to viable financial institutions of all sizes throughout the nation.
                                       Without a viable banking system, lending to businesses and consumers could have frozen
                                       and the financial crisis might have spiraled further out of control.
                                       AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the height
                                       of the financial crisis in September 2008, American International Group (AIG) was on
                                       the brink of failure. At the time, AIG was the largest provider of conventional insurance
                                       in the world. Millions depended on it for their life savings and it had a huge presence
                                       in many critical financial markets, including municipal bonds. AIG’s failure would have
                                       been devastating to global financial markets and the stability of the broader economy.
                                       Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly failure.
                                       AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                       whose failure would have caused serious harm to the financial system and the broader
                                       economy. It involved supporting the value of certain assets held by qualifying financial
                                       institutions by agreeing to absorb a portion of losses on those assets. AGP was
                                       conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                       conjunction with other forms of exceptional assistance. … Two institutions received
                                       assistance under the AGP - Bank of America and Citigroup.
                                       TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                       considered systemically significant, to prevent broader disruption of financial markets.
                                       Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                       Citigroup Inc. and Bank of America.
                                       TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                       Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                       restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                       and small businesses. … Under this program, the Federal Reserve Bank of New York
                                       made non-recourse loans to buyers of AAA-rated asset-backed securities to help stimulate
                                       consumer and business lending. Treasury used TARP funds to provide credit support for
                                       these loans.
                                       PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                       Investment Program (PPIP), which was designed to support market functioning and
                                       facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                       Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                       CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                       3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                       and the communities they serve cope with effects of the financial crisis. Under this
                                       program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                       institutions received investments totaling approximately $570 million.
404       APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 29, 2014




      #   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
          Section     Requirement                                                                                                           Section
                                              SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                              Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                              community banks and community development loan funds (CDLFs) in order to encourage
                                              small business lending. The purpose of the SBLF is to encourage Main Street banks and
                                              small businesses to work together, help create jobs, and promote economic growth in
                                              communities across the nation.
                                              SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                              SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                              this program, Treasury purchased securities backed by the government guaranteed
                                              portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                              order to increase overall small business lending.
                                              AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                              2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                              collapse of the U.S. auto industry.
                                              ASSP: The Automotive Supplier Support Program was created to ensure that auto
                                              suppliers received compensation for their services and products, regardless of the
                                              condition of the auto companies that purchase their products.a
                                              AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                              and Chrysler during their restructuring periods.a
                                              HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                              offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                              that are affordable and sustainable over the long-term. HAMP was designed to help
                                              families who are struggling to remain in their homes and show: documented financial
                                              hardship and an ability to make their monthly mortgage payments after a modification.
                                              HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                              while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                              pay-for-success incentives. This means that funds are spent only when transactions are
                                              completed and only as long as those contracts remain in place. Therefore, funds will be
                                              disbursed over many years.
      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                      purchased in each       Information on all transactions as well as additional information about these programs and
                                                                                                                                            Detail”
                      such category           related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                      described under         to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                      Section 121(c)(A).      default.aspx.
      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 4: “TARP
          121(c)(C)   of the reasons          2010.                                                                                         Overview”
                      the Treasury                                                                                                          Appendix C:
                      Secretary deemed                                                                                                      “Reporting
                      it necessary to                                                                                                       Requirements”
                      purchase each such                                                                                                    of prior SIGTARP
                      troubled asset.                                                                                                       Quarterly Reports
                                                                                                                                            to Congress
      4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(D)   financial institution   2010.                                                                                         “Transaction
                      from which such                                                                                                       Detail”
                                              Information on all transactions as well as additional information about these programs and
                      troubled assets         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                      were purchased.
                                              to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                              default.aspx.
                                                                                                                 REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 29, 2014                            405




#       EESA             EESA Reporting             Treasury Response to SIGTARP Data Call                                                                               SIGTARP Report
        Section          Requirement                                                                                                                                     Section
5       Section          A listing of               There have been no new PPIP fund managers hired between June 30, 2013 and                                            Section 4:
        121(c)(E)        and detailed               September 30, 2014.                                                                                                  “Public-Private
                         biographical                                                                                                                                    Investment
                         information on each                                                                                                                             Program”
                         person or entity                                                                                                                                Appendix C:
                         hired to manage                                                                                                                                 “Reporting
                         such troubled                                                                                                                                   Requirements”
                         assets.                                                                                                                                         of prior SIGTARP
                                                                                                                                                                         Quarterly Reports
                                                                                                                                                                         to Congress
6       Section          A current estimate         Treasury published its most recent valuation of TARP investments on 10/10/2014, in                                   Table C.1;
        121(c)(F)        of the total amount        its September 2014 Monthly Report to Congress, which will be available on Treasury’s                                 Section 4:
                         of troubled assets         public website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                      “TARP Overview”
                         purchased pursuant         Pages/Monthly-Report-to-Congress.aspx.
                         to any program                                                                                                                                  Appendix D:
                         established under                                                                                                                               “Transaction
                         Section 101, the                                                                                                                                Detail”
                         amount of troubled
                         assets on the books
                         of Treasury, the
                         amount of troubled
                         assets sold, and
                         the profit and loss
                         incurred on each
                         sale or disposition
                         of each such
                         troubled assets.
7       Section          A listing of the           Treasury’s authority to make new financial commitments under TARP ended on October 3,                                Section 4:
        121(c)(G)        insurance contracts        2010. As such, Treasury cannot issue any new insurance contracts after this date.                                    “TARP Overview”
                         issued under
                         Section 102.
                                                                                                                                                                         Section 4:
                                                                                                                                                                         “Targeted
                                                                                                                                                                         Investment
                                                                                                                                                                         Program and
                                                                                                                                                                         Asset Guarantee
                                                                                                                                                                         Program”
8       Section          A detailed                 Treasury’s authority to make new financial commitments under TARP ended on October 3,                                Table C.1;
        121(f)           statement of               2010.
                         all purchases,                                                                                                                                  Section 4:
                                                    Treasury provides information about TARP obligations, expenditures, and revenues in
                         obligations,                                                                                                                                    “TARP Overview”
                                                    TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                         expenditures,
                                                    initiatives/financial-stability/Pages/default.aspx.
                         and revenues                                                                                                                                    Section 5:
                         associated with            Information on obligations and expenditures is also available in the Daily TARP Update                               “TARP
                         any program                reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                           Operations and
                         established by the         stability/reports/Pages/Daily-TARP-Reports.aspx.                                                                     Administration”
                         Secretary of the
                         Treasury under                                                                                                                                  Appendix D:
                         Sections 101 and                                                                                                                                “Transaction
                         102.                                                                                                                                            Detail”
Notes:
a
  Description is as of 7/11/2013.

Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 10/1/2014; ASSP, “Treasury Announces Auto
Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 10/1/2014; AWCP, “Obama Administration’s New Warrantee Commitment Program,”
no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 10/1/2014; TALF, Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently
Asked Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 10/1/2014; SBLF, Small Business Lending Act, P.L. 111-240, 9/27/2010,
www.gpo.gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 10/1/2014; MHA, “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/
initiatives/financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 10/1/2014.
406             APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 29, 2014




      TABLE C.1
       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                         ($ BILLIONS)
       (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                           Obligations
                                                                                                                           After Dodd-                     Current
                                                                                                                                 Frank                  Obligations
                                                                                                                                 (As of                      (As of                                         On Treasury’s
                                                                                          Total Funding                   10/3/2010)                   9/30/2014)                        Expended                 Booksa
       Housing Support Programs                                                                    $70.6b                           $45.6                        $38.5c                         $13.8                      $—d
                                                                                                   204.9
       Capital Purchase Program (“CPP”)                                                                                             204.9                        204.9                          204.9                      5.5
                                                                                                  (197.2)e
                                                                                                       0.6
       Community Development Capital Initiative (“CDCI”)                                                                                0.6                          0.6f                           0.2                    0.5
                                                                                                      (0.1)
                                                                                                     69.8
       Systemically Significant Failing Institutions (“SSFI”)                                                                         69.8                         67.8h                          67.8                   13.5
                                                                                                    (56.4)g
                                                                                                     40.0
       Targeted Investment Program (“TIP”)                                                                                            40.0                         40.0                           40.0                     0.0
                                                                                                    (40.0)
                                                                                                   301.0
       Asset Guarantee Program (“AGP”)                                                                                                  5.0                          5.0                            0.0                    0.0
                                                                                                  (301.0)
                                                                                                     81.8j
       Automotive Industry Support Programs (“AIFP”)i                                                                                 81.8                         79.7                           79.7                   17.8
                                                                                                    (61.9)
                                                                                                     71.1
       Term Asset-Backed Securities Loan Facility (“TALF”)                                                                              4.3                          0.1                            0.1                    0.0
                                                                                                      (0.1)k
                                                                                                     29.8
       Public-Private Investment Program (“PPIP”)                                                                                     22.4                         18.8                           18.6                     0.0m
                                                                                                    (18.6)l
                                                                                                       0.4n
       Unlocking Credit for Small Businesses (“UCSB”)                                                                                   0.4                          0.4                            0.4                    0.0
                                                                                                      (0.4)
       Total                                                                                    $868.9                           $474.8                       $455.7                        $425.5o                    $37.3
       Notes: Numbers may not total due to rounding.
       a
                “On Treasury’s Books” includes amounts disbursed and still outstanding of $2.9 billion, plus write-offs and realized losses totaling $34.4 billion. It does not include $13.8 billion in TARP dollars spent on
                 housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
       b
                    Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
                     estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
       c
                 On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
       d
                   Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
       e
                  Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $372.3 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
                   $2.2 billion refinanced from CPP into the Small Business Lending Fund.
       f
            CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
             was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
             Of the total obligation, only $106 million went to non-CPP institutions.
       g
                      The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
                       received from the AIG credit facility trust in the January 2011 recapitalization.
       h
              Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
       i
         Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
       j
          Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
       k
             On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
              $0.1 billion.
       l
           On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
            $958 million is included in this repayment total.
       m
                       PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
                        billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
                        $18.8 billion results because Oaktree, Marathon, RJL Western, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. All undrawn debt and equity, with
                        the exception of AG GECC’s equity investment, has been deobligated as of September 30, 2014.
       n
               Treasury reduced commitment from $15 billion to an obligation of $400 million.
       o
                     The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

       Sources: Repayments data: Treasury, Transactions Report, 9/30/2014; Treasury, Daily TARP Update, 10/1/2014; Treasury’s response to SIGTARP data call, 10/6/2014.
TRANSACTION DETAIL
TABLE D.1
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014
                                                                           Capital Repayment                                         Number     Average Price                                              Stock Price       Current
Transaction                                                                    / Disposition /                  Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/23/2008                                                                                                                 $0.00
              1st Constitution
10/27/2010    Bancorp,                 $12,000,000.00    $13,433,242.67       $12,000,000.00                                          12,000       $1,000.00                                                 $10.25                       $1,106,666.67
              Cranbury, NJ11
11/22/2011                                                                                                                                                                                    $326,576.00
2/13/2009     1st Enterprise            $4,400,000.00    $11,748,156.44                                                    $0.00
              Bank, Los
12/11/2009                              $6,000,000.00                                                                                                                                                        $25.05                       $1,128,156.44
              Angeles,
9/1/2011      CA8,14,18,44                                                    $10,400,000.00                                          10,400       $1,000.00                                  $220,000.00
11/14/2008    1st FS                                      $9,229,948.97                                                    $0.00
              Corporation,
                                       $16,369,000.00                                                                                                                                                         $0.00                       $1,229,948.97
12/31/2013    Hendersonville,                                                  $8,000,000.00                                          16,369         $488.70     ($8,369,000.00)
              NC102
1/23/2009                                               $125,480,000.00                                                    $0.00
              1st Source
12/29/2010    Corporation,            $111,000,000.00                        $111,000,000.00                                         111,000       $1,000.00                                                 $28.48                      $10,730,000.00
              South Bend, IN11
3/9/2011                                                                                                                                                                                     $3,750,000.00
3/13/2009     1st United                                 $10,870,902.67                                                    $0.00
              Bancorp, Inc.,
                                       $10,000,000.00                                                                                                                                                         $8.52                         $370,902.67
11/18/2009    Boca Raton,                                                     $10,000,000.00                                          10,000       $1,000.00                                  $500,000.00
              FL8,11,14
1/23/2009                                                 $1,274,909.59                                                    $0.00
11/19/2013                                                                       $815,100.00                                           2,964         $275.00     ($2,148,900.00)
              AB&T Financial
1/6/2014      Corporation,              $3,500,000.00                                            ($50,000.00)                                                                                                 $0.30                         $360,694.44
              Gastonia, NC
2/10/2014                                                                        $150,621.36                                             536         $281.00       ($385,378.64)
3/19/2014                                                                                         ($1,506.21)
1/30/2009     Adbanc, Inc,                               $15,071,769.00                                                    $0.00
                                       $12,720,000.00                                                                                                                                                                                     $1,715,769.00
7/21/2011     Ogallala, NE8,14,44                                             $12,720,000.00                                          12,720       $1,000.00                                  $636,000.00
1/23/2009                                                 $7,674,004.73                                                    $0.00
7/19/2013     Alarion Financial                                                  $877,729.70                                             893         $982.90         ($15,270.30)
              Services, Inc.,           $6,514,000.00                                                                                                                                                                                       $998,056.89
7/22/2013     Ocala, FL8,14                                                    $5,524,880.90                                           5,621         $982.90         ($96,119.10)             $337,363.35
9/12/2013                                                                                        ($64,026.11)
2/6/2009                                                  $7,501,881.70                                                    $0.00
11/28/2012                                                                       $208,870.74                                             234         $892.60         ($25,129.26)
11/29/2012    Alaska Pacific                                                   $4,058,697.67                                           4,547         $892.60       ($488,302.33)
              Bancshares, Inc.,         $4,781,000.00                                                                                                                                                        $17.11                         $913,405.03
1/11/2013     Juneau, AK104                                                                      ($42,675.67)
3/26/2013                                                                                         ($7,324.33)
4/1/2014                                                                                                                                                                                     $2,370,908.26
6/26/2009                                                 $3,581,397.27                                                    $0.00
3/27/2013     Alliance                                                                                                                                                                         $94,153.69
              Bancshares, Inc.,         $2,986,000.00                                                                                                                                                                                       $611,059.81
3/28/2013     Dalton, GA                                                       $2,856,437.46                                           2,986         $956.60       ($129,562.54)               $44,746.31
4/9/2013                                                                                         ($25,000.00)
12/19/2008                                               $28,356,360.00                                                    $0.00
              Alliance Financial
5/13/2009     Corporation,             $26,918,000.00                         $26,918,000.00                                          26,918       $1,000.00                                                 $22.52                         $538,360.00
              Syracuse, NY11
6/17/2009                                                                                                                                                                                     $900,000.00
6/26/2009                                                 $9,806,136.60                                                    $0.00
2/6/2013      Alliance Financial                                               $3,375,945.00                                        4,500,000          $0.75     ($1,124,055.00)
              Services Inc.,           $12,000,000.00                                                                                                                                                                                       $388,741.80
2/7/2013      Saint Paul, MN14,15                                              $5,626,575.00                                        7,500,000          $0.75     ($1,873,425.00)              $504,900.00
3/26/2013                                                                                        ($90,025.20)
              Allied First
4/24/2009     Bancorp, Inc.,            $3,652,000.00       $409,753.00                                            $3,652,000.00                                                                              $0.12                         $409,753.00
              Oswego, IL8
                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                            407
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)                                                                                                                                                                             408
                                                                             Capital Repayment                                           Number     Average Price                                                      Stock Price       Current
Transaction                                                                      / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
3/27/2009                                                  $73,129,160.69                                                     $0.00
9/18/2012     Alpine Banks                                                         $280,115.76                                               344         $814.30         ($63,884.24)
              of Colorado,
9/19/2012                               $70,000,000.00                           $6,559,920.24                                             8,056         $814.30      ($1,496,079.76)                                                                $13,407,113.69
              Glenwood
9/20/2012     Springs, CO8,14                                                   $50,160,264.00                                            61,600         $814.30     ($11,439,736.00)                    $3,291,750.00
11/16/2012                                                                                         ($570,003.00)
1/30/2009     AMB Financial                                 $4,387,576.45                                                     $0.00
              Corp., Munster,            $3,674,000.00                                                                                                                                                                    $9.00                         $529,576.45
9/22/2011     IN8,14,45                                                          $3,674,000.00                                             3,674       $1,000.00                                          $184,000.00

3/6/2009      AmeriBank                                     $2,960,021.33                                                     $0.00
              Holding Company,
                                         $2,492,000.00                                                                                                                                                                                                  $343,021.33
9/15/2011     Collinsville,                                                      $2,492,000.00                                             2,492       $1,000.00                                          $125,000.00
              OK8,14,44
1/9/2009                                                 $3,803,257,308.33                                                    $0.00
              American Express
6/17/2009     Company, New           $3,388,890,000.00                       $3,388,890,000.00                                          3,388,890      $1,000.00                                                         $87.28                      $74,367,308.33
              York, NY11
7/29/2009                                                                                                                                                                                              $340,000,000.00
5/29/2009     American Premier                              $2,052,682.49                                                     $0.00
              Bancorp, Arcadia,          $1,800,000.00                                                                                                                                                                                                  $162,682.49
1/26/2011     CA8,11,14                                                          $1,800,000.00                                             1,800       $1,000.00                                           $90,000.00

1/9/2009      American State                                $7,220,141.67                                                     $0.00
              Bancshares,
                                         $6,000,000.00                                                                                                                                                                                                  $920,141.67
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




11/2/2011     Inc., Great Bend,                                                  $6,000,000.00                                             6,000       $1,000.00                                          $300,000.00
              KS8,11,14
11/21/2008                                                 $59,637,438.67                                                     $0.00
              Ameris Bancorp,
6/19/2012                               $52,000,000.00                          $48,391,200.00     ($725,868.00)                          52,000         $930.60      ($3,608,800.00)                                    $21.95                       $9,302,106.67
              Moultrie, GA
8/22/2012                                                                                                                                                                                                $2,670,000.00
12/19/2008                                                 $24,601,666.66                                                     $0.00
              AmeriServ
8/11/2011     Financial, Inc,           $21,000,000.00                          $21,000,000.00                                            21,000       $1,000.00                                                          $3.30                       $2,776,666.66
              Johnstown, PA45
11/2/2011                                                                                                                                                                                                 $825,000.00
8/21/2009                                                   $6,523,255.00                                                     $0.00
3/26/2013                                                                          $359,040.00                                           374,000           $0.96         ($14,960.00)
              AmFirst Financial
3/27/2013     Services, Inc.,            $5,000,000.00                           $2,112,000.00                                          2,200,000          $0.96         ($88,000.00)                                                                 $1,511,380.00
              McCook, NE14,15
3/28/2013                                                                        $2,328,960.00                                          2,426,000          $0.96         ($97,040.00)                     $259,875.00
4/9/2013                                                                                            ($48,000.00)
1/30/2009     Anchor BanCorp                                $6,000,000.00                                                     $0.00
              Wisconsin Inc.,          $110,000,000.00                                                                                                                                                                   $20.59
9/27/2013     Madison, WI94                                                      $6,000,000.00                                         60,000,000          $0.10    ($104,000,000.00)

1/30/2009                                                   $9,643,136.33                                                     $0.00
              Annapolis
4/18/2012     Bancorp, Inc.              $8,152,000.00                           $4,076,000.00                                             4,076       $1,000.00                                                         $11.99
              Annapolis, MD11,90
3/6/2013                                                                         $4,076,000.00                                             4,076       $1,000.00
11/21/2008                                                $596,539,172.32                                                     $0.00
4/6/2011      Associated                                                       $262,500,000.00                                           262,500       $1,000.00
              Banc-Corp, Green         $525,000,000.00                                                                                                                                                                   $17.42                      $68,104,166.67
9/14/2011     Bay, WI11                                                        $262,500,000.00                                           262,500       $1,000.00
12/6/2011                                                                                                                                                                                                $3,435,005.65
12/29/2009                                                  $2,503,554.78                                                     $0.00
2/7/2014      Atlantic                                                           $1,950,000.00                                             1,950       $1,150.00                         $292,500.00       $95,031.02
              Bancshares, Inc.,          $2,000,000.00                                                                                                                                                                    $1.50                         $122,724.78
2/10/2014     Bluffton, SC8,17                                                      $50,000.00                                                50       $1,150.00                           $7,500.00       $10,798.98
3/19/2014                                                                                           ($25,000.00)
2/27/2009     Avenue Financial                              $8,798,415.33                                                     $0.00
              Holdings, Inc.,            $7,400,000.00                                                                                                                                                                                                $1,028,415.33
9/15/2011     Nashville, TN8,14,44                                               $7,400,000.00                                             7,400       $1,000.00                                          $370,000.00

1/30/2009     Avidbank                                      $7,563,057.15                                                     $0.00
              Holdings, Inc./
7/31/2013     Peninsula Bank             $6,000,000.00                           $6,000,000.00                                             6,000       $1,000.00                                                                                      $1,372,276.03
              Holding Co., Palo
8/28/2013     Alto, CA11                                                                                                                                                                                  $190,781.12

3/13/2009     BancIndependent,                             $24,841,411.03                                                     $0.00
              Inc., Sheffield,          $21,100,000.00                                                                                                                                                                                                $2,686,411.03
7/14/2011     AL8,44                                                            $21,100,000.00                                            21,100       $1,000.00                                         $1,055,000.00

                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                          (CONTINUED)
                                                                               Capital Repayment                                         Number     Average Price                                                Stock Price       Current
Transaction                                                                        / Disposition /                  Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding    Dividend/Interest
Date          Institution            Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants      Paid to Treasury
7/10/2009     Bancorp                                        $15,595,736.93                                                    $0.00
              Financial, Inc.,
                                        $13,669,000.00                                                                                                                                                                                           $1,516,736.93
8/18/2011     Oak Brook,                                                          $13,669,000.00                                          13,669       $1,000.00                                    $410,000.00
              IL8,17,44
12/19/2008                                                   $32,341,666.66                                                    $0.00
              Bancorp Rhode
8/5/2009      Island, Inc.,             $30,000,000.00                            $30,000,000.00                                          30,000       $1,000.00                                                                                  $941,666.66
              Providence, RI11
9/30/2009                                                                                                                                                                                          $1,400,000.00
2/20/2009     BancPlus                                       $54,607,399.33                                                    $0.00
              Corporation,
                                        $48,000,000.00                                                                                                                                                                                           $4,207,399.33
9/29/2010     Ridgeland,                                                          $48,000,000.00                                          48,000       $1,000.00                                   $2,400,000.00
              MS8,11,14
4/3/2009                                                     $10,701,460.58                                                    $0.00
4/26/2013     BancStar, Inc.,                                                         $98,267.00                                             100         $982.70          ($1,733.00)
                                          $8,600,000.00                                                                                                                                                                                          $1,908,669.65
4/29/2013     Festus, MO8,14                                                        $8,352,695.00                                          8,500         $982.70       ($147,305.00)                $426,338.55
5/31/2013                                                                                            ($84,509.62)
12/19/2008    BancTrust                                      $60,451,155.74                                                    $0.00
              Financial Group,          $50,000,000.00                                                                                                                                                             $23.04         730,994      $10,436,155.74
2/15/2013     Inc., Mobile, AL83                                                  $50,000,000.00                                          50,000       $1,000.00                                     $15,000.00

8/14/2009                                                      $1,114,680.76                                                   $0.00
12/19/2012    Bank Financial                                                         $451,600.92                                             486         $929.20         ($34,399.08)
              Services, Inc.,
12/20/2012                                $1,004,000.00                              $481,335.96                                             518         $929.20         ($36,664.04)                $23,500.00                                   $183,243.88
              Eden Prairie,
1/11/2013     MN8,14                                                                                  ($9,329.37)
3/26/2013                                                                                            ($15,670.63)
10/28/2008                           $15,000,000,000.00   $26,599,663,040.28                                                   $0.00
1/9/2009      Bank of America        $10,000,000,000.00
              Corporation,                                                                                                                                                                                         $17.05                    $1,293,750,000.00
12/9/2009     Charlotte, NC6,7,11                                              $25,000,000,000.00                                       1,000,000     $25,000.00
3/9/2010                                                                                                                                                                                         $305,913,040.28
1/16/2009                                                      $3,087,573.33                                                   $0.00
              Bank of
11/30/2012    Commerce,                   $3,000,000.00                             $2,502,000.00                                          3,000         $834.00       ($498,000.00)                $100,100.00                                   $510,473.33
              Charlotte, NC8,14
1/11/2013                                                                                            ($25,000.00)
11/14/2008    Bank of                                        $19,564,027.78                                                    $0.00
              Commerce
9/27/2011                               $17,000,000.00                            $17,000,000.00                                          17,000       $1,000.00                                                    $6.24                        $2,439,027.78
              Holdings,
10/26/2011    Redding, CA44                                                                                                                                                                         $125,000.00
3/13/2009                                                      $1,233,940.00                                                   $0.00
              Bank of George,
10/21/2013                                $2,672,000.00                              $955,240.00                                           2,672         $357.50     ($1,716,760.00)                 $23,709.00                                   $279,991.00
              Las Vegas, NV8
1/6/2014                                                                                             ($25,000.00)
12/5/2008                                                    $30,155,095.11                                                    $0.00
              Bank of Marin
3/31/2009     Bancorp, Novato,          $28,000,000.00                            $28,000,000.00                                          28,000       $1,000.00                                                   $45.89                         $451,111.11
              CA11
11/23/2011                                                                                                                                                                                         $1,703,984.00
10/28/2008                                                 $3,231,416,666.67                                                   $0.00
              Bank of New York
6/17/2009     Mellon, New York,       $3,000,000,000.00                         $3,000,000,000.00                                       3,000,000      $1,000.00                                                   $38.73                      $95,416,666.67
              NY11
8/5/2009                                                                                                                                                                                         $136,000,000.00
4/17/2009     Bank of the                                      $4,334,427.00                                                   $0.00
              Carolinas
                                        $13,179,000.00                                                                                                                                                              $0.60                        $1,039,677.00
7/16/2014     Corporation,                                                          $3,294,750.00                                         13,179         $250.00     ($9,884,250.00)
              Mocksville, NC105
12/12/2008                                                   $81,004,166.67                                                    $0.00
              Bank of the
11/4/2009     Ozarks, Inc., Little      $75,000,000.00                            $75,000,000.00                                          75,000       $1,000.00                                                   $31.52                        $3,354,166.67
              Rock, AR11
11/24/2009                                                                                                                                                                                         $2,650,000.00
1/30/2009     Bankers’ Bank                                  $17,097,990.60                                                    $0.00
                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




              of the West
                                        $12,639,000.00                                                                                                                                                                                           $3,826,990.60
4/24/2014     Bancorp, Inc.,                                                      $12,639,000.00                                          12,639       $1,000.00                                    $632,000.00
              Denver, CO8,106
1/23/2009     BankFirst Capital                              $18,492,469.25                                                    $0.00
              Corporation,              $15,500,000.00                                                                                                                                                                                           $2,217,469.25
9/8/2011      Macon, MS8,14,44                                                    $15,500,000.00                                          15,500       $1,000.00                                    $775,000.00

                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                  409
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)                                                                                                                                                                       410
                                                                           Capital Repayment                                            Number     Average Price                                               Stock Price       Current
Transaction                                                                    / Disposition /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount    Total Cash Back2            Auction2,4     Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
2/13/2009                                                 $1,100,653.50                                                       $0.00
11/9/2012     BankGreenville,                                                    $900,000.00                                              1,000         $900.00       ($100,000.00)                $21,880.50
                                       $1,000,000.00                                                                                                                                                                                            $203,773.00
1/11/2013     Greenville, SC8,14                                                                     ($9,000.00)
3/26/2013                                                                                           ($16,000.00)
11/21/2008                                              $129,079,862.47                                                       $0.00
              Banner
4/3/2012      Corporation,           $124,000,000.00                         $109,717,680.00     ($1,645,765.20)                        124,000         $884.80    ($14,282,320.00)                              $38.29                      $20,873,746.67
              Walla Walla, WA
6/12/2013                                                                                                                                                                                         $134,201.00
2/6/2009      Banner County                                 $942,411.42                                                       $0.00
              Ban Corporation,
                                         $795,000.00                                                                                                                                                                                            $107,411.42
7/28/2011     Harrisburg,                                                        $795,000.00                                                795       $1,000.00                                    $40,000.00
              NE8,14,44
1/16/2009                                                $20,037,514.11                                                       $0.00
              Bar Harbor
2/24/2010     Bankshares, Bar         $18,751,000.00                          $18,751,000.00                                             18,751       $1,000.00                                                  $28.93                       $1,036,514.11
              Harbor, ME12,16
7/28/2010                                                                                                                                                                                         $250,000.00
11/14/2008                                             $3,293,353,918.53                                                      $0.00
              BB&T Corp.,
6/17/2009     Winston-Salem,       $3,133,640,000.00                       $3,133,640,000.00                                              3,134    $1,000,000.00                                                 $37.21                      $92,703,516.67
              NC11
7/22/2009                                                                                                                                                                                       $67,010,401.86
4/3/2009      BCB Holding                                 $2,315,853.14                                                       $0.00
                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Company, Inc.,           $1,706,000.00                                                                                                                                                                                            $524,853.14
7/1/2014      Theodore, AL8,112                                                $1,706,000.00                                              1,706       $1,000.00                                    $85,000.00

12/23/2008                                               $13,371,500.00                                                       $0.00
              BCSB Bancorp,
1/26/2011     Inc., Baltimore,        $10,800,000.00                          $10,800,000.00                                             10,800       $1,000.00                                                  $24.68                       $1,129,500.00
              MD11
4/19/2013                                                                                                                                                                                        $1,442,000.00
1/30/2009                                                 $7,263,316.66                                                       $0.00
7/6/2011                                                                       $1,500,000.00                                              1,500       $1,000.00
10/19/2011    Beach Business                                                   $1,500,000.00                                              1,500       $1,000.00
              Bank, Manhattan          $6,000,000.00                                                                                                                                                              $9.18                         $963,316.66
3/7/2012      Beach, CA8,11,14                                                 $1,500,000.00                                              1,500       $1,000.00
6/6/2012                                                                       $1,200,000.00                                              1,200       $1,000.00
6/27/2012                                                                        $300,000.00                                                300       $1,000.00                                   $300,000.00
6/12/2009     Berkshire                                   $3,444,478.21                                                       $0.00
              Bancorp, Inc./
9/19/2011     Customers                                                                 $0.00                                             2,892       $1,000.00
                                       $2,892,000.00                                                                                                                                                                                            $407,478.21
              Bancorp, Inc.,
12/28/2011    Phoenixville,                                                    $2,892,000.00                                              2,892       $1,000.00                                   $145,000.00
              PA8,11,14
12/19/2008                                               $41,917,777.78                                                       $0.00
              Berkshire Hills
5/27/2009     Bancorp, Inc.,          $40,000,000.00                          $40,000,000.00                                             40,000       $1,000.00                                                  $23.49                         $877,777.78
              Pittsfield, MA11
6/24/2009                                                                                                                                                                                        $1,040,000.00
2/13/2009     Bern Bancshares,                            $1,172,062.50                                                       $0.00
              Inc., Bern,                $985,000.00                                                                                                                                                              $8.47                         $137,062.50
9/1/2011      KS8,14,44                                                          $985,000.00                                                985       $1,000.00                                    $50,000.00

4/24/2009     Birmingham               $1,635,000.00      $3,803,022.67                                                       $0.00
              Bloomfield
12/18/2009    Bancshares, Inc,         $1,744,000.00                                                                                                                                                              $7.05                         $342,022.67
              Birmingham,
7/28/2011     MI8,14,18,44                                                     $3,379,000.00                                              3,379       $1,000.00                                    $82,000.00

6/19/2009                                                 $8,271,975.28                                                       $0.00
              Biscayne
2/7/2013      Bancshares, Inc.,                                                $2,532,140.00                                           2,600,000          $0.97         ($67,860.00)               $64,158.97
                                       $6,400,000.00                                                                                                                                                                                          $1,896,838.16
2/8/2013      Coconut Grove,                                                   $3,700,820.00                                           3,800,000          $0.97         ($99,180.00)              $140,347.75
              FL15,17
3/26/2013                                                                                           ($62,329.60)
3/13/2009                                                $11,459,461.11                                                       $0.00
10/29/2012    Blackhawk                                                          $186,550.00                                                205         $910.00         ($18,450.00)
              Bancorp, Inc.,          $10,000,000.00                                                                                                                                                             $15.50                       $1,980,211.11
10/31/2012    Beloit, WI8,14                                                   $8,913,450.00                                              9,795         $910.00       ($881,550.00)               $470,250.00
1/11/2013                                                                                           ($91,000.00)
                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)
                                                                          Capital Repayment                                          Number     Average Price                                                    Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
5/22/2009                                                $6,127,326.35                                                     $0.00
              Blackridge
6/27/2012     Financial, Inc.,         $5,000,000.00                          $2,250,000.00                                            2,250       $1,000.00                                                                                      $877,326.35
              Fargo, ND8,14
9/12/2012                                                                     $2,750,000.00                                            2,750       $1,000.00                                        $250,000.00
3/6/2009                                                $11,938,437.34                                                     $0.00
              Blue Ridge
10/29/2012    Bancshares, Inc.,                                                  $19,630.00                                               26         $755.00          ($6,370.00)
                                      $12,000,000.00                                                                                                                                                               $17.00                       $2,427,244.00
10/31/2012    Independence,                                                   $9,040,370.00                                           11,974         $755.00     ($2,933,630.00)                    $541,793.34
              MO8,14
1/11/2013                                                                                        ($90,600.00)
3/6/2009      Blue River                                   $529,105.00                                                     $0.00
              Bancshares,
                                       $5,000,000.00                                                                                                                                                                $0.02                         $529,105.00
2/10/2012     Inc., Shelbyville,                                                                                                                                 ($5,000,000.00)
              IN8,64,97
12/5/2008                                               $21,261,845.65                                                     $0.00
10/18/2013    Blue Valley Ban                                                 $3,177,232.50                                            3,250         $977.60         ($72,767.50)
              Corp, Overland          $21,750,000.00                                                                                                                                                                $6.00         111,083         $211,458.33
10/21/2013    Park, KS                                                       $18,085,785.00                                           18,500         $977.60       ($414,215.00)
1/6/2014                                                                                        ($212,630.18)
4/17/2009     BNB Financial                              $9,776,051.62                                                     $0.00
              Services
                                       $7,500,000.00                                                                                                                                                                                            $1,901,051.62
8/30/2013     Corporation, New                                                $7,500,000.00                                            7,500       $1,000.00                                        $375,000.00
              York, NY8
12/5/2008                                               $35,140,666.12                                                     $0.00
              BNC Bancorp,
8/29/2012                             $31,260,000.00                         $28,797,649.80     ($431,964.75)                         31,260         $921.20     ($2,462,350.20)                                   $15.66                       $5,835,061.07
              Thomasville, NC
9/19/2012                                                                                                                                                                                           $939,920.00
2/27/2009     BNC Financial                              $5,673,920.75                                                     $0.00
              Group, Inc., New         $4,797,000.00                                                                                                                                                                                              $636,920.75
8/4/2011      Canaan, CT8,14,44                                               $4,797,000.00                                            4,797       $1,000.00                                        $240,000.00

1/16/2009                                               $26,941,865.35                                                     $0.00
3/14/2014     BNCCORP, Inc.,                                                    $143,000.00                                              143       $1,001.10                            $154.44      $29,737.13
                                      $20,093,000.00                                                                                                                                                               $18.15                       $6,032,118.22
3/17/2014     Bismarck, ND8                                                  $19,950,000.00                                           19,950       $1,001.10                          $21,546.00    $966,456.56
4/25/2014                                                                                       ($201,147.00)
3/6/2009      BOH Holdings,                             $11,783,777.44                                                     $0.00
              Inc., Houston,          $10,000,000.00                                                                                                                                                                                            $1,283,777.44
7/14/2011     TX8,14,44                                                      $10,000,000.00                                           10,000       $1,000.00                                        $500,000.00

5/15/2009                                                $6,947,457.50                                                     $0.00
3/8/2013      Boscobel                                                                                                                                                                              $232,180.54
              Bancorp, Inc,            $5,586,000.00                                                                                                                                                                                              $468,624.00
3/11/2013     Boscobel, WI14,15                                               $5,586,000.00                                         5,586,000          $1.11                         $592,730.46    $129,709.80
4/9/2013                                                                                         ($61,787.30)
11/21/2008                                             $171,224,745.48                                                     $0.00
              Boston Private
1/13/2010     Financial                                                      $50,000,000.00                                           50,000       $1,000.00
                                     $154,000,000.00                                                                                                                                                               $12.39                      $11,022,222.23
6/16/2010     Holdings, Inc.,                                               $104,000,000.00                                          104,000       $1,000.00
              Boston, MA11
2/7/2011                                                                                                                                                                                           $6,202,523.25
12/23/2008                                              $27,872,582.22                                                     $0.00
2/23/2011     Bridge Capital                                                 $15,000,000.00                                           15,000       $1,000.00
              Holdings, San           $23,864,000.00                                                                                                                                                               $22.74                       $2,613,582.22
3/16/2011     Jose, CA11                                                      $8,864,000.00                                            8,864       $1,000.00
4/20/2011                                                                                                                                                                                          $1,395,000.00
12/19/2008                                              $13,447,811.37                                                     $0.00
              Bridgeview
11/19/2013    Bancorp, Inc.,          $38,000,000.00                         $10,450,000.00                                           38,000         $275.00    ($27,550,000.00)                    $709,155.81                                 $2,393,155.56
              Bridgeview, IL8
1/6/2014                                                                                        ($104,500.00)
11/14/2008    Broadway Financial       $9,000,000.00       $810,416.67                                            $15,000,000.00
              Corporation,
                                                                                                                                                                                                                    $1.60                         $810,416.67
12/4/2009     Los Angeles,             $6,000,000.00
              CA9,10,18,65,96,99
                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                  411
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                           412
                                                                            Capital Repayment                                         Number     Average Price                                                      Stock Price       Current
Transaction                                                                     / Disposition /                  Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)         Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
5/15/2009                                                  $3,022,879.60                                                    $0.00
4/26/2013     Brogan                                                               $60,000.00                                          60,000           $1.05                           $3,000.60
              Bankshares, Inc.,         $2,400,000.00                                                                                                                                                                                                $402,720.00
4/29/2013     Kaukauna, WI14,15                                                 $2,340,000.00                                        2,340,000          $1.05                         $117,023.40      $125,135.60
5/31/2013                                                                                         ($25,000.00)
7/17/2009     Brotherhood                                 $12,845,586.01                                                    $0.00
              Bancshares,
                                       $11,000,000.00                                                                                                                                                                                              $1,295,586.01
9/15/2011     Inc., Kansas City,                                               $11,000,000.00                                          11,000       $1,000.00                                          $550,000.00
              KS8,14,44
4/24/2009                                                 $18,707,708.84                                                    $0.00
5/23/2012     Business                                                          $6,000,000.00                                           6,000       $1,000.00
              Bancshares, Inc.,        $15,000,000.00                                                                                                                                                                                              $2,957,708.84
1/9/2013      Clayton, MO8,11,14                                                $2,500,000.00                                           2,500       $1,000.00
4/24/2013                                                                       $6,500,000.00                                           6,500       $1,000.00                                          $750,000.00
3/13/2009     Butler Point, Inc.,                            $724,123.53                                                    $0.00
                                          $607,000.00                                                                                                                                                                                                 $87,123.53
11/2/2011     Catlin, IL8,11,14                                                   $607,000.00                                             607       $1,000.00                                           $30,000.00
1/9/2009                                                  $25,205,957.78                                                    $0.00
7/27/2011     C&F Financial                                                    $10,000,000.00                                          10,000       $1,000.00
              Corporation, West        $20,000,000.00                                                                                                                                                                 $33.27         167,504       $2,902,777.78
4/11/2012     Point, VA11                                                      $10,000,000.00                                          10,000       $1,000.00
5/14/2014                                                                                                                                                                                             $2,303,180.00
                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




12/23/2008    Cache Valley              $4,767,000.00     $10,674,333.80                                                    $0.00
              Banking
12/18/2009                              $4,640,000.00                                                                                                                                                                                              $1,029,333.80
              Company, Logan,
7/14/2011     UT8,14,18,44                                                      $9,407,000.00                                           9,407       $1,000.00                                          $238,000.00
1/9/2009      Cadence Financial                           $41,984,062.50                                                    $0.00
              Corporation,             $44,000,000.00                                                                                                                                                                                              $3,984,062.50
3/4/2011      Starkville, MS                                                   $38,000,000.00                                          44,000         $863.60     ($6,000,000.00)

2/27/2009     California Bank                              $4,755,899.67                                                    $0.00
              of Commerce,
                                        $4,000,000.00                                                                                                                                                                                                $555,899.67
9/15/2011     Lafayette,                                                        $4,000,000.00                                           4,000       $1,000.00                                          $200,000.00
              CA8,14,44
1/23/2009     California Oaks                              $3,802,219.25                                                    $0.00
              State Bank,
                                        $3,300,000.00                                                                                                                                                                                                $337,219.25
12/8/2010     Thousand Oaks,                                                    $3,300,000.00                                           3,300       $1,000.00                                          $165,000.00
              CA8,11,14
              Calvert Financial
1/23/2009     Corporation,              $1,037,000.00        $215,442.61                                            $1,037,000.00                                                                                                                    $215,442.61
              Ashland, MO8
              CalWest Bancorp,
1/23/2009     Rancho Santa              $4,656,000.00        $396,163.67                                            $4,656,000.00                                                                                      $1.25                         $396,163.67
              Margarita, CA8
12/23/2008    Capital Bancorp,                             $5,452,281.19                                                    $0.00
              Inc., Rockville,          $4,700,000.00                                                                                                                                                                                                $517,281.19
12/30/2010    MD8,11,14                                                         $4,700,000.00                                           4,700       $1,000.00                                          $235,000.00

12/12/2008    Capital Bank                                $45,252,104.25                                                    $0.00
              Corporation,             $41,279,000.00                                                                                                                                                                 $22.53         749,619       $3,973,104.25
1/28/2011     Raleigh, NC39                                                    $41,279,000.00                                          41,279       $1,000.00

              Capital
              Commerce
4/10/2009                               $5,100,000.00        $304,973.00                                            $5,100,000.00                                                                                                                    $304,973.00
              Bancorp, Inc.,
              Milwaukee, WI8
11/14/2008    Capital One                               $3,806,873,702.13                                                   $0.00
              Financial
6/17/2009                           $3,555,199,000.00                       $3,555,199,000.00                                        3,555,199      $1,000.00                                                         $81.62                    $105,174,637.58
              Corporation,
12/9/2009     McLean, VA11                                                                                                                                                                          $146,500,064.55
12/23/2008                                                 $4,742,850.89                                                    $0.00
11/8/2012     Capital Pacific                                                     $247,727.04                                             264         $938.40         ($16,272.96)
              Bancorp,                  $4,000,000.00                                                                                                                                                                                                $845,368.89
11/9/2012     Portland, OR8,14                                                  $3,505,712.96                                           3,736         $938.40       ($230,287.04)                      $169,042.00
1/11/2013                                                                                         ($25,000.00)
10/23/2009    Cardinal                                     $7,547,479.56                                                    $0.00
              Bancorp II, Inc.,
                                        $6,251,000.00                                                                                                                                                                                                $983,479.56
9/8/2011      Washington,                                                       $6,251,000.00                                        6,251,000          $1.00                                          $313,000.00
              MO14,15,45
                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                          Number     Average Price                                               Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/9/2009                                                  $19,941,788.94                                                     $0.00
2/20/2013                                                                      $14,525,843.40                                           15,534         $935.10     ($1,008,156.60)
              Carolina Bank
2/21/2013     Holdings, Inc.,           $16,000,000.00                            $435,756.60                                              466         $935.10         ($30,243.40)                              $9.90                       $3,329,804.94
              Greensboro, NC
3/26/2013                                                                                         ($149,616.00)
4/19/2013                                                                                                                                                                                       $1,800,000.00
2/6/2009                                                   $3,994,452.00                                                     $0.00
11/30/2012                                                                      $3,412,000.00                                            4,000         $853.00       ($588,000.00)
              Carolina Trust
1/11/2013     Bank, Lincolnton,          $4,000,000.00                                             ($34,120.00)                                                                                                  $4.95                         $613,320.00
              NC
3/26/2013                                                                                          ($15,880.00)
6/11/2013                                                                                                                                                                                         $19,132.00
2/13/2009     Carrollton                                  $11,388,958.51                                                     $0.00
              Bancorp,                   $9,201,000.00                                                                                                                                                           $4.62                       $1,974,364.35
4/19/2013     Baltimore, MD11                                                   $9,201,000.00                                            9,201       $1,000.00                                   $213,594.16

1/16/2009     Carver Bancorp,                             $20,511,580.55                                                     $0.00
              Inc, New York,            $18,980,000.00                                                                                                                                                           $9.11                       $1,531,580.55
8/27/2010     NY9,11,36                                                        $18,980,000.00                                           18,980       $1,000.00

11/21/2008    Cascade Financial                           $17,678,900.00                                                     $0.00
              Corporation,              $38,970,000.00                                                                                                                                                                                       $1,428,900.00
6/30/2011     Everett, WA                                                      $16,250,000.00                                           38,970         $417.00    ($22,720,000.00)

12/5/2008                                                $329,874,444.96                                                     $0.00
3/20/2013     Cathay General                                                  $129,000,000.00                                          129,000       $1,000.00
              Bancorp, Los             $258,000,000.00                                                                                                                                                          $24.83                      $58,766,666.66
9/30/2013     Angeles, CA11                                                   $129,000,000.00                                          129,000       $1,000.00
12/9/2013                                                                                                                                                                                      $13,107,778.30
2/27/2009     Catskill Hudson            $3,000,000.00     $7,448,071.47                                                     $0.00
              Bancorp, Inc,
12/22/2009                               $3,500,000.00                                                                                                                                                          $16.40                         $685,071.47
              Rock Hill,
7/21/2011     NY8,14,18,44                                                      $6,500,000.00                                            6,500       $1,000.00                                   $263,000.00
5/29/2009     CB Holding Corp.,                              $271,579.53                                                     $0.00
                                         $4,114,000.00                                                                                                                                                                                         $271,579.53
10/14/2011    Aledo, IL8,57,97                                                                                                                                     ($4,114,000.00)
2/20/2009                                $2,644,000.00     $4,982,141.86                                                     $0.00
12/29/2009                               $1,753,000.00
11/28/2012    CBB Bancorp,                                                      $1,268,825.60                                            1,360         $932.05         ($91,174.40)
              Cartersville,                                                                                                                                                                                                                    $799,528.40
11/29/2012    GA8,18                                                            $2,831,259.86                                            3,037         $932.05       ($205,740.14)               $115,861.34
1/11/2013                                                                                          ($32,969.92)
3/26/2013                                                                                             ($363.42)
3/27/2009                                                 $27,432,357.95                                                     $0.00
8/7/2012                                                                                                                                                                                         $287,213.85
              CBS Banc-Corp.,
8/9/2012                                $24,300,000.00                            $923,304.00                                            1,020         $905.20         ($96,696.00)              $689,313.24                   523,076       $4,548,136.70
              Russellville, AL8,14
8/10/2012                                                                      $21,073,056.00                                           23,280         $905.20     ($2,206,944.00)               $131,297.76
9/11/2012                                                                                         ($219,963.60)
              Cecil Bancorp,
12/23/2008                              $11,560,000.00       $516,988.89                                            $11,560,000.00                                                                               $0.15         261,538         $516,988.89
              Inc., Elkton, MD
2/6/2009      CedarStone Bank,                             $4,672,098.50                                                     $0.00
                                         $3,564,000.00                                                                                                                                                                                         $930,098.50
11/20/2013    Lebanon, TN8                                                      $3,564,000.00                                            3,564       $1,000.00                                   $178,000.00
1/9/2009                                                  $11,586,666.67                                                     $0.00
              Center Bancorp,
9/15/2011                               $10,000,000.00                         $10,000,000.00                                           10,000       $1,000.00                                                  $19.05                       $1,341,666.67
              Inc., Union, NJ44
12/7/2011                                                                                                                                                                                        $245,000.00
12/12/2008    Center Financial                            $64,739,583.33                                                     $0.00
              Corporation/
              BBCN Bancorp,             $55,000,000.00                                                                                                                                                          $14.59         363,943      $23,237,328.30
                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




6/27/2012     Inc., Los Angeles,                                               $55,000,000.00                                           55,000       $1,000.00
              CA11,59
                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                               413
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)                                                                                                                                                                    414
                                                                          Capital Repayment                                          Number     Average Price                                              Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
5/1/2009                                                 $2,344,662.43                                                     $0.00
10/29/2012                                                                       $24,750.00                                               30         $825.00          ($5,250.00)
              CenterBank,
11/1/2012                              $2,250,000.00                          $1,831,500.00                                            2,220         $825.00       ($388,500.00)               $84,057.43                                   $429,355.00
              Milford, OH8,14
1/11/2013                                                                                        ($18,562.50)
3/26/2013                                                                                         ($6,437.50)
11/21/2008    Centerstate                               $29,283,302.58                                                     $0.00
              Banks of Florida
9/30/2009                             $27,875,000.00                         $27,875,000.00                                           27,875       $1,000.00                                                                              $1,196,302.58
              Inc., Davenport,
10/28/2009    FL12,16                                                                                                                                                                         $212,000.00
1/16/2009     Centra Financial                          $15,922,937.50                                                     $0.00
              Holdings, Inc.,
3/31/2009                             $15,000,000.00                         $15,000,000.00                                           15,000       $1,000.00                                                 $10.35                         $172,937.50
              Morgantown,
4/15/2009     WV8,11,14                                                                                                                                                                       $750,000.00
12/5/2008                                               $13,886,111.11                                                     $0.00
              Central Bancorp,
8/25/2011     Inc., Somerville,       $10,000,000.00                         $10,000,000.00                                           10,000       $1,000.00                                                                              $1,361,111.11
              MA45
10/19/2011                                                                                                                                                                                   $2,525,000.00
2/27/2009     Central Bancorp,                          $31,086,221.13                                                     $0.00
              Inc., Garland,          $22,500,000.00                                                                                                                                                                                      $7,461,221.13
8/29/2014     TX8,113                                                        $22,500,000.00                                           22,500       $1,000.00                                 $1,125,000.00

1/30/2009     Central                                    $6,859,176.83                                                     $0.00
                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Bancshares, Inc.,        $5,800,000.00                                                                                                                                                                                        $769,176.83
7/6/2011      Houston, TX8,11,14                                              $5,800,000.00                                            5,800       $1,000.00                                  $290,000.00

2/20/2009                                               $25,797,528.80                                                     $0.00
              Central
12/10/2012    Community                                                       $5,333,059.60                                            5,758         $926.20       ($424,940.40)
                                      $22,000,000.00                                                                                                                                                                                      $4,566,167.00
12/11/2012    Corporation,                                                   $15,043,340.40                                           16,242         $926.20     ($1,198,659.60)             $1,058,725.80
              Temple, TX8,14
1/11/2013                                                                                       ($203,764.00)
12/5/2008     Central Federal                            $3,612,118.06                                                     $0.00
              Corporation,             $7,225,000.00                                                                                                                                                                                        $612,118.06
9/26/2012     Fairlawn, OH                                                    $3,000,000.00                                            7,225         $415.20     ($4,225,000.00)

12/23/2008                                              $12,704,145.10                                                     $0.00
              Central Jersey
11/24/2010    Bancorp,                $11,300,000.00                         $11,300,000.00                                           11,300       $1,000.00                                                  $1.33                       $1,084,486.11
              Oakhurst, NJ11
12/1/2010                                                                                                                                                                                     $319,658.99
1/9/2009                                                $75,036,891.42                                                     $0.00
6/22/2011     Central Pacific                                                $36,337,500.00     ($454,218.75)                       2,850,000         $12.75    ($32,121,928.87)
              Financial Corp.,       $135,000,000.00                                                                                                                                                         $17.93                       $2,362,500.00
4/4/2012      Honolulu, HI40                                                 $36,427,038.55     ($387,816.38)                       2,770,117         $13.15    ($30,113,532.58)
6/11/2013                                                                                                                                                                                     $751,888.00
1/30/2009     Central Valley                             $8,077,516.47                                                     $0.00
              Community
8/18/2011                              $7,000,000.00                          $7,000,000.00                                            7,000       $1,000.00                                                 $11.48                         $892,499.67
              Bancorp, Fresno,
9/28/2011     CA45                                                                                                                                                                            $185,016.80
1/30/2009     Central Virginia                           $3,800,656.00                                                     $0.00
              Bankshares, Inc.,       $11,385,000.00                                                                                                                                                          $0.31                         $450,656.00
10/1/2013     Powhatan, VA93                                                  $3,350,000.00                                           11,385         $294.20     ($8,035,000.00)

12/18/2009    Centric Financial                          $6,739,821.89                                                     $0.00
              Corporation,
                                       $6,056,000.00                                                                                                                                                                                        $501,821.89
7/14/2011     Harrisburg,                                                     $6,056,000.00                                            6,056       $1,000.00                                  $182,000.00
              PA8,17,44
2/6/2009      Centrix Bank &                             $8,887,791.42                                                     $0.00
              Trust, Bedford,          $7,500,000.00                                                                                                                                                         $40.87                       $1,012,791.42
7/28/2011     NH8,14,44                                                       $7,500,000.00                                            7,500       $1,000.00                                  $375,000.00

1/9/2009                                                $11,203,387.14                                                     $0.00
9/25/2013                                                                     $8,211,450.00                                           25,266         $325.00    ($17,054,550.00)
10/18/2013                                                                    $1,950,000.00                                            6,000         $325.00     ($4,050,000.00)
              Centrue Financial
10/29/2013    Corporation, St.        $32,668,000.00                                             ($82,114.50)                                                                                                 $0.55         508,320         $571,690.00
              Ottawa, IL
1/6/2014                                                                                         ($19,500.00)
2/10/2014                                                                       $577,638.02                                            1,402         $412.00       ($824,361.98)
3/19/2014                                                                                         ($5,776.38)
                                                                                                                                                                                                                                   Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)
                                                                             Capital Repayment                                              Number     Average Price                                                             Stock Price       Current
Transaction                                                                      / Disposition /                   Remaining Capital       of Shares       of Shares     (Realized Loss) /                                          as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3             Amount         Disposed        Disposed             (Write-off)               Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
6/19/2009                                                  $13,186,960.25                                                     $0.00
              Century Financial
12/19/2012    Services                                                              $39,400.00                                               40,000           $0.99              ($600.00)                          $198,635.58
                                      $10,000,000.00                                                                                                                                                                                                            $2,938,871.30
12/20/2012    Corporation,                                                        $9,810,600.00                                           9,960,000           $0.99         ($149,400.00)                           $297,953.37
              Santa Fe, NM14,15
1/11/2013                                                                                           ($98,500.00)
              Chambers
5/29/2009     Bancshares, Inc.,       $19,817,000.00         $5,754,674.98                                           $19,817,000.00                                                                                                                             $5,754,674.98
              Danville, AR15
7/31/2009                                                    $8,981,348.81                                                    $0.00
3/14/2014     Chicago Shore                                                        $257,660.00                                                  260         $991.00            ($2,340.00)
              Corporation ,             $7,000,000.00                                                                                                                                                                                                           $1,766,525.81
3/17/2014     Chicago, IL8                                                        $6,679,340.00                                               6,740         $991.00           ($60,660.00)                          $347,193.00
4/25/2014                                                                                           ($69,370.00)
12/31/2008    CIT Group Inc.,                              $43,687,500.00                                                     $0.00
                                    $2,330,000,000.00                                                                                                                                                                              $45.96                      $43,687,500.00
12/10/2009    New York, NY23                                                                                                                                           ($2,330,000,000.00)
10/28/2008                                              $32,839,267,986.44                                                    $0.00
              Citigroup Inc.,
12/10/2010                         $25,000,000,000.00                        $25,000,000,000.00                                        7,692,307,692          $4.14                           $6,852,354,470.93                    $51.82                    $932,291,666.67
              New York, NY19,30
1/31/2011                                                                                                                                                                                                         $54,621,848.84
1/16/2009     Citizens &                                   $28,889,100.00                                                     $0.00
              Northern
8/4/2010                              $26,440,000.00                            $26,440,000.00                                               26,440       $1,000.00                                                                $19.00                       $2,049,100.00
              Corporation,
9/1/2010      Wellsboro, PA11                                                                                                                                                                                       $400,000.00
12/23/2008    Citizens Bancorp,                               $223,571.11                                                     $0.00
              Nevada City,            $10,400,000.00                                                                                                                                                                                $0.01                         $223,571.11
9/23/2011     CA8,55,97                                                                                                                                                  ($10,400,000.00)

5/29/2009                                                  $13,952,381.45                                                     $0.00
              Citizens
2/7/2013      Bancshares                                                          $6,657,375.00                                              12,990         $512.50        ($6,332,625.00)                          $258,018.75
                                      $24,990,000.00                                                                                                                                                                                                              $628,033.33
2/8/2013      Co., Chillicothe,                                                   $6,150,000.00                                              12,000         $512.50        ($5,850,000.00)                          $387,028.12
              MO8,14
3/26/2013                                                                                          ($128,073.75)
3/6/2009      Citizens                                       $7,997,813.22                                                    $0.00
              Bancshares
                                        $7,462,000.00                                                                                                                                                                               $8.60                         $535,813.22
8/13/2010     Corporation,                                                        $7,462,000.00                                               7,462       $1,000.00
              Atlanta, GA9,11,36
              Citizens Bank &
3/20/2009     Trust Company,            $2,400,000.00         $567,183.00                                             $2,400,000.00                                                                                                                               $567,183.00
              Covington, LA8
              Citizens
              Commerce
2/6/2009                                $6,300,000.00         $180,258.50                                             $6,300,000.00                                                                                                                               $180,258.50
              Bancshares, Inc.,
              Versailles, KY8
12/23/2008    Citizens                                       $3,574,645.84                                                    $0.00
              Community
                                        $3,000,000.00                                                                                                                                                                               $7.90                         $424,645.84
7/28/2011     Bank, South Hill,                                                   $3,000,000.00                                               3,000       $1,000.00                                                 $150,000.00
              VA8,14,44
12/19/2008                                                 $10,530,923.11                                                     $0.00
              Citizens First
2/16/2011     Corporation,                                                        $2,212,308.00                                                  63      $35,116.00
                                        $8,779,000.00                                                                                                                                                                              $11.79         254,218       $1,751,923.11
2/13/2013     Bowling Green,                                                      $3,300,904.00                                                  94      $35,116.00
              KY11
1/15/2014                                                                         $3,265,788.00                                                  93      $35,116.00
12/12/2008    Citizens Republic                           $369,245,436.64                                                     $0.00
              Bancorp, Inc.          $300,000,000.00
4/12/2013     Flint, Michigan86                                                $300,000,000.00                                              300,000       $1,000.00

12/12/2008    Citizens South                               $23,572,379.22                                                     $0.00
              Banking
9/22/2011                             $20,500,000.00                            $20,500,000.00                                               20,500       $1,000.00                                                                 $0.00                       $2,847,222.22
              Corporation,
11/9/2011     Gastonia, NC45                                                                                                                                                                                        $225,157.00
              City National
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




              Bancshares
4/10/2009                               $9,439,000.00         $281,859.00                                             $9,439,000.00                                                                                                                               $281,859.00
              Corporation,
              Newark, NJ8,9
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  415
                                                                                                                                                                                                                                                              416
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)
                                                                          Capital Repayment                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution         Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
11/21/2008                                             $442,416,666.67                                                     $0.00
              City National
12/30/2009    Corporation,                                                  $200,000,000.00                                          200,000       $1,000.00
                                    $400,000,000.00                                                                                                                                                            $75.67                      $23,916,666.67
3/3/2010      Beverly Hills,                                                $200,000,000.00                                          200,000       $1,000.00
              CA11
4/7/2010                                                                                                                                                                                      $18,500,000.00
3/27/2009                                                $3,318,585.05                                                     $0.00
11/28/2012    Clover Community                                                  $955,825.50                                            1,095         $872.90       ($139,174.50)
              Bankshares, Inc.,       $3,000,000.00                                                                                                                                                                                           $610,863.55
11/29/2012    Clover, SC8,14                                                  $1,662,874.50                                            1,905         $872.90       ($242,125.50)                $114,021.50
1/11/2013                                                                                        ($25,000.00)
12/5/2008                                               $11,166,897.79                                                     $0.00
3/8/2013                                                                      $3,772,645.00                                            3,950         $955.10       ($177,355.00)
              Coastal Banking
3/11/2013     Company, Inc.,                                                  $5,730,600.00                                            6,000         $955.10       ($269,400.00)
                                      $9,950,000.00                                                                                                                                                             $8.90                       $1,434,037.79
4/9/2013      Fernandina                                                                         ($95,032.45)
              Beach, FL82
4/10/2013                                                                                                                                                                                        $99,000.00
6/12/2013                                                                                                                                                                                       $225,647.45
8/28/2009                                               $14,257,487.71                                                     $0.00
              CoastalSouth
3/8/2013      Bancshares,                                                       $397,550.00                                              500         $795.10       ($102,450.00)                $389,857.05
                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                     $16,015,000.00                                                                                                                                                                                         $1,235,448.96
3/11/2013     Inc., Hilton Head                                              $12,335,976.50                                           15,515         $795.10     ($3,179,023.50)                 $25,990.47
              Island, SC8,17
4/9/2013                                                                                        ($127,335.27)
12/19/2008                                              $73,357,086.72                                                     $0.00
              CoBiz Financial
9/8/2011      Inc., Denver,          $64,450,000.00                          $64,450,000.00                                           64,450       $1,000.00                                                   $11.18                       $8,763,409.72
              CO45
11/23/2011                                                                                                                                                                                      $143,677.00
1/9/2009                                                $19,178,479.00                                                     $0.00
              Codorus Valley
8/18/2011     Bancorp, Inc.,         $16,500,000.00                          $16,500,000.00                                           16,500       $1,000.00                                                   $20.45                       $2,151,875.00
              York, PA44
9/28/2011                                                                                                                                                                                       $526,604.00
2/13/2009                                               $10,670,784.03                                                     $0.00
7/19/2013     ColoEast                                                           $46,995.00                                               52         $903.80          ($5,005.00)
              Bankshares, Inc.,      $10,000,000.00                                                                                                                                                                                         $1,229,277.78
7/22/2013     Lamar, CO8,14                                                   $8,990,505.00                                            9,948         $903.80       ($957,495.00)                $494,381.25
9/12/2013                                                                                        ($90,375.00)
3/27/2009     Colonial American                            $668,142.53                                                     $0.00
              Bank, West
                                        $574,000.00                                                                                                                                                                                            $65,142.53
10/26/2011    Conshohocken,                                                     $574,000.00                                              574       $1,000.00                                     $29,000.00
              PA8,11,14
1/9/2009                                                $26,480,089.20                                                     $0.00
2/7/2013                                                                     $21,633,944.71                                           27,661         $782.10     ($6,027,055.29)
              Colony Bankcorp,
2/8/2013      Inc., Fitzgerald,      $28,000,000.00                             $265,135.29                                              339         $782.10         ($73,864.71)                               $6.70                       $3,990,000.00
              GA
3/26/2013                                                                                       ($218,990.80)
6/12/2013                                                                                                                                                                                       $810,000.00
11/21/2008                                              $86,821,419.22                                                     $0.00
              Columbia Banking
8/11/2010     System, Inc.,          $76,898,000.00                          $76,898,000.00                                           76,898       $1,000.00                                                   $24.81                       $6,621,772.22
              Tacoma, WA11,16
9/1/2010                                                                                                                                                                                       $3,301,647.00
2/27/2009     Columbine Capital                          $2,689,478.64                                                     $0.00
              Corp., Buena            $2,260,000.00                                                                                                                                                                                           $316,478.64
9/22/2011     Vista, CO8,14,44                                                $2,260,000.00                                            2,260       $1,000.00                                    $113,000.00

11/14/2008                                            $2,582,039,543.40                                                    $0.00
              Comerica Inc.,
3/17/2010                         $2,250,000,000.00                       $2,250,000,000.00                                         2,250,000      $1,000.00                                                   $49.86                    $150,937,500.00
              Dallas, TX11
5/12/2010                                                                                                                                                                                    $181,102,043.40
1/9/2009      Commerce                                   $5,602,969.61                                                     $0.00
              National Bank,
10/7/2009                             $5,000,000.00                           $5,000,000.00                                            5,000       $1,000.00                                                   $14.85                          $36,111.11
              Newport Beach,
10/1/2013     CA11                                                                                                                                                                              $566,858.50
                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                           Number     Average Price                                              Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
5/22/2009                                                $21,575,016.54                                                     $0.00
8/7/2012                                                                         $130,500.00                                           174,000           $0.75         ($43,500.00)
8/8/2012      Commonwealth                                                     $1,469,250.00                                          1,959,000          $0.75       ($489,750.00)
              Bancshares, Inc.,        $20,400,000.00                                                                                                                                                                                       $5,529,294.54
8/9/2012      Louisville, KY14,15                                             $13,100,250.00                                         17,467,000          $0.75     ($4,366,750.00)              $792,990.00
8/10/2012                                                                        $600,000.00                                           800,000           $0.75       ($200,000.00)              $105,732.00
9/11/2012                                                                                        ($153,000.00)
1/23/2009     Commonwealth                                $8,451,110.79                                                     $0.00
              Business Bank,
7/17/2013                               $7,701,000.00                          $7,323,651.00                                             7,701         $951.00       ($377,349.00)              $362,427.91    $22.25                         $838,268.39
              Los Angeles,
9/12/2013     CA8,14                                                                              ($73,236.51)
1/16/2009     Community 1st                               $2,899,659.67                                                     $0.00
              Bank, Roseville,          $2,550,000.00                                                                                                                                                                                         $221,659.67
12/19/2012    CA8,11,14                                                        $2,550,000.00                                             2,550       $1,000.00                                  $128,000.00

3/6/2009      Community                                     $616,741.75                                                     $0.00
              Bancshares of
                                          $500,000.00                                                                                                                                                                                          $91,741.75
7/18/2012     Kansas, Inc.,                                                      $500,000.00                                               500       $1,000.00                                   $25,000.00
              Goff, KS8,11,14
9/11/2009     Community                                  $57,575,699.54                                                     $0.00
              Bancshares of
                                       $52,000,000.00                                                                                                                                                                                       $3,193,250.19
9/29/2010     Mississippi, Inc.,                                              $52,000,000.00                                            52,000       $1,000.00                                 $2,600,000.00
              Brandon, MS8,11,14
              Community
7/24/2009     Bancshares, Inc.,         $3,872,000.00       $981,158.70                                             $3,872,000.00                                                                                                             $981,158.70
              Kingman, AZ8,17
1/16/2009     Community                                   $1,823,188.61                                                     $0.00
              Bank of the Bay,          $1,747,000.00                                                                                                                                                                                          $76,188.61
9/29/2010     Oakland, CA9,11,36                                               $1,747,000.00                                             1,747       $1,000.00

5/29/2009     Community Bank                             $22,802,281.62                                                     $0.00
              Shares of Indiana,
9/15/2011                              $19,468,000.00                         $19,468,000.00                                            19,468       $1,000.00                                                 $26.17                       $2,233,412.12
              Inc., New Albany,
10/19/2011    IN44                                                                                                                                                                             $1,100,869.50
12/19/2008                                               $23,135,879.12                                                     $0.00
7/24/2013     Community                                                        $4,500,000.00                                              4,500      $1,000.00
              Bankers Trust
11/20/2013                             $17,680,000.00                          $2,500,000.00                                              2,500      $1,000.00                                                  $4.37                       $4,675,879.12
              Corporation, Glen
4/23/2014     Allen, VA11,101                                                 $10,680,000.00                                            10,680       $1,000.00
6/4/2014                                                                                                                                                                                        $780,000.00
2/27/2009     Community                                   $4,674,050.16                                                     $0.00
              Business
11/30/2012    Bank, West                $3,976,000.00                          $3,717,560.00                                             3,976         $935.00       ($258,440.00)              $167,035.00     $8.91                         $814,455.16
              Sacramento,
1/11/2013     CA8,14                                                                              ($25,000.00)

12/19/2008    Community                                  $15,206,719.94                                                     $0.00
              Financial
                                       $12,643,000.00                                                                                                                                                           $6.25         351,194       $2,563,719.94
1/9/2013      Corporation,                                                    $12,643,000.00                                            12,643       $1,000.00
              Staunton, VA81
5/15/2009     Community                                   $4,240,743.82                                                     $0.00
              Financial Shares,
                                        $6,970,000.00                                                                                                                                                           $1.00                         $947,193.82
12/21/2012    Inc., Glen Ellyn,                                                $3,136,500.00                                             6,970         $450.00     ($3,833,500.00)              $157,050.00
              IL8,14,76
4/3/2009                                                 $16,441,884.63                                                     $0.00
2/7/2014      Community First                                                  $3,705,037.50                                              3,750        $988.00         ($44,962.50)              $85,157.88
              Bancshares, Inc.,        $12,725,000.00                                                                                                                                                                                       $3,365,409.43
2/10/2014     Harrison, AR8                                                    $8,867,389.75                                              8,975        $988.00       ($107,610.25)              $544,614.34
3/19/2014                                                                                        ($125,724.27)
3/20/2009     Community First                            $23,628,111.33                                                     $0.00
              Bancshares
                                       $20,000,000.00                                                                                                                                                                                       $2,628,111.33
8/18/2011     Inc., Union City,                                               $20,000,000.00                                            20,000       $1,000.00                                 $1,000,000.00
              TN8,14,44
                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




2/27/2009                                                 $7,665,362.89                                                     $0.00
4/11/2014     Community First                                                  $1,322,500.50                                              4,401        $300.50     ($3,078,499.50)               $72,314.55
              Inc., Columbia,          $17,806,000.00                                                                                                                                                                                       $1,908,453.00
4/14/2014     TN8                                                              $4,028,202.50                                            13,405         $300.50     ($9,376,797.50)              $387,399.37
7/18/2014                                                                                         ($53,507.03)
                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                              417
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)                                                                                                                                                                          418
                                                                          Capital Repayment                                          Number     Average Price                                                    Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
2/6/2009      Community                                  $1,220,300.65                                                     $0.00
              Holding Company
11/30/2012    of Florida, Inc./                                               $1,002,750.00                                              105       $9,550.00         ($47,250.00)                    $25,000.00
1/11/2013     Community                $1,050,000.00                                             ($10,027.50)
              Bancshares of
              Mississippi, Inc.,
3/26/2013                                                                                        ($14,972.50)
              Brandon, MS8,67
12/23/2008                                               $3,115,616.28                                                     $0.00
12/19/2012    Community                                                         $952,850.00                                            1,003         $950.00         ($50,150.00)
              Investors
12/20/2012                             $2,600,000.00                          $1,517,150.00                                            1,597         $950.00         ($79,850.00)                   $105,000.00                                   $565,616.28
              Bancorp, Inc.,
1/11/2013     Bucyrus, OH8,14                                                                    ($24,700.00)
3/26/2013                                                                                           ($300.00)
1/30/2009                                               $10,598,750.00                                                     $0.00
              Community
8/11/2011     Partners Bancorp,        $9,000,000.00                          $9,000,000.00                                            9,000       $1,000.00                                                        $7.95                       $1,138,750.00
              Middletown, NJ44
10/26/2011                                                                                                                                                                                          $460,000.00
11/13/2009    Community Pride                            $5,462,045.14                                                     $0.00
              Bank Corporation,
8/12/2013                              $4,400,000.00                          $4,400,000.00                                         4,400,000          $1.11                         $484,924.00    $177,716.96                                   $448,253.42
              Ham Lake,
9/12/2013     MN15,17                                                                            ($48,849.24)
1/9/2009      Community                                 $28,459,100.00                                                     $0.00
              Trust Financial
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                      $24,000,000.00                                                                                                                                                                                            $3,259,100.00
7/6/2011      Corporation,                                                   $24,000,000.00                                           24,000       $1,000.00                                       $1,200,000.00
              Ruston, LA8,14,44
12/19/2008                                              $14,341,140.33                                                     $0.00
12/10/2012                                                                    $2,172,000.00                                            3,000         $724.00       ($828,000.00)
              Community West
12/11/2012    Bancshares,             $15,600,000.00                          $9,122,400.00                                           12,600         $724.00     ($3,477,600.00)                                    $6.05                       $2,461,333.33
              Goleta, CA
1/11/2013                                                                                       ($112,944.00)
6/12/2013                                                                                                                                                                                           $698,351.00
2/13/2009     CommunityOne                              $12,739,234.90                                                     $0.00
              Bancorp/FNB
              United Corp.,           $51,500,000.00                                                                                                                                                                               22,071       $2,589,305.00
5/23/2014     Asheboro,                                                      $10,149,929.90                                         1,085,554          $9.35    ($41,350,070.10)
              NC53,110
1/9/2009                                                 $3,483,629.20                                                     $0.00
10/29/2012    Congaree                                                           $23,932.54                                               29         $825.30          ($5,067.46)
              Bancshares, Inc.,        $3,285,000.00                                                                                                                                                                $3.78                         $691,286.10
10/31/2012    Cayce, SC8,14                                                   $2,687,046.56                                            3,256         $825.30       ($568,953.44)                    $106,364.00
1/11/2013                                                                                        ($25,000.00)
2/13/2009                                                  $659,705.04                                                     $0.00
              Corning Savings
11/30/2012    and Loan                                                          $548,680.00                                              638         $860.00         ($89,320.00)                     $3,960.00
                                         $638,000.00                                                                                                                                                                                              $132,065.04
1/11/2013     Association,                                                                        ($5,486.80)
              Corning, AR8,14
3/26/2013                                                                                        ($19,513.20)
1/30/2009                                                $8,781,205.02                                                     $0.00
11/28/2012    Country Bank                                                      $713,208.30                                              777         $917.90         ($63,791.70)
              Shares, Inc.,            $7,525,000.00                                                                                                                                                                                            $1,570,839.50
11/29/2012    Milford, NE8,14                                                 $6,193,989.20                                            6,748         $917.90       ($554,010.80)                    $372,240.00
1/11/2013                                                                                        ($69,071.98)
6/5/2009      Covenant                                   $6,594,635.27                                                     $0.00
              Financial
                                       $5,000,000.00                                                                                                                                                                                            $1,344,635.27
4/30/2014     Corporation,                                                    $5,000,000.00                                            5,000       $1,000.00                                        $250,000.00
              Clarksdale, MS8
2/20/2009     Crazy Woman                                $1,917,739.58                                             $2,100,000.00
              Creek Bancorp,           $3,100,000.00                                                                                                                                                               $10.75                         $917,739.58
1/8/2014      Inc., Buffalo, WY8                                              $1,000,000.00                                            1,000       $1,000.00

1/9/2009      Crescent Financial                        $33,014,741.20                                                     $0.00
              Bancshares, Inc.
2/19/2014     (Crescent                                                      $24,900,000.00                                           24,900       $1,000.00
                                      $24,900,000.00                                                                                                                                                                $6.04         514,693      $11,011,235.28
              Financial
6/11/2014     Corporation),                                                                                                                                                                        $1,681,000.00
              Raleigh, NC58
                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/23/2009                                                 $13,498,324.83                                                     $0.00
7/19/2013     Crosstown                                                           $343,794.50                                               350         $982.30          ($6,205.50)
              Holding Company,         $10,650,000.00                                                                                                                                                                                          $2,610,550.42
7/22/2013     Blaine, MN8,14                                                   $10,117,381.00                                            10,300         $982.30       ($182,619.00)                $531,210.67
9/12/2013                                                                                         ($104,611.76)
              CSRA Bank Corp.,
3/27/2009                               $2,400,000.00        $180,940.00                                             $2,400,000.00                                                                                                               $180,940.00
              Wrens, GA8
12/5/2008                                                $136,046,583.33                                                     $0.00
8/26/2009     CVB Financial                                                    $97,500,000.00                                            97,500       $1,000.00
              Corp, Ontario,          $130,000,000.00                                                                                                                                                             $14.25                       $4,739,583.33
9/2/2009      CA11,16                                                          $32,500,000.00                                            32,500       $1,000.00
10/28/2009                                                                                                                                                                                        $1,307,000.00
2/27/2009     D.L. Evans                                  $23,686,592.33                                                     $0.00
              Bancorp, Burley,         $19,891,000.00                                                                                                                                                                                          $2,800,592.33
9/27/2011     ID8,14,44                                                        $19,891,000.00                                            19,891       $1,000.00                                    $995,000.00

5/15/2009     Deerfield Financial                          $3,283,338.96                                                     $0.00
              Corporation,
                                        $2,639,000.00                                                                                                                                                                                            $512,338.96
9/8/2011      Deerfield,                                                        $2,639,000.00                                          2,639,000          $1.00                                    $132,000.00
              WI14,15,44
12/4/2009                                                  $6,598,331.15                                                     $0.00
2/7/2013      Delmar Bancorp,                                                   $5,293,527.28                                             8,648         $612.10     ($3,354,472.72)                $311,943.55
                                        $9,000,000.00                                                                                                                                                                                            $832,487.50
2/8/2013      Delmar, MD8,14                                                      $215,462.72                                               352         $612.10       ($136,537.28)
3/26/2013                                                                                          ($55,089.90)
2/13/2009                               $1,173,000.00      $2,781,331.97                                                     $0.00
12/29/2009                              $1,508,000.00
              DeSoto County
9/24/2013     Bank, Horn Lake,                                                    $301,428.58                                               366         $823.03         ($64,571.42)                $40,563.34                                   $577,205.80
              MS8,18
9/25/2013                                                                       $1,895,467.59                                             2,315         $816.45       ($419,532.41)
10/29/2013                                                                                         ($33,333.34)
5/22/2009                                                 $21,101,618.19                                                     $0.00
8/8/2012      Diamond                                                           $4,381,500.00                                          6,000,000          $0.73     ($1,618,500.00)
              Bancorp, Inc.,
8/9/2012                               $20,445,000.00                          $10,197,941.25                                         13,965,000          $0.73     ($3,767,058.75)                $688,041.09                                 $5,541,380.06
              Washington,
8/10/2012     MO14,15                                                             $350,520.00                                           480,000           $0.73       ($129,480.00)                 $91,535.40
9/11/2012                                                                                         ($149,299.61)
1/16/2009                                                 $87,459,858.69                                                     $0.00
              Dickinson
2/7/2013      Financial                                                         $8,025,555.03                                            14,523         $552.60     ($6,497,444.97)                   $3,372.19
              Corporation II,         $146,053,000.00                                                                                                                                                                                          $2,631,196.78
2/8/2013      Kansas City,                                                     $72,684,793.30                                           131,530         $552.60    ($58,845,206.70)               $4,922,044.87
              MO8,14
3/26/2013                                                                                         ($807,103.48)
3/13/2009                                               $1,464,248,844.00                                                    $0.00
              Discover Financial
4/21/2010     Services ,            $1,224,558,000.00                       $1,224,558,000.00                                          1,224,558      $1,000.00                                                   $64.39                      $67,690,844.00
              Riverwoods, IL11
7/7/2010                                                                                                                                                                                        $172,000,000.00
1/30/2009     DNB Financial                               $13,683,277.61                                                     $0.00
              Corporation,
8/4/2011                               $11,750,000.00                          $11,750,000.00                                            11,750       $1,000.00                                                   $21.45                       $1,475,277.61
              Downingtown,
9/21/2011     PA44                                                                                                                                                                                 $458,000.00
6/19/2009                                                 $17,424,285.82                                                     $0.00
              Duke Financial
11/27/2013    Group, Inc.,                                                      $5,000,000.00                                          5,000,000          $1.00
                                       $12,000,000.00                                                                                                                                                                                          $4,824,285.82
3/5/2014      Minneapolis,                                                      $2,000,000.00                                          2,000,000          $1.00
              MN15
4/2/2014                                                                        $5,000,000.00                                          5,000,000          $1.00                                    $600,000.00
12/5/2008                                                 $44,847,153.76                                                     $0.00
12/23/2009    Eagle Bancorp,                                                   $15,000,000.00                                            15,000       $1,000.00
              Inc., Bethesda,          $38,235,000.00                                                                                                                                                             $31.82                       $3,817,731.76
7/14/2011     MD12,44                                                          $23,235,000.00                                            23,235       $1,000.00
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




11/23/2011                                                                                                                                                                                        $2,794,422.00
                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                 419
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)                                                                                                                                                                             420
                                                                          Capital Repayment                                          Number     Average Price                                                       Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/5/2008                                              $352,722,420.00                                                     $0.00
              East West
12/29/2010    Bancorp,               $306,546,000.00                        $306,546,000.00                                          306,546       $1,000.00                                                          $34.00                      $31,676,420.00
              Pasadena, CA11,16
1/26/2011                                                                                                                                                                                            $14,500,000.00
1/9/2009                                                $28,453,653.60                                                     $0.00
10/18/2013    Eastern Virginia                                                $3,900,000.00                                            3,900       $1,104.10                          $406,029.00
              Bankshares, Inc.,       $24,000,000.00                                                                                                                                                                   $6.22         373,832       $2,220,000.00
10/21/2013    Tappahannock, VA                                               $20,100,000.00                                           20,100       $1,104.10                         $2,092,611.00
1/6/2014                                                                                        ($264,986.40)
1/16/2009     ECB Bancorp, Inc.                         $23,397,494.08                                                     $0.00
              Crescent Financial
2/19/2014                             $17,949,000.00                         $17,949,000.00                                           17,949       $1,000.00
              Bancshares, Inc.,
6/11/2014     Engelhard, NC89                                                                                                                                                                          $871,000.00
12/23/2008                                               $8,545,904.67                                                     $0.00
              Emclaire Financial
8/18/2011     Corp., Emlenton,         $7,500,000.00                          $7,500,000.00                                            7,500       $1,000.00                                                          $25.46                         $994,791.67
              PA44
12/7/2011                                                                                                                                                                                               $51,113.00
12/5/2008                                               $39,415,959.89                                                     $0.00
              Encore
9/27/2011     Bancshares Inc.,        $34,000,000.00                         $34,000,000.00                                           34,000       $1,000.00                                                                                       $4,778,888.89
              Houston, TX45
11/23/2011                                                                                                                                                                                             $637,071.00
12/19/2008    Enterprise                                $42,801,933.33                                                     $0.00
                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Financial Services
11/7/2012                             $35,000,000.00                         $35,000,000.00                                           35,000       $1,000.00                                                          $16.72         324,074       $6,795,833.33
              Corp., St. Louis,
1/9/2013      MO11                                                                                                                                                                                    $1,006,100.00
6/12/2009     Enterprise                                 $4,680,205.56                                                     $0.00
              Financial Services
              Group, Inc.,             $4,000,000.00                                                                                                                                                                                                 $480,205.56
8/25/2011     Allison Park,                                                   $4,000,000.00                                            4,000       $1,000.00                                           $200,000.00
              PA8,14,44
1/30/2009     Equity                                    $10,394,872.56                                                     $0.00
              Bancshares, Inc.,        $8,750,000.00                                                                                                                                                                  $14.29
8/11/2011     Wichita, KS8,44,72                                              $8,750,000.00                                            8,750       $1,000.00                                           $438,000.00

12/19/2008                                              $47,294,527.29                                                     $0.00
8/3/2012                                                                        $481,387.50                                              550         $875.20         ($68,612.50)
8/8/2012                                                                     $17,505,000.00                                           20,000         $875.20     ($2,495,000.00)                      $1,910,898.00
              Exchange Bank,
8/9/2012      Santa Rosa,             $43,000,000.00                          $8,725,367.25                                            9,969         $875.20     ($1,243,632.75)                       $120,386.57                                 $7,980,919.44
              CA8,14
8/10/2012                                                                       $420,995.25                                              481         $875.20         ($60,004.75)                       $22,930.78
8/13/2012                                                                    $10,503,000.00                                           12,000         $875.20     ($1,497,000.00)
9/11/2012                                                                                       ($376,357.50)
1/30/2009                              $4,609,000.00     $9,405,391.28                                                     $0.00
11/6/2009                              $3,535,000.00
              F&M
2/6/2013      Bancshares,                                                     $4,797,325.00                                            5,090         $942.50       ($292,675.00)
                                                                                                                                                                                                                                                   $1,584,420.99
2/7/2013      Inc., Trezevant,                                                $2,734,192.50                                            2,901         $942.50       ($166,807.50)                       $222,007.50
              TN8,14,18
2/8/2013                                                                        $144,202.50                                              153         $942.50          ($8,797.50)
3/26/2013                                                                                        ($76,757.21)
2/6/2009                                                $20,119,744.45                                                     $0.00
9/18/2012                                                                                                                                                                                              $136,813.05
              F & M Financial
9/19/2012     Corporation,            $17,000,000.00                          $2,664,750.00                                            2,805         $950.00       ($140,250.00)                                                                   $3,355,970.50
              Salisbury, NC8,14
9/20/2012                                                                    $13,485,250.00                                           14,195         $950.00       ($709,750.00)                       $638,460.90
11/16/2012                                                                                      ($161,500.00)
5/22/2009                                                $3,842,376.65                                                     $0.00
11/8/2012     F&C Bancorp Inc.,                                               $1,590,599.43                                         1,659,000          $0.96         ($68,400.57)
                                       $2,993,000.00                                                                                                                                                                                                 $872,778.04
11/13/2012    Holden, MO14,15                                                 $1,278,999.18                                         1,334,000          $0.96         ($55,000.82)                      $125,000.00
1/11/2013                                                                                        ($25,000.00)
                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                           Number     Average Price                                                    Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
2/13/2009                                                $17,573,762.97                                                     $0.00
9/19/2012                                                                                                                                                                                              $96,465.60
              F&M Financial
9/20/2012     Corporation,             $17,243,000.00                            $157,500.00                                               200         $787.50         ($42,500.00)                                                               $3,388,248.50
              Clarksville, TN8,14
9/21/2012                                                                     $13,421,362.50                                            17,043         $787.50     ($3,621,637.50)                    $645,975.00
11/16/2012                                                                                       ($135,788.63)
1/9/2009                                                $104,023,433.33                                                     $0.00
              F.N.B.
9/9/2009      Corporation,            $100,000,000.00                        $100,000,000.00                                           100,000       $1,000.00                                                       $11.99         819,640       $9,632,883.55
              Hermitage, PA11
11/23/2011                                                                                                                                                                                            $690,100.00
              Farmers &
              Merchants
3/6/2009                               $11,000,000.00     $2,662,780.00                                            $11,000,000.00                                                                                                                 $2,662,780.00
              Bancshares, Inc.,
              Houston, TX8
3/20/2009     Farmers &                                     $500,199.14                                                     $0.00
              Merchants
6/24/2013     Financial                   $442,000.00                            $425,425.00                                               442         $962.50         ($16,575.00)                    ($2,835.00)                                  $102,609.14
              Corporation,
7/26/2013     Argonia, KS8,14                                                                     ($25,000.00)

1/23/2009                                                $11,396,202.11                                                     $0.00
              Farmers Bank ,
1/9/2013                                $8,752,000.00                          $3,063,000.00                                             3,063       $1,000.00                                                                                    $2,206,202.11
              Windsor, VA8,11
12/31/2013                                                                     $5,689,000.00                                             5,689       $1,000.00                                        $438,000.00
1/9/2009                                                 $27,105,349.50                                                     $0.00
              Farmers Capital
6/19/2012     Bank Corporation,        $30,000,000.00                         $22,196,700.00     ($332,950.50)                          30,000         $739.90     ($7,803,300.00)                                   $22.53                       $5,166,600.00
              Frankfort, KY
7/18/2012                                                                                                                                                                                              $75,000.00
6/19/2009                                                $15,452,669.34                                                     $0.00
11/8/2012     Farmers                                                             $96,290.00                                           100,000           $0.96          ($3,710.00)
              Enterprises,
11/9/2012                              $12,000,000.00                                                                                                                                                  $37,387.14                                 $3,423,094.20
              Inc., Great Bend,
11/13/2012    KS14,15                                                         $11,458,510.00                                         11,900,000          $0.96       ($441,490.00)                    $552,936.00
1/11/2013                                                                                        ($115,548.00)
3/20/2009     Farmers State                                 $830,173.67                                                     $0.00
              Bankshares, Inc.,           $700,000.00                                                                                                                                                                                                $90,173.67
7/21/2011     Holton, KS8,14,45                                                  $700,000.00                                               700       $1,000.00                                         $40,000.00

12/29/2009    FBHC Holding                                  $804,592.16                                                     $0.00
              Company,                  $3,035,000.00                                                                                                                                                                                               $154,592.16
3/9/2011      Boulder, CO15,17                                                   $650,000.00                                          3,035,000          $0.21     ($2,385,000.00)

6/26/2009                                                $19,836,630.66                                                     $0.00
              FC Holdings, Inc.,
2/20/2013                              $21,042,000.00                         $18,874,674.00                                            21,042         $897.00     ($2,167,326.00)                    $994,613.40                                   $156,090.00
              Houston, TX8,14
3/26/2013                                                                                        ($188,746.74)
12/19/2008    FCB Bancorp,                               $11,156,234.25                                                     $0.00
              Inc., Louisville,         $9,294,000.00                                                                                                                                                                                             $1,397,234.25
9/22/2011     KY8,14,45                                                        $9,294,000.00                                             9,294       $1,000.00                                        $465,000.00

12/19/2008                                                $8,441,836.26                                                     $0.00
11/28/2012    FFW Corporation,                                                   $879,424.60                                               974         $902.90         ($94,575.40)
                                        $7,289,000.00                                                                                                                                                                                             $1,567,852.34
11/30/2012    Wabash, IN8,14                                                   $5,701,813.50                                             6,315         $902.90       ($613,186.50)                    $358,558.20
1/11/2013                                                                                         ($65,812.38)
5/29/2009     Fidelity Bancorp,                           $5,404,924.35                                                     $0.00
              Inc, Baton Rouge,         $3,942,000.00                                                                                                                                                                                             $1,265,924.35
3/27/2013     LA11,14,15                                                       $3,942,000.00                                          3,942,000          $1.00                                        $197,000.00

12/12/2008    Fidelity Bancorp,                           $8,388,333.33                                                     $0.00
              Inc., Pittsburgh,         $7,000,000.00
11/30/2012    PA77                                                             $7,000,000.00                                             7,000       $1,000.00

11/13/2009                                                $7,220,908.83                                                     $0.00
7/19/2013     Fidelity Federal                                                   $439,000.00                                               439       $1,058.90                          $25,857.10
              Bancorp,                  $6,657,000.00
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




7/22/2013     Evansville, IN8,17                                               $6,218,000.00                                             6,218       $1,058.90                         $366,240.20    $242,302.50
9/12/2013                                                                                         ($70,490.97)
                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    421
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                       422
                                                                            Capital Repayment                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/19/2008                                                $40,966,780.82                                                     $0.00
8/1/2012                                                                          $120,320.10                                               135         $891.30         ($14,679.90)
8/2/2012                                                                           $26,737.80                                                30         $891.30          ($3,262.20)
8/3/2012                                                                          $298,572.10                                               335         $891.30         ($36,427.90)
              Fidelity Financial
8/7/2012      Corporation,             $36,282,000.00                           $3,200,514.66                                             3,591         $891.30       ($390,485.34)                $170,227.93                                 $7,228,349.33
              Wichita, KS8,14
8/8/2012                                                                        $2,348,470.10                                             2,635         $891.30       ($286,529.90)                $167,374.94
8/9/2012                                                                       $26,056,877.36                                            29,236         $891.30     ($3,179,122.64)               $1,210,615.36
8/10/2012                                                                         $285,203.20                                               320         $891.30         ($34,796.80)               $176,884.89
9/11/2012                                                                                         ($323,366.95)
12/19/2008    Fidelity Southern                           $51,286,669.09                                                     $0.00
              Corporation,             $48,200,000.00                                                                                                                                                             $13.70       2,652,259       $8,528,882.89
7/3/2012      Atlanta, GA                                                      $43,408,920.00     ($651,133.80)                          48,200         $900.60     ($4,791,080.00)

12/31/2008                                              $4,043,972,602.67                                                    $0.00
              Fifth Third
2/2/2011      Bancorp,              $3,408,000,000.00                       $3,408,000,000.00                                           136,320      $25,000.00                                                   $20.02                    $355,946,666.67
              Cincinnati, OH11
3/16/2011                                                                                                                                                                                       $280,025,936.00
12/23/2008                                                $43,787,611.61                                                     $0.00
2/23/2011     Financial                                                        $12,505,000.00                                              2,501      $5,000.00
              Institutions, Inc.,      $37,515,000.00                                                                                                                                                             $22.48                       $4,192,649.11
3/30/2011     Warsaw, NY11                                                     $25,010,000.00                                              5,002      $5,000.00
                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




5/11/2011                                                                                                                                                                                         $2,079,962.50
2/13/2009     Financial Security                           $5,914,597.33                                                     $0.00
              Corporation,              $5,000,000.00                                                                                                                                                                                            $664,597.33
7/21/2011     Basin, WY8,14,45                                                  $5,000,000.00                                             5,000       $1,000.00                                    $250,000.00

7/31/2009     Financial Services                           $4,487,322.46                                                     $0.00
              of Winger, Inc.,          $3,742,000.00                                                                                                                                                                                            $633,322.46
9/1/2011      Winger, MN15,17,44                                                $3,742,000.00                                          3,742,000          $1.00                                    $112,000.00

5/22/2009                                                  $1,289,436.37                                                     $0.00
12/10/2012    First Advantage                                                     $690,723.49                                               769         $898.20         ($78,276.51)                  $2,979.49
              Bancshares Inc.,
12/11/2012                              $1,177,000.00                             $366,469.68                                               408         $898.20         ($41,530.32)                $26,318.80                                   $227,944.91
              Coon Rapids,
1/11/2013     MN8,14                                                                               ($10,571.93)
3/26/2013                                                                                          ($14,428.07)
6/26/2009                                                  $3,003,674.75                                                     $0.00
12/20/2012    First Alliance                                                    $2,395,742.20                                             3,422         $700.10     ($1,026,257.80)                 $94,701.71
              Bancshares, Inc.,         $3,422,000.00                                                                                                                                                                                            $538,230.84
1/11/2013     Cordova, TN8,14                                                                      ($23,957.42)
3/26/2013                                                                                           ($1,042.58)
7/24/2009     First American                              $65,558,530.56                                                     $0.00
              Bank Corporation,
12/21/2011                             $50,000,000.00                          $15,000,000.00                                         15,000,000          $1.00                                                                               $13,058,530.56
              Elk Grove Village,
12/11/2012    IL11,14,15                                                       $35,000,000.00                                         35,000,000          $1.00                                   $2,500,000.00
3/13/2009     First American                              $18,204,166.78                                                     $0.00
              International
                                       $17,000,000.00                                                                                                                                                                                          $1,204,166.78
8/13/2010     Corp., Brooklyn,                                                 $17,000,000.00                                            17,000       $1,000.00
              NY9,11,36
1/9/2009                                                  $74,518,906.44                                                     $0.00
              First Bancorp,
9/1/2011                               $65,000,000.00                          $65,000,000.00                                            65,000       $1,000.00                                                   $16.02         616,308       $8,594,444.44
              Troy, NC45
11/23/2011                                                                                                                                                                                         $924,462.00
1/16/2009                                                $122,513,539.32                                           $238,972,281.88
              First BanCorp,
8/16/2013                             $400,000,000.00                          $81,000,000.00                                         12,000,000          $6.75    ($64,711,540.92)                               $16.46         389,484      $32,999,386.32
              San Juan, PR34
9/13/2013                                                                       $8,514,153.00                                          1,261,356          $6.75     ($6,802,024.20)
2/20/2009                                                  $9,050,516.50                                                     $0.00
              First BancTrust
1/18/2012     Corporation,              $7,350,000.00                           $3,675,000.00                                             3,675       $1,000.00                                                   $15.00                       $1,332,516.50
              Paris, IL8,11,14
10/24/2012                                                                      $3,675,000.00                                             3,675       $1,000.00                                    $368,000.00
2/6/2009      First Bank of                                $3,960,105.00                                                     $0.00
              Charleston, Inc.,
                                        $3,345,000.00                                                                                                                                                                                            $448,105.00
7/21/2011     Charleston,                                                       $3,345,000.00                                             3,345       $1,000.00                                    $167,000.00
              WV8,14,45
                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)
                                                                          Capital Repayment                                          Number     Average Price                                              Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/16/2009     First Bankers                             $11,941,222.22                                                     $0.00
              Trustshares, Inc.,      $10,000,000.00                                                                                                                                                         $21.50                       $1,441,222.22
9/8/2011      Quincy, IL8,14,45                                              $10,000,000.00                                           10,000       $1,000.00                                  $500,000.00

12/31/2008                                             $119,071,500.97                                                     $0.00
8/8/2013                                                                        $105,000.00                                              300         $350.00        ($195,000.00)
8/9/2013                                                                     $12,171,950.00                                           34,777         $350.00     ($22,605,050.00)            $2,430,181.71
8/12/2013     First Banks, Inc.,                                             $87,028,900.00                                          248,654         $350.00    ($161,625,100.00)            $5,919,151.59
                                     $295,400,000.00                                                                                                                                                                                      $6,037,237.50
9/12/2013     Clayton, MO8                                                                      ($993,058.50)
9/24/2013                                                                     $3,209,702.21                                            5,819         $551.60      ($2,609,297.79)
9/25/2013                                                                     $3,226,801.50                                            5,850         $551.60      ($2,623,198.50)
10/29/2013                                                                                       ($64,365.04)
3/6/2009                                               $112,410,898.89                                                     $0.00
              First Busey
8/25/2011     Corporation,           $100,000,000.00                        $100,000,000.00                                          100,000       $1,000.00                                                  $5.57                      $12,347,221.89
              Urbana, IL45
11/23/2011                                                                                                                                                                                     $63,677.00
4/10/2009     First Business           $2,211,000.00     $4,693,275.61                                                     $0.00
12/11/2009    Bank, National           $2,032,000.00
              Association/
12/19/2012    Bank of Southern                                                $1,373,084.00                                            1,500         $916.70        ($126,916.00)              $90,461.65                                   $752,663.45
              California, N.A.
12/20/2012    San Diego,                                                      $2,510,399.84                                            2,743         $915.60        ($232,600.16)
1/11/2013     CA8,14,18                                                                          ($33,333.33)
12/19/2008    First California                          $28,810,847.55                                                     $0.00
              Financial Group,
7/14/2011                             $25,000,000.00                         $25,000,000.00                                           25,000       $1,000.00                                                  $8.50                       $3,211,805.55
              Inc, Westlake
8/24/2011     Village, CA45                                                                                                                                                                   $599,042.00
4/3/2009                                                $11,956,712.44                                                     $0.00
              First Capital
6/19/2012     Bancorp, Inc.,          $10,958,000.00                         $10,082,565.38     ($151,238.48)                         10,958         $920.10        ($875,434.62)                             $4.45         250,947       $1,759,343.76
              Glen Allen, VA
2/6/2013                                                                                                                                                                                      $266,041.78
2/13/2009                              $2,200,000.00     $5,446,642.94                                                     $0.00
              First Choice
12/22/2009    Bank, Cerritos,          $2,836,000.00                                                                                                                                                                                        $300,642.94
              CA8,11,14,18,36
9/24/2010                                                                     $5,036,000.00                                            5,036       $1,000.00                                  $110,000.00
1/23/2009                                               $25,245,684.71                                                     $0.00
              First Citizens
7/3/2012      Banc Corp,              $23,184,000.00                         $21,004,704.00     ($315,070.56)                         23,184         $906.00      ($2,179,296.00)                            $11.79         469,312       $3,992,877.27
              Sandusky, OH
9/5/2012                                                                                                                                                                                      $563,174.00
3/20/2009     First Colebrook                            $5,339,487.75                                                     $0.00
              Bancorp, Inc.,
                                       $4,500,000.00                                                                                                                                                                                        $614,487.75
9/22/2011     Colebrook,                                                      $4,500,000.00                                            4,500       $1,000.00                                  $225,000.00
              NH8,14,44
11/21/2008                                              $42,839,002.78                                                     $0.00
              First Community
7/8/2009      Bancshares Inc.,        $41,500,000.00                         $41,500,000.00                                           41,500       $1,000.00                                                 $14.29
              Bluefield, VA12
11/22/2011                                                                                                                                                                                     $30,600.00
5/15/2009     First Commuity                            $19,957,763.30                                                     $0.00
              Bancshares,
              Inc./Equity             $14,800,000.00                                                                                                                                                                                      $6,933,038.64
7/16/2014     Bancshares, Inc.,                                              $14,800,000.00                                           14,800       $1,000.00                                  $740,000.00
              Wichita, KS8,72
12/23/2008    First Community                            $8,499,249.92                                                     $0.00
              Bank Corporation
                                      $10,685,000.00                                                                                                                                                                                        $744,982.44
5/31/2011     of America,                                                     $7,754,267.48                                           10,685         $725.70      ($2,930,732.52)
              Pinellas Park, FL
11/21/2008                                              $13,425,979.36                                                     $0.00
              First Community
8/29/2012     Corporation,            $11,350,000.00                         $11,155,120.50     ($167,326.81)                         11,350         $982.80        ($194,879.50)                            $10.64                       $2,140,685.67
              Lexington, SC
11/1/2012                                                                                                                                                                                     $297,500.00
                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                            423
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                     424
                                                                            Capital Repayment                                          Number     Average Price                                               Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/11/2009                                                $18,252,479.06                                                     $0.00
8/8/2012                                                                                                                                                                                          $70,727.58
8/9/2012                                                                                                                                                                                         $440,082.72
              First Community
8/10/2012     Financial                                                                                                                                                                          $209,563.20
                                       $22,000,000.00                                                                                                                                                                                        $3,320,655.56
9/19/2012     Partners, Inc.,                                                     $326,250.00                                              500         $652.50       ($173,750.00)
              Joliet, IL8
9/20/2012                                                                       $3,051,090.00                                            4,676         $652.50     ($1,624,910.00)
9/21/2012                                                                      $10,977,660.00                                           16,824         $652.50     ($5,846,340.00)
11/16/2012                                                                                        ($143,550.00)
12/5/2008     First Defiance                              $41,631,005.92                                                     $0.00
              Financial Corp.,         $37,000,000.00                                                                                                                                                           $27.01         550,595       $6,546,862.22
6/19/2012     Defiance, OH                                                     $35,618,420.00     ($534,276.30)                         37,000         $962.70     ($1,381,580.00)

9/11/2009     First Eagle                                  $8,514,738.21                                                     $0.00
              Bancshares, Inc.,
                                        $7,500,000.00                                                                                                                                                                                          $639,738.21
9/17/2010     Hanover Park,                                                     $7,500,000.00                                         7,500,000          $1.00                                   $375,000.00
              IL11,15,36
2/6/2009      First Express of                             $6,074,313.00                                                     $0.00
              Nebraska, Inc.,           $5,000,000.00                                                                                                                                                                                          $824,313.00
2/15/2012     Gering, NE8,11,14                                                 $5,000,000.00                                            5,000       $1,000.00                                   $250,000.00

3/6/2009      First Federal                                $6,570,625.00                                                     $0.00
              Bancshares of
                                       $16,500,000.00                                                                                                                                                            $9.00                         $570,625.00
                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




5/3/2011      Arkansas, Inc.,                                                   $6,000,000.00                                           16,500         $363.60    ($10,500,000.00)
              Harrison, AR
12/23/2008                                                $87,644,066.10                                                     $0.00
              First Financial
2/24/2010     Bancorp,                 $80,000,000.00                          $80,000,000.00                                           80,000       $1,000.00                                                  $15.83                       $4,677,777.78
              Cincinnati, OH12,16
6/8/2010                                                                                                                                                                                        $2,966,288.32
6/12/2009     First Financial                              $4,563,280.34                                                     $0.00
              Bancshares,
                                        $3,756,000.00                                                                                                                                                                                          $694,280.34
9/22/2011     Inc., Lawrence,                                                   $3,756,000.00                                         3,756,000          $1.00                                   $113,000.00
              KS15,17,44
12/5/2008                                                 $68,141,972.19                                                     $0.00
              First Financial
4/3/2012      Holdings Inc.,           $65,000,000.00                          $56,778,150.00     ($851,672.25)                         65,000         $873.50     ($8,221,850.00)                              $22.87                      $10,815,494.44
              Charleston, SC
5/22/2013                                                                                                                                                                                       $1,400,000.00
1/9/2009      First Financial                             $12,333,778.00                                                     $0.00
              Service
4/29/2013                              $20,000,000.00                          $10,842,200.00                                           20,000         $542.10     ($9,157,800.00)                               $3.69         215,983       $1,600,000.00
              Corporation,
5/31/2013     Elizabethtown, KY                                                                   ($108,422.00)
12/22/2009                                                 $9,522,346.17                                                     $0.00
              First Freedom
11/9/2012     Bancshares, Inc.,         $8,700,000.00                           $8,025,750.00                                            8,700         $922.50       ($674,250.00)               $256,118.75                                 $1,320,734.92
              Lebanon, TN9,17
1/11/2013                                                                                          ($80,257.50)
2/27/2009                                                  $8,702,021.25                                                     $0.00
              First Gothenburg
10/29/2012    Bancshares,                                                          $26,398.99                                               29         $910.30          ($2,601.01)
                                        $7,570,000.00                                                                                                                                                                                        $1,517,766.09
10/31/2012    Inc., Gothenburg,                                                 $6,864,647.71                                            7,541         $910.30       ($676,352.29)               $362,118.92
              NE8,14
1/11/2013                                                                                          ($68,910.46)
8/28/2009     First Guaranty                              $24,059,476.66                                                     $0.00
              Bancshares,
                                       $20,699,000.00                                                                                                                                                                                        $2,330,476.66
9/22/2011     Inc., Hammond,                                                   $20,699,000.00                                            2,070      $10,000.00                                  $1,030,000.00
              LA8,14,44
11/14/2008    First Horizon                             $1,037,467,405.56                                                    $0.00
              National
12/22/2010                            $866,540,000.00                         $866,540,000.00                                          866,540       $1,000.00                                                  $12.28                      $91,227,405.56
              Corporation,
3/9/2011      Memphis, TN11                                                                                                                                                                    $79,700,000.00
8/28/2009                                                  $2,820,256.96                                                     $0.00
              First
12/20/2012    Independence                                                      $2,336,675.00                                            3,223         $725.00       ($886,325.00)
                                        $3,223,000.00                                                                                                                                                                                          $533,581.96
1/11/2013     Corporation,                                                                         ($23,366.75)
              Detroit, MI8,9
3/26/2013                                                                                          ($26,633.25)
3/13/2009     First                                        $4,118,886.85                                                     $0.00
              Intercontinental
8/12/2013                               $6,398,000.00                           $3,247,112.96                                            6,398         $507.50     ($3,150,887.04)               $139,320.00                                   $757,453.89
              Bank, Doraville,
9/12/2013     GA8                                                                                  ($25,000.00)
                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)
                                                                          Capital Repayment                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/12/2008    First Litchfield                          $12,147,768.63                                                     $0.00
              Financial
                                      $10,000,000.00                                                                                                                                                                                                $659,722.22
4/7/2010      Corporation,                                                   $10,000,000.00                                           10,000       $1,000.00                                         $1,488,046.41
              Litchfield, CT11
2/27/2009     First M&F                                 $36,472,843.94                                                     $0.00
              Corporation,
9/29/2010                             $30,000,000.00                         $30,000,000.00                                           30,000       $1,000.00                                                         $16.19                       $2,383,333.33
              Kosciusko,
8/30/2013     MS11,36                                                                                                                                                                                $4,089,510.61
1/16/2009     First Manitowoc                           $12,837,983.33                                                     $0.00
              Bancorp, Inc.,
                                      $12,000,000.00                                                                                                                                                                                                $237,983.33
5/27/2009     Manitowoc,                                                     $12,000,000.00                                           12,000       $1,000.00                                          $600,000.00
              WI8,11,14
2/6/2009      First Market                              $40,834,859.35                                                     $0.00
              Bank, FSB/Union
              First Market
                                      $33,900,000.00                                                                                                                                                                                              $2,695,972.22
12/7/2011     Bankshares                                                     $33,900,000.00                                           35,595       $1,000.00                         $1,695,000.00
              Corporation,
              Richmond, VA11,25
2/13/2009     First Menasha                              $5,713,865.00                                                     $0.00
              Bancshares, Inc.,        $4,797,000.00                                                                                                                                                                                                $676,865.00
9/15/2011     Neenah, WI8,14,44                                               $4,797,000.00                                            4,797       $1,000.00                                          $240,000.00

2/20/2009                                              $131,383,055.11                                                     $0.00
              First Merchants
9/22/2011     Corporation,           $116,000,000.00                        $116,000,000.00                                          116,000       $1,000.00                                                         $20.21                      $15,015,555.11
              Muncie, IN33,44,45
11/23/2011                                                                                                                                                                                            $367,500.00
12/5/2008                                              $222,528,333.33                                                     $0.00
              First Midwest
11/23/2011    Bancorp, Inc.,         $193,000,000.00                        $193,000,000.00                                          193,000       $1,000.00                                                         $16.09                      $28,628,333.33
              Itasca, IL11
12/21/2011                                                                                                                                                                                            $900,000.00
3/13/2009     First National                            $15,329,326.44                                                     $0.00
              Corporation,            $13,900,000.00                                                                                                                                                                  $8.20                       $2,621,903.00
8/29/2012     Strasburg, VA8,14                                              $12,266,750.00     ($184,001.25)                         13,900         $882.50     ($1,633,250.00)                      $624,674.69

3/20/2009     First NBC Bank                            $21,033,989.56                                                     $0.00
              Holding Company,
                                      $17,836,000.00                                                                                                                                                                                              $2,305,989.56
8/4/2011      New Orleans,                                                   $17,836,000.00                                           17,836       $1,000.00                                          $892,000.00
              LA8,14,44
11/21/2008                                             $191,464,618.00                                                     $0.00
              First Niagara
5/27/2009     Financial Group,       $184,011,000.00                        $184,011,000.00                                          184,011       $1,000.00                                                          $8.33                       $4,753,618.00
              Lockport, NY12,16
6/24/2009                                                                                                                                                                                            $2,700,000.00
3/13/2009     First Northern                            $19,943,580.33                                                     $0.00
              Community
9/15/2011                             $17,390,000.00                         $17,390,000.00                                           17,390       $1,000.00                                                          $7.55                       $2,178,580.33
              Bancorp, Dixon,
11/16/2011    CA44                                                                                                                                                                                    $375,000.00
11/21/2008                                              $22,297,560.34                                                     $0.00
              First PacTrust
12/15/2010    Bancorp, Inc.,          $19,300,000.00                         $19,300,000.00                                           19,300       $1,000.00                                                         $11.63                       $1,994,333.34
              Chula Vista, CA11
1/5/2011                                                                                                                                                                                             $1,003,227.00
3/13/2009     First Place                                $7,009,094.50                                                     $0.00
              Financial Corp.,        $72,927,000.00                                                                                                                                                                                              $7,009,094.50
10/29/2012    Warren, OH73,97                                                                                                                                   ($72,927,000.00)

2/20/2009                              $4,579,000.00     $9,948,069.58                                                     $0.00
12/18/2009                             $4,596,000.00
              First Priority
2/7/2013      Financial Corp.,                                                $6,682,192.50                                            7,575         $882.23       ($892,807.50)                       $48,083.60                                 $1,711,258.50
              Malvern, PA8,14,18
2/8/2013                                                                      $1,410,831.60                                            1,600         $882.05       ($189,168.40)                      $176,633.62
3/26/2013                                                                                        ($80,930.24)
3/6/2009                                                $12,994,059.00                                                     $0.00
              First Reliance
3/11/2013     Bancshares, Inc.,       $15,349,000.00                         $10,431,333.89                                           15,349         $679.60     ($4,917,666.11)                      $624,632.45     $2.85                       $2,042,406.00
              Florence, SC8,14
4/9/2013                                                                                        ($104,313.34)
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




1/30/2009                              $2,600,000.00     $5,731,793.60                                                     $0.00
              First Resource
12/11/2009    Bank, Exton,             $2,417,000.00                                                                                                                                                                                                $584,793.60
              PA8,14,18,44,45
9/15/2011                                                                     $5,017,000.00                                            5,017       $1,000.00                                          $130,000.00
                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    425
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                       426
                                                                            Capital Repayment                                             Number     Average Price                                              Stock Price       Current
Transaction                                                                     / Disposition /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount   Total Cash Back2            Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/9/2009      First Security                              $16,315,362.00                                                       $0.00
              Group, Inc.,
                                        $33,000,000.00                                                                                                                                                             $1.98                       $1,402,500.00
4/11/2013     Chattanooga,                                                     $14,912,862.00                                            9,941,908          $1.50    ($18,087,138.00)
              TN87
12/23/2008    First Sound Bank,                            $4,030,944.44                                                       $0.00
                                         $7,400,000.00                                                                                                                                                             $0.10         114,080         $330,944.44
2/20/2013     Seattle, WA79                                                     $3,700,000.00                                               7,400         $500.00     ($3,700,000.00)
7/17/2009     First South                                 $65,432,450.94                                                       $0.00
              Bancorp, Inc.,
9/28/2011                               $50,000,000.00                         $13,125,000.00                                           13,125,000          $1.00                                                                             $12,932,450.94
              Lexington,
11/28/2012    TN11,14,15                                                       $36,875,000.00                                           36,875,000          $1.00                                 $2,500,000.00
1/30/2009     First Southern                              $12,263,468.31                                                       $0.00
              Bancorp, Inc.,
                                        $10,900,000.00                                                                                                                                                                                           $818,468.31
6/16/2010     Boca Raton,                                                      $10,900,000.00                                              10,900       $1,000.00                                  $545,000.00
              FL8,11,14
3/6/2009                                                   $5,359,772.59                                                       $0.00
3/26/2013     First Southwest                                                     $315,007.00                                                 350         $900.00         ($34,993.00)
              Bancorporation,
3/27/2013                                $5,500,000.00                          $2,835,063.00                                               3,150         $900.00       ($314,937.00)              $206,048.21                                   $207,327.00
              Inc., Alamosa,
3/28/2013     CO8,14                                                            $1,800,040.00                                               2,000         $900.00       ($199,960.00)               $45,788.48
4/9/2013                                                                                             ($49,501.10)
3/6/2009      First Texas BHC,                            $16,072,389.00                                                       $0.00
              Inc., Fort Worth,         $13,533,000.00                                                                                                                                                                                         $1,862,389.00
                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




9/15/2011     TX8,14,44                                                        $13,533,000.00                                              13,533       $1,000.00                                  $677,000.00

6/5/2009                                                  $15,304,180.50                                                       $0.00
              First Trust
2/20/2013     Corporation, New          $17,969,000.00                         $13,750,058.49                                           17,969,000          $0.77     ($4,218,941.51)              $644,726.19                                 $1,046,896.40
              Orleans, LA14,15
3/26/2013                                                                                          ($137,500.58)
1/23/2009     First ULB Corp.,                             $5,211,020.69                                                       $0.00
                                         $4,900,000.00                                                                                                                                                                                            $66,020.69
4/22/2009     Oakland, CA8,11,14                                                $4,900,000.00                                               4,900       $1,000.00                                  $245,000.00
              First United
1/30/2009     Corporation,              $30,000,000.00     $9,489,361.91                                              $30,000,000.00                                                                               $7.93         326,323       $9,489,361.91
              Oakland, MD
6/12/2009     First Vernon                                 $6,662,770.42                                                       $0.00
              Bancshares, Inc.,          $6,000,000.00                                                                                                                                                                                           $417,770.42
9/29/2010     Vernon, AL8,11,14,36                                              $6,000,000.00                                               6,000       $1,000.00                                  $245,000.00

2/6/2009                                 $8,559,000.00    $21,142,314.80                                                       $0.00
12/11/2009                              $11,881,000.00
8/9/2012                                                                        $6,138,000.00                                               7,920         $775.00     ($1,782,000.00)              $311,681.70
              First Western
8/10/2012     Financial, Inc.,                                                     $62,000.00                                                  80         $775.00         ($18,000.00)              $39,370.32                                 $3,768,965.19
              Denver, CO8,14,18
9/11/2012                                                                                            ($62,000.00)
6/24/2013                                                                      $10,994,240.00                                              12,440         $874.81     ($1,445,760.00)
7/26/2013                                                                                          ($109,942.41)
1/30/2009                                                 $38,185,560.05                                                       $0.00
              Firstbank
7/3/2012      Corporation,              $33,000,000.00                         $31,053,330.00      ($465,799.95)                           33,000         $941.00     ($1,946,670.00)                             $21.59                       $5,651,360.00
              Alma, MI
7/18/2012                                                                                                                                                                                         $1,946,670.00
1/9/2009                                                 $131,813,194.44                                                       $0.00
              FirstMerit
4/22/2009     Corporation,             $125,000,000.00                        $125,000,000.00                                             125,000       $1,000.00                                                 $17.60       2,408,203      $71,033,631.08
              Akron, OH11
5/27/2009                                                                                                                                                                                         $5,025,000.00
1/30/2009                                                $277,861,053.94                                                       $0.00
3/26/2013                                                                       $1,439,258.50                                                1,579        $911.50       ($139,741.50)
3/27/2013     Flagstar Bancorp,                                               $228,401,847.00                                             250,578         $911.50    ($22,176,153.00)
                                       $266,657,000.00                                                                                                                                                            $16.83                      $37,220,872.00
3/28/2013     Inc., Troy, MI                                                   $13,216,750.00                                              14,500         $911.50     ($1,283,250.00)
4/9/2013                                                                                          ($2,430,578.56)
6/12/2013                                                                                                                                                                                           $12,905.00
7/24/2009     Florida Bank                                 $9,180,793.08                                                       $0.00
              Group, Inc.,              $20,471,000.00                                                                                                                                                                                         $1,180,793.08
8/14/2013     Tampa, FL8,84                                                     $8,000,000.00                                              20,471         $390.80    ($12,471,000.00)

2/20/2009     Florida Business                            $11,309,750.50                                                       $0.00
              BancGroup, Inc.,           $9,495,000.00                                                                                                                                                                                         $1,339,750.50
9/22/2011     Tampa, FL8,14,44                                                  $9,495,000.00                                               9,495       $1,000.00                                  $475,000.00

                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                          Number     Average Price                                                    Stock Price       Current
Transaction                                                                     / Disposition /                  Remaining Capital    of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)        Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/19/2008                                                $73,904,166.66                                                    $0.00
              Flushing Financial
10/28/2009    Corporation, Lake         $70,000,000.00                         $70,000,000.00                                           70,000       $1,000.00                                                       $18.27                       $3,004,166.66
              Success, NY12,16
12/30/2009                                                                                                                                                                                            $900,000.00
2/27/2009     FNB Bancorp,                                $14,267,700.00                                                    $0.00
              South San
                                        $12,000,000.00                                                                                                                                                               $27.80                       $1,667,700.00
9/15/2011     Francisco,                                                       $12,000,000.00                                           12,000       $1,000.00                                        $600,000.00
              CA8,14,45
5/15/2009     Foresight                                   $18,670,291.67                                                    $0.00
              Financial Group,
                                        $15,000,000.00                                                                                                                                                               $19.20                       $2,920,291.67
12/11/2012    Inc., Rockford,                                                  $15,000,000.00                                           15,000       $1,000.00                                        $750,000.00
              IL8,11,14
5/22/2009     Fort Lee Federal                                $87,184.85                                                    $0.00
              Savings Bank,              $1,300,000.00                                                                                                                                                                                               $87,184.85
4/20/2012     Fort Lee, NJ8,66,97                                                                                                                                  ($1,300,000.00)

4/3/2009      Fortune Financial                            $3,668,927.67                                                    $0.00
              Corporation,               $3,100,000.00                                                                                                                                                                                              $413,927.67
9/15/2011     Arnold, MO8,14,45                                                 $3,100,000.00                                            3,100       $1,000.00                                        $155,000.00

12/5/2008     FPB Bancorp,                                   $273,888.89                                                    $0.00
              Inc., Port St.             $5,800,000.00                                                                                                                                                                $0.00                         $273,888.89
7/15/2011     Lucie, FL50,97                                                                                                                                       ($5,800,000.00)

1/23/2009                                                  $3,623,721.50                                                    $0.00
              FPB Financial
12/16/2009    Corp., Hammond,            $3,240,000.00                          $1,000,000.00                                            1,000       $1,000.00                                                                                      $221,721.50
              LA8,11,14
6/16/2010                                                                       $2,240,000.00                                            2,240       $1,000.00                                        $162,000.00
5/22/2009                                                  $4,336,183.67                                                    $0.00
11/9/2012     Franklin Bancorp,                                                   $594,550.00                                              940         $632.50       ($345,450.00)                    $126,798.62
              Inc., Washington,          $5,097,000.00                                                                                                                                                                                              $965,343.67
11/13/2012    MO8,14                                                            $2,629,302.50                                            4,157         $632.50     ($1,527,697.50)                     $45,188.88
1/11/2013                                                                                         ($25,000.00)
5/8/2009                                                   $4,363,022.95                                                    $0.00
4/11/2014     Freeport                                                          $2,800,000.00                                         2,800,000          $1.01                         $18,228.00      $84,514.33
              Bancshares, Inc.,          $3,000,000.00                                                                                                                                                                                            $1,241,721.45
4/14/2014     Freeport, IL15                                                      $200,000.00                                          200,000           $1.01                          $1,302.00      $42,257.17
7/18/2014                                                                                         ($25,000.00)
6/26/2009     Fremont                                     $45,796,066.36                                                    $0.00
              Bancorporation,           $35,000,000.00                                                                                                                                                                                            $9,046,066.36
7/25/2012     Fremont, CA11,14,15                                              $35,000,000.00                                        35,000,000          $1.00                                       $1,750,000.00

1/23/2009     Fresno First Bank,                           $2,437,100.33                                                    $0.00
                                         $1,968,000.00                                                                                                                                                                                              $371,100.33
11/1/2012     Fresno, CA8,14,44                                                 $1,968,000.00                                            1,968       $1,000.00                                         $98,000.00
4/24/2009                                                  $3,408,191.65                                                    $0.00
              Frontier
11/24/2009    Bancshares, Inc.,          $3,000,000.00                          $1,600,000.00                                         1,600,000          $1.00                                                                                      $258,191.65
              Austin, TX11,14,15
10/6/2010                                                                       $1,400,000.00                                         1,400,000          $1.00                                        $150,000.00
12/23/2008                                               $416,635,625.00                                                    $0.00
              Fulton Financial
7/14/2010     Corporation,             $376,500,000.00                        $376,500,000.00                                          376,500       $1,000.00                                                       $11.08                      $29,335,625.00
              Lancaster, PA11
9/8/2010                                                                                                                                                                                            $10,800,000.00
5/8/2009      Gateway                                      $7,260,794.87                                                    $0.00
              Bancshares, Inc.,          $6,000,000.00                                                                                                                                                                                              $960,794.87
4/13/2012     Ringgold, GA8,14                                                  $6,000,000.00                                            6,000       $1,000.00                                        $300,000.00

2/6/2009      Georgia                                     $10,096,470.83                                                    $0.00
              Commerce
                                         $8,700,000.00                                                                                                                                                                                              $961,470.83
2/16/2011     Bancshares, Inc.,                                                 $8,700,000.00                                            8,700       $1,000.00                                        $435,000.00
              Atlanta, GA8,11,14
5/1/2009                                                   $1,576,457.50                                                    $0.00
              Georgia Primary
2/10/2014                                $4,500,000.00                          $1,556,145.00                                            4,500         $345.80     ($2,943,855.00)                     $45,312.50
              Bank, Atlanta, GA8
3/19/2014                                                                                         ($25,000.00)
3/6/2009                                                   $5,699,100.75                                                    $0.00
              Germantown
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




10/29/2012    Capital                                                              $26,393.77                                               29         $910.10          ($2,606.23)
              Corporation, Inc.,         $4,967,000.00                                                                                                                                                                                              $988,889.76
10/31/2012    Germantown,                                                       $4,494,221.94                                            4,938         $910.10       ($443,778.06)                    $214,595.28
              TN8,14
1/11/2013                                                                                         ($25,000.00)
6/26/2009     Gold Canyon                                     $53,859.52                                                    $0.00
              Bank, Gold                 $1,607,000.00                                                                                                                                                                                               $53,859.52
4/5/2013      Canyon, AZ8,17,91,97                                                                                                                                 ($1,607,000.00)
                                                                                                                                                                                                                                                                    427




                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)                                                                                                                                                                               428
                                                                             Capital Repayment                                           Number     Average Price                                                        Stock Price       Current
Transaction                                                                      / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4       Warrant Sales 9/30/2014       Warrants     Paid to Treasury
10/28/2008                                              $11,418,055,555.44                                                    $0.00
              Goldmans Sachs
6/17/2009     Group, Inc. New      $10,000,000,000.00                        $10,000,000,000.00                                        10,000,000      $1,000.00                                                                                     $318,055,555.44
              York, NY11
7/22/2009                                                                                                                                                                                              $1,100,000,000.00
              Goldwater Bank,
1/30/2009     N.A., Scottsdale,         $2,568,000.00         $145,750.00                                             $2,568,000.00                                                                                                                       $145,750.00
              AZ8
4/24/2009     Grand Capital                                  $4,717,144.78                                                    $0.00
              Corporation,              $4,000,000.00                                                                                                                                                                                                     $517,144.78
9/8/2011      Tulsa, OK8,14,44                                                    $4,000,000.00                                            4,000       $1,000.00                                            $200,000.00

              Grand Financial
9/25/2009     Corporation,              $2,443,320.00        $1,002,082.52                                            $2,443,320.00                                                                                                                     $1,002,082.52
              Hattiesburg, MS15
              Grand Mountain
5/29/2009     Bancshares, Inc.,         $3,076,000.00               $0.00                                             $3,076,000.00
              Granby, CO8
1/9/2009      GrandSouth                $9,000,000.00      $17,625,917.08                                                     $0.00
              Bancorporation,                                                                                                                                                                                               $6.65                       $1,856,917.08
12/11/2009                              $6,319,000.00
              Greenville,
9/8/2011      SC8,14,18,44                                                      $15,319,000.00                                            15,319       $1,000.00                                            $450,000.00
7/17/2009                                                  $11,306,571.15                                                     $0.00
4/11/2014     Great River                                                         $4,800,000.00                                         4,800,000          $1.19                         $926,400.00
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Holding Company,          $8,400,000.00                                                                                                                                                                                                     $759,575.46
4/14/2014     Baxter, MN15                                                        $3,600,000.00                                         3,600,000          $1.19                         $694,800.00        $626,007.69
7/18/2014                                                                                          ($100,212.00)
12/5/2008                                                  $72,274,419.56                                                     $0.00
              Great Southern
8/18/2011     Bancorp,                $58,000,000.00                            $58,000,000.00                                            58,000       $1,000.00                                                           $30.34                       $7,838,055.56
              Springfield, MO45
9/21/2011                                                                                                                                                                                                 $6,436,364.00
12/23/2008    Green                                        $74,642,857.78                                                     $0.00
              Bankshares, Inc.,       $72,278,000.00                                                                                                                                                                                                    $5,942,857.78
9/7/2011      Greeneville, TN                                                   $68,700,000.00                                            72,278         $950.50     ($3,578,000.00)

2/27/2009                                                    $3,036,021.12                                                    $0.00
11/14/2012    Green Circle                                                         $800,000.00                                               800       $1,000.00
              Investments, Inc.,        $2,400,000.00                                                                                                                                                                                                     $516,021.12
1/23/2013     Clive, IA8,11,14                                                     $800,000.00                                               800       $1,000.00
4/24/2013                                                                          $800,000.00                                               800       $1,000.00                                            $120,000.00
2/27/2009     Green City                                      $733,037.33                                                     $0.00
              Bancshares,
                                         $651,000.00                                                                                                                                                                                                       $49,037.33
7/14/2010     Inc., Green City,                                                    $651,000.00                                               651       $1,000.00                                             $33,000.00
              MO8,11,14
1/30/2009                                                  $13,693,111.07                                                     $0.00
3/19/2014     Greer Bancshares                                                    $3,150,000.00                                            3,150       $1,000.00
              Incorporated,             $9,993,000.00                                                                                                                                                                       $7.59                       $3,200,111.07
6/11/2014     Greer, SC8                                                          $1,980,000.00                                            1,980       $1,000.00
7/23/2014                                                                         $4,863,000.00                                            4,863       $1,000.00                                            $500,000.00
2/13/2009     Gregg                                            $45,190.00                                                     $0.00
              Bancshares, Inc.,          $825,000.00                                                                                                                                                                                                       $45,190.00
7/13/2012     Ozark, MO8,68,97                                                                                                                                         ($825,000.00)

2/20/2009     Guaranty                                       $8,235,040.33                                                    $0.00
              Bancorp, Inc.,
                                        $6,920,000.00                                                                                                                                                                                                     $969,040.33
9/15/2011     Woodsville,                                                         $6,920,000.00                                            6,920       $1,000.00                                            $346,000.00
              NH8,14,45
9/25/2009     Guaranty Capital                             $14,913,299.33                                                     $0.00
              Corporation,            $14,000,000.00                                                                                                                                                                                                      $913,299.33
7/30/2010     Belzoni, MS9,15,36                                                $14,000,000.00                                         14,000,000          $1.00

1/30/2009                                                  $21,887,871.44                                                     $0.00
6/13/2012                                                                         $5,000,000.00                                             5,000      $1,000.00
4/26/2013     Guaranty Federal                                                      $96,750.00                                               100         $967.50          ($3,250.00)
              Bancshares, Inc.,       $17,000,000.00                                                                                                                                                                       $12.25                       $3,390,721.44
4/29/2013     Springfield, MO11                                                 $11,513,250.00                                            11,900         $967.50       ($386,750.00)
5/15/2013                                                                                                                                                                                                 $2,003,250.00
5/31/2013                                                                                          ($116,100.00)
9/25/2009     GulfSouth Private                               $757,380.08                                                     $0.00
              Bank, Destin,             $7,500,000.00                                                                                                                                                                                                     $757,380.08
10/19/2012    FL17,28,70,97                                                                                                                                          ($7,500,000.00)

                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                         Number     Average Price                                              Stock Price       Current
Transaction                                                                    / Disposition /                  Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
6/26/2009     Gulfstream                                  $8,751,541.63                                                    $0.00
              Bancshares, Inc.,         $7,500,000.00                                                                                                                                                                                       $876,541.63
8/18/2011     Stuart, FL8,14,45                                                $7,500,000.00                                           7,500       $1,000.00                                  $375,000.00

2/20/2009     Hamilton State                              $8,169,165.89                                                    $0.00
              Bancshares,
                                        $7,000,000.00                                                                                                                                                                                       $819,165.89
4/13/2011     Hoschton,                                                        $7,000,000.00                                             280      $25,000.00                                  $350,000.00
              GA8,11,14
12/31/2008    Hampton Roads                               $5,790,608.79                                                    $0.00
              Bankshares, Inc.,        $80,347,000.00                                                                                                                                                         $1.53         757,633       $2,510,844.25
4/14/2014     Norfolk, VA38                                                    $3,279,764.54                                        2,089,022          $1.57    ($77,067,235.46)

              Harbor
              Bankshares
7/17/2009                               $6,800,000.00       $282,744.47                                            $6,800,000.00                                                                                                            $282,744.47
              Corporation,
              Baltimore, MD8,9
3/13/2009     Haviland                                      $487,524.22                                                    $0.00
              Bancshares, Inc.,           $425,000.00                                                                                                                                                                                        $41,524.22
12/29/2010    Haviland, KS8,11,14                                                $425,000.00                                             425       $1,000.00                                   $21,000.00

12/19/2008                                               $36,849,504.67                                                    $0.00
              Hawthorne
5/9/2012      Bancshares, Inc.,                                               $12,000,000.00                                          12,000       $1,000.00
                                       $30,255,000.00                                                                                                                                                        $13.75                       $6,054,504.67
5/15/2013     Lee’s Summit,                                                   $18,255,000.00                                          18,255       $1,000.00
              MO11
6/12/2013                                                                                                                                                                                     $540,000.00
              HCSB Financial
3/6/2009      Corporation,             $12,895,000.00     $1,090,702.00                                           $12,895,000.00                                                                              $0.20          91,714       $1,090,702.00
              Loris, SC
9/11/2009     Heartland                                   $8,321,471.08                                                    $0.00
              Bancshares, Inc.,         $7,000,000.00                                                                                                                                                        $23.88                       $1,073,471.08
7/17/2012     Franklin, IN8,17                                                 $7,000,000.00                                           7,000       $1,000.00                                  $248,000.00

12/19/2008    Heartland                                  $94,686,087.22                                                    $0.00
              Financial USA,
9/15/2011                              $81,698,000.00                         $81,698,000.00                                          81,698       $1,000.00                                                 $23.88                      $11,188,087.22
              Inc., Dubuque,
9/28/2011     IA45                                                                                                                                                                           $1,800,000.00
9/25/2009                                                $11,353,284.46                                                    $0.00
              Heritage
3/16/2011     Bankshares, Inc.,        $10,103,000.00                          $2,606,000.00                                           2,606       $1,000.00                                                 $15.31                         $947,284.46
              Norfolk, VA8,17,45
8/11/2011                                                                      $7,497,000.00                                           7,497       $1,000.00                                  $303,000.00
11/21/2008                                               $46,901,266.80                                                    $0.00
              Heritage
3/7/2012      Commerce Corp.,          $40,000,000.00                         $40,000,000.00                                          40,000       $1,000.00                                                  $8.21                       $6,761,266.80
              San Jose, CA11
6/10/2013                                                                                                                                                                                     $140,000.00
11/21/2008                                               $26,953,333.33                                                    $0.00
              Heritage Financial
12/22/2010    Corporation,             $24,000,000.00                         $24,000,000.00                                          24,000       $1,000.00                                                 $15.84                       $2,503,333.33
              Olympia, WA11,16
8/17/2011                                                                                                                                                                                     $450,000.00
3/20/2009                                                $27,241,335.26                                                    $0.00
              Heritage Oaks
7/17/2013     Bancorp, Paso            $21,000,000.00                         $21,000,000.00                                          21,000       $1,000.00                                                  $7.00                       $4,666,335.26
              Robles, CA11
8/7/2013                                                                                                                                                                                     $1,575,000.00
11/21/2008                                               $26,316,666.67                                                    $0.00
              HF Financial
6/3/2009      Corp., Sioux             $25,000,000.00                         $25,000,000.00                                          25,000       $1,000.00                                                 $13.44                         $666,666.67
              Falls, SD11
6/30/2009                                                                                                                                                                                     $650,000.00
5/8/2009      Highlands                 $3,091,000.00     $6,211,926.79                                                    $0.00
              Bancorp, Inc.
12/22/2009    (Highlands State          $2,359,000.00                                                                                                                                                         $6.94                         $606,926.79
              Bank), Vernon,
9/22/2011     NJ8,18,21,44                                                     $5,450,000.00                                           5,450       $1,000.00                                  $155,000.00

              Highlands
              Independent
3/6/2009                                $6,700,000.00       $617,712.00                                            $6,700,000.00                                                                                                            $617,712.00
              Bancshares, Inc.,
              Sebring, FL8,111
                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




1/30/2009     Hilltop Community                           $4,467,049.67                                                    $0.00
              Bancorp, Inc.,            $4,000,000.00                                                                                                                                                         $9.36                         $267,049.67
4/21/2010     Summit, NJ8,11,14                                                $4,000,000.00                                           4,000       $1,000.00                                  $200,000.00

                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                            429
                                                                                                                                                                                                                                                                 430
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                         (CONTINUED)
                                                                              Capital Repayment                                          Number     Average Price                                               Stock Price       Current
Transaction                                                                       / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution             Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/23/2008                                                  $21,034,187.78                                                     $0.00
2/7/2013      HMN Financial,                                                      $2,561,325.00                                            3,550         $721.50       ($988,675.00)
              Inc., Rochester,           $26,000,000.00                                                                                                                                                           $13.20         833,333       $2,462,777.78
2/8/2013      MN                                                                 $16,197,675.00                                           22,450         $721.50     ($6,252,325.00)
3/26/2013                                                                                           ($187,590.00)
1/16/2009                                                   $57,480,555.56                                                     $0.00
              Home
7/6/2011      Bancshares, Inc.,          $50,000,000.00                          $50,000,000.00                                           50,000       $1,000.00                                                  $29.41                       $6,180,555.56
              Conway, AR11
7/27/2011                                                                                                                                                                                         $1,300,000.00
2/20/2009     Hometown                                       $4,214,202.31                                                     $0.00
              Bancorp of
                                          $3,250,000.00                                                                                                                                                                                          $801,202.31
8/28/2013     Alabama, Inc.,                                                      $3,250,000.00                                            3,250       $1,000.00                                   $163,000.00
              Oneonta, AL8
2/13/2009                                                    $2,229,801.03                                                     $0.00
11/28/2012                                                                          $608,170.50                                              645         $942.90         ($36,829.50)
              Hometown
11/30/2012    Bancshares, Inc.,           $1,900,000.00                           $1,183,339.50                                            1,255         $942.90         ($71,660.50)               $70,095.00                                   $393,196.03
              Corbin, KY8,14
1/11/2013                                                                                            ($17,915.11)
3/26/2013                                                                                             ($7,084.89)
9/18/2009     HomeTown                                      $11,111,011.94                                                     $0.00
                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Bankshares
10/31/2012                               $10,000,000.00                           $9,185,000.00                                           10,000         $918.50       ($815,000.00)               $315,461.52     $6.30                       $1,702,400.42
              Corporation,
1/11/2013     Roanoke, VA8,17                                                                        ($91,850.00)
12/12/2008                                                  $22,354,145.89                                                     $0.00
              HopFed Bancorp,
12/19/2012                               $18,400,000.00                          $18,400,000.00                                           18,400       $1,000.00                                                  $11.50         253,666       $3,697,888.89
              Hopkinsville, KY11
1/16/2013                                                                                                                                                                                          $256,257.00
12/19/2008                                                  $29,857,321.83                                                     $0.00
11/10/2010    Horizon Bancorp,                                                    $6,250,000.00                                            6,250       $1,000.00
              Michigan City,             $25,000,000.00                                                                                                                                                           $22.91       3,106,771       $3,106,770.83
8/25/2011     IN11,45                                                            $18,750,000.00                                           18,750       $1,000.00
11/23/2011                                                                                                                                                                                        $1,750,551.00
2/27/2009     Howard Bancorp,                                $7,119,793.05                                                     $0.00
              Inc., Ellicott City,        $5,983,000.00                                                                                                                                                           $10.35                         $837,793.05
9/22/2011     MD8,14,44                                                           $5,983,000.00                                            5,983       $1,000.00                                   $299,000.00

5/1/2009                                  $4,000,000.00     $10,940,554.65                                                     $0.00
              HPK Financial
11/13/2009    Corporation,                $5,000,000.00                                                                                                                                                                                        $1,596,554.65
              Chicago, IL8,11,14,18
12/11/2012                                                                        $9,000,000.00                                            9,000       $1,000.00                                   $344,000.00
11/14/2008                                                $1,594,356,808.56                                                    $0.00
              Huntington
12/22/2010    Bancshares,             $1,398,071,000.00                       $1,398,071,000.00                                         1,398,071      $1,000.00                                                   $9.73                    $147,185,808.56
              Columbus, OH11
1/19/2011                                                                                                                                                                                        $49,100,000.00
2/6/2009                                                     $1,337,166.22                                                     $0.00
12/20/2012    Hyperion Bank,                                                      $1,008,800.00                                            1,552         $650.00       ($543,200.00)                $25,700.00
              Philadelphia,               $1,552,000.00                                                                                                                                                                                          $327,666.22
1/11/2013     PA8,14                                                                                 ($10,088.00)
3/26/2013                                                                                            ($14,912.00)
9/18/2009                                                    $6,907,223.22                                                     $0.00
3/14/2014     IA Bancorp, Inc.,                                                   $2,717,674.70                                            2,770         $981.10         ($52,325.30)
                                          $5,976,000.00                                                                                                                                                                                          $916,227.47
3/17/2014     Iselin, NJ8,17                                                      $3,145,438.66                                            3,206         $981.10         ($60,561.34)              $186,513.52
4/25/2014                                                                                            ($58,631.13)
5/15/2009     IBC Bancorp, Inc.,                             $4,632,216.32                                                     $0.00
                                          $4,205,000.00                                                                                                                                                                                          $427,216.32
9/10/2010     Chicago, IL9,15,36                                                  $4,205,000.00                                         4,205,000          $1.00
12/5/2008                                                   $92,650,000.00                                                     $0.00
              Iberiabank
3/31/2009     Corporation,               $90,000,000.00                          $90,000,000.00                                           90,000       $1,000.00                                                  $62.51                       $1,450,000.00
              Lafayette, LA12,16
5/20/2009                                                                                                                                                                                         $1,200,000.00
3/27/2009     IBT Bancorp, Inc.,                             $2,936,462.50                                                     $0.00
                                          $2,295,000.00                                                                                                                                                                                          $526,462.50
6/12/2013     Irving, TX8,14                                                      $2,295,000.00                                            2,295       $1,000.00                                   $115,000.00
3/13/2009     IBW Financial                                  $6,453,067.00                                                     $0.00
              Corporation ,
                                          $6,000,000.00                                                                                                                                                           $11.60                         $453,067.00
9/3/2010      Washington,                                                         $6,000,000.00                                            6,000       $1,000.00
              DC8,10,11
                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                           (CONTINUED)
                                                                                Capital Repayment                                          Number     Average Price                                                        Stock Price       Current
Transaction                                                                         / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date          Institution             Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
3/6/2009      ICB Financial,                                    $7,494,458.33                                                    $0.00
                                           $6,000,000.00                                                                                                                                                                      $4.60                       $1,194,458.33
11/1/2012     Ontario, CA8,14,44                                                     $6,000,000.00                                           6,000       $1,000.00                                            $300,000.00
1/16/2009     Idaho Bancorp,                                     $124,305.92                                                     $0.00
                                           $6,900,000.00                                                                                                                                                                      $0.04                         $124,305.92
4/24/2014     Boise, ID8,108                                                                                                                                           ($6,900,000.00)
5/22/2009                                  $6,272,000.00      $11,836,113.40                                                     $0.00
              Illinois State
12/29/2009    Bancorp, Inc.,               $4,000,000.00                                                                                                                                                                                                  $1,158,113.40
              Chicago, IL8,14,18,44
9/22/2011                                                                          $10,272,000.00                                           10,272       $1,000.00                                            $406,000.00
1/9/2009      Independence                                      $1,394,723.17                                                    $0.00
              Bank, East                   $1,065,000.00                                                                                                                                                                                                    $276,723.17
10/16/2013    Greenwich, RI8                                                         $1,065,000.00                                           1,065       $1,000.00                                             $53,000.00

1/9/2009                                                      $81,476,093.61                                                     $0.00
              Independent Bank
4/22/2009     Corp., Rockland,           $78,158,000.00                            $78,158,000.00                                           78,158       $1,000.00                                                           $35.72                       $1,118,093.61
              MA11
5/27/2009                                                                                                                                                                                                    $2,200,000.00
12/12/2008    Independent Bank                                $83,430,000.00                                                     $0.00
              Corporation,               $72,000,000.00                                                                                                                                                                      $11.92                       $9,004,000.00
8/30/2013     Ionia, MI29                                                          $72,000,000.00                                           72,000       $1,000.00                         $2,426,000.00

4/24/2009     Indiana Bank                                       $165,139.00                                                     $0.00
              Corp., Dana,                 $1,312,000.00                                                                                                                                                                                                    $165,139.00
4/9/2013      IN8,22,92,97                                                                                                                                             ($1,312,000.00)

12/12/2008    Indiana                                         $27,331,250.00                                                     $0.00
              Community
                                         $21,500,000.00                                                                                                                                                                       $0.00                       $4,031,250.00
9/12/2012     Bancorp,                                                             $21,500,000.00                                           21,500       $1,000.00                                           $1,800,000.00
              Columbus, IN11
2/27/2009     Integra Bank                                      $1,950,340.00                                                    $0.00
              Corporation,
                                         $83,586,000.00                                                                                                                                                                                                   $1,950,340.00
7/29/2011     Evansville,                                                                                                                                             ($83,586,000.00)
              IN22,52,97
12/19/2008    Intermountain                                   $33,944,884.23                                                     $0.00
              Community
                                         $27,000,000.00                                                                                                                                                                      $18.74          65,323       $6,944,884.23
11/20/2013    Bancorp,                                                             $27,000,000.00                                           27,000       $1,000.00
              Sandpoint, ID
12/23/2008                                                   $261,538,649.89                                                     $0.00
7/11/2012     International                                                        $40,000,000.00                                           40,000       $1,000.00
              Bancshares
11/1/2012                               $216,000,000.00                            $45,000,000.00                                           45,000       $1,000.00                                                           $24.67                      $41,520,138.89
              Corporation,
11/28/2012    Laredo, TX11                                                        $131,000,000.00                                          131,000       $1,000.00
6/11/2013                                                                                                                                                                                                    $4,018,511.00
12/23/2008                                                    $32,927,621.56                                                     $0.00
              Intervest
6/24/2013     Bancshares                                                           $24,250,000.00                                           25,000         $970.00       ($750,000.00)
                                         $25,000,000.00                                                                                                                                                                       $9.56                       $6,028,055.56
7/26/2013     Corporation, New                                                                        ($242,500.00)
              York, NY
9/3/2014                                                                                                                                                                                                     $2,892,066.00
5/8/2009      Investors                                          $174,324.60                                                     $0.00
              Financial
              Corporation of
                                           $4,000,000.00                                                                                                                                                                                                    $174,324.60
10/19/2012    Pettis County,                                                                                                                                           ($4,000,000.00)
              Inc., Sedalia,
              MO15,71,97
10/28/2008                                                 $26,731,202,358.00                                                    $0.00
              JPMorgan Chase
6/17/2009     & Co., New York,        $25,000,000,000.00                        $25,000,000,000.00                                        2,500,000     $10,000.00                                                           $59.84                    $795,138,888.89
              NY11
12/16/2009                                                                                                                                                                                                 $936,063,469.11
1/30/2009     Katahdin                                        $12,423,046.75                                                     $0.00
              Bankshares
                                         $10,449,000.00                                                                                                                                                                      $12.23                       $1,452,046.75
8/18/2011     Corp., Houlton,                                                      $10,449,000.00                                           10,449       $1,000.00                                            $522,000.00
              ME8,14,44
11/14/2008                                                  $2,867,222,222.22                                                    $0.00
              KeyCorp,
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




3/30/2011                              $2,500,000,000.00                         $2,500,000,000.00                                          25,000     $100,000.00                                                           $13.33                    $297,222,222.22
              Cleveland, OH11
4/20/2011                                                                                                                                                                                                   $70,000,000.00
3/20/2009     Kirksville                                         $622,228.44                                                     $0.00
              Bancorp, Inc.,                $470,000.00                                                                                                                                                                                                     $128,228.44
3/19/2014     Kirksville, MO8                                                         $470,000.00                                              470       $1,000.00                                             $24,000.00

                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                            431
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)                                                                                                                                                                      432
                                                                           Capital Repayment                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
8/21/2009                                                 $4,137,336.64                                                     $0.00
              KS Bancorp, Inc.,
11/30/2012                             $4,000,000.00                           $3,308,000.00                                            4,000         $827.00       ($692,000.00)                $140,400.00     $8.65                         $713,936.64
              Smithfield, NC8,14
1/11/2013                                                                                         ($25,000.00)
2/20/2009     Lafayette                $1,998,000.00      $4,818,134.50                                                     $0.00
              Bancorp,
12/29/2009                             $2,453,000.00                                                                                                                                                                                           $267,134.50
              Inc., Oxford,
9/29/2010     MS8,11,14,18,36                                                  $4,451,000.00                                            4,451       $1,000.00                                    $100,000.00
2/6/2009                                                 $68,260,833.33                                                     $0.00
8/4/2010                                                                      $20,000,000.00                                           20,000       $1,000.00
              Lakeland
3/16/2011     Bancorp, Inc.,          $59,000,000.00                          $20,000,000.00                                           20,000       $1,000.00                                                    $9.76                       $6,460,833.33
              Oak Ridge, NJ11
2/8/2012                                                                      $19,000,000.00                                           19,000       $1,000.00
2/29/2012                                                                                                                                                                                       $2,800,000.00
2/27/2009                                                $60,517,713.33                                                     $0.00
              Lakeland Financial
6/9/2010      Corporation,            $56,044,000.00                          $56,044,000.00                                           56,044       $1,000.00                                                   $37.50                       $3,596,156.33
              Warsaw, IN12
11/22/2011                                                                                                                                                                                       $877,557.00
12/18/2009                                                $2,932,162.50                                                     $0.00
11/29/2012    Layton Park                                                      $2,370,930.00                                            3,000         $790.30       ($629,070.00)                $104,375.00
              Financial Group,         $3,000,000.00                                                                                                                                                                                           $481,857.50
1/11/2013     Milwaukee, WI8,14                                                                   ($23,709.29)
                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




3/26/2013                                                                                          ($1,290.71)
1/9/2009                                                 $14,527,390.33                                                     $0.00
              LCNB Corp.,
10/21/2009                            $13,400,000.00                          $13,400,000.00                                           13,400       $1,000.00                                                   $15.02                         $524,833.33
              Lebanon, OH11
11/22/2011                                                                                                                                                                                       $602,557.00
12/23/2008    Leader Bancorp,                             $6,731,961.06                                                     $0.00
              Inc., Arlington,         $5,830,000.00                                                                                                                                                                                           $609,961.06
11/24/2010    MA8,11,14                                                        $5,830,000.00                                            5,830       $1,000.00                                    $292,000.00

1/30/2009     Legacy Bancorp,                               $355,079.00                                                     $0.00
              Inc., Milwaukee,         $5,498,000.00                                                                                                                                                                                           $355,079.00
3/11/2011     WI9,48,97                                                                                                                                           ($5,498,000.00)

1/23/2009     Liberty                                    $68,191,965.77                                                     $0.00
              Bancshares,
                                      $57,500,000.00                                                                                                                                                                                         $7,816,965.77
7/21/2011     Inc., Jonesboro,                                                $57,500,000.00                                           57,500       $1,000.00                                   $2,875,000.00
              AR8,14,45
2/13/2009     Liberty                                    $25,995,452.08                                                     $0.00
              Bancshares,
                                      $21,900,000.00                                                                                                                                                                                         $3,000,452.08
8/18/2011     Inc., Springfield,                                              $21,900,000.00                                           21,900       $1,000.00                                   $1,095,000.00
              MO8,14,45
              Liberty
12/4/2009     Bancshares, Inc.,        $6,500,000.00      $1,609,456.22                                             $6,500,000.00                                                                                                            $1,609,456.22
              Fort Worth, TX8,17
2/6/2009      Liberty Financial                           $6,106,008.58                                                     $0.00
              Services, Inc.,
                                       $5,645,000.00                                                                                                                                                                                           $461,008.58
9/24/2010     New Orleans,                                                     $5,645,000.00                                            5,645       $1,000.00
              LA9,11,36
              Liberty Shares,
2/20/2009     Inc., Hinesville,       $17,280,000.00      $1,399,560.00                                            $17,280,000.00                                                                                                            $1,399,560.00
              GA8
7/10/2009                                              $1,209,851,873.70                                                    $0.00
              Lincoln National
6/30/2010     Corporation,           $950,000,000.00                         $950,000,000.00                                          950,000       $1,000.00                                                   $53.58                      $46,180,554.50
              Radnor, PA11
9/22/2010                                                                                                                                                                                     $213,671,319.20
12/12/2008                                               $26,893,046.60                                                     $0.00
              LNB Bancorp Inc.,
6/19/2012                             $25,223,000.00                          $21,923,074.91     ($328,846.12)                         25,223         $869.20     ($3,299,925.09)                               $14.29                       $4,438,491.81
              Lorain, OH
7/18/2012                                                                                                                                                                                        $860,326.00
              Lone Star Bank,
2/6/2009                               $3,072,000.00              $0.00                                             $3,072,000.00
              Houston, TX8
12/12/2008                                               $16,260,000.00                                                     $0.00
              LSB Corporation,
11/18/2009    North Andover,          $15,000,000.00                          $15,000,000.00                                           15,000       $1,000.00                                                                  407,542         $700,000.00
              MA11
12/16/2009                                                                                                                                                                                       $560,000.00
                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                           Number     Average Price                                                     Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
6/26/2009     M&F Bancorp,                                $12,409,762.50                                                     $0.00
              Inc., Durham,            $11,735,000.00                                                                                                                                                                                                 $674,762.50
8/20/2010     NC8,9,17                                                         $11,735,000.00                                            11,735       $1,000.00

12/23/2008                                               $718,392,161.34                                                     $0.00
5/18/2011     M&T Bank                                                        $370,000,000.00                                           370,000       $1,000.00
              Corporation,            $600,000,000.00                                                                                                                                                                  $123.29                   $155,027,270.00
8/21/2012     Buffalo, NY11                                                   $230,000,000.00                                           230,000       $1,000.00
12/17/2012                                                                                                                                                                                            $31,838,761.34
4/24/2009     Mackinac                                    $13,521,828.15                                                     $0.00
              Financial
8/29/2012                              $11,000,000.00                          $10,538,990.00     ($158,084.85)                          11,000         $958.10       ($461,010.00)                                    $11.30                       $1,840,923.00
              Corporation,
12/19/2012    Manistique, MI                                                                                                                                                                           $1,300,000.00
3/13/2009                                                  $3,773,495.65                                                     $0.00
              Madison Financial
11/19/2013    Corporation,              $3,370,000.00                           $3,370,000.00                                             3,370       $1,022.60                          $76,195.70     $182,878.45                                   $169,421.50
              Richmond, KY8
1/6/2014                                                                                           ($25,000.00)
12/23/2008                                                $16,146,467.87                                                     $0.00
11/24/2009    Magna Bank,                                                       $3,455,000.00                                              3,455      $1,000.00
                                       $13,795,000.00                                                                                                                                                                                               $1,661,467.87
6/8/2011      Memphis, TN8,11,44                                                $3,455,000.00                                              3,455      $1,000.00
8/18/2011                                                                       $6,885,000.00                                             6,885       $1,000.00                                         $690,000.00
12/29/2009    Mainline Bancorp,                            $5,263,187.50                                                     $0.00
              Inc., Ebensburg,          $4,500,000.00                                                                                                                                                                  $69.50                         $538,187.50
3/9/2012      PA8,14                                                            $4,500,000.00                                             4,500       $1,000.00                                         $225,000.00

1/16/2009     MainSource                                  $62,949,121.28                                                     $0.00
              Financial Group,
4/3/2012                               $57,000,000.00                          $53,073,270.00     ($796,099.05)                          57,000         $931.10     ($3,926,730.00)                                    $17.25                       $9,159,773.33
              Inc., Greensburg,
6/11/2013     IN                                                                                                                                                                                       $1,512,177.00
12/5/2008                                                  $1,829,711.12                                                     $0.00
              Manhattan
9/16/2009     Bancorp, El               $1,700,000.00                           $1,700,000.00                                             1,700       $1,000.00                                                         $3.60                          $66,347.22
              Segundo, CA11
10/14/2009                                                                                                                                                                                               $63,363.90
6/19/2009                                                  $3,438,793.11                                                     $0.00
12/10/2012    Manhattan                                                                                                                                                                                  $11,385.02
              Bancshares, Inc.,         $2,639,000.00                                                                                                                                                                                                 $770,043.86
12/11/2012    Manhattan, IL14,15                                                $2,586,404.73                                          2,639,000          $0.98         ($52,595.27)                     $95,959.50
1/11/2013                                                                                          ($25,000.00)
3/6/2009                                                   $2,296,213.00                                                     $0.00
7/1/2014                                                                        $1,504,820.00                                             2,246         $670.00       ($741,180.00)                      $55,870.00
              Marine Bank &
7/2/2014      Trust Company,            $3,000,000.00                             $483,740.00                                               722         $670.00       ($238,260.00)                      $19,126.67                                   $235,713.00
              Vero Beach, FL8
7/3/2014                                                                           $21,440.00                                                32         $670.00         ($10,560.00)                        $503.33
9/26/2014                                                                                          ($25,000.00)
2/20/2009     Market                                       $2,714,911.32                                                     $0.00
              Bancorporation,
7/2/2014                                $2,060,000.00                           $2,060,000.00                                             2,060       $1,210.00                         $432,661.80     $108,471.52                                   $138,778.00
              Inc., New Market,
9/26/2014     MN8                                                                                  ($25,000.00)
5/15/2009                                                 $24,429,245.84                                                     $0.00
8/9/2012      Market Street                                                    $17,919,962.10                                         19,931,000          $0.90     ($2,011,037.90)                     $727,225.54
              Bancshares, Inc.,        $20,300,000.00                                                                                                                                                                                               $5,535,302.50
8/10/2012     Mt. Vernon, IL14,15                                                 $331,767.90                                           369,000           $0.90         ($37,232.10)                     $97,505.10
9/11/2012                                                                                         ($182,517.30)
12/19/2008                                                $33,835,943.42                                                     $0.00
8/7/2012      Marquette                                                         $2,530,958.50                                              3,514        $720.20       ($983,041.50)                     $142,974.56
              National
8/9/2012                               $35,500,000.00                           $5,904,609.50                                              8,198        $720.20     ($2,293,390.50)                    $1,054,743.77   $88.00                       $7,072,586.61
              Corporation,
8/10/2012     Chicago, IL8,14                                                  $17,133,307.00                                            23,788         $720.20     ($6,654,693.00)                     $252,452.23
9/11/2012                                                                                         ($255,688.75)
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




11/14/2008    Marshall & Ilsley                         $1,944,772,916.66                                                    $0.00
              Corporation,          $1,715,000,000.00                                                                                                                                                                                            $226,522,916.66
7/5/2011      Milwaukee, WI43                                               $1,715,000,000.00                                          1,715,000      $1,000.00                                        $3,250,000.00

3/27/2009                                                    $817,240.50                                                     $0.00
              Maryland
7/2/2014      Financial Bank,           $1,700,000.00                             $527,000.00                                             1,700         $310.00     ($1,173,000.00)                        $1,775.00                                  $313,465.50
              Towson, MD8
9/26/2014                                                                                          ($25,000.00)
                                                                                                                                                                                                                                                                      433




                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)                                                                                                                                                                    434
                                                                          Capital Repayment                                          Number     Average Price                                              Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/5/2008                                              $229,613,072.00                                                     $0.00
              MB Financial Inc.,
3/14/2012                            $196,000,000.00                        $196,000,000.00                                          196,000       $1,000.00                                                 $27.68                      $32,095,000.00
              Chicago, IL11
5/2/2012                                                                                                                                                                                     $1,518,072.00
11/20/2009    McLeod                                     $6,870,433.33                                                     $0.00
              Bancshares,
                                       $6,000,000.00                                                                                                                                                                                        $570,433.33
8/18/2011     Inc., Shorewood,                                                $6,000,000.00                                              600      $10,000.00                                  $300,000.00
              MN8,14,45
2/27/2009                             $11,800,000.00    $24,460,674.81                                                     $0.00
              Medallion Bank,
12/22/2009    Salt Lake City,          $9,698,000.00                                                                                                                                                                                      $2,317,674.81
              UT8,14,18,44
7/21/2011                                                                    $21,498,000.00                                           21,498       $1,000.00                                  $645,000.00
5/15/2009                                               $31,631,120.56                                                     $0.00
              Mercantile Bank
4/4/2012      Corporation,                                                   $10,500,000.00                                           10,500       $1,000.00
                                      $21,000,000.00                                                                                                                                                         $19.05                       $3,166,020.56
6/6/2012      Grand Rapids,                                                  $10,500,000.00                                           10,500       $1,000.00
              MI11
7/3/2012                                                                                                                                                                                     $7,465,100.00
2/6/2009      Mercantile Capital                         $4,150,815.03                                                     $0.00
              Corp., Boston,           $3,500,000.00                                                                                                                                                                                        $475,815.03
8/4/2011      MA8,14,44                                                       $3,500,000.00                                            3,500       $1,000.00                                  $175,000.00

3/6/2009      Merchants                                  $2,231,560.00                                                     $0.00
              and Planters
                                       $1,881,000.00                                                                                                                                                                                        $256,560.00
9/7/2011      Bancshares, Inc.,                                               $1,881,000.00                                            1,881       $1,000.00                                   $94,000.00
                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Toone, TN8,14,56
6/19/2009     Merchants and                              $4,110,668.47                                                     $0.00
              Manufacturers
                                       $3,510,000.00                                                                                                                                                                                        $424,668.47
9/8/2011      Bank Corporation,                                               $3,510,000.00                                            3,510       $1,000.00                                  $176,000.00
              Joliet, IL8,14,44
2/13/2009                              $6,200,000.00    $13,582,165.84                                                     $0.00
12/11/2009    Meridian Bank,           $6,335,000.00
                                                                                                                                                                                                                                          $3,094,895.51
3/17/2014     Devon, PA8,18                                                  $10,328,152.35                                           12,535         $824.15     ($2,206,847.65)              $262,399.50
4/25/2014                                                                                       ($103,281.52)
1/30/2009                                                $8,806,297.80                                                     $0.00
10/29/2012    Metro City Bank,                                                   $26,102.90                                               29         $900.10          ($2,897.10)
                                       $7,700,000.00                                                                                                                                                                                      $1,574,887.50
11/1/2012     Doraville, GA8,14                                               $6,904,667.10                                            7,671         $900.10       ($766,332.90)              $369,948.00
1/11/2013                                                                                        ($69,307.70)
1/16/2009                                               $53,406,628.25                                                     $0.00
              MetroCorp
7/3/2012      Bancshares, Inc.,       $45,000,000.00                         $44,152,650.00     ($662,289.75)                         45,000         $981.20       ($847,350.00)                             $15.06                       $7,828,900.00
              Houston, TX
6/11/2013                                                                                                                                                                                    $2,087,368.00
6/26/2009     Metropolitan                              $27,172,726.72                                                     $0.00
              Bank Group, Inc.,       $71,526,000.00                                                                                                                                                                                      $3,786,440.95
6/28/2013     Chicago, IL8,42                                                $23,718,541.95                                           71,526         $331.60    ($47,807,458.05)

4/10/2009     Metropolitan             $2,040,000.00     $1,170,924.44                                             $4,388,000.00
              Capital Bancorp,
                                                                                                                                                                                                                                          $1,170,924.44
11/20/2009    Inc., Chicago,           $2,348,000.00
              IL8,18
12/19/2008                                              $12,070,979.20                                                     $0.00
              Mid Penn
12/28/2012    Bancorp, Inc.,          $10,000,000.00                         $10,000,000.00                                           10,000       $1,000.00                                                 $15.40          73,099       $2,012,500.00
              Millersburg, PA11
1/23/2013                                                                                                                                                                                      $58,479.20
1/30/2009     Middleburg                                $23,287,945.11                                                     $0.00
              Financial
12/23/2009                            $22,000,000.00                         $22,000,000.00                                           22,000       $1,000.00                                                                                $986,944.11
              Corporation,
11/18/2011    Middleburg, VA12                                                                                                                                                                $301,001.00
1/23/2009     Midland States                            $11,206,989.34                                                     $0.00
              Bancorp, Inc.,
                                      $10,189,000.00                                                                                                                                                                                        $508,989.34
12/23/2009    Effingham,                                                     $10,189,000.00                                           10,189       $1,000.00                                  $509,000.00
              IL8,11,14
1/9/2009                                                $22,834,334.78                                                     $0.00
              MidSouth
8/25/2011     Bancorp, Inc.,          $20,000,000.00                         $20,000,000.00                                           20,000       $1,000.00                                                                              $2,627,777.78
              Lafayette, LA44
11/22/2011                                                                                                                                                                                    $206,557.00
2/27/2009                                                $3,520,137.55                                                     $0.00
              Midtown Bank &
11/19/2013    Trust Company,           $5,222,000.00                          $3,133,200.00                                            5,222         $600.00     ($2,088,800.00)              $136,833.05                                   $275,104.50
              Atlanta, GA8
1/6/2014                                                                                         ($25,000.00)
                                                                                                                                                                                                                                   Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)
                                                                             Capital Repayment                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                      / Disposition /                  Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/5/2008     Midwest Banc                                    $824,288.89                                                    $0.00
              Holdings, Inc.,
                                      $84,784,000.00                                                                                                                                                                                             $824,288.89
5/14/2010     Melrose Park,                                                                                                                                        ($84,784,000.00)
              IL22,27,97
2/13/2009     Midwest Regional                                $763,294.14                                                    $0.00
              Bancorp, Inc.,             $700,000.00                                                                                                                                                                                              $28,294.14
11/10/2009    Festus, MO8,11,14                                                    $700,000.00                                              700       $1,000.00                                     $35,000.00

2/6/2009      MidWestOne                                   $18,933,333.33                                                    $0.00
              Financial Group,
7/6/2011                              $16,000,000.00                            $16,000,000.00                                           16,000       $1,000.00                                                   $23.01                       $1,933,333.33
              Inc., Iowa City,
7/27/2011     IA11                                                                                                                                                                                $1,000,000.00
2/20/2009     Mid-Wisconsin                                $12,844,226.31                                                    $0.00
              Financial
                                      $10,000,000.00                                                                                                                                                               $5.60                       $2,344,226.31
4/26/2013     Services, Inc.,                                                   $10,000,000.00                                           10,000       $1,000.00                                    $500,000.00
              Medford, WI8,11,14
4/3/2009      Millennium                                     $4,296,561.73                                                   $0.00
              Bancorp, Inc.,            $7,260,000.00                                                                                                                                                                                          $1,392,561.73
8/14/2012     Edwards, CO8                                                        $2,904,000.00                                           7,260         $400.00     ($4,356,000.00)

1/9/2009      Mission                                        $5,875,583.89                                                   $0.00
              Community
                                        $5,116,000.00                                                                                                                                                              $6.95                         $759,583.89
12/28/2011    Bancorp, San Luis                                                   $5,116,000.00                                           5,116       $1,000.00
              Obispo, CA9,11
12/23/2008    Mission Valley                                 $5,956,041.66                                                   $0.00
              Bancorp, Sun              $5,500,000.00                                                                                                                                                                                            $456,041.66
8/20/2010     Valley, CA9,11,36                                                   $5,500,000.00                                           5,500       $1,000.00

12/19/2008    Monadnock                                      $2,339,348.60                                                   $0.00
              Bancorp, Inc.,
                                        $1,834,000.00                                                                                                                                                              $5.25                         $413,348.60
12/28/2012    Peterborough,                                                       $1,834,000.00                                           1,834       $1,000.00                                     $92,000.00
              NH8,11,14
2/6/2009      Monarch                                        $4,808,121.00                                                   $0.00
              Community
                                        $6,785,000.00                                                                                                                                                              $2.90                         $262,919.00
11/15/2013    Bancorp, Inc.,                                                      $4,545,202.00                                        2,272,601          $2.00     ($2,239,798.00)
              Coldwater, MI98
12/19/2008    Monarch Financial                            $15,703,166.66                                                    $0.00
              Holdings, Inc.,
12/23/2009                            $14,700,000.00                            $14,700,000.00                                           14,700       $1,000.00                                                   $12.56                         $743,166.66
              Chesapeake,
2/10/2010     VA12,16                                                                                                                                                                              $260,000.00
3/13/2009     Moneytree                                    $11,291,481.00                                                    $0.00
              Corporation,
                                        $9,516,000.00                                                                                                                                                                                          $1,299,481.00
9/15/2011     Lenoir City,                                                        $9,516,000.00                                           9,516       $1,000.00                                    $476,000.00
              TN8,14,45
1/30/2009     Monument                                       $5,623,958.50                                                   $0.00
              Bank, Bethesda,           $4,734,000.00                                                                                                                                                                                            $652,958.50
8/11/2011     MD8,14,44                                                           $4,734,000.00                                           4,734       $1,000.00                                    $237,000.00

10/28/2008                                              $11,268,055,555.11                                                   $0.00
              Morgan Stanley,
6/17/2009                          $10,000,000,000.00                        $10,000,000,000.00                                       10,000,000      $1,000.00                                                   $34.57                    $318,055,555.11
              New York, NY11
8/12/2009                                                                                                                                                                                       $950,000,000.00
1/16/2009     Morrill                                      $15,429,122.22                                                    $0.00
              Bancshares, Inc.,       $13,000,000.00                                                                                                                                                                                           $1,779,122.22
7/20/2011     Merriam, KS8,11,14                                                $13,000,000.00                                           13,000       $1,000.00                                    $650,000.00

1/23/2009                                                    $7,803,377.38                                                   $0.00
              Moscow
4/25/2012     Bancshares, Inc.,         $6,216,000.00                             $1,100,000.00                                           1,100       $1,000.00                                                                                $1,276,377.38
              Moscow, TN8,11,14
12/5/2012                                                                         $5,116,000.00                                           5,116       $1,000.00                                    $311,000.00
9/25/2009                                                    $4,069,975.55                                                   $0.00
              Mountain Valley
7/22/2013     Bancshares, Inc.,         $3,300,000.00                             $3,267,000.00                                           3,300         $990.00         ($33,000.00)               $140,034.65                                   $687,940.90
              Cleveland, GA8,14
9/12/2013                                                                                          ($25,000.00)
3/27/2009     MS Financial,                                  $9,206,289.90                                                   $0.00
              Inc., Kingwood,           $7,723,000.00                                                                                                                                                                                          $1,097,289.90
10/19/2011    TX8,11,14                                                           $7,723,000.00                                           7,723       $1,000.00                                    $386,000.00
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




12/23/2008                                                 $37,608,789.00                                                    $0.00
              MutualFirst
8/25/2011     Financial, Inc.,        $32,382,000.00                            $32,382,000.00                                           32,382       $1,000.00                                                   $22.50                       $4,326,595.00
              Muncie, IN45
9/28/2011                                                                                                                                                                                          $900,194.00
                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                 435
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)                                                                                                                                                                      436
                                                                           Capital Repayment                                           Number     Average Price                                               Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
3/27/2009     Naples Bancorp,                               $956,066.67                                                     $0.00
                                       $4,000,000.00                                                                                                                                                                        $342,609.88        $356,066.67
7/12/2012     Inc., Naples, FL8                                                  $600,000.00                                             4,000         $150.00     ($3,400,000.00)
11/21/2008                                               $81,249,317.20                                                     $0.00
              Nara Bancorp,
6/27/2012     Inc. Los Angeles,       $67,000,000.00                          $67,000,000.00                                            67,000       $1,000.00
              CA11,59
8/8/2012                                                                                                                                                                                        $2,189,317.20
2/27/2009                                                $21,471,087.90                                                     $0.00
2/19/2013     National                                                         $2,438,182.50                                              3,250        $750.20       ($811,817.50)               $342,841.95
              Bancshares, Inc.,       $24,664,000.00                                                                                                                                                                                         $2,307,492.00
2/20/2013     Bettendorf, IA8,14                                              $16,064,996.94                                            21,414         $750.20     ($5,349,003.06)               $502,606.30
3/26/2013                                                                                        ($185,031.79)
12/12/2008                                              $167,958,333.33                                                     $0.00
              National Penn
3/16/2011     Bancshares, Inc.,      $150,000,000.00                         $150,000,000.00                                           150,000       $1,000.00                                                   $9.71                      $16,958,333.33
              Boyertown, PA11,16
4/13/2011                                                                                                                                                                                       $1,000,000.00
12/11/2009    Nationwide                                  $2,276,190.00                                                     $0.00
              Bankshares,
                                       $2,000,000.00                                                                                                                                                                                           $176,190.00
12/29/2010    Inc., West Point,                                                $2,000,000.00                                          2,000,000          $1.00                                   $100,000.00
              NE11,14,15
6/26/2009     NC Bancorp,                                 $2,613,714.23                                                     $0.00
              Inc/Metropolitan
                                       $6,880,000.00
6/28/2013     Bank Group, Inc.,                                                $2,281,458.05                                             6,880         $331.60     ($4,598,541.95)
                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Chicago, IL8,42
              NCAL Bancorp,
12/19/2008                            $10,000,000.00      $1,311,027.78                                            $10,000,000.00                                                                                $0.43                       $1,311,027.78
              Los Angeles, CA8
6/19/2009     NEMO                                        $3,199,347.39                                                     $0.00
              Bancshares
                                       $2,330,000.00                                                                                                                                                                                           $752,347.39
4/24/2013     Inc., Madison,                                                   $2,330,000.00                                          2,330,000          $1.00                                   $117,000.00
              MO11,14,15
1/16/2009     New Hampshire                              $12,041,266.67                                                     $0.00
              Thrift Bancshares,
8/25/2011                             $10,000,000.00                          $10,000,000.00                                            10,000       $1,000.00                                                  $15.58                       $1,304,166.67
              Inc., Newport,
2/15/2012     NH44                                                                                                                                                                               $737,100.00
1/9/2009      New York Private                          $346,794,005.83                                                     $0.00
              Bank & Trust
                                     $267,274,000.00                                                                                                                                                                                        $66,156,005.83
7/24/2013     Corporation, New                                               $267,274,000.00                                           267,274       $1,000.00                                 $13,364,000.00
              York, NY8,11,14
12/12/2008                                               $70,087,060.35                                                     $0.00
4/26/2013                                                                      $2,709,121.50                                              2,763        $980.50         ($53,878.50)
              NewBridge
4/29/2013     Bancorp,                $52,372,000.00                          $48,641,624.50                                            49,609         $980.50       ($967,375.50)                               $7.59                      $11,471,039.16
              Greensboro, NC
5/15/2013                                                                                                                                                                                       $7,778,782.65
5/31/2013                                                                                        ($513,507.46)
12/23/2008    Nicolet                                    $17,904,842.66                                                     $0.00
              Bankshares,
                                      $14,964,000.00                                                                                                                                                                                         $2,192,842.66
9/1/2011      Inc., Green Bay,                                                $14,964,000.00                                            14,964       $1,000.00                                   $748,000.00
              WI8,14,44
1/9/2009                                                 $12,294,583.33                                                     $0.00
              North Central
12/14/2011    Bancshares, Inc.,       $10,200,000.00                          $10,200,000.00                                            10,200       $1,000.00                                                                               $1,494,583.33
              Fort Dodge, IA11
1/11/2012                                                                                                                                                                                        $600,000.00
12/12/2008                                                $5,159,181.33                                                     $0.00
              Northeast
11/28/2012    Bancorp,                 $4,227,000.00                           $4,227,000.00                                             4,227       $1,000.00                                                   $9.26                         $837,181.33
              Lewiston, ME11
12/28/2012                                                                                                                                                                                        $95,000.00
5/15/2009                              $1,341,000.00      $2,987,782.33                                                     $0.00
              Northern State
12/18/2009    Bank, Closter,           $1,230,000.00                                                                                                                                                                                           $349,782.33
              NJ8,11,14,18
3/28/2012                                                                      $2,571,000.00                                             2,571       $1,000.00                                    $67,000.00
2/20/2009     Northern                                    $6,442,172.50                                                     $0.00
              States Financial
                                      $17,211,000.00                                                                                                                                                             $0.64         584,084         $418,322.50
4/30/2014     Corporation,                                                     $6,023,850.00                                         20,079,500          $0.30    ($11,187,150.00)
              Waukegan, IL109
11/14/2008                                             $1,709,623,333.35                                                    $0.00
              Northern Trust
6/17/2009     Corporation,         $1,576,000,000.00                       $1,576,000,000.00                                          1,576,000      $1,000.00                                                  $68.03                      $46,623,333.35
              Chicago, IL11
8/26/2009                                                                                                                                                                                      $87,000,000.00
                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                          Number     Average Price                                                    Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/30/2009     Northway                                   $11,930,624.67                                                     $0.00
              Financial, Inc.,         $10,000,000.00                                                                                                                                                               $20.20                       $1,430,624.67
9/15/2011     Berlin, NH8,14,44                                               $10,000,000.00                                           10,000       $1,000.00                                        $500,000.00

2/13/2009                                                $11,891,847.50                                                     $0.00
              Northwest
3/8/2013      Bancorporation,                                                  $2,000,000.00                                            2,000       $1,032.10                          $64,220.00
                                       $10,500,000.00                                                                                                                                                                                              $575,429.50
3/11/2013     Inc., Spokane,                                                   $8,500,000.00                                            8,500       $1,032.10                         $272,935.00    $587,634.55
              WA8,14
4/9/2013                                                                                         ($108,371.55)
2/13/2009     Northwest                                   $2,380,393.00                                                     $0.00
              Commercial
                                        $1,992,000.00                                                                                                                                                                                              $288,393.00
1/9/2013      Bank, Lakewood,                                                  $1,992,000.00                                            1,992       $1,000.00                                        $100,000.00
              WA8,11,14
1/30/2009                                                 $8,592,336.00                                                     $0.00
              Oak Ridge
10/31/2012    Financial                                                        $7,095,550.00                                            7,700         $921.50       ($604,450.00)
                                        $7,700,000.00                                                                                                                                                                $7.30         163,830       $1,444,854.00
1/11/2013     Services, Inc.,                                                                     ($70,955.50)
              Oak Ridge, NC
2/6/2013                                                                                                                                                                                             $122,887.50
12/5/2008                                                $15,871,250.00                                                     $0.00
              Oak Valley
8/11/2011     Bancorp,                 $13,500,000.00                         $13,500,000.00                                           13,500       $1,000.00                                                       $10.03                       $1,811,250.00
              Oakdale, CA45
9/28/2011                                                                                                                                                                                            $560,000.00
1/16/2009     OceanFirst                                 $40,521,918.61                                                     $0.00
              Financial Corp.,
12/30/2009                             $38,263,000.00                         $38,263,000.00                                           38,263       $1,000.00                                                       $15.91                       $1,828,121.61
              Toms River,
2/3/2010      NJ12,16                                                                                                                                                                                $430,797.00
1/30/2009     Ojai Community                              $2,654,758.89                                                     $0.00
                                        $2,080,000.00                                                                                                                                                                $5.41                         $470,758.89
9/25/2013     Bank, Ojai, CA8                                                  $2,080,000.00                                            2,080       $1,000.00                                        $104,000.00
12/5/2008                                                 $7,438,888.89                                                     $0.00
              Old Line
7/15/2009     Bancshares, Inc.,         $7,000,000.00                          $7,000,000.00                                            7,000       $1,000.00                                                       $15.48                         $213,888.89
              Bowie, MD11
9/2/2009                                                                                                                                                                                             $225,000.00
12/12/2008                                              $102,713,888.89                                                     $0.00
              Old National
3/31/2009     Bancorp,                $100,000,000.00                        $100,000,000.00                                          100,000       $1,000.00                                                       $12.97                       $1,513,888.89
              Evansville, IN11
5/8/2009                                                                                                                                                                                            $1,200,000.00
1/16/2009                                                $31,423,238.49                                                     $0.00
3/11/2013                                                                     $24,684,870.00                                           70,028         $352.50    ($45,343,130.00)
3/26/2013     Old Second                                                         $452,424.00                                            1,200         $377.00       ($747,576.00)
              Bancorp, Inc.,           $73,000,000.00                                                                                                                                                                $4.81                       $5,769,027.78
3/27/2013     Aurora, IL                                                         $668,079.44                                            1,772         $377.00     ($1,103,920.56)
4/9/2013                                                                                         ($258,053.73)
6/11/2013                                                                                                                                                                                            $106,891.00
4/17/2009                                                 $3,403,603.15                                                     $0.00
7/19/2013     Omega Capital                                                    $1,239,000.00                                            1,239       $1,142.90                         $177,053.10
              Corp., Lakewood,          $2,816,000.00                                                                                                                                                                                               $50,310.50
7/22/2013     CO8,14                                                           $1,577,000.00                                            1,577       $1,142.90                         $225,353.30    $159,886.25
9/12/2013                                                                                         ($25,000.00)
5/8/2009      One Georgia                                         $0.00                                                     $0.00
              Bank, Atlanta,            $5,500,000.00
7/15/2011     GA8,51,97                                                                                                                                           ($5,500,000.00)

              One United Bank,
12/19/2008                             $12,063,000.00        $93,823.33                                            $12,063,000.00                                                                                                                   $93,823.33
              Boston, MA8,9
              OneFinancial
6/5/2009      Corporation, Little      $17,300,000.00     $3,782,990.59                                            $17,300,000.00                                                                                                                $3,782,990.59
              Rock, AR15,17
4/24/2009                                                 $4,116,801.92                                                     $0.00
10/18/2013    Oregon Bancorp,                                                    $100,000.00                                              100       $1,000.00                                          $9,459.13
                                        $3,216,000.00                                                                                                                                                               $10.55                         $787,354.72
              Inc., Salem, OR8
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




10/21/2013                                                                     $3,116,000.00                                            3,116       $1,000.00                                        $128,988.07
1/6/2014                                                                                          ($25,000.00)
5/1/2009      OSB Financial                               $7,662,314.53                                                     $0.00
              Services, Inc.,           $6,100,000.00                                                                                                                                                                                            $1,257,314.53
10/5/2011     Orange, TX11,14,15                                               $6,100,000.00                                         6,100,000          $1.00                                        $305,000.00

                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                   437
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                     (CONTINUED)                                                                                                                                                                            438
                                                                          Capital Repayment                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                   / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
11/21/2008                                             $168,483,804.20                                                     $0.00
              Pacific Capital
2/23/2011     Bancorp, Santa         $180,634,000.00                                  $14.75                                               1          $29.50             ($10.28)                                     $0.80                       $2,107,396.67
              Barbara, CA11,35
11/30/2012                                                                  $165,983,272.00                                         3,608,332         $46.00    ($14,650,702.97)                      $393,120.78
12/19/2008    Pacific City                              $21,003,597.96                                                     $0.00
              Financial
11/19/2013                            $16,200,000.00                         $16,200,000.00                                           16,200       $1,215.20                         $3,485,754.00   $1,156,636.50                                  $358,065.00
              Corporation, Los
1/6/2014      Angeles, CA8                                                                      ($196,857.54)
12/23/2008    Pacific Coast                             $13,821,963.89                                                     $0.00
              Bankers’
              Bancshares,             $11,600,000.00                                                                                                                                                                                              $1,641,963.89
7/28/2011     San Francisco,                                                 $11,600,000.00                                           11,600       $1,000.00                                          $580,000.00
              CA8,14,45
1/16/2009     Pacific Coast                                 $18,087.94                                                     $0.00
              National Bancorp,
                                       $4,120,000.00                                                                                                                                                                  $0.00                          $18,087.94
2/11/2010     San Clemente,                                                                                                                                      ($4,120,000.00)
              CA8,26
12/23/2008                                               $2,991,670.80                                                     $0.00
              Pacific Commerce
2/10/2014     Bank, Los                $4,060,000.00                          $2,519,960.80                                            4,060         $620.70     ($1,540,039.20)                      $109,487.50     $4.60                         $387,222.50
              Angeles, CA8
3/19/2014                                                                                        ($25,000.00)
12/12/2008    Pacific                                    $7,937,744.97                                                     $0.00
              International
                                       $6,500,000.00                                                                                                                                                                                 18,393
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




2/15/2013     Bancorp, Seattle,                                               $6,500,000.00                                            6,500       $1,000.00
              WA85
3/6/2009                                                $22,020,064.10                                                     $0.00
8/7/2012      Park                                                            $1,676,654.00                                            2,296         $730.20       ($619,346.00)                       $88,059.01
              Bancorporation,
8/9/2012                              $23,200,000.00                          $4,048,506.00                                            5,544         $730.20     ($1,495,494.00)                      $482,779.69                                 $4,351,643.00
              Inc., Madison,
8/10/2012     WI8,14                                                         $11,216,640.00                                           15,360         $730.20     ($4,143,360.00)                      $325,200.40
9/11/2012                                                                                       ($169,418.00)
12/23/2008                                             $119,536,844.44                                                     $0.00
              Park National
4/25/2012     Corporation,           $100,000,000.00                        $100,000,000.00                                          100,000       $1,000.00                                                         $75.42                      $16,694,444.44
              Newark, OH11
5/2/2012                                                                                                                                                                                             $2,842,400.00
1/30/2009                                               $16,365,554.76                                                     $0.00
11/28/2012                                                                      $394,072.28                                              548         $719.10       ($153,927.72)
              Parke Bancorp,
11/29/2012                            $16,288,000.00                         $11,318,791.40                                           15,740         $719.10     ($4,421,208.60)                                     $10.55         438,906       $3,119,531.72
              Inc., Sewell, NJ
1/11/2013                                                                                       ($117,128.64)
6/12/2013                                                                                                                                                                                            $1,650,288.00
12/23/2008    Parkvale Financial                        $36,570,413.89                                                     $0.00
              Corpoation/F.N.B.
                                      $31,762,000.00                                                                                                                                                                                342,564
1/3/2012      Corporation,                                                   $31,762,000.00                                           31,762       $1,000.00
              Monroeville, PA60
2/6/2009      Pascack Bancorp,                           $4,497,312.67                                                     $0.00
              Inc. (Pascack
              Community                $3,756,000.00                                                                                                                                                                                                $553,312.67
10/19/2011    Bank), Westwood,                                                $3,756,000.00                                            3,756       $1,000.00                                          $188,000.00
              NJ8,11,21
              Patapsco
12/19/2008    Bancorp, Inc.,           $6,000,000.00       $377,866.67                                             $6,000,000.00                                                                                      $2.75                         $377,866.67
              Dundalk, MD8
9/11/2009                                                $7,976,328.84                                                     $0.00
              Pathfinder
9/1/2011      Bancorp, Inc.,           $6,771,000.00                          $6,771,000.00                                            6,771       $1,000.00                                                         $14.95                         $667,695.84
              Oswego, NY44
2/1/2012                                                                                                                                                                                              $537,633.00
3/27/2009                                                $4,628,862.77                                                     $0.00
              Pathway Bancorp,
6/24/2013                              $3,727,000.00                          $3,727,000.00                                            3,727       $1,167.00                          $622,446.27     $226,565.00                                    $77,851.50
              Cairo, NE8,14
7/26/2013                                                                                        ($25,000.00)
12/19/2008                                              $33,824,567.35                                                     $0.00
4/11/2014     Patriot                                                        $12,000,000.00                                           12,000       $1,142.00                         $1,704,360.00   $1,035,834.25
              Bancshares, Inc.,       $26,038,000.00                                                                                                                                                                                              $2,704,135.78
4/14/2014     Houston, TX8                                                   $14,038,000.00                                           14,038       $1,142.00                         $1,993,817.14    $645,781.95
7/18/2014                                                                                       ($297,361.77)
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                          Number     Average Price                                              Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
4/17/2009                                                 $4,692,022.77                                                     $0.00
3/7/2012                                                                         $250,000.00                                              250       $1,000.00
              Patterson
8/22/2012     Bancshares,                                                        $250,000.00                                              250       $1,000.00
                                        $3,690,000.00                                                                                                                                                                                        $817,022.77
12/5/2012     Inc, Patterson,                                                    $250,000.00                                              250       $1,000.00
              LA8,11,14
5/8/2013                                                                         $500,000.00                                              500       $1,000.00
6/5/2013                                                                       $2,440,000.00                                            2,440       $1,000.00                                  $185,000.00
1/9/2009                                                 $32,075,739.67                                                     $0.00
1/6/2010      Peapack-                                                         $7,172,000.00                                            7,172       $1,000.00
              Gladstone
3/2/2011      Financial                $28,685,000.00                          $7,172,000.00                                            7,172       $1,000.00                                                 $17.50                       $3,280,739.67
              Corporation,
1/11/2012     Gladstone, NJ11                                                 $14,341,000.00                                           14,341       $1,000.00
4/4/2012                                                                                                                                                                                       $110,000.00
4/17/2009     Penn Liberty                               $11,745,689.33                                                     $0.00
              Financial Corp.,          $9,960,000.00                                                                                                                                                                                      $1,287,689.33
9/1/2011      Wayne, PA8,14,44                                                 $9,960,000.00                                            9,960       $1,000.00                                  $498,000.00

1/30/2009                                                $44,926,557.48                                                     $0.00
2/2/2011      Peoples Bancorp                                                 $21,000,000.00                                           21,000       $1,000.00
              Inc., Marietta,          $39,000,000.00                                                                                                                                                         $23.75                       $4,725,833.33
12/28/2011    OH11                                                            $18,000,000.00                                           18,000       $1,000.00
2/15/2012                                                                                                                                                                                     $1,200,724.15
2/13/2009     Peoples Bancorp                            $21,325,250.00                                                     $0.00
              (WA), Lynden,            $18,000,000.00                                                                                                                                                                                      $2,425,250.00
8/3/2011      WA8,14,56                                                       $18,000,000.00                                           18,000       $1,000.00                                  $900,000.00

12/23/2008                                               $27,877,966.16                                                     $0.00
              Peoples Bancorp
7/3/2012      of North Carolina,       $25,054,000.00                         $23,384,401.44     ($350,766.02)                         25,054         $933.40     ($1,669,598.56)                             $16.96                       $4,419,330.74
              Inc., Newton, NC
8/8/2012                                                                                                                                                                                       $425,000.00
4/24/2009     Peoples                                    $15,362,909.75                                                     $0.00
              Bancorporation,
                                       $12,660,000.00                                                                                                                                                                                      $2,069,909.75
4/24/2012     Inc., Easley,                                                   $12,660,000.00                                           12,660       $1,000.00                                  $633,000.00
              SC8,14
3/20/2009     Peoples                                     $3,809,874.42                                                     $0.00
              Bancshares
10/31/2012    of TN, Inc,               $3,900,000.00                          $2,944,500.00                                            3,900         $755.00       ($955,500.00)              $122,225.00                                   $768,149.42
              Madisonville,
1/11/2013     TN8,14                                                                              ($25,000.00)

3/6/2009      PeoplesSouth                               $15,985,994.66                                                     $0.00
              Bancshares, Inc.,        $12,325,000.00                                                                                                                                                                                      $3,044,994.66
9/18/2013     Colquitt, GA8                                                   $12,325,000.00                                           12,325       $1,000.00                                  $616,000.00

9/11/2009     PFSB                                        $1,730,162.66                                                     $0.00
              Bancorporation,
                                        $1,500,000.00                                                                                                                                                                                        $159,162.66
8/25/2011     Inc., Pigeon Falls,                                              $1,500,000.00                                            1,500       $1,000.00                                   $71,000.00
              WI8,17,45
2/6/2009      PGB Holdings,                               $3,227,916.67                                                     $0.00
              Inc., Chicago,            $3,000,000.00                                                                                                                                                                                        $227,916.67
8/13/2010     IL9,11,36                                                        $3,000,000.00                                            3,000       $1,000.00

1/23/2009     Pierce County                                 $207,947.78                                                     $0.00
              Bancorp, Tacoma,          $6,800,000.00                                                                                                                                                                                        $207,947.78
11/5/2010     WA8,46,97                                                                                                                                           ($6,800,000.00)

              Pinnacle Bank
              Holding Company,
3/6/2009                                $4,389,000.00       $284,999.00                                             $4,389,000.00                                                                                            267,455         $284,999.00
              Inc., Orange City,
              FL8,69
12/12/2008                                              $111,918,194.45                                                     $0.00
12/28/2011    Pinnacle Financial                                              $23,750,000.00                                           23,750       $1,000.00
              Partners, Inc.,          $95,000,000.00                                                                                                                                                         $36.10                      $16,163,194.45
6/20/2012     Nashville, TN11                                                 $71,250,000.00                                           71,250       $1,000.00
7/18/2012                                                                                                                                                                                      $755,000.00
                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




12/19/2008    Plains Capital                            $105,252,939.77                                                     $0.00
              Corporation,             $87,631,000.00                                                                                                                                                                                     $13,239,939.77
9/27/2011     Dallas, TX8,14,44                                               $87,631,000.00                                           87,631       $1,000.00                                 $4,382,000.00

                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                             439
                                                                                                                                                                                                                                                                        440
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)
                                                                             Capital Repayment                                          Number     Average Price                                                       Stock Price       Current
Transaction                                                                      / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)            Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
7/17/2009                                                   $3,103,618.40                                                     $0.00
4/26/2013     Plato Holdings                                                       $120,000.00                                          120,000           $1.00                               $180.00
              Inc., Saint Paul,          $2,500,000.00                                                                                                                                                                                                  $534,285.93
4/29/2013     MN15,17                                                            $2,380,000.00                                         2,380,000          $1.00                              $3,570.00     $90,582.47
5/31/2013                                                                                           ($25,000.00)
1/30/2009                                                  $13,764,140.41                                                     $0.00
4/29/2013     Plumas Bancorp,                                                   $11,949,000.00                                           11,949       $1,091.10                          $1,088,673.39
                                        $11,949,000.00                                                                                                                                                                    $7.72                         $622,343.75
5/22/2013     Quincy, CA                                                                                                                                                                                  $234,500.00
5/31/2013                                                                                          ($130,376.73)
12/5/2008                                                $1,220,280,000.00                                                    $0.00
              Popular, Inc., San
7/2/2014                               $935,000,000.00                         $935,000,000.00                                          935,000       $1,000.00                                                          $29.44                    $269,280,000.00
              Juan, PR20
7/23/2014                                                                                                                                                                                                $3,000,000.00
              Porter Bancorp
11/21/2008                              $35,000,000.00      $4,783,333.33                                            $35,000,000.00                                                                                       $1.01         330,561       $4,783,333.33
              Inc., Louisville, KY
              Prairie Star
4/3/2009      Bancshares, Inc.,          $2,800,000.00        $132,253.00                                             $2,800,000.00                                                                                                                     $132,253.00
              Olathe, KS8
5/8/2009      Premier Bancorp,                              $7,444,215.12                                                     $0.00
              Inc., Wilmette,            $6,784,000.00                                                                                                                                                                                                  $660,215.12
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




8/13/2010     IL9,15,36                                                          $6,784,000.00                                         6,784,000          $1.00

3/20/2009     Premier Bank                                    $467,412.50                                                     $0.00
              Holding Company,
                                         $9,500,000.00                                                                                                                                                                                                  $467,412.50
8/14/2012     Tallahassee,                                                                                                                                          ($9,500,000.00)
              FL8,22,97
10/2/2009                                                  $23,052,240.29                                                     $0.00
8/8/2012                                                                         $1,678,618.89                                            1,863         $901.00       ($184,381.11)
              Premier Financial
8/9/2012      Bancorp, Inc.,            $22,252,000.00                           $8,575,102.51                                            9,517         $901.00       ($941,897.49)                                      $14.64         634,222       $3,203,017.93
              Huntington, WV
8/10/2012                                                                        $9,795,998.16                                           10,872         $901.00     ($1,076,001.84)
9/11/2012                                                                                          ($200,497.20)
5/22/2009                                                   $8,778,669.11                                                     $0.00
              Premier Financial
7/22/2013     Corp, Dubuque,             $6,349,000.00                           $6,349,000.00                                         6,349,000          $1.24                          $1,507,379.58    $478,590.75                                   $522,262.58
              IA14,15
9/12/2013                                                                                           ($78,563.80)
2/20/2009     Premier Service                               $4,300,522.22                                                     $0.00
              Bank, Riverside,           $4,000,000.00                                                                                                                                                                    $6.30                         $100,522.22
1/31/2014     CA8                                                                $4,000,000.00                                            4,000       $1,000.00                                           $200,000.00

2/13/2009     PremierWest                                  $42,446,500.00                                                     $0.00
              Bancorp,                  $41,400,000.00                                                                                                                                                                    $1.99                       $1,046,500.00
4/9/2013      Medford, OR80                                                     $41,400,000.00                                           41,400       $1,000.00

11/20/2009                                                 $11,077,694.89                                                     $0.00
12/10/2012    Presidio Bank,                                                       $262,635.10                                              310         $847.20         ($47,364.90)                       $83,086.12
              San Francisco,            $10,800,000.00                                                                                                                                                                   $12.00                       $1,740,944.25
12/11/2012    CA8,17                                                             $8,887,232.90                                           10,490         $847.20     ($1,602,767.10)                       $195,295.20
1/11/2013                                                                                           ($91,498.68)
1/23/2009     Princeton National                            $2,271,405.00                                                     $0.00
              Bancorp, Inc.,            $25,083,000.00                                                                                                                                                                    $0.01                       $2,271,405.00
11/2/2012     Princeton, IL75,97                                                                                                                                   ($25,083,000.00)

2/27/2009     Private                    $4,960,000.00     $10,836,280.71                                                     $0.00
              Bancorporation,
12/29/2009                               $3,262,000.00                                                                                                                                                                   $29.91                       $2,366,280.71
              Inc., Minneapolis,
6/25/2014     MN8,18                                                             $8,222,000.00                                            8,222       $1,000.00                                           $248,000.00
1/30/2009                                                 $290,552,132.92                                                     $0.00
              PrivateBancorp,
10/24/2012                             $243,815,000.00                         $243,815,000.00                                          243,815       $1,000.00                                                                                      $45,512,132.92
              Inc., Chicago, IL12
11/14/2012                                                                                                                                                                                               $1,225,000.00
10/2/2009     Providence Bank,                              $4,596,311.80                                                     $0.00
              Rocky Mount,               $4,000,000.00                                                                                                                                                                                                  $421,311.80
9/15/2011     NC8,17,44                                                          $4,000,000.00                                            4,000       $1,000.00                                           $175,000.00

11/14/2008                                                $199,100,113.41                                                     $0.00
              Provident
8/21/2012     Banshares                                                        $151,500,000.00                                          151,500       $1,000.00
              Corp./M&T Bank           $151,500,000.00
3/20/2013     Corporation,                                                                                                                                                                     $71.62
              Baltimore, MD88
3/25/2013                                                                                                                                                                               $19,047,005.12
                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                           Number     Average Price                                                     Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
3/13/2009     Provident                                   $5,639,391.00                                                     $0.00
              Community
                                       $9,266,000.00                                                                                                                                                                   $0.08         178,880         $543,091.00
4/30/2014     Bancshares, Inc.,                                                $5,096,300.00                                             9,266         $550.00     ($4,169,700.00)
              Rock Hill, SC107
2/27/2009     PSB Financial                              $10,536,802.00                                                     $0.00
              Corporation,             $9,270,000.00                                                                                                                                                                                                 $802,802.00
9/29/2010     Many, LA8,11,14                                                  $9,270,000.00                                             9,270       $1,000.00                                         $464,000.00

1/16/2009     Puget Sound                                 $5,355,156.75                                                     $0.00
              Bank, Bellevue,          $4,500,000.00                                                                                                                                                                  $13.90                         $630,156.75
8/11/2011     WA8,14,44                                                        $4,500,000.00                                             4,500       $1,000.00                                         $225,000.00

1/16/2009                                                $35,195,847.13                                                     $0.00
              Pulaski Financial
7/3/2012      Corp, Creve             $32,538,000.00                          $28,893,744.00     ($433,406.16)                          32,538         $888.00     ($3,644,256.00)                                    $11.40                       $5,635,509.29
              Coeur, MO
8/8/2012                                                                                                                                                                                              $1,100,000.00
2/13/2009                                                $44,286,567.33                                                     $0.00
              QCR Holdings,
9/15/2011                             $38,237,000.00                          $38,237,000.00                                            38,237       $1,000.00                                                        $17.66                       $4,949,567.33
              Inc., Moline, IL44
11/16/2011                                                                                                                                                                                            $1,100,000.00
10/30/2009    Randolph Bank &                             $7,190,593.33                                                     $0.00
              Trust Company,           $6,229,000.00                                                                                                                                                                                                 $650,593.33
9/30/2013     Asheboro, NC8                                                    $6,229,000.00                                             6,229       $1,000.00                                         $311,000.00

6/19/2009                                                 $9,139,863.61                                                     $0.00
              RCB Financial
9/25/2013     Corporation,             $8,900,000.00                           $8,073,279.00                                             8,900         $907.10       ($826,721.00)                     $253,383.25                                   $893,934.15
              Rome, GA8,17
10/29/2013                                                                                        ($80,732.79)
1/16/2009     Redwood Capital                             $4,510,626.39                                                     $0.00
              Bancorp, Eureka,         $3,800,000.00                                                                                                                                                                   $9.70                         $520,626.39
7/21/2011     CA8,14,44                                                        $3,800,000.00                                             3,800       $1,000.00                                         $190,000.00

1/9/2009      Redwood                                     $3,570,810.92                                                     $0.00
              Financial Inc.,
                                       $2,995,000.00                                                                                                                                                                  $28.50                         $425,810.92
8/18/2011     Redwood Falls,                                                   $2,995,000.00                                             2,995       $1,000.00                                         $150,000.00
              MN8,14,44
              Regent Bancorp,
3/6/2009                               $9,982,000.00        $784,281.50                                             $9,982,000.00                                                                                                                    $784,281.50
              Inc., Davie, FL8
2/27/2009     Regent Capital                              $3,135,328.00                                                     $0.00
              Corporation,             $2,655,000.00                                                                                                                                                                                                 $347,328.00
7/21/2011     Nowata, OK8,14,44                                                $2,655,000.00                                             2,655       $1,000.00                                         $133,000.00

10/23/2009    Regents                                    $14,594,338.99                                                     $0.00
              Bancshares,
                                      $12,700,000.00                                                                                                                                                                                               $1,513,338.99
1/26/2012     Inc., Vancouver,                                                $12,700,000.00                                            12,700       $1,000.00                                         $381,000.00
              WA8,17,62
2/13/2009                                                 $1,718,159.50                                                     $0.00
11/8/2012                                                                        $246,975.00                                               267         $925.00         ($20,025.00)
              Regional
11/9/2012     Bankshares, Inc.,        $1,500,000.00                           $1,140,525.00                                             1,233         $925.00         ($92,475.00)                     $50,000.00                                   $305,659.50
              Hartsville, SC8,14
1/11/2013                                                                                         ($13,875.00)
3/26/2013                                                                                         ($11,125.00)
11/14/2008                                             $4,138,055,555.55                                                    $0.00
              Regions Financial
4/4/2012      Corporation,         $3,500,000,000.00                       $3,500,000,000.00                                          3,500,000      $1,000.00                                                        $10.04                    $593,055,555.55
              Birmingham, AL11
5/2/2012                                                                                                                                                                                             $45,000,000.00
2/13/2009                                                $45,820,950.80                                                     $0.00
              Reliance
9/25/2013     Bancshares, Inc.,       $40,000,000.00                          $40,000,000.00                                            40,000       $1,004.90                         $196,000.00    $2,199,799.80    $2.10                       $3,827,111.00
              Frontenac, MO8
10/29/2013                                                                                       ($401,960.00)
2/27/2009     Ridgestone                                  $9,630,106.93                                                     $0.00
              Financial
2/20/2013                             $10,900,000.00                           $8,966,340.00                                            10,900         $822.60     ($1,933,660.00)                     $476,206.83                                   $277,223.50
              Services, Inc.,
3/26/2013     Brookfield, WI8,14                                                                  ($89,663.40)
              Rising Sun
1/9/2009      Bancorp, Rising          $5,983,000.00        $195,637.00                                             $5,983,000.00                                                                                                                    $195,637.00
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




              Sun, MD8
6/12/2009     River Valley                               $19,928,275.00                                                     $0.00
              Bancorporation,
6/6/2012                              $15,000,000.00                          $10,500,000.00                                         10,500,000          $1.00                                                        $21.45                       $4,178,275.00
              Inc., Wausau,
5/15/2013     WI11,14,15                                                       $4,500,000.00                                          4,500,000          $1.00                                         $750,000.00
                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                     441
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                            442
                                                                            Capital Repayment                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
5/15/2009     Riverside                                    $1,622,708.57                                                     $0.00
              Bancshares, Inc.,          $1,100,000.00                                                                                                                                                                                                $467,708.57
5/14/2014     Little Rock, AR15                                                 $1,100,000.00                                         1,100,000          $1.00                                           $55,000.00

1/30/2009     Rogers                                         $738,021.00                                                     $0.00
              Bancshares,
                                        $25,000,000.00                                                                                                                                                                                                $738,021.00
7/5/2013      Inc., Little Rock,                                                                                                                                  ($25,000,000.00)
              AR8,95,97
2/20/2009                                                 $36,696,518.83                                                     $0.00
7/1/2014      Royal Bancshares                                                  $9,000,000.00                                            9,000       $1,207.10                         $1,863,990.00
              of Pennsylvania,          $30,407,000.00                                                                                                                                                                  $1.61       1,104,370         $358,971.00
7/2/2014      Inc., Narberth, PA                                               $21,407,000.00                                           21,407       $1,207.10                         $4,433,603.77
9/26/2014                                                                                         ($367,045.94)
1/16/2009                                                $124,916,099.34                                                     $0.00
              S&T Bancorp,
12/7/2011                              $108,676,000.00                        $108,676,000.00                                          108,676       $1,000.00                                                         $23.46                      $15,712,738.34
              Indiana, PA11
6/11/2013                                                                                                                                                                                               $527,361.00
              Saigon
12/23/2008    National Bank,             $1,549,000.00             $0.00                                             $1,549,000.00                                                                                      $0.10
              Westminster, CA8
3/13/2009                                                 $10,100,960.44                                                     $0.00
              Salisbury
8/25/2011     Bancorp, Inc.,             $8,816,000.00                          $8,816,000.00                                            8,816       $1,000.00                                                         $26.95                       $1,079,960.44
              Lakeville, CT44
11/2/2011                                                                                                                                                                                               $205,000.00
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




12/5/2008                                                 $95,137,868.33                                                     $0.00
7/21/2010     Sandy Spring                                                     $41,547,000.00                                           41,547       $1,000.00
              Bancorp, Inc.,            $83,094,000.00                                                                                                                                                                 $22.89                       $7,593,868.33
12/15/2010    Olney, MD11,44                                                   $41,547,000.00                                           41,547       $1,000.00
2/23/2011                                                                                                                                                                                              $4,450,000.00
2/13/2009                                                  $2,697,208.51                                                     $0.00
              Santa Clara Valley
3/8/2013      Bank, N.A., Santa          $2,900,000.00                          $2,465,029.00                                            2,900         $850.00       ($434,971.00)                       $98,251.45     $5.91                         $158,928.06
              Paula, CA8,14
4/9/2013                                                                                           ($25,000.00)
12/19/2008    Santa Lucia                                  $3,131,111.11                                                     $0.00
              Bancorp,                   $4,000,000.00                                                                                                                                                                  $6.95                         $331,111.11
10/21/2011    Atascadero, CA                                                    $2,800,000.00                                            4,000         $700.00     ($1,200,000.00)

3/27/2009     SBT Bancorp,                                 $4,717,144.78                                                     $0.00
              Inc., Simsbury,            $4,000,000.00                                                                                                                                                                                                $517,144.78
8/11/2011     CT8,14,44                                                         $4,000,000.00                                            4,000       $1,000.00                                          $200,000.00

1/16/2009                                                 $67,294,638.84                                                     $0.00
              SCBT Financial
5/20/2009     Corporation,              $64,779,000.00                         $64,779,000.00                                           64,779       $1,000.00                                                         $55.92                       $1,115,638.84
              Columbia, SC11
6/24/2009                                                                                                                                                                                              $1,400,000.00
12/19/2008                                                $49,045,470.38                                                     $0.00
              Seacoast Banking
4/3/2012      Corporation of            $50,000,000.00                         $41,020,000.00     ($615,300.00)                          2,000      $20,510.00     ($8,980,000.00)                                     $10.93                       $8,585,770.38
              Florida, Stuart, FL
5/30/2012                                                                                                                                                                                                $55,000.00
12/23/2008    Seacoast                                     $2,153,780.00                                                     $0.00
              Commerce Bank,
                                         $1,800,000.00                                                                                                                                                                 $10.04                         $263,780.00
9/1/2011      Chula Vista,                                                      $1,800,000.00                                            1,800       $1,000.00                                           $90,000.00
              CA8,14,44
2/13/2009                                                  $1,983,756.24                                                     $0.00
12/10/2012    Security                                                            $174,537.72                                              252         $692.60         ($77,462.28)
              Bancshares of
12/11/2012    Pulaski County,            $2,152,000.00                          $1,315,959.00                                            1,900         $692.60       ($584,041.00)                       $69,186.80                                   $449,072.72
              Inc., Waynesville,
1/11/2013     MO8,14                                                                               ($14,904.97)
3/26/2013                                                                                          ($10,095.03)
1/9/2009      Security Business                            $6,888,017.86                                                     $0.00
              Bancorp, San               $5,803,000.00                                                                                                                                                                                                $795,017.86
7/14/2011     Diego, CA8,14,44                                                  $5,803,000.00                                            5,803       $1,000.00                                          $290,000.00

1/9/2009      Security California                          $8,152,698.33                                                     $0.00
              Bancorp,                   $6,815,000.00                                                                                                                                                                 $10.50                         $996,698.33
9/15/2011     Riverside, CA8,14,44                                              $6,815,000.00                                            6,815       $1,000.00                                          $341,000.00

6/26/2009     Security Capital                            $19,063,111.00                                                     $0.00
              Corporation,
                                        $17,388,000.00                                                                                                                                                                                              $1,153,111.00
9/29/2010     Batesville,                                                      $17,388,000.00                                           17,388       $1,000.00                                          $522,000.00
              MS8,11,14,36
                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                           Number     Average Price                                                       Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/19/2008                                               $19,650,000.00                                                     $0.00
              Security Federal
9/29/2010     Corporation,             $18,000,000.00                         $18,000,000.00                                            18,000       $1,000.00                                                          $15.50                       $1,600,000.00
              Aiken, SC11,36
7/31/2013                                                                                                                                                                                                 $50,000.00
2/20/2009     Security State                             $14,888,679.86                                                     $0.00
              Bancshares,
                                       $12,500,000.00                                                                                                                                                                                                $1,763,679.86
9/22/2011     Inc., Charleston,                                               $12,500,000.00                                            12,500       $1,000.00                                           $625,000.00
              MO8,14,44
5/1/2009      Security State                             $14,543,635.13                                                     $0.00
              Bank Holding-
6/24/2013     Company,                 $10,750,000.00                         $10,750,000.00                                         10,750,000          $1.17                         $1,784,607.50     $720,368.55                                 $1,414,005.16
              Jamestown,
7/26/2013     ND14,15                                                                            ($125,346.08)

11/21/2008                                               $26,915,463.85                                                     $0.00
              Severn Bancorp,
9/25/2013     Inc., Annapolis,         $23,393,000.00                         $23,367,267.70                                            23,393         $998.90         ($25,732.30)                                      $4.54         556,976       $3,781,868.83
              MD
10/29/2013                                                                                       ($233,672.68)
1/9/2009                                                 $25,358,333.33                                                     $0.00
              Shore
4/15/2009     Bancshares, Inc.,        $25,000,000.00                         $25,000,000.00                                            25,000       $1,000.00                                                           $9.00         172,970         $333,333.33
              Easton, MD11
11/16/2011                                                                                                                                                                                                $25,000.00
6/26/2009     Signature                                   $1,994,587.59                                                     $0.00
              Bancshares, Inc.,         $1,700,000.00                                                                                                                                                                                                  $209,587.59
12/15/2010    Dallas, TX11,14,15                                               $1,700,000.00                                          1,700,000          $1.00                                            $85,000.00

12/12/2008                                              $132,967,606.41                                                     $0.00
              Signature Bank,
3/31/2009                             $120,000,000.00                        $120,000,000.00                                           120,000       $1,000.00                                                          $112.06                      $1,816,666.67
              New York, NY11
3/16/2010                                                                                                                                                                                              $11,150,939.74
1/16/2009     Somerset                                    $7,816,685.55                                                     $0.00
              Hills Bancorp,
5/20/2009                               $7,414,000.00                          $7,414,000.00                                             7,414       $1,000.00                                                          $12.07                         $127,685.55
              Bernardsville,
6/24/2009     NJ11                                                                                                                                                                                       $275,000.00
2/20/2009     Sonoma Valley                                 $347,164.00                                                     $0.00
              Bancorp,                  $8,653,000.00                                                                                                                                                                                                  $347,164.00
8/20/2010     Sonoma, CA8,32,97                                                                                                                                     ($8,653,000.00)

1/9/2009      Sound Banking                               $3,575,224.44                                                     $0.00
              Company,
11/13/2012                              $3,070,000.00                          $2,832,412.70                                             3,070         $922.60        ($237,587.30)                      $124,412.34     $7.85                         $643,399.40
              Morehead City,
1/11/2013     NC8,14                                                                              ($25,000.00)
12/5/2008     South Financial                           $146,965,329.86                                                     $0.00
              Group, Inc.,            $347,000,000.00                                                                                                                                                                                               $16,386,111.11
9/30/2010     Greenville, SC                                                 $130,179,218.75                                           130,179       $1,000.00    ($216,820,781.25)                      $400,000.00

7/17/2009                                                $13,109,014.25                                                     $0.00
              SouthCrest
3/8/2013      Financial Group,                                                 $1,814,620.00                                              2,000        $907.30        ($185,380.00)
                                       $12,900,000.00                                                                                                                                                                    $4.99                         $933,494.05
3/11/2013     Inc., Fayetteville,                                              $9,889,679.00                                            10,900         $907.30      ($1,010,321.00)                      $588,264.19
              GA8,14
4/9/2013                                                                                         ($117,042.99)
1/16/2009     Southern                                   $11,855,555.56                                                     $0.00
              Bancorp, Inc.,
                                       $11,000,000.00                                                                                                                                                                                                  $855,555.56
8/6/2010      Arkadelphia,                                                    $11,000,000.00                                            11,000       $1,000.00
              AR9,11,36
12/5/2008     Southern                                   $51,088,046.14                                                     $0.00
              Community
              Financial Corp.,         $42,750,000.00                                                                                                                                                                    $3.33                       $8,338,046.14
10/1/2012     Winston-Salem,                                                  $42,750,000.00                                            42,750       $1,000.00
              NC
2/27/2009                                                $19,401,361.89                                                     $0.00
              Southern First
7/3/2012      Bancshares, Inc.,        $17,299,000.00                         $15,638,296.00     ($234,574.44)                          17,299         $904.00      ($1,660,704.00)                                     $13.94                       $2,897,640.33
              Greenville, SC
7/25/2012                                                                                                                                                                                               $1,100,000.00
5/15/2009     Southern Heritage                           $5,718,111.14                                                     $0.00
              Bancshares,
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                        $4,862,000.00                                                                                                                                                                                                  $613,111.14
9/8/2011      Inc., Cleveland,                                                 $4,862,000.00                                             4,862       $1,000.00                                           $243,000.00
              TN8,14,45
1/23/2009     Southern Illinois                           $5,955,472.22                                                     $0.00
              Bancorp, Inc.,            $5,000,000.00                                                                                                                                                                                                  $705,472.22
8/25/2011     Carmi, IL8,14,44                                                 $5,000,000.00                                             5,000       $1,000.00                                           $250,000.00

                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       443
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                                444
                                                                            Capital Repayment                                             Number     Average Price                                                       Stock Price       Current
Transaction                                                                     / Disposition /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/5/2008     Southern Missouri                           $10,804,763.89                                                       $0.00
              Bancorp, Inc.,
                                        $9,550,000.00                                                                                                                                                                      $35.88         115,637       $1,254,763.89
7/21/2011     Poplar Bluff,                                                     $9,550,000.00                                               9,550       $1,000.00
              MO44
              SouthFirst
6/12/2009     Bancshares, Inc.,         $2,760,000.00        $364,796.34                                               $2,760,000.00                                                                                        $3.30                         $364,796.34
              Sylacauga, AL8
12/5/2008                                                 $85,247,569.91                                                       $0.00
              Southwest
8/8/2012      Bancorp, Inc.,           $70,000,000.00                          $70,000,000.00                                              70,000       $1,000.00                                                          $16.40                      $12,960,372.91
              Stillwater, OK11
5/29/2013                                                                                                                                                                                                  $2,287,197.00
3/13/2009     Sovereign                                   $21,632,668.61                                                       $0.00
              Bancshares, Inc.,        $18,215,000.00                                                                                                                                                                                                   $2,506,668.61
9/22/2011     Dallas, TX8,14,44                                                $18,215,000.00                                              18,215       $1,000.00                                           $911,000.00

3/27/2009                                                 $11,803,691.75                                                       $0.00
              Spirit BankCorp,
10/21/2013                             $30,000,000.00                           $9,000,000.00                                              30,000         $300.00     ($21,000,000.00)                      $631,941.75                                 $2,261,750.00
              Inc., Bristow, OK8
1/6/2014                                                                                             ($90,000.00)
              St. Johns
3/13/2009     Bancshares, Inc.,         $3,000,000.00        $916,533.00                                               $3,000,000.00                                                                                                                      $916,533.00
              St. Louis, MO8
4/24/2009     Standard                                    $75,757,163.03                                                       $0.00
              Bancshares, Inc.,
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                       $60,000,000.00                                                                                                                                                                                                  $12,757,163.03
2/22/2013     Hickory Hills,                                                   $60,000,000.00                                           12,903,226      $1,432.56                         $3,000,000.00
              IL8,14,74
12/5/2008     State Bancorp,                              $42,414,352.50                                                       $0.00
              Inc./Valley
                                       $36,842,000.00
12/14/2011    National Bancorp,                                                $36,842,000.00                                              36,842       $1,000.00
              Jericho, NY11,61
9/4/2009      State Bank of                                $2,030,299.18                                                       $0.00
              Bartley,Bartley,          $1,697,000.00                                                                                                                                                                                                     $282,299.18
9/22/2011     NE15,17,44                                                        $1,697,000.00                                            1,697,000          $1.00                                            $51,000.00

1/16/2009                                                 $58,008,472.23                                                       $0.00
              State Bankshares,
8/12/2009     Inc., Fargo,             $50,000,000.00                          $12,500,000.00                                              12,500       $1,000.00                                                                                       $5,508,472.23
              ND8,11
6/29/2011                                                                      $37,500,000.00                                              37,500       $1,000.00                                          $2,500,000.00
2/13/2009     State Capital                               $17,080,708.67                                                       $0.00
              Corporation,
                                       $15,000,000.00                                                                                                                                                                                                   $1,330,708.67
9/29/2010     Greenwood,                                                       $15,000,000.00                                              15,000       $1,000.00                                           $750,000.00
              MS8,11,36
10/28/2008                                              $2,123,611,111.12                                                      $0.00
              State Street
6/17/2009     Corporation,          $2,000,000,000.00                       $2,000,000,000.00                                              20,000     $100,000.00                                                          $73.61                      $63,611,111.12
              Boston, MA12,16
7/8/2009                                                                                                                                                                                                  $60,000,000.00
6/26/2009     Stearns Financial                           $31,495,442.29                                                       $0.00
              Services, Inc., St.      $24,900,000.00                                                                                                                                                                                                   $5,350,442.29
1/18/2012     Cloud, MN11,14,15                                                $24,900,000.00                                           24,900,000          $1.00                                          $1,245,000.00

9/25/2009     Steele Street                               $13,078,672.60                                                       $0.00
              Bank Corporation,        $11,019,000.00                                                                                                                                                                                                   $1,728,672.60
9/1/2011      Denver, CO15,17,45                                               $11,019,000.00                                           11,019,000          $1.00                                           $331,000.00

12/19/2008                                                $37,191,875.00                                                       $0.00
              StellarOne
4/13/2011     Corporation,                                                      $7,500,000.00                                                7,500      $1,000.00
                                       $30,000,000.00                                                                                                                                                                      $24.07                       $4,271,875.00
12/28/2011    Charlottesville,                                                 $22,500,000.00                                              22,500       $1,000.00
              VA11
12/18/2013                                                                                                                                                                                                 $2,920,000.00
12/23/2008                                                $47,869,108.33                                                       $0.00
              Sterling Bancorp,
4/27/2011                              $42,000,000.00                          $42,000,000.00                                              42,000       $1,000.00                                                          $12.79                       $4,923,333.33
              New York, NY11
5/18/2011                                                                                                                                                                                                   $945,775.00
12/12/2008                                               $130,542,485.91                                                       $0.00
              Sterling
5/5/2009      Bancshares, Inc.,       $125,198,000.00                         $125,198,000.00                                             125,198       $1,000.00                                                                                       $2,486,571.39
              Houston, TX11
6/15/2010                                                                                                                                                                                                  $2,857,914.52
12/5/2008                                                $121,757,209.63                                                       $0.00
              Sterling Financial
8/20/2012     Corporation,            $303,000,000.00                         $114,772,740.00     ($1,434,659.25)                        5,738,637         $20.00    ($188,227,260.00)                                     $33.10                       $7,594,128.88
              Spokane, WA31
9/19/2012                                                                                                                                                                                                   $825,000.00
                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                             Number     Average Price                                               Stock Price       Current
Transaction                                                                     / Disposition /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/30/2009     Stewardship                                 $11,400,453.22                                                       $0.00
              Financial
9/1/2011      Corporation,             $10,000,000.00                          $10,000,000.00                                              10,000       $1,000.00                                                   $4.44                       $1,293,055.22
              Midland Park,
10/26/2011    NJ44                                                                                                                                                                                  $107,398.00

2/6/2009      Stockmens                                   $18,101,553.84                                                       $0.00
              Financial
1/12/2011     Corporation,             $15,568,000.00                           $4,000,000.00                                                4,000      $1,000.00                                                                               $1,755,553.84
              Rapid City,
3/16/2011     SD8,11,14                                                        $11,568,000.00                                              11,568       $1,000.00                                   $778,000.00

1/23/2009                                                  $2,652,816.96                                                       $0.00
              Stonebridge
3/26/2013     Financial Corp.,                                                  $1,796,209.03                                              10,351         $173.50     ($8,554,790.97)               $130,704.17
                                       $10,973,000.00                                                                                                                                                                                             $634,609.11
3/27/2013     West Chester,                                                       $107,935.66                                                 622         $173.50       ($514,064.34)                  $8,358.99
              PA8,14
4/9/2013                                                                                             ($25,000.00)
              Suburban Illinois
6/19/2009     Bancorp, Inc.,           $15,000,000.00      $2,083,520.25                                              $15,000,000.00                                                                                                            $2,083,520.25
              Elmhurst, IL15
12/19/2008                                                 $9,930,625.00                                                       $0.00
              Summit State
8/4/2011      Bank, Santa               $8,500,000.00                           $8,500,000.00                                               8,500       $1,000.00                                                  $12.97                       $1,115,625.00
              Rosa, CA44
9/14/2011                                                                                                                                                                                           $315,000.00
1/9/2009                                                  $92,513,970.83                                                       $0.00
              Sun Bancorp,
4/8/2009      Inc., Vineland,          $89,310,000.00                          $89,310,000.00                                              89,310       $1,000.00                                                  $18.11                       $1,103,970.83
              NJ11
5/27/2009                                                                                                                                                                                          $2,100,000.00
11/14/2008                          $3,500,000,000.00   $5,448,052,772.51                                                      $0.00
12/31/2008    SunTrust Banks,       $1,350,000,000.00
                                                                                                                                                                                                                   $38.03                    $567,986,111.11
3/30/2011     Inc., Atlanta, GA11                                           $4,850,000,000.00                                              48,500     $100,000.00
9/28/2011                                                                                                                                                                                         $30,066,661.40
12/5/2008     Superior Bancorp                             $4,983,333.33                                                       $0.00
              Inc., Birmingham,        $69,000,000.00                                                                                                                                                                                           $4,983,333.33
4/15/2011     AL24,49,97                                                                                                                                             ($69,000,000.00)

1/9/2009      Surrey Bancorp,                              $2,314,972.22                                                       $0.00
              Mount Airy,               $2,000,000.00                                                                                                                                                              $14.75                         $214,972.22
12/29/2010    NC8,11,14                                                         $2,000,000.00                                               2,000       $1,000.00                                   $100,000.00

12/12/2008                                               $328,991,401.58                                                       $0.00
4/21/2010     Susquehanna                                                     $200,000,000.00                                             200,000       $1,000.00
              Bancshares, Inc,        $300,000,000.00                                                                                                                                                              $10.00                      $23,722,222.22
12/22/2010    Lititz, PA11                                                    $100,000,000.00                                             100,000       $1,000.00
1/19/2011                                                                                                                                                                                          $5,269,179.36
4/10/2009     SV Financial, Inc.,                          $4,721,382.89                                                       $0.00
                                        $4,000,000.00                                                                                                                                                                                             $521,382.89
8/31/2011     Sterling, IL8,11,14                                               $4,000,000.00                                               4,000       $1,000.00                                   $200,000.00
12/12/2008                                               $253,929,027.78                                                       $0.00
              SVB Financial
12/23/2009    Group, Santa            $235,000,000.00                         $235,000,000.00                                             235,000       $1,000.00                                                  $112.09                     $12,109,027.78
              Clara, CA12,16
6/16/2010                                                                                                                                                                                          $6,820,000.00
5/8/2009      Sword Financial                             $17,019,233.91                                                       $0.00
              Corporation,             $13,644,000.00                                                                                                                                                                                           $2,693,233.91
9/15/2011     Horicon, WI14,15,44                                              $13,644,000.00                                           13,644,000          $1.00                                   $682,000.00

12/19/2008    Synovus Financial                         $1,190,614,526.39                                                      $0.00
              Corp., Columbus,        $967,870,000.00                                                                                                                                                              $23.64       2,215,820    $222,744,526.39
7/26/2013     GA11                                                            $967,870,000.00                                             967,870       $1,000.00

1/16/2009     Syringa Bancorp,                               $253,122.22                                                       $0.00
                                        $8,000,000.00                                                                                                                                                               $0.01                         $253,122.22
1/31/2014     Boise, ID8,103                                                                                                                                          ($8,000,000.00)
11/21/2008                                               $120,845,170.80                                                       $0.00
              Taylor Capital
6/19/2012     Group, Rosemont,        $104,823,000.00                          $93,659,350.50     ($1,404,890.26)                         104,823         $893.50    ($11,163,649.50)                              $21.05                      $18,751,437.56
              IL
                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




7/18/2012                                                                                                                                                                                          $9,839,273.00
8/28/2009     TCB Corporation,                            $11,611,381.34                                                       $0.00
              Greenwood,                $9,720,000.00                                                                                                                                                                                           $1,599,381.34
9/8/2011      SC15,17,45                                                        $9,720,000.00                                            9,720,000          $1.00                                   $292,000.00

                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                  445
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)                                                                                                                                                                         446
                                                                           Capital Repayment                                          Number     Average Price                                                   Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                  as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)        Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/16/2009     TCB Holding                                   $690,832.08                                                     $0.00
              Company, Texas
              Community Bank,          $11,730,000.00                                                                                                                                                                                             $690,832.08
12/13/2013    The Woodlands,                                                                                                                                     ($11,730,000.00)
              TX8,97,100
11/14/2008                                              $378,547,699.45                                                     $0.00
              TCF Financial
4/22/2009     Corporation,            $361,172,000.00                        $361,172,000.00                                          361,172       $1,000.00                                                      $15.53                       $7,925,718.89
              Wayzata, MN11
12/21/2009                                                                                                                                                                                         $9,449,980.56
12/23/2008    TCNB Financial                              $2,384,611.11                                                     $0.00
              Corp., Dayton,            $2,000,000.00                                                                                                                                                                                             $284,611.11
8/3/2011      OH8,11,14                                                        $2,000,000.00                                            2,000       $1,000.00                                       $100,000.00

12/19/2008    Tennessee                                   $3,233,333.33                                                     $0.00
              Commerce
                                       $30,000,000.00                                                                                                                                                                                           $3,233,333.33
1/27/2012     Bancorp, Inc.,                                                                                                                                     ($30,000,000.00)
              Franklin, TN63,97
12/23/2008                                                $3,331,713.17                                                     $0.00
              Tennessee
4/26/2013     Valley Financial                                                   $298,000.00                                              298       $1,022.10                          $6,588.78     $19,218.87
                                        $3,000,000.00                                                                                                                                                                                             $146,241.67
4/29/2013     Holdings, Inc.,                                                  $2,702,000.00                                            2,702       $1,022.10                         $59,741.22    $124,922.63
              Oak Ridge, TN8,14
5/31/2013                                                                                         ($25,000.00)
1/16/2009                                                $82,777,816.21                                                     $0.00
              Texas Capital
                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




5/13/2009     Bancshares, Inc.,        $75,000,000.00                         $75,000,000.00                                           75,000       $1,000.00                                                      $57.68                       $1,218,750.00
              Dallas, TX11
3/17/2010                                                                                                                                                                                          $6,559,066.21
1/9/2009      Texas National                              $4,475,307.67                                                     $0.00
              Bancorporation,
                                        $3,981,000.00                                                                                                                                                                                             $295,307.67
5/19/2010     Jacksonville,                                                    $3,981,000.00                                            3,981       $1,000.00                                       $199,000.00
              TX8,11,14
8/7/2009      The ANB                                    $23,234,499.98                                                     $0.00
              Corporation,             $20,000,000.00                                                                                                                                                                                           $2,234,499.98
8/25/2011     Terrell, TX8,14,44                                              $20,000,000.00                                           20,000       $1,000.00                                      $1,000,000.00

12/12/2008                                               $52,787,673.44                                                     $0.00
              The Bancorp,
3/10/2010     Inc., Wilmington,        $45,220,000.00                         $45,220,000.00                                           45,220       $1,000.00                                                       $8.59                       $2,813,688.89
              DE12,16
9/8/2010                                                                                                                                                                                           $4,753,984.55
2/6/2009      The Bank of                                 $1,912,684.00                                                     $0.00
              Currituck,                $4,021,000.00                                                                                                                                                                                             $169,834.00
12/3/2010     Moyock, NC8                                                      $1,742,850.00                                            4,021         $433.40     ($2,278,150.00)

2/13/2009     The Bank                                   $40,091,342.55                                                     $0.00
              of Kentucky
12/22/2010    Financial                                                       $17,000,000.00                                           17,000       $1,000.00
                                       $34,000,000.00                                                                                                                                                              $46.23         276,078       $3,940,694.00
11/23/2011    Corporation,                                                    $17,000,000.00                                           17,000       $1,000.00
              Crestview Hills,
5/29/2013     KY11                                                                                                                                                                                 $2,150,648.55

1/16/2009                                                $18,023,831.85                                                     $0.00
12/10/2012    The Baraboo                                                      $1,956,900.00                                            3,000         $652.30     ($1,043,100.00)                   $403,161.92
              Bancorporation,          $20,749,000.00                                                                                                                                                               $2.25                       $3,766,126.61
12/11/2012    Baraboo, WI8,14                                                 $11,577,672.70                                           17,749         $652.30     ($6,171,327.30)                   $455,316.35
1/11/2013                                                                                        ($135,345.73)
12/19/2008    The Connecticut                             $6,902,866.33                                                     $0.00
              Bank and Trust
                                        $5,448,000.00                                                                                                                                                                                             $662,083.33
4/19/2012     Company,                                                         $5,448,000.00                                            5,448       $1,000.00                                       $792,783.00
              Hartford, CT
12/19/2008    The Elmira                                 $10,309,575.00                                                     $0.00
              Savings Bank,             $9,090,000.00                                                                                                                                                              $22.25         150,613       $1,219,575.00
8/25/2011     FSB, Elmira, NY44                                                $9,090,000.00                                            9,090       $1,000.00

1/9/2009                                                 $29,332,986.11                                                     $0.00
              The First
8/24/2011     Bancorp, Inc.,                                                  $12,500,000.00                                           12,500       $1,000.00
                                       $25,000,000.00                                                                                                                                                              $16.46         225,904       $4,332,986.11
3/27/2013     Damariscotta,                                                    $2,500,000.00                                            2,500       $1,000.00
              ME11
5/8/2013                                                                      $10,000,000.00                                           10,000       $1,000.00
2/6/2009      The First                                   $5,411,805.56                                                     $0.00
              Bancshares,
                                        $5,000,000.00                                                                                                                                                                              54,705         $411,805.56
9/29/2010     Inc., Hattiesburg,                                               $5,000,000.00                                            5,000       $1,000.00
              MS11,36
2/27/2009     The First State                               $813,086.56                                                     $0.00
              Bank of Mobeetie,           $731,000.00                                                                                                                                                                                              $45,086.56
4/14/2010     Mobeetie, TX8,11,14                                                $731,000.00                                              731       $1,000.00                                        $37,000.00

                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)
                                                                            Capital Repayment                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                     / Disposition /                   Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
2/6/2009      The Freeport                                   $379,458.89                                                     $0.00
              State Bank,                 $301,000.00                                                                                                                                                                                             $63,458.89
12/19/2012    Harper, KS8,11,14                                                   $301,000.00                                               301       $1,000.00                                     $15,000.00

6/26/2009     The Hartford                              $4,236,125,671.00                                                    $0.00
              Financial Services
3/31/2010                           $3,400,000,000.00                       $3,400,000,000.00                                          3,400,000      $1,000.00                                                                             $129,861,111.11
              Group, Inc.
9/27/2010     Hartford CT11                                                                                                                                                                     $706,264,559.89
5/22/2009     The Landrum                                 $17,580,291.55                                                     $0.00
              Company,
                                       $15,000,000.00                                                                                                                                                                                          $1,830,291.55
8/18/2011     Columbia,                                                        $15,000,000.00                                            15,000       $1,000.00                                    $750,000.00
              MO8,14,44
12/23/2008                                                 $9,232,652.17                                                     $0.00
              The Little Bank,
10/31/2012    Incorporated,             $7,500,000.00                           $7,359,000.00                                             7,500         $981.20       ($141,000.00)                $371,250.00                                 $1,575,992.17
              Kinston, NC8,14
1/11/2013                                                                                          ($73,590.00)
12/31/2008    The PNC Financial                         $8,320,638,950.83                                                    $0.00
              Services Group
2/10/2010                           $7,579,200,000.00                       $7,579,200,000.00                                         $75,792.00    $100,000.00                                                   $85.58                    $421,066,666.67
              Inc., Pittsburgh,
5/5/2010      PA11                                                                                                                                                                              $320,372,284.16
2/20/2009     The Private Bank                             $6,474,752.14                                                     $0.00
              of California, Los        $5,450,000.00                                                                                                                                                                                            $751,752.14
9/1/2011      Angeles, CA8,14,44                                                $5,450,000.00                                             5,450       $1,000.00                                    $273,000.00

1/9/2009                                                  $13,065,246.00                                                     $0.00
              The
3/8/2013      Queensborough                                                       $244,225.00                                               250         $976.90          ($5,775.00)                  $4,806.45
                                       $12,000,000.00                                                                                                                                                                                            $882,900.00
3/11/2013     Company,                                                         $11,478,575.00                                            11,750         $976.90       ($271,425.00)                $571,967.55
              Louisville, GA8,14
4/9/2013                                                                                          ($117,228.00)
2/27/2009     The Victory                 $541,000.00      $2,322,183.20                                                     $0.00
              Bancorp, Inc.,
12/11/2009                              $1,505,000.00                                                                                                                                                                                            $215,183.20
              Limerick,
9/22/2011     PA8,18,21,44                                                      $2,046,000.00                                             2,046       $1,000.00                                     $61,000.00
1/23/2009     Three Shores                                 $6,449,130.64                                                     $0.00
              Bancorporation,
11/8/2012     Inc. (Seaside                                                     $1,165,528.32                                             1,312         $888.40       ($146,471.68)
                                        $5,677,000.00                                                                                                                                                                                          $1,174,058.48
11/9/2012     National Bank &                                                   $3,877,691.40                                             4,365         $888.40       ($487,308.60)                $282,284.64
              Trust), Orlando,
1/11/2013     FL8,21                                                                               ($50,432.20)

12/5/2008     TIB Financial                               $13,444,359.59                                                     $0.00
                                       $37,000,000.00                                                                                                                                                             $13.81                       $1,284,722.22
9/30/2010     Corp, Naples, FL                                                 $12,119,637.37                                            12,120       $1,000.00    ($24,880,362.63)                 $40,000.00
              Tidelands
              Bancshares, Inc,
12/19/2008                             $14,448,000.00      $1,195,973.33                                            $14,448,000.00                                                                                               571,821       $1,195,973.33
              Mount Pleasant,
              SC
4/17/2009     Tifton Banking                                 $223,208.00                                                     $0.00
              Company, Tifton,          $3,800,000.00                                                                                                                                                                                            $223,208.00
11/12/2010    GA8,47,97                                                                                                                                             ($3,800,000.00)

12/23/2008                                                $18,857,818.52                                                     $0.00
11/8/2012                                                                       $3,290,437.50                                             3,815         $862.50       ($524,562.50)
11/9/2012     Timberland                                                        $1,580,962.50                                             1,833         $862.50       ($252,037.50)
              Bancorp, Inc.,           $16,641,000.00                                                                                                                                                             $10.54                       $3,346,628.65
11/13/2012    Hoquiam, WA                                                       $9,481,462.50                                            10,993         $862.50     ($1,511,537.50)
1/11/2013                                                                                         ($143,528.63)
6/11/2013                                                                                                                                                                                         $1,301,856.00
4/3/2009      Titonka                                      $2,569,490.36                                                     $0.00
              Bancshares, Inc,          $2,117,000.00                                                                                                                                                                                            $346,490.36
4/4/2012      Titonka, IA8,11,14                                                $2,117,000.00                                             2,117       $1,000.00                                    $106,000.00

2/6/2009      Todd Bancshares,                             $5,210,672.22                                                     $0.00
              Inc., Hopkinsville,       $4,000,000.00                                                                                                                                                                                          $1,010,672.22
9/25/2013     KY8                                                               $4,000,000.00                                             4,000       $1,000.00                                    $200,000.00

12/12/2008                                                $88,577,166.67                                                     $0.00
                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




              TowneBank,
9/22/2011                              $76,458,000.00                          $76,458,000.00                                            76,458       $1,000.00                                                   $13.58                      $10,619,166.67
              Portsmouth, VA45
5/15/2013                                                                                                                                                                                         $1,500,000.00
                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                 447
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)                                                                                                                                                                      448
                                                                           Capital Repayment                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                    / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date          Institution          Investment Amount    Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales 9/30/2014       Warrants     Paid to Treasury
1/16/2009                                                   $842,415.03                                                     $0.00
              Treaty Oak
2/15/2011     Bancorp, Inc.,           $3,268,000.00                             $500,000.00                                            3,118         $155.47      ($2,618,000.00)                               $0.35       3,098,341         $192,415.03
              Austin, TX8
12/21/2012                                                                       $150,000.00                                          150,000           $1.00
3/27/2009     Triad Bancorp,                              $4,386,324.64                                                     $0.00
              Inc., Frontenac,         $3,700,000.00                                                                                                                                                                                           $501,324.64
9/22/2011     MO8,14,44                                                        $3,700,000.00                                            3,700       $1,000.00                                    $185,000.00

12/19/2008    Tri-County                                 $18,653,115.75                                                     $0.00
              Financial
                                      $15,540,000.00                                                                                                                                                                                         $2,336,115.75
9/22/2011     Corporation,                                                    $15,540,000.00                                           15,540       $1,000.00                                    $777,000.00
              Waldorf, MD8,14,44
3/27/2009                                                $34,644,476.74                                                     $0.00
8/7/2012                                                                       $2,639,379.50                                            3,518         $750.20        ($878,620.50)               $163,062.90
              Trinity Capital
8/9/2012      Corporation , Los       $35,539,000.00                           $7,038,845.50                                            9,382         $750.20      ($2,343,154.50)              $1,300,776.05                                $6,592,186.06
              Alamos, NM8,14
8/10/2012                                                                     $16,984,909.75                                           22,639         $750.20      ($5,654,090.25)               $191,948.33
9/11/2012                                                                                        ($266,631.35)
4/3/2009      Tri-State Bank                              $2,985,215.11                                                     $0.00
              of Memphis,              $2,795,000.00                                                                                                                                                                                           $190,215.11
8/13/2010     Memphis, TN8,9,11                                                $2,795,000.00                                            2,795       $1,000.00

2/27/2009     TriState Capital                           $28,642,402.33                                                     $0.00
              Holdings, Inc.,         $23,000,000.00                                                                                                                                                                                         $4,492,402.33
9/26/2012                                                                     $23,000,000.00                                           23,000       $1,000.00                                   $1,150,000.00
                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




              Pittsburgh, PA8,11
4/3/2009                               $2,765,000.00      $6,496,417.16                                                     $0.00
12/22/2009    TriSummit Bank,          $4,237,000.00
              Kingsport,                                                                                                                                                                                                                     $1,172,766.41
11/29/2012    TN8,14,18                                                        $5,251,500.00                                            7,002         $750.00      ($1,750,500.00)               $124,665.75
1/11/2013                                                                                         ($52,515.00)
11/21/2008                                              $236,287,500.00                                                     $0.00
              Trustmark
12/9/2009     Corporation,           $215,000,000.00                         $215,000,000.00                                          215,000       $1,000.00                                                   $23.04                      $11,287,500.00
              Jackson, MS11
12/30/2009                                                                                                                                                                                     $10,000,000.00
5/29/2009     Two Rivers                                 $14,075,133.27                                                     $0.00
              Financial Group,
                                      $12,000,000.00                                                                                                                                                            $22.25                       $1,475,133.27
9/1/2011      Burlington,                                                     $12,000,000.00                                           12,000       $1,000.00                                    $600,000.00
              IA8,14,44
11/14/2008                                             $6,933,220,416.67                                                    $0.00
              U.S. Bancorp,
6/17/2009     Minneapolis,         $6,599,000,000.00                       $6,599,000,000.00                                         6,599,000      $1,000.00                                                   $41.83                    $195,220,416.67
              MN11
7/15/2009                                                                                                                                                                                     $139,000,000.00
              U.S. Century
8/7/2009                              $50,236,000.00        $745,311.72                                            $50,236,000.00                                                                                                              $745,311.72
              Bank, Miami, FL8
1/30/2009     UBT Bancshares,                            $10,634,911.78                                                     $0.00
              Inc., Marysville,        $8,950,000.00                                                                                                                                                                                         $1,234,911.78
8/11/2011     KS8,14,44                                                        $8,950,000.00                                            8,950       $1,000.00                                    $450,000.00

11/14/2008    UCBH Holdings,                              $7,509,920.07                                                     $0.00
              Inc., San              $298,737,000.00                                                                                                                                                                                         $7,509,920.07
11/6/2009     Francisco, CA22,97                                                                                                                                 ($298,737,000.00)

11/14/2008                                              $232,156,554.58                                                     $0.00
              Umpqua Holdings
2/17/2010     Corp., Portland,       $214,181,000.00                         $214,181,000.00                                          214,181       $1,000.00                                                   $16.47                      $13,475,554.58
              OR12,16
3/31/2010                                                                                                                                                                                       $4,500,000.00
5/1/2009      Union Bank &             $3,194,000.00      $7,031,291.65                                                     $0.00
              Trust Company,
12/18/2009                             $2,997,000.00                                                                                                                                                                                           $680,291.65
              Oxford,
9/22/2011     NC8,14,18,44,45                                                  $6,191,000.00                                            6,191       $1,000.00                                    $160,000.00
12/29/2009    Union Financial                             $2,639,873.33                                                     $0.00
              Corporation,
7/25/2012                              $2,179,000.00                             $600,000.00                                              600       $1,000.00                                                                                  $395,873.33
              Albuquerque,
10/2/2013     NM8,11,17                                                        $1,579,000.00                                            1,579       $1,000.00                                     $65,000.00
12/19/2008    Union First Market                         $62,145,972.22                                                     $0.00
              Bankshares
11/18/2009    Corporation,            $59,000,000.00                          $59,000,000.00                                           59,000       $1,000.00                                                   $23.10                       $5,239,859.35
              Bowling Green,
12/23/2009    VA12,16,25                                                                                                                                                                         $450,000.00

                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                      (CONTINUED)
                                                                           Capital Repayment                                             Number     Average Price                                              Stock Price       Current
Transaction                                                                    / Disposition /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                             as of      Outstanding   Dividend/Interest
Date          Institution           Investment Amount   Total Cash Back2            Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales 9/30/2014       Warrants     Paid to Treasury
2/20/2009                                                 $3,432,657.85                                                       $0.00
              United American
7/2/2014      Bank, San Mateo,          $8,700,000.00                          $3,319,050.00                                               8,700         $381.50     ($5,380,950.00)              $138,607.85
              CA8
9/26/2014                                                                                           ($25,000.00)
1/16/2009                                                $20,315,924.72                                                       $0.00
              United Bancorp,
6/19/2012     Inc., Tecumseh,          $20,600,000.00                         $17,005,300.00      ($255,079.50)                           20,600         $825.50     ($3,594,700.00)                              $8.06                       $3,527,704.22
              MI
7/18/2012                                                                                                                                                                                          $38,000.00
12/23/2008    United                                     $11,172,638.89                                                       $0.00
              Bancorporation
                                       $10,300,000.00                                                                                                                                                                           108,264         $872,638.89
9/3/2010      of Alabama, Inc.,                                               $10,300,000.00                                              10,300       $1,000.00
              Atmore, AL11,36
5/22/2009     United Bank                                $18,882,079.62                                                       $0.00
              Corporation,
                                       $14,400,000.00                                                                                                                                                                                         $3,762,079.62
7/3/2012      Barnesville,                                                    $14,400,000.00                                           14,400,000          $1.00                                  $720,000.00
              GA11,14,15
12/5/2008                                               $210,367,527.00                                                       $0.00
3/26/2013                                                                      $1,516,900.00                                               1,576         $962.50         ($59,100.00)
3/27/2013     United Community                                                $12,587,575.00                                              13,078         $962.50       ($490,425.00)
              Banks, Inc.,            $180,000,000.00                                                                                                                                                            $16.46                      $38,843,350.00
3/28/2013     Blairsville, GA                                                $159,145,525.00                                             165,346         $962.50     ($6,200,475.00)
4/9/2013                                                                                         ($1,732,500.00)
6/10/2013                                                                                                                                                                                           $6,677.00
1/16/2009     United Financial                            $6,649,963.92                                                       $0.00
              Banking
12/15/2010                              $5,658,000.00                          $3,000,000.00                                               3,000       $1,000.00                                                 $38.50                         $708,963.92
              Companies, Inc.,
9/15/2011     Vienna, VA8,11,44                                                $2,658,000.00                                               2,658       $1,000.00                                  $283,000.00
12/5/2008                                                $28,013,814.50                                                       $0.00
5/15/2013     Unity Bancorp,                                                  $10,324,000.00                                              10,324       $1,000.00
                                       $20,649,000.00                                                                                                                                                             $9.63                       $4,657,500.50
7/3/2013      Inc., Clinton, NJ11                                             $10,325,000.00                                              10,325       $1,000.00
8/28/2013                                                                                                                                                                                        $2,707,314.00
5/22/2009                                                $12,066,668.65                                                       $0.00
8/8/2013      Universal                                                          $237,527.50                                                 250         $950.10         ($12,472.50)
              Bancorp,                  $9,900,000.00                                                                                                                                                                                         $2,278,066.92
8/12/2013     Bloomfield, IN8                                                  $9,168,561.50                                               9,650         $950.10       ($481,438.50)              $476,573.62
9/12/2013                                                                                           ($94,060.89)
6/19/2009     University                                 $12,948,886.40                                                       $0.00
              Financial Corp,
                                       $11,926,000.00                                                                                                                                                                                         $1,022,886.40
7/30/2010     Inc., St. Paul,                                                 $11,926,000.00                                           11,926,000          $1.00
              MN9,11,15
              US Metro Bank,
2/6/2009      Garden Grove,             $2,861,000.00       $432,678.00                                               $2,861,000.00                                                                               $1.65                         $432,678.00
              CA8
12/23/2008                                               $12,916,040.83                                                       $0.00
              Uwharrie Capital
4/3/2013      Corp, Albemarle,         $10,000,000.00                          $7,742,000.00                                                7,742      $1,000.00                                                  $3.45                       $2,416,040.83
              NC8,11
10/16/2013                                                                     $2,258,000.00                                                2,258      $1,000.00                                  $500,000.00
1/30/2009     Valley Commerce                             $9,403,400.50                                                       $0.00
              Bancorp, Visalia,         $7,700,000.00                                                                                                                                                            $14.92                       $1,318,400.50
3/21/2012     CA8,11,14                                                        $7,700,000.00                                               7,700       $1,000.00                                  $385,000.00

1/9/2009                                                  $2,947,090.75                                                       $0.00
              Valley Community
10/21/2013    Bank, Pleasanton,         $5,500,000.00                          $2,296,800.00                                               5,500         $417.60     ($3,203,200.00)               $45,815.25     $2.60                         $629,475.50
              CA8
1/6/2014                                                                                            ($25,000.00)
12/12/2008                                               $21,311,670.48                                                       $0.00
11/14/2012                                                                     $1,600,000.00                                                1,600      $1,000.00
2/20/2013                                                                      $1,600,000.00                                                1,600      $1,000.00
              Valley Financial
5/15/2013     Corporation,             $16,019,000.00                          $1,600,000.00                                               1,600       $1,000.00                                                                              $3,744,778.90
                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




              Roanoke, VA11
8/14/2013                                                                      $1,600,000.00                                               1,600       $1,000.00
10/16/2013                                                                     $9,619,000.00                                               9,619       $1,000.00
11/13/2013                                                                                                                                                                                       $1,547,891.58
                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                449
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                       (CONTINUED)                                                                                                                                                                    450
                                                                            Capital Repayment                                         Number     Average Price                                               Stock Price       Current
Transaction                                                                     / Disposition /                  Remaining Capital   of Shares       of Shares   (Realized Loss) /                              as of      Outstanding   Dividend/Interest
Date          Institution            Investment Amount   Total Cash Back2            Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales 9/30/2014       Warrants     Paid to Treasury
12/18/2009    Valley Financial                             $1,489,774.73                                                    $0.00
              Group, Ltd.,
                                         $1,300,000.00                                                                                                                                                                        488,847         $124,774.73
9/22/2011     1st State Bank,                                                   $1,300,000.00                                           1,300       $1,000.00                                    $65,000.00
              Saginaw, MI8,14,44
11/14/2008                                               $318,400,781.94                                                    $0.00
6/3/2009                                                                       $75,000,000.00                                          75,000       $1,000.00
              Valley National
9/23/2009     Bancorp, Wayne,          $300,000,000.00                        $125,000,000.00                                         125,000       $1,000.00                                                   $9.69                      $18,551,519.17
              NJ11
12/23/2009                                                                    $100,000,000.00                                         100,000       $1,000.00
5/24/2010                                                                                                                                                                                      $5,421,615.27
6/26/2009     Veritex Holdings,                            $3,503,795.81                                                    $0.00
              Inc.
              (Fidelity
                                         $3,000,000.00                                                                                                                                                                                        $353,795.81
8/25/2011     Resources                                                         $3,000,000.00                                           3,000       $1,000.00                                   $150,000.00
              Company), Dallas,
              TX8,41,44
5/1/2009      Village Bank and                             $6,933,870.05                                                    $0.00
              Trust Financial
11/19/2013                              $14,738,000.00                          $5,672,361.44                                          14,738         $384.90     ($9,065,638.56)                              $22.75          31,189       $1,318,232.22
              Corp, Midlothian,
1/6/2014      VA                                                                                  ($56,723.61)
12/12/2008    Virginia                                   $118,453,138.89                                                    $0.00
              Commerce
12/11/2012                              $71,000,000.00                         $71,000,000.00                                          71,000       $1,000.00                                                  $16.26                      $14,190,138.89
              Bancorp,
                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




1/31/2014     Arlington, VA11                                                                                                                                                                 $33,263,000.00
6/12/2009                                                  $3,694,442.50                                                    $0.00
8/8/2013      Virginia Company                                                    $325,353.86                                             533         $610.40       ($207,646.14)
              Bank, Newport              $4,700,000.00                                                                                                                                                                                        $786,987.25
8/12/2013     News, VA8,17                                                      $2,543,620.14                                           4,167         $610.40     ($1,623,379.86)                $63,481.25
9/12/2013                                                                                         ($25,000.00)
4/24/2009     Vision Bank                                  $1,898,258.59                                                    $0.00
              - Texas,
12/28/2012                               $1,500,000.00                            $787,500.00                                             788       $1,000.00                                                                                 $323,258.59
              Richardson,
7/10/2013     TX8,11,14                                                           $712,500.00                                             713       $1,000.00                                    $75,000.00
12/19/2008    VIST Financial                              $30,710,646.33                                                    $0.00
              Corp.,                    $25,000,000.00                                                                                                                                                         $12.16                       $4,520,833.33
8/1/2012      Wyomissing, PA                                                   $25,000,000.00                                          25,000       $1,000.00                                  $1,189,813.00

1/30/2009     W.T.B. Financial                           $131,236,874.33                                                    $0.00
              Corporation,             $110,000,000.00                                                                                                                                                                                     $15,736,874.33
9/15/2011     Spokane, WA8,14,45                                              $110,000,000.00                                         110,000       $1,000.00                                  $5,500,000.00

12/11/2009                                                $14,731,826.23                                                    $0.00
              Wachusett
4/4/2012      Financial                                                         $3,000,000.00                                           3,000       $1,000.00
                                        $12,000,000.00                                                                                                                                                                                      $2,253,826.23
1/30/2013     Services, Inc.,                                                   $4,000,000.00                                           4,000       $1,000.00
              Clinton, MA8,11,17
4/23/2014                                                                       $5,000,000.00                                           5,000       $1,000.00                                   $478,000.00
12/19/2008                                                $23,592,311.11                                                    $0.00
              Wainwright Bank
11/24/2009    & Trust Company,          $22,000,000.00                         $22,000,000.00                                          22,000       $1,000.00                                                                               $1,023,611.11
              Boston, MA11
12/16/2009                                                                                                                                                                                      $568,700.00
1/16/2009     Washington                                  $30,628,344.45                                                    $0.00
              Banking
1/12/2011                               $26,380,000.00                         $26,380,000.00                                          26,380       $1,000.00                                                  $17.20                       $2,623,344.45
              Company, Oak
3/2/2011      Harbor, WA11,16                                                                                                                                                                  $1,625,000.00
11/14/2008                                               $220,749,985.18                                                    $0.00
              Washington
5/27/2009     Federal, Inc.,           $200,000,000.00                        $200,000,000.00                                         200,000       $1,000.00                                                  $20.21                       $5,361,111.11
              Seattle, WA11
3/15/2010                                                                                                                                                                                     $15,388,874.07
1/30/2009                                $6,633,000.00    $15,317,317.86                                                    $0.00
              WashingtonFirst
10/30/2009    Bankshares, Inc.,          $6,842,000.00                                                                                                                                                                                      $1,510,317.86
              Reston, VA8,18,21,44
8/4/2011                                                                       $13,475,000.00                                          13,475       $1,000.00                                   $332,000.00
6/26/2009                                                  $6,398,893.44                                                    $0.00
2/6/2013                                                                        $4,831,002.80                                           5,212         $926.90       ($380,997.20)                $18,644.66
              Waukesha
2/7/2013      Bankshares, Inc.,          $5,625,000.00                             $92,690.00                                             100         $926.90          ($7,310.00)              $147,194.69                                 $1,071,379.72
              Waukesha, WI8,17
2/8/2013                                                                          $290,119.70                                             313         $926.90         ($22,880.30)
3/26/2013                                                                                         ($52,138.13)
                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                        (CONTINUED)
                                                                             Capital Repayment                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                      / Disposition /                   Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding    Dividend/Interest
Date          Institution          Investment Amount      Total Cash Back2            Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4     Warrant Sales 9/30/2014       Warrants      Paid to Treasury
11/21/2008                                                $457,333,286.51                                                     $0.00
3/3/2010                                                                       $100,000,000.00                                          100,000       $1,000.00
              Webster Financial
10/13/2010    Corporation,           $400,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                         $29.14                      $36,944,444.45
              Waterbury, CT11
12/29/2010                                                                     $200,000,000.00                                          200,000       $1,000.00
6/8/2011                                                                                                                                                                                               $20,388,842.06
10/28/2008                                              $27,281,347,113.95                                                    $0.00
              Wells Fargo &
12/23/2009    Co. Minneapolis,     $25,000,000,000.00                        $25,000,000,000.00                                          25,000    $1,000,000.00                                                        $51.87                    $1,440,972,222.22
              MN11
5/26/2010                                                                                                                                                                                             $840,374,891.73
12/5/2008                                                  $78,804,166.67                                                     $0.00
              WesBanco, Inc.,
9/9/2009                              $75,000,000.00                            $75,000,000.00                                           75,000       $1,000.00                                                         $30.59         100,448        $4,242,500.00
              Wheeling, WV11
12/23/2009                                                                                                                                                                                               $950,000.00
12/31/2008    West                                         $41,195,000.00                                                     $0.00
              Bancorporation,
6/29/2011                             $36,000,000.00                            $36,000,000.00                                           36,000       $1,000.00                                                         $14.13                        $4,495,000.00
              Inc., West Des
8/31/2011     Moines, IA11                                                                                                                                                                               $700,000.00
2/13/2009                                                  $87,360,236.61                                                     $0.00
9/2/2009      Westamerica                                                       $41,863,000.00                                           41,863       $1,000.00
              Bancorporation,         $83,726,000.00                                                                                                                                                                    $46.52         246,698        $2,755,980.61
11/18/2009    San Rafael, CA11                                                  $41,863,000.00                                           41,863       $1,000.00
11/21/2011                                                                                                                                                                                               $878,256.00
11/21/2008                                                $160,365,000.00                                                     $0.00
              Western Alliance
9/27/2011     Bancorporation,        $140,000,000.00                           $140,000,000.00                                          140,000       $1,000.00                                                         $23.90                      $19,950,000.00
              Las Vegas, NV44
11/23/2011                                                                                                                                                                                               $415,000.00
              Western
              Community
12/23/2008                              $7,290,000.00         $554,083.00                                             $7,290,000.00                                                                                                                    $554,083.00
              Bancshares, Inc.,
              Palm Desert, CA8
12/23/2008                              $6,855,000.00      $13,053,910.87                                                     $0.00
12/29/2009    Western Illinois          $4,567,000.00
              Bancshares
11/8/2012                                                                         $1,050,524.72                                           1,117         $940.38         ($66,475.28)                                                                  $2,102,189.13
              Inc., Monmouth,
11/9/2012     IL8,14,18                                                           $9,673,015.37                                          10,305         $939.53       ($631,984.63)                      $335,417.06
1/11/2013                                                                                          ($107,235.41)
5/15/2009     Western Reserve                                $5,842,197.92                                                    $0.00
              Bancorp, Inc,             $4,700,000.00                                                                                                                                                                    $7.06                         $907,197.92
11/30/2012    Medina, OH8,11,78                                                   $4,700,000.00                                           4,700       $1,000.00                                          $235,000.00

2/20/2009                                                  $20,275,427.10                                                     $0.00
              White River
7/1/2014      Bancshares                                                          $1,300,000.00                                           1,300       $1,063.20                          $82,173.00
                                      $16,800,000.00                                                                                                                                                                                                  $1,589,583.00
7/2/2014      Company,                                                          $15,500,000.00                                           15,500       $1,063.20                         $979,755.00     $1,002,535.38
              Fayetteville, AR8
9/26/2014                                                                                          ($178,619.28)
12/19/2008    Whitney Holding                             $343,733,333.33                                                     $0.00
              Corporation, New       $300,000,000.00                                                                                                                                                                                                $36,833,333.33
6/3/2011      Orleans, LA                                                      $300,000,000.00                                          300,000       $1,000.00                                         $6,900,000.00

12/12/2008    Wilmington Trust                            $369,920,833.33                                                     $0.00
              Corporation,           $330,000,000.00                                                                                                                                                                                    95,383
5/13/2011     Wilmington, DE11                                                 $330,000,000.00                                          330,000       $1,000.00

12/12/2008                                                 $68,809,170.52                                                     $0.00
              Wilshire Bancorp,
4/3/2012      Inc., Los Angeles,      $62,158,000.00                            $58,646,694.58     ($879,700.42)                         62,158         $943.50     ($3,511,305.42)                                      $9.23                      $10,282,176.36
              CA
6/20/2012                                                                                                                                                                                                $760,000.00
12/19/2008                                                $300,704,730.81                                                     $0.00
              Wintrust Financial
12/22/2010    Corporation, Lake      $250,000,000.00                           $250,000,000.00                                          250,000       $1,000.00                                                         $44.67                      $25,104,166.66
              Forest, IL11
2/14/2011                                                                                                                                                                                              $25,600,564.15
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




5/15/2009     Worthington                                    $2,780,391.21                                                    $0.00
              Financial
6/24/2013                               $2,720,000.00                             $2,343,851.20                                           2,720         $861.70       ($376,148.80)                       $90,940.00                                   $370,600.00
              Holdings, Inc.,
7/26/2013     Huntsville, AL8,14                                                                    ($24,999.99)
                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       451
                                                                                                                                                                                                                                                                                                                                          452
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                                             (CONTINUED)
                                                                                                 Capital Repayment                                                         Number       Average Price                                                                          Stock Price             Current
Transaction                                                                                          / Disposition /                           Remaining Capital          of Shares         of Shares          (Realized Loss) /                                                  as of            Outstanding      Dividend/Interest
Date                 Institution             Investment Amount            Total Cash Back2                Auction2,4           Auction Fee3             Amount            Disposed          Disposed                  (Write-off)                  Gain4         Warrant Sales 9/30/2014             Warrants        Paid to Treasury
1/23/2009                                                                  $57,640,856.64                                                                    $0.00
                     WSFS Financial
4/3/2012             Corporation,                $52,625,000.00                                      $48,157,663.75           ($722,364.96)                                  52,625            $915.10           ($4,467,336.25)                                                     $71.61                            $8,405,557.85
                     Wilmington, DE
9/12/2012                                                                                                                                                                                                                                                        $1,800,000.00
                                                                                                                                                                                                                                                                                                    128,663.33
1/16/2009                                        $36,000,000.00            $52,383,419.85                                                                    $0.00

7/24/2009            Yadkin Valley               $13,312,000.00                                                                                                                                                                                                                                          91,178
                     Financial
                                                                                                                                                                                                                                                                                     $18.16                            $8,820,922.69
9/18/2012            Corporation,                                                                    $44,149,056.00           ($662,235.84)                                  49,312            $893.00           ($5,162,944.00)
                     Elkin, NC
6/10/2013                                                                                                                                                                                                                                                           $55,677.00
6/11/2013                                                                                                                                                                                                                                                           $20,000.00
4/24/2009            York Traditions                                         $5,705,022.14                                                                   $0.00
                     Bank , York,                  $4,871,000.00                                                                                                                                                                                                                                                         $590,022.14
7/14/2011            PA8,14,45                                                                         $4,871,000.00                                                           4,871         $1,000.00                                                             $244,000.00

11/14/2008                                                              $1,661,027,529.62                                                                    $0.00
                     Zions
3/28/2012            Bancorporation,                                                                $700,000,000.00                                                         700,000          $1,000.00
                                              $1,400,000,000.00                                                                                                                                                                                                                      $29.06                          $253,361,111.11
9/26/2012            Salt Lake City,                                                                $700,000,000.00                                                         700,000          $1,000.00
                     UT11
12/5/2012                                                                                                                                                                                                                                                        $7,666,418.51
            Totals                       $204,894,726,320.00 $226,326,205,758.54 $199,359,679,113.86                     ($37,359,310.76)       $633,688,601.88                                           ($4,901,358,604.25) $6,905,634,452.41 $7,971,635,903.35
                                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numeric notes were taken verbatim from Treasury’s 9/30/2014 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 9/30/2014.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
*Investment Status Definition Key
Full investment outstanding – Treasury’s full investment is still outstanding
Redeemed – institution has repaid Treasury’s investment
Sold – by auction, an offering, or through a restructuring
Exited bankruptcy/receivership – Treasury has no outstanding investment
Currently not collectible – investment is currently not collectible; therefore there is no outstanding investment and a corresponding (Realized Loss) / (Write-off)
In full – all of Treasury’s investment amount
In part – part of the investment is no longer held by Treasury, but some remains
Warrants outstanding – Treasury’s warrant to purchase additional stock is still outstanding, including any exercised warrants
Warrants not outstanding – Treasury has disposed of its warrant to purchase additional stock through various means as described in the Warrant Report (such as sale back to company and auctions) or Treasury did not receive a warrant to purchase additional stock

1
 	       All pricing is at par.
2
 	       Total Cash Back includes net capital repayments, interest and dividends, warrant proceeds, and other income (less expenses).
3
 	       Capital Repayments includes gross capital repayments, gross auction proceeds, exchanges into CDCI, and SBLF fundings.
4
 	       Includes: (i) placement fees in private auctions of a CPP issuer’s securities where Treasury pays placement fees to the placement agents in an amount equal to a minimum of $50,000 (per issuer) or 1.00% of gross aggregate proceeds for each security and (ii) unreimbursed underwriting fees in public offerings. Placement
         fees in private auctions are paid approximately one month after settlement.
5
 	       Net proceeds from sales and auctions can be calculated by adding the “Amount” and “(Fee)” columns under the “Capital Repayment / Disposition / Auction” plus any amount in the “Gain” column. Note that “(Fee)” is a negative number.
6
 	       This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
         transaction under the CPP was funded on 1/9/2009.
7
 	       The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and $122,365,216.
         Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
8
 	       Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
9
 	       To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
10
  	      Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
11
  	      Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
12
  	      Redemption pursuant to a qualified equity offering.
13
  	      This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
14
  	      The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
15
  	      Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
16
  	      In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
17
  	      This institution participated in the expansion of CPP for small banks.
18
  	      This institution received an additional investment through the expansion of CPP for small banks.
19
  	      Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
         Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M.
         On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
20
  	      On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
21
  	      This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
22
  	      As of the date of this report, this institution is in bankruptcy proceedings.
23
  	      On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
         holders of CVRs were not met.
24
     	   On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
25
     	   On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
         equivalent to those of Treasury’s original investment.
26
     	   On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
27
     	   On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
         Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
28
     	   On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
29
     	   On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
         dividends. On 7/26/2013, Treasury entered into a securities purchase agreement with Independent pursuant to which Treasury agreed to sell to Independent the MCP and the warrant issued by Independent, subject to the conditions specified in such agreement. On 8/30/2013, Treasury completed the sale of the MCP and
         warrant to Independent pursuant to the terms of such agreement.
                                                                                                                                                                                                                                                                                                                Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                                         (CONTINUED)
30
  	 Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On
    April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion
    of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
    completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
    ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to
    1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public
    offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
31
  	 On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since
    Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
32
  	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
33
  	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
34
  	 On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
    On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on the MCP at the time of the
    conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
35
  	 On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount
    of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital.
    Following a reverse stock split effective 12/28/2010, Treasury held 3,608,332 shares of Pacific Capital common stock. Effective 11/30/2012, Pacific Capital merged with and into UnionBanCal Corporation and each outstanding share of common stock of the Company was converted into the right to receive $46.00 per
    share in cash, and Treasury received $165,983,272 in respect of its common stock and $393,121 in respect of its warrant.
36
  	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
37
  	 At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
38
  	 On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
    Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
39
  	 Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing of the sale
    also occurred on 1/28/2011.
40
  	 On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
41
  	 As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement
    among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
42
  	 As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of preferred stock
    in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/30/2011. Exercised
    warrants were also exchanged at the time of the agreement.
43
  	 On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I
    Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
44
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
45
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
46
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
47
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
48
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
49
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
50
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
51
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
53
  	 On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United entered into on
    8/12/2011.
54
  	 As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously unpaid
    dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
55
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
56
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
57
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	 As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement among
    Treasury, CFC and CFB entered into on 11/15/2011.
59
  	 As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among Treasury, Center
    Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
60
  	 On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury for a like
    F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
61
  	 As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the
    acquiror entered into on 1/1/2012.
62
  	 On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the exercise of
    warrants) that had been issued to Treasury by Regents.
63
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
64
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
65
  	 On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a capital plan.
66
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
67
  	 As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the acquiror,
    pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
68
  	 On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
69
  	 On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
70
  	 On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
71
  	 On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	 On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus accrued and
    unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
73
  	 On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
74
  	 On 2/22/2013, Treasury completed the exchange of its Standard Bancshares, Inc. preferred stock for common stock, pursuant to an exchange agreement, dated as of 11/5/2012, with Standard Bancshares, Inc., and immediately sold the resulting Standard Bancshares, Inc. common stock, pursuant to securities
    purchase agreements, each dated as of 11/5/2012, with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC.
75
  	 On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
76
  	 On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
77
  	 In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 1/1/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the Fidelity warrant
    held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
78
  	 On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid dividends
    thereon.
79
  	 On 2/20/2013, Treasury sold its CPP preferred stock and warrant issued by First Sound Bank (“First Sound”) back to First Sound for an aggregate purchase price of $3,700,000, pursuant to the terms of the agreement between Treasury and First Sound entered into on 11/30/2012.
80
                                                                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




  	 On 4/9/2013, Treasury sold its CPP preferred stock and warrant issued by PremierWest Bancorp (“PremierWest”) pursuant to an agreement with PremierWest and Starbuck Bancshares, Inc. (“Starbuck”) entered into on 12/11/2012.
81
  	 In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/9/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial to Treasury for a purchase price of $12,643,000 plus accrued
    dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/9/13.
82
  	 On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. Preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified Coastal
    Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
83
  	 On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 2/11/2013.
84
  	 On 8/14/2013, Treasury sold its CPP preferred stock issued by Florida Bank Group, Inc. (“FBG”) back to FBG for an aggregate purchase price of $8,000,000, pursuant to the terms of the agreement between Treasury and FBG entered into on 2/12/13.
85
  	 On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had been issued to
    Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
                                                                                                                                                                                                                                                                                                                                       453




                                                                                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 9/30/2014                                                          (CONTINUED)                                                                                                                                                                                                                               454
86
  	 On 4/12/2013, Treasury completed (i) the sale of its CPP preferred in Citizens Republic Bancorp, Inc. (Citizens Republic) to FirstMerit Corporation (FirstMerit) and (ii) the exchange of its warrant in Citizens Republic for a warrant issued by FirstMerit, pursuant to a securities purchase agreement, dated as of 2/19/13,
     among Treasury, FirstMerit and Citizens Republic.
87
  	 On 4/11/2013, Treasury completed the exchange of its First Security Group, Inc. (FSGI) preferred stock for common stock, pursuant to an exchange agreement, dated as of 2/25/2013, between Treasury and FSGI, and sold the resulting FSGI common stock, pursuant to securities purchase agreements, each dated as of
     4/9/2013, between Treasury and the purchasers party thereto.
88
  	 On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
89
  	 As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB Bancorp, Inc., and
     Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
90
  	 As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on 4/6/2013.
91
  	 On 4/5/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
92
  	 On 4/9/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
93
  	 On 7/17/13, Treasury entered into a securities purchase agreement with Central Virginia Bankshares, Inc. (CVB) and C&F Financial Corporation (C&F) pursuant to which Treasury agreed to sell to C&F the CPP preferred stock and warrant issued by CVB, subject to the conditions specified in such agreement. The sale was
     completed on 10/1/2013.
94
  	 On 8/12/2013, Anchor BanCorp Wisconsin Inc. ( “Anchor”) filed a voluntary petition for Chapter 11 protection in the U.S. Bankruptcy Court for the Western District of Wisconsin to implement a “pre-packaged” Plan of Reorganization in order to facilitate the restructuring of Anchor. On 9/27/ 2013, the Plan of Reorganization
     became effective in accordance with its terms, pursuant to which (i) Treasury’s preferred stock was exchanged for 60,000,000 shares of common stock (the “Common Stock”) and (ii) Treasury’s warrant was cancelled. On 9/27/2013, Treasury sold the Common Stock to purchasers pursuant to securities purchase
     agreements entered into on 9/19/2013.
95
  	 On 7/5/2013, Rogers Bancshares, Inc. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Eastern District of Arkansas.
96
  	 On 8/22/2013, Treasury exchanged its preferred stock in Broadway Financial Corporation for 10,146 shares of common stock equivalent representing (i) 50% of the liquidation preference of the preferred stock, plus (ii) 100% of previously accrued and unpaid dividends on the preferred stock ($2,646,000). The common
     stock equivalent will be converted to common stock upon the receipt of certain shareholder approvals.
97
  	 This institution has entered into bankruptcy or receivership. For a full list of institutions that have entered bankruptcy or receivership and Treasury’s remaining investments, reference appendices B and C in the section titled “Capital Purchase Program Institutions” in the most recent report to congress found on Treasury’s
     website: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx.
98
  	 On 10/30/2013, Treasury entered into an agreement with Monarch Community Bancorp, Inc. (Monarch) to exchange Treasury’s CPP warrant and $6,785,000 of preferred stock for common stock. The exchange was subject to the fulfillment by Monarch of certain conditions, including the satisfactory completion of a
     capital plan. On 11/15/2013, the exchange of the CPP warrant and preferred stock for common stock was completed and Treasury sold such common stock to purchasers pursuant to securities purchase agreements dated as of 11/15/2013.
99
  	 On 12/5/2013, Treasury’s 10,146 shares of common stock equivalent in Broadway Financial converted to 10,146,000 shares of common stock.
100
   	 On 12/13/2013, Texas Community Bank, National Association, The Woodlands, Texas, the banking subsidiary of TCB Holding Company, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
101
   	 As a result of a reincorporation merger of Community Bankers Trust Corporation, a Delaware corporation (CBTC Delaware) into Community Bankers Trust Corporation, a Virginia corporation (CBTC Virginia), the outstanding preferred stock and warrant issued by CBTC Delaware were exchanged for a like amount of
     securities issued by CBTC Virginia, pursuant to the terms of an agreement among Treasury, CBTC Delaware and CBTC Virginia entered into on 1/1/14.
102
   	 On 10/15/13, Treasury entered into a securities purchase agreement with First-Citizens Bank & Trust Company (FCBTC) and 1st Financial Services Corporation (FFSC) pursuant to which Treasury agreed to sell to FCBTC the CPP preferred stock and warrant issued by FFSC, subject to the conditions specified in such
     agreement. The sale was completed on 12/31/2013.
103
   	 On 1/31/2014, Syringa Bank, Boise, Idaho, the banking subsidiary of Syringa Bancorp, was closed by the Idaho Department of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
104
   	 On 4/1/2014, pursuant to the terms of the merger of Alaska Pacific Bancshares, Inc. with Northrim Bancorp, Inc., Treasury received $2,370,908.26 for the warrants that had been issued to Treasury by Alaska Pacific Bancshares, Inc.
105
   	 On 4/18/2014, Treasury entered into an agreement with Bank of the Carolinas Corporation (“BCAR”) pursuant to which Treasury agreed to sell its CPP preferred stock and warrant back to BCAR at a discount subject to the satisfaction of the conditions specified in the agreement.
                                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




106
   	 On 4/24/2014, Treasury sold all of its preferred stock issued by Bankers’ Bank of the West Bancorp, Inc. (BBW) to private investors for total proceeds of $13.5million, pursuant to securities purchase agreements dated as of April 21, 2014. BBW paid all accrued and unpaid dividends on the preferred stock as of April 24,
     2014.
107
   	 On 4/25/2014, Treasury entered into a securities purchase agreement with Provident Community Bankshares, Inc. (PCBS) and Park Sterling Corporation (Park Sterling) pursuant to which Treasury agreed to sell to Park Sterling the CPP preferred stock and warrant issued by PCBS, subject to the conditions specified in
     such agreement. The sale was completed on 4/30/2014.
108
   	 On 4/24/2014, Idaho Bancorp filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Idaho.
109
   	 On 4/30/2014, Treasury completed the exchange of its Northern States Financial Corporation preferred stock for common stock, pursuant to an exchange agreement, dated as of 4/29/2014, with Northern States Financial Corporation, and immediately sold the resulting Northern States Financial Corporation common
     stock, pursuant to securities purchase agreements, each dated as of 4/29/14, with Blue Pine Financial Opportunities Fund II, LP, EJF Sidecar Fund, Series LLC, Endeavour Regional Bank Opportunities Fund L.P., Endeavour Regional Bank Opportunities Fund II L.P., Hot Creek Investors, L.P.,JCSD Partners, LP, and PRB
     Investors, LP.
110
   	 On 5/23/2014 Treasury completed the sale of its CommunityOne Bancorp common stock in an underwritten public offering.
111
   	 On 5/30/2014, Treasury entered into a securities purchase agreement with Highlands Independent Bancshares, Inc. (“Highlands”) and HCBF Holding Company, Inc. (“HCBF”) pursuant to which Treasury agreed to sell to HCBF the CPP preferred stock issued by Highlands, subject to the conditions specified in such
     agreement.
112
   	 On 6/30/2014, BCB Holding Company, Inc. (the “Institution”) repurchased their preferred and warrant preferred shares from Treasury and funds were wired from the Institution to the Bank of New York Mellon (BNYM) for the benefit of Treasury. The repurchase was finalized after the close of business on 6/30/14 and the
     funds were subsequently transferred from BNYM to Treasury on 7/1/2014.
113
   	 On 8/28/2014, Treasury entered into an agreement with Central Bancorp, Inc. and Hanmi Financial Corporation, in connection with a merger, pursuant to which Treasury agreed to sell its Central Bancorp, Inc. CPP preferred stock (including warrant preferred stock) to Hanmi Financial Corporation for (i) $23,625,000, plus
     (ii) all accrued and unpaid dividends, subject to the satisfaction of the conditions specified in the agreement. The sale was completed on 8/29/2014.
	
Sources: Treasury, Transactions Report, 9/30/2014; Dividends and Interest Report, 10/10/2014; Treasury, response SIGTARP data call, 10/6/2014; Bloomberg, LP, accessed 10/1/2014.	



TABLE D.2
CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 9/30/2014
     Note   Date                                    Pricing Mechanism6                       Number of Shares                                   Proceeds7
      1     4/26/2010 - 5/26/2010                                   $4.12                         1,500,000,000                           $6,182,493,158
      2     5/26/2010 - 6/30/2010                                   $3.90                         1,108,971,857                           $4,322,726,825
      3     7/23/2010 - 9/30/2010                                   $3.91                         1,500,000,000                           $5,863,489,587
      4     10/19/2010 - 12/6/2010                                  $4.26                         1,165,928,228                           $4,967,921,811
      5     12/6/2010                                               $4.35                         2,417,407,607                         $10,515,723,090
                                                                                                Total Proceeds:                        $31,852,354,471
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes taken verbatim from 9/30/2014 Transactions Report.

1
 	 On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occurred on 5/26/2010.
2
 	 On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occurred on 6/30/2010.
3
 	 On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of
   the sale). Completion of the sale under this authority occured on 9/30/2010.
4
 	 On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
   certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of
   the sale), which plan was terminated on 12/6/2010.
5
 	 On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
   fulfillment of certain closing conditions.
6
 	 The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
   period.
7
 	 Amount represents the gross proceeds to Treasury.

Source: Treasury, Transactions Report, 9/30/2014.
TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014
                                                      Seller                                                                                          Purchase Details                                                                Disposition Details
        Purchase                                                                                                                            Amount                                                   Pricing                                       Remaining     Dividend/Interest Paid
Note    Date        Name of Institution                                                    City       State   Investment Description      from CPP    Additional Investment   Investment Amount   Mechanism          Date        Amount    Investment Amount                to Treasury
        9/24/2010   Alternatives Federal Credit Union, Ithaca, NY                         Ithaca       NY     Subordinated Debentures           $0                       $0          $2,234,000          Par                                                                  $173,880
        9/17/2010   American Bancorp of Illinois, Inc., Oak Brook, IL                   Oak Brook      IL     Subordinated Debentures           $0                       $0          $5,457,000          Par                                                                  $661,631
  6     9/24/2010   Atlantic City Federal Credit Union, Lander, WY                       Lander        WY     Subordinated Debentures           $0                       $0          $2,500,000          Par    9/26/20126    $2,500,000                    $0                $100,278
        9/24/2010   Bainbridge Bancshares, Inc., Bainbridge, GA                         Bainbridge     GA     Preferred Stock                   $0                       $0          $3,372,000          Par    9/10/20146    $2,372,000            $1,000,000                $265,748
  8     9/29/2010   Bancorp of Okolona, Inc., Okolona, MS                                Okolona       MS     Subordinated Debentures           $0                       $0          $3,297,000          Par    3/13/20136    $3,297,000                    $0                $250,975
 1, 2   9/29/2010   BancPlus Corporation, Ridgeland, MS                                 Ridgeland      MS     Preferred Stock           $50,400,000           $30,514,000           $80,914,000          Par                                                                $6,275,330
                                                                                        Palisades
        9/29/2010   BankAsiana, Palisades Park, NJ                                                     NJ     Preferred Stock                   $0                       $0          $5,250,000          Par    10/1/20136    $5,250,000                    $0                $315,583
                                                                                          Park
        9/29/2010   Bethex Federal Credit Union, Bronx, NY                                Bronx        NY     Subordinated Debentures           $0                       $0           $502,000           Par                                                                   $38,933
        9/29/2010   Border Federal Credit Union, Del Rio, TX                             Del Rio       TX     Subordinated Debentures           $0                       $0          $3,260,000          Par                                                                  $252,831
  6     9/24/2010   Brewery Credit Union, Milwaukee, WI                                 Milwaukee      WI     Subordinated Debentures           $0                       $0          $1,096,000          Par    10/3/20126    $1,096,000                    $0                 $44,388
        9/30/2010   Brooklyn Cooperative Federal Credit Union, Brooklyn, NY              Brooklyn      NY     Subordinated Debentures           $0                       $0           $300,000           Par                                                                   $23,250
        9/24/2010   Buffalo Cooperative Federal Credit Union, Buffalo, NY                Buffalo       NY     Subordinated Debentures           $0                       $0           $145,000           Par                                                                   $11,286
        9/24/2010   Butte Federal Credit Union, Biggs, CA                                 Biggs        CA     Subordinated Debentures           $0                       $0          $1,000,000          Par                                                                   $77,833
  6     9/29/2010   Carter Federal Credit Union, Springhill, LA                         Springhill     LA     Subordinated Debentures           $0                       $0          $6,300,000          Par     2/6/20136    $2,500,000            $3,800,000                $412,350
 1, 3   8/27/2010   Carver Bancorp, Inc, New York, NY                                   New York       NY     Common Stock              $18,980,000                      $0         $18,980,000          Par                                                                  $446,507
        9/17/2010   CFBanc Corporation, Washington, DC                                 Washington      DC     Preferred Stock                   $0                       $0          $5,781,000          Par                                                                  $452,203
  1     8/13/2010                                                                        Atlanta              Preferred Stock            $7,462,000                      $0                 $0           Par
                    Citizens Bancshares Corporation, Atlanta, GA                                       GA                                                                                                                                                                     $940,324
 2a     9/17/2010                                                                                             Preferred Stock                   $0              $4,379,000          $11,841,000          Par
  1     9/29/2010   Community Bancshares of Mississippi, Inc., Brandon, MS               Brandon       MS     Preferred Stock           $54,600,000                      $0         $54,600,000          Par                                                                $4,234,533
 1, 2   9/29/2010   Community Bank of the Bay, Oakland, CA                               Oakland       CA     Preferred Stock            $1,747,000             $2,313,000           $4,060,000          Par                                                                  $294,576
        9/24/2010   Community First Guam Federal Credit Union, Hagatna, GU               Hagatna       GU     Subordinated Debentures           $0                       $0          $2,650,000          Par                                                                  $206,258
        9/29/2010   Community Plus Federal Credit Union, Rantoul, IL                     Rantoul       IL     Subordinated Debentures           $0                       $0           $450,000           Par                                                                   $34,900
        9/24/2010   Cooperative Center Federal Credit Union, Berkeley, CA                Berkeley      CA     Subordinated Debentures           $0                       $0          $2,799,000          Par                                                                  $217,856
        9/29/2010   D.C. Federal Credit Union, Washington, DC                          Washington      DC     Subordinated Debentures           $0                       $0          $1,522,000          Par                                                                  $118,040
        9/29/2010   East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT    Bridgeport     CT     Subordinated Debentures           $0                       $0             $7,000           Par                                                                      $543
        9/29/2010   Episcopal Community Federal Credit Union, Los Angeles, CA          Los Angeles     CA     Subordinated Debentures           $0                       $0           $100,000           Par                                                                    $7,756
        9/24/2010   Fairfax County Federal Credit Union, Fairfax, VA                      Fairfax      VA     Subordinated Debentures           $0                       $0          $8,044,000          Par                                                                  $626,091
        9/29/2010   Faith Based Federal Credit Union, Oceanside, CA                     Oceanside      CA     Subordinated Debentures           $0                       $0            $30,000           Par                                                                    $2,327
        9/29/2010   Fidelis Federal Credit Union, New York, NY                          New York       NY     Subordinated Debentures           $0                       $0            $14,000           Par                                                                    $1,086
  1     8/13/2010   First American International Corp., Brooklyn, NY                     Brooklyn      NY     Preferred Stock           $17,000,000                      $0         $17,000,000          Par                                                                $1,377,976
 1, 7   9/24/2010   First Choice Bank, Cerritos, CA                                      Cerritos      CA     Preferred Stock            $5,146,000                      $0          $5,146,000          Par     5/1/20137    $5,146,000                    $0                $267,878
  1     9/17/2010   First Eagle Bancshares, Inc., Hanover Park, IL                     Hanover Park    IL     Subordinated Debentures    $7,875,000                      $0          $7,875,000          Par                                                                  $954,800
        9/29/2010   First Legacy Community Credit Union, Charlotte, NC                  Charlotte      NC     Subordinated Debentures           $0                       $0          $1,000,000          Par     4/2/20146    $1,000,000                    $0                 $70,167
  1     9/29/2010   First M&F Corporation, Kosciusko, MS                                Kosciusko      MS     Preferred Stock           $30,000,000                      $0         $30,000,000          Par    8/30/20137   $30,000,000                    $0              $1,751,667
  1     9/29/2010   First Vernon Bancshares, Inc., Vernon, AL                            Vernon        AL     Preferred Stock            $6,245,000                      $0          $6,245,000          Par                                                                  $494,564
  6     9/29/2010   Freedom First Federal Credit Union, Roanoke, VA                      Roanoke       VA     Subordinated Debentures           $0                       $0          $9,278,000          Par    6/12/20136    $9,278,000                    $0                $501,527
  6     9/24/2010   Gateway Community Federal Credit Union, Missoula, MT                 Missoula      MT     Subordinated Debentures           $0                       $0          $1,657,000          Par   10/17/20126    $1,657,000                    $0                 $68,397
        9/17/2010   Genesee Co-op Federal Credit Union, Rochester, NY                   Rochester      NY     Subordinated Debentures           $0                       $0           $300,000           Par                                                                   $23,467
  6     9/29/2010   Greater Kinston Credit Union, Kinston, NC                            Kinston       NC     Subordinated Debentures           $0                       $0           $350,000           Par    4/10/20126     $350,000                     $0                 $10,714
  1     7/30/2010   Guaranty Capital Corporation, Belzoni, MS                            Belzoni       MS     Subordinated Debentures   $14,000,000                      $0         $14,000,000          Par                                                                $1,754,083
        9/29/2010   Hill District Federal Credit Union, Pittsburgh, PA                  Pittsburgh     PA     Subordinated Debentures           $0                       $0           $100,000           Par                                                                    $7,756
        9/17/2010   Hope Federal Credit Union, Jackson, MS                               Jackson       MS     Subordinated Debentures           $0                       $0          $4,520,000          Par                                                                  $353,564
 1, 2   9/10/2010   IBC Bancorp, Inc., Chicago, IL                                       Chicago       IL     Subordinated Debentures    $4,205,000             $3,881,000           $8,086,000          Par                                                                  $985,257
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




  1     9/3/2010    IBW Financial Corporation, Washington, DC                          Washington      DC     Preferred Stock            $6,000,000                      $0          $6,000,000          Par                                                                  $474,000
        9/29/2010   Independent Employers Group Federal Credit Union, Hilo, HI             Hilo        HI     Subordinated Debentures           $0                       $0           $698,000           Par                                                                   $54,134
        9/3/2010    Kilmichael Bancorp, Inc., Kilmichael, MS                            Kilmichael     MS     Subordinated Debentures           $0                       $0          $3,154,000          Par                                                                  $386,207
  1     9/29/2010   Lafayette Bancorp, Inc., Oxford, MS                                   Oxford       MS     Preferred Stock            $4,551,000                      $0          $4,551,000          Par                                                                  $352,955
        9/24/2010   Liberty County Teachers Federal Credit Union, Liberty, TX            Liberty       TX     Subordinated Debentures           $0                       $0           $435,000           Par     4/2/20146      $87,000               $348,000                 $33,215
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           455
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014                                                                    (CONTINUED)                                                                                                                                                                                                          456
                                                         Seller                                                                                                        Purchase Details                                                                                       Disposition Details
           Purchase                                                                                                                                        Amount                                                             Pricing                                                       Remaining         Dividend/Interest Paid
Note       Date        Name of Institution                                                           City        State    Investment Description         from CPP      Additional Investment      Investment Amount        Mechanism               Date                Amount       Investment Amount                    to Treasury
    1, 2   9/24/2010   Liberty Financial Services, Inc., New Orleans, LA                         New Orleans      LA     Preferred Stock               $5,645,000                 $5,689,000              $11,334,000               Par                                                                                     $882,163
           9/24/2010   Lower East Side People’s Federal Credit Union, New York, NY                New York        NY     Subordinated Debentures                 $0                        $0                $898,000               Par                                                                                      $69,894
     1     8/20/2010   M&F Bancorp, Inc., Durham, NC                                               Durham         NC     Preferred Stock              $11,735,000                          $0             $11,735,000               Par                                                                                     $935,540
     1     8/20/2010                                                                              Sun Valley             Preferred Stock               $5,500,000                          $0                       $0              Par
                       Mission Valley Bancorp, Sun Valley, CA                                                     CA                                                                                                                                                                                                        $814,874
     2a    9/24/2010                                                                                                     Preferred Stock                         $0               $4,836,000              $10,336,000               Par
           9/24/2010   Neighborhood Trust Federal Credit Union, New York, NY                      New York        NY     Subordinated Debentures                 $0                        $0                $283,000               Par                                                                                      $22,028
           9/29/2010   North Side Community Federal Credit Union, Chicago, IL                      Chicago         IL    Subordinated Debentures                 $0                        $0                $325,000               Par                                                                                      $25,206
           9/24/2010   Northeast Community Federal Credit Union, San Francisco, CA              San Francisco     CA     Subordinated Debentures                 $0                        $0                $350,000               Par                                                                                      $27,242
           9/29/2010   Opportunities Credit Union, Burlington, VT                                 Burlington      VT     Subordinated Debentures                 $0                        $0              $1,091,000               Par                                                                                      $84,613
     1     8/13/2010   PGB Holdings, Inc., Chicago, IL                                             Chicago         IL    Preferred Stock               $3,000,000                          $0              $3,000,000               Par                                                                                     $246,292
           9/24/2010   Phenix Pride Federal Credit Union, Phenix City, AL                         Phenix City     AL     Subordinated Debentures                 $0                        $0                $153,000               Par                                                                                      $11,909
    1, 4   8/13/2010   Premier Bancorp, Inc., Wilmette, IL                                         Wilmette        IL    Subordinated Debentures       $6,784,000                          $0              $6,784,000               Par     1/29/20134                 $79,900                        $0                           $0
           9/24/2010   Prince Kuhio Federal Credit Union, Honolulu, HI                             Honolulu        HI    Subordinated Debentures                 $0                        $0                $273,000               Par                                                                                      $21,249
    1, 7   9/29/2010   PSB Financial Corporation, Many, LA                                          Many          LA     Preferred Stock               $9,734,000                          $0              $9,734,000               Par    12/28/20127              $9,734,000                        $0                    $437,489
           9/24/2010   Pyramid Federal Credit Union, Tucson, AZ                                     Tucson        AZ     Subordinated Debentures                 $0                        $0              $2,500,000               Par                                                                                     $194,583
           9/29/2010   Renaissance Community Development Credit Union, Somerset, NJ               Somerset        NJ     Subordinated Debentures                 $0                        $0                 $31,000               Par                                                                                       $2,404
                                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




           9/24/2010   Santa Cruz Community Credit Union, Santa Cruz, CA                          Santa Cruz      CA     Subordinated Debentures                 $0                        $0              $2,828,000               Par                                                                                     $220,113
     1     9/29/2010   Security Capital Corporation, Batesville, MS                               Batesville      MS     Preferred Stock              $17,910,000                          $0             $17,910,000               Par                                                                                   $1,389,020
    1, 2   9/29/2010   Security Federal Corporation, Aiken, SC                                      Aiken         SC     Preferred Stock              $18,000,000                 $4,000,000              $22,000,000               Par                                                                                   $1,706,222
           9/29/2010   Shreveport Federal Credit Union, Shreveport, LA                            Shreveport      LA     Subordinated Debentures                 $0                        $0              $2,646,000               Par                                                                                     $205,212
    1, 2   8/6/2010    Southern Bancorp, Inc., Arkadelphia, AR                                   Arkadelphia      AR     Preferred Stock              $11,000,000               $22,800,000               $33,800,000               Par                                                                                   $2,720,900
           9/29/2010   Southern Chautauqua Federal Credit Union, Lakewood, NY                     Lakewood        NY     Subordinated Debentures                 $0                        $0              $1,709,000               Par                                                                                     $132,542
           9/29/2010   Southside Credit Union, San Antonio, TX                                   San Antonio      TX     Subordinated Debentures                 $0                        $0              $1,100,000               Par    10/30/20136              $1,100,000                        $0                     $67,894
     1     9/29/2010   State Capital Corporation, Greenwood, MS                                  Greenwood        MS     Preferred Stock              $15,750,000                          $0             $15,750,000               Par                                                                                   $1,221,500
    1, 2   9/29/2010   The First Bancshares, Inc., Hattiesburg, MS                               Hattiesburg      MS     Preferred Stock               $5,000,000               $12,123,000               $17,123,000               Par                                                                                   $1,327,984
           9/29/2010   The Magnolia State Corporation, Bay Springs, MS                           Bay Springs      MS     Subordinated Debentures                 $0                        $0              $7,922,000               Par                                                                                     $952,312
                       Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
           9/24/2010                                                                               Olympia        WA     Subordinated Debentures                 $0                        $0                 $75,000               Par                                                                                       $5,838
                       Olympia, WA
           9/24/2010   Tongass Federal Credit Union, Ketchikan, AK                                Ketchikan       AK     Subordinated Debentures                 $0                        $0              $1,600,000               Par                                                                                     $124,533
     1     8/13/2010   Tri-State Bank of Memphis, Memphis, TN                                      Memphis        TN     Preferred Stock               $2,795,000                          $0              $2,795,000               Par                                                                                     $209,936
           9/24/2010   Tulane-Loyola Federal Credit Union, New Orleans, LA                       New Orleans      LA     Subordinated Debentures                 $0                        $0                $424,000               Par                                                                                      $33,001
           9/24/2010   Union Baptist Church Federal Credit Union, Fort Wayne, IN                  Fort Wayne       IN    Subordinated Debentures                 $0                        $0                 $10,000               Par                                                                                          $778
           9/29/2010   Union Settlement Federal Credit Union, New York, NY                        New York        NY     Subordinated Debentures                 $0                        $0                $295,000               Par                                                                                      $22,879
     1     9/3/2010    United Bancorporation of Alabama, Inc., Atmore, AL                          Atmore         AL     Preferred Stock              $10,300,000                          $0             $10,300,000               Par                                                                                     $813,700
                       UNITEHERE Federal Credit Union, (Workers United Federal Credit
     6     9/29/2010                                                                              New York        NY     Subordinated Debentures                 $0                        $0                 $57,000               Par     3/20/20136                 $57,000                        $0                      $2,822
                       Union), New York, NY
    1, 2   7/30/2010   University Financial Corp, Inc., St. Paul, MN                               St. Paul       MN     Subordinated Debentures      $11,926,000               $10,189,000               $22,115,000               Par    11/28/20126            $22,115,000                         $0                  $1,595,843
     6     9/24/2010   UNO Federal Credit Union, New Orleans, LA                                 New Orleans      LA     Subordinated Debentures                 $0                        $0                $743,000               Par      9/4/20136                $743,000                        $0                     $43,754
           9/29/2010   Vigo County Federal Credit Union, Terre Haute, IN                         Terre Haute       IN    Subordinated Debentures                 $0                        $0              $1,229,000               Par                                                                                      $95,316
           9/24/2010   Virginia Community Capital, Inc., Christiansburg, VA                     Christiansburg    VA     Subordinated Debentures                 $0                        $0              $1,915,000               Par                                                                                     $149,051
                                                                                                                                                                      Total Purchase Amount            $570,073,000                         Total Capital Repayment Amount                $98,361,900
                                                                                                                                                                               TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                  $465,007,000
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes are taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	 Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	 Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	 On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends were paid on the
    date of the exchange.
4
 	 On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900 representing the total
    amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5
 	 Repayment pursuant to Section 5 of the CDCI Certificate of Designation.
6
 	 Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7
 	 Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8
 	 Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9
 	 Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
TABLE D.4
AIFP TRANSACTION DETAIL, AS OF 9/30/2014
                                                                                                                                                    Treasury Investment After Exchange/Transfer/
                                          Initial Investment                                         Exchange/Transfer/Other Details                                                                                                     Payment or Disposition1
                                                                                                                                                    Other
                                                                                                                                                                                                                                                                         Remaining
                                                                                                                                                                                                                                                     Remaining          Investment         Dividend/
                          Transaction                                                                                                                                                        Amount/                                       Amount/ Investment             Amount/    Interest Paid to
              Date        Type        Seller        Description             Amount Note Date            Type                         Amount Note Obligor          Note Description           Equity %         Date          Type           Proceeds Description           Equity %         Treasurya
                                                    Preferred
                                                                                                     Exchange for
                                                    Stock w/
              12/29/2008 Purchase     GMAC                           $5,000,000,000       12/30/2009 convertible              $5,000,000,000                             Convertible                                                                                           $0
                                                    Exercised                                                                                                     21,
                                                                                                     preferred stock                                GMAC (Ally)           Preferred    $5,937,500,000 11/20/2013     Disposition38    $5,925,000,000         N/A
                                                    Warrants                                                                                                      22
                                                                                                                                                                             Stock
                                                    Convertible                                   Partial
                                                    Preferred                                     conversion of
              5/21/2009   Purchase    GMAC          Stock w/         $7,500,000,000 22 12/30/2009 preferred stock             $3,000,000,000
                                                    Exercised                                     for common                                                                                                               Partial                     Common
                                                                                                                                                                                                         1/23/2014                    $3,023,750,000                          37%
                                                    Warrants                                      stock                                                                                                              Disposition40                       Stock

GMAC                                                                                                                                                              3,                                                       Partial                     Common
(Ally),                                                                                                                                                           26,      Common                        4/15/2014                    $2,375,000,000                          17%    $3,679,893,757
                                                    Convertible                                    Partial                                          GMAC (Ally)                                63.5%                 Disposition41                       Stock
Detroit, MI                                         Preferred                                      conversion of                                                  32,        Stock
                                                                                    22,                                                                           38                                                       Partial                     Common
              12/30/2009 Purchase     GMAC          Stock w/         $1,250,000,000     12/30/2010 preferred stock            $5,500,000,000   26                                                        5/14/2014                     $181,141,750                           16%
                                                                                    26                                                                                                                               Disposition42                       Stock
                                                    Exercised                                      for common
                                                    Warrants                                       stock                                                                                                                                               Common
                                                                                                                                                                                                         9/12/2014   Disposition43     $218,680,700                           14%
                                                                                                                                                                                                                                                         Stock
                                                    Trust                                               Exchange for
                                                    Preferred                                           amended and                                                           Trust
              12/30/2009 Purchase     GMAC          Securities       $2,540,000,000       3/1/2011      restated Trust        $2,667,000,000   27 GMAC (Ally)     27      Preferred    $2,667,000,000     3/2/2011   Disposition28    $2,667,000,000         N/A               $0
                                                    w/ Exercised                                        Preferred                                                         Securities
                                                    Warrants                                            Securities
                                      General                                                           Exchange for
                                                    Debt
              12/29/2008 Purchase     Motors                          $884,024,131    2   5/29/2009     equity interest in     $884,024,131    3
                                                    Obligation
                                      Corporation                                                       GMAC
                                                    Debt                                                Exchange for
                                      General
                                                    Obligation                                          preferred and
              12/31/2008 Purchase     Motors                        $13,400,000,000       7/10/2009                          $13,400,000,000   7
                                                    w/ Additional                                       common stock
                                      Corporation
                                                    Note                                                in New GM
                                                    Debt                                                Exchange for
                                      General                                                                                                    General          10,
                                                    Obligation                                          preferred and                                                     Preferred
              4/22/2009   Purchase    Motors                         $2,000,000,000   4   7/10/2009                           $2,000,000,000   7 Motors           11,                  $2,100,000,000 12/15/2010      Repayment       $2,139,406,778         N/A               $0
                                                    w/ Additional                                       common stock                                                         Stock
                                      Corporation                                                                                                Company          24
                                                    Note                                                in New GM
                                                                                                                                                                                                                           Partial                     Common
                                                                                                                                                                                                        11/18/2010                   $11,743,303,903                        36.9%
                                                                                                                                                                                                                     Disposition25                       Stock
                                                                                                                                                                                                                           Partial                     Common
                                                                                                                                                                                                        11/26/2010                    $1,761,495,577                       32.04%
                                                                                                                                                                                                                     Disposition25                       Stock
                                                                                                                                                                                                                           Partial                     Common
                                                                                                                                                                                                        12/21/2012                    $5,500,000,000                       21.97%
                                                                                                                                                                                                                     Disposition33                       Stock

                                                    Debt                                                Exchange for                                                                                                       Partial                     Common
                                      General                                                                                                    General          10,                                    4/11/2013                    $1,637,839,844                       17.69%
                                                    Obligation                                          preferred and                                                      Common                                    Disposition34                       Stock
              5/20/2009   Purchase    Motors                         $4,000,000,000   5   7/10/2009                           $4,000,000,000   7 Motors           11,                          60.8%
                                                    w/ Additional                                       common stock                                                         Stock                                         Partial                     Common
                                      Corporation                                                                                                Company          25                                     6/12/2013                    $1,031,700,000                       13.80%
                                                    Note                                                in New GM                                                                                                    Disposition35                       Stock
General
Motorsb,c                                                                                                                                                                                                                  Partial                     Common                         $756,714,508
Detroit, MI                                                                                                                                                                                              9/13/2013                    $3,822,724,832                        7.32%
                                                                                                                                                                                                                     Disposition36                       Stock
                                                                                                                                                                                                                           Partial                     Common
                                                                                                                                                                                                        11/20/2013                    $2,563,441,956                        2.24%
                                                                                                                                                                                                                     Disposition37                       Stock
                                                                                                                                                                                                                           Partial                     Common
                                                                                                                                                                                                         12/9/2013                    $1,208,249,982                        0.00%
                                                                                                                                                                                                                     Disposition39                       Stock
                                                                                                                                                                                                                          Partial                           Debt
                                                                                                                                                                                                         7/10/2009                     $360,624,198                 $6,711,864,407
                                                                                                                                                                                                                      Repayment                        Obligation
                                                                                                                                                                                                                          Partial                           Debt
                                                                                                                                                                                                        12/18/2009                    $1,000,000,000                $5,711,864,407
                                                    Debt                                                Exchange for                                                                                                  Repayment                        Obligation
                                      General                                                                                                    General
                                                    Obligation                                          preferred and                                         11,              Debt
              5/27/2009   Purchase    Motors                          $360,624,198    6   7/10/2009                            $360,624,198    7 Motors                                $7,072,488,605                     Partial                           Debt
                                                    w/ Additional                                       common stock                                          12          Obligation                     1/21/2010                      $35,084,421                 $5,676,779,986
                                      Corporation                                                                                                Holdings LLC                                                         Repayment                        Obligation
                                                    Note                                                in New GM
                                                                                                                                                                                                                          Partial                           Debt
                                                                                                                                                                                                         3/31/2010                    $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                                      Repayment                        Obligation
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                         4/20/2010    Repayment       $4,676,779,986         N/A               $0
                                                    Debt                                                Exchange for
                                      General
                                                    Obligation                                          preferred and
              6/3/2009    Purchase    Motors                        $30,100,000,000   8   7/10/2009                          $22,041,706,310   9
                                                    w/ Additional                                       common stock
                                      Corporation
                                                    Note                                                in New GM
                                                                                                        Transfer of debt
                                                                                          7/10/2009                           $7,072,488,605   9
                                                                                                        to New GM
                                                                                                                                                                                                                                                                                                        457




                                                                                                                                                                                                                                                                             Continued on next page
AIFP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                            458
                                                                                                                                         Treasury Investment After Exchange/Transfer/
                                          Initial Investment                                      Exchange/Transfer/Other Details                                                                                        Payment or Disposition1
                                                                                                                                         Other
                                                                                                                                                                                                                                                            Remaining
                                                                                                                                                                                                                                     Remaining             Investment         Dividend/
                         Transaction                                                                                                                                           Amount/                                     Amount/ Investment                Amount/    Interest Paid to
             Date        Type        Seller           Description           Amount Note Date          Type                   Amount Note Obligor      Note Description         Equity %         Date         Type          Proceeds Description              Equity %         Treasurya
                                                                                                                                        Motors                                                                                             Right to
                                                                                                      Debt left at                                                 Debt                                     Partial
                                                                                          7/10/2009                    $985,805,085   9 Liquidation   29                   $985,805,085    3/31/2011                    $50,000,000         recover              N/A
                                                                                                      Old GM                                                  Obligation                                Repayment
                                                                                                                                        Company                                                                                           proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                            4/5/2011                    $45,000,000         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                            5/3/2011                    $15,887,795         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                          12/16/2011                       $144,444         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                          12/23/2011                    $18,890,294         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                           1/11/2012                     $6,713,489         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                          10/23/2012                       $435,097         recover              N/A
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                           5/22/2013                    $10,048,968         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                           9/20/2013                    $11,832,877         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                          12/27/2013                       $410,705         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                                                                                                                                                                                                           Right to
                                                                                                                                                                                                            Partial
                                                                                                                                                                                            1/9/2014                       $470,269         recover              N/A
                                                                                                                                                                                                        Repayment
                                                                                                                                                                                                                                          proceeds
                                                      Debt                                                                                                                                                                                     Debt
                                                      Obligation                                                                                                                                            Partial                       Obligation
             1/16/2009   Purchase    Chrysler FinCo                   $1,500,000,000 13                                                                                                    3/17/2009                     $3,499,055                    $1,496,500,945
                                                      w/ Additional                                                                                                                                     Repayment                      w/ Additional
                                                      Note                                                                                                                                                                                     Note
                                                                                                                                                                                                                                               Debt
                                                                                                                                                                                                            Partial                       Obligation
                                                                                                                                                                                           4/17/2009                    $31,810,122                    $1,464,690,823
                                                                                                                                                                                                        Repayment                      w/ Additional
                                                                                                                                                                                                                                               Note
Chrysler                                                                                                                                                                                                                                       Debt
FinCo,                                                                                                                                                                                                      Partial                       Obligation
                                                                                                                                                                                           5/18/2009                    $51,136,084                    $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                              Repayment                      w/ Additional
Hills, MI                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                                               Debt
                                                                                                                                                                                                            Partial                       Obligation
                                                                                                                                                                                           6/17/2009                    $44,357,710                    $1,369,197,029
                                                                                                                                                                                                        Repayment                      w/ Additional
                                                                                                                                                                                                                                               Note
                                                                                                                                                                                                                                          Additional
                                                                                                                                                                                           7/14/2009    Repayment     $1,369,197,029                              $0
                                                                                                                                                                                                                                               Note
                                                                                                                                                                                           7/14/2009   Repayment*       $15,000,000             N/A               $0
                                                                                                                                                                                                                                                                Continued on next page
AIFP TRANSACTION DETAIL, AS OF 9/30/2014                                                    (CONTINUED)
                                                                                                                                                           Treasury Investment After Exchange/Transfer/
                                              Initial Investment                                           Exchange/Transfer/Other Details                                                                                                            Payment or Disposition1
                                                                                                                                                           Other
                                                                                                                                                                                                                                                                                       Remaining
                                                                                                                                                                                                                                                                  Remaining           Investment            Dividend/
                          Transaction                                                                                                                                                                  Amount/                                          Amount/ Investment              Amount/       Interest Paid to
            Date          Type        Seller            Description               Amount Note Date             Type                        Amount Note Obligor          Note Description               Equity %          Date             Type          Proceeds Description            Equity %            Treasurya
                                                        Debt
                                                                                                                                                                                          Debt
                                         Chrysler       Obligation                                             Transfer of debt                            Chrysler
            1/2/2009      Purchase                                        $4,000,000,000         6/10/2009                           $500,000,000     19                 20     obligation w/    $3,500,000,000    5/14/2010                       $1,900,000,000          N/A                  $0
                                         Holding        w/ Additional                                          to New Chrysler                             Holding
                                                                                                                                                                               additional note                                     Termination
                                                        Note
                                                                                                                                                                                                                                and settlement
                                                        Debt                                                                                                                                                                        payment20
                                         Chrysler       Obligation
            4/29/2009     Purchase                                                     $0 14
                                         Holding        w/ Additional
                                                        Note
                                                        Debt
                                         Chrysler       Obligation
            4/29/2009     Purchase                                         $280,130,642 15                                                                                                                         7/10/2009       Repayment        $280,130,642           N/A                  $0
                                         Holding        w/ Additional
                                                        Note
                                                        Debt
                                                                                                               Completion                                Old Carco                   Right to                                        Proceeds                         Right to
                                                        Obligation
            5/1/2009      Purchase       Old Chrysler                     $1,888,153,580 16 4/30/2010          of bankruptcy       ($1,888,153,580)   23 Liquidation     23           recover              N/A     5/10/2010      from sale of       $30,544,528       recover                  N/A
                                                        w/ Additional
                                                                                                               proceeding;                               Trust                      proceeds                                         collateral                      proceeds
                                                        Note
                                                                                                               transfer of
                                                        Debt                                                   collateral                                                                                                            Proceeds                         Right to
                                                        Obligation                                             security to
            5/20/2009     Purchase       Old Chrysler                                  $0 17                                                                                                                        9/9/2010      from sale of        $9,666,784       recover                  N/A
                                                        w/ Additional                                          liquidation trust                                                                                                     collateral                      proceeds
                                                        Note

Chrysler,                                                                                                                                                                                                                            Proceeds                         Right to
Auburn                                                                                                                                                                                                            12/29/2010      from sale of        $7,844,409       recover                  N/A $1,171,263,942
Hills, MI                                                                                                                                                                                                                            collateral                      proceeds
                                                                                                                                                                                                                                     Proceeds                         Right to
                                                                                                                                                                                                                   4/30/2012      from sale of        $9,302,185       recover                  N/A
                                                                                                                                                                                                                                     collateral                      proceeds
                                                        Debt
                                                                                                                                                                                        Debt
                                                        Obligation
                                                                                                               Issuance of                                                         obligation
                                                        w/ Additional                                                                                      Chrysler      19,                                                      Repayment -
            5/27/2009     Purchase       New Chrysler                     $6,642,000,000 18 6/10/2009          equity in New                     $0                             w/ additional    $7,142,000,000    5/24/2011                       $5,076,460,000
                                                        Note, Zero                                                                                         Group LLC     31                                                          Principal
                                                                                                               Chrysler                                                          note & zero
                                                        Coupon Note,
                                                                                                                                                                                coupon note
                                                        Equity
                                                                                                                                                                                                                                   Termination
                                                                                                                                                                                                                   5/24/2011       of undrawn      $2,065,540,000          N/A                  $0
                                                                                                                                                                                                                                      facility31
                                                                                                                                                                                                                                  Repayment*
                                                                                                                                                                                                                   5/24/2011       - Additional     $288,000,000
                                                                                                                                                                                                                                          Note
                                                                                                                                                                                                                               Repayment*
                                                                                                                                                                                                                   5/24/2011 - Zero Coupon          $100,000,000
                                                                                                                                                                                                                                      Note
                                                                                                                                                           Chrysler                 Common
                                                                                                                                                                         30                               6.6%     7/21/2011       Disposition      $560,000,000           N/A                  $0
                                                                                                                                                           Group LLC                  equity
                                                                                                                                                                                                                                             Additional Proceeds*                  $403,000,000
                                     Total Initial Investment Amount    $81,344,932,551                                                                                                                                                            Total Payments                $62,405,006,412
                                                                                                                                                                                                                             Total Treasury Investment Amount                    $13,386,232,559
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	 Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on
   12/30/2009. (See transactions marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the
   $7.07 billion of debt assumed by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	 Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1
   billion of funds had been disbursed by Treasury.
9
 	 On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new
   obligation under the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
                                                                                                                                                                                                                                                                                                                         459
AIFP TRANSACTION DETAIL, AS OF 9/30/2014                                                           (CONTINUED)                                                                                                                                                                                                                     460
10
  	 In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	 Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors
    Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	 Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	 The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	 This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	 The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	 This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	 This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
    terminated.
18
  	 This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to
    $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler.
    When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	 Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	 Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement
    payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	 Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	 Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
  	 On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
    transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	 On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
    stock. The repurchase was completed on 12/15/2010.
25
  	 On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On
    11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
    agreement total $13,504,799,480.
26
  	 On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
  	 On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement,
    Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	 On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
    include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
                                                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




  	 On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
    transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	 In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically
    increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On
    7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	 On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
  	 On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33
  	 On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
34
  	 On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the
    sale).Completion of the sale under this authority occurred on April 11, 2013.
35
  	 On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $ 1,031,700,000.
36
  	 Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the
    period ending on September 13, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on September 13, 2013.
37
  	 On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon
    completion of the sale). Completion of the sale under this authority occurred on November 20, 2013.
38
  	 On November 20, 2013, Ally completed a private placement of an aggregate of 216,667 shares of its common stock for an aggregate price of approximately $1.3 billion and the repurchase of all outstanding shares of its Fixed Rate Cumulative Mandatorily Convertible Preferred Stock, Series F-2, held by Treasury,
    including payment for the elimination or relinquishment of any right to receive additional shares of common stock to be issued (the “Share Adjustment Right”). Ally paid to Treasury a total of approximately $5.93 billion for the repurchase of the Series F-2 Preferred Stock and the elimination of the Share Adjustment
    Right. As a result of the private placement, Treasury’s common stock ownership stake was diluted from 73.8 percent to 63.45 percent. Treasury continues to own 981,971 shares of common stock in Ally.
39
  	 On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale
    under this authority occurred on December 9, 2013.
40
  	 On January 23, 2014, Treasury sold 410,000 shares of Ally common stock in a private offering at $7,375 per share for gross proceeds of $3,023,750,000.
41
  	 On April 15, 2014, Treasury sold 95,000,000 shares of Ally common stock in an IPO at $25.00 per share for net proceeds of $2,375,000,000.
42
  	 On 5/14/2014, the underwriters partially exercised their option to purchase an additional 7,245,670 shares of Ally common stock from Treasury at $25.00 resulting in additional proceeds of $181,141,750.
43
  	 On August 14, 2014, Treasury gave Goldman Sachs discretionary authority, as its sales agent, to sell subject to certain parameters up to 8,890,000 shares of common stock from time to time during the period ending November 12, 2014 (or upon completion of sale). Completion of sale under this authority
    occurred on September 12, 2014.

a
    	 For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    	 According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    	 This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
TABLE D.5
ASSP TRANSACTION DETAIL, AS OF 9/30/2014
                        Seller                                                                                                                           Adjustment Details                                                           Repayment4
                                                                                                                                                                                                                                               Remaining                                        Dividend/
                                                      Transaction Investment                         Investment        Pricing       Adjustment            Adjustment       Adjusted Investment                                               Investment                                  Interest Paid to
Note    Date            Institution Name              Type        Description                           Amount      Mechanism              Date               Amount                    Amount       Date                   Type              Description                    Amount              Treasury
                                                                                                                                                                                                                           Partial      Debt Obligation w/
                                                                                                                                                                                                     11/20/09                                                         $140,000,000
                                                                                                                                                                                                                       repayment           Additional Note

                        GM Supplier Receivables LLC                Debt Obligation w/                                                 7/8/20093      ($1,000,000,000)            $2,500,000,000                            Partial      Debt Obligation w/
    1   4/9/09                                        Purchase                                  $3,500,000,000               N/A                                                                     2/11/10                                                          $100,000,000             $9,087,808
                        Wilmington, DE                             Additional Note                                                                                                                                     repayment           Additional Note
                                                                                                                                                                                                     3/4/10           Repayment5           Additional Note              $50,000,000
                                                                                                                                                                                   $290,000,000      4/5/10             Payment6                     None               $56,541,893

                        Chrysler Receivables SPV LLC               Debt Obligation w/                                                 7/8/20093        ($500,000,000)            $1,000,000,000      3/9/10           Repayment5           Additional Note            $123,076,735
    2   4/9/09                                       Purchase                                   $1,500,000,000               N/A                                                                                                                                                               $5,787,176
                        Wilmington, DE                             Additional Note                                                                                                 $123,076,735      4/7/10             Payment7                     None               $44,533,054
        Initial Total              $5,000,000,000                                                                                  Adjusted Total      $413,076,735                                                                    Total Repayments              $413,076,735
                                                                                                        Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	 The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but
   was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	 The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made
   effective as of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	 All outstanding principal drawn under the credit agreement was repaid.
6
 	 Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the
   loan, all of which have been repaid.
7
 	 Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan,
   all of which have been repaid.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.




TABLE D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 9/30/2014
Date                                            Pricing Mechanism1                                          Number of Shares                                                       Proceeds2
1/18/2013 – 4/17/20133                          $28.049                                                            58,392,078                                                $1,637,839,844
5/6/2013 – 9/13/20134                           $34.646                                                           110,336,510                                                $3,822,724,832
9/26/2013 – 11/20/20135                         $36.509                                                            70,214,460                                                $2,563,441,956
11/21/2013 – 12/9/20136                         $38.823                                                            31,122,206                                                $1,208,249,982
                                                                                                                Total Proceeds                                             $9,232,256,614
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	 The price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2
 	 Amount represents the gross proceeds to Treasury.
3
 	 On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
   58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred
   on April 11, 2013.
4
 	 Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its
   sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the period ending on September 13, 2013 (or upon completion of
   the sale). Completion of the sale under this authority occurred on September 13, 2013.
5
 	 On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up
   to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon completion of the sale). Completion of the sale under this authority
   occurred on November 20, 2013.
6
 	 On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common
   stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale under this authority occurred on December 9, 2013.

Source: Treasury, Transactions Report, 9/30/2014.
                                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                              461
TABLE D.7                                                                                                                                                                                                                                                                                                                462
TIP TRANSACTION DETAIL, AS OF 9/30/2014
                                                                                                                                                                                 Treasury Investment
                                                                                                                                                                                 Remaining After Capital
                        Seller                                                                                                           Capital Repayment Details               Repayment                 Final Disposition                                        Market and Warrant Data
                                                                                                                                             Capital                  Capital Remaining      Remaining           Final          Final                      Final                  Outstanding             Dividends/
                        Institution            Transaction                                            Investment         Pricing          Repayment                Repayment Capital         Capital       Disposition          Disposition          Disposition      Stock           Warrant        Interest Paid to
Note    Date            Name                   Type           Investment Description                     Amount       Mechanism                Date2                  Amount Amount          Description        Date3           Description           Proceeds        Price            Shares               Treasury
                        Citigroup Inc.,                       Trust Preferred Securities w/
1       12/31/2008                             Purchase                                        $20,000,000,000                 Par        12/23/2009        $20,000,000,000      $0          Warrants       1/25/2011       A   Warrants          $190,386,428       $51.82                         $1,568,888,889
                        New York, NY                          Warrants
                        Bank of America
        1/16/2009       Corporation,           Purchase       Preferred Stock w/ Warrants      $20,000,000,000                 Par         12/9/2009        $20,000,000,000      $0          Warrants        3/3/2010       A   Warrants        $1,236,804,513       $17.05                         $1,435,555,556
                        Charlotte, NC
                                                              Total Investment                $40,000,000,000        TOTAL CAPITAL REPAYMENT $40,000,000,000                                                       Total Warrant Proceeds $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	 Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014; Bloomberg LP, accessed 10/3/2014.




TABLE D.8
                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




AGP TRANSACTION DETAIL, AS OF 9/30/2014
                                 Initial Investment                                               Premium                                       Exchange/Transfer/Other Details                                                  Payment or Disposition                         Market and Warrant Data
                        Seller
                                                                                                                                                                                                                                      Remaining                    Remaining Outstanding            Dividends/
                        Institution       Transaction                                                                                                                                                         Payment                  Premium                      Premium      Warrant Stock Interest Paid to
Note    Date            Name              Type        Description     Guarantee Limit Description             Amount            Date               Type Description                Amount           Date         Type Payment Amount Description                     Amount       Shares Price        Treasury
                                                                                                                                        Exchange                                                                  Partial
                                                                                                                                                             Trust                                                                                      Trust
                                                                                                                                         preferred                                                          cancellation
                                                                                                                                                       Preferred                                                                                  Preferred
                                                                                                                          6/9/20092 stock for trust                         $4,034,000,000   12/23/20093        for early   ($1,800,000,000)                  $2,234,000,000
                                                                                                                                                    Securities w/                                                                              Securities w/
                                                                                                                                         preferred                                                           termination
                                                                                                                                                       Warrants                                                                                   Warrants
                                                                                                                                        securities                                                         of guarantee
                        Citigroup                                                     Preferred
                                                        Master                                                                               Exchange
1       1/16/2009       Inc., New         Guarantee                    $5,000,000,000 Stock w/       $4,034,000,000                                                                                                                                                                           $51.82    $642,832,268
                                                        Agreement                                                                                 trust                                       9/30/20105     Disposition     $2,246,000,000       Warrants                 $—
                        York, NY                                                      Warrants                                                                      Trust
                                                                                                                                             preferred
                                                                                                                                     4                        Preferred
                                                                                                                        9/29/2010            securities                     $2,246,000,000
                                                                                                                                                           Securities w/
                                                                                                                                              for trust                                                         Warrant
                                                                                                                                                              Warrants                        1/25/2011                          $67,197,045          None                 $—
                                                                                                                                             preferred                                                          Auction
                                                                                                                                             securities
                        Citigroup
                                                        Termination
3       12/23/2009      Inc., New         Termination                 ($5,000,000,000)
                                                        Agreement
                        York, NY
                                                                                                                                                 Trust
                                                                                                                                             preferred
                                                                                                                                                                  Trust
                                                                                                                                             securities
                                                                                                                       12/28/20126                            Preferred      $800,000,000
                                                                                                                                              received
                                                                                                                                                              Securities
                                                                                                                                              from the
                                                                                                                                                  FDIC
                                                                                                                                             Exchange
                                                                                                                                                   Trust
                                                                                                                                             preferred     Subordinated
                                                                                                                            2/4/137                                          $894,000,000      2/8/20138     Disposition        $894,000,000          None                 $—
                                                                                                                                          securities for           Note
                                                                                                                                          subordinated
                                                                                                                                                    note
                                                                                                                                                                                                        Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	 Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	 On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
   of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
   FDIC’s Temporary Liquidity Guarantee Program.
4
 	 On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
   exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6
 	 12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800
   million and approximately $183 million in dividend and interest payments from those securities.
7
 	 On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of the
   exchange.
8
 	 On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014; Bloomberg LP, accessed 10/3/2014.
TABLE D.9
TALF TRANSACTION DETAIL, AS OF 9/30/2014
                       Seller                                                                                                  Adjusted Investment                                                Repayment5
                                                    Transaction      Investment                 Investment     Pricing                                                     Final Investment                                                                                        Dividends/Interest Paid
Note    Date           Institution                  Type             Description                   Amount      Mechanism       Date                             Amount     Amount                 Date              Description                                        Amount                  to Treasury
                                                                                                                                           2
                                                                                                                               7/19/2010               $4,300,000,000                             2/6/2013          Principal Repayment                          $100,000,000
                                                                                                                               6/28/20123              $1,400,000,000                             2/6/2013          Contingent Interest Proceeds                 $212,829,610
                                                                                                                                                                                                  3/6/2013          Contingent Interest Proceeds                  $97,594,053
                                                                                                                                                                                                  4/4/2013          Contingent Interest Proceeds                   $6,069,968
                                                                                                                                                                                                  5/6/2013          Contingent Interest Proceeds                   $4,419,259
                                                                                                                                                                                                  6/6/2013          Contingent Interest Proceeds                  $96,496,772
                                                                                                                                                                                                  7/5/2013          Contingent Interest Proceeds                  $11,799,670
                                                                                                                                                                                                  8/6/2013          Contingent Interest Proceeds                  $66,072,965
                                                                                                                                                                                                  9/6/2013          Contingent Interest Proceeds                  $74,797,684
                                                                                                                                                                                                  10/4/2013         Contingent Interest Proceeds                   $1,114,074
                                                                     Debt Obligation
1       3/3/2009       TALF LLC, Wilmington, DE     Purchase         w/ Additional        $20,000,000,000      N/A             1/15/20134                $100,000,000      $100,000,000           11/6/2013         Contingent Interest Proceeds                     $933,181                  $13,407,761
                                                                     Note
                                                                                                                                                                                                  12/5/2013         Contingent Interest Proceeds                   $1,102,424
                                                                                                                                                                                                  1/7/2014          Contingent Interest Proceeds                   $1,026,569
                                                                                                                                                                                                  2/6/2014          Contingent Interest Proceeds                   $1,107,574
                                                                                                                                                                                                  3/6/2014          Contingent Interest Proceeds                   $1,225,983
                                                                                                                                                                                                  4/4/2014          Contingent Interest Proceeds                  $11,597,602
                                                                                                                                                                                                  5/6/2014          Contingent Interest Proceeds                   $1,055,556
                                                                                                                                                                                                  6/5/2014          Contingent Interest Proceeds                   $1,343,150
                                                                                                                                                                                                  7/7/2014          Contingent Interest Proceeds                  $27,005,139
                                                                                                                                                                                                  8/6/2014          Contingent Interest Proceeds                  $14,059,971
                                                                                                                                                                                                  9/5/2014          Contingent Interest Proceeds                     $262,036
                                                                                                                                               Total Investment Amount         $100,000,000                             Total Repayment Amount5                $731,913,241
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report, and Treasury’s 10/10/2014, Dividends and Interest Report.

1
 	 The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
2
 	 On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3
 	 On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4
 	 On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds to provide credit protection is no longer
   necessary.
5
 	 Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
                                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                             463
                                                                                                                                                                                                                                                                                                            464
TABLE D.10
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014
                    Seller              Purchase Details                                                         Exchange/Transfer Details
                                                                                                                                                                                                                                                                                              Dividends/
                    Name of             Transaction      Investment                 Investment   Pricing                                                                                                                            Pricing                        Outstanding Warrant   Interest Paid to
Note Date           Institution         Type             Description                   Amount    Mechanism       Date                                       Transaction Type        Investment Description                Amount    Mechanism       Stock Price                 Shares          Treasury
                                                         Preferred Stock
                                                                                                                                                                                    Preferred Stock w/ Warrants
1      11/25/2008   AIG, New York, NY   Purchase         w/ Warrants           $40,000,000,000   Par             4/17/2009                                  Exchange                                              $40,000,000,000   Par                   $54.02                    —                $—
                                                                                                                                                                                    (Series E)1
                                                         (Series D)
                                                         Preferred Stock                                         See table below for exchange/
2, 3   4/17/2009    AIG, New York, NY   Purchase         w/ Warrants           $29,835,000,000   Par2            transfer details in connection with the                                                                                                  $54.02                    —     $641,275,676
                                                         (Series F)                                              recapitalization conducted on 1/14/2011.
                                                             Initial Total    $69,835,000,000
                                                                                                                                                            Final Disposition
                                                                                                                                                                                                   Transaction
                                                                                                                                                            Date                    Investment     Type                 Proceeds
                                                                                                                                                                                    Warrants
                                                                                                                                                            3/1/2013                               Repurchase        $25,150,923
                                                                                                                                                                                    (Series D)
                                                                                                                                                                                    Warrants
                                                                                                                                                            3/1/2013                               Repurchase             $5,768
                                                                                                                                                                                    (Series F)
                                                                                                                                                                                        Total Warrant Proceeds       $25,156,691


                                      Recapitalization                                                                 Treasury Holdings Post-Recapitalization                                                                        Final Disposition
                                                                                                                                                                                                                                                                     Remaining Recap
                    Investment          Transaction                          Pricing                                                                                                               Transaction                                         Pricing     Investment Amount,
Note Date           Description         Type                                 Mechanism           Investment Description                                     Amount/ Shares          Date           Type                                Proceeds8    Mechanism      Shares, or Equity %
                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                        Exchange                             Par                 Preferred Stock (Series G)                                 $2,000,000,000          5/27/2011      Cancellation                              $—             N/A                  $—10
                                                                                                                                                                                    2/14/2011      Payment                          $185,726,192             Par
                                                                                                                                                                                    3/8/2011       Payment                      $5,511,067,614               Par
                                                                                                                                                                                    3/15/2011      Payment                           $55,833,333             Par
                                                                                                                                                                                    8/17/2011      Payment                           $97,008,351             Par
                                                                                                                                                                                    8/18/2011      Payment                      $2,153,520,000               Par
                                                                                                                                                                                7
                                                                                                 AIA Preferred Units                                        $16,916,603,568                                                                                                       $—8
                                                                                                                                                                                    9/2/2011       Payment                           $55,885,302             Par

                    Preferred Stock     Exchange                             N/A                                                                                                    11/1/2011      Payment                          $971,506,765             Par
4      1/14/2011
                    (Series F)                                                                                                                                                      3/8/2012       Payment                      $5,576,121,382               Par
                                                                                                                                                                                    3/15/2012      Payment                      $1,521,632,096               Par
                                                                                                                                                                                    3/22/2012      Payment                      $1,493,250,339               Par
                                                                                                                                                                                    2/14/2011      Payment                      $2,009,932,072               Par
                                                                                                 ALICO Junior Preferred Interests                           $3,375,328,4327         3/8/2011       Payment                      $1,383,888,037               Par                  $—8
                                                                                                                                                                                    3/15/2012      Payment                           $44,941,843             Par

                                                                                                                                                                                                   Partial                                                              1,455,037,9629
                                        Exchange                                                                                                            167,623,733             5/24/2011                                   $5,800,000,000              N/A
                                                                                                                                                                                                   Disposition                                                                    77%

                                                                                                                                                                                                   Partial                                                             1,248,141,41011
                                                                                                                                                                                    3/8/2012                                    $6,000,000,008              N/A
                                                                                                                                                                                                   Disposition                                                                    70%

                                                                                                                                                                                                   Partial                                                             1,084,206,98412
                    Preferred Stock                                                                                                                                                 5/6/2012                                    $4,999,999,993              N/A
5      1/14/2011                        Exchange                                                                                                            924,546,133                            Disposition                                                                    63%
                    (Series E)
                                                                                                                                                                                                   Partial                                                             1,059,616,82112
                                                                                                                                                                                    5/7/2012                                        $749,999,972            N/A
                                                                                                                                                                                                   Disposition                                                                    61%

                                                                                                                                                                                                   Partial                                                               895,682,39513
                                                                                                                                                                                    8/3/2012                                    $4,999,999,993              N/A
                                                                                                                                                                                                   Disposition                                                                    55%
                                                                             N/A                 Common Stock
                                                                                                                                                                                                   Partial                                                               871,092,23113
                                                                                                                                                                                    8/6/2012                                        $750,000,002            N/A
                                                                                                                                                                                                   Disposition                                                                    53%

                                                                                                                                                                                                   Partial                                                               317,246,07814
                    Common Stock                                                                                                                                                    9/10/2012                                  $17,999,999,973              N/A
6      1/14/2011                        Transfer                                                                                                            562,868,096                            Disposition                                                                    22%
                    (non-TARP)
                                                                                                                                                                                                   Partial                                                               234,169,15614
                                                                                                                                                                                    9/11/2012                                   $2,699,999,965              N/A
                                                                                                                                                                                                   Disposition                                                                    16%

                                                                                                                                                                                                   Final                                                                 234,169,15615
                                                                                                                                                                                    12/14/2012                                  $7,610,497,570              N/A
                                                                                                                                                                                                   Disposition                                                                     0%
                                                                                                                                                                                                          Total               $72,670,810,802
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014                                                                         (CONTINUED)
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from the Treasury’s 9/30/2014, Transactions Report, and Treasury’s 10/10/2014, Dividends and Interest Report.

1
 	 On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	 On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests
    and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	 On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	 On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	 On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	 On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13
  	 On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14
  	 On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15
  	 On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014; Bloomberg LP, accessed 10/1/2014.
                                                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                                                465
TABLE D.11                                                                                                                                                                                                                                                                                                                        466
UCSB TRANSACTION DETAIL, AS OF 9/30/2014
Purchase Details1                                                                                                                             Settlement Details                                                           Final Disposition
                                                                                                                                     TBA                                                                       Senior                             Life-to-date
Purchase                                                                                         Purchase Face          Pricing       or      Settlement            Investment                                Security                               Principal     Current Face            Disposition         Interest Paid to
Date           Investment Description                       Institution Name     CUSIP                Amount3        Mechanism       PMF3     Date                    Amount2,3       TBA or PMF3           Proceeds4       Trade Date            Received1,8         Amount6,8             Amount5,6                 Treasury
3/19/2010      Floating Rate SBA 7a security due 2025       Coastal Securities   83164KYN7           $4,070,000           107.75       —-     3/24/2010            $4,377,249                     —-            $2,184      6/21/2011               $902,633         $3,151,186           $3,457,746                 $169,441
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADC5           $7,617,617               109     —-      3/24/2010            $8,279,156                     —-            $4,130     10/19/2011             $1,685,710         $5,891,602           $6,462,972                 $449,518
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADE1           $8,030,000          108.875      —-      3/24/2010            $8,716,265                     —-            $4,348      6/21/2011             $2,022,652         $5,964,013           $6,555,383                 $371,355
4/8/2010       Floating Rate SBA 7a security due 2034       Coastal Securities   83165AD84          $23,500,000          110.502      —-      5/28/2010           $26,041,643                     —-           $12,983        6/7/2011            $1,149,633        $22,350,367          $25,039,989               $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016       Coastal Securities   83164KZH9           $8,900,014             107.5     —-      4/30/2010            $9,598,523                     —-            $4,783        6/7/2011            $2,357,796         $6,542,218           $7,045,774                 $414,561
5/11/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEE0          $10,751,382          106.806      —-      6/30/2010           $11,511,052                     —-            $5,741        6/7/2011              $932,112         $9,819,270          $10,550,917                 $348,599
5/11/2010      Floating Rate SBA 7a security due 2035       Coastal Securities   83164K2Q5          $12,898,996           109.42      —-      6/30/2010           $14,151,229                     —-            $7,057        6/7/2011              $328,604        $12,570,392          $13,886,504                 $479,508
5/11/2010      Floating Rate SBA 7a security due 2033       Coastal Securities   83165AED2           $8,744,333          110.798      —-      6/30/2010            $9,717,173                     —-            $4,844        6/7/2011              $261,145         $8,483,188           $9,482,247                 $368,608
5/25/2010      Floating Rate SBA 7a security due 2029       Coastal Securities   83164K3B7           $8,417,817          110.125      —-      7/30/2010            $9,294,363                     —-            $4,635        6/7/2011              $246,658         $8,171,159           $8,985,818                 $287,624
5/25/2010      Floating Rate SBA 7a security due 2033       Coastal Securities   83165AEK6          $17,119,972          109.553      —-      7/30/2010           $18,801,712                     —-            $9,377      9/20/2011             $2,089,260        $15,030,712          $16,658,561                 $657,863
6/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEQ3          $34,441,059          110.785      —-      8/30/2010           $38,273,995                     —-           $19,077      6/21/2011             $1,784,934        $32,656,125          $36,072,056               $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034       Coastal Securities   83165AEP5          $28,209,085          112.028      —-      8/30/2010           $31,693,810                     —-           $15,801      9/20/2011             $2,278,652        $25,930,433          $29,142,474               $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83164K3Y7           $6,004,156          106.625      —-      9/30/2010            $6,416,804                     —-            $3,200      6/21/2011               $348,107         $5,656,049           $6,051,772                 $146,030
7/14/2010      Floating Rate SBA 7a security due 2025       Shay Financial       83164K4J9           $6,860,835          108.505      —-      9/30/2010            $7,462,726                     —-            $3,722     10/19/2011               $339,960         $6,520,875           $7,105,304                 $255,370
7/14/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83165AE42          $13,183,361           111.86      —-      9/30/2010           $14,789,302                     —-            $7,373      6/21/2011               $478,520        $12,704,841          $14,182,379                 $423,725
                                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




7/29/2010      Floating Rate SBA 7a security due 2017       Coastal Securities   83164K4E0           $2,598,386          108.438      —-      9/30/2010            $2,826,678                     —-            $1,408      1/24/2012               $694,979         $1,903,407           $2,052,702                 $140,130
7/29/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83164K4M2           $9,719,455           106.75      —-      10/29/2010          $10,394,984                     —-            $5,187      6/21/2011               $188,009         $9,531,446          $10,223,264                 $181,124
8/17/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AEZ3           $8,279,048          110.198      —-      9/30/2010            $9,150,989                     —-            $4,561      9/20/2011             $1,853,831         $6,425,217           $7,078,089                 $335,082
8/17/2010      Floating Rate SBA 7a security due 2019       Coastal Securities   83165AFB5           $5,000,000          110.088      —-      10/29/2010           $5,520,652                     —-            $2,752     10/19/2011               $419,457         $4,580,543           $5,029,356                 $213,319
8/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83165AE91          $10,000,000          110.821      —-      10/29/2010          $11,115,031                     —-            $5,541     10/19/2011               $969,461         $9,030,539           $9,994,806                 $433,852
8/31/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AEW0           $9,272,482          110.515      —-      9/29/2010           $10,277,319                     —-            $5,123      9/20/2011               $868,636         $8,403,846           $9,230,008                 $386,326
8/31/2010      Floating Rate SBA 7a security due 2024       Shay Financial       83165AFA7          $10,350,000          112.476      —-      10/29/2010          $11,672,766                     —-            $5,820     10/19/2011               $250,445        $10,099,555          $11,314,651                 $425,545
8/31/2010      Floating Rate SBA 7a security due 2020       Coastal Securities   83164K5H2           $6,900,000          105.875      —-      11/30/2010           $7,319,688                     —-            $3,652      1/24/2012               $663,200         $6,236,800           $6,556,341                 $209,956
9/14/2010      Floating Rate SBA 7a security due 2020       Shay Financial       83165AFC3           $8,902,230          111.584      —-      10/29/2010           $9,962,039                     —-            $4,966      1/24/2012             $1,398,549         $7,503,681           $8,269,277                 $447,356
9/14/2010      Floating Rate SBA 7a security due 2021       Shay Financial       83165AFK5           $8,050,000          110.759      —-      11/30/2010           $8,940,780                     —-            $4,458      1/24/2012               $996,133         $7,053,867           $7,703,610                 $354,302
9/14/2010      Floating Rate SBA 7a security due 2029       Coastal Securities   83164K5F6           $5,750,000             106.5     —-      11/30/2010           $6,134,172                     —-            $3,061      1/24/2012               $276,276         $5,473,724           $5,764,858                 $156,481
9/14/2010      Floating Rate SBA 7a security due 2026       Coastal Securities   83164K5L3           $5,741,753             110.5     —-      11/30/2010           $6,361,173                     —-            $3,172      1/24/2012             $1,433,872         $4,307,881           $4,693,918                 $239,527
9/28/2010      Floating Rate SBA 7a security due 2035       Coastal Securities   83164K5M1           $3,450,000          110.875      —-      11/30/2010           $3,834,428                     —-            $1,912     10/19/2011                $82,832         $3,367,168           $3,698,411                 $111,165
9/28/2010      Floating Rate SBA 7a security due 2034       Coastal Securities   83165AFT6          $11,482,421          113.838      —-      12/30/2010          $13,109,070                     —-            $6,535      1/24/2012               $889,646        $10,592,775          $11,818,944                 $512,131
9/28/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83165AFM1          $13,402,491             113.9     —-      11/30/2010          $15,308,612                     —-            $7,632     10/19/2011               $438,754        $12,963,737          $14,433,039                 $516,624
9/28/2010      Floating Rate SBA 7a security due 2035       Shay Financial       83165AFQ2          $14,950,000          114.006      —-      12/30/2010          $17,092,069                     —-            $8,521      1/24/2012               $387,839        $14,562,161          $16,383,544                 $681,819
                                                                                                                                                                                       Total Senior
                                                              Total Purchase Face Amount         $332,596,893                  Total Investment Amount*        $368,145,452                Security          $183,555                               Total Disposition Proceeds        $334,924,711               $13,347,352
                                                                                                                                                                                         Proceeds
Notes: Numbers affected by rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

*Subject to adjustment
1
 	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
 	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
 	 If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
   listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
   month’s factor (on or about the 11th business day of each month).
4
 	 In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
   product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
   Master Purchase Agreement.
5
 	 Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
 	 If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
   11th business day of each month).
7
 	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
 	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
TABLE D.12
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014
                                                                                                                                                                        Final
                                                                                                            Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                    Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date         Institution       City         State Type        Description         Amount Mechanism        Date         Amount Date               Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                  UST/TCW                                         Debt
                                                                                                                                                                                                                          Debt Obligation
                  Senior Mortgage                                 Obligation w/
2,4,5 9/30/2009                    Wilmington     DE Purchase                     $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
                  Securities Fund,                                Contingent
                                                                                                                                                                                                                          Proceeds
                  L.P.                                            Proceeds
                                                                                                                                                                                                                                            1/29/2010 Distribution5           $502,302
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                 1/12/2010    $166,000,000             $—                               Final
                                                                                                                                                                                                                            Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                        Distribution5                         $342,176
                  UST/TCW
                  Senior Mortgage                                 Membership
1,4,5 9/30/2009                    Wilmington     DE Purchase                     $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution5        $20,091,872
                  Securities Fund,                                Interest                                                                                                                                                  Membership
                  L.P.                                                                                                                                                           1/15/2010    $156,250,000             $—
                                                                                                                                                                                                                            Interest
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                            2/24/2010                             $48,922
                                                                                                                                                                                                                                                        Distribution5
                  Invesco Legacy
                                                                  Membership                                                                                                                                                Membership
1,6   9/30/2009   Securities Master Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010    $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010          $2,444,347   $578,515,653
                                                                  Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                            Interest10                                                      $99,764,742
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                           467
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                                       468
                                                                                                                                                                      Final
                                                                                                           Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                    Seller                                                    Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                  Repayment           Repayment                                                                                    Paid to
Note Date         Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                          3/29/2012 Distribution5         $56,390,209
                                                                                                                                                                                                                                          8/9/2012    Distribution5        $1,056,751
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                        Membership        9/28/2012                             $18,772
                                                                                                                                                                               3/29/2012    $161,386,870             $—                               Distribution5
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                                      Adjusted
                                                                                                                                                                                                                                          6/4/2013                              $69,399
                                                                                                                                                                                                                                                      Distribution5, 13
                                                                                                                                                                                                                                          7/8/2013    Distribution5, 14         $64,444
                                                                  Debt
                  Invesco Legacy                                                                                                                                                                                        Debt Obligation
                                                                  Obligation w/
2,6,8 9/30/2009   Securities Master Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010         $4,888,718 $1,157,031,282 w/ Contingent
                                                                  Contingent
                  Fund, L.P.                                                                                                                                                                                            Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                              11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)
                                                                                                                                                                      Final
                                                                                                           Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                    Seller                                                    Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                  Repayment           Repayment                                                                                     Paid to
Note Date         Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description            Proceeds     Treasury
                                                                                                                                                                                                                                          3/29/2012 Distribution5           $3,434,460
                                                                                                                                                                                                                                          8/9/2012    Distribution5              $40,556
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                        Contingent        9/28/2012                                $469
                                                                                                                                                                               3/14/2012    $284,468,750             $—                               Distribution5
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                      Adjusted
                                                                                                                                                                                                                                          6/4/2013                                $1,735
                                                                                                                                                                                                                                                      Distribution5, 13
                                                                                                                                                                                                                                          7/8/2013    Distribution5, 14           $1,611
                  Wellington
                                                                  Debt
                  Management                                                                                                                                                                                            Debt Obligation
                                                                  Obligation w/
2,6   10/1/2009   Legacy Securities Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012       $125,000,000 $2,173,974,000 w/ Contingent
                                                                  Contingent
                  PPIF Master                                                                                                                                                                                           Proceeds
                                                                  Proceeds
                  Fund, LP
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/21/2012    $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/15/2013     $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                           $229,105,784
                                                                                                                                                                                                                          Contingent      4/17/2013 Distribution5,11       $16,195,771
                                                                                                                                                                               1/24/2013    $341,479,690             $—
                                                                                                                                                                                                                          Proceeds        7/11/2013 Distribution5,11             $69,932
                  Wellington
                  Management
                                                                  Membership                                                                                                                                              Membership
1,6   10/1/2009   Legacy Securities Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012        $62,499,688 $1,086,987,313
                                                                  Interest                                                                                                                                                Interest10
                  PPIF Master
                  Fund, LP
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               9/17/2012    $152,499,238   $934,488,075
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               1/15/2013    $254,581,112   $679,906,963
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               2/13/2013    $436,447,818   $243,459,145
                                                                                                                                                                                                                          Interest10

                                                                                                                                                                                                                          Membership      3/13/2013 Distribution5,11      $479,509,240
                                                                                                                                                                               3/13/2013    $243,459,145             $—
                                                                                                                                                                                                                          Interest10      7/11/2013 Distribution5,11        $2,802,754
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                          469
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                                        470
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                 Investment After Capital
                                                     Seller                                                    Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                  Repayment          Repayment                                                                                     Paid to
Note Date          Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date              Amount         Amount      Date             Amount          Amount Description       Date         Description           Proceeds     Treasury
                                                                   Debt
                   AllianceBernstein                                                                                                                                                                                    Debt Obligation
                                                                   Obligation w/
2,6,12 10/2/2009   Legacy Securities Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011       $30,244,575 $2,097,755,425 w/ Contingent
                                                                   Contingent
                   Master Fund, L.P.                                                                                                                                                                                    Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/27/2012    $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/14/2012    $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          10/3/2012 Distribution5,11      $12,012,957 $252,376,156
                                                                                                                                                                                                                          Contingent      12/21/2012 Distribution5,11            $16,967
                                                                                                                                                                               8/22/2012    $583,467,339             $—
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                                -$460
                                                                                                                                                                                                                                                       Refund
                   AllianceBernstein
                                                                   Membership                                                                                                                                             Membership
1,6   10/2/2009    Legacy Securities Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010           $44,043 $1,064,097,694
                                                                   Interest                                                                                                                                               Interest10
                   Master Fund, L.P.
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2011      $6,716,327 $1,056,669,083
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/14/2011      $7,118,388 $1,049,550,694
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2012     $39,999,800 $1,009,550,894
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               6/14/2012    $287,098,565   $722,452,330
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               7/16/2012     $68,749,656   $653,702,674
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/14/2012    $361,248,194   $292,454,480
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          8/30/2012 Distribution5,11      $75,278,664
                                                                                                                                                                                                                                          9/12/2012 Distribution5,11      $79,071,633
                                                                                                                                                                                                                                          9/19/2012 Distribution5,11     $106,300,357
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/30/2012    $292,454,480             $—                   10/1/2012 Distribution5,11      $25,909,972
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                    Distribution
                                                                                                                                                                                                                                          8/13/2013                              -$18,405
                                                                                                                                                                                                                                                    Refund
                                                                                                                                                                                                                                                                                  Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                                                                        Final
                                                                                                            Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                     Seller                                                    Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date          Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date        Description            Proceeds     Treasury
                                                                   Debt
                                                                                                                                                                                                                          Debt Obligation
                   Blackrock PPIF,                                 Obligation w/
2,6   10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                   L.P.                                            Contingent
                                                                                                                                                                                                                          Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 8/14/2012      $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 8/31/2012     $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 9/17/2012      $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 9/28/2012     $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation                                                   $72,443,278
                                                                                                                                                                                10/15/2012     $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                            11/5/2012 Distribution5,11       $8,289,431
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                10/18/2012    $794,459,374             $—                   12/5/2012 Distribution5,11       $1,433,088
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                            12/6/2013 Distribution5,11         $141,894
                   Blackrock PPIF,                                 Membership                                                                                                                                               Membership
1,6   10/2/2009                      Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012         $90,269,076   $437,915,724
                   L.P.                                            Interest                                                                                                                                                 Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 9/17/2012      $8,833,632   $429,082,092
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                10/15/2012     $10,055,653   $419,026,439
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            11/5/2012 Distribution5,11     $297,511,708
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 11/5/2012    $419,026,439             $—                   12/5/2012 Distribution5,11      $57,378,964
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                            12/6/2013 Distribution5,11       $1,609,739
                                                                   Debt
                                                                                                                                                                                                                          Debt Obligation
                   AG GECC PPIF                                    Obligation w/
2,6   10/30/2009                     Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                   Master Fund, L.P.                               Contingent
                                                                                                                                                                                                                          Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 7/16/2012     $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                                                                                                                          $283,096,130
                                                                                                                                                                                 8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                10/15/2012    $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                11/15/2012    $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                12/14/2012    $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            471
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                                            (CONTINUED)                                                                                                                                                                                                        472
                                                                                                                                                                                    Final
                                                                                                                         Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                                Seller                                                      Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                                    Distributions
                                                                 Transaction Investment           Commitment   Pricing                                                                  Repayment           Repayment                                                                                     Paid to
Note Date             Institution            City          State Type        Description             Amount Mechanism      Date          Amount Date              Amount         Amount      Date              Amount         Amount Description        Date        Description            Proceeds     Treasury
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             1/15/2013    $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                                        4/19/2013 Distribution5,11      $17,118,005
                                                                                                                                                                                                                                                        4/25/2013 Distribution5,11       $1,052,497
                                                                                                                                                                                                                                        Contingent
                                                                                                                                                                                             2/14/2013    $201,075,230             $—                   5/29/2013 Distribution5,11       $1,230,643
                                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                  Final
                                                                                                                                                                                                                                                        9/30/2014                              $41,556
                                                                                                                                                                                                                                                                  Distribution5,11
                 AG GECC PPIF                                                      Membership                                                                                                                                         Membership
1,6   10/30/2009                    Wilmington DE Purchase                                      $1,111,111,111     Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012        $87,099,565 $1,030,299,606
                 Master Fund, L.P.                                                 Interest                                                                                                                                           Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             3/14/2012     $99,462,003   $930,837,603
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             5/14/2012     $74,999,625   $855,837,978
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             7/16/2012     $18,749,906   $837,088,072
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             8/14/2012     $68,399,658   $768,688,414
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             9/17/2012    $124,999,375   $643,689,039
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                            10/15/2012    $240,673,797   $403,015,242
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                            11/15/2012     $45,764,825   $357,250,417
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                            12/14/2012     $24,588,926   $332,661,491
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             1/15/2013     $30,470,429   $302,191,061
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                        Membership
                                                                                                                                                                                             2/14/2013    $295,328,636     $6,862,425
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                                        2/21/2013 Distribution5,11     $184,431,858
                                                                                                                                                                                                                                                        2/27/2013 Distribution5,11      $20,999,895
                                                                                                                                                                                                                                                        3/14/2013 Distribution5,11     $156,174,219
                                                                                                                                                                                                                                        Membership      4/19/2013 Distribution5,11     $105,620,441
                                                                                                                                                                                             2/21/2013      $6,862,425             $—
                                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                                        4/25/2013 Distribution5,11      $42,099,442
                                                                                                                                                                                                                                                        5/29/2013 Distribution5,11      $49,225,244
                                                                                                                                                                                                                                                                    Final
                                                                                                                                                                                                                                                        9/30/2014                        $1,748,833
                                                                                                                                                                                                                                                                    Distribution5,11
                                                                                                                                                                                                                                                                                               Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                    Seller                                                    Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date         Institution       City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                                                                  Debt
                  RLJ Western Asset                                                                                                                                                                                      Debt Obligation
                                                                  Obligation w/
2,6   11/4/2009   Public/Private    Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                                                                  Contingent
                  Master Fund, L.P.                                                                                                                                                                                      Proceeds
                                                                  Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                 8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11       $6,789,287
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11        $3,718,769 $161,505,775
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                9/21/2012    $161,866,170             $—                   12/21/2012 Distribution5,11            $13,750
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                              $1,884
                                                                                                                                                                                                                                                        Distribution5,11
                  RLJ Western Asset
                                                                  Membership                                                                                                                                               Membership
1,6   11/4/2009   Public/Private    Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011          $1,202,957   $619,375,301
                                                                  Interest                                                                                                                                                 Interest10
                  Master Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                4/14/2011      $3,521,835   $615,853,465
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                8/14/2012    $104,959,251   $510,894,215
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/17/2012     $72,640,245   $438,253,970
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/28/2012    $180,999,095   $257,254,875
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/15/2012    $134,999,325   $122,255,550
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11     $147,464,888
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11      $148,749,256
                                                                                                                                                                                                                         Membership
                                                                                                                                                                               10/19/2012    $122,255,550             $—                   12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                             $75,372
                                                                                                                                                                                                                                                        Distribution5,11
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                           473
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                                         474
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                    Seller                                                    Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date          Institution      City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount         Amount Description        Date         Description           Proceeds     Treasury
                 Marathon Legacy                                  Debt
                                                                                                                                                                                                                         Debt Obligation
                 Securities Public-                               Obligation w/
2,6   11/25/2009                    Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012        $149,000,000   $800,000,000 w/ Contingent
                 Private Investment                               Contingent
                                                                                                                                                                                                                         Proceeds
                 Partnership, L.P.                                Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/20/2012    $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               12/14/2012     $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                1/15/2013     $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11        $7,143,340
                                                                                                                                                                                                                                           5/16/2013 Distribution5,11         $963,411
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                                1/24/2013    $375,212,503             $—                   7/11/2013 Distribution5,11         $750,004
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11      $100,001
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11        $142,168
                                                                                                                                                                                                                                                                                           $77,496,170
                 Marathon Legacy
                 Securities Public-                               Membership                                                                                                                                               Membership
1,6   11/25/2009                    Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012         $74,499,628   $400,050,373
                 Private Investment                               Interest                                                                                                                                                 Interest10
                 Partnership, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               11/15/2012     $59,787,459   $340,262,914
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               12/14/2012     $40,459,092   $299,803,821
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/15/2013     $10,409,317   $289,394,504
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/30/2013    $219,998,900    $69,395,604
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                2/25/2013     $39,026,406    $30,369,198
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/25/2013 Distribution5,11      $164,629,827
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11       $71,462,104

                                                                                                                                                                                                                           Membership      5/16/2013 Distribution5,11       $38,536,072
                                                                                                                                                                                3/25/2013     $30,369,198             $—
                                                                                                                                                                                                                           Interest10      7/11/2013 Distribution5,11       $29,999,850
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11     $3,999,980
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11       $5,707,723
                                                                                                                                                                                                                                                                                  Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                                                                                     Final
                                                                                                         Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                  Seller                                                    Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                     Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                     Paid to
Note Date          Institution    City         State Type        Description         Amount Mechanism      Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                                                                Debt
                                                                                                                                                                                                                       Debt Obligation
                   Oaktree PPIP                                 Obligation w/
2,6   12/18/2009                  Wilmington    DE Purchase                     $2,222,222,222     Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011         $79,000,000 $1,032,000,000 w/ Contingent
                   Fund, L.P.                                   Contingent
                                                                                                                                                                                                                       Proceeds
                                                                Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              3/14/2012     $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              9/17/2012     $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             10/15/2012     $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             11/15/2012    $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             12/14/2012    $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              1/15/2013     $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              4/12/2013    $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                         5/28/2013 Distribution5,11         $444,393
                                                                                                                                                                                                                                         6/3/2013     Distribution5,11    $1,960,289
                                                                                                                                                                                                                                         6/14/2013 Distribution5,11       $1,375,007 $66,648,417
                                                                                                                                                                                                                       Contingent        6/24/2013 Distribution5,11         $700,004
                                                                                                                                                                              5/14/2013    $311,134,469             $—
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                         6/26/2013 Distribution5,11         $293,751
                                                                                                                                                                                                                                         7/9/2013     Distribution5,11    $1,024,380
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                         12/12/2013                             $13,475
                                                                                                                                                                                                                                                      Distribution5,11
                   Oaktree PPIP                                 Membership                                                                                                                                               Membership
1,6   12/18/2009                  Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100   $555,904,633 7/15/2011         $39,499,803   $516,404,830
                   Fund, L.P.                                   Interest                                                                                                                                                 Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              3/14/2012     $39,387,753   $477,017,077
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              9/17/2012     $22,111,961   $454,905,116
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                             10/15/2012     $32,496,972   $422,408,144
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                             11/15/2012    $111,539,536   $310,868,608
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                             12/14/2012     $55,540,026   $255,328,581
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              1/15/2013     $14,849,910   $240,478,671
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              4/12/2013     $18,268,328   $222,210,343
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              5/14/2013     $70,605,973   $151,604,370
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              5/28/2013    $119,769,362    $31,835,008
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         475
    PPIP TRANSACTION DETAIL, AS OF 9/30/2014                                                             (CONTINUED)                                                                                                                                                                                                                                             476
                                                                                                                                                                                                                Final
                                                                                                                                      Preliminary Adjusted                                                Investment                                         Investment After Capital
                                                                Seller                                                                   Commitment3                Final Commitment Amount7                 Amount9     Capital Repayment Details                 Repayment                           Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                                 Interest/
                                                                                                                                                                                                                                                                                                                                             Distributions
                                                                 Transaction Investment             Commitment   Pricing                                                                                            Repayment               Repayment                                                                                              Paid to
Note Date                  Institution         City        State Type        Description               Amount Mechanism                  Date             Amount Date                     Amount             Amount      Date                  Amount             Amount Description        Date          Description               Proceeds     Treasury
                                                                                                                                                                                                                                                                                            6/3/2013       Distribution5,11      $46,575,750
                                                                                                                                                                                                                                                                                            6/14/2013 Distribution5,11           $54,999,725
                                                                                                                                                                                                                                                                                            6/24/2013 Distribution5,11           $27,999,860
                                                                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                                          6/3/2013         $31,835,008                 $—                   6/26/2013 Distribution5,11           $11,749,941
                                                                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                            7/9/2013       Distribution5,11      $40,974,795
                                                                                                                                                                                                                                                                                                           Final
                                                                                                                                                                                                                                                                                            12/12/2013                              $539,009
                                                                                                                                                                                                                                                                                                           Distribution5,11
                                              Initial Investment Amount                       $30,000,000,000                        Final Commitment Amount                  $21,856,403,574           Total Capital Repayment $18,625,147,938                                             Total Proceeds5                   $2,645,106,311
Notes: Numbers may not total due to rounding. Data as of 9/30/2014. Numbered notes were taken verbatim from Treasury’s 9/30/2014, Transactions Report.

1
 	       The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	       The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	       Adjusted to show Treasury’s maximum obligations to a fund.
4
 	       On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	       Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on
         the Dividends & Interest report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6
 	       Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
         the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
                                                                                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




 	       Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	       On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	       Cumulative capital drawn at end of the Investment Period.
10
  	      The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11
  	      Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12
  	      On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
13
  	      On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution was made 18
         months after the Final Distribution on 9/28/2012.
14
     	   On 7/8/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury arising from the Settlement Agreement between Jefferies LLC and Invesco Advisers, Inc. dated as of 3/20/2013.

Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Dividends and Interest Report, 10/10/2014.
TABLE D.13
HAMP TRANSACTION DETAIL, AS OF 9/30/2014
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 3/14/2013         $130,000        $130,000    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013               ($1)      $129,999    Updated due to quarterly assessment and reallocation
                                                                                                                12/16/2013          $30,000        $159,999    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013              ($96)      $159,903    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2014         $180,000        $339,903    Transfer of cap due to servicing transfer

                                                    Financial                                                    3/26/2014              ($20)      $339,883    Updated due to quarterly assessment and reallocation
            21st Mortgage
                                                    Instrument for
3/14/2013   Corporation, Knoxville,   Purchase                                         $0    N/A          3      4/16/2014       $10,000,000    $10,339,883    Transfer of cap due to servicing transfer
                                                    Home Loan                                                                                                                                                          $308,647    $995,595           $280,405              $1,584,647
            TN
                                                    Modifications                                                6/16/2014         $190,000     $10,529,883    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014           ($3,148)   $10,526,735    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014           ($6,175)   $10,520,560    Updated due to quarterly assessment and reallocation
                                                                                                                 8/14/2014          $50,000     $10,570,560    Transfer of cap due to servicing transfer
                                                                                                                 9/16/2014         $130,000     $10,700,560    Transfer of cap due to servicing transfer
                                                                                                                 9/29/2014           ($2,146)   $10,698,414    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit                     Instrument for
9/30/2010                             Purchase                                  $100,000     N/A
            Bank, Columbia, SC                      Home Loan                                                    3/23/2011        ($145,056)             $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                    Modifications
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009          $60,000        $310,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009         ($80,000)       $230,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $280,000        $510,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($410,000)       $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                    Financial                                                    6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
            Allstate Mortgage Loans
                                                    Instrument for
9/11/2009   & Investments, Inc.,      Purchase                                  $250,000     N/A                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation      $6,742     $11,665             $8,036                 $26,443
                                                    Home Loan
            Ocala, FL
                                                    Modifications                                                9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013            ($232)       $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014            ($191)       $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    8/14/2014        $7,600,000     $7,600,000    Transfer of cap due to servicing transfer
                                                    Instrument for
8/14/2014   Ally Bank, Midvale, UT    Purchase                                         $0    N/A          3                                                                                                             $89,765    $275,588            $32,294                $397,647
                                                    Home Loan                                                    9/29/2014           ($1,152)    $7,598,848    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Financial
            Amarillo National Bank,                 Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Amarillo, TX                            Home Loan                                                   12/23/2013            ($232)       $144,819    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                 7/29/2014            ($191)       $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           477
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                         478
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                       TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                          Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                         Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount    Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                    Financial
            Ameriana Bank,                          Instrument for
7/16/2014                             Purchase                                         $0    N/A          3      7/16/2014          $60,000        $60,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
            New Castle, IN                          Home Loan
                                                    Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010          $70,000     $1,660,000
                                                                                                                                                              program initial cap
                                                                                                                 3/26/2010        ($290,000)    $1,370,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($570,000)      $800,000    Updated portfolio data from servicer
                                                    Financial
            American Eagle Federal
                                                    Instrument for                                               9/30/2010          $70,334       $870,334    Updated portfolio data from servicer
12/9/2009   Credit Union, East        Purchase                                 $1,590,000    N/A                                                                                                                            $0           $0                 $0                      $0
                                                    Home Loan
            Hartford, CT                                                                                          1/6/2011              ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/30/2011              ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012        ($870,319)            $0    Termination of SPA
                                                    Financial                                                    9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            American Finance
                                                    Instrument for
9/24/2010   House LARIBA,             Purchase                                  $100,000     N/A                                                                                                                            $0           $0                 $0                      $0
                                                    Home Loan                                                     2/2/2011        ($145,056)            $0    Termination of SPA
            Pasadena, CA
                                                    Modifications
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011              ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Financial
            American Financial                                                                                   3/25/2013              ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010   Resources Inc.,           Purchase                                  $100,000     N/A                                                                                                                            $0           $0                 $0                      $0
                                                    Home Loan                                                   12/23/2013            ($232)      $144,819    Updated due to quarterly assessment and reallocation
            Parsippany, NJ
                                                    Modifications
                                                                                                                 3/26/2014              ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014            ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014             ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010          $30,000        $40,000
                                                                                                                                                              program initial cap
                                                                                                                 9/30/2010         $250,111       $290,111    Updated portfolio data from servicer
                                                                                                                 6/29/2011          $59,889       $350,000    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($2)      $349,998    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($5)      $349,993    Updated due to quarterly assessment and reallocation
                                                    Financial                                                   12/27/2012              ($1)      $349,992    Updated due to quarterly assessment and reallocation
            Aurora Financial Group,                 Instrument for
5/21/2010                             Purchase                                    $10,000    N/A                                                                                                                       $24,689           $0           $27,844                 $52,533
            Inc., Marlton, NJ                       Home Loan                                                    3/25/2013              ($3)      $349,989    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 6/27/2013                        $349,988    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013            ($759)      $349,229    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($27)      $349,202    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014            ($315)      $348,887    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014            ($625)      $348,262    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014            ($207)      $348,055    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009    ($338,450,000)    $459,550,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($11,860,000)   $447,690,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $21,330,000    $469,020,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $9,150,000    $478,170,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                                9/1/2010          $400,000    $401,700,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       ($8,454,269)   $393,245,731   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($342)   $393,245,389   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011             ($374)   $393,245,015   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011       $18,000,000    $411,245,015   Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011           ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation
            Aurora Loan Services,                 Instrument for                                              10/14/2011        ($200,000)    $411,041,742   Transfer of cap due to servicing transfer
5/1/2009                            Purchase                              $798,000,000     N/A         11                                                                                                           $15,997,418   $41,236,850       $28,629,251             $85,863,519
            LLC, Littleton, CO                    Home Loan
                                                  Modifications                                                3/15/2012          $100,000    $411,141,742   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($500,000)    $410,641,742   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012          ($90,000)   $410,549,974   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012    ($134,230,000)    $276,319,974   Transfer of cap due to servicing transfer
                                                                                                               8/23/2012    ($166,976,849)    $109,343,125   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012                $1    $109,343,126   Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012        ($230,000)    $109,113,126   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013               ($1)   $109,113,125   Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          ($20,000)   $109,093,125   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013          ($50,000)   $109,043,125   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($15)   $109,043,110   Updated due to quarterly assessment and reallocation
                                                                                                                7/9/2013      ($23,179,591)    $85,863,519   Termination of SPA
                                                                                                               9/30/2010          $765,945      $2,465,945   Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)     $2,465,942   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)     $2,465,938   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($36)     $2,465,902   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($30)     $2,465,872   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($83)     $2,465,789   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($14)     $2,465,775   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($53)     $2,465,722   Updated due to quarterly assessment and reallocation

                                                  Financial                                                    6/27/2013              ($20)     $2,465,702   Updated due to quarterly assessment and reallocation
            Banco Popular de
                                                  Instrument for
9/30/2010   Puerto Rico, San        Purchase                                 $1,700,000    N/A                 9/16/2013          $460,000      $2,925,702   Transfer of cap due to servicing transfer                 $66,234       $75,078            $42,783                $184,095
                                                  Home Loan
            Juan, PR
                                                  Modifications                                                9/27/2013               ($7)     $2,925,695   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013          ($12,339)     $2,913,356   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014           $50,000      $2,963,356   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014             ($449)     $2,962,907   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014           $10,000      $2,972,907   Transfer of cap due to servicing transfer
                                                                                                               5/15/2014           $20,000      $2,992,907   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               6/26/2014           ($5,322)     $2,987,585   Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014          ($10,629)     $2,976,956   Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           ($3,515)     $2,973,441   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            479
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                                  480
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                                TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                   Financial
            Bangor Savings Bank,                   Instrument for
9/15/2011                            Purchase                                         $0    N/A          3      9/15/2011           $100,000         $100,000    Transfer of cap due to servicing transfer                       $0              $0                 $0                      $0
            Bangor, ME                             Home Loan
                                                   Modifications
                                                                                                                6/12/2009         $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      $162,680,000      $967,120,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009      $665,510,000     $1,632,630,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/26/2010      $800,390,000     $2,433,020,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010     ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                7/14/2010     ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010        $95,300,000    $1,332,200,000
                                                                                                                                                                 program initial cap
                                                   Financial
            Bank of America, N.A.,                 Instrument for                                               9/30/2010      $222,941,084     $1,555,141,084   Updated portfolio data from servicer
4/17/2009                            Purchase                              $798,900,000     N/A         7, 7                                                                                                              $4,099,062    $17,843,110        $9,075,439             $31,017,611
            Simi Valley, CA                        Home Loan
                                                   Modifications                                                 1/6/2011            ($2,199)   $1,555,138,885   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                3/30/2011            ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011           ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011         ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011     ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012         ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                8/10/2012    ($1,401,716,594)     $31,278,513    Termination of SPA
                                                                                                               10/16/2013         ($260,902)      $31,017,611    Termination of SPA
                                                                                                                6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     ($717,420,000)    $4,465,420,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009     $2,290,780,000    $6,756,200,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/26/2010      $450,100,000     $7,206,300,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                4/19/2010        $10,280,000    $8,121,590,000   Transfer of cap due to servicing transfer
                                                                                                                6/16/2010      $286,510,000     $8,408,100,000   Transfer of cap due to servicing transfer
                                                                                                                7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010      $105,500,000     $6,726,300,000
                                                                                                                                                                 program initial cap
            Bank of America, N.A.                  Financial
            (BAC Home Loans                        Instrument for                                               9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
4/17/2009                            Purchase                            $1,864,000,000     N/A                                                                                                                         $343,033,327   $711,253,455      $408,021,691          $1,462,308,473
            Servicing, LP), Simi                   Home Loan
            Valley, CA                             Modifications                                               12/15/2010      $236,000,000     $6,347,772,638   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011            ($8,012)   $6,347,764,626   Updated due to quarterly assessment and reallocation
                                                                                                                2/16/2011         $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011           $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011            ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011           $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011           $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011        ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011           ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011         ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                8/16/2011        ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011        ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                      10/14/2011     $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                      10/19/2011     $317,956,289     $6,782,629,378   Transfer of cap due to merger/acquisition
                                                                                                      11/16/2011          $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                      12/15/2011      ($17,600,000)   $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                       2/16/2012       ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012      ($23,900,000)   $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                       4/16/2012      ($63,800,000)   $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012           $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012       ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012          ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2012       ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                       8/10/2012    $1,401,716,594    $8,062,007,423   Transfer of cap due to merger/acquisition
                                                                                                       8/16/2012       ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012        ($205,946)    $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012    ($153,220,000)    $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012      ($27,300,000)   $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                      12/14/2012      ($50,350,000)   $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012          ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2013      ($27,000,000)   $7,799,117,961   Transfer of cap due to servicing transfer
                                                                                                       2/14/2013      ($41,830,000)   $7,757,287,961   Transfer of cap due to servicing transfer
                                                                                                       3/14/2013       ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013        ($122,604)    $7,751,265,357   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2013       ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer
                                                                                                       5/16/2013        ($940,000)    $7,748,915,357   Transfer of cap due to servicing transfer
                                                                                                       6/14/2013      ($16,950,000)   $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013          ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013      ($25,580,000)   $7,706,340,254   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013       ($6,730,000)   $7,699,610,254   Transfer of cap due to servicing transfer
                                                                                                       9/16/2013    ($290,640,000)    $7,408,970,254   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013          ($15,411)   $7,408,954,843   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013      ($79,200,000)   $7,329,754,843   Transfer of cap due to servicing transfer
                                                                                                      10/16/2013          $260,902    $7,330,015,745   Transfer of cap due to merger/acquisition
                                                                                                      11/14/2013      ($14,600,000)   $7,315,415,745   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013      ($23,220,000)   $7,292,195,745   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013      ($25,226,860)   $7,266,968,885   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014      ($27,070,000)   $7,239,898,885   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014    ($110,110,000)    $7,129,788,885   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014      ($27,640,000)   $7,102,148,885   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014        ($868,425)    $7,101,280,460   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014      ($17,710,000)   $7,083,570,460   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014      ($30,040,000)   $7,053,530,460   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       ($9,660,000)   $7,043,870,460   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014      ($10,084,970)   $7,033,785,490   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                       7/16/2014       ($6,180,000)   $7,027,605,490   Transfer of cap due to servicing transfer
                                                                                                       7/29/2014      ($19,885,198)   $7,007,720,292   Updated due to quarterly assessment and reallocation
                                                                                                       8/14/2014      ($11,870,000)   $6,995,850,292   Transfer of cap due to servicing transfer
                                                                                                       9/16/2014      ($21,390,000)   $6,974,460,292   Transfer of cap due to servicing transfer
                                                                                                       9/29/2014       ($6,533,419)   $6,967,926,873   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                   481




                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                            482
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010        $4,370,000     $98,030,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $23,880,000    $121,910,000   Updated portfolio data from servicer
                                                                                                                7/14/2010      ($16,610,000)   $105,300,000   Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,751,033    $107,051,033   Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($77)   $107,050,956   Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011       ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($88)    $97,150,868   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($773)    $97,150,095   Updated due to quarterly assessment and reallocation
                                                                                                                3/15/2012       ($1,400,000)    $95,750,095   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012             ($277)    $95,749,818   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($549)    $95,749,269   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($65)    $95,749,204   Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013       ($2,670,000)    $93,079,204   Transfer of cap due to servicing transfer
                                                   Financial
             Bank United, Miami                    Instrument for
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




10/23/2009                          Purchase                                $93,660,000     N/A                 3/25/2013             ($142)    $93,079,062   Updated due to quarterly assessment and reallocation   $9,527,161   $28,820,102       $12,871,607             $51,218,870
             Lakes, FL                             Home Loan
                                                   Modifications                                                5/16/2013        ($610,000)     $92,469,062   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($48)    $92,469,014   Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2013          ($40,000)    $92,429,014   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($14)    $92,429,000   Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013          ($30,000)    $92,399,000   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013       ($1,190,000)    $91,209,000   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013          ($14,953)    $91,194,047   Updated due to quarterly assessment and reallocation
                                                                                                                2/13/2014        ($170,000)     $91,024,047   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($721)    $91,023,326   Updated due to quarterly assessment and reallocation
                                                                                                                6/16/2014        ($660,000)     $90,363,326   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014           ($6,982)    $90,356,344   Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($13,755)    $90,342,589   Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2014        ($440,000)     $89,902,589   Transfer of cap due to servicing transfer
                                                                                                                9/29/2014           ($3,805)    $89,898,784   Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009           $90,000       $500,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,460,000      $1,960,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $160,000      $2,120,000   Updated portfolio data from servicer
                                                   Financial
             Bay Federal Credit                    Instrument for                                               7/14/2010        ($120,000)      $2,000,000   Updated portfolio data from servicer
9/16/2009                           Purchase                                   $410,000     N/A                                                                                                                             $0             $0                 $0                      $0
             Union, Capitola, CA                   Home Loan
                                                                                                                9/30/2010       ($1,419,778)      $580,222    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                1/25/2012        ($580,212)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $10,000       $240,000
                                                                                                                                                               program initial cap
                                                    Financial                                                    3/26/2010          $440,000       $680,000    Updated portfolio data from servicer
            Bay Gulf Credit Union,                  Instrument for
12/9/2009                             Purchase                                  $230,000     N/A                                                                                                                              $0             $0                 $0                      $0
            Tampa, FL                               Home Loan                                                    7/14/2010          ($80,000)      $600,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                                10/15/2010        ($580,222)             $0    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009       $23,850,000     $68,110,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       $43,590,000    $111,700,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010       $34,540,000    $146,240,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                  5/7/2010        $1,010,000    $147,250,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010      ($34,250,000)   $113,000,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $600,000    $113,600,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010      ($15,252,303)    $98,347,697   Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($70)    $98,347,627   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($86)    $98,347,541   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $400,000     $98,747,541   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($771)    $98,846,770   Updated due to quarterly assessment and reallocation
                                                                                                                 9/15/2011          $600,000     $99,446,770   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011      ($18,900,000)    $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012          $900,000     $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        $2,400,000     $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        ($100,000)     $83,746,770   Transfer of cap due to servicing transfer
                                                    Financial
            Bayview Loan Servicing,                 Instrument for                                               4/16/2012          $200,000     $83,946,770   Transfer of cap due to servicing transfer
7/1/2009                              Purchase                               $44,260,000     N/A                                                                                                                      $18,034,179   $38,394,079       $21,448,838             $77,877,095
            LLC, Coral Gables, FL                   Home Loan
                                                    Modifications                                                5/16/2012           $30,000     $83,976,770   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        $1,810,000     $85,786,770   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($508)    $85,786,262   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012        $2,660,000     $88,446,262   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012           ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012          $160,000     $88,605,013   Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        $6,970,000     $95,575,013   Transfer of cap due to servicing transfer
                                                                                                                12/14/2012       $13,590,000    $109,165,013   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($298)   $109,164,715   Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013           $90,000    $109,254,715   Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013        $3,250,000    $112,504,715   Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013          $830,000    $113,334,715   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013           ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013        $1,490,000    $114,823,692   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013          $660,000    $115,483,692   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013        $7,470,000    $122,953,692   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013             ($308)   $122,953,384   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                 7/16/2013       $21,430,000    $144,383,384   Transfer of cap due to servicing transfer
                                                                                                                 9/16/2013       $11,730,000    $156,113,384   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($91)   $156,113,293   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              483
                                                                                                                                                                                                                                                                                          484
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               10/15/2013        $5,430,000    $161,543,293   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $20,900,000    $182,443,293   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013         $260,000     $182,703,293   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($131,553)    $182,571,740   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014        $1,070,000    $183,641,740   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014        $2,570,000    $186,211,740   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014        $1,530,000    $187,741,740   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($1,050)   $187,740,690   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014        $5,270,000    $193,010,690   Transfer of cap due to servicing transfer
                                                                                                                5/15/2014         $500,000     $193,510,690   Transfer of cap due to servicing transfer
                                                                                                                6/16/2014        $2,600,000    $196,110,690   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014       $18,557,651    $214,668,341   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014           $10,000    $214,678,341   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                7/29/2014       $13,360,843    $228,039,184   Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014        $4,260,000    $232,299,184   Transfer of cap due to servicing transfer
                                                                                                                9/16/2014         $260,000     $232,559,184   Transfer of cap due to servicing transfer
                                                                                                                9/29/2014       $13,718,841    $246,278,025   Updated due to quarterly assessment and reallocation
                                                   Financial
            BMO Harris Bank, NA,                   Instrument for
5/15/2014                            Purchase                                         $0    N/A          3      5/15/2014           $30,000        $30,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
            Chicago, IL                            Home Loan
                                                   Modifications
                                                                                                                9/30/2010        $1,040,667      $1,740,667   Updated portfolio data from servicer

                                                   Financial                                                     1/6/2011               ($2)     $1,740,665   Updated due to quarterly assessment and reallocation
            Bramble Savings Bank,                  Instrument for
8/20/2010                            Purchase                                  $700,000     N/A                 3/30/2011               ($3)     $1,740,662   Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Cincinanati, OH                        Home Loan
                                                   Modifications                                                6/29/2011              ($28)     $1,740,634   Updated due to quarterly assessment and reallocation
                                                                                                                8/10/2011       ($1,740,634)            $0    Termination of SPA
                                                                                                                7/16/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013           $30,000        $40,000    Transfer of cap due to servicing transfer

                                                   Financial                                                    4/16/2014           $30,000        $70,000    Transfer of cap due to servicing transfer
            Bridgelock Capital dba
                                                   Instrument for
7/16/2013   Peak Loan Servicing,     Purchase                                         $0    N/A          3      6/16/2014           $40,000       $110,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                   Home Loan
            Woodland Hills, CA
                                                   Modifications                                                6/26/2014              ($21)      $109,979    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014              ($43)      $109,936    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014              ($14)      $109,922    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
            Servicer Modifying Borrowers’ Loans                                                                       Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution         Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                   9/15/2010        $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                   2/16/2011        $3,000,000     $4,450,554    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $10,200,000    $14,650,554    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011              ($24)   $14,650,530    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($227)   $14,650,303    Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011       $12,000,000    $26,650,303    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011        $4,100,000    $30,750,303    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $900,000     $31,650,303    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012         $300,000     $31,950,303    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012             ($266)   $31,950,037    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($689)   $31,949,348    Updated due to quarterly assessment and reallocation

                                                      Financial                                                   11/15/2012         $720,000     $32,669,348    Transfer of cap due to servicing transfer
            Caliber Home Loans,
                                                      Instrument for
9/15/2010   Inc (Vericrest Financial,   Purchase                                         $0    N/A          3     12/27/2012             ($114)   $32,669,234    Updated due to quarterly assessment and reallocation   $1,058,275   $2,826,942        $2,067,675              $5,952,892
                                                      Home Loan
            Inc.), Oklahoma City, OK
                                                      Modifications                                                1/16/2013        $8,020,000    $40,689,234    Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013             ($591)   $40,688,643    Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013          ($40,000)   $40,648,643    Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013             ($223)   $40,648,420    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013              ($80)   $40,648,340    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013        ($135,776)    $40,512,564    Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2014       ($1,130,000)   $39,382,564    Transfer of cap due to servicing transfer
                                                                                                                   2/13/2014       ($2,500,000)   $36,882,564    Transfer of cap due to servicing transfer
                                                                                                                   3/14/2014           $90,000    $36,972,564    Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014           ($4,697)   $36,967,867    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014          ($55,442)   $36,912,425    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2014        $2,590,000    $39,502,425    Transfer of cap due to servicing transfer
                                                                                                                   7/29/2014        ($120,725)    $39,381,700    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014          ($40,882)   $39,340,818    Updated due to quarterly assessment and reallocation
                                                                                                                   3/14/2014         $210,000        $210,000    Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014              ($20)      $209,980    Updated due to quarterly assessment and reallocation
                                                      Financial
            California Housing                                                                                     6/16/2014           $10,000       $219,980    Transfer of cap due to servicing transfer
                                                      Instrument for
3/14/2014   Finance Agency,             Purchase                                         $0    N/A          3                                                                                                                  $0           $0                  $0                      $0
                                                      Home Loan                                                    6/26/2014             ($258)      $219,722    Updated due to quarterly assessment and reallocation
            Sacramento, CA
                                                      Modifications
                                                                                                                   7/29/2014             ($512)      $219,210    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014             ($169)      $219,041    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                   6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                      Financial
            Capital International                                                                                  3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/30/2010   Financial, Inc., Coral      Purchase                                  $100,000     N/A                                                                                                                             $0           $0                  $0                      $0
                                                      Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
            Gables, FL
                                                      Modifications
                                                                                                                   3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                   7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              485
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                             486
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009      ($63,980,000)   $131,020,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       $90,990,000    $222,010,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $57,980,000    $279,990,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $74,520,000    $354,510,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($75,610,000)   $278,900,000   Updated portfolio data from servicer
                                                                                                               8/13/2010        $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                                                                              12/15/2010          $300,000    $284,063,685   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($325)   $284,063,360   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $2,400,000    $286,463,360   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011           ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011        $1,800,000    $288,259,384   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               9/15/2011          $100,000    $288,359,384   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $1,000,000    $289,359,384   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        $1,100,000    $290,459,384   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012          $100,000    $290,559,384   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $850,000    $291,409,384   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $2,240,000    $293,649,384   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $1,690,000    $295,336,864   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          ($30,000)   $295,306,864   Transfer of cap due to servicing transfer
                                                  Financial
            Carrington Mortgage                                                                                9/27/2012           ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation
                                                  Instrument for
4/27/2009   Services, LLC, Santa   Purchase                               $195,000,000     N/A                                                                                                                      $13,311,130   $33,366,099       $21,936,423             $68,613,653
                                                  Home Loan
            Ana, CA                                                                                           10/16/2012        $2,880,000    $298,180,232   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                              11/15/2012        $1,500,000    $299,680,232   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,040,000    $301,720,232   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013          ($10,000)   $301,709,129   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $4,960,000    $306,669,129   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013          ($30,000)   $306,639,129   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          ($70,000)   $306,564,950   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013        $1,570,000    $308,134,950   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013       ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013          $270,000    $306,523,428   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013        $5,370,000    $311,893,428   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($525)   $311,892,903   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($240,000)    $311,652,903   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $2,000,000    $313,652,903   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        $1,370,000    $315,022,903   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($873,891)    $314,149,012   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014          $120,000    $314,269,012   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014          $280,000    $314,549,012   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014           $50,000    $314,599,012   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($30,084)   $314,568,928   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014        $2,660,000    $317,228,928   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                  5/15/2014        ($430,000)    $316,798,928   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2014        ($130,000)    $316,668,928   Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014        ($351,513)    $316,317,415   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2014      ($23,460,000)   $292,857,415   Transfer of cap due to servicing transfer
                                                                                                                  7/29/2014        ($621,598)    $292,235,817   Updated due to quarterly assessment and reallocation
                                                                                                                  8/14/2014        ($560,000)    $291,675,817   Transfer of cap due to servicing transfer
                                                                                                                  9/16/2014        $8,810,000    $300,485,817   Transfer of cap due to servicing transfer
                                                                                                                  9/29/2014        ($205,371)    $300,280,446   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009       $13,070,000     $29,590,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009     $145,510,000     $175,100,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010    ($116,950,000)     $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($23,350,000)    $34,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010        $7,846,346     $42,646,346   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($46)    $42,646,300   Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011              ($55)    $42,646,245   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011             ($452)    $42,645,793   Updated due to quarterly assessment and reallocation
                                                     Financial
            CCO Mortgage, a                                                                                       6/28/2012             ($309)    $42,645,484   Updated due to quarterly assessment and reallocation
                                                     Instrument for
6/17/2009   division of RBS Citizens   Purchase                               $16,520,000     N/A                                                                                                                      $2,782,940   $6,440,304        $4,299,209             $13,522,453
                                                     Home Loan
            NA, Glen Allen, VA                                                                                    9/27/2012             ($807)    $42,644,677   Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012             ($131)    $42,644,546   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013             ($475)    $42,644,071   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013             ($175)    $42,643,896   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($62)    $42,643,834   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($97,446)    $42,546,388   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($3,201)    $42,543,187   Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($35,874)    $42,507,313   Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014          ($69,315)    $42,437,998   Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014          ($21,381)    $42,416,617   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                             487
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                           488
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                            Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               10/2/2009           $280,000     $1,530,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                              12/30/2009         ($750,000)       $780,000
                                                                                                                                                              program initial cap
                                                                                                               3/26/2010           $120,000       $900,000    Updated portfolio data from servicer
                                                                                                               7/14/2010         ($300,000)       $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010           $270,334       $870,334    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011                ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011                ($5)      $870,327    Updated due to quarterly assessment and reallocation
            Central Florida                       Financial
            Educators Federal                     Instrument for                                               6/28/2012            $21,717       $892,044    Updated due to quarterly assessment and reallocation
9/9/2009                            Purchase                                 $1,250,000    N/A                                                                                                                        $152,057    $241,342           $275,222                $668,621
            Credit Union, Lake                    Home Loan
                                                                                                               9/27/2012           $190,077     $1,082,121    Updated due to quarterly assessment and reallocation
            Mary, FL                              Modifications
                                                                                                              12/27/2012            $35,966     $1,118,087    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013            $59,464     $1,177,551    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013            $35,438     $1,212,989    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               9/27/2013            $26,926     $1,239,915    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013            $87,045     $1,326,960    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            $31,204     $1,358,164    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014            $68,259     $1,426,423    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014                ($2)    $1,426,421    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014               ($21)    $1,426,400    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               10/2/2009            $10,000        $40,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                              12/30/2009           $120,000       $160,000
                                                  Financial                                                                                                   program initial cap
            Central Jersey
                                                  Instrument for
9/23/2009   Federal Credit Union,   Purchase                                    $30,000    N/A                 3/26/2010            $10,000       $170,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                  Home Loan
            Woodbridge, NJ
                                                  Modifications                                                7/14/2010           ($70,000)      $100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
                                                                                                              10/29/2010         ($145,056)             $0    Termination of SPA

                                                  Financial                                                    9/30/2010           $856,056     $2,756,056    Updated portfolio data from servicer
            Centrue Bank,                         Instrument for
9/24/2010                           Purchase                                 $1,900,000    N/A                  1/6/2011                ($4)    $2,756,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Ottawa, IL                            Home Loan
                                                  Modifications                                                 3/9/2011        ($2,756,052)            $0    Termination of SPA
                                                  Financial
            Chase Home Finance,                   Instrument for
4/13/2009                           Purchase                            $3,552,000,000     N/A          1      7/31/2009    ($3,552,000,000)            $0    Termination of SPA                                            $0           $0                 $0                      $0
            LLC, Iselin, NJ                       Home Loan
                                                  Modifications
                                                  Financial                                                    6/14/2013            $10,000        $10,000    Transfer of cap due to servicing transfer
            Cheviot Savings Bank,                 Instrument for
6/14/2013                           Purchase                                         $0    N/A          3                                                                                                               $2,000       $1,517            $2,000                  $5,517
            Cincinnati, OH                        Home Loan                                                    6/27/2013             $1,344        $11,344    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009    ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009    $1,010,180,000    $2,089,600,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    ($105,410,000)    $1,984,190,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               3/26/2010    ($199,300,000)    $1,784,890,000
                                                                                                                                                               program initial cap
                                                                                                               4/19/2010        ($230,000)    $1,784,660,000   Transfer of cap due to servicing transfer
                                                                                                               5/14/2010       ($3,000,000)   $1,781,660,000   Transfer of cap due to servicing transfer
                                                                                                               6/16/2010      ($12,280,000)   $1,769,380,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010    ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                               7/16/2010       ($7,110,000)   $1,004,590,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010       ($6,300,000)    $998,290,000    Transfer of cap due to servicing transfer
                                                                                                               9/15/2010       ($8,300,000)    $989,990,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010       $32,400,000    $1,022,390,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010     $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                              10/15/2010       ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010       ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($981)   $1,119,076,503   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011      ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                               2/16/2011       ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011      ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
                                                  Financial
            CitiMortgage, Inc.,                   Instrument for                                               4/13/2011          $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
4/13/2009                          Purchase                             $2,071,000,000     N/A                                                                                                                        $81,305,250   $272,839,921      $120,662,342           $474,807,513
            O’Fallon, MO                          Home Loan
                                                  Modifications                                                5/13/2011       ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011      ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011       ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011       $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011       ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011       ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012        ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012       ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012    ($298,960,000)     $751,380,843    Transfer of cap due to servicing transfer
                                                                                                               7/27/2012     $263,550,000     $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012           $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               9/27/2012          ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               489
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                            490
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 12/27/2012           ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013       ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013       ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013           ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013       ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013       ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013           ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2013      ($26,880,000)    $959,117,438    Transfer of cap due to servicing transfer
                                                                                                                  9/16/2013      ($12,160,000)    $946,957,438    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013             ($610)    $946,956,828    Updated due to quarterly assessment and reallocation
                                                                                                                 11/14/2013      ($38,950,000)    $908,006,828    Transfer of cap due to servicing transfer
                                                                                                                 12/16/2013       ($8,600,000)    $899,406,828    Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($769,699)     $898,637,129    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014       ($5,360,000)    $893,277,129    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                  2/13/2014       ($7,680,000)    $885,597,129    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014       ($2,950,000)    $882,647,129    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($21,827)    $882,625,302    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2014          ($60,000)    $882,565,302    Transfer of cap due to servicing transfer
                                                                                                                  5/15/2014          ($30,000)    $882,535,302    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2014        ($330,000)     $882,205,302    Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014        ($195,762)     $882,009,540    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2014        ($430,000)     $881,579,540    Transfer of cap due to servicing transfer
                                                                                                                  7/29/2014        ($377,564)     $881,201,976    Updated due to quarterly assessment and reallocation
                                                                                                                  8/14/2014       ($1,080,000)    $880,121,976    Transfer of cap due to servicing transfer
                                                                                                                  9/29/2014          ($92,495)    $880,029,481    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010          $360,445       $1,160,445    Updated portfolio data from servicer
             Citizens Community                      Instrument for
9/24/2010                              Purchase                                  $800,000     N/A                  1/6/2011               ($2)      $1,160,443    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Bank, Freeburg, IL                      Home Loan
                                                     Modifications                                                3/23/2011       ($1,160,443)              $0    Termination of SPA
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $30,000         $650,000
                                                                                                                                                                  program initial cap
                                                                                                                  3/26/2010        ($580,000)          $70,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,430,000       $1,500,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $95,612       $1,595,612    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)      $1,595,610    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($3)      $1,595,607    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($24)      $1,595,583    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($16)      $1,595,567    Updated due to quarterly assessment and reallocation
                                                     Financial
             Citizens First National                 Instrument for                                               9/27/2012              ($45)      $1,595,522    Updated due to quarterly assessment and reallocation
12/16/2009                             Purchase                                  $620,000     N/A          6                                                                                                               $27,230     $67,847            $46,730                $141,806
             Bank, Spring Valley, IL                 Home Loan
                                                     Modifications                                               12/27/2012               ($8)      $1,595,514    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($30)      $1,595,484    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($11)      $1,595,473    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($4)      $1,595,469    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($6,733)      $1,588,736    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($237)      $1,588,499    Updated due to quarterly assessment and reallocation
                                                                                                                  5/15/2014          ($90,000)      $1,498,499    Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014           ($2,840)      $1,495,659    Updated due to quarterly assessment and reallocation
                                                                                                                   7/1/2014       ($1,353,853)        $141,806    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                  TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                     Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                    Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount    Adjusted Cap   Reason for Adjustment                             Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009         ($10,000)       $20,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $590,000       $610,000
                                                     Financial                                                                                                 program initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010        ($580,000)       $30,000    Updated portfolio data from servicer                     $0           $0                 $0                      $0
                                                     Home Loan
            The Villages, FL
                                                     Modifications                                                7/14/2010          $70,000       $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  2/17/2011        ($145,056)            $0    Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                      491
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                          492
                                                                                                               Adjustment
           Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date       Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009        $1,310,000     $7,310,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       ($3,390,000)    $3,920,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010         $410,000      $4,330,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($730,000)     $3,600,000    Updated portfolio data from servicer
                                                                                                                9/15/2010        $4,700,000     $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                9/30/2010         $117,764      $8,417,764    Updated portfolio data from servicer
                                                                                                               11/16/2010         $800,000      $9,217,764    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010        $2,700,000    $11,917,764    Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011              ($17)   $11,917,747    Updated due to quarterly assessment and reallocation
                                                                                                                1/13/2011         $700,000     $12,617,747    Transfer of cap due to servicing transfer
                                                                                                                2/16/2011        $1,800,000    $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011         $300,000     $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                6/29/2011             ($189)   $14,717,539    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011         $300,000     $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011         $100,000     $15,117,539    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011         $100,000     $15,217,539    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012             ($147)   $15,217,392    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012          ($10,000)   $15,207,392    Transfer of cap due to servicing transfer

           ClearSpring Loan                                                                                     9/27/2012             ($413)   $15,206,979    Updated due to quarterly assessment and reallocation
                                                   Financial
           Services, Inc. (Vantium                                                                             11/15/2012          ($40,000)   $15,166,979    Transfer of cap due to servicing transfer
                                                   Instrument for
9/2/2009   Capital, Inc. d/b/a       Purchase                                 $6,000,000    N/A          4                                                                                                            $243,469    $493,583           $394,847              $1,131,900
                                                   Home Loan
           Acqura Loan Services),                                                                              12/27/2012              ($71)   $15,166,908    Updated due to quarterly assessment and reallocation
                                                   Modifications
           Plano, TX
                                                                                                                2/14/2013        ($770,000)    $14,396,908    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013          ($20,000)   $14,376,908    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013             ($256)   $14,376,652    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        ($620,000)    $13,756,652    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013           $40,000    $13,796,652    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013           $10,000    $13,806,652    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($95)   $13,806,557    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013        ($290,000)    $13,516,557    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($34)   $13,516,523    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013           $40,000    $13,556,523    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013          ($57,271)   $13,499,252    Updated due to quarterly assessment and reallocation
                                                                                                                2/13/2014          ($90,000)   $13,409,252    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          ($40,000)   $13,369,252    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($1,989)   $13,367,263    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014           $80,000    $13,447,263    Transfer of cap due to servicing transfer
                                                                                                                5/15/2014        ($230,000)    $13,217,263    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014         $100,000     $13,317,263    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014          ($23,438)   $13,293,825    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014        $1,210,000    $14,503,825    Transfer of cap due to servicing transfer
                                                                                                                7/29/2014          ($51,728)   $14,452,097    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014          ($17,168)   $14,434,929    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                5/15/2014         $160,000        $160,000    Transfer of cap due to servicing transfer
                                                   Financial
            Columbia Bank, Fair                    Instrument for                                               6/26/2014              ($72)      $159,928    Updated due to quarterly assessment and reallocation
5/15/2014                            Purchase                                         $0    N/A          3                                                                                                              $1,917       $9,444            $2,000                 $13,361
            Lawn, NJ                               Home Loan                                                    7/29/2014             ($143)      $159,785    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                9/29/2014              ($47)      $159,738    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $10,000       $390,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010         $520,000        $910,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($810,000)       $100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Community Bank &
                                                   Instrument for
12/4/2009   Trust Company, Clarks    Purchase                                  $380,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                   Home Loan                                                    9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
            Summit, PA
                                                   Modifications
                                                                                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                8/26/2014        ($144,524)             $0    Termination of SPA
                                                                                                                9/30/2010         $901,112      $2,901,112    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($4)    $2,901,108    Updated due to quarterly assessment and reallocation
                                                   Financial
            Community Credit                                                                                    3/30/2011               ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/30/2010   Union of Florida,        Purchase                                 $2,000,000    N/A          6                                                                                                              $3,000       $4,632            $5,000                 $12,632
                                                   Home Loan                                                    6/29/2011              ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
            Rockledge, FL
                                                   Modifications
                                                                                                                6/28/2012              ($36)    $2,901,019    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012       ($2,888,387)       $12,632    Termination of SPA
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Financial
            CU Mortgage Services,                  Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Inc., New Brighton, MN                 Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          493
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                          494
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009          $950,000     $5,300,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        $5,700,000    $11,000,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $740,000    $11,740,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($1,440,000)   $10,300,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010       ($6,673,610)    $3,626,390    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($5)    $3,626,385    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($6)    $3,626,379    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($52)    $3,626,327    Updated due to quarterly assessment and reallocation
                                                     Financial
             CUC Mortgage                            Instrument for                                               6/28/2012              ($38)    $3,626,289    Updated due to quarterly assessment and reallocation
9/9/2009                               Purchase                                 $4,350,000    N/A                                                                                                                        $66,980    $175,048           $105,417                $347,445
             Corporation, Albany, NY                 Home Loan
                                                                                                                  9/27/2012             ($107)    $3,626,182    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                 12/27/2012              ($18)    $3,626,164    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($69)    $3,626,095    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($26)    $3,626,069    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                  9/27/2013               ($9)    $3,626,060    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($15,739)    $3,610,321    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($554)    $3,609,767    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014           ($6,538)    $3,603,229    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014          ($12,989)    $3,590,240    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014           ($4,292)    $3,585,948    Updated due to quarterly assessment and reallocation
                                                     Financial                                                   12/16/2013           $30,000        $30,000    Transfer of cap due to servicing transfer
             Desjardins Bank N.A.,                   Instrument for
12/16/2013                             Purchase                                         $0    N/A          3                                                                                                              $1,000       $3,065            $1,000                  $5,065
             Hallandale Beach, FL                    Home Loan                                                    9/16/2014           $10,000        $40,000    Transfer of cap due to servicing transfer
                                                     Modifications
                                                     Financial                                                    3/26/2010       $12,190,000    $15,240,000    Updated portfolio data from servicer
             Digital Federal Credit                  Instrument for
1/15/2010                              Purchase                                 $3,050,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Marlborough, MA                  Home Loan                                                    5/14/2010      ($15,240,000)            $0    Termination of SPA
                                                     Modifications
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $10,000        $80,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010           $10,000        $90,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010           $10,000       $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                     Financial
             DuPage Credit Union,                    Instrument for                                               9/27/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
10/30/2009                             Purchase                                    $70,000    N/A                                                                                                                         $8,542     $33,021            $15,442                 $57,006
             Naperville, IL                          Home Loan
                                                     Modifications                                                3/25/2013               ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($145)      $144,908    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($5)      $144,903    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($59)      $144,844    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014             ($117)      $144,727    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014              ($39)      $144,688    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010           $90,000       $150,000    Updated portfolio data from servicer
                                                     Financial
             Eaton National Bank                                                                                  7/14/2010           $50,000       $200,000    Updated portfolio data from servicer
                                                     Instrument for
12/23/2009   & Trust Company,          Purchase                                    $60,000    N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010          ($54,944)      $145,056    Updated portfolio data from servicer
             Eaton, OH
                                                     Modifications
                                                                                                                  5/20/2011        ($145,056)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                            TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009          ($10,000)    $707,370,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  3/26/2010    ($134,560,000)    $1,075,240,000
                                                                                                                                                                  program initial cap
                                                                                                                  7/14/2010    ($392,140,000)     $683,100,000    Updated portfolio data from servicer
                                                                                                                  7/16/2010        ($630,000)     $682,470,000    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  9/30/2010       $13,100,000     $695,570,000
                                                                                                                                                                  program initial cap
                                                     Financial                                                    9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer
            EMC Mortgage
                                                     Instrument for
7/31/2009   Corporation, Lewisville,   Purchase                              $707,380,000     N/A          8     10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer              $7,569,459   $11,592,937       $16,279,383             $35,441,779
                                                     Home Loan
            TX
                                                     Modifications
                                                                                                                 12/15/2010       ($4,400,000)    $683,063,543    Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011             ($802)    $683,062,741    Updated due to quarterly assessment and reallocation
                                                                                                                  2/16/2011        ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011       ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011             ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011    ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011           ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011        ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011    ($519,211,309)      $35,441,779    Termination of SPA
                                                     Financial                                                    7/16/2013           $60,000          $60,000    Transfer of cap due to servicing transfer
            Everbank, Jacksonville,                  Instrument for
7/16/2013                              Purchase                                         $0    N/A          3                                                                                                                    $0             $0                 $0                      $0
            FL                                       Home Loan                                                    9/16/2014           $30,000          $90,000    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009          ($90,000)         $80,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009           $50,000         $130,000
                                                     Financial                                                                                                    program initial cap
            Farmers State Bank,                      Instrument for
7/17/2009                              Purchase                                  $170,000     N/A                 3/26/2010         $100,000          $230,000    Updated portfolio data from servicer                          $0             $0                 $0                      $0
            West Salem, OH                           Home Loan
                                                     Modifications                                                7/14/2010        ($130,000)         $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                  5/20/2011        ($145,056)               $0    Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                495
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                           (CONTINUED)                                                                                                                                                                                           496
                                                                                                             Adjustment
           Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date       Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                              9/30/2010        $5,168,169     $8,268,169    Updated portfolio data from servicer
                                                                                                               1/6/2011              ($12)    $8,268,157    Updated due to quarterly assessment and reallocation
                                                                                                              3/30/2011              ($15)    $8,268,142    Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011         $400,000      $8,668,142    Transfer of cap due to servicing transfer
                                                                                                              6/29/2011            ($143)     $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                              9/15/2011         $700,000      $9,367,999    Transfer of cap due to servicing transfer
                                                                                                             10/14/2011         $100,000      $9,467,999    Transfer of cap due to servicing transfer
                                                                                                             11/16/2011         $200,000      $9,667,999    Transfer of cap due to servicing transfer
                                                                                                             12/15/2011        $1,700,000    $11,367,999    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012        $1,600,000    $12,967,999    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012          $40,000     $13,007,999    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012        ($210,000)    $12,797,999    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012            ($105)    $12,797,894    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012          $50,000     $12,847,894    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                              8/16/2012          $90,000     $12,937,894    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012            ($294)    $12,937,600    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012        $1,810,000    $14,747,600    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012              ($61)   $14,747,539    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2013          $30,000     $14,777,539    Transfer of cap due to servicing transfer
                                                                                                              2/14/2013        ($590,000)    $14,187,539    Transfer of cap due to servicing transfer
                                                                                                              3/14/2013         ($80,000)    $14,107,539    Transfer of cap due to servicing transfer
                                                                                                              3/25/2013            ($214)    $14,107,325    Updated due to quarterly assessment and reallocation

                                                 Financial                                                    4/16/2013         $200,000     $14,307,325    Transfer of cap due to servicing transfer
           Fay Servicing, LLC,                   Instrument for
9/3/2010                          Purchase                                  $3,100,000    N/A                 5/16/2013        $3,710,000    $18,017,325    Transfer of cap due to servicing transfer              $2,627,263   $6,388,670        $2,313,763             $11,329,695
           Chicago, IL                           Home Loan
                                                 Modifications                                                6/14/2013        $1,760,000    $19,777,325    Transfer of cap due to servicing transfer
                                                                                                              6/27/2013              ($86)   $19,777,239    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2013        $6,650,000    $26,427,239    Transfer of cap due to servicing transfer
                                                                                                              8/15/2013          $20,000     $26,447,239    Transfer of cap due to servicing transfer
                                                                                                              9/16/2013        $4,840,000    $31,287,239    Transfer of cap due to servicing transfer
                                                                                                              9/27/2013              ($54)   $31,287,185    Updated due to quarterly assessment and reallocation
                                                                                                             10/15/2013         $720,000     $32,007,185    Transfer of cap due to servicing transfer
                                                                                                             11/14/2013        $1,040,000    $33,047,185    Transfer of cap due to servicing transfer
                                                                                                             12/16/2013         $140,000     $33,187,185    Transfer of cap due to servicing transfer
                                                                                                             12/23/2013         ($84,376)    $33,102,809    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2014        $8,350,000    $41,452,809    Transfer of cap due to servicing transfer
                                                                                                              2/13/2014        $5,890,000    $47,342,809    Transfer of cap due to servicing transfer
                                                                                                              3/14/2014        $5,720,000    $53,062,809    Transfer of cap due to servicing transfer
                                                                                                              3/26/2014           ($4,045)   $53,058,764    Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2014          $70,000     $53,128,764    Transfer of cap due to servicing transfer
                                                                                                              5/15/2014         $640,000     $53,768,764    Transfer of cap due to servicing transfer
                                                                                                              6/16/2014       $15,780,000    $69,548,764    Transfer of cap due to servicing transfer
                                                                                                              6/26/2014         ($69,560)    $69,479,204    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2014        ($290,000)    $69,189,204    Transfer of cap due to servicing transfer
                                                                                                              7/29/2014        ($138,184)    $69,051,020    Updated due to quarterly assessment and reallocation
                                                                                                              8/14/2014         $990,000     $70,041,020    Transfer of cap due to servicing transfer
                                                                                                              9/16/2014        $2,890,000    $72,931,020    Transfer of cap due to servicing transfer
                                                                                                              9/29/2014         ($38,150)    $72,892,870    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 5/13/2011         $500,000        $500,000    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011         $200,000        $799,991    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $100,000        $899,991    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        $2,500,000     $3,399,991    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        $1,510,000     $4,909,991    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $450,000      $5,359,991    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($66)    $5,359,925    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012         $250,000      $5,609,925    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012          $90,000      $5,699,925    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012            ($191)     $5,699,734    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012         $140,000      $5,839,734    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012          $70,000      $5,909,734    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012          $40,000      $5,949,734    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012              ($34)    $5,949,700    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013          $40,000      $5,989,700    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013          $50,000      $6,039,700    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013         $360,000      $6,399,700    Transfer of cap due to servicing transfer

                                                    Financial                                                    3/25/2013            ($135)     $6,399,565    Updated due to quarterly assessment and reallocation
            FCI Lender Services,                    Instrument for
5/13/2011                             Purchase                                         $0    N/A          3      4/16/2013         ($10,000)     $6,389,565    Transfer of cap due to servicing transfer                $38,909     $86,898            $40,612                $166,419
            Inc., Anaheim Hills, CA                 Home Loan
                                                    Modifications                                                5/16/2013          $40,000      $6,429,565    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013         $200,000      $6,629,565    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($53)    $6,629,512    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          $20,000      $6,649,512    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($19)    $6,649,493    Updated due to quarterly assessment and reallocation
                                                                                                                10/15/2013         $260,000      $6,909,493    Transfer of cap due to servicing transfer
                                                                                                                11/14/2013          $30,000      $6,939,493    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013         ($33,755)     $6,905,738    Updated due to quarterly assessment and reallocation
                                                                                                                 2/13/2014         $110,000      $7,015,738    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014         $640,000      $7,655,738    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014           ($1,305)    $7,654,433    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2014         $120,000      $7,774,433    Transfer of cap due to servicing transfer
                                                                                                                 5/15/2014          $40,000      $7,814,433    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2014         $110,000      $7,924,433    Transfer of cap due to servicing transfer
                                                                                                                 6/26/2014         ($15,838)     $7,908,595    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2014         $440,000      $8,348,595    Transfer of cap due to servicing transfer
                                                                                                                 7/29/2014         ($33,291)     $8,315,304    Updated due to quarterly assessment and reallocation
                                                                                                                 8/14/2014        $1,110,000     $9,425,304    Transfer of cap due to servicing transfer
                                                                                                                 9/16/2014          $40,000      $9,465,304    Transfer of cap due to servicing transfer
                                                                                                                 9/29/2014         ($12,454)     $9,452,850    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                           497
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                           498
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               1/22/2010         $140,000      $3,080,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $6,300,000     $9,380,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($1,980,000)    $7,400,000    Updated portfolio data from servicer
                                                                                                               9/30/2010       ($6,384,611)    $1,015,389    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($16)    $1,015,370    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
                                                  Financial
            Fidelity Homestead
                                                  Instrument for                                               9/27/2012              ($32)    $1,015,326    Updated due to quarterly assessment and reallocation
12/9/2009   Savings Bank, New      Purchase                                  $2,940,000    N/A                                                                                                                             $0           $0             $8,400                  $8,400
                                                  Home Loan
            Orleans, LA                                                                                       12/27/2012               ($5)    $1,015,321    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               3/25/2013              ($21)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($8)    $1,015,292    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($3)    $1,015,289    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                              12/23/2013           ($4,716)    $1,010,573    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014             ($165)    $1,010,408    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($1,944)    $1,008,464    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014           ($3,862)    $1,004,602    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           ($1,276)    $1,003,326    Updated due to quarterly assessment and reallocation
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,530,000)    $4,930,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009         $680,000      $5,610,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($2,470,000)    $5,600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010        $2,523,114     $8,123,114    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($2)    $8,123,112    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($2)    $8,123,110    Updated due to quarterly assessment and reallocation
                                                  Financial                                                    6/29/2011              ($15)    $8,123,095    Updated due to quarterly assessment and reallocation
            FIRST BANK, St.                       Instrument for
7/29/2009                          Purchase                                  $6,460,000    N/A                 6/28/2012               ($3)    $8,123,092    Updated due to quarterly assessment and reallocation   $1,163,650   $2,320,062        $1,579,938              $5,063,650
            Louis, MO                             Home Loan
                                                  Modifications                                                9/27/2012               ($5)    $8,123,087    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013               ($5)    $8,123,081    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($1)    $8,123,080    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013             ($474)    $8,122,606    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($18)    $8,122,588    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014              ($35)    $8,122,553    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014            $1,722     $8,124,275    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           $33,199     $8,157,474    Updated due to quarterly assessment and reallocation
                                                  Financial
            First Citizens Bank
                                                  Instrument for
5/15/2014   & Trust Company,       Purchase                                          $0    N/A          3      5/15/2014           $10,000        $10,000    Transfer of cap due to servicing transfer                   $917           $0                  $0                   $917
                                                  Home Loan
            Hendersonville, NC
                                                  Modifications
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                     Financial
             First Federal Bank of                   Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Florida, Lake City, FL                  Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                     Financial                                                   12/30/2009        $2,020,000     $2,790,000
             First Federal Savings                                                                                                                              program initial cap
                                                     Instrument for
6/19/2009    and Loan, Port Angeles,   Purchase                                  $770,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                    3/26/2010       $11,370,000    $14,160,000    Updated portfolio data from servicer
             WA
                                                     Modifications
                                                                                                                  5/26/2010      ($14,160,000)            $0    Termination of SPA
             First Federal Savings                   Financial                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $160,000     $3,620,000
             and Loan Association of                 Instrument for                                                                                             program initial cap
12/16/2009                             Purchase                                 $3,460,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Lakewood, Lakewood,                     Home Loan
             OH                                      Modifications                                                4/21/2010       ($3,620,000)            $0    Termination of SPA

                                                                                                                  9/30/2010        $7,014,337    $11,314,337    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($17)   $11,314,320    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011              ($20)   $11,314,300    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011             ($192)   $11,314,108    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012             ($144)   $11,313,964    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($396)   $11,313,568    Updated due to quarterly assessment and reallocation

                                                     Financial                                                   12/27/2012              ($67)   $11,313,501    Updated due to quarterly assessment and reallocation
             First Financial Bank,                   Instrument for
8/27/2010                              Purchase                                 $4,300,000    N/A                 3/25/2013             ($253)   $11,313,248    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             N.A., Terre Haute, ID                   Home Loan
                                                     Modifications                                                6/27/2013              ($95)   $11,313,153    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($34)   $11,313,119    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($57,776)   $11,255,343    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($2,031)   $11,253,312    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014          ($23,972)   $11,229,340    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014          ($47,613)   $11,181,727    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014          ($15,728)   $11,165,999    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $50,000     $1,330,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        $1,020,000     $2,350,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($950,000)     $1,400,000    Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010           $50,556     $1,450,556    Updated portfolio data from servicer
             First Keystone Bank,                    Instrument for
11/25/2009                             Purchase                                 $1,280,000    N/A          6                                                                                                              $2,776       $3,423            $8,718                 $14,917
             Media, PA                               Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                  6/16/2011        ($100,000)     $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011              ($21)    $1,350,531    Updated due to quarterly assessment and reallocation
                                                                                                                  7/22/2011       ($1,335,614)       $14,917    Termination of SPA
                                                     Financial
             First Mortgage
                                                     Instrument for
6/16/2014    Company, LLC,             Purchase                                         $0    N/A          3      6/16/2014           $20,000        $20,000    Transfer of cap due to servicing transfer                 $2,917           $0            $3,000                  $5,917
                                                     Home Loan
             Oklahoma City, OK
                                                     Modifications
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                            499
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                          500
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                     Financial
            First Mortgage                                                                                        3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   Corporation,               Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
            Diamond Bar, CA
                                                     Modifications
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010         $150,000        $290,000    Updated portfolio data from servicer
                                                     Financial
            First National Bank                                                                                   7/14/2010           $10,000       $300,000    Updated portfolio data from servicer
                                                     Instrument for
1/13/2010   of Grant Park, Grant       Purchase                                  $140,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
            Park, IL
                                                     Modifications
                                                                                                                  1/26/2011        ($290,111)             $0    Termination of SPA
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                     Financial                                                    9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
            First Safety Bank,                       Instrument for
9/30/2010                              Purchase                                  $400,000     N/A                  1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Cincinnati, OH                           Home Loan
                                                     Modifications                                                3/23/2011        ($580,221)             $0    Termination of SPA
                                                                                                                  9/30/2010         $360,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                     Financial
            Flagstar Capital Markets                 Instrument for                                              12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $800,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Corporation, Troy, MI                    Home Loan                                                    3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014           ($2,267)    $1,152,408    Updated due to quarterly assessment and reallocation
                                                                                                                   7/1/2014       ($1,152,408)            $0    Termination of SPA
                                                                                                                  2/13/2014         $150,000        $150,000    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014               ($2)      $149,998    Updated due to quarterly assessment and reallocation
                                                     Financial
            Florida Community                        Instrument for                                               4/16/2014           $20,000       $169,998    Transfer of cap due to servicing transfer
2/13/2014                              Purchase                                         $0    N/A          3                                                                                                              $5,750       $5,590            $6,000                 $17,340
            Bank, NA, Weston, FL                     Home Loan                                                    6/26/2014              ($37)      $169,961    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  7/29/2014              ($73)      $169,888    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014              ($25)      $169,863    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               10/2/2009        $6,010,000    $33,520,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009      ($19,750,000)   $13,770,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010        $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)    $9,573,667    Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011       ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011               ($6)    $7,773,661    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($61)    $7,773,600    Updated due to quarterly assessment and reallocation
            Franklin Credit                       Financial                                                   10/14/2011        ($100,000)     $7,673,600    Transfer of cap due to servicing transfer
            Management                            Instrument for
9/11/2009                           Purchase                               $27,510,000     N/A                 6/28/2012              ($58)    $7,673,542    Updated due to quarterly assessment and reallocation    $342,554    $657,697           $743,024              $1,743,275
            Corporation, Jersey                   Home Loan
            City, NJ                              Modifications                                                9/27/2012             ($164)    $7,673,378    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($29)    $7,673,349    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013             ($110)    $7,673,239    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013              ($42)    $7,673,197    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013              ($15)    $7,673,182    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013          ($25,724)    $7,647,458    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014           $40,000     $7,687,458    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014             ($913)    $7,686,545    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014          ($10,778)    $7,675,767    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014          ($21,410)    $7,654,357    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           ($7,073)    $7,647,284    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2010          $765,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                  Financial
            Franklin Savings,                     Instrument for                                               9/27/2012              ($83)    $2,465,784    Updated due to quarterly assessment and reallocation
9/30/2010                           Purchase                                 $1,700,000    N/A          6                                                                                                              $1,750       $3,865            $4,000                  $9,615
            Cincinnati, OH                        Home Loan                                                   12/27/2012              ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               3/25/2013              ($53)    $2,465,717    Updated due to quarterly assessment and reallocation
                                                                                                               6/14/2013          ($10,000)    $2,455,717    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($20)    $2,455,697    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($7)    $2,455,690    Updated due to quarterly assessment and reallocation
                                                                                                              10/24/2013       ($2,446,075)        $9,615    Termination of SPA
                                                                                                               3/26/2010          $480,000       $740,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        ($140,000)       $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                  Financial
            Fresno County Federal                                                                               1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                  Instrument for
1/13/2010   Credit Union, Fresno,   Purchase                                  $260,000     N/A          6                                                                                                              $3,833     $13,204             $7,917                 $24,954
                                                  Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
            CA
                                                  Modifications
                                                                                                               6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                7/6/2012        ($555,252)        $24,954    Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         501
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                                 502
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                9/30/2010            $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011                ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012                ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                   Financial
             Gateway Mortgage                      Instrument for                                               3/25/2013                ($1)        $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                                 $0              $0                 $0                      $0
             Group, LLC, Tulsa, OK                 Home Loan                                                   12/23/2013              ($232)        $144,819    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/26/2014                ($8)        $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014               ($96)        $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014              ($191)        $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014               ($63)        $144,461    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    9/30/2010            $45,056         $145,056    Updated portfolio data from servicer
             GFA Federal Credit                    Instrument for
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                                 $0              $0                 $0                      $0
             Union, Gardner, MA                    Home Loan                                                    3/23/2011         ($145,056)               $0    Termination of SPA
                                                   Modifications
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                10/2/2009            $60,000         $290,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009           ($10,000)        $280,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010           $130,000         $410,000    Updated portfolio data from servicer
                                                                                                                7/14/2010         ($110,000)         $300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            ($9,889)        $290,111    Updated portfolio data from servicer
                                                                                                                6/29/2011                ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012                ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                   Financial
             Glass City Federal                                                                                 9/27/2012                ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/23/2009    Credit Union, Maumee,   Purchase                                  $230,000     N/A                                                                                                                             $4,000          $2,474            $6,000                 $12,474
                                                   Home Loan
             OH                                                                                                12/27/2012                ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013                ($4)        $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($2)        $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                ($1)        $290,091    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013              ($979)        $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($34)        $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($406)        $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014              ($807)        $287,865    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014              ($267)        $287,598    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                   Financial                                                    1/22/2010            $20,000         $390,000
                                                                                                                                                                 program initial cap
             Glenview State Bank,                  Instrument for
12/11/2009                           Purchase                                  $370,000     N/A                                                                                                                                 $0              $0                 $0                      $0
             Glenview,IL                           Home Loan                                                    3/26/2010         $1,250,000       $1,640,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                5/26/2010        ($1,640,000)              $0    Termination of SPA
                                                                                                                6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     $2,537,240,000    $3,554,890,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009    ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                   Financial
             GMAC Mortgage, Inc.,                  Instrument for                                               5/14/2010         $1,880,000    $2,067,430,000   Transfer of cap due to servicing transfer
4/13/2009                            Purchase                              $633,000,000     N/A                                                                                                                         $62,522,611   $148,766,916       $96,392,231           $307,681,758
             Ft. Washington, PA                    Home Loan
                                                   Modifications                                                7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010      $119,200,000     $1,301,400,000
                                                                                                                                                                 program initial cap
                                                                                                                9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                                                                               12/15/2010         ($500,000)    $1,517,898,139   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                        1/6/2011           ($1,734)   $1,517,896,405   Updated due to quarterly assessment and reallocation
                                                                                                       3/16/2011        ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                       3/30/2011           ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
                                                                                                       4/13/2011        ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                       5/13/2011      ($17,900,000)   $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                       6/29/2011          ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
                                                                                                       7/14/2011        ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                       8/16/2011        $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                       9/15/2011          $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                      10/14/2011        ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                      11/16/2011        ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                      12/15/2011        $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                       1/13/2012       ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                       3/15/2012        ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                       4/16/2012        ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                       5/16/2012        ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                       6/14/2012        ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                       6/28/2012          ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                       8/16/2012           $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012          ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                      11/15/2012       ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                      12/14/2012           $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012           ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2013           $60,000    $1,499,044,819   Transfer of cap due to servicing transfer
                                                                                                       2/14/2013          ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer
                                                                                                       3/14/2013          ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013          ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation
                                                                                                       6/14/2013           $30,000    $1,498,944,981   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013           ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation
                                                                                                       9/16/2013      ($66,500,000)   $1,432,437,876   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013           ($2,430)   $1,432,435,446   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013    ($197,220,000)    $1,235,215,446   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013          ($30,000)   $1,235,185,446   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013       ($2,230,000)   $1,232,955,446   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013       ($3,902,818)   $1,229,052,628   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014       ($9,350,000)   $1,219,702,628   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014      ($36,560,000)   $1,183,142,628   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014      ($17,170,000)   $1,165,972,628   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014        ($136,207)    $1,165,836,421   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014      ($20,570,000)   $1,145,266,421   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014        ($260,000)    $1,145,006,421   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014        ($400,000)    $1,144,606,421   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014       ($1,585,532)   $1,143,020,889   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                       7/16/2014          ($70,000)   $1,142,950,889   Transfer of cap due to servicing transfer
                                                                                                       7/29/2014       ($3,099,444)   $1,139,851,445   Updated due to quarterly assessment and reallocation
                                                                                                       8/14/2014       ($7,900,000)   $1,131,951,445   Transfer of cap due to servicing transfer
                                                                                                       9/16/2014       ($2,480,000)   $1,129,471,445   Transfer of cap due to servicing transfer
                                                                                                       9/29/2014       ($1,022,008)   $1,128,449,437   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                   503




                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)                                                                                                                                                                                          504
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $10,000        $180,000
                                                                                                                                                                 program initial cap
                                                      Financial                                                    3/26/2010          $30,000        $210,000    Updated portfolio data from servicer
             Golden Plains Credit                     Instrument for
12/16/2009                              Purchase                                  $170,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Garden City, KS                   Home Loan                                                    7/14/2010         ($10,000)       $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010          $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                   2/17/2011        ($290,111)             $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $20,000        $360,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($320,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010         $760,000        $800,000    Updated portfolio data from servicer
                                                      Financial
             Grafton Suburban
                                                      Instrument for                                               9/30/2010         ($74,722)       $725,278    Updated portfolio data from servicer
12/23/2009   Credit Union, North        Purchase                                  $340,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                      Home Loan
             Grafton, MA                                                                                            1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                   1/25/2012        ($725,265)             $0    Termination of SPA
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009        $1,030,000     $1,600,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($880,000)       $720,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($320,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                      Financial
             Great Lakes Credit                       Instrument for                                               9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
10/14/2009                              Purchase                                  $570,000     N/A                                                                                                                        $13,229     $24,690            $22,096                 $60,015
             Union, North Chicago, IL                 Home Loan
                                                      Modifications                                               12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($2,438)      $577,732    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($86)      $577,646    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014            ($925)       $576,721    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($1,789)      $574,932    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014            ($607)       $574,325    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                               3/26/2010        $8,680,000      $9,450,000   Updated portfolio data from servicer
                                                                                                               7/14/2010       ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $170,334       $870,334    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011               ($8)      $870,324    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($4)      $870,320    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/27/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation
            Greater Nevada
                                                  Instrument for
1/13/2010   Mortgage Services,     Purchase                                   $770,000     N/A                12/27/2012               ($2)      $870,308    Updated due to quarterly assessment and reallocation     $92,345      $186,110           $114,519                $392,974
                                                  Home Loan
            Carson City, NV
                                                  Modifications                                                3/25/2013               ($7)      $870,301    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($2)      $870,299    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($1)      $870,298    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($1,504)      $868,794    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($43)      $868,751    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014             ($491)      $868,260    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014             ($975)      $867,285    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014             ($322)      $866,963    Updated due to quarterly assessment and reallocation
                                                                                                               6/17/2009      ($64,990,000)    $91,010,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $130,780,000     $221,790,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    ($116,750,000)    $105,040,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $13,080,000    $118,120,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($24,220,000)    $93,900,000   Updated portfolio data from servicer
                                                                                                               7/16/2010          $210,000     $94,110,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/10/2010       $34,600,000    $130,910,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $5,600,000    $136,510,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $10,185,090    $146,695,090   Updated portfolio data from servicer
                                                                                                              10/15/2010          $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                  Financial
            Green Tree Servicing                  Instrument for                                                1/6/2011             ($213)   $147,094,877   Updated due to quarterly assessment and reallocation
4/24/2009                          Purchase                               $156,000,000     N/A                                                                                                                      $4,969,748   $35,156,830       $11,761,598             $51,888,177
            LLC, Saint Paul, MN                   Home Loan
                                                  Modifications                                                3/30/2011             ($250)   $147,094,627   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011        $1,200,000    $148,294,627   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $100,000    $148,394,627   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011        $1,900,000    $150,292,325   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $200,000    $150,492,325   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $200,000    $150,692,325   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011          $400,000    $151,092,325   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012          $900,000    $151,992,325   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $100,000    $152,092,325   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        $3,260,000    $155,352,325   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               6/14/2012          $920,000    $156,272,325   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012          $110,000    $156,380,703   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           505
                                                                                                                                                                                                                                                                                 506
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                        TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                       8/16/2012        $5,120,000    $161,500,703   Transfer of cap due to servicing transfer
                                                                                                       9/27/2012           ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation
                                                                                                      10/16/2012        $8,810,000    $170,306,194   Transfer of cap due to servicing transfer
                                                                                                      11/15/2012        $2,910,000    $173,216,194   Transfer of cap due to servicing transfer
                                                                                                      12/27/2012             ($802)   $173,215,392   Updated due to quarterly assessment and reallocation
                                                                                                       2/14/2013       $10,210,000    $183,425,392   Transfer of cap due to servicing transfer
                                                                                                       3/25/2013           ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation
                                                                                                       5/16/2013         $140,000     $183,562,369   Transfer of cap due to servicing transfer
                                                                                                       6/27/2013           ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2013        $7,210,000    $190,771,292   Transfer of cap due to servicing transfer
                                                                                                       8/15/2013        $6,730,000    $197,501,292   Transfer of cap due to servicing transfer
                                                                                                       9/27/2013             ($388)   $197,500,904   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013        $3,610,000    $201,110,904   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013        ($320,000)    $200,790,904   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013       $21,280,000    $222,070,904   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                      12/23/2013        ($710,351)    $221,360,553   Updated due to quarterly assessment and reallocation
                                                                                                       2/13/2014        $1,700,000    $223,060,553   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014          ($22,400)   $223,038,153   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014        $2,280,000    $225,318,153   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014       $12,810,000    $238,128,153   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       ($2,000,000)   $236,128,153   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014        ($262,535)    $235,865,618   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2014         $130,000     $235,995,618   Transfer of cap due to servicing transfer
                                                                                                       7/29/2014        ($499,786)    $235,495,832   Updated due to quarterly assessment and reallocation
                                                                                                       8/14/2014       ($1,940,000)   $233,555,832   Transfer of cap due to servicing transfer
                                                                                                       9/16/2014         $380,000     $233,935,832   Transfer of cap due to servicing transfer
                                                                                                       9/29/2014        ($150,666)    $233,785,166   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                7/14/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $900,000      $1,100,000    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012         $100,000      $1,200,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($9)    $1,199,991    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012           $20,000     $1,219,991    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($26)    $1,219,965    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012           $50,000     $1,269,965    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $10,000     $1,279,965    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013         $130,000      $1,409,960    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013         $120,000      $1,529,960    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($20)    $1,529,940    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    5/16/2013           $80,000     $1,609,940    Transfer of cap due to servicing transfer
             Gregory Funding, LLC,                 Instrument for
7/14/2011                            Purchase                                         $0    N/A          3      6/14/2013         $420,000      $2,029,940    Transfer of cap due to servicing transfer               $104,143    $241,645            $95,552                $441,340
             Beaverton, OR                         Home Loan
                                                   Modifications                                                6/27/2013              ($10)    $2,029,930    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($4)    $2,029,926    Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013         $120,000      $2,149,926    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013           ($7,685)    $2,142,241    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2014           $10,000     $2,152,241    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($274)    $2,151,967    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014         $240,000      $2,391,967    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014           $30,000     $2,421,967    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014           ($3,396)    $2,418,571    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($6,541)    $2,412,030    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014           $90,000     $2,502,030    Transfer of cap due to servicing transfer
                                                                                                                9/16/2014           $30,000     $2,532,030    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014           ($2,150)    $2,529,880    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                   Financial
             Guaranty Bank, Saint                  Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                           $917           $0            $1,000                  $1,917
             Paul, MN                              Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                   Financial
             Harleysville National
                                                   Instrument for
10/28/2009   Bank & Trust Company,   Purchase                                 $1,070,000    N/A                 4/21/2010       ($1,070,000)            $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                   Home Loan
             Harleysville, PA
                                                   Modifications
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          507
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                          508
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $30,000       $660,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $800,000      $1,460,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($360,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                    Financial
             Hartford Savings Bank,                 Instrument for                                               9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
12/11/2009                            Purchase                                  $630,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Hartford, WI                           Home Loan
                                                    Modifications                                               12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014           ($2,267)    $1,152,408    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014           ($4,502)    $1,147,906    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014           ($1,487)    $1,146,419    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    5/15/2014           $90,000        $90,000    Transfer of cap due to servicing transfer
             Heartland Bank &
                                                    Instrument for
5/15/2014    Trust Company,           Purchase                                         $0    N/A          3      6/26/2014           $20,556       $110,556    Updated due to quarterly assessment and reallocation      $3,813       $8,505            $2,813                 $15,131
                                                    Home Loan
             Bloomington, IL
                                                    Modifications                                                9/29/2014               ($1)      $110,555    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $80,000     $1,750,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,080,000)    $1,000,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $160,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011                       $1,160,444    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)    $1,160,442    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($16)    $1,160,426    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($12)    $1,160,414    Updated due to quarterly assessment and reallocation
                                                    Financial
             Hillsdale County
                                                    Instrument for                                               9/27/2012              ($33)    $1,160,381    Updated due to quarterly assessment and reallocation
11/18/2009   National Bank,           Purchase                                 $1,670,000    N/A                                                                                                                        $38,969     $48,632            $57,400                $145,001
                                                    Home Loan
             Hillsdale, MI                                                                                      12/27/2012               ($6)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013              ($21)    $1,160,354    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($8)    $1,160,346    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)    $1,160,343    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($4,797)    $1,155,546    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($169)    $1,155,377    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014           ($1,996)    $1,153,381    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014           ($3,965)    $1,149,416    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014           ($1,311)    $1,148,105    Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                 4/21/2010        ($230,000)             $0    Termination of SPA                                            $0           $0                 $0                      $0
             Inc, Coral Gables, FL                  Home Loan
                                                    Modifications
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               6/12/2009     $128,300,000     $447,300,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       $46,730,000    $494,030,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $145,820,000     $639,850,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010      ($17,440,000)   $622,410,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($73,010,000)   $549,400,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $6,700,000    $556,100,000
                                                  Financial                                                                                                  program initial cap
            Home Loan Services,                   Instrument for                                               9/30/2010      ($77,126,410)   $478,973,590   Updated portfolio data from servicer
4/20/2009                          Purchase                               $319,000,000     N/A          7                                                                                                            $169,858    $2,440,768        $3,698,607              $6,309,233
            Inc., Pittsburgh, PA                  Home Loan
                                                  Modifications                                               12/15/2010    ($314,900,000)    $164,073,590   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($233)   $164,073,357   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011       ($1,900,000)   $162,173,357   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($400,000)    $161,773,357   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($278)   $161,773,079   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011        ($400,000)    $161,373,079   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($2,625)   $161,370,454   Updated due to quarterly assessment and reallocation
                                                                                                              10/19/2011    ($155,061,221)      $6,309,233   Termination of SPA
                                                                                                               2/14/2013          $510,000       $510,000    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013               ($9)      $509,991    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          $200,000       $709,991    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $40,000       $749,991    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013               ($4)      $749,987    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    7/16/2013        ($120,000)       $629,987    Transfer of cap due to servicing transfer
            Home Servicing, LLC,                  Instrument for
2/14/2013                          Purchase                                          $0    N/A          3      9/27/2013               ($2)      $629,985    Updated due to quarterly assessment and reallocation      $7,867      $18,014             $8,784                 $34,665
            Baton Rouge, LA                       Home Loan
                                                  Modifications                                               12/23/2013           ($2,620)      $627,365    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($92)      $627,273    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($1,088)      $626,185    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014           ($2,161)      $624,024    Updated due to quarterly assessment and reallocation
                                                                                                               9/16/2014        ($290,000)       $334,024    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014             ($332)      $333,692    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          509
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                           510
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009    ($121,190,000)    $552,810,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009      ($36,290,000)   $516,520,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010     $199,320,000     $715,840,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010    ($189,040,000)    $526,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010       $38,626,728    $565,426,728   Updated portfolio data from servicer
                                                                                                                10/15/2010    ($170,800,000)    $394,626,728   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010      ($22,200,000)   $372,426,728   Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011             ($549)   $372,426,179   Updated due to quarterly assessment and reallocation
                                                                                                                 2/16/2011        ($900,000)    $371,526,179   Transfer of cap due to servicing transfer
                                                    Financial                                                    3/30/2011             ($653)   $371,525,526   Updated due to quarterly assessment and reallocation
             HomEq Servicing, North                 Instrument for
8/5/2009                              Purchase                              $674,000,000     N/A         13      6/29/2011           ($6,168)   $371,519,358   Updated due to quarterly assessment and reallocation          $0    $3,036,319        $5,272,500              $8,308,819
             Highlands, CA                          Home Loan
                                                    Modifications                                                6/28/2012           ($4,634)   $371,514,724   Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012        ($430,000)    $371,084,724   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 9/27/2012          ($12,728)   $371,071,996   Updated due to quarterly assessment and reallocation
                                                                                                                12/14/2012          ($20,000)   $371,051,996   Transfer of cap due to servicing transfer
                                                                                                                12/27/2012           ($2,148)   $371,049,848   Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013           ($8,137)   $371,041,711   Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013           ($3,071)   $371,038,640   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013           ($1,101)   $371,037,539   Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($10,000)   $371,027,539   Transfer of cap due to servicing transfer
                                                                                                                12/23/2013       ($1,858,220)   $369,169,319   Updated due to quarterly assessment and reallocation
                                                                                                                 2/27/2014    ($360,860,500)      $8,308,819   Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $20,000       $330,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $820,000      $1,150,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($350,000)       $800,000    Updated portfolio data from servicer
                                                    Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             HomeStar Bank &
                                                    Instrument for
12/11/2009   Financial Services,      Purchase                                  $310,000     N/A          6                                                                                                              $1,917       $5,573             $5,833                 $13,323
                                                    Home Loan                                                     1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
             Manteno, IL
                                                    Modifications
                                                                                                                 3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($10)      $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                  7/6/2012        ($856,986)        $13,323    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($53,670,000)   $1,218,820,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $250,450,000     $1,469,270,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                               9/30/2010        $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                              10/15/2010          $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010        ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,173)   $1,305,989,335   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011        ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011          ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011       ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
            Homeward Residential,                 Financial                                                    7/16/2012        ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer
            Inc. (American Home                   Instrument for
7/22/2009                           Purchase                            $1,272,490,000     N/A         14      8/16/2012          ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer              $51,759,482   $133,893,684       $94,837,607           $280,490,773
            Mortgage Servicing,                   Home Loan
            Inc), Coppell, TX                     Modifications                                                9/27/2012          ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012          ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013          ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013           $20,000    $1,305,380,504   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013      ($84,160,000)   $1,221,220,504   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013    ($621,110,000)     $600,097,683    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013      ($19,120,000)    $580,977,683    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013      ($14,870,000)    $566,105,736    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($655)    $566,105,081    Updated due to quarterly assessment and reallocation
                                                                                                              12/16/2013           $20,000     $566,125,081    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($1,110,189)    $565,014,892    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014          ($39,031)    $564,975,861    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          ($10,000)    $564,965,861    Transfer of cap due to servicing transfer
                                                                                                               5/28/2014    ($284,475,088)     $280,490,773    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                               511
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)                                                                                                                                                                                          512
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009         $130,000        $690,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009        $1,040,000     $1,730,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       ($1,680,000)       $50,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010        $1,260,000     $1,310,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,110,000)      $200,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010         $100,000        $300,000
                                                                                                                                                                 program initial cap
                                                                                                                   9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer

                                                      Financial                                                    6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
             Horicon Bank, Horicon,                   Instrument for                                               6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
9/2/2009                                Purchase                                  $560,000     N/A                                                                                                                        $10,182     $22,207            $13,170                 $45,559
             WI                                       Home Loan
                                                      Modifications                                                9/27/2012               ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                   6/27/2013               ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($979)      $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014             ($406)      $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014             ($807)      $287,865    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014             ($267)      $287,598    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $30,000       $730,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        $1,740,000     $2,470,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,870,000)      $600,000    Updated portfolio data from servicer
                                                      Financial                                                    9/30/2010         $850,556      $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA,                        Instrument for
12/16/2009                              Purchase                                  $700,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Michigan City, IN                        Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                   9/21/2012       ($1,450,512)            $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010         $200,000      $4,430,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       ($1,470,000)    $2,960,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                      Financial
                                                      Instrument for                                               9/30/2010        $5,852,780     $7,252,780    Updated portfolio data from servicer
12/23/2009   Iberiabank, Sarasota, FL   Purchase                                 $4,230,000    N/A          6                                                                                                                  $0     $10,502            $15,000                 $25,502
                                                      Home Loan
                                                      Modifications                                                 1/6/2011              ($11)    $7,252,769    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011              ($13)    $7,252,756    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011        ($300,000)     $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)       $25,502    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009         ($10,000)       $860,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009         $250,000      $1,110,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010         ($10,000)     $1,100,000    Updated portfolio data from servicer
             IBM Southeast                            Financial                                                    7/14/2010        ($400,000)       $700,000    Updated portfolio data from servicer
             Employees’ Federal                       Instrument for
7/10/2009                               Purchase                                  $870,000     N/A          6      9/30/2010         $170,334        $870,334    Updated portfolio data from servicer                      $9,000     $23,589            $16,000                 $48,589
             Credit Union, Delray                     Home Loan
             Beach , FL                               Modifications                                                 1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($9)      $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                   9/14/2012        ($821,722)        $48,589    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $40,000        $800,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($760,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010        $2,630,000     $2,670,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($770,000)     $1,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $565,945      $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    6/28/2012              ($29)    $2,465,868    Updated due to quarterly assessment and reallocation
             IC Federal Credit Union,                 Instrument for
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                        $27,333     $51,743            $40,200                $119,276
             Fitchburg, MA                            Home Loan                                                    9/27/2012              ($80)    $2,465,788    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  12/27/2012              ($14)    $2,465,774    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($52)    $2,465,722    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($19)    $2,465,703    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($7)    $2,465,696    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013         ($11,558)     $2,454,138    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($410)     $2,453,728    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($4,837)    $2,448,891    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($9,607)    $2,439,284    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014           ($3,173)    $2,436,111    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                             513
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                          514
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               1/22/2010          $440,000     $9,870,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                                                                               5/26/2010      ($24,200,000)      $150,000    Updated portfolio data from servicer
                                                                                                               7/14/2010          $150,000       $300,000    Updated portfolio data from servicer
                                                                                                               9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
                                                                                                               6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                  Financial
            Idaho Housing and
                                                  Instrument for                                               9/27/2012               ($6)      $290,100    Updated due to quarterly assessment and reallocation
12/4/2009   Finance Association,   Purchase                                  $9,430,000    N/A                                                                                                                        $27,514     $30,370            $32,025                 $89,910
                                                  Home Loan
            Boise, ID                                                                                         12/27/2012               ($1)      $290,099    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               3/25/2013               ($3)      $290,096    Updated due to quarterly assessment and reallocation

                                                                                                               6/27/2013               ($1)      $290,095    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013             ($747)      $289,348    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($26)      $289,322    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               6/26/2014             ($314)      $289,008    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014             ($626)      $288,382    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014             ($226)      $288,156    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2010        ($730,000)       $230,000    Updated portfolio data from servicer
                                                                                                               7/14/2010          $370,000       $600,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $200,000       $800,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010        ($364,833)       $435,167    Updated portfolio data from servicer
                                                                                                              11/16/2010          $100,000       $535,167    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011               ($1)      $535,166    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($1)      $535,165    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011               ($7)      $535,158    Updated due to quarterly assessment and reallocation
                                                  Financial                                                    6/28/2012               ($6)      $535,152    Updated due to quarterly assessment and reallocation
            iServe Residential
                                                  Instrument for
1/29/2010   Lending, LLC, San      Purchase                                   $960,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                  Home Loan                                                    9/27/2012              ($15)      $535,137    Updated due to quarterly assessment and reallocation
            Diego, CA
                                                  Modifications
                                                                                                              12/27/2012               ($3)      $535,134    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($10)      $535,124    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($4)      $535,120    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($1)      $535,119    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($2,242)      $532,877    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($79)      $532,798    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014             ($930)      $531,868    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014           ($1,848)      $530,020    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014             ($610)      $529,410    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010          $120,000    $28,160,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010      ($12,660,000)   $15,500,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $100,000    $15,600,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                                                                                11/16/2010          $800,000    $13,274,782    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($20)   $13,274,762    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($24)   $13,274,738    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($221)   $13,274,517    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012             ($169)   $13,274,348    Updated due to quarterly assessment and reallocation
                                                    Financial
            iServe Servicing, Inc.,                 Instrument for                                               9/27/2012             ($465)   $13,273,883    Updated due to quarterly assessment and reallocation
3/5/2010                              Purchase                               $28,040,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Irving, TX                              Home Loan
                                                                                                                12/27/2012              ($78)   $13,273,805    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013             ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013             ($112)   $13,273,396    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          ($10,000)   $13,263,396    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($40)   $13,263,356    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($60,000)   $13,203,356    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($67,516)   $13,135,840    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($2,373)   $13,133,467    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014          ($28,014)   $13,105,453    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014          ($55,640)   $13,049,813    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014          ($18,379)   $13,031,434    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010          $135,167       $435,167    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011               ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($12)      $435,143    Updated due to quarterly assessment and reallocation

                                                    Financial                                                   12/27/2012               ($2)      $435,141    Updated due to quarterly assessment and reallocation
            James B. Nutter &
                                                    Instrument for
9/24/2010   Company, Kansas           Purchase                                  $300,000     N/A                 3/25/2013               ($8)      $435,133    Updated due to quarterly assessment and reallocation     $13,047           $0           $14,323                 $27,370
                                                    Home Loan
            City, MO
                                                    Modifications                                                6/27/2013               ($3)      $435,130    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($1)      $435,129    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($1,727)      $433,402    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($61)      $433,341    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($716)      $432,625    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014           ($1,423)      $431,202    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014             ($470)      $430,732    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                           515
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                                  516
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($14,850,000)    $2,684,870,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $1,178,180,000    $3,863,050,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/26/2010     $1,006,580,000    $4,869,630,000
                                                                                                                                                                program initial cap
                                                                                                               7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                                program initial cap
                                                                                                               9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                1/6/2011            ($3,636)   $3,223,421,900   Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011         ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011      $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               7/14/2011           $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011         ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011           $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                              10/19/2011      $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                  Financial                                                    5/16/2012     ($126,080,000)    $3,736,214,604   Transfer of cap due to servicing transfer
            JP Morgan Chase Bank,                 Instrument for
7/31/2009                           Purchase                            $2,699,720,000     N/A                 6/14/2012        ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer              $341,764,369   $958,414,532      $435,330,481          $1,735,509,381
            NA, Lewisville, TX                    Home Loan
                                                  Modifications
                                                                                                               6/28/2012           ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012           ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012         ($180,000)    $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012            ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013           ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013         ($520,000)    $3,726,556,536   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013           ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013         ($110,000)    $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013         ($120,000)    $3,726,222,226   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013            ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013     ($103,240,000)    $3,622,928,448   Transfer of cap due to servicing transfer
                                                                                                               8/15/2013           ($20,000)   $3,622,908,448   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013      ($99,960,000)    $3,522,948,448   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($724)   $3,522,947,724   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013      ($77,990,000)    $3,444,957,724   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013      ($15,610,000)    $3,429,347,724   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013           ($50,000)   $3,429,297,724   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               12/23/2013        ($840,396)    $3,428,457,328   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014       ($5,790,000)   $3,422,667,328   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014      ($52,670,000)   $3,369,997,328   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014       ($3,730,000)   $3,366,267,328   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014          ($21,412)   $3,366,245,916   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014      ($14,000,000)   $3,352,245,916   Transfer of cap due to servicing transfer
                                                                                                                5/15/2014      ($18,970,000)   $3,333,275,916   Transfer of cap due to servicing transfer
                                                                                                                6/16/2014      ($30,170,000)   $3,303,105,916   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        ($101,752)    $3,303,004,164   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014      ($12,980,000)   $3,290,024,164   Transfer of cap due to servicing transfer
                                                                                                                7/29/2014        ($154,293)    $3,289,869,871   Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014       ($7,180,000)   $3,282,689,871   Transfer of cap due to servicing transfer
                                                                                                                9/16/2014       ($9,640,000)   $3,273,049,871   Transfer of cap due to servicing transfer
                                                                                                                9/29/2014          ($18,088)   $3,273,031,783   Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012           $30,000          $30,000    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $70,000         $100,000    Transfer of cap due to servicing transfer
                                                                                                                1/16/2013          ($10,000)         $90,000    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013          ($10,000)         $80,000    Transfer of cap due to servicing transfer
                                                                                                                4/16/2013          ($10,000)         $70,000    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013          $130,000         $200,000    Transfer of cap due to servicing transfer

                                                   Financial                                                    6/14/2013          ($50,000)        $150,000    Transfer of cap due to servicing transfer
             Kondaur Capital
                                                   Instrument for
11/15/2012   Corporation, Orange,   Purchase                                          $0    N/A          3      7/16/2013          ($20,000)        $130,000    Transfer of cap due to servicing transfer                   $417       $2,681           $13,400                 $16,498
                                                   Home Loan
             CA
                                                   Modifications                                               12/23/2013             ($155)        $129,845    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2014        $2,240,000       $2,369,845    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($373)      $2,369,472    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($4,497)      $2,364,975    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($8,932)      $2,356,043    Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2014          ($40,000)      $2,316,043    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014           ($2,954)      $2,313,089    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                            517
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                          518
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009         $180,000        $600,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        ($350,000)       $250,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $20,000        $270,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                     Financial
            Lake City Bank,                          Instrument for                                               9/27/2012               ($7)      $290,099    Updated due to quarterly assessment and reallocation
8/5/2009                               Purchase                                  $420,000     N/A                                                                                                                        $10,879     $11,628            $23,196                 $45,703
            Warsaw, IN                               Home Loan
                                                                                                                 12/27/2012               ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013               ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013            ($979)       $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                  3/26/2014              ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014            ($406)       $288,672    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014            ($807)       $287,865    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014            ($267)       $287,598    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009         $150,000        $250,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $130,000        $380,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $50,000        $430,000    Updated portfolio data from servicer
                                                     Financial                                                    7/14/2010         ($30,000)       $400,000    Updated portfolio data from servicer
            Lake National Bank,                      Instrument for
7/10/2009                              Purchase                                  $100,000     N/A          6      9/30/2010          $35,167        $435,167    Updated portfolio data from servicer                      $3,000       $3,651            $4,000                 $10,651
            Mentor, OH                               Home Loan
                                                     Modifications                                                 1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011               ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                  8/23/2012        ($424,504)        $10,651    Termination of SPA
                                                     Financial                                                    6/16/2014          $40,000         $40,000    Transfer of cap due to servicing transfer
            Land/Home Financial
                                                     Instrument for
6/16/2014   Services, Inc., Concord,   Purchase                                         $0    N/A          3                                                                                                                  $0           $0                 $0                      $0
                                                     Home Loan                                                    9/16/2014          $20,000         $60,000    Transfer of cap due to servicing transfer
            CA
                                                     Modifications
                                                                                                                  1/16/2014         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          $10,000        $110,000    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014               ($2)      $109,998    Updated due to quarterly assessment and reallocation
                                                                                                                  5/15/2014          $20,000        $129,998    Transfer of cap due to servicing transfer
                                                     Financial
            LenderLive Network,                      Instrument for                                               6/16/2014          $80,000        $209,998    Transfer of cap due to servicing transfer
1/16/2014                              Purchase                                         $0    N/A          3                                                                                                             $11,833           $0            $6,000                 $17,833
            Inc, Glendale, CO                        Home Loan                                                    6/26/2014            ($236)       $209,762    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  7/16/2014         $140,000        $349,762    Transfer of cap due to servicing transfer
                                                                                                                  7/29/2014           ($1,069)      $348,693    Updated due to quarterly assessment and reallocation
                                                                                                                  8/14/2014          $60,000        $408,693    Transfer of cap due to servicing transfer
                                                                                                                  9/29/2014            ($438)       $408,255    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($48)    $1,450,464    Updated due to quarterly assessment and reallocation

                                                   Financial                                                   12/27/2012               ($8)    $1,450,456    Updated due to quarterly assessment and reallocation
            Liberty Bank and Trust                 Instrument for
9/30/2010                            Purchase                                 $1,000,000    N/A                 3/25/2013              ($30)    $1,450,426    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Co, New Orleans, LA                    Home Loan
                                                   Modifications                                                6/27/2013              ($11)    $1,450,415    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($4)    $1,450,411    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($6,958)    $1,443,453    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014            ($245)     $1,443,208    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($2,887)    $1,440,321    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($5,734)    $1,434,587    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014           ($1,894)    $1,432,693    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          519
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                               520
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                             TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     $313,050,000     $1,087,950,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               12/30/2009     $275,370,000     $1,363,320,000
                                                                                                                                                                program initial cap
                                                                                                                3/26/2010     $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                7/14/2010    ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                8/13/2010        ($700,000)    $1,166,800,000   Transfer of cap due to servicing transfer
                                                                                                                9/15/2010       ($1,000,000)   $1,165,800,000   Transfer of cap due to servicing transfer
                                                                                                                9/30/2010    ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                               10/15/2010        ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                               12/15/2010         $800,000     $1,050,782,764   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011           ($1,286)   $1,050,781,478   Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011           ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011       ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                5/13/2011        ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011        ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                   Financial                                                    6/29/2011          ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
            Litton Loan Servicing,                 Instrument for
8/12/2009                            Purchase                              $774,900,000     N/A         12      7/14/2011        ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer              $13,441,220   $35,353,126       $27,530,414             $76,324,760
            LP, Houston, TX                        Home Loan
                                                   Modifications                                                9/15/2011       ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011        ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011        ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011       ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012    ($194,800,000)     $853,966,911    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012       ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012           ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013          ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013           ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013           ($2,289)    $845,510,653    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013          ($60,000)    $845,450,653    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013       ($3,864,503)    $841,586,150    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          ($30,000)    $841,556,150    Transfer of cap due to servicing transfer
                                                                                                                1/31/2014    ($765,231,390)      $76,324,760    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               1/22/2010          $40,000        $740,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010          $50,000        $790,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        $1,310,000     $2,100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $75,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)    $2,175,831    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($35)    $2,175,792    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
                                                  Financial
            Los Alamos National                   Instrument for                                               9/27/2012              ($70)    $2,175,696    Updated due to quarterly assessment and reallocation
11/6/2009                           Purchase                                  $700,000     N/A                                                                                                                        $40,698     $46,558            $58,278                $145,533
            Bank, Los Alamos, NM                  Home Loan
                                                  Modifications                                               12/27/2012              ($12)    $2,175,684    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($45)    $2,175,639    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013              ($17)    $2,175,622    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($6)    $2,175,616    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($9,932)    $2,165,684    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            ($346)     $2,165,338    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($4,087)    $2,161,251    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014           ($8,119)    $2,153,132    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           ($2,682)    $2,150,450    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2010         $315,389      $1,015,389    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($1)    $1,015,387    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($11)    $1,015,376    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($11)    $1,015,365    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($30)    $1,015,335    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($5)    $1,015,330    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($20)    $1,015,310    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($7)    $1,015,303    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/27/2013               ($3)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                  Instrument for
9/30/2010   M&T Bank, Buffalo, NY   Purchase                                  $700,000     N/A                12/23/2013           ($4,381)    $1,010,919    Updated due to quarterly assessment and reallocation    $241,254       $1,332          $243,087                $485,674
                                                  Home Loan
                                                  Modifications                                                2/13/2014        $1,280,000     $2,290,919    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014         $125,146      $2,416,065    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          $20,000      $2,436,065    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $80,000      $2,516,065    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014         $140,000      $2,656,065    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014         $230,716      $2,886,781    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014         $688,320      $3,575,101    Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014        $2,310,000     $5,885,101    Transfer of cap due to servicing transfer
                                                                                                               9/16/2014          $20,000      $5,905,101    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014        $1,468,864     $7,373,965    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                         521
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                          522
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               9/30/2010         $630,778      $2,030,778    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($3)    $2,030,775    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($3)    $2,030,772    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($33)    $2,030,739    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($25)    $2,030,714    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($68)    $2,030,646    Updated due to quarterly assessment and reallocation

                                                  Financial                                                   12/27/2012              ($11)    $2,030,635    Updated due to quarterly assessment and reallocation
            Magna Bank,                           Instrument for
9/30/2010                          Purchase                                  $1,400,000    N/A                 3/25/2013              ($44)    $2,030,591    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Germantown, TN                        Home Loan
                                                  Modifications                                                6/27/2013              ($16)    $2,030,575    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($6)    $2,030,569    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($9,947)    $2,020,622    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014            ($350)     $2,020,272    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014           ($4,127)    $2,016,145    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014           ($8,198)    $2,007,947    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               9/29/2014           ($2,708)    $2,005,239    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    9/30/2010         $225,278        $725,278    Updated portfolio data from servicer
            Mainstreet Credit                     Instrument for
9/30/2010                          Purchase                                   $500,000     N/A                  1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Union, Lexena, KS                     Home Loan
                                                  Modifications                                                 3/9/2011        ($725,277)             $0    Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010          $950,000    $21,310,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010      ($17,880,000)    $3,430,000    Updated portfolio data from servicer
                                                                                                                6/16/2010        $1,030,000     $4,460,000    Transfer of cap due to servicing transfer
                                                                                                                7/14/2010       ($1,160,000)    $3,300,000    Updated portfolio data from servicer
                                                                                                                8/13/2010          $800,000     $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010          $200,000     $4,300,000
                                                                                                                                                              program initial cap
                                                                                                                9/30/2010        $1,357,168     $5,657,168    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)    $5,657,167    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        $5,700,000    $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011               ($6)   $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011        $7,300,000    $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $300,000    $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011          $900,000    $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($154)   $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011          $100,000    $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                8/16/2011          $300,000    $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                1/13/2012       ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012       ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
                                                   Financial                                                    4/16/2012       ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer
             Marix Servicing, LLC,                 Instrument for
11/25/2009                           Purchase                               $20,360,000     N/A                 6/14/2012       ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer               $352,196    $970,197           $839,633              $2,162,025
             Phoenix, AZ                           Home Loan
                                                   Modifications                                                6/28/2012              ($38)    $7,006,969    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012          ($90,000)    $6,916,969    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             ($103)    $6,916,866    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012       ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012          $170,000     $6,066,866    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($15)    $6,066,851    Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013        ($100,000)     $5,966,851    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013        ($490,000)     $5,476,851    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($61)    $5,476,790    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013          ($10,000)    $5,466,790    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013          ($30,000)    $5,436,790    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          ($10,000)    $5,426,790    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($23)    $5,426,767    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          ($20,000)    $5,406,767    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013               ($8)    $5,406,759    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($13,934)    $5,392,825    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($490)    $5,392,335    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($5,781)    $5,386,554    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($11,483)    $5,375,071    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014           ($3,793)    $5,371,278    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          523
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                            524
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                            Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives   Incentives         Incentives               Payments
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                     Financial
             Marsh Associates, Inc.,                 Instrument for                                               6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                          $9,688           $0            $10,649                 $20,337
             Charlotte, NC                           Home Loan                                                    9/27/2012               ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013               ($1)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013         ($60,000)        $85,052    Transfer of cap due to servicing transfer
                                                     Financial
             Members Mortgage
                                                     Instrument for
10/28/2009   Company, Inc, Woburn,     Purchase                                  $510,000     N/A                 4/21/2010        ($510,000)             $0    Termination of SPA                                             $0           $0                  $0                      $0
                                                     Home Loan
             MA
                                                     Modifications
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009          $70,000        $350,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $620,000        $970,000
                                                                                                                                                                program initial cap
                                                     Financial
             Metropolitan National                   Instrument for                                               3/26/2010         $100,000       $1,070,000   Updated portfolio data from servicer
9/11/2009                              Purchase                                  $280,000     N/A                                                                                                                              $0           $0                  $0                      $0
             Bank, Little Rock, AR                   Home Loan
                                                                                                                  7/14/2010        ($670,000)       $400,000    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                  9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                  1/26/2011        ($435,166)             $0    Termination of SPA
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
             Mid America Mortgage,                   Financial
             Inc. (Schmidt Mortgage                  Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                              $0           $0                  $0                      $0
             Company), Rocky                         Home Loan                                                   12/23/2013            ($232)       $144,819    Updated due to quarterly assessment and reallocation
             River, OH                               Modifications
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014            ($191)       $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010       $49,915,806     $93,415,806   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($125)     $93,415,681   Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011            ($139)     $93,415,542   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011           ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012            ($797)     $93,413,522   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012     $294,540,000     $387,953,522   Transfer of cap due to servicing transfer
                                                                                                                  7/27/2012    ($263,550,000)    $124,403,522   Transfer of cap due to servicing transfer

                                                     Financial                                                    9/27/2012           ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation
             Midland Mortgage
                                                     Instrument for
9/30/2010    Company, Oklahoma         Purchase                               $43,500,000     N/A                12/27/2012            ($507)    $124,399,845   Updated due to quarterly assessment and reallocation   $13,538,182   $1,913,304       $14,864,885             $30,316,371
                                                     Home Loan
             City, OK
                                                     Modifications                                                3/25/2013           ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013            ($593)    $124,397,523   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013            ($199)    $124,397,324   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013        ($280,061)    $124,117,263   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($8,934)   $124,108,329   Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014         ($95,352)    $124,012,977   Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014       $30,892,185    $154,905,162   Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014           ($9,245)   $154,895,917   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                7/14/2010         $300,000        $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                   Financial
            Midwest Bank and Trust                 Instrument for                                                1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
4/14/2010                            Purchase                                  $300,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Co., Elmwood Park, IL                  Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011        ($580,212)             $0    Termination of SPA
                                                                                                                9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation

                                                   Financial                                                   12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
            Midwest Community                      Instrument for
9/15/2010                            Purchase                                  $400,000     N/A                 3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation      $1,000       $1,818            $2,000                  $4,818
            Bank, Freeport, IL                     Home Loan
                                                   Modifications                                                6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,027)      $576,582    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($2,039)      $574,543    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014             ($673)      $573,870    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009        ($490,000)       $370,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $6,750,000     $7,120,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($180,000)       $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $125,278        $725,278    Updated portfolio data from servicer
                                                                                                                3/30/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                   Financial
            Mission Federal Credit                 Instrument for                                               6/29/2011               ($4)      $725,273    Updated due to quarterly assessment and reallocation
7/22/2009                            Purchase                                  $860,000     N/A                                                                                                                        $87,431    $223,123           $121,981                $432,535
            Union, San Diego, CA                   Home Loan
                                                                                                                6/28/2012               ($1)      $725,272    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                9/27/2012               ($1)      $725,271    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           $47,663       $772,934    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($149)      $772,785    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($5)      $772,780    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($64)      $772,716    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014              ($19)      $772,697    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014               ($7)      $772,690    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          525
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                           526
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009       $18,530,000    $42,010,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       $24,510,000    $66,520,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010       $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                    Financial
             MorEquity, Inc.,                       Instrument for                                               7/14/2010      ($22,580,000)   $62,300,000    Updated portfolio data from servicer
7/17/2009                             Purchase                               $23,480,000     N/A          5                                                                                                            $345,841    $2,305,003        $1,977,321              $4,628,165
             Evansville, IN                         Home Loan
                                                                                                                 9/30/2010       ($8,194,261)   $54,105,739    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                  1/6/2011              ($37)   $54,105,702    Updated due to quarterly assessment and reallocation
                                                                                                                 3/16/2011      ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($34)   $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                 5/26/2011      ($20,077,503)    $4,628,165    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009        $1,780,000     $5,990,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $2,840,000     $8,830,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $2,800,000    $11,630,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 7/14/2010       ($5,730,000)    $5,900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $2,658,280     $8,558,280    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($12)    $8,558,268    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($14)    $8,558,254    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($129)    $8,558,125    Updated due to quarterly assessment and reallocation
                                                    Financial
             Mortgage Center, LLC,                  Instrument for                                               6/28/2012              ($94)    $8,558,031    Updated due to quarterly assessment and reallocation
7/22/2009                             Purchase                                 $4,210,000    N/A                                                                                                                       $205,462     $328,734           $360,128                $894,325
             Southfield, MI                         Home Loan
                                                                                                                 9/27/2012             ($256)    $8,557,775    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                12/27/2012              ($43)    $8,557,732    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($162)    $8,557,570    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($60)    $8,557,510    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013              ($21)    $8,557,489    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($35,751)    $8,521,738    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($1,246)    $8,520,492    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014          ($14,660)    $8,505,832    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014          ($28,986)    $8,476,846    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014           ($9,490)    $8,467,356    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       ($2,900,000)    $1,960,000
                                                                                                                                                               program initial cap
                                                    Financial                                                    3/26/2010       ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                      Instrument for
10/14/2009                            Purchase                                 $4,860,000    N/A                                                                                                                             $0           $0                  $0                      $0
             Corporation, Tulsa, OK                 Home Loan                                                    7/14/2010        ($260,000)       $100,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  3/9/2011        ($145,056)             $0    Termination of SPA
                                                    Financial
             Mortgage Investors                     Instrument for
7/16/2014                             Purchase                                         $0    N/A          3      7/16/2014           $10,000        $10,000    Transfer of cap due to servicing transfer                 $3,917           $0             $2,917                  $6,833
             Group, Knoxville, TN                   Home Loan
                                                    Modifications
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $315,170,000     $610,150,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $90,280,000    $700,430,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010      ($18,690,000)   $681,740,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($272,640,000)    $409,100,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010       $80,600,000    $489,700,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $71,230,004    $560,930,004   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($828)   $560,929,176   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011          $200,000    $561,129,176   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($100,000)    $561,029,176   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($981)   $561,028,195   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($2,300,000)   $558,728,195   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        ($200,000)    $558,528,195   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($200,000)    $558,328,195   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($9,197)   $558,318,998   Updated due to quarterly assessment and reallocation

                                                  Financial                                                   10/14/2011          $300,000    $558,618,998   Transfer of cap due to servicing transfer
            National City Bank,                   Instrument for                                              11/16/2011        ($300,000)    $558,318,998   Transfer of cap due to servicing transfer
6/26/2009                          Purchase                               $294,980,000     N/A                                                                                                                      $5,036,478   $12,941,879        $7,443,814             $25,422,172
            Miamisburg, OH                        Home Loan
                                                  Modifications                                                1/13/2012          $200,000    $558,518,998   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)    $558,418,998   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $200,000    $558,618,998   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          ($10,000)   $558,608,998   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,771)   $558,602,227   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012          ($18,467)   $558,583,760   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($3,105)   $558,580,655   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013          ($11,713)   $558,568,942   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($4,393)   $558,564,549   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($1,565)   $558,562,984   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013       ($2,622,925)   $555,940,059   Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014        $7,680,000    $563,620,059   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($92,836)   $563,527,223   Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014       ($1,090,169)   $562,437,054   Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014       ($2,140,858)   $560,296,196   Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014        ($940,000)    $559,356,196   Transfer of cap due to servicing transfer
                                                                                                               9/29/2014        ($704,516)    $558,651,680   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                           527
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                                528
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009       $16,140,000     $117,140,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $134,560,000      $251,700,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $80,250,000     $331,950,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010       $67,250,000     $399,200,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($85,900,000)    $313,300,000    Updated portfolio data from servicer
                                                                                                               8/13/2010          $100,000     $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $2,900,000     $316,300,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010       $33,801,486     $350,101,486    Updated portfolio data from servicer
                                                                                                              11/16/2010          $700,000     $350,801,486    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010        $1,700,000     $352,501,486    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($363)    $352,501,123    Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011          $900,000     $353,401,123    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               3/16/2011       $29,800,000     $383,201,123    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($428)    $383,200,695    Updated due to quarterly assessment and reallocation
                                                                                                               5/26/2011       $20,077,503     $403,278,198    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($4,248)    $403,273,950    Updated due to quarterly assessment and reallocation
                                                                                                              11/16/2011          $100,000     $403,373,950    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($100,000)     $403,273,950    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $90,000     $403,363,950    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       ($2,380,000)    $400,983,950    Transfer of cap due to servicing transfer

                                                  Financial                                                    6/28/2012           ($2,957)    $400,980,993    Updated due to quarterly assessment and reallocation
            Nationstar Mortgage                   Instrument for                                               7/16/2012       ($2,580,000)    $398,400,993    Transfer of cap due to servicing transfer
5/28/2009                          Purchase                               $101,000,000     N/A                                                                                                                        $65,252,056   $178,568,872       $88,779,613           $332,600,541
            LLC, Lewisville, TX                   Home Loan
                                                  Modifications                                                8/16/2012     $131,450,000      $529,850,993    Transfer of cap due to servicing transfer
                                                                                                               8/23/2012     $166,976,849      $696,827,842    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($12,806)    $696,815,036    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012          $160,000     $696,975,036    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012           $50,000     $697,025,036    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,882)    $697,023,154    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013          ($10,000)    $697,013,154    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        ($280,000)     $696,733,154    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($6,437)    $696,726,717    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013           $30,000     $696,756,717    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       ($1,510,000)    $695,246,717    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013       ($1,070,000)    $694,176,717    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($2,099)    $694,174,618    Updated due to quarterly assessment and reallocation
                                                                                                                7/9/2013       $23,179,591     $717,354,209    Transfer of cap due to servicing transfer
                                                                                                               7/16/2013          $490,000     $717,844,209    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013     $289,070,000     $1,006,914,209   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013           ($1,118)   $1,006,913,091   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013       $63,440,000    $1,070,353,091   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $5,060,000    $1,075,413,091   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        $3,210,000    $1,078,623,091   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($1,697,251)   $1,076,925,840   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        ($100,000)    $1,076,825,840   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $32,370,000    $1,109,195,840   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                3/14/2014          ($20,000)   $1,109,175,840   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014          ($47,177)   $1,109,128,663   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014          $370,000    $1,109,498,663   Transfer of cap due to servicing transfer
                                                                                                                5/15/2014       $41,040,000    $1,150,538,663   Transfer of cap due to servicing transfer
                                                                                                                6/16/2014          $120,000    $1,150,658,663   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        ($496,816)    $1,150,161,847   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014           $90,000    $1,150,251,847   Transfer of cap due to servicing transfer
                                                                                                                7/29/2014        ($917,451)    $1,149,334,396   Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014       $47,000,000    $1,196,334,396   Transfer of cap due to servicing transfer
                                                                                                                9/16/2014        $4,250,000    $1,200,584,396   Transfer of cap due to servicing transfer
                                                                                                                9/29/2014        ($345,854)    $1,200,238,542   Updated due to quarterly assessment and reallocation
                                                   Financial                                                   12/16/2013           $10,000          $10,000    Transfer of cap due to servicing transfer
             Nationwide Advantage
                                                   Instrument for
12/16/2013   Mortgage Company,      Purchase                                          $0    N/A          3                                                                                                                    $0           $0                  $0                      $0
                                                   Home Loan                                                    5/15/2014           $10,000          $20,000    Transfer of cap due to servicing transfer
             Des Moines, IA
                                                   Modifications
                                                                                                                7/14/2010      ($44,880,000)     $15,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,071,505      $16,971,505    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($23)     $16,971,482    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($26)     $16,971,456    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($238)     $16,971,218    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012             ($145)     $16,971,073    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($374)     $16,970,699    Updated due to quarterly assessment and reallocation
                                                   Financial
             Navy Federal Credit                   Instrument for                                              12/27/2012              ($58)     $16,970,641    Updated due to quarterly assessment and reallocation
3/10/2010                           Purchase                                $60,780,000     N/A                                                                                                                         $829,670    $2,088,068        $1,505,657              $4,423,395
             Union, Vienna, VA                     Home Loan                                                    3/25/2013             ($199)     $16,970,442    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/27/2013              ($68)     $16,970,374    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($22)     $16,970,352    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($36,317)     $16,934,035    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,230)     $16,932,805    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014          ($13,708)     $16,919,097    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($26,600)     $16,892,497    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014           ($8,647)     $16,883,850    Updated due to quarterly assessment and reallocation

             New Penn Financial,                   Financial                                                    8/14/2014          $240,000         $240,000    Transfer of cap due to servicing transfer
             LLC dba Shellpoint                    Instrument for
8/14/2014                           Purchase                                          $0    N/A          3      9/16/2014       $59,230,004      $59,470,004    Transfer of cap due to servicing transfer                $80,538     $171,218            $61,231                $312,986
             Mortgage Servicing,                   Home Loan
             Greenville, SC                        Modifications                                                9/29/2014          ($69,838)     $59,400,166    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                             529
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                          530
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                4/13/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011         $100,000        $300,000    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011         $300,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011         $200,000        $799,991    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($7)      $799,984    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($19)      $799,965    Updated due to quarterly assessment and reallocation

                                                   Financial                                                   12/27/2012               ($3)      $799,962    Updated due to quarterly assessment and reallocation
            New York Community
                                                   Instrument for
4/13/2011   Bank (AmTrust Bank),     Purchase                                         $0    N/A          3      3/25/2013              ($12)      $799,950    Updated due to quarterly assessment and reallocation     $13,344     $34,310            $22,004                 $69,658
                                                   Home Loan
            Cleveland, OH
                                                   Modifications                                                6/27/2013               ($5)      $799,945    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013         $150,000        $949,945    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013               ($2)      $949,943    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($3,454)      $946,489    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014            ($121)       $946,368    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                6/26/2014           ($1,433)      $944,935    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($2,846)      $942,089    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014            ($940)       $941,149    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009         $290,000        $430,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009         $210,000        $640,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010         $170,000        $810,000    Updated portfolio data from servicer
                                                   Financial                                                    7/14/2010         ($10,000)       $800,000    Updated portfolio data from servicer
            Oakland Municipal
                                                   Instrument for
8/5/2009    Credit Union, Oakland,   Purchase                                  $140,000     N/A          6      9/30/2010         ($74,722)       $725,278    Updated portfolio data from servicer                          $0       $3,568            $6,500                 $10,068
                                                   Home Loan
            CA
                                                   Modifications                                                 1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011        ($200,000)       $525,276    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($7)      $525,269    Updated due to quarterly assessment and reallocation
                                                                                                                7/22/2011        ($515,201)        $10,068    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009    ($105,620,000)     $553,380,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $102,580,000      $655,960,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $277,640,000      $933,600,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010       $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                               6/16/2010     $156,050,000     $1,136,510,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010    ($191,610,000)     $944,900,000    Updated portfolio data from servicer
                                                                                                               7/16/2010       $23,710,000     $968,610,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/15/2010         $100,000      $968,710,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010        $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                              10/15/2010     $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,020)   $1,143,251,720   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011         $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011         ($10,044)    $1,144,140,562   Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011        ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012     $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012         $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012     $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012     $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer

                                                  Financial                                                    6/28/2012           ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
            Ocwen Loan Servicing
                                                  Instrument for                                               7/16/2012       $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer
4/16/2009   LLC, West Palm         Purchase                               $659,000,000     N/A                                                                                                                        $233,908,936   $866,270,072      $306,403,151          $1,406,582,159
                                                  Home Loan
            Beach, FL
                                                  Modifications                                                8/16/2012        $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($10,733)    $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013         $410,000     $1,865,902,506   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013         $960,000     $1,866,862,506   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013       $83,880,000    $1,950,742,506   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                4/9/2013     $157,237,929     $2,107,978,558   Transfer of cap due to servicing transfer
                                                                                                               4/16/2013     $620,860,000     $2,728,838,558   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       $18,970,000    $2,747,808,558   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        ($190,000)    $2,747,618,558   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013       $14,710,000    $2,762,325,741   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       $66,170,000    $2,828,495,741   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013            ($276)    $2,828,495,465   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013     $267,580,000     $3,096,075,465   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                              11/14/2013        $4,290,000    $3,100,365,465   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013     $280,370,000     $3,380,735,465   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       $49,286,732    $3,430,022,197   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014       $51,180,000    $3,481,202,197   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                531
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                                532
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               1/31/2014     $765,231,390     $4,246,433,587   Transfer of cap due to merger/acquisition
                                                                                                               2/13/2014       $38,900,000    $4,285,333,587   Transfer of cap due to servicing transfer
                                                                                                               2/27/2014     $360,860,500     $4,646,194,086   Transfer of cap due to merger/acquisition
                                                                                                               3/14/2014       $25,080,000    $4,671,274,086   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($167,651)    $4,671,106,435   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014       $11,980,000    $4,683,086,435   Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $130,000    $4,683,216,435   Transfer of cap due to servicing transfer
                                                                                                               5/28/2014     $284,475,088     $4,967,691,523   Transfer of cap due to merger/acquisition
                                                                                                               6/16/2014          $690,000    $4,968,381,523   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014       ($2,284,678)   $4,966,096,845   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2014          ($10,000)   $4,966,086,845   Transfer of cap due to servicing transfer
                                                                                                               7/29/2014       ($4,336,420)   $4,961,750,425   Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014        $1,030,000    $4,962,780,425   Transfer of cap due to servicing transfer
                                                                                                               9/16/2014        $2,290,000    $4,965,070,425   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               9/29/2014       ($1,332,356)   $4,963,738,069   Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               10/2/2009     $145,800,000      $814,240,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    $1,355,930,000    $2,170,170,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $5,500,000    $1,888,000,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010      ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                                                                                1/6/2011           ($2,282)   $1,836,256,555   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011           ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011          ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012          ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012          ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation

                                                  Financial                                                    3/25/2013          ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation
            OneWest Bank,                         Instrument for                                               6/27/2013           ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation
8/28/2009                          Purchase                               $668,440,000     N/A                                                                                                                        $62,987,761   $215,382,905       $87,380,184           $365,750,850
            Pasadena, CA                          Home Loan
                                                  Modifications                                                9/27/2013           ($3,154)   $1,836,129,467   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($500,000)    $1,835,629,467   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013       ($4,440,000)   $1,831,189,467   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013    ($277,680,000)    $1,553,509,467   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($5,188,787)   $1,548,320,680   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014      ($25,750,000)   $1,522,570,680   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014          ($10,000)   $1,522,560,680   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($6,240,000)   $1,516,320,680   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($181,765)    $1,516,138,915   Updated due to quarterly assessment and reallocation
                                                                                                               6/16/2014          ($30,000)   $1,516,108,915   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014       ($2,139,762)   $1,513,969,153   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2014      ($17,620,000)   $1,496,349,153   Transfer of cap due to servicing transfer
                                                                                                               7/29/2014       ($4,233,602)   $1,492,115,551   Updated due to quarterly assessment and reallocation
                                                                                                               9/16/2014          $650,000    $1,492,765,551   Transfer of cap due to servicing transfer
                                                                                                               9/29/2014       ($1,394,443)   $1,491,371,108   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009          $460,000     $2,530,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $2,730,000     $5,260,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $13,280,000    $18,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010      ($13,540,000)    $5,000,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,817,613     $6,817,613    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($10)    $6,817,603    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($12)    $6,817,591    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($115)    $6,817,476    Updated due to quarterly assessment and reallocation
                                                   Financial
             ORNL Federal Credit                   Instrument for                                               6/28/2012              ($86)    $6,817,390    Updated due to quarterly assessment and reallocation
9/11/2009                           Purchase                                  $2,070,000    N/A                                                                                                                        $21,597     $39,139            $49,818                $110,555
             Union,Oak Ridge, TN                   Home Loan
                                                                                                                9/27/2012             ($236)    $6,817,154    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/27/2012              ($40)    $6,817,114    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013             ($149)    $6,816,965    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($56)    $6,816,909    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($20)    $6,816,889    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($33,979)    $6,782,910    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,192)    $6,781,718    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014          ($14,049)    $6,767,669    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($27,888)    $6,739,781    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014           ($9,230)    $6,730,551    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $40,000       $800,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $140,000       $940,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($140,000)       $800,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             Park View Federal
                                                   Instrument for
12/16/2009   Savings Bank, Solon,   Purchase                                   $760,000     N/A          6                                                                                                             $11,000     $23,937            $19,000                 $53,937
                                                   Home Loan                                                     1/6/2011                         $870,333    Updated due to quarterly assessment and reallocation
             OH
                                                   Modifications
                                                                                                                3/30/2011                         $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012        ($816,373)        $53,937    Termination of SPA
                                                                                                                9/30/2010        $2,181,334     $3,481,334    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($5)    $3,481,329    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($6)    $3,481,323    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($58)    $3,481,265    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($43)    $3,481,222    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($119)    $3,481,103    Updated due to quarterly assessment and reallocation

                                                   Financial                                                   12/27/2012              ($20)    $3,481,083    Updated due to quarterly assessment and reallocation
             Pathfinder Bank,                      Instrument for
8/25/2010                           Purchase                                  $1,300,000    N/A                 3/25/2013              ($76)    $3,481,007    Updated due to quarterly assessment and reallocation      $7,417     $10,262            $16,507                 $34,186
             Oswego, NY                            Home Loan
                                                   Modifications                                                6/27/2013              ($29)    $3,480,978    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($10)    $3,480,968    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($17,421)    $3,463,547    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($612)    $3,462,935    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($7,228)    $3,455,707    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($14,356)    $3,441,351    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                9/29/2014           ($4,742)    $3,436,609    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          533
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                            534
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,200,000)     $5,010,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $30,800,000     $35,810,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $23,200,000     $59,010,000   Updated portfolio data from servicer
                                                                                                               6/16/2010        $2,710,000     $61,720,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010      ($18,020,000)    $43,700,000   Updated portfolio data from servicer
                                                                                                               7/16/2010        $6,680,000     $50,380,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $2,600,000     $52,980,000   Transfer of cap due to servicing transfer
                                                                                                               9/15/2010        ($100,000)     $52,880,000   Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $200,000     $53,080,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       ($1,423,197)    $51,656,803   Updated portfolio data from servicer
                                                                                                              11/16/2010        $1,400,000     $53,056,803   Transfer of cap due to servicing transfer
                                                                                                              12/15/2010        ($100,000)     $52,956,803   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                1/6/2011              ($72)    $52,956,731   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $4,100,000     $57,056,731   Transfer of cap due to servicing transfer
                                                                                                               2/16/2011        ($100,000)     $56,956,731   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $4,000,000     $60,956,731   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($94)    $60,956,637   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($100,000)     $60,856,637   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        $5,800,000     $66,656,637   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $600,000     $67,256,637   Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011             ($812)    $67,255,825   Updated due to quarterly assessment and reallocation
            PennyMac Loan
                                                  Instrument for                                               7/14/2011        $2,500,000     $69,755,825   Transfer of cap due to servicing transfer
8/12/2009   Services, LLC,         Purchase                                  $6,210,000    N/A                                                                                                                      $7,711,166   $24,828,111       $10,057,850             $42,597,126
                                                  Home Loan
            Calasbasa, CA
                                                  Modifications                                                9/15/2011        $2,800,000     $72,555,825   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $300,000     $72,855,825   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011          $900,000     $73,755,825   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011          $800,000     $74,555,825   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012          $200,000     $74,755,825   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        $1,900,000     $76,655,825   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012          $200,000     $76,855,825   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $1,340,000     $78,195,825   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($340)    $78,195,485   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,930,000     $81,125,485   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          $890,000     $82,015,485   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012             ($974)    $82,014,511   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $1,800,000     $83,814,511   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $3,860,000     $87,674,511   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($154)    $87,674,357   Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013        $2,980,000     $90,654,357   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($506)    $90,653,851   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        $2,160,000     $92,813,851   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $2,440,000     $95,253,851   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($128)    $95,253,723   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($7)    $95,253,716   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $4,450,000     $99,703,716   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       $15,826,215    $115,529,931   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                2/13/2014        $5,130,000    $120,659,931   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014       ($2,390,000)   $118,269,931   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014        $2,017,426    $120,287,357   Updated due to quarterly assessment and reallocation
                                                                                                                5/15/2014          ($10,000)   $120,277,357   Transfer of cap due to servicing transfer
                                                                                                                6/16/2014        $2,360,000    $122,637,357   Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        $5,959,201    $128,596,558   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014           $10,000    $128,606,558   Transfer of cap due to servicing transfer
                                                                                                                7/29/2014        $3,708,381    $132,314,939   Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014         $150,000     $132,464,939   Transfer of cap due to servicing transfer
                                                                                                                9/16/2014       ($2,610,000)   $129,854,939   Transfer of cap due to servicing transfer
                                                                                                                9/29/2014           ($7,217)   $129,847,722   Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011        $1,300,000      $1,300,000   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($15)     $1,299,985   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($42)     $1,299,943   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012         $140,000       $1,439,943   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($8)     $1,439,935   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($30)     $1,439,905   Updated due to quarterly assessment and reallocation
                                                   Financial
             PHH Mortgage                                                                                       6/27/2013              ($11)     $1,439,894   Updated due to quarterly assessment and reallocation
                                                   Instrument for
9/15/2011    Corporation, Mt.       Purchase                                          $0    N/A          3                                                                                                             $51,905     $81,188            $51,220                $184,313
                                                   Home Loan                                                    7/16/2013        $5,850,000      $7,289,894   Transfer of cap due to servicing transfer
             Laurel, NJ
                                                   Modifications
                                                                                                                9/27/2013              ($20)     $7,289,874   Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($34,545)     $7,255,329   Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,216)     $7,254,113   Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014          ($14,371)     $7,239,742   Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014          ($28,561)     $7,211,181   Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014           ($9,436)     $7,201,745   Updated due to quarterly assessment and reallocation
                                                   Financial                                                   11/14/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
             Plaza Home Mortgage,                  Instrument for
11/14/2013                          Purchase                                          $0    N/A          3                                                                                                              $4,917           $0            $3,000                  $7,917
             Inc, San Diego , CA                   Home Loan                                                    7/16/2014           $20,000        $30,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          535
                                                                                                                                                                                                                                                                                             536
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009      ($36,240,000)   $18,230,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009       $19,280,000    $37,510,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        $2,470,000    $39,980,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($17,180,000)   $22,800,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2010       $35,500,000    $58,300,000
                                                                                                                                                                program initial cap
                                                                                                                  9/30/2010       $23,076,191    $81,376,191    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($123)   $81,376,068    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011             ($147)   $81,375,921    Updated due to quarterly assessment and reallocation
                                                                                                                  5/13/2011        ($100,000)    $81,275,921    Transfer of cap due to servicing transfer

                                                     Financial                                                    6/29/2011           ($1,382)   $81,274,539    Updated due to quarterly assessment and reallocation
            PNC Bank, National
                                                     Instrument for                                              10/14/2011        ($300,000)    $80,974,539    Transfer of cap due to servicing transfer
7/17/2009   Association, Pittsburgh,   Purchase                               $54,470,000     N/A                                                                                                                       $218,333    $1,237,428          $597,250              $2,053,012
                                                     Home Loan
            PA
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                     Modifications                                                6/28/2012           ($1,003)   $80,973,536    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012           ($2,745)   $80,970,791    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($460)   $80,970,331    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013           ($1,740)   $80,968,591    Updated due to quarterly assessment and reallocation
                                                                                                                   4/9/2013           $60,000    $81,028,591    Transfer of cap due to merger/acquisition
                                                                                                                  6/27/2013             ($656)   $81,027,935    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013             ($234)   $81,027,701    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013        ($394,926)    $80,632,775    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014          ($13,845)   $80,618,930    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014        ($162,401)    $80,456,529    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014        ($322,480)    $80,134,049    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014        ($106,405)    $80,027,644    Updated due to quarterly assessment and reallocation
                                                     Financial
            PrimeWest Mortgage
                                                     Instrument for
3/15/2012   Corporation, Lubbock,      Purchase                                         $0    N/A          3      3/15/2012          $100,000       $100,000    Transfer of cap due to servicing transfer                     $0           $0                  $0                      $0
                                                     Home Loan
            TX
                                                     Modifications
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009          ($60,000)    $1,030,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,260,000     $2,290,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,070,000     $4,360,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                   Financial
             Purdue Federal                                                                                     6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                   Instrument for
7/29/2009    Credit Union, West      Purchase                                 $1,090,000    N/A                                                                                                                         $3,000       $2,651            $4,000                  $9,651
                                                   Home Loan
             Lafayette, IN                                                                                      9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                         $580,170    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,027)      $576,582    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($2,039)      $574,543    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014             ($673)      $573,870    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2010          ($10,000)       $10,000    Updated portfolio data from servicer
                                                                                                                7/14/2010           $90,000       $100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                   Financial
             QLending, Inc., Coral                 Instrument for                                               9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
11/18/2009                           Purchase                                    $20,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Gables, FL                            Home Loan                                                    3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          537
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                          538
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010          $890,000    $19,850,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $3,840,000    $23,690,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($2,890,000)   $20,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $9,661,676    $30,461,676    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($46)   $30,461,630    Updated due to quarterly assessment and reallocation
                                                                                                                 1/13/2011        $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011        $1,400,000    $33,461,630    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($58)   $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $100,000    $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $800,000    $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($559)   $34,461,013    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011          $300,000    $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 8/16/2011          $200,000    $34,961,013    Transfer of cap due to servicing transfer
                                                    Financial
             Quantum Servicing                      Instrument for                                               9/15/2011          $100,000    $35,061,013    Transfer of cap due to servicing transfer
11/18/2009                            Purchase                               $18,960,000     N/A          6                                                                                                            $133,393    $332,061           $179,984                $645,439
             Corporation, Tampa, FL                 Home Loan
                                                    Modifications                                                1/13/2012          $100,000    $35,161,013    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012          $330,000    $35,491,013    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($428)   $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012           ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        ($980,000)    $32,599,401    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($187)   $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($707)   $32,598,507    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013        ($240,000)    $32,358,507    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013             ($268)   $32,358,239    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013           $10,000    $32,368,239    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($96)   $32,368,143    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($20,000)   $32,348,143    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013        ($162,518)    $32,185,625    Updated due to quarterly assessment and reallocation
                                                                                                                 2/27/2014      ($31,540,186)      $645,439    Termination of SPA
                                                                                                                12/14/2012           $10,000        $10,000    Transfer of cap due to servicing transfer
                                                    Financial
             Quicken Loans Inc,                     Instrument for                                               8/15/2013           $10,000        $20,000    Transfer of cap due to servicing transfer
12/14/2012                            Purchase                                         $0    N/A          3                                                                                                              $7,000           $0            $6,000                 $13,000
             Detroit, MI                            Home Loan                                                    3/14/2014           $30,000        $50,000    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 5/15/2014           $10,000        $60,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  1/6/2011           $34,944       $180,000    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    3/30/2011           $40,000       $220,000    Updated due to quarterly assessment and reallocation
             RBC Bank (USA),                        Instrument for
9/1/2010                              Purchase                                  $100,000     N/A          9      6/29/2011           $50,000       $270,000    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Raleigh, NC                            Home Loan
                                                    Modifications                                                3/15/2012        ($200,000)        $70,000    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012          ($10,000)       $60,000    Transfer of cap due to servicing transfer
                                                                                                                  4/9/2013          ($60,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,860,000)   $17,540,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $27,920,000    $45,460,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       ($1,390,000)   $44,070,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($13,870,000)   $30,200,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $400,000    $30,600,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010          $586,954    $31,186,954    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($34)   $31,186,920    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011              ($37)   $31,186,883    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011          $100,000    $31,286,883    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($329)   $31,286,554    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,900,000)   $29,386,554    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $2,800,000    $32,186,554    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $420,000    $32,606,554    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,060,000    $40,666,554    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($313)   $40,666,241    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,160,000    $42,826,241    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012             ($911)   $42,825,330    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $5,690,000    $48,515,330    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012           $20,000    $48,535,330    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($178)   $48,535,152    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013        $3,190,000    $51,725,152    Transfer of cap due to servicing transfer
                                                  Financial
            Residential Credit                                                                                 3/14/2013        ($260,000)    $51,465,152    Transfer of cap due to servicing transfer
                                                  Instrument for
6/12/2009   Solutions, Inc., Fort   Purchase                               $19,400,000     N/A                                                                                                                      $2,808,155   $7,460,664        $3,486,656             $13,755,475
                                                  Home Loan                                                    3/25/2013             ($713)   $51,464,439    Updated due to quarterly assessment and reallocation
            Worth, TX
                                                  Modifications
                                                                                                               4/16/2013        $1,330,000    $52,794,439    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013          $100,000    $52,894,439    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $20,000    $52,914,439    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($264)   $52,914,175    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $6,080,000    $58,994,175    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       ($2,130,000)   $56,864,175    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($101)   $56,864,074    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $6,910,000    $63,774,074    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013       ($1,050,000)   $62,724,074    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($173,584)    $62,550,490    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,310,000    $63,860,490    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       ($2,210,000)   $61,650,490    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($1,390,000)   $60,260,490    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($5,632)   $60,254,858    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014        ($220,000)    $60,034,858    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014          $940,000    $60,974,858    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014        ($640,000)    $60,334,858    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014          ($63,739)   $60,271,119    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               7/16/2014        $1,000,000    $61,271,119    Transfer of cap due to servicing transfer
                                                                                                               7/29/2014        ($128,318)    $61,142,801    Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014       ($2,700,000)   $58,442,801    Transfer of cap due to servicing transfer
                                                                                                               9/16/2014       ($2,860,000)   $55,582,801    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014          ($37,047)   $55,545,754    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          539




                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                           540
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               6/14/2012          $940,000       $940,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012          $205,242     $1,145,242    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012               ($3)    $1,145,239    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($1)    $1,145,238    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013           $10,000     $1,155,238    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $8,690,000     $9,845,238    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $1,390,000    $11,235,238    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($219)   $11,235,019    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          $620,000    $11,855,019    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013          $990,000    $12,845,019    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($96)   $12,844,923    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $5,780,000    $18,624,923    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($50)   $18,624,873    Updated due to quarterly assessment and reallocation

                                                  Financial                                                   10/15/2013          $880,000    $19,504,873    Transfer of cap due to servicing transfer
            Resurgent Capital
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                  Instrument for
6/14/2012   Solutions L.P.,        Purchase                                          $0    N/A          3     11/14/2013        $6,610,000    $26,114,873    Transfer of cap due to servicing transfer               $708,326    $1,696,731          $797,665              $3,202,722
                                                  Home Loan
            Greenville, SC
                                                  Modifications                                               12/16/2013           $20,000    $26,134,873    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($118,329)    $26,016,544    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,770,000    $27,786,544    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $23,920,000    $51,706,544    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        $1,460,000    $53,166,544    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($7,186)   $53,159,358    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014        $2,370,000    $55,529,358    Transfer of cap due to servicing transfer
                                                                                                               5/15/2014        $1,990,000    $57,519,358    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014        $1,720,000    $59,239,358    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014          ($96,715)   $59,142,643    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2014        $1,310,000    $60,452,643    Transfer of cap due to servicing transfer
                                                                                                               7/29/2014        ($197,950)    $60,254,693    Updated due to quarterly assessment and reallocation
                                                                                                               9/16/2014      ($56,740,004)    $3,514,689    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014          $488,713     $4,003,402    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($11,300,000)   $45,700,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009      ($42,210,000)    $3,490,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $65,640,000    $69,130,000    Updated portfolio data from servicer
                                                                                                                4/9/2010      ($14,470,000)   $54,660,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($8,860,000)   $45,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010       ($4,459,154)   $41,340,846    Updated portfolio data from servicer
                                                                                                              12/15/2010       ($4,300,000)   $37,040,846    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($51)   $37,040,795    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011              ($65)   $37,040,730    Updated due to quarterly assessment and reallocation
                                                  Financial
            RG Mortgage                                                                                        6/29/2011             ($616)   $37,040,114    Updated due to quarterly assessment and reallocation
                                                  Instrument for
6/17/2009   Corporation, San       Purchase                                $57,000,000     N/A                                                                                                                       $164,853    $227,582           $401,334                $793,769
                                                  Home Loan
            Juan, PR                                                                                           6/28/2012             ($462)   $37,039,652    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               9/27/2012           ($1,270)   $37,038,382    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012             ($214)   $37,038,168    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013             ($812)   $37,037,356    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013             ($306)   $37,037,050    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013             ($110)   $37,036,940    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013        ($185,423)    $36,851,517    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014           ($6,518)   $36,844,999    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014          ($77,004)   $36,767,995    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014        ($152,943)    $36,615,052    Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014          ($50,520)   $36,564,532    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2010          $610,000       $850,000    Updated portfolio data from servicer

                                                  Financial                                                    7/14/2010           $50,000       $900,000    Updated portfolio data from servicer
            Roebling Bank,                        Instrument for
1/13/2010                          Purchase                                   $240,000     N/A                 9/30/2010          ($29,666)      $870,334    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Roebling, NJ                          Home Loan
                                                  Modifications                                                 1/6/2011                         $870,333    Updated due to quarterly assessment and reallocation
                                                                                                               3/23/2011        ($870,333)             $0    Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                         541
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                          542
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009         $130,000        $700,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        ($310,000)       $390,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,110,000     $2,500,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        $8,300,000    $10,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $5,301,172    $16,101,172    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($22)   $16,101,150    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        ($400,000)    $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($25)   $15,701,125    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011            ($232)    $15,700,893    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($174)    $15,700,719    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012            ($479)    $15,700,240    Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012        ($350,000)    $15,350,240    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($82)   $15,350,158    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                3/25/2013            ($308)    $15,349,850    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    4/16/2013          $80,000     $15,429,850    Transfer of cap due to servicing transfer
            RoundPoint Mortgage
                                                   Instrument for
8/28/2009   Servicing Corporation,   Purchase                                  $570,000     N/A                 6/14/2013          $20,000     $15,449,850    Transfer of cap due to servicing transfer               $332,175    $768,574           $561,902              $1,662,651
                                                   Home Loan
            Charlotte, NC
                                                   Modifications                                                6/27/2013            ($108)    $15,449,742    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $30,000     $15,479,742    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013         $640,000     $16,119,742    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($40)   $16,119,702    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013         $190,000     $16,309,702    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($67,286)    $16,242,416    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014         $520,000     $16,762,416    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014          $10,000     $16,772,416    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014         ($30,000)    $16,742,416    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,463)   $16,739,953    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014         ($20,000)    $16,719,953    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014         ($28,873)    $16,691,080    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014         $480,000     $17,171,080    Transfer of cap due to servicing transfer
                                                                                                                7/29/2014         ($59,055)    $17,112,025    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014         $360,000     $17,472,025    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014         ($19,992)    $17,452,033    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               12/15/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         $600,000        $800,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($3)      $799,997    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012         $110,000        $909,997    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($13)      $909,984    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012        $1,270,000     $2,179,984    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012         $230,000      $2,409,984    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5)    $2,409,979    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013         $990,000      $3,399,979    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013         $600,000      $3,999,979    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013        $1,980,000     $5,979,979    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013              ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013         $340,000      $6,319,902    Transfer of cap due to servicing transfer
                                                                                                                5/16/2013        $1,520,000     $7,839,902    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $2,740,000    $10,579,902    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($53)   $10,579,849    Updated due to quarterly assessment and reallocation
                                                   Financial
             Rushmore Loan                                                                                      9/16/2013        $2,570,000    $13,149,849    Transfer of cap due to servicing transfer
                                                   Instrument for
12/15/2011   Management Services    Purchase                                          $0    N/A          3                                                                                                           $2,327,284   $5,137,866        $1,104,943              $8,570,093
                                                   Home Loan                                                    9/27/2013              ($26)   $13,149,823    Updated due to quarterly assessment and reallocation
             LLC, Irvine, CA
                                                   Modifications
                                                                                                               10/15/2013          $10,000     $13,159,823    Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $19,140,000    $32,299,823    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        $1,330,000    $33,629,823    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($60,644)    $33,569,179    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          $10,000     $33,579,179    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          $50,000     $33,629,179    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,090)   $33,627,089    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014        $4,440,000    $38,067,089    Transfer of cap due to servicing transfer
                                                                                                                5/15/2014          $60,000     $38,127,089    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014         $380,000     $38,507,089    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014         ($35,305)    $38,471,784    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014         $270,000     $38,741,784    Transfer of cap due to servicing transfer
                                                                                                                7/29/2014         ($69,974)    $38,671,810    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014        $4,040,000    $42,711,810    Transfer of cap due to servicing transfer
                                                                                                                9/16/2014        $1,670,000    $44,381,810    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014         ($27,982)    $44,353,828    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                           543
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                 (CONTINUED)                                                                                                                                                                                               544
                                                                                                                   Adjustment
            Servicer Modifying Borrowers’ Loans                                                                        Details                                                                                                             TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution          Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                    6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                    9/30/2009     $254,380,000      $886,420,000
                                                                                                                                                                    program initial cap
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                   12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                    program initial cap
                                                                                                                    3/26/2010      ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer
                                                                                                                    6/16/2010    ($156,050,000)    $1,028,360,000   Transfer of cap due to servicing transfer
                                                                                                                    7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                                    7/16/2010      ($22,980,000)    $491,720,000    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer/additional
                                                                                                                    9/30/2010        $9,800,000     $503,320,000
                                                                                                                                                                    program initial cap
                                                                                                                    9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
                                                                                                                   10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010        $8,900,000     $628,542,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                     1/6/2011             ($556)    $628,542,112    Updated due to quarterly assessment and reallocation
                                                                                                                    1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011             ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                                                                                    4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                    6/29/2011           ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
            Saxon Mortgage                             Instrument for
4/13/2009                                Purchase                              $407,000,000     N/A         10                                                                                                             $19,655,075   $41,738,413       $39,413,598           $100,807,086
            Services, Inc., Irving, TX                 Home Loan                                                    7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                    8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2012        ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                                    3/15/2012          $100,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012      ($17,500,000)    $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012        ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2012    ($354,290,000)     $277,985,314    Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012           ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2012      ($10,120,000)    $267,863,483    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2012          ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012           ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012       ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012          ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                                   12/14/2012           $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012             ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                                                                                    1/16/2013        ($610,000)     $258,047,994    Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013           ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation
                                                                                                                     4/9/2013    ($157,237,929)     $100,807,086    Termination of SPA
                                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009          $90,000        $480,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009         $940,000      $1,420,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($980,000)       $440,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)       $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010        $1,150,556     $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($22)    $1,450,530    Updated due to quarterly assessment and reallocation
                                                      Financial
             Schools Financial Credit                 Instrument for                                               6/28/2012              ($16)    $1,450,514    Updated due to quarterly assessment and reallocation
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                                        $29,167     $66,279            $39,500                $134,946
             Union, Sacramento, CA                    Home Loan
                                                                                                                   9/27/2012              ($44)    $1,450,470    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  12/27/2012               ($7)    $1,450,463    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($28)    $1,450,435    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($11)    $1,450,424    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($4)    $1,450,420    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($6,411)    $1,444,009    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($225)     $1,443,784    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($2,661)    $1,441,123    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($5,285)    $1,435,838    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014           ($1,746)    $1,434,092    Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010        $4,300,000     $4,300,000    Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011               ($4)    $4,299,996    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($5)    $4,299,991    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($23)    $4,299,968    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($63)    $4,299,905    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($11)    $4,299,894    Updated due to quarterly assessment and reallocation
                                                      Financial
             Scotiabank de Puerto                     Instrument for                                               3/25/2013              ($41)    $4,299,853    Updated due to quarterly assessment and reallocation
12/15/2010                              Purchase                                         $0    N/A          3                                                                                                            $528,836    $763,914           $418,009              $1,710,759
             Rico, San Juan, PR                       Home Loan                                                    6/27/2013              ($16)    $4,299,837    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2013               ($6)    $4,299,831    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($9,679)    $4,290,152    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($344)     $4,289,808    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($4,087)    $4,285,721    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($8,126)    $4,277,595    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014           ($2,690)    $4,274,905    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009         $100,000        $540,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009          $20,000        $560,000
                                                                                                                                                                 program initial cap
                                                      Financial
                                                      Instrument for                                               3/26/2010        ($290,000)       $270,000    Updated portfolio data from servicer
9/25/2009    SEFCU, Albany, NY          Purchase                                  $440,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                      Home Loan
                                                                                                                   7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010         ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                   6/29/2011                         $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   4/11/2012        ($145,055)             $0    Termination of SPA
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             545
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                                 546
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009     $284,590,000      $660,590,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $121,910,000      $782,500,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $131,340,000      $913,840,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010    ($355,530,000)     $558,310,000    Updated portfolio data from servicer
                                                                                                               7/14/2010     $128,690,000      $687,000,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $4,000,000     $691,000,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010       $59,807,784     $750,807,784    Updated portfolio data from servicer
                                                                                                              11/16/2010        ($700,000)     $750,107,784    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010       $64,400,000     $814,507,784    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($639)    $814,507,145    Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011       ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011         $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               3/16/2011        $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $400,000      $816,206,410    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011        ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011        ($200,000)     $815,799,605    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
                                                  Financial
            Select Portfolio                                                                                  11/16/2011        ($100,000)     $815,599,605    Transfer of cap due to servicing transfer
                                                  Instrument for
4/13/2009   Servicing, Inc., Salt   Purchase                              $376,000,000     N/A                                                                                                                        $105,559,658   $217,829,881      $134,755,514           $458,145,053
                                                  Home Loan                                                    1/13/2012         $200,000      $815,799,605    Transfer of cap due to servicing transfer
            Lake City, UT
                                                  Modifications
                                                                                                               3/15/2012       $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012     $126,940,000      $982,950,468    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013       $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013       $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013         $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013        $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013     $105,080,000     $1,147,704,125   Transfer of cap due to servicing transfer
                                                                                                               8/15/2013           $10,000    $1,147,714,125   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       $98,610,000    $1,246,324,125   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                    (CONTINUED)
                                                                                                      Adjustment
       Servicer Modifying Borrowers’ Loans                                                                Details                                                                                                          TARP Incentive Payments
                                                                Cap of Incentive
                                                            Payments on Behalf
                                                            of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                              Transaction    Investment    Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date   Name of Institution    Type           Description        Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                       9/27/2013           ($1,541)   $1,246,322,584   Updated due to quarterly assessment and reallocation
                                                                                                      10/15/2013        $1,280,000    $1,247,602,584   Transfer of cap due to servicing transfer
                                                                                                      11/14/2013       $15,130,000    $1,262,732,584   Transfer of cap due to servicing transfer
                                                                                                      12/16/2013        $6,290,000    $1,269,022,584   Transfer of cap due to servicing transfer
                                                                                                      12/23/2013       ($2,481,777)   $1,266,540,807   Updated due to quarterly assessment and reallocation
                                                                                                       1/16/2014        $1,580,000    $1,268,120,807   Transfer of cap due to servicing transfer
                                                                                                       2/13/2014       $75,350,000    $1,343,470,807   Transfer of cap due to servicing transfer
                                                                                                       3/14/2014       $16,900,000    $1,360,370,807   Transfer of cap due to servicing transfer
                                                                                                       3/26/2014          ($85,696)   $1,360,285,111   Updated due to quarterly assessment and reallocation
                                                                                                       4/16/2014       $12,470,000    $1,372,755,111   Transfer of cap due to servicing transfer
                                                                                                       5/15/2014       $20,960,000    $1,393,715,111   Transfer of cap due to servicing transfer
                                                                                                       6/16/2014       $14,220,000    $1,407,935,111   Transfer of cap due to servicing transfer
                                                                                                       6/26/2014       ($1,023,387)   $1,406,911,724   Updated due to quarterly assessment and reallocation
                                                                                                       7/16/2014       $12,690,000    $1,419,601,724   Transfer of cap due to servicing transfer
                                                                                                       7/29/2014       ($1,968,183)   $1,417,633,541   Updated due to quarterly assessment and reallocation
                                                                                                       8/14/2014      ($42,210,000)   $1,375,423,541   Transfer of cap due to servicing transfer
                                                                                                       9/16/2014        $7,420,000    $1,382,843,541   Transfer of cap due to servicing transfer
                                                                                                       9/29/2014        ($540,365)    $1,382,303,176   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                   547
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                          548
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               6/16/2010        $3,680,000     $3,680,000    Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        $3,043,831    $10,023,831    Updated portfolio data from servicer
                                                                                                              10/15/2010        $1,400,000    $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($17)   $11,423,814    Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011        $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($24)   $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $2,900,000    $16,423,790    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($200,000)    $16,223,790    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011            ($273)    $16,223,517    Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011         $100,000     $16,323,517    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $1,100,000    $17,423,517    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $200,000     $17,623,517    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $10,000     $17,633,517    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               6/14/2012        ($300,000)    $17,333,517    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012            ($218)    $17,333,299    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012          $40,000     $17,373,299    Transfer of cap due to servicing transfer

                                                  Financial                                                    8/16/2012         $480,000     $17,853,299    Transfer of cap due to servicing transfer
            Selene Finance LP,                    Instrument for
6/16/2010                          Purchase                                          $0    N/A          3      9/27/2012            ($600)    $17,852,699    Updated due to quarterly assessment and reallocation    $169,649    $414,052           $185,076                $768,777
            Houston, TX                           Home Loan
                                                  Modifications                                               11/15/2012          $70,000     $17,922,699    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012            ($102)    $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2013          $90,000     $18,012,597    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013            ($384)    $18,012,213    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013         ($30,000)    $17,982,213    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013            ($146)    $17,982,067    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013         $170,000     $18,152,067    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($52)   $18,152,015    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013         ($88,613)    $18,063,402    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014          $10,000     $18,073,402    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($3,125)   $18,070,277    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014          $30,000     $18,100,277    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014         ($36,971)    $18,063,306    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2014       $23,490,000    $41,553,306    Transfer of cap due to servicing transfer
                                                                                                               7/29/2014        ($142,594)    $41,410,712    Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014        $2,480,000    $43,890,712    Transfer of cap due to servicing transfer
                                                                                                               9/16/2014       $11,650,000    $55,540,712    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014         ($52,910)    $55,487,802    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               10/2/2009         $960,000      $5,350,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       ($3,090,000)    $2,260,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010         $230,000      $2,490,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        $5,310,000     $7,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010         $323,114      $8,123,114    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($12)    $8,123,102    Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011         $600,000      $8,723,102    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($16)    $8,723,086    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         $200,000      $8,923,086    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $100,000      $9,023,086    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($153)    $9,022,933    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011         $100,000      $9,122,933    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         $100,000      $9,222,933    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        $1,100,000    $10,322,933    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012         $650,000     $10,972,933    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($136)   $10,972,797    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012             ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012         $250,000     $11,222,450    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012           $30,000    $11,252,450    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012          ($10,000)   $11,242,450    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012              ($59)   $11,242,391    Updated due to quarterly assessment and reallocation
            Seneca Mortgage                       Financial                                                    1/16/2013           $20,000    $11,262,391    Transfer of cap due to servicing transfer
            Servicing LLC (AMS                    Instrument for
9/23/2009                          Purchase                                  $4,390,000    N/A                 2/14/2013         $290,000     $11,552,391    Transfer of cap due to servicing transfer                $36,866    $174,536           $103,775                $315,177
            Servicing, LLC),                      Home Loan
            Buffalo, NY                           Modifications                                                3/14/2013           $10,000    $11,562,391    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($220)   $11,562,171    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          ($60,000)   $11,502,171    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $50,000    $11,552,171    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $10,000    $11,562,171    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($79)   $11,562,092    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013          ($90,000)   $11,472,092    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013         $310,000     $11,782,092    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($28)   $11,782,064    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013         $230,000     $12,012,064    Transfer of cap due to servicing transfer
                                                                                                              11/14/2013         $120,000     $12,132,064    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013         $460,000     $12,592,064    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013          ($49,413)   $12,542,651    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014           $40,000    $12,582,651    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        ($260,000)    $12,322,651    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($1,697)   $12,320,954    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014         $100,000     $12,420,954    Transfer of cap due to servicing transfer
                                                                                                               6/16/2014           $30,000    $12,450,954    Transfer of cap due to servicing transfer
                                                                                                               6/26/2014          ($20,009)   $12,430,945    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               7/29/2014          ($39,741)   $12,391,204    Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014          ($40,000)   $12,351,204    Transfer of cap due to servicing transfer
                                                                                                               9/16/2014           $70,000    $12,421,204    Transfer of cap due to servicing transfer
                                                                                                               9/29/2014          ($13,236)   $12,407,968    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         549
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                           550
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009      ($25,510,000)    $4,220,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009          $520,000     $4,740,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $4,330,000     $9,070,000    Updated portfolio data from servicer
                                                                                                                 4/19/2010          $230,000     $9,300,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/19/2010          $850,000    $10,150,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010        ($850,000)     $9,300,000    Updated portfolio data from servicer
                                                                                                                 9/15/2010          $100,000     $9,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $100,000     $9,500,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       $16,755,064    $26,255,064    Updated portfolio data from servicer
                                                                                                                10/15/2010          $100,000    $26,355,064    Transfer of cap due to servicing transfer
                                                                                                                12/15/2010          $100,000    $26,455,064    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($40)   $26,455,024    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 1/13/2011          $300,000    $26,755,024    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011          $100,000    $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011        $2,200,000    $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($52)   $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011        $1,500,000    $30,554,972    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011        $1,000,000    $31,554,972    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $100,000    $31,654,972    Transfer of cap due to servicing transfer
                                                    Financial                                                    6/29/2011             ($534)   $31,654,438    Updated due to quarterly assessment and reallocation
            Servis One, Inc., dba
                                                    Instrument for
8/12/2009   BSI Financial Services,   Purchase                               $29,730,000     N/A                 8/16/2011          $700,000    $32,354,438    Transfer of cap due to servicing transfer              $2,238,271   $4,353,812        $1,681,723              $8,273,806
                                                    Home Loan
            Inc., Titusville, PA
                                                    Modifications
                                                                                                                 9/15/2011        ($600,000)    $31,754,438    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        $4,000,000    $35,754,438    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011          $600,000    $36,354,438    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011          $200,000    $36,554,438    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012          $100,000    $36,654,438    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        $1,300,000    $37,954,438    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012        $1,100,000    $39,054,438    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012          $800,000    $39,854,438    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012       ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012        $1,560,000    $40,334,438    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($465)   $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012           $70,000    $40,403,973    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012           ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012        $2,100,000    $42,502,701    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        $1,340,000    $43,842,701    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012        $1,160,000    $45,002,701    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($239)   $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2013          $210,000    $45,212,462    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013        $1,790,000    $47,002,462    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013        $1,920,000    $48,922,462    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013             ($960)   $48,921,502    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013          $410,000    $49,331,502    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                5/16/2013          ($60,000)   $49,271,502    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $1,620,000    $50,891,502    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013             ($359)   $50,891,143    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013        $2,030,000    $52,921,143    Transfer of cap due to servicing transfer
                                                                                                                8/15/2013           $10,000    $52,931,143    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013        $2,600,000    $55,531,143    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013             ($135)   $55,531,008    Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013         $270,000     $55,801,008    Transfer of cap due to servicing transfer
                                                                                                               11/14/2013           $30,000    $55,831,008    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        $9,960,000    $65,791,008    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($239,727)    $65,551,281    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014        $2,090,000    $67,641,281    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014        $2,450,000    $70,091,281    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014        ($130,000)    $69,961,281    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($8,837)   $69,952,444    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014           $60,000    $70,012,444    Transfer of cap due to servicing transfer
                                                                                                                5/15/2014        ($460,000)    $69,552,444    Transfer of cap due to servicing transfer
                                                                                                                6/16/2014         $920,000     $70,472,444    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014        ($103,723)    $70,368,721    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014        ($205,396)    $70,163,325    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014        $4,050,000    $74,213,325    Transfer of cap due to servicing transfer
                                                                                                                9/16/2014         $420,000     $74,633,325    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014          ($73,587)   $74,559,738    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009         $890,000      $2,300,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,260,000     $3,560,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          ($20,000)    $3,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($240,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $471,446      $3,771,446    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011               ($3)    $3,771,443    Updated due to quarterly assessment and reallocation
                                                   Instrument for
7/17/2009   ShoreBank, Chicago, IL   Purchase                                 $1,410,000    N/A          6      3/30/2011               ($4)    $3,771,439    Updated due to quarterly assessment and reallocation     $49,915    $153,906           $143,165                $346,986
                                                   Home Loan
                                                   Modifications                                                4/13/2011       ($1,100,000)    $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011              ($38)    $2,671,401    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($29)    $2,671,372    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($79)    $2,671,293    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($13)    $2,671,280    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($50)    $2,671,230    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013       ($2,324,244)      $346,986    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          551
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)                                                                                                                                                                                          552
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $90,000     $1,970,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $1,110,000     $3,080,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,180,000)    $1,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $275,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $2,175,832    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    3/30/2011               ($3)    $2,175,829    Updated due to quarterly assessment and reallocation
             Silver State Schools
                                                   Instrument for
12/9/2009    Credit Union, Las      Purchase                                  $1,880,000    N/A          6                                                                                                             $40,356    $176,299            $69,189                $285,844
                                                   Home Loan                                                    6/29/2011              ($26)    $2,175,803    Updated due to quarterly assessment and reallocation
             Vegas, NV
                                                   Modifications
                                                                                                                6/28/2012              ($21)    $2,175,782    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($57)    $2,175,725    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($10)    $2,175,715    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($37)    $2,175,678    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($15)    $2,175,663    Updated due to quarterly assessment and reallocation
                                                                                                                 7/9/2013       ($1,889,819)      $285,844    Termination of SPA
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                               10/15/2013           $60,000        $60,000    Transfer of cap due to servicing transfer

                                                   Financial                                                   12/16/2013           $10,000        $70,000    Transfer of cap due to servicing transfer
             SN Servicing
                                                   Instrument for
10/15/2013   Corporation, Baton     Purchase                                          $0    N/A          3      7/16/2014         $170,000        $240,000    Transfer of cap due to servicing transfer                 $4,345           $0            $5,017                  $9,362
                                                   Home Loan
             Rouge, LA
                                                   Modifications                                                7/29/2014             ($544)      $239,456    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014             ($180)      $239,276    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $20,000       $460,000
                                                                                                                                                              program initial cap
                                                   Financial
             Sound Community                       Instrument for                                               3/26/2010        $1,430,000     $1,890,000    Updated portfolio data from servicer
12/16/2009                          Purchase                                   $440,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Bank, Seattle, WA                     Home Loan
                                                   Modifications                                                7/14/2010        ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                                                                                 9/8/2010       ($1,500,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               3/26/2010      ($51,240,000)    $12,910,000   Updated portfolio data from servicer
                                                                                                               5/14/2010        $3,000,000     $15,910,000   Transfer of cap due to servicing transfer
                                                                                                               6/16/2010        $4,860,000     $20,770,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010        $3,630,000     $24,400,000   Updated portfolio data from servicer
                                                                                                               7/16/2010          $330,000     $24,730,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010          $700,000     $25,430,000   Transfer of cap due to servicing transfer
                                                                                                               9/15/2010          $200,000     $25,630,000   Transfer of cap due to servicing transfer
                                                                                                               9/30/2010       ($1,695,826)    $23,934,174   Updated portfolio data from servicer
                                                                                                              11/16/2010          $200,000     $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($32)    $24,134,142   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $1,500,000     $25,634,142   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $7,100,000     $32,734,142   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($36)    $32,734,106   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $1,000,000     $33,734,106   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011          $100,000     $33,834,106   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $300,000     $34,134,106   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011          $100,000     $34,233,774   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $300,000     $34,533,774   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $300,000     $34,833,774   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011       ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012        $1,600,000     $34,733,774   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012          $100,000     $34,833,774   Transfer of cap due to servicing transfer
                                                  Financial
            Specialized Loan                                                                                   3/15/2012          $100,000     $34,933,774   Transfer of cap due to servicing transfer
                                                  Instrument for
1/13/2010   Servicing LLC,         Purchase                                $64,150,000     N/A                                                                                                                      $11,976,273   $24,122,672       $16,585,336             $52,684,282
                                                  Home Loan                                                    4/16/2012       $77,600,000    $112,533,774   Transfer of cap due to servicing transfer
            Highlands Ranch, CO
                                                  Modifications
                                                                                                               5/16/2012           $40,000    $112,573,774   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($350,000)    $112,223,774   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $4,430,000    $116,652,716   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012       ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $5,600,000    $120,969,655   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          $880,000    $121,849,655   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       $24,180,000    $146,029,655   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013        $2,410,000    $148,438,992   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $6,650,000    $155,088,992   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013       ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        ($750,000)    $152,886,408   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $3,670,000    $155,306,408   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($985)   $155,305,423   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               7/16/2013       ($3,720,000)   $151,585,423   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013        ($180,000)    $151,405,423   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($346)   $151,405,077   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013          $860,000    $152,265,077   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        ($410,000)    $151,855,077   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            553




                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                          554
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 12/16/2013      ($10,160,000)   $141,695,077   Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($381,129)    $141,313,948   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014        $8,200,000    $149,513,948   Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014       $21,910,000    $171,423,948   Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          $300,000    $171,723,948   Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($10,851)   $171,713,097   Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2014        $4,470,000    $176,183,097   Transfer of cap due to servicing transfer
                                                                                                                  5/15/2014      ($28,460,000)   $147,723,097   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2014        $4,680,000    $152,403,097   Transfer of cap due to servicing transfer
                                                                                                                  6/26/2014          ($57,511)   $152,345,586   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2014       $16,450,000    $168,795,586   Transfer of cap due to servicing transfer
                                                                                                                  7/29/2014        ($115,275)    $168,680,311   Updated due to quarterly assessment and reallocation
                                                                                                                  8/14/2014          $230,000    $168,910,311   Transfer of cap due to servicing transfer
                                                                                                                  9/16/2014       ($4,270,000)   $164,640,311   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                  9/29/2014          ($27,454)   $164,612,857   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $10,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $850,000      $1,220,000   Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010        ($120,000)      $1,100,000   Updated portfolio data from servicer
            Spirit of Alaska Federal
                                                     Instrument for
12/9/2009   Credit Union, Fairbanks,   Purchase                                  $360,000     N/A                                                               Updated portfolio data from servicer/additional               $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010          $100,000      $1,200,000
            AK                                                                                                                                                  program initial cap
                                                     Modifications
                                                                                                                  9/30/2010          $105,500      $1,305,500   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)     $1,305,498   Updated due to quarterly assessment and reallocation
                                                                                                                  2/17/2011       ($1,305,498)            $0    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009           $70,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        $2,680,000      $3,050,000
                                                     Financial                                                                                                  program initial cap
            Stanford Federal Credit                  Instrument for
8/28/2009                              Purchase                                  $300,000     N/A                 3/26/2010          $350,000      $3,400,000   Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Union, Palo Alto, CA                     Home Loan
                                                     Modifications                                                7/14/2010       ($1,900,000)     $1,500,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010       ($1,209,889)      $290,111    Updated portfolio data from servicer
                                                                                                                  3/23/2011        ($290,111)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               12/15/2010        $5,000,000     $5,000,000    Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011               ($7)    $4,999,993    Updated due to quarterly assessment and reallocation
                                                                                                                2/16/2011         $500,000      $5,499,993    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011         $100,000      $5,599,993    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011               ($9)    $5,599,984    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($85)    $5,599,899    Updated due to quarterly assessment and reallocation
                                                                                                               11/16/2011       ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012         $200,000      $3,299,899    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($40)    $3,299,859    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($100)    $3,299,759    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012         $170,000      $3,469,759    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012          ($30,000)    $3,439,759    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012          ($80,000)    $3,359,759    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012              ($17)    $3,359,742    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013           $50,000     $3,409,742    Transfer of cap due to servicing transfer

                                                   Financial                                                    2/14/2013        $1,240,000     $4,649,742    Transfer of cap due to servicing transfer
             Statebridge Company,                  Instrument for
12/15/2010                          Purchase                                          $0    N/A          3      3/14/2013           $90,000     $4,739,742    Transfer of cap due to servicing transfer                $34,427    $114,334            $42,360                $191,121
             LLC, Denver, CO                       Home Loan
                                                   Modifications                                                3/25/2013              ($90)    $4,739,652    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013          ($10,000)    $4,729,652    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($34)    $4,729,618    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($13)    $4,729,605    Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013           $60,000     $4,789,605    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013          ($21,773)    $4,767,832    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          ($20,000)    $4,747,832    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014           $60,000     $4,807,832    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          ($30,000)    $4,777,832    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($770)    $4,777,062    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($8,978)    $4,768,084    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014         $150,000      $4,918,084    Transfer of cap due to servicing transfer
                                                                                                                7/29/2014          ($18,319)    $4,899,765    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014         $330,000      $5,229,765    Transfer of cap due to servicing transfer
                                                                                                                9/16/2014         $510,000      $5,739,765    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014           ($7,084)    $5,732,681    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          555
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                          556
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010         $100,000      $2,350,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        ($740,000)     $1,610,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($710,000)       $900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $550,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)    $1,450,555    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($11)    $1,450,543    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    9/27/2012           $30,907     $1,481,450    Updated due to quarterly assessment and reallocation
            Sterling Savings Bank,                  Instrument for
12/9/2009                             Purchase                                 $2,250,000    N/A                                                                                                                       $232,523    $482,036           $361,756              $1,076,314
            Spokane, WA                             Home Loan                                                   12/27/2012           $58,688     $1,540,138    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013         $235,175      $1,775,313    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013           $84,191     $1,859,504    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013           $13,786     $1,873,290    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013              ($35)    $1,873,255    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                 3/26/2014           $12,095     $1,885,350    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014         $122,307      $2,007,657    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014           $22,184     $2,029,841    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014           $24,565     $2,054,406    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Financial
            Stockman Bank of                        Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Montana, Miles City, MT                 Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010        $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
            Suburban Mortgage                       Financial
            Company of New                          Instrument for                                               3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
8/4/2010                              Purchase                                  $880,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Mexico, Albuquerque,                    Home Loan                                                    6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
            NM                                      Modifications
                                                                                                                 6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                                                                                 8/10/2012       ($2,465,867)            $0    Termination of SPA
                                                    Financial
            Sun West Mortgage
                                                    Instrument for
1/13/2012   Company, Inc, Cerritos,   Purchase                                         $0    N/A          3      1/13/2012         $100,000        $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                    Home Loan
            CA
                                                    Modifications
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                4/13/2011         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013         $120,000        $220,000    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013               ($1)      $219,999    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $10,000        $229,999    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013            ($670)       $229,329    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          $20,000        $249,329    Transfer of cap due to servicing transfer

                                                   Financial                                                    2/13/2014          $90,000        $339,329    Transfer of cap due to servicing transfer
             SunTrust Mortgage,                    Instrument for
4/13/2011                           Purchase                                          $0    N/A          3      3/14/2014          $50,000        $389,329    Transfer of cap due to servicing transfer                $60,205       $1,517           $38,106                 $99,828
             Inc., Richmond, VA                    Home Loan
                                                   Modifications                                                3/26/2014              ($38)      $389,291    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2014          $60,000        $449,291    Transfer of cap due to servicing transfer
                                                                                                                6/26/2014            ($486)       $448,805    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2014          $70,000        $518,805    Transfer of cap due to servicing transfer
                                                                                                                7/29/2014            ($989)       $517,816    Updated due to quarterly assessment and reallocation
                                                                                                                8/14/2014          $30,000        $547,816    Transfer of cap due to servicing transfer
                                                                                                                9/29/2014            ($358)       $547,458    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $2,180,000     $2,250,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        ($720,000)     $1,530,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($430,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          $60,445      $1,160,445    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)    $1,160,444    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)    $1,160,431    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($9)    $1,160,422    Updated due to quarterly assessment and reallocation
                                                   Financial
             Technology Credit                     Instrument for                                               9/27/2012              ($23)    $1,160,399    Updated due to quarterly assessment and reallocation
6/26/2009                           Purchase                                     $70,000    N/A                                                                                                                        $61,000    $220,731            $76,817                $358,548
             Union, San Jose, CA                   Home Loan
                                                   Modifications                                               12/27/2012               ($4)    $1,160,395    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($13)    $1,160,382    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($5)    $1,160,377    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($2)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,729)    $1,157,646    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014            ($101)     $1,157,545    Updated due to quarterly assessment and reallocation
                                                                                                                6/26/2014           ($1,195)    $1,156,350    Updated due to quarterly assessment and reallocation
                                                                                                                7/29/2014           ($2,373)    $1,153,977    Updated due to quarterly assessment and reallocation
                                                                                                                9/29/2014            ($784)     $1,153,193    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2010         ($20,000)        $90,000    Updated portfolio data from servicer
                                                   Financial
             Tempe Schools Credit                  Instrument for                                               7/14/2010          $10,000        $100,000    Updated portfolio data from servicer
12/23/2009                          Purchase                                   $110,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Tempe, AZ                      Home Loan                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                12/8/2010        ($145,056)             $0    Termination of SPA
                                                   Financial                                                    4/21/2010        ($150,000)             $0    Termination of SPA
             The Bryn Mawr Trust                   Instrument for
12/11/2009                          Purchase                                   $150,000     N/A          3                                                                                                             $13,316     $16,730             $8,436                 $38,482
             Co., Bryn Mawr, PA                    Home Loan                                                    6/16/2011         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                          557
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                             558
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               1/22/2010          $290,000      $6,450,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010           $40,000      $6,490,000   Updated portfolio data from servicer
                                                                                                               7/14/2010       ($2,890,000)     $3,600,000   Updated portfolio data from servicer
                                                                                                               9/30/2010          $606,612      $4,206,612   Updated portfolio data from servicer
                                                                                                                1/6/2011               ($4)     $4,206,608   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($4)     $4,206,604   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($35)     $4,206,569   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012               ($9)     $4,206,560   Updated due to quarterly assessment and reallocation
                                                  Financial
            The Golden 1 Credit                   Instrument for                                               9/27/2012              ($14)     $4,206,546   Updated due to quarterly assessment and reallocation
12/9/2009                           Purchase                                 $6,160,000    N/A                                                                                                                        $418,220     $1,199,360          $663,524              $2,281,104
            Union, Sacramento, CA                 Home Loan
                                                  Modifications                                               12/27/2012               ($2)     $4,206,544   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013               ($8)     $4,206,536   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($4)     $4,206,532   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($1)     $4,206,531   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                              12/23/2013           ($2,412)     $4,204,119   Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($84)     $4,204,035   Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014             ($302)     $4,203,733   Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014              ($16)     $4,203,717   Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014           $20,590      $4,224,307   Updated due to quarterly assessment and reallocation
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               10/2/2009       $24,920,000    $139,140,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $49,410,000    $188,550,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($85,780,000)   $144,600,000   Updated portfolio data from servicer
                                                                                                               9/30/2010       $36,574,444    $181,174,444   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($160)   $181,174,284   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011             ($172)   $181,174,112   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011           ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation
                                                  Financial
            U.S. Bank National                                                                                 6/28/2012             ($746)   $181,171,935   Updated due to quarterly assessment and reallocation
                                                  Instrument for
9/9/2009    Association,            Purchase                              $114,220,000     N/A                                                                                                                      $16,585,714   $36,992,858       $26,046,129             $79,624,702
                                                  Home Loan
            Owensboro, KY                                                                                      9/27/2012           ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                              12/27/2012             ($308)   $181,169,701   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013           ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013             ($418)   $181,168,148   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013             ($139)   $181,168,009   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013        ($212,077)    $180,955,932   Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014           ($6,391)   $180,949,541   Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014          ($71,209)   $180,878,332   Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014        ($125,785)    $180,752,547   Updated due to quarterly assessment and reallocation
                                                                                                               9/29/2014          ($39,094)   $180,713,453   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                   3/26/2010         $160,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($22)      $725,235    Updated due to quarterly assessment and reallocation
                                                      Financial
                                                      Instrument for                                              12/27/2012               ($4)      $725,231    Updated due to quarterly assessment and reallocation
1/29/2010    United Bank, Griffin, GA   Purchase                                  $540,000     N/A                                                                                                                         $2,917       $2,652            $6,600                 $12,169
                                                      Home Loan                                                    3/25/2013              ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   6/27/2013               ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($3,221)      $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($113)       $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014           ($1,337)      $720,539    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($2,655)      $717,884    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014            ($877)       $717,007    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $20,000        $430,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010         $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($430,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($5)      $580,215    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012               ($4)      $580,211    Updated due to quarterly assessment and reallocation
                                                      Financial
             United Bank Mortgage
                                                      Instrument for                                               9/27/2012              ($11)      $580,200    Updated due to quarterly assessment and reallocation
10/21/2009   Corporation, Grand         Purchase                                  $410,000     N/A                                                                                                                        $46,193     $85,879            $61,707                $193,778
                                                      Home Loan
             Rapids, MI                                                                                           12/27/2012               ($2)      $580,198    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/25/2013               ($7)      $580,191    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $580,188    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,471)      $578,717    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($52)      $578,665    Updated due to quarterly assessment and reallocation
                                                                                                                   6/26/2014            ($613)       $578,052    Updated due to quarterly assessment and reallocation
                                                                                                                   7/29/2014           ($1,217)      $576,835    Updated due to quarterly assessment and reallocation
                                                                                                                   9/29/2014            ($403)       $576,432    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/30/2010         $270,334        $870,334    Updated portfolio data from servicer
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union, Salt Lake    Purchase                                  $600,000     N/A                  1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                      Home Loan
             City, UT
                                                      Modifications                                                2/17/2011        ($870,333)             $0    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                             559
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                               (CONTINUED)                                                                                                                                                                                          560
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  4/13/2011        $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011         $233,268      $1,233,268    Updated due to quarterly assessment and reallocation
                                                                                                                 11/16/2011         $100,000      $1,333,268    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012               ($3)    $1,333,265    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012              ($10)    $1,333,255    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012               ($2)    $1,333,253    Updated due to quarterly assessment and reallocation
                                                     Financial
             Urban Partnership Bank,                 Instrument for                                               3/25/2013               ($7)    $1,333,246    Updated due to quarterly assessment and reallocation
4/13/2011                              Purchase                                         $0    N/A          3                                                                                                            $172,539    $352,540           $135,919                $660,999
             Chicago, IL                             Home Loan                                                    6/27/2013               ($3)    $1,333,243    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2013               ($1)    $1,333,242    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($1,744)    $1,331,498    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014              ($62)    $1,331,436    Updated due to quarterly assessment and reallocation
                                                                                                                  6/26/2014             ($735)    $1,330,701    Updated due to quarterly assessment and reallocation
                                                                                                                  7/29/2014           ($1,463)    $1,329,238    Updated due to quarterly assessment and reallocation
                                                                                                                  9/29/2014             ($498)    $1,328,740    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                     Financial                                                    7/14/2010        $4,440,000     $5,500,000    Updated portfolio data from servicer
             Urban Trust Bank, Lake                  Instrument for
3/3/2010                               Purchase                                 $1,060,000    N/A          3      9/24/2010       ($5,500,000)            $0    Termination of SPA                                        $2,000       $5,991            $1,000                  $8,991
             Mary, FL                                Home Loan
                                                     Modifications                                               12/16/2013           $40,000        $40,000    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $30,000       $630,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010         $400,000      $1,030,000    Updated portfolio data from servicer
                                                     Financial
             Verity Credit Union,                    Instrument for                                               7/14/2010        ($330,000)       $700,000    Updated portfolio data from servicer
12/11/2009                             Purchase                                  $600,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Seattle, WA                             Home Loan
                                                     Modifications                                                9/30/2010           $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                  2/17/2011        ($725,277)             $0    Termination of SPA
                                                     Financial                                                    5/16/2013           $50,000        $50,000    Transfer of cap due to servicing transfer
             ViewPoint Bank,                         Instrument for
5/16/2013                              Purchase                                         $0    N/A          3                                                                                                                  $0       $1,336                 $0                 $1,336
             Plano, TX                               Home Loan                                                   12/16/2013           $10,000        $60,000    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  7/14/2010         $400,000        $700,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                     Financial
             VIST Financial Corp,                    Instrument for                                               9/27/2012              ($22)      $725,235    Updated due to quarterly assessment and reallocation
3/10/2010                              Purchase                                  $300,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Wyomissing, PA                          Home Loan                                                   12/27/2012               ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013              ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($3,221)      $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($113)      $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                  4/23/2014        ($721,876)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($37,700,000)      $47,320,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009        $26,160,000      $73,480,000
                                                  Financial                                                                                                     program initial cap
            Wachovia Bank, N.A.,                  Instrument for
7/29/2009                           Purchase                               $85,020,000     N/A                 3/26/2010         $9,820,000      $83,300,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Charlotte, NC                         Home Loan
                                                  Modifications                                                7/14/2010      ($46,200,000)      $37,100,000    Updated portfolio data from servicer
                                                                                                               9/30/2010      ($28,686,775)       $8,413,225    Updated portfolio data from servicer
                                                                                                               12/3/2010        ($8,413,225)              $0    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      $723,880,000     $1,357,890,000
                                                                                                                                                                program initial cap
                                                  Financial
            Wachovia Mortgage,                    Instrument for                                                                                                Updated portfolio data from servicer/additional
7/1/2009                            Purchase                              $634,010,000     N/A          2     12/30/2009      $692,640,000     $2,050,530,000                                                                 $0     $76,890           $162,000                $238,890
            FSB, Des Moines, IA                   Home Loan                                                                                                     program initial cap
                                                  Modifications                                                2/17/2010    ($2,050,236,344)        $293,656    Transfer of cap due to merger/acquisition
                                                                                                               3/12/2010           ($54,767)        $238,890    Termination of SPA
                                                                                                               7/14/2010         ($150,000)       $6,400,000    Updated portfolio data from servicer
                                                                                                               9/15/2010         $1,600,000       $8,000,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        ($4,352,173)      $3,647,827    Updated portfolio data from servicer
                                                                                                                1/6/2011                ($5)      $3,647,822    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011                ($6)      $3,647,816    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($3,000,000)        $647,816    Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011                ($9)        $647,807    Updated due to quarterly assessment and reallocation
            Wealthbridge Mortgage                 Instrument for
4/14/2010                           Purchase                                 $6,550,000    N/A                 6/28/2012                ($7)        $647,800    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Corp, Beaverton, OR                   Home Loan
                                                  Modifications                                                9/27/2012               ($19)        $647,781    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012                ($3)        $647,778    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013               ($12)        $647,766    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013                ($5)        $647,761    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013                ($2)        $647,759    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013            ($2,822)        $644,937    Updated due to quarterly assessment and reallocation
                                                                                                               2/27/2014         ($644,937)               $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                            561
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)                                                                                                                                                                                                  562
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009        $65,070,000    $2,475,080,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $1,213,310,000    $3,688,390,000
                                                                                                                                                                program initial cap
                                                                                                               2/17/2010     $2,050,236,344    $5,738,626,344   Transfer of cap due to merger/acquisition
                                                                                                               3/12/2010            $54,767    $5,738,681,110   Transfer of cap due to merger/acquisition
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/19/2010      $668,108,890     $6,406,790,000
                                                                                                                                                                program initial cap
                                                                                                               3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                               9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010      $344,000,000     $5,108,351,172
                                                                                                                                                                program initial cap
                                                                                                               12/3/2010         $8,413,225    $5,116,764,397   Transfer of cap due to merger/acquisition
                                                                                                              12/15/2010        $22,200,000    $5,138,964,397   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




                                                                                                                1/6/2011            ($6,312)   $5,138,958,085   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011         ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011         ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011           $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011         ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                  Financial                                                    6/29/2011           ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                           Purchase                            $2,873,000,000     N/A                 7/14/2011        ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer              $299,165,366   $790,952,362      $402,890,731          $1,493,008,458
            Des Moines, IA                        Home Loan
                                                  Modifications
                                                                                                               8/16/2011        ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011           $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012         ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012         ($120,000)    $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($104,111)    $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013        ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013         ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013         ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               4/16/2013          ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013       ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013          ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013       ($1,200,000)   $5,102,967,327   Transfer of cap due to servicing transfer
                                                                                                               8/15/2013          ($30,000)   $5,102,937,327   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013      ($10,760,000)   $5,092,177,327   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013           ($6,701)   $5,092,170,626   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($780,000)    $5,091,390,626   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013          ($60,000)   $5,091,330,626   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        ($860,000)    $5,090,470,626   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013      ($10,569,304)   $5,079,901,322   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014       ($1,990,000)   $5,077,911,322   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014        ($170,000)    $5,077,741,322   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014          ($80,000)   $5,077,661,322   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($358,566)    $5,077,302,756   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2014       ($4,560,000)   $5,072,742,756   Transfer of cap due to servicing transfer
                                                                                                               5/15/2014        ($560,000)    $5,072,182,756   Transfer of cap due to servicing transfer
                                                                                                               6/16/2014        ($240,000)    $5,071,942,756   Transfer of cap due to servicing transfer
                                                                                                               6/26/2014       ($4,070,420)   $5,067,872,336   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2014          $250,000    $5,068,122,336   Transfer of cap due to servicing transfer
                                                                                                               7/29/2014       ($8,035,053)   $5,060,087,283   Updated due to quarterly assessment and reallocation
                                                                                                               8/14/2014           $10,000    $5,060,097,283   Transfer of cap due to servicing transfer
                                                                                                               9/16/2014          ($20,000)   $5,060,077,283   Transfer of cap due to servicing transfer
                                                                                                               9/29/2014       ($2,607,017)   $5,057,470,266   Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009          $330,000         $870,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $16,490,000      $17,360,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010      ($14,260,000)      $3,100,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($1,800,000)      $1,300,000    Updated portfolio data from servicer
                                                                                                               7/30/2010        $1,500,000       $2,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010        $1,551,668       $4,351,668    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($2)      $4,351,666    Updated due to quarterly assessment and reallocation
                                                  Financial
            Wescom Central Credit                 Instrument for                                               3/30/2011               ($2)      $4,351,664    Updated due to quarterly assessment and reallocation
6/19/2009                           Purchase                                  $540,000     N/A         3, 6                                                                                                            $283,771    $838,019           $312,225              $1,434,015
            Union, Anaheim, CA                    Home Loan
                                                                                                               5/13/2011       ($1,800,000)      $2,551,664    Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                                6/3/2011       ($1,872,787)        $678,877    Termination of SPA
                                                                                                               6/14/2012          $990,000       $1,668,877    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          $372,177       $2,041,054    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013             ($192)      $2,040,862    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014               ($8)      $2,040,854    Updated due to quarterly assessment and reallocation
                                                                                                               6/26/2014             ($102)      $2,040,752    Updated due to quarterly assessment and reallocation
                                                                                                               7/29/2014             ($207)      $2,040,545    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014




                                                                                                               9/29/2014              ($76)      $2,040,469    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           563
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                              (CONTINUED)                                                                                                                                                                                          564
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 4/13/2011          $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011           $17,687       $217,687    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($1)      $217,686    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    3/25/2013               ($1)      $217,685    Updated due to quarterly assessment and reallocation
            Western Federal Credit                  Instrument for
4/13/2011                             Purchase                                         $0    N/A          3     12/23/2013             ($290)      $217,395    Updated due to quarterly assessment and reallocation     $21,333     $56,124            $22,917                $100,374
            Union, Hawthorne, CA                    Home Loan
                                                    Modifications                                                3/26/2014              ($10)      $217,385    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014             ($121)      $217,264    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014             ($240)      $217,024    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014              ($79)      $216,945    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                    Financial
            Weststar Mortgage,                      Instrument for                                               3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
9/30/2010                             Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




            Inc., Woodbridge, VA                    Home Loan                                                   12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 6/26/2014              ($96)      $144,715    Updated due to quarterly assessment and reallocation
                                                                                                                 7/29/2014             ($191)      $144,524    Updated due to quarterly assessment and reallocation
                                                                                                                 9/29/2014              ($63)      $144,461    Updated due to quarterly assessment and reallocation
                                                                                                                 6/12/2009       $87,130,000    $453,130,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009    ($249,670,000)    $203,460,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009     $119,700,000     $323,160,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010       $52,270,000    $375,430,000   Updated portfolio data from servicer
                                                                                                                 4/19/2010      ($10,280,000)   $365,150,000   Transfer of cap due to servicing transfer
                                                                                                                 5/14/2010       ($1,880,000)   $363,270,000   Transfer of cap due to servicing transfer
                                                    Financial
            Wilshire Credit                                                                                      6/16/2010    ($286,510,000)     $76,760,000   Transfer of cap due to servicing transfer
                                                    Instrument for
4/20/2009   Corporation, Beaverton,   Purchase                              $366,000,000     N/A          7                                                                                                                  $0    $490,394         $1,167,000              $1,657,394
                                                    Home Loan
            OR                                                                                                   7/14/2010       $19,540,000     $96,300,000   Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 7/16/2010        ($210,000)     $96,090,000   Transfer of cap due to servicing transfer
                                                                                                                 8/13/2010        ($100,000)     $95,990,000   Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010       $68,565,782    $164,555,782   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($247)   $164,555,535   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011             ($294)   $164,555,241   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011           ($2,779)   $164,552,462   Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011    ($162,895,068)      $1,657,394   Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2014                                                               (CONTINUED)
                                                                                                                                        Adjustment
                      Servicer Modifying Borrowers’ Loans                                                                                   Details                                                                                                                                      TARP Incentive Payments
                                                                                         Cap of Incentive
                                                                                     Payments on Behalf
                                                                                     of Borrowers and to                                                                                                                                                                                  Lenders/                                     Total TARP
                                                 Transaction      Investment        Servicers & Lenders/       Pricing                  Adjustment       Cap Adjustment                                                                                            Borrower’s             Investors              Servicers               Incentive
Date                  Name of Institution        Type             Description            Investors (Cap)*      Mechanism       Note           Date              Amount           Adjusted Cap     Reason for Adjustment                                            Incentives            Incentives             Incentives              Payments
                                                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                                         10/2/2009               $60,000             $300,000
                                                                                                                                                                                                  program initial cap
                                                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                                        12/30/2009              $350,000             $650,000
                                                                                                                                                                                                  program initial cap
                                                                                                                                         3/26/2010            $1,360,000           $2,010,000     Updated portfolio data from servicer
                                                                                                                                         7/14/2010           ($1,810,000)            $200,000     Updated portfolio data from servicer
                                                                                                                                         9/30/2010              $235,167             $435,167     Updated portfolio data from servicer
                                                                                                                                          1/6/2011                    ($1)           $435,166     Updated due to quarterly assessment and reallocation
                                                                                                                                         6/29/2011                    ($4)           $435,162     Updated due to quarterly assessment and reallocation
                                                                  Financial                                                              6/28/2012                    ($3)           $435,159     Updated due to quarterly assessment and reallocation
                      Yadkin Valley Bank,                         Instrument for
9/23/2009                                        Purchase                                         $240,000     N/A                       9/27/2012                    ($7)           $435,152     Updated due to quarterly assessment and reallocation               $31,523               $35,279                $50,373                $117,175
                      Elkin, NC                                   Home Loan
                                                                  Modifications                                                         12/27/2012                    ($1)           $435,151     Updated due to quarterly assessment and reallocation
                                                                                                                                         3/25/2013                    ($5)           $435,146     Updated due to quarterly assessment and reallocation
                                                                                                                                         6/27/2013                    ($2)           $435,144     Updated due to quarterly assessment and reallocation
                                                                                                                                         9/27/2013                    ($1)           $435,143     Updated due to quarterly assessment and reallocation
                                                                                                                                        12/23/2013                ($1,174)           $433,969     Updated due to quarterly assessment and reallocation
                                                                                                                                         3/26/2014                   ($43)           $433,926     Updated due to quarterly assessment and reallocation
                                                                                                                                         6/26/2014                  ($507)           $433,419     Updated due to quarterly assessment and reallocation
                                                                                                                                         7/29/2014                ($1,008)           $432,411     Updated due to quarterly assessment and reallocation
                                                                                                                                         9/29/2014                  ($333)           $432,078     Updated due to quarterly assessment and reallocation
                                                                Total Initial Cap       $23,831,570,000                     Total CAP Adjustments       $5,997,236,082                                                                              Totals   $1,831,782,916      $4,939,050,774         $2,479,428,660           $9,250,262,351
                                                                                                                                          Total Cap $29,828,806,082
Notes: Numbers may be affected by rounding. Data as of 9/30/2014. Numbered notes are taken verbatim from Treasury’s 9/29/2014, Transactions Report-Housing Programs.

1
 	       On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
2
 	       Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
3
 	       This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
4
 	       On 8/27/10, an amendment was executed to reflect a change in the legal name of the institution.
5
 	       MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/1/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.
6
 	       The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.7 Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to
         each servicer prior to such merger.
7
 	       Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
8
 	       In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
9
 	       RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.
10
     	   On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing servicing
         operations.
11
  	      As of July 3, 2012, Aurora Loan Services LLC has discontinued its servicing function and sold all remaining servicing rights to Nationstar Mortgage. The remaining Adjusted Cap stated above represents the amount previously paid to Aurora Loan Services LLC, prior to ceasing servicing operations.
12
  	      Effective September 1, 2011 Litton Loan Servicing LP was acquired by Ocwen Financial Corporation. The remaining Adjusted Cap stated above represents the amount previously paid to Litton prior to such acquistion.
13
  	      In May 2010, U.S. mortgage servicing business HomEq was sold to Ocwen Loan Servicing. The remaining Adjusted Cap stated above represents the amount previously paid to HomEq prior to such sale.
14
  	      In December 2012, Ocwen Financial Corporation completed the acquisition of Homeward Residential, Inc. The remaining Adjusted Cap stated above represents the amount previously paid to Homeward prior to such acquisition.

* The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and individual
servicer usage for borrower modifications.  Each adjustment to the Cap is reflected under Adjustment Details.

Source: Treasury, Transactions Report-Housing Programs, 9/29/2014.
                                                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                                                                     565
TABLE D.14                                                                                                                                                                                                                                                  566
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014
                   Seller
                                                                                              Transaction
Note   Date        Name of Institution                                                        Type          Investment Description                 Initial Investment Amount   Additional Investment Amount   Investment Amount1     Pricing Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program              $102,800,000                              —                            N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                         —                     $34,056,581         $194,026,240      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $57,169,659                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $699,600,000                              —                            N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                         —                    $476,257,070        $1,975,334,096     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $799,477,026                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $418,000,000                              —                            N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                         —                    $238,864,755        $1,057,839,136     N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $400,974,381                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $125,100,000                              —                            N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                                             $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $142,666,006                           N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $154,500,000                              —                            N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                         —                    $128,461,559         $498,605,738      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $215,644,179                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $159,000,000                              —                            N/A
                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I OCTOBER 29, 2014




2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                         —                    $120,874,221         $482,781,786      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $202,907,565                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $172,000,000                              —                            N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                         —                    $148,728,864         $570,395,099      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $249,666,235                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $88,000,000                              —                            N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                         —                     $49,294,215         $220,042,786      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $82,748,571                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $43,000,000                              —                            N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                         —                     $13,570,770          $79,351,573      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $22,780,803                           N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $138,000,000                              —                            N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                         —                     $58,772,347         $295,431,547      N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $98,659,200                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $60,672,471                              —                            N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                                             $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $101,848,874                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $55,588,050                              —                            N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                                             $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $93,313,825                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $38,036,950                              —                            N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                                             $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $63,851,373                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $126,650,987                              —                            N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                                             $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $212,604,832                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $82,762,859                              —                            N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                                             $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $138,931,280                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $166,352,726                              —                            N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                                             $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $279,250,831                           N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $112,200,637                              —                            N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                                             $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $188,347,507                           N/A
                                                                                                                                                                                                                                   Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2014                                                                                               (CONTINUED)
                         Seller
                                                                                                         Transaction
Note    Date             Name of Institution                                                             Type             Investment Description                           Initial Investment Amount     Additional Investment Amount                Investment Amount1       Pricing Mechanism
        9/23/2010                                                                                                         Financial Instrument for HHF Program                           $7,726,678                                    —                                      N/A
                         District of Columbia Housing Finance Agency, Washington, DC                     Purchase                                                                                                                                            $20,697,198
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                                     —                        $12,970,520                                       N/A
        9/23/2010                                                                                                         Financial Instrument for HHF Program                          $81,128,260                                    —                                      N/A
                         Tennessee Housing Development Agency, Nashville, TN                             Purchase                                                                                                                                           $217,315,593
3       9/29/2010                                                                                                         Financial Instrument for HHF Program                                     —                       $136,187,333                                       N/A
                                                                                                                                                                                                              Total Investment Amount                    $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2014. Numbered notes are taken verbatim from Treasury’s 9/29/2014 Transactions Report-Housing Programs.

1
	 The purchase will be incrementally funded up to the investment amount.
2
	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 9/29/2014.




TABLE D.15
FHA SHORT REFINANCE PROGRAM, AS OF 9/30/2014
Note              Date              Seller Name                            Transaction Type            Investment Description                Initial Investment Amount          Investment Adjustments                             Investment Amount        Pricing Mechanism
1                 9/3/2010                                                                                                                              $8,117,000,000                                 ­—                               $1,025,000,000      N/A
                                    Citigroup, Inc., New York, NY          Purchase                    Facility Purchase Agreement
2                 3/4/2013                                                                                                                                             —               ($7,092,000,000)                                                     N/A
                                                                                                                                                                               Total Investment Amount                                $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2014. Numbered notes are taken verbatim from Treasury’s 9/29/2014 Transactions Report-Housing Programs.

1
 	 On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury
   will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility
   Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	 On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the period of time Treasury has to increase the
   L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 9/29/2014.
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                  567
568               APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I OCTOBER 29, 2014




      DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
      DIVIDEND/INTEREST PAYMENTS
      TABLE E.1
       DEBT AGREEMENTS, AS OF 9/30/2014
       TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
       Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                              Each QFI may issue senior
                                                                                   Senior                     securities with an aggregate                  7.7% for first 5
                                                                                   Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                                   Securities                 risk-weighted assets, but not to              thereafter
       CPP –          Originally                                                                              exceed $25 billion.
                                         1/14/2009a            $0.5 billion
       S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                                   Subordinated               to purchase an amount equal
                                                                                   Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                                   that are exercised         purchased on the date of
                                                                                   immediately                investment.
                                                                                                              Each QCU may issue CDCI
                                                                                                              Senior Securities with an
       CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                                 2% for first 8 years,                    CDCI – Credit
       Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                                 9% thereafter                            Unions
       Unions                                                                      Unions                     assets and not more than 50%
                                                                                                              of the capital and surplus of the
                                                                                                              QCU.
                                                                                                              Each QFI may issue CDCI Senior
                                                                                                              Securities with an aggregate
                                                                                                              principal amount equal to not
                                                                                                              more than 5% of (i), if the QFI is a
                                                                                                              Certified Entity the risk-weighted
                                                                                                              assets of the QFI, or (ii), if the            3.1% for first 8
       CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                              QFI is not a Certified Entity, the            years, 13.8%
       S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                              sum of the RWAs of each of the                thereafter
                                                                                                              Certified Entities, in each case
                                                                                                              less the aggregate capital or,
                                                                                                              as the case may be, principal
                                                                                                              amount of any outstanding TARP
                                                                                                              assistance of the QFI.
                                                                                                                                                                                          The debt
                                                                                                                                                                                          obligation for
                                                                                                                                                                                          each fund
                                                                                   Debt Obligation
                                                                                                              Each of the loans will be funded                                            matures at
                                         9/30/2009                                 with Contingent
       PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                         and later                                 Interest
                                                                                                              the fund manager.                                                           of the
                                                                                   Promissory Note
                                                                                                                                                                                          dissolution of
                                                                                                                                                                                          the fund or
                                                                                                                                                                                          10 years.
       Notes: Numbers may be affected due to rounding.
       a
         Announcement date of CPP S-Corporation Term Sheet.

       Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
       12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
       Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
       Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
       Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
                                      DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I OCTOBER 29, 2014                569




TABLE E.2
 EQUITY AGREEMENTS, AS OF 9/30/2014
 TARP                        Date of        Cost           Description                                                              Term of
 Program    Company          Agreement      Assigned       of Investment      Investment Information            Dividends           Agreement
                                                           Senior             1–3% of risk-weighted assets,     5% for first
                                                           Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                           Equity             each QFI                          thereafter
 CPP –      Originally       10/14/2008a    $200.1
 Public     286 QFIs         and later      billion        Common
                                                           Stock              15% of senior preferred
                                                                                                                —                   Up to 10 years
                                                           Purchase           amount
                                                           Warrants
                                                                              1–3% of risk-weighted assets,     5% for first
                                                           Preferred
                                                                              not to exceed $25 billion for     5 years, 9%         Perpetual
                                                           Equity
                                                                              each QFI                          thereafter

 CPP –      Originally       11/17/2008b                   Preferred
                                            $4 billion     Stock
 Private    369 QFIs         and later
                                                           Purchase
                                                                              5% of preferred amount            9%                  Perpetual
                                                           Warrants that
                                                           are exercised
                                                           immediately
                                                           Preferred
                                                                              5% of risk-weighted assets        2% for first
                                            $780.2         Equity for
 CDCI       All                                                               for banks and bank holding        eight years, 9%     Perpetual
                                            million        banks & thrift
                                                                              companies.                        thereafter
                                                           institutions
                                                                                                                                    8 years with the
                                                           Membership         Each membership interest will
                             9/30/2009                                                                                              possibility of
 PPIP       All                             $10 billion    interest in a      be funded upon demand from        —
                             and later                                                                                              extension for 2
                                                           partnership        the fund manager.
                                                                                                                                    additional years
                                                           Mandatorily                                                              Converts to
                                                           Convertible                                                              common equity
                                                                              $5 billion                        9%
                                                           Preferred                                                                interest after 7
                                                           Stock                                                                    years
            Ally Financial
 AIFP       Inc. (formerly   12/29/2008     $5 billion     Preferred
            GMAC)                                          Stock                                                                    Converts to
                                                           Purchase                                                                 common equity
                                                                              5% of original preferred amount   9%
                                                           Warrants that                                                            interest after 7
                                                           are exercised                                                            years
                                                           immediately
                                                           Mandatorily                                                              Converts to
                                                           Convertible                                                              common equity
                                                                              $4.5 billion                      9%
                                                           Preferred                                                                interest after 7
                                                           Stockc                                                                   years
                                                           Preferred
            Ally Financial
                                                           Stock                                                                    Converts to
 AIFP       Inc. (formerly   5/21/2009      $7.5 billion
                                                           Purchase                                                                 common equity
            GMAC)                                                             5% of original preferred amount   9%
                                                           Warrants that                                                            interest after 7
                                                           are exercised                                                            years
                                                           immediately
                                                           Common
                                                                              $3 billion                        —                   Perpetual
                                                           Equity Interestd
                                                                                                                               Continued on next page
570              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I OCTOBER 29, 2014




      EQUITY AGREEMENTS, AS OF 9/30/2014                                    (CONTINUED)

      TARP                                    Date of                  Cost                Description                                                                                   Term of
      Program           Company               Agreement                Assigned            of Investment          Investment Information                       Dividends                 Agreement
                                                                                                                  This equity interest was
                                                                                                                  obtained by exchanging a
                        Ally Financial
                                                                                           Common                 prior debt obligation with
      AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                            —                         Perpetual
                                                                                           Equity Interest        General Motors. See “Debt
                        GMAC)
                                                                                                                  Agreements” table for more
                                                                                                                  information.
                                                                                           Trust Preferred
                                                                                                                  $2.5 billion                                 8%
                                                                                           Securities
                        Ally Financial                                                     Trust Preferred                                                                               Redeemable upon
      AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                      the repayment of
                        GMAC)                                                              warrants that          5% of trust preferred amount                 —                         the debenture
                                                                                           are exercised
                                                                                           immediately
                                                                                           Mandatorily
                                                                                           Convertible
                                                                                                                  $1.3 billion                                 9%
                                                                                           Preferred
                                                                                           Stock                                                                                         Converts to
                        Ally Financial
                                                                                           Preferred                                                                                     common equity
      AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                           Stock                                                                                         interest after 7
                        GMAC)
                                                                                           Purchase                                                                                      years
                                                                                                                  5% of preferred amount                       —
                                                                                           Warrants that
                                                                                           are exercised
                                                                                           immediately

                        Ally Financial
                                                                                           Common
      AIFP              Inc. (formerly        12/30/2009               $5.5 billion                               $5.5 billion                                 —                         Perpetual
                                                                                           Equity Interestd
                        GMAC)

      Notes: Numbers may be affected due to rounding.
      a
        Announcement date of CPP Public Term Sheet.
      b
         Announcement date of CPP Private Term Sheet.
      c
        On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
      d
        On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
         from 56% to 74% due to this conversion.

      Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
      Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
      15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
      Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
      Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
      3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
      CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
      Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
      Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
      for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
      Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 9/30/2014.
                                                        DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I OCTOBER 29, 2014                                                     571




TABLE E.3
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 9/30/2014
                                                 Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
CPP   c
                                       $11,994,774,863                        $118,840,736                                      $—              $14,821,635,903                    $26,935,251,502
CDCI                                           30,649,465                         12,576,794                                      —                                  —                     43,226,259
SSFI   d
                                             641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
AGP                                          642,429,968                              402,300                                     —                 3,483,197,045                      4,126,029,313
TALF                                                        —                     13,407,761                                      —                   631,913,241                        645,321,002
PPIP                                                        —                   319,904,451                        922,874,176                      2,645,106,311                      3,887,884,938
UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
AIFP  e
                                          3,949,941,426                      1,665,336,675                                        —                 1,443,774,157                      7,059,052,258
ASSP                                                        —                     14,874,984                                      —                   101,074,947                        115,949,931
Total                                $20,263,515,842                      $2,158,691,053                        $922,874,176                  $25,192,462,388                    $48,537,543,460

Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
    Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.
Sources: Treasury, Transactions Report, 9/30/2014; Treasury, Section 105(a) Report, 10/10/2014; Treasury, Dividends and Interest Report, 10/10/2014; Treasury, response to SIGTARP data call,
10/6/2014.
                                                                                                                                                                                                                                          572
HAMP MODIFICATION STATISTICS
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 9/30/2014
                                                                                             Trials          Trials Converted to                 Permanents
                       Trials Started                         Trials Cancelled                                                                                              Permanents Paid Off                Permanents Active
                                                                                             Active              Permanent                       Redefaulted
                          Annual       Cumulative           Annual       Cumulative          Annual            Annual      Cumulative         Annual     Cumulative          Annual       Cumulative          Annual        Cumulative
 TARP      2009          392,129           392,129          23,720             23,720      344,776             23,633               23,633       129               129                2                 2      23,502            23,502
           2010          275,989           668,118         302,610           326,330         74,893          243,262               266,895    29,015           29,144             233               235      214,014           237,516
           2011          170,075           838,193          16,798           343,128         42,916          185,254               452,149    59,080           88,224             659               894      125,515           363,031
           2012          114,227           952,420            6,062          349,190         36,336          114,745               566,894    58,860         147,084            1,498             2,392        54,388          417,419
           2013           90,938         1,043,358            2,209          351,399         26,642            98,423              665,317    49,413         196,497            3,521             5,913        45,488          462,907
           2014           38,130         1,081,488            1,573          352,972         16,398            46,801              712,118    31,340         227,837            3,803             9,716        11,658          474,565
            Total     1,081,488                            352,972                                           712,118                         227,837                            9,716                        474,565
 GSE       2009          510,491           510,491          24,731             24,731      442,455             43,305               43,305       339               339                3                 3      42,963            42,963
           2010          287,839           798,330         383,448           408,179         77,396          269,450               312,755    27,730           28,069             569               572      241,151           284,114
           2011          138,072           936,402          10,654           418,833         36,391          168,423               481,178    51,287           79,356           1,442             2,014      115,694           399,808
                                                                                                                                                                                                                                          APPENDIX F I HAMP MODIFICATION STATISTICS I OCTOBER 29, 2014




           2012           81,478         1,017,880            4,814          423,647         25,775            87,280              568,458    49,229         128,585            5,271             7,285        32,780          432,588
                                                                                                                                                                                                                        a
           2013           35,719         1,053,599            4,446          428,093         13,551            43,497              611,955    33,990         162,575          10,592            17,877        (1,085)          431,503
           2014           17,607         1,071,206            1,324          429,417           8,385           21,449              633,404    20,240         182,815            7,604           25,481        (6,395)a         425,108
            Total     1,071,206                            429,417                                           633,404                         182,815                          25,481                         425,108
 Total     2009          902,620           902,620          48,451             48,451      787,231             66,938               66,938       468               468                5                 5      66,465            66,465
           2010          563,828         1,466,448         686,058           734,509       152,289           512,712               579,650    56,745           57,213             802               807      455,165           521,630
           2011          308,147         1,774,595          27,452           761,961         79,307          353,677               933,327   110,367         167,580            2,101             2,908      241,209           762,839
           2012          195,705         1,970,300          10,876           772,837         62,111          202,025         1,135,352       108,089         275,669            6,769             9,677        87,168          850,007
           2013          126,657         2,096,957            6,655          779,492         40,193          141,920         1,277,272        83,403         359,072          14,113            23,790         44,403          894,410
           2014           55,737         2,152,694            2,897          782,389         24,783            68,250        1,345,522        51,580         410,652          11,407            35,197           5,263         899,673
           Total     2,152,694                            782,389                                        1,345,522                           410,652                         35,197                         899,673
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; December 31, 2013; and September 30, 2014.
 a
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury, responses to SIGTARP data calls, 7/24/2014, 4/25/2014, 1/23/2014, 10/23/2013, 10/21/2013, 7/19/2013, 2/28/2013, 1/22/2013, 1/20/2012, and 1/21/2011; Treasury, “HAMP 1MP: Program Volumes - Program Type &
 Payor by Tier - September 2014,” accessed 10/21/2014; Fannie Mae, responses to SIGTARP data calls, 7/24/2014, 4/24/2014, 1/23/2014, 10/21/2013; SIGTARP Quarterly Report to Congress, 1/29/2014; SIGTARP Quarterly Report to Congress,
 1/30/2013; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/30/2010.
APPENDIX TABLE F.2
HAMP PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES, ANNUAL, AS OF 8/31/2014
               HAMP Permanent Modifications Started in 2009               HAMP Permanent Modifications Started in 2010               HAMP Permanent Modifications Started in 2011                HAMP Permanent Modifications Started in 2012               HAMP Permanent Modifications Started in 2013              HAMP Permanent Modifications Started in 2014

                        Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta
                       Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications
                                with                                                       with                                                       with                                                       with                                                       with                                                       with
          Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled
  Year of  Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median
Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase

  2014        32,892       28,632    3.0%    1.0%    $862      $94                         0                0       0       0                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2015        32,890       26,414    4.0%    1.0%    $954      $94      298,969      244,528    3.0%     1.0%   $884      $95                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2016        32,882       22,912    4.9%    0.8%   $1,027     $84      298,886      223,919    4.0%     1.0%   $975      $95      229,417      178,107    3.0%     1.0%   $905      $95                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2017        32,861        6,802    4.9%    0.0%   $1,028      $4      298,755      194,330    5.0%     0.8% $1,039      $70      229,278      160,045    4.0%     1.0%   $997      $97      153,074      118,058    3.0%     1.0%    $838     $88                          0       0               0        0                         0      0                0       0

  2018                                                                  298,416       71,871    5.0%     0.1% $1,041       $7      229,026      128,566    4.6%     0.6% $1,041      $52      152,907      104,493    3.7%     0.7%    $898     $58       126,724      104,838    3.0%    1.0%    $802     $83

  2019                                                                                                                             228,631           14    4.6%     0.2% $1,042      $24      152,618            51   3.7%     0.5%    $898     $51       126,524       94,404    3.8%    0.8%    $866     $61        58,939      50,691    3.0%     1.0%   $795      $83

  2020                                                                                                                                                                                        152,299             1   3.7%     0.5%    $899     $31       126,254       42,359    3.8%    0.4%    $879     $29        58,798      46,401    4.0%     1.0%   $877      $86

  2021                                                                                                                                                                                                                                                    125,911           15    3.8%    0.3%    $880     $27        58,637      41,577    4.3%     0.3%   $900      $22

  2022                                                                                                                                                                                                                                                                                                                58,442          17    4.3%     0.3%   $901      $17


Notes:
a
  Analysis of HAMP permanent modifications with scheduled payment increases excludes 68,313 HAMP permanent modifications with incomplete records.

Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                                                                                                                                                                                                                                                             HAMP MODIFICATION STATISTICS I APPENDIX F I OCTOBER 29, 2014
                                                                                                                                                                                                                                                                                                                                                                             573
574              APPENDIX G I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | OCTOBER 29, 2014




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978 (P.L. 95-
      452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 2: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 2: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 2: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.

                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”

                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports and
      5(a)(5)      where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
                   provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of audit                                               Section 1: “The Office of the SIGTARP”
      Section
                   reports and the total dollar value of questioned        Provide statistical tables showing
      5(a)(8)                                                                                                          Section 2: “SIGTARP Recommendations”
                   costs...”
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are still        Section 2: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 2: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 2: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                               PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX H I OCTOBER 29, 2014     575




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and              GAO3
ongoing public audits by the agencies listed below, as of      Ongoing Audits
September 30, 2014. See Appendix I: “Key Oversight Reports     •	 	HAMP, Targeted Issuance: October 2014
and Testimony” for a listing of published reports. Italic      •	 Financial Audit, Targeted Issuance: November 2014
style indicates narrative taken verbatim from the agencies’    •	 TARP Overview, Targeted Issuance: January 2015
responses to SIGTARP’s data call.
•	 	U.S. Department of Treasury Office of Inspector General    FDIC OIG4
    (“Treasury OIG”)                                           Ongoing Audits
•	 Federal Reserve Board Office of Inspector General           •	 None
    (“Federal Reserve OIG”)
•	 Government Accountability Office (“GAO”)                    Endnotes
                                                               1
                                                                 Treasury OIG, response to SIGTARP data call, 10/1/2014.
•	 Federal Deposit Insurance Corporation Office of Inspector   2
                                                                 Federal Reserve OIG, response to SIGTARP data call, 9/25/2014.
    General (“FDIC OIG”)                                       3
                                                                 GAO, response to SIGTARP data call, 9/25/2014.
                                                               4
                                                                 FDIC OIG, response to SIGTARP data call 10/2/2014.

Treasury OIG1
Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
576          APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I OCTOBER 29, 2014




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended September 30, 2014.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances
      effectively; promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial
      systems. Treasury advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved
      governance in financial institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 6/30/2014 – 9/30/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-2-14%20
      Transactions%20Report%20as%20of%209-30-14_INVESTMENT.pdf, accessed 10/2/2014. (released weekly)

      Treasury, Daily TARP Update, 7/1/2014 – 10/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
      -%2010.01.2014.pdf, accessed 10/1/2014.

      Treasury, TARP Monthly 105(a) Report, 7/10/2014 – 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Final%20
      September%202014%20Monthly%20Report%20to%20Congress.pdf, accessed 10/10/2014.

      Treasury, Dividends and Interest Report, 7/10/2014 – 10/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      September%202014%20Dividends%20Interest%20Report.pdf, accessed 10/13/2014. (released monthly)

      Treasury, Making Home Affordable Program Performance Report, 7/10/2014 – 9/5/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/2Q14%20Quarterly%20MHA%20Report%20Final.pdf, accessed 10/20/2014. (released quarterly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 7/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/MSA%20
      Data%20May%202014.pdf, accessed 10/20/2014. (released monthly)


      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION

      GAO is tasked with performing ongoing oversight of TARP’s performance, including:

      •	   evaluating the characteristics of asset purchases and the disposition of assets acquired
      •	   assessing TARP’s efficiency in using the funds
      •	   evaluatiang compliance with applicable laws and regulations
      •	   assessing the efficiency of contracting procedures
      •	   auditing TARP’s annual financial statements and internal controls
      •	   submitting reports to Congress at least every 60 days.


      OVERSIGHT REPORTS

      GAO, “Troubled Asset Relief Program: Government’s Exposure to Ally Financial Lessens as Treasury’s Ownership Share Declines,” GAO-14-698,
      August 5, 2014, www.gao.gov/assets/670/665227.pdf, accessed 10/1/2014.

      GAO, “Treasury Could Better Analyze Data to Improve Oversight of Servicers' Practices,” GAO-15-5, October 6, 2014, www.gao.gov/
      assets/670/666385.pdf, accessed 10/6/2014.
                                                                                           KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I OCTOBER 29, 2014                     577




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise, and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal, or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Treasury Significantly Loosened Executive Pay Limits Resulting in Excessive Pay Limits in Excessive Pay for Top 25 Employees at GM and Ally
(GMAC) When the Companies Were Not Repaying TARP in Full and Taxpayers Were Suffering Billions of Dollars in Losses,” 9/24/2014, www.sigtarp.gov/
Audit%20Reports/SIGTARP_Special_Master_Report.pdf, accessed 10/1/2014.

SIGTARP, “Quarterly Report to Congress,” 7/30/2014, www.sigtarp.gov/Quarterly%20Reports/July_30_2014_Report_to_Congress.pdf, accessed
10/1/2014.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 10/1/2014; GAO, www.gao.gov, accessed 10/1/2014; SIGTARP, www.sigtarp.gov, accessed 10/1/2014; GAO, response to SIGTARP data call,
9/25/2014.
578           APPENDIX J I PEER REVIEW RESULTS I OCTOBER 29, 2014




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
      In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
      its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
      possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
      Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
      that perform audits or attestations in accordance with           General guidelines.
      generally accepted government auditing standards to have an          The Department of Education Office of Inspector
      appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
      peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
      Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
      first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
          The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
      General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
      review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
      control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
      and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
      General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
      September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
      Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations.
      report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at
      in effect for the year ended March 31, 2012, has been            www.SIGTARP.gov, under “Audit and Other Reports.”
      suitably designed and complied with to provide SIGTARP
      with reasonable assurance of performing and reporting in         SIGTARP’s Peer Review of the Tennessee
      conformity with applicable professional standards in all         Valley Authority Office of the Inspector
      material respects.”                                              General Audit Organization
          The report is available on SIGTARP’s website at              On March 31, 2014, SIGTARP’s Audit and Evaluation
      www.SIGTARP.gov, under “Audit and Other Reports.”                Division completed an external quality control review of
                                                                       the audit operations of the Tennessee Valley Authority’s
                                                                       Office of the Inspector General (“TVA OIG”) and issued a
                                                                       final report. The TVA OIG received a peer review rating of
                                                                       pass – the highest rating possible. There are no outstanding
                                                                       recommendations.
                                                                           The report is available on the TVA OIG website at
                                                                       www.oig.tva.gov/peer-review.html.
   ORGANIZATIONAL CHART
                                                                                                                     Special Inspector General
                                                                                                                        Christy L. Romero
                                                                                                                                                                                                                    EEO Program
                                                                                                                                                                                                                      Manager
                                                                                                                                                                                                               Raymond Campbell
                                                                                                                                 Deputy Special
                                                                                                                               Inspector General
                                                                                                                                  Peggy Ellen




                                                                           Senior Policy Advisor             Chief of Staff                                 General Counsel
                                                                                Brian Sano                       Vacant                                          Vacant




                                                                                                         Deputy Chief of Staff                          Deputy General Counsel                       Director of                     Director of
                                                                                                                                                                                                   Communications                 Legislative Affairs
                                                                                                            Charles Jones                                      Lori Wagner
                                                                                                                                                                                                     Troy Gravitt                 Joseph Cwiklinski




                                     Deputy SIG – Investigations                                                                  Deputy SIG –                                                                            Deputy SIG – Operations
                                                                                                                              Audit and Evaluations
                                               Scott Rebein                                                                                                                                                                         Cathy Alix
                                                                                                                                 Bruce Gimbel




                                        Assistant Deputy SIG –                                                            Assistant Deputy SIG –
                                            Investigations                                                                 Audit and Evaluations
                                          Charles Gregorski                                                                     Jenniffer Wilson




         Chief                 Investigative                  HQ Operations
     Investigative              Operations
       Counsel                                                                                                                                     Director of Policy &           ADSIG – Support               ADSIG – CFO                      ADSIG – CIO   ADSIG – HR
                                                                 Hotline                                                                              Administration                 Services
    Kevin Gerrity                                                                                                                                                                                              Edward Thomas                 Sangeeta Saraf    Sally Ruble
                                                                                                                                                      Judith Grady                 Lynn Perkoski

                                                          Cyber Forensics
    Assistant Chief
     Investigative
       Counsel                                                                                        Director                      Director                      Director
      Rae Oliver                                                                                   Leslye Burgess                 Craig Meklir                     Vacant


     Investigative
       Counsel                                                                               Auditors & Analysts              Auditors & Analysts           Auditors & Analysts
                                                                                                                                                                                                                                                                             ORGANIZATIONAL CHART I APPENDIX K I OCTOBER 29, 2014




Note: SIGTARP Organizational chart as of 10/29/2014.
                                                                                                                                                                                                                                                                             579
580           APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014                                                                         580




      CORRESPONDENCE
      This appendix provides a copy of the following correspondence:

      CORRESPONDENCE
      Date            From                To                   Regarding
      8/8/2014        SIGTARP             Treasury             MHA Outreach and Borrower Intake Project Recommendation
      8/27/2014       Treasury            SIGTARP              Response to SIGTARP Draft Interim Audit Letter
      9/2/2014        SIGTARP             Treasury             Audit Letter – Results of Treasury’s Use of Capital Surveys
      9/10/2014       SIGTARP             Treasury             HAMP Recommendation
      9/21/2014       Treasury            SIGTARP              Response to SIGTARP Draft Audit Report
      10/15/2014      Treasury            SIGTARP              Response to MHA Outreach and Borrower Intake Project Recommendation
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   581
582   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   583
584   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   585
586   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   587
588   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   589
590   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
CORRESPONDENCE I APPENDIX L I OCTOBER 29, 2014   591
592   APPENDIX L I CORRESPONDENCE I OCTOBER 29, 2014
SIGTARP
SIG-QR-14-04

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
